INDEX TO APPENDICES
Lower Court King Et al vs. Whitmer Et al, Case No. 20-cv-13134, US
District Court, Eastern District of Michigan, Exhibits 1-43, PgID 9581831)
Page No.
1.
Civil Docket For Case 20-cv-13134
1-12
2.
Exhibit 1 R. 6 Amended Complaint
13-97
3.
Exhibit 2 R. 6-1 Redacted Declaration
98-105
4.
Exhibit 3 R 6-2 Ballot Making Devices (BMD) Cannot Assure Will
of Voters 28 pages
106-133
5
Exhibit 4 R 6-3 Affidavits including Abbie Helminen, Andrew
Mill, Anna Pennala, Etc. 234 pages
134-367
6.
Exhibit 5 R. 6-4 Constantino v. City of Detroit
368-444
7.
Exhibit 6 R. 6-5 Mellissa Carona
445-447
8.
Exhibit 7 R. 6-6 Jessica Connard
448-451
9.
Exhibit 8 R. 6-7 Matt Ciantar
452-454
10. Exhibit 9 R. 6-8 Dominion Voting System Contract 455-615
11. Exhibit 10 R. 6-9 Texas-Preliminary Statement, Dominion Voting
System
616-618
12 Exhibit 11 R. 6-10 Kayla Toma
619-625
13. Exhibit 12 R. 6-11 Monica Palmer
626-631
14 Exhibit 13 R. 6-12 William Hartmann
626-631
15 Exhibit 14 R. 6-13 Patrick Colbeck
637-643
16 Exhibit 15 R. 6-14 Patrick Colbeck
644-645
17 Exhibit 16 R 6-15 Carlos Malony, Member of Congress 646-647
18 Exhibit 17 R. 6-16 US Senators Letter
648-662
19 Exhibit 18 R. 6-17 Ann Cardozo
663-667
20 Exhibit 19 R. 6-18 Cybersecurity Advisory, IRAN
668-677
21 Exhibit 20 R. 6-19 Joseph Oltrann
678-683
22 Exhibit 21 R. 6-20 Marian Sheridan
684-685
23 Exhibit 22 R. 6-21 Analysis of Surveys Regarding Absentee Ballots
Across Several States
686-705
24 Exhibit 23 R. 6-22 Statistical Voting Analysis in the Michigan 2020
Presidential Election
706-713
25 Exhibit 24 R. 6-23 Matt Braynard on Twitter
714
26 Exhibit 25 R. 6-24 Russel James Ramsland, Jr.
715-722
27 Exhibit 26 R. 6-25 Electronic Intelligence Analyst
723-739
i

28 Exhibit 27 R. 6-26 Ronald Watkins
740-746
29 Exhibit 28 R. 6-27 Harri Hursti
747-803
30 Exhibit 29 R. 6-28 Electronic J. Alex Halderman
804-913
31 Exhibit 30 R. 6-29 Michigan 2020 Voter Analysis
report, 11-17-20
914-970
32 Exhibit 31 R. 6-30 Redacted Declaration
971-974
33. Exhibit 32 R. 7 Motion for Temporary Restraining Order 975-992
34. Exhibit 33 R. 49 Reply to response Re: Emergency Motion for
Temporary Restraining Order
993-1025
35. Exhibit 34 R. 49-1 Response to Stephen Ansolabehere’s Comments
Regarding Absentee Ballots Across
Several States
1026-1029
35. Exhibit 35 R. 49-2 Expert report of Eric Quinnell, PhD 1030-1035
36. Exhibit 36 R. 49-3 Expert Report of Russell J.
1036-1068
37. Exhibit 37 R. 49-4
Redacted Affidavit
1069-1077
38. Exhibit 38 R. 57 Supplemental Brief Re: Motion for Temporary
Restraining Order.
1078-1082
39. Exhibit 39 R. 57-1 Freehan v. Wisconsin
Elections Comm
1083-1092
40. Exhibit 40 R. 57-2 Amended Complaint Freehan vs. Wisconsin
Elections Committee
1093-1143
41 Exhibit 41 R. 60 Response to Emergency Motion for Temporary
Restaining Order
144-1146
42. Exhibit 42 R. 62, OPINION AND ORDER DENYING
PLAINTIFFS’ “EMERGENCY MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF” PgID 32953330
1147-1182
43. Exhibit 42, R. 64 Notice of Appeal
1183

ii

12/10/2020

CMIECF - U.S. District Court:mied
000001

APPEAL

U.S. District Court
Eastern District of Michigan (Detroit)
CIVIL DOCKET FOR CASE#: 2:20-cv-13134-LVP-RSW
Date Filed: 11/25/2020
Jury Demand: Plaintiff
Nature of Suit: 950 Constitutional - State
Statute
Jurisdiction: Federal Question

King et al v. Whitmer et al
Assigned to: District Judge Linda V. P arker
Referred to: Magistrate Judge R. Steven Whalen
Cause: No cause code entered
Plaintiff
Timothy King

represented by Stefanie Lynn Junttila
Law Office of Stefanie L. Lambert PLLC
500 Griswold Steeet, Ste 2340
Detroit, MI 48301
248-270-6689
Email: attorneystefanielambert@gmail.com

ATTORNEY TO BE NOTICED

Gregory J. Rohl
The Law Offices of Gregory J. Rohl, P.C.
41850 W. 11 Mile Road
Suite 110
Novi, MI 48375
248-380-9404
Fax: 248-380-5362
Email: gregoryrohl@yahoo.com

ATTORNEY TO BE NOTICED

Plaintiff
Marian Sheridan

represented by Stefanie Lynn Junttila
(See above for address)

ATTORNEY TO BE NOTICED
Gregory J. Rohl
(See above for address)

ATTORNEY TO BE NOTICED
Plaintiff
John Haggard

represented by Stefanie Lynn Junttila
(See above for address)

ATTORNEY TO BE NOTICED
Gregory J. Rohl
(See above for address)

ATTORNEY TO BE NOTICED
Plaintiff
Charles Ritchard
https://ecf.mied.uscourts.govlcgi-bin/DktRpt.pl?70068815508271-L_ 1_0-1

represented by Stefanie Lynn Junttila
1/11

000002

000003

000004

000005

000006

000007

000008

000009

000010

000011

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.872 Filed 11/29/20 Page 1 of 86
000012

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN

TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER, and DAREN WADE
RUBINGH,
v.

CASE NO. 20-cv-13134

Plaintiffs.

GRETCHEN WHITMER, in her official
capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her
official capacity as Michigan Secretary of
State and the Michigan BOARD OF STATE
CANVASSERS.
Defendants.

FIRST AMENDED COMPLAINT FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF

1

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.873 Filed 11/29/20 Page 2 of 86
000013

NATURE OF THE ACTION
1.

This civil action brings to light a massive election fraud, multiple violations of the

Michigan Election Code, see, e.g., MCL §§ 168.730-738, in addition to the Election and Electors
Clauses and Equal Protection Clause of the U.S. Constitution. These violations occurred during
the 2020 General Election throughout the State of Michigan, as set forth in the affidavits of
dozens of eyewitnesses and the statistical anomalies and mathematical impossibilities detailed in
the affidavits of expert witnesses.
2.

The scheme and artifice to defraud was for the purpose of illegally and

fraudulently manipulating the vote count to elect Joe Biden as President of the United States.
The fraud was executed through a wide-ranging interstate - and international - collaboration
involving multiple public and private actors, 1 but at bottom it was a 21st Century adaptation of
19th Century “ballot-stuffing” for the Internet age, amplified and rendered virtually invisible by
computer software created and run by domestic and foreign actors for that very purpose.
Mathematical and statistical anomalies rising to the level of impossibilities, as shown by
affidavits of multiple witnesses, documentation, and expert testimony evince this scheme across
the state of Michigan. This Complaint details an especially egregious range of conduct in Wayne
County and the City of Detroit, though this conduct occurred throughout the State at the direction
of Michigan state election officials in collaboration with Democratic election challengers and
activists.
3.

The multifaceted schemes and artifices implemented by Defendants and their

1

The same pattern of election fraud and voter fraud writ large occurred in all the swing states
with only minor variations in Michigan, Pennsylvania, Arizona and Wisconsin. See Ex. 101,
William M. Briggs, Ph.D. “An Analysis Regarding Absentee Ballots Across Several States”
(Nov. 23, 2020) (“Dr. Briggs Report”).

2

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.874 Filed 11/29/20 Page 3 of 86
000014

collaborators to defraud resulted in the unlawful counting, or fabrication, of hundreds of
thousands of illegal, ineligible, duplicate or purely fictitious ballots in the State of Michigan, that
collectively add up to multiples of Biden’s purported lead in the State of 154,188 votes. While
this Complaint, and the eyewitness and expert testimony incorporated herein, identify with
specificity sufficient ballots required to set aside the 2020 General Election results, the entire
process is so riddled with fraud, illegality, and statistical impossibility that this Court, and
Michigan’s voters, courts, and legislators, cannot rely on, or certify, any numbers resulting from
this election. Accordingly, this Court must set aside the results of the 2020 General Election,
and grant the declaratory and injunctive relief requested herein.
Dominion Voting Systems Fraud and Manipulation
4.

The fraud begins with the election software and hardware from Dominion Voting

Systems Corporation (“Dominion”) used by the Michigan Board of State Canvassers. The
Dominion systems derive from the software designed by Smartmatic Corporation, which became
Sequoia in the United States.
5.

Smartmatic and Dominion were founded by foreign oligarchs and dictators to

ensure computerized ballot-stuffing and vote manipulation to whatever level was needed to make
certain Venezuelan dictator Hugo Chavez never lost another election. See Ex. 1, Redacted
Declaration of Dominion Venezuela Whistleblower (“Dominion Whistleblower Report”).
Notably, Chavez “won” every election thereafter.
6.

As set forth in the Dominion Whistleblower Report, the Smartmatic software was

contrived through a criminal conspiracy to manipulate Venezuelan elections in favor of dictator
Hugo Chavez:
Importantly, I was a direct witness to the creation and operation of an electronic
voting system in a conspiracy between a company known as Smartmatic and the

3

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.875 Filed 11/29/20 Page 4 of 86
000015

leaders of conspiracy with the Venezuelan government. This conspiracy
specifically involved President Hugo Chavez Frias, the person in charge of the
National Electoral Council named Jorge Rodriguez, and principals,
representatives, and personnel from Smartmatic. The purpose of this conspiracy
was to create and operate a voting system that could change the votes in elections
from votes against persons running the Venezuelan government to votes in their
favor in order to maintain control of the government. In mid-February of 2009,
there was a national referendum to change the Constitution of Venezuela to end
term limits for elected officials, including the President of Venezuela. The
referendum passed. This permitted Hugo Chavez to be re-elected an unlimited
number of times. . . .
Smartmatic’s electoral technology was called “Sistema de Gestión Electoral” (the
“Electoral Management System”). Smartmatic was a pioneer in this area of
computing systems. Their system provided for transmission of voting data over
the internet to a computerized central tabulating center. The voting machines
themselves had a digital display, fingerprint recognition feature to identify the
voter, and printed out the voter’s ballot. The voter’s thumbprint was linked to a
computerized record of that voter’s identity. Smartmatic created and operated the
entire system. Id. ¶¶ 10 & 14.
7.

A core requirement of the Smartmatic software design ultimately adopted by

Dominion for Michigan’s elections was the software’s ability to hide its manipulation of votes
from any audit. As the whistleblower explains:
Chavez was most insistent that Smartmatic design the system in a way that the
system could change the vote of each voter without being detected. He wanted the
software itself to function in such a manner that if the voter were to place their
thumb print or fingerprint on a scanner, then the thumbprint would be tied to a
record of the voter’s name and identity as having voted, but that voter would not
be tracked to the changed vote. He made it clear that the system would have to be
setup to not leave any evidence of the changed vote for a specific voter and that
there would be no evidence to show and nothing to contradict that the name or the
fingerprint or thumb print was going with a changed vote. Smartmatic agreed to
create such a system and produced the software and hardware that accomplished
that result for President Chavez. Id. ¶15.
8.

The design and features of the Dominion software do not permit a simple audit to

reveal its misallocation, redistribution, or deletion of votes. First, the system's central
accumulator does not include a protected real-time audit log that maintains the date and time
stamps of all significant election events. Key components of the system utilize unprotected logs.

4

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.876 Filed 11/29/20 Page 5 of 86
000016

Essentially this allows an unauthorized user the opportunity to arbitrarily add, modify, or remove
log entries, causing the machine to log election events that do not reflect actual voting
tabulations—or more specifically, do not reflect the actual votes of or the will of the people. See
Ex. 107, August 24, 2020 Declaration of Harri Hursti, ¶¶45-48.
9.

Indeed, under the professional standards within the industry in auditing and

forensic analysis, when a log is unprotected, and can be altered, it can no longer serve the
purpose of an audit log. There is incontrovertible physical evidence that the standards of
physical security of the voting machines and the software were breached, and machines were
connected to the internet in violation of professional standards, which violates federal election
law on the preservation of evidence.
10.

In deciding to award Dominion a $25 million, ten-year contract (to a Dominion

project team led by Kelly Garrett, former Deputy Director of the Michigan Democratic Party),
and then certifying Dominion software, Michigan officials disregarded all the concerns that
caused Dominion software to be rejected by the Texas Board of elections in 2020 because it was
deemed vulnerable to undetected and non-auditable manipulation. 2 An industry expert, Dr.
Andrew Appel, Princeton Professor of Computer Science and Election Security Expert has
recently observed, with reference to Dominion Voting machines: "I figured out how to make a
slightly different computer program that just before the polls were closed, it switches some votes
around from one candidate to another. I wrote that computer program into a memory chip and
now to hack a voting machine you just need 7 minutes alone with it a screwdriver." 3

2

See Ex. 8, State of Michigan Enterprise Procurement, Dept. of Technology, Management and
Budget Contract No. 071B7700117, between State of Michigan and Dominion Voting Systems
(“Dominion Michigan Contract”). See also Ex. 9 (Texas Secretary of State decision).
3

Andrew W. Appel, et al., “Ballot Marking Devices (BMDs) Cannot Assure the Will of the
Voters” at (Dec. 27, 2019), attached hereto as Exhibit 2 (“Appel Study”).
5

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.877 Filed 11/29/20 Page 6 of 86
000017

11.

Plaintiff’s expert witness, Russell James Ramsland, Jr. (Exh. 101, “Ramsland

Affidavit”), has concluded that Dominion alone is responsible for the injection, or fabrication, of
289,866 illegal votes in Michigan, that must be disregarded. This is almost twice the number of
Mr. Biden’s purported lead in the Michigan vote (without consideration of the additional illegal,
ineligible, duplicate or fictitious votes due to the unlawful conduct outlined below), and thus by
itself is grounds to set aside the 2020 General Election and grant the declaratory and injunctive
relief requested herein.
12.

In addition to the Dominion computer fraud, this Complaint identifies several

additional categories of “traditional” voting fraud and Michigan Election Code violations,
supplemented by healthy doses of harassment, intimidation, discrimination, abuse and even
physical removal of Republican poll challengers to eliminate any semblance of transparency,
objectivity or fairness from the vote counting process. While this illegal conduct by election
workers and state, county and city employees in concert with Dominion, even if considered in
isolation, the following three categories of systematic violations of the Michigan Election Code
cast significant doubt on the results of the election and mandate this Court to set aside the 2020
General Election and grant the declaratory and injunctive relief requested herein.
Fact Witness Testimony of Voting Fraud & Other Illegal Conduct
13.

There were three broad categories of illegal conduct by election workers in

collaboration with other employee state, county and/or city employees and Democratic poll
watchers and activists. First, to facilitate and cover-up the voting fraud and counting of
fraudulent, illegal or ineligible voters, election workers:
A.

Denied Republican election challengers access to the TCF Center, where all
Wayne County, Michigan ballots were processed and counted;

B.

Denied Republican poll watchers at the TCF Center meaningful access to view
ballot handling, processing, or counting and locked credentialed challengers out

6

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.878 Filed 11/29/20 Page 7 of 86
000018

of the counting room so they could not observe the process, during which time
tens of thousands of ballots were processed;
C.

Engaged in a systematic pattern of harassment, intimidation and even physical
removal of Republican election challengers or locking them out of the TCF
Center;

D.

Systematically discriminated against Republican poll watchers and favored
Democratic poll watchers;

E.

Ignored or refused to record Republican challenges to the violations outlined
herein;

F.

Refused to permit Republican poll challengers to observe ballot duplication and
other instances where they allowed ballots to be duplicated by hand without
allowing poll challengers to check if the duplication was accurate 4;

G.

Unlawfully coached voters to vote for Joe Biden and to vote a straight Democrat
ballot, including by going over to the voting booths with voters in order to watch
them vote and coach them for whom to vote;

H.

As a result of the above, Democratic election challengers outnumbered
Republicans by 2:1 or 3:1 (or sometimes 2:0 at voting machines); and

I.

Collaborated with Michigan State, Wayne County and/or City of Detroit
employees (including police) in the above unlawful and discriminatory behavior.

14.

Second, election workers illegally forged, added, removed or otherwise altered

information on ballots, the Qualified Voter File (QVF) and Other Voting Records, including:
A.

Fraudulently adding “tens of thousands” of new ballots and/or new voters to QVF
in two separate batches on November 4, 2020, all or nearly all of which were
votes for Joe Biden;

B.

Forging voter information and fraudulently adding new voters to the QVF Voters,
in particular, e.g., when a voter’s name could not be found, the election worker
assigned the ballot to a random name already in the QVF to a person who had not
voted and recorded these new voters as having a birthdate of 1/1/1900;

C.

Changing dates on absentee ballots received after 8:00 PM Election Day deadline

On October 29, 2020 the State of Michigan in the Court of Claims, Detroit, Hon. Cynthia D.
Stephens entered a Stipulated Order that related to guidance for Observers, which made clear
that Observers were to be in closer proximity to election workers to have a challenge heard.
Otherwise they should remain 6 feet apart. (See Case No. Case No. 20-000211-MZ)
4

7

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.879 Filed 11/29/20 Page 8 of 86
000019

to indicate that such ballots were received before the deadline;
D.

Changing Votes for Trump and other Republican candidates; and

E.

Added votes to “undervote” ballots and removing votes from “Over-Votes”.

15.

Third, election workers committed several additional categories of violations of

the Michigan Election Code to enable them to accept and count other illegal, ineligible or
duplicate ballots, or reject Trump or Republican ballots, including:
A.

Permitting illegal double voting by persons that had voted by absentee ballot and
in person;

B.

Counting ineligible ballots – and in many cases – multiple times;

C.

Counting ballots without signatures, or without attempting to match signatures,
and ballots without postmarks, pursuant to direct instructions from Defendants;

D.

Counting “spoiled” ballots;

E.

Systematic violations of ballot secrecy requirements;

F.

Unsecured ballots arrived at the TCF Center loading garage, not in sealed ballot
boxes, without any chain of custody, and without envelopes, after the 8:00 PM
Election Day deadline, in particular, the tens of thousands of ballots that arrived
on November 4, 2020; and

G.

Accepting and counting ballots from deceased voters.

Expert Witness Testimony Regarding Voting Fraud
16.

In addition to the above fact witnesses, this Complaint presents expert witness

testimony demonstrating that several hundred thousand illegal, ineligible, duplicate or purely
fictitious votes must be thrown out, in particular:
A. A report from Russell Ramsland, Jr. showing the “physical impossibility” of nearly
385,000 votes injected by four precincts/township on November 4, 2020, that resulted
in the counting of nearly 290,000 more ballots processed than available capacity
(which is based on statistical analysis that is independent of his analysis of
Dominion’s flaws), a result which he determined to be “physically impossible” (see
Ex. 104 ¶14);
B. A report from Dr. Louis Bouchard finding to be “statistically impossible” the widely
reported “jump” in Biden’s vote tally of 141,257 votes during a single time interval

8

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.880 Filed 11/29/20 Page 9 of 86
000020

(11:31:48 on November 4), see Ex. 110 at 28);
C. A report from Dr. William Briggs, showing that there were approximately 60,000
absentee ballots listed as “unreturned” by voters that either never requested them, or
that requested and returned their ballots. (See Ex. 101);
D. A report from Dr. Eric Quinell analyzing the anomalous turnout figures in Wayne and
Oakland Counties showing that Biden gained nearly 100% and frequently more than
100% of all “new” voters in certain townships/precincts over 2016, and thus indicated
that nearly 87,000 anomalous and likely fraudulent votes came from these precincts.
(See Ex. 102);
E. A report from Dr. Stanley Young that looked at the entire State of Michigan and
identified nine “outlier” counties that had both significantly increased turnout in 2020
vs. 2016 almost all of which went to Biden totaling over 190,000 suspect “excess”
Biden votes (whereas turnout in Michigan’s 74 other counties was flat). (See Ex.
110);
F. A report from Robert Wilgus analyzing the absentee ballot data that identified a
number of significant anomalies, in particular, 224,525 absentee ballot applications
that were both sent and returned on the same day, 288,783 absentee ballots that were
sent and returned on the same day, and 78,312 that had the same date for all (i.e., the
absentee application was sent/returned on same day as the absentee ballot itself was
sent/returned), as well as an additional 217,271 ballots for which there was no return
date (i.e., consistent with eyewitness testimony described in Section II below). (See
Ex. 110);
G. A report from Thomas Davis showing that in 2020 for larger Michigan counties like
Monroe and Oakland Counties, that not only was there a higher percentage of
Democrat than Republican absentee voters in every single one of hundreds of
precinct, but that the Democrat advantage (i.e., the difference in the percentage of
Democrat vs. Republican absentee voter) was consistent (+25%-30%) and the
differences were highly correlated, whereas in 2016 the differences were
uncorrelated. (See Ex. 110); and
H. A report by an affiant whose name must be redacted to protect his safety who
concludes that “the results of the analysis and the pattern seen in the included graph
strongly suggest a systemic, system-wide algorithm was enacted by an outside agent,
causing the results of Michigan’s vote tallies to be inflated by somewhere between
three and five point six percentage points. Statistical estimating yields that in
Michigan, the best estimate of the number of impacted votes is 162,400. However, a
95% confidence interval calculation yields that as many as 276,080 votes may have
been impacted.” (See Ex. 111 ¶13).
17.

As explained and demonstrated in the accompanying redacted declaration of a

former electronic intelligence analyst with 305th Military Intelligence with experience gathering

9

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.881 Filed 11/29/20 Page 10 of 86
000021

SAM missile system electronic intelligence, the Dominion software was accessed by agents
acting on behalf of China and Iran in order to monitor and manipulate elections, including the
most recent US general election in 2020. (See Attached hereto as Ex. 105, copy of redacted
witness affidavit, November 23, 2020).
18.

These and other “irregularities” provide this Court grounds to set aside the results

of the 2020 General Election and provide the declaratory and injunctive relief requested herein.
JURISDICTION AND VENUE
19.

This Court has subject matter under 28 U.S.C. § 1331 which provides, “The

district courts shall have original jurisdiction of all civil actions arising under the Constitution,
laws, or treaties of the United States.”
20.

This Court also has subject matter jurisdiction under 28 U.S.C. § 1343 because

this action involves a federal election for President of the United States. “A significant departure
from the legislative scheme for appointing Presidential electors presents a federal constitutional
question.” Bush v. Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J., concurring); Smiley v. Holm,
285 U.S. 355, 365 (1932).
21.

The jurisdiction of the Court to grant declaratory relief is conferred by 28 U.S.C.

§§ 2201 and 2202 and by Rule 57, Fed. R. Civ. P.
22.

This Court has jurisdiction over the related Michigan constitutional claims and

state-law claims under 28 U.S.C. § 1367. Venue is proper because a substantial part of the
events or omissions giving rise to the claim occurred in the Eastern District. 28 U.S.C. § 1391(b)
& (c).
23.

Because the United States Constitution reserves for state legislatures the power to

set the time, place, and manner of holding elections for Congress and the President, state

10

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.882 Filed 11/29/20 Page 11 of 86
000022

executive officers, including but not limited to Secretary Benson, have no authority to
unilaterally exercise that power, much less flout existing legislation.
THE PARTIES
24.

Each of the following Plaintiffs are registered Michigan voters and nominees of

the Republican Party to be a Presidential Elector on behalf of the State of Michigan: Timothy
King, a resident of Washtenaw County, Michigan; Marian Ellen Sheridan, a resident of Oakland
County, Michigan; and, John Earl Haggard, a resident of Charlevoix, Michigan;
25.

Each of these Plaintiffs has standing to bring this action as voters and as

candidates for the office of Elector under MCL §§ 168.42 & 168.43 (election procedures for
Michigan electors). As such, Presidential Electors “have a cognizable interest in ensuring that
the final vote tally reflects the legally valid votes cast,” as “[a]n inaccurate vote tally is a
concrete and particularized injury to candidates such as the Electors.” Carson v. Simon, 978
F.3d 1051, 1057 (8th Cir. 2020) (affirming that Presidential Electors have Article III and
prudential standing to challenge actions of Secretary of State in implementing or modifying State
election laws); see also McPherson v. Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty.
Canvassing Bd., 531 U.S. 70, 76 (2000) (per curiam). Each brings this action to set aside and
decertify the election results for the Office of President of the United States that were certified by
the Michigan Secretary of State on November 23, 2020. The certified results showed a plurality
of 154,188 votes in favor of former Vice-President Joe Biden over President Trump.
26.

Plaintiff James Ritchard is a registered voter residing in Oceana County. He is

the Republican Party Chairman of Oceana County.
27.

Plaintiff James David Hooper is a registered voter residing in Wayne County. He

is the Republican Party Chairman for the Wayne County Eleventh District.
28.

Plaintiff Daren Wade Ribingh is a registered voter residing in Antrim County. He

11

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.883 Filed 11/29/20 Page 12 of 86
000023

is the Republican Party Chairman of Antrim County.
29.

Defendant Gretchen Whitmer (Governor of Michigan) is named herein in her

official capacity as Governor of the State of Michigan.
30.

Defendant Jocelyn Benson (“Secretary Benson”) is named as a defendant in her

official capacity as Michigan’s Secretary of State. Jocelyn Benson is the “chief elections
officer” responsible for overseeing the conduct of Michigan elections. MCL § 168.21 (“The
secretary of state shall be the chief election officer of the state and shall have supervisory
control over local election officials in the performance of their duties under the provisions of
this act.”); MCL § 168.31(1)(a) (the “Secretary of State shall … issue instructions and
promulgate rules … for the conduct of elections and registrations in accordance with the laws of
this state”). Local election officials must follow Secretary Benson’s instructions regarding the
conduct of elections. Michigan law provides that Secretary Benson “[a]dvise and direct local
election officials as to the proper methods of conducting elections.” MCL § 168.31(1)(b). See
also Hare v. Berrien Co Bd. of Election, 129 N.W.2d 864 (Mich. 1964); Davis v. Secretary of
State, 2020 Mich. App. LEXIS 6128, at *9 (Mich. Ct. App. Sep. 16, 2020). Secretary Benson is
responsible for assuring Michigan’s local election officials conduct elections in a fair, just, and
lawful manner. See MCL 168.21; 168.31; 168.32. See also League of Women Voters of
Michigan v. Secretary of State, 2020 Mich. App. LEXIS 709, *3 (Mich. Ct. App. Jan. 27,
2020); Citizens Protecting Michigan's Constitution v. Secretary of State, 922 N.W.2d 404
(Mich. Ct. App. 2018), aff’d 921 N.W.2d 247 (Mich. 2018); Fitzpatrick v. Secretary of State,
440 N.W.2d 45 (Mich. Ct. App. 1989).
31.

Defendant Michigan Board of State Canvassers is “responsible for approv[ing]

voting equipment for use in the state, certify[ing] the result of elections held statewide ….”

12

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.884 Filed 11/29/20 Page 13 of 86
000024

Michigan Election Officials’ Manual, p. 4. See also MCL 168.841, et seq. On November 23,
2020, the Board of State Canvassers certified the results of the 2020 election finding that Joe
Biden had received 154,188 more votes than President Donald Trump.
STATEMENT OF FACTS
32.

Plaintiffs bring this action under 42 U.S.C. §§ 1983 and 1988, and under MCL

168.861, to remedy deprivations of rights, privileges, or immunities secured by the Constitution
and laws of the United States and to contest the election results, and the corollary under the
Michigan Constitution.
33.

The United States Constitution sets forth the authority to regulate federal

elections. With respect to congressional elections, the Constitution provides.
34.

The Times, Places and Manner of holding Elections for Senators and

Representatives, shall be prescribed in each State by the Legislature thereof; but the Congress
may at any time by Law make or alter such Regulations, except as to the Places of choosing
Senators. U.S. CONST. art. I, § 4 (“Elections Clause”).
35.

With respect to the appointment of presidential electors, the Constitution

provides: Each State shall appoint, in such Manner as the Legislature thereof may direct, a
Number of Electors, equal to the whole Number of Senators and Representatives to which the
State may be entitled in the Congress: but no Senator or Representative, or Person holding an
Office of Trust or Profit under the United States, shall be appointed an Elector. U.S. CONST.
art. II, § 1 (“Electors Clause”). Under the Michigan Election Code, the Electors of the President
and Vice President for the State of Michigan are elected by each political party at their state
convention in each Presidential election year. See MCL §§ 168.42 & 168.43.
36.

Neither Defendant is a “Legislature” as required under the Elections Clause or

13

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.885 Filed 11/29/20 Page 14 of 86
000025

Electors Clause. The Legislature is “‘the representative body which ma[kes] the laws of the
people.’” Smiley, 285 U.S. 365. Regulations of congressional and presidential elections, thus,
“must be in accordance with the method which the state has prescribed for legislative
enactments.” Id. at 367; see also Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n,
576 U.S. 787, 135 S. Ct. 2652, 2668 (U.S. 2015).
37.

While the Elections Clause "was not adopted to diminish a State's authority to

determine its own lawmaking processes," Ariz. State Legislature, 135 S. Ct. at 2677, it does
hold states accountable to their chosen processes when it comes to regulating federal
elections, id. at 2668. "A significant departure from the legislative scheme for appointing
Presidential electors presents a federal constitutional question." Bush, 531 U.S. at 113
(Rehnquist, C.J., concurring); Smiley, 285 U.S. at 365.
38.

Plaintiffs bring this action to vindicate their constitutional rights to a free and fair

election ensuring the accuracy and integrity of the process pursuant to the Michigan Constitution,
art. 2, sec. 4, par. 1(h), which states all Michigan citizens have:
The right to have the results of statewide elections audited, in such a manner as
prescribed by law, to ensure the accuracy and integrity of elections.
39.

The Mich. Const., art. 2, sec. 4, further states, “All rights set forth in this

subsection shall be self-executing. This subsection shall be liberally construed in favor of voters'
rights in order to effectuate its purposes.”
40.

Based upon all the allegations of fraud, statutory violations, and other misconduct,

as stated herein and in the attached affidavits, it is necessary to enjoin the certification of the
election results pending a full investigation and court hearing, and to order an independent audit
of the November 3, 2020 election to ensure the accuracy and integrity of the election.

14

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.886 Filed 11/29/20 Page 15 of 86
000026

I.

LEGAL BACKGROUND: RELEVANT PROVISIONS OF THE MICHIGAN
ELECTION CODE AND ELECTION CANVASSING PROCEDURES.
A.

Michigan law requires Secretary Benson and local election officials to
provide designated challengers a meaningful opportunity to observe the
conduct of elections.

41.

Challengers representing a political party, candidate, or organization interested in

the outcome of the election provide a critical role in protecting the integrity of elections including
the prevention of voter fraud and other conduct (whether maliciously undertaken or by
incompetence) that could affect the conduct of the election. See MCL § 168.730-738.
42.

Michigan requires Secretary of State Benson, local election authorities, and state

and county canvassing boards to provide challengers the opportunity to meaningfully participate
in, and oversee, the conduct of Michigan elections and the counting of ballots.
43.

Michigan’s election code provides that challengers shall have the following rights

and responsibilities:
a.

An election challenger shall be provided a space within a polling place where
they can observe the election procedure and each person applying to vote.
MCL § 168.733(1).

b.

An election challenger must be allowed opportunity to inspect poll books as
ballots are issued to electors and witness the electors’ names being entered in
the poll book. MCL § 168.733(1)(a).

c.

An election Challenger must be allowed to observe the manner in which the
duties of the election inspectors are being performed. MCL § 168.733(1)(b).

d.

An election challenger is authorized to challenge the voting rights of a person
who the challenger has good reason to believe is not a registered elector. MCL
§ 168.733(1)(c).

e.

An election challenger is authorized to challenge an election procedure that is
not being properly performed. MCL § 168.733(1)(d).

f.

An election challenger may bring to an election inspector’s attention any of the
following: (1) improper handling of a ballot by an elector or election
inspector; (2) a violation of a regulation made by the board of election
inspectors with regard to the time in which an elector may remain in the

15

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.887 Filed 11/29/20 Page 16 of 86
000027

polling place; (3) campaigning and fundraising being performed by an election
inspector or other person covered by MCL§ 168.744; and/or (4) any other
violation of election law or other prescribed election procedure. MCL
§ 168.733(1)(e).
g.

An election challenger may remain present during the canvass of votes and
until the statement of returns is duly signed and made. MCL § 168.733(1)(f).

h.

An election challenger may examine each ballot as it is being counted. MCL
§ 168.733(1)(g).

i.

An election challenger may keep records of votes cast and other election
procedures as the challenger desires. MCL § 168.733(1)(h).

j.

An election challenger may observe the recording of absent voter ballots on
voting machines. MCL §168.733(1)(i).

44.

The Michigan Legislature adopted these provisions to prevent and deter vote

fraud, require the conduct of Michigan elections to be transparent, and to assure public confidence
in the outcome of the election no matter how close the final ballot tally may be.
45.

Michigan values the important role challengers perform in assuring the

transparency and integrity of elections. For example, Michigan law provides it is a felony
punishable by up to two years in state prison for any person to threaten or intimidate a challenger
who is performing any activity described in Michigan law. MCL § 168.734(4). It is a felony
punishable by up to two years in state prison for any person to prevent the presence of a
challenger exercising their rights or to fail to provide a challenger with “conveniences for the
performance of the[ir] duties.” MCL 168.734.
46. The responsibilities of challengers are established by Michigan statute. MCL
§ 168.730 states:
(1)

At an election, a political party or [an organization] interested in preserving the
purity of elections and in guarding against the abuse of the elective franchise,
may designate challengers as provided in this act. Except as otherwise
provided in this act, a political party [or interested organization] may
designate not more than 2 challengers to serve in a precinct at any 1 time. A

16

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.888 Filed 11/29/20 Page 17 of 86
000028

political party [or interested organization] may designate not more than 1
challenger to serve at each counting board.
(2)

A challenger shall be a registered elector of this state…. A candidate for the
office of delegate to a county convention may serve as a challenger in a
precinct other than the 1 in which he or she is a candidate….

(3)

A challenger may be designated to serve in more than 1 precinct. The political
party [or interested organization] shall indicate which precincts the challenger
will serve when designating challengers under subsection (1). If more than 1
challenger of a political party [or interested organization] is serving in a
precinct at any 1 time, only 1 of the challengers has the authority to initiate a
challenge at any given time. The challengers shall indicate to the board of
election inspectors which of the 2 will have this authority. The challengers
may change this authority and shall indicate the change to the board of
election inspectors.

47.

Secretary Benson and Wayne County violated these provisions of Michigan law

and violated the constitutional rights of Michigan citizens and voters when they did not conduct
this general election in conformity with Michigan law and the United States Constitution.
B.

The canvassing process in Michigan.

48.

Michigan has entrusted the conduct of elections to three categories of individuals;

a “board of inspectors,” a “board of county canvassers,” and the “board of state canvassers.”
49.

The board of inspectors, among its other duties, canvasses the ballots and

compares the ballots to the poll books. See MCL § 168.801. “Such canvass shall be public and
the doors to the polling places and at least 1 door in the building housing the polling places and
giving ready access to them shall not be locked during such canvas.” Id. The members of the
board of inspectors (one from each party) are required to seal the ballots and election equipment
and certify the statement of returns and tally sheets and deliver the statement of returns and tally
sheet to the township or city clerk, who shall deliver it to the probate court judge, who will then
deliver the statement of returns and tally sheet to the “board of county canvassers.” MCL
§ 168.809. “All election returns, including poll lists, statements, tally sheets, absent voters’

17

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.889 Filed 11/29/20 Page 18 of 86
000029

return envelopes bearing the statement required [to cast an absentee ballot] … must be carefully
preserved.” MCL § 810a and § 168.811 (emphasis added).
50.

After the board of inspectors completes its duties, the board of county canvassers

is to meet at the county clerk’s office “no later than 9 AM on the Thursday after” the election.
November 5, 2020 is the date for the meeting. MCL 168.821. The board of county canvassers
has power to summon and open ballot boxes, correct errors, and summon election inspectors to
appear. Among other duties and responsibilities, the board of county canvassers shall do the
following provided in MCL 168.823(3).
51.

The board of county canvassers shall correct obvious mathematical errors in the

tallies and returns.
The board of county canvassers may, if necessary for a proper determination,
summon the election inspectors before them, and require them to count any ballots
that the election inspectors failed to count, to make correct returns in case, in the
judgment of the board of county canvassers after examining the returns, poll lists,
or tally sheets, the returns already made are incorrect or incomplete, and the board
of county canvassers shall canvass the votes from the corrected returns. In the
alternative to summoning the election inspectors before them, the board of county
canvassers may designate staff members from the county clerk’s office to count
any ballots that the election inspectors failed to count, to make correct returns in
case, in the judgment of the board of county canvassers after examining the
returns, poll lists, or tally sheets, the returns already made are incorrect or
incomplete, and the board of county canvassers shall canvass the votes from the
corrected returns. When the examination of the papers is completed, or the ballots
have been counted, they shall be returned to the ballot boxes or delivered to the
persons entitled by law to their custody, and the boxes shall be locked and sealed
and delivered to the legal custodians. The county board of canvassers shall
“conclude the canvass at the earliest possible time and in every case no later than
the fourteenth day after the election,” which is November 17. MCL 168.822(1).
But, “[i]f the board of county canvassers fails to certify the results of any election
for any officer or proposition by the fourteenth day after the election as provided,
the board of county canvassers shall immediately deliver to the secretary of the
board of state canvassers all records and other information pertaining to the
election. The board of state canvassers shall meet immediately and make the
necessary determinations and certify the results within the 10 days immediately
following the receipt of the records from the board of county canvassers.” MCL
168.822(2).

18

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.890 Filed 11/29/20 Page 19 of 86
000030

52.

The Michigan board of state canvassers then meets at the Secretary of State’s

office the twentieth day after the election and announces its determination of the canvass “not
later than the fortieth day after the election.” For this general election, that is November 23 and
December 13. MCL 168.842. There is provision for the Secretary of State to direct an expedited
canvass of the returns for the election of electors for President and Vice President.
53.

The county board of canvassers shall “conclude the canvass at the earliest

possible time and in every case no later than the fourteenth day after the election,” which is
November 17. MCL 168.822(1). But, “[i]f the board of county canvassers fails to certify the
results of any election for any officer or proposition by the fourteenth day after the election as
provided, the board of county canvassers shall immediately deliver to the secretary of the board
of state canvassers all records and other information pertaining to the election. The board of state
canvassers shall meet immediately and make the necessary determinations and certify the results
within the 10 days immediately following the receipt of the records from the board of county
canvassers.” MCL 168.822(2).
54.

The federal provisions governing the appointment of electors to the Electoral

College, 3 U.S.C. §§ 1-18, require Michigan Governor Whitmer to prepare a Certificate of
Ascertainment by December 14, the date the Electoral College meets.
55.

The United States Code (3 U.S.C. § 5) provides that if election results are

contested in any state, and if the state, prior to election day, has enacted procedures to settle
controversies or contests over electors and electoral votes, and if these procedures have been
applied, and the results have been determined six days before the electors’ meetings, then these
results are considered to be conclusive and will apply in the counting of the electoral votes.
This date (the “Safe Harbor” deadline) falls on December 8, 2020. The governor of any state

19

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.891 Filed 11/29/20 Page 20 of 86
000031

where there was a contest, and in which the contest was decided according to established state
procedures, is required (by 3 U.S.C. § 6) to send a certificate describing the form and manner by
which the determination was made to the Archivist as soon as practicable.
56.

The members of the board of state canvassers are Democrat Jeannette Bradshaw,

Republican Aaron Van Langeveide, Republican Norman Shinkle, and Democrat Julie Matuzak.
Jeanette Bradshaw is the Board Chairperson. The members of the Wayne County board of
county canvassers are Republican Monica Palmer, Democrat Jonathan Kinloch, Republican
William Hartmann, and Democrat Allen Wilson. Monica Palmer is the Board Chairperson.
57.

More than one hundred credentialed election challengers provided sworn

affidavits. These affidavits stated, among other matters, that these credentialed challengers were
denied a meaningful opportunity to review election officials in Wayne County handling ballots,
processing absent voter ballots, validating the legitimacy of absent voter ballots, and the general
conduct of the election and ballot counting. See Exhibit 1 (affidavits of election challengers).
II.

FACTUAL ALLEGATIONS AND FACT WITNESS TESTIMONY REGARDING
MICHIGAN ELECTION CODE VIOLATIONS AND OTHER UNLAWFUL
CONDUCT BY ELECTION WORKERS AND MICHIGAN STATE, WAYNE
COUNTY AND/OR CITY OF DETROIT EMPLOYEES.
58.

Wayne County used the TCF Center in downtown Detroit to consolidate, collect,

and tabulate all of the ballots for the County. The TCF Center was the only facility within Wayne
County authorized to count the ballots.
A.

Republican Election Challengers Were Denied Opportunity to Meaningfully
Observe the Processing and Counting of Ballots.

59.

There is a difference between a ballot and a vote. A ballot is a piece of paper. A

vote is a ballot that has been completed by a citizen registered to vote who has the right to cast a
vote and has done so in compliance with Michigan election law by, among other things,
verifying their identity and casting the ballot on or before Election Day. It is the task of

20

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.892 Filed 11/29/20 Page 21 of 86
000032

Secretary Benson and Michigan election officials to assure that only ballots cast by individuals
entitled to cast a vote in the election are counted and to make sure that all ballots cast by lawful
voters are counted and the election is conducted in accordance with Michigan’s Election Code
uniformly throughout Michigan.
60.

Challengers provide the transparency and accountability to assure ballots are

lawfully cast and counted as provided in Michigan’s Election Code and voters can be confident
the outcome of the election was honestly and fairly determined by eligible voters.
61.

Wayne County excluded certified challengers from meaningfully observing the

conduct of the election in violation of the Michigan Election Code. This allowed a substantial
number of ineligible ballots to be counted, as outlined in Section B. below. These systematic
Michigan Election Code violations, and the disparate treatment of Republican vs. Democratic
poll challengers, also violated the Equal Protection Clause and other provisions of the U.S.
Constitution as detailed herein. The following affidavits describe the specifics that were
observed. This conduct was pervasive in Wayne County as attested to in the affidavits attached at
Ex. 3.
1.
62.

Republican Observers Denied Access to TCF Center

Many individuals designated as challengers to observe the conduct of the election

were denied meaningful opportunity to observe the conduct of the election. For example,
challengers designated by the Republican Party or Republican candidates were denied access to
the TCF Center (formerly called Cobo Hall) ballot counting location in Detroit while Democratic
challengers were allowed access. Exhibit 3 (Deluca aff. ¶¶7-9, 16-18; Langer aff. ¶3; Papsdorf
aff. ¶3; Frego aff. ¶9; Downing aff. ¶¶2-9, 11, 15, 22; Sankey aff. ¶¶5-8; Ostin aff. ¶¶5-7;
Cavaliere aff. ¶3; Cassin aff. ¶4; Rose aff. ¶18; Zimmerman aff. ¶8; Langer aff. ¶3; Poplawski
aff. ¶3; Henderson aff. ¶7; Fuqua-Frey aff. ¶5; Ungar aff. ¶4; Eilf aff. ¶¶9, 17; Jeup aff. ¶¶6-7;

21

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.893 Filed 11/29/20 Page 22 of 86
000033

Tietz aff. ¶¶9-18; McCall aff. ¶¶5-6; Arnoldy aff. ¶¶5, 8-9 (unlimited members of the media were
also allowed inside regardless of COVID restrictions while Republican challengers were
excluded)).
63.

Many challengers stated that Republican challengers who had been admitted to the

TCF Center but who left were not allowed to return. Id. (Bomer aff. ¶16; Paschke aff. ¶4;
Schneider aff., p. 2; Arnoldy aff. ¶6; Boller aff. ¶¶13-15 (removed and not allowed to serve as
challenger); Kilunen aff. ¶7; Gorman aff. ¶¶6-8; Wirsing aff., p. 1; Rose aff. ¶19; Krause aff.
¶¶9, 11; Roush aff. ¶16; M. Seely aff. ¶6; Fracassi aff. ¶6; Whitmore aff. ¶5). Furthermore,
Republican challengers who left the TCF Center were not allowed to be replaced by other
Republican challengers while Democratic challengers were replaced.
2.
64.

Disparate and Discriminatory Treatment of Republican vs.
Democratic Challengers.

As a result of Republican challengers not being admitted or re-admitted, while

Democratic challengers were freely admitted, there were many more Democratic challengers
allowed to observe the processing and counting of absent voter ballots than Republican
challengers. Id. (Helminen aff. ¶12 (Democratic challengers out- numbered Republican
challengers by at least a two-to-one ratio); Daavettila aff., p. 2 (ten times as many Democratic
challengers as Republican); A. Seely aff. ¶19; Schneider aff., p. 2; Wirsing aff., p. 1; Rauf aff.
¶21; Roush aff. ¶¶16-17; Topini aff. ¶4).
65.

Many challengers testified that election officials strictly and exactingly enforced a

six-foot distancing rule for Republican challengers but not for Democratic challengers. Id.
(Paschke aff. ¶4; Wirsing aff., p. 1; Montie aff. ¶4; Harris aff. ¶3; Krause aff. ¶7; Vaupel aff. ¶5;
Russel aff. ¶7; Duus aff. ¶9; Topini aff. ¶6). As a result, Republican challengers were not
allowed to meaningfully observe the ballot counting process.

22

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.894 Filed 11/29/20 Page 23 of 86
000034

3.
66.

Republican Challengers Not Permitted to View Ballot Handling,
Processing or Counting.

Many challengers testified that their ability to view the handling, processing, and

counting of ballots was physically and intentionally blocked by election officials. Id. (A. Seely
aff. ¶15; Miller aff. ¶¶13-14; Pennala aff. ¶4; Tyson aff. ¶¶12- 13, 16; Ballew aff. ¶8; Schornak
aff. ¶4; Williamson aff. ¶¶3, 6; Steffans aff. ¶¶15-16, 23- 24; Zaplitny aff. ¶15; Sawyer aff. ¶5;
Cassin aff. ¶9; Atkins aff. ¶3; Krause aff. ¶5; Sherer aff. ¶¶15, 24; Basler aff. ¶¶7-8; Early aff.
¶7; Posch aff. ¶7; Chopjian aff. ¶11; Shock aff. ¶7; Schmidt aff. ¶¶7-8; M. Seely aff. ¶4; Topini
aff. ¶8).
67.

At least three challengers said they were physically pushed away from counting

tables by election officials to a distance that was too far to observe the counting. Id. (Helminen
aff. ¶4; Modlin aff. ¶¶4, 6; Sitek aff. ¶4). Challenger Glen Sitek reported that he was pushed
twice by an election worker, the second time in the presence of police officers. Id. (Sitek aff. ¶4).
Sitek filed a police complaint. Id.
68.

Challenger Pauline Montie stated that she was prevented from viewing the

computer monitor because election workers kept pushing it further away and made her stand
back away from the table. Id. (Montie aff. ¶¶4-7). When Pauline Montie told an election worker
that she was not able to see the monitor because they pushed it farther away from her, the
election worker responded, “too bad.” Id. ¶8.
69.

Many challengers witnessed Wayne County election officials covering the

windows of the TCF Center ballot counting center so that observers could not observe the ballot
counting process. Id. (A. Seely aff. ¶¶9, 18; Helminen aff. ¶¶9, 12; Deluca aff. ¶13; Steffans aff.
¶22; Frego aff. ¶11; Downing aff. ¶21; Sankey aff. ¶14; Daavettila aff., p. 4; Zimmerman aff.
¶10; Krause aff. ¶12; Sherer aff. ¶22; Johnson aff. ¶7; Posch aff. ¶10; Rauf aff. ¶23; Luke aff., p.

23

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.895 Filed 11/29/20 Page 24 of 86
000035

1; M. Seely aff. ¶8; Zelasko aff. ¶8; Ungar aff. ¶12; Storm aff. ¶7; Fracassi aff. ¶8; Eilf aff. ¶25;
McCall aff. ¶9).
4.
70.

Harassment, Intimidation & Removal of Republican Challengers

Challengers testified that they were intimidated, threatened, and harassed by

election officials during the ballot processing and counting process. Id. (Ballew aff. ¶¶7, 9;
Gaicobazzi aff. ¶¶12-14 (threatened repeatedly and removed); Schneider aff., p. 1; Piontek aff.
¶11; Steffans aff. ¶26 (intimidation made her feel too afraid to make challenges); Cizmar aff.
¶8(G); Antonie aff. ¶3; Zaplitny aff. ¶20; Moss aff. ¶4; Daavettila aff., pp. 2-3; Tocco aff. ¶¶1-2;
Cavaliere ¶3; Kerstein aff. ¶3; Rose aff. ¶16; Zimmerman aff. ¶5; Langer aff. ¶3; Krause aff. ¶4;
Sherer aff. ¶24; Vaupel aff. ¶4; Basler aff. ¶8; Russell aff. ¶5; Burton aff. ¶5; Early aff. ¶7;
Pannebecker aff. ¶10; Sitek aff. ¶4; Klamer aff. ¶4; Leonard aff. ¶¶6, 15; Posch aff. ¶¶7, 14; Rauf
aff. ¶24; Chopjian aff. ¶10; Cooper aff. ¶12; Shock aff. ¶9; Schmidt aff. ¶¶9-10; Duus aff. ¶10; M.
Seely aff. ¶4; Storm aff. ¶¶5, 7; DePerno aff. ¶¶5-6; McCall aff. ¶¶5, 13).
71.

Articia Bomer was called a “racist name” by an election worker and also harassed

by other election workers. Id. (Bomer aff. ¶7). Zachary Vaupel reported that an election
supervisor called him an “obscene name” and told him not to ask questions about ballot
processing and counting. Id. (Vaupel aff. ¶4). Kim Tocco was personally intimidated and
insulted by election workers. Id. (Tocco aff. ¶¶1-2). Qian Schmidt was the target of racist
comments and asked, “what gives you the right to be here since you are not American?” Id.
(Schmidt aff. ¶9).
72.

Other challengers were threatened with removal from the counting area if they

continued to ask questions about the ballot counting process. Id. (A. Seely aff. ¶¶6, 13, 15;
Pennala aff. ¶5). Challenger Kathleen Daavettila observed that Democratic challengers
distributed a packet of information among themselves entitled, “Tactics to Distract GOP

24

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.896 Filed 11/29/20 Page 25 of 86
000036

Challengers.” Id. (Daavettila aff., p. 2). An election official told challenger Ulrike Sherer that
the election authority had a police SWAT team waiting outside if Republican challengers argued
too much. Id. (Sherer aff. ¶24). An election worker told challenger Jazmine Early that since
“English was not [her] first language…[she] should not be taking part in this process.” Id. (Early
aff. ¶11).
73.

Election officials at the TCF Center in Detroit participated in the intimidation

experienced by Republican challengers when election officials would applaud, cheer, and yell
whenever a Republican challenger was ejected from the counting area. Id. (Helminen aff. ¶9;
Pennala aff. ¶5; Ballew aff. ¶9; Piontek aff. ¶11; Papsdorf aff. ¶3; Steffans aff. ¶25; Cizmar aff.
¶8(D); Kilunen aff. ¶5; Daavettila aff., p. 4; Cavaliere aff. ¶3; Cassin aff. ¶10; Langer aff. ¶3;
Johnson aff. ¶5; Early aff. ¶13; Klamer aff. ¶8; Posch aff. ¶12; Rauf aff. ¶22; Chopjian aff. ¶13;
Shock aff. ¶10).
5.
74.

Poll Workers Ignored or Refused to Record Republican Challenges.

Unfortunately, this did not happen in Wayne County. Many challengers testified

that their challenges to ballots were ignored and disregarded. Id. (A. Seely aff. ¶4; Helminen aff.
¶5; Miller aff. ¶¶10-11; Schornak aff. ¶¶9, 15; Piontek aff. ¶6; Daavettila aff., p. 3; Valice aff. ¶2;
Sawyer aff. ¶7; Kerstein aff. ¶3; Modlin aff. ¶4; Cassin aff. ¶6; Brigmon aff. ¶5; Sherer aff. ¶11;
Early aff. ¶18; Pannebecker aff. ¶9; Vanker aff. ¶5; M. Seely aff. ¶11; Ungar aff. ¶¶16-17;
Fracassi aff. ¶4).
75.

As an example of challenges being disregarded and ignored, challenger Alexandra

Seely stated that at least ten challenges she made were not recorded. Id. (A. Seely aff. ¶4).
Articia Bomer observed that ballots with votes for Trump were separated from other ballots. Id.
(Bomer aff. ¶5). Articia Bomer stated, “I witnessed election workers open ballots with Donald
Trump votes and respond by rolling their eyes and showing it to other poll workers. I believe

25

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.897 Filed 11/29/20 Page 26 of 86
000037

some of these ballots may not have been properly counted.” Id. ¶8. Braden Gaicobazzi
challenged thirty-five ballots for whom the voter records did not exist in the poll book, but his
challenge was ignored and disregarded. Id. (Giacobazzi aff. ¶10). When Christopher Schornak
attempted to challenge the counting of ballots, an election official told him; “We are not talking to
you, you cannot challenge this.” Id. (Schornak aff. ¶15). When Stephanie Krause attempted to
challenge ballots, an election worker told her that challenges were no longer being accepted
because the “rules ‘no longer applied.’” Id. (Krause aff. ¶13).
6.
76.

Unlawful Ballot Duplication.

If a ballot is rejected by a ballot-tabulator machine and cannot be read by the

machine, the ballot must be duplicated onto a new ballot. The Michigan Secretary of State has
instructed, “If the rejection is due to a false read the ballot must be duplicated by two election
inspectors who have expressed a preference for different political parties.” Michigan Election
Officials’ Manual, ch. 8, p. 6 (emphasis added). Thus, the ballot-duplicating process must be
performed by bipartisan teams of election officials. It must also be performed where it can be
observed by challengers.
77.

But Wayne County prevented many challengers from observing the ballot

duplicating process. Id. (Miller aff. ¶¶6-8; Steffans aff. ¶¶15-16, 23-24; Mandelbaum aff. ¶6;
Sherer aff. ¶¶16-17; Burton aff. ¶7; Drzewiecki aff. ¶7; Klamer aff. ¶9; Chopjian aff. ¶10;
Schmidt aff. ¶7; Champagne aff. ¶12; Shinkle aff., p. 1). Challenger John Miller said he was not
allowed to observe election workers duplicating a ballot because the “duplication process was
personal like voting.” Id. (Miller aff. ¶8). Challenger Mary Shinkle stated that she was told by
an election worker that she was not allowed to observe a ballot duplication because “if we make a
mistake then you would be all over us.” Id. (Shinkle aff., p. 1). Another challenger observed
election officials making mistakes when duplicating ballots. Id. (Piontek aff. ¶9).

26

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.898 Filed 11/29/20 Page 27 of 86
000038

78.

Many challengers testified that ballot duplication was performed only by

Democratic election workers, not bipartisan teams. Exhibit 1 (Pettibone aff. ¶3; Kinney aff., p. 1;
Wasilewski aff., p. 1; Schornak aff. ¶¶18-19; Dixon aff., p. 1; Kolanagireddy aff., p. 1;
Kordenbrock aff. ¶¶3-4; Seidl aff., p. 1; Kerstein aff. ¶4; Harris aff. ¶3; Sitek aff. ¶4).
7.
79.

Democratic Election Challengers Frequently Outnumbered
Republican Poll Watchers 2:1 or Even 2:0.

Dominion contractor Melissa Carrone testified that there were significantly more

Democrats than Republicans at the TCF Center, and that as a result there were “over 20
machines [that] had two democrats judging the ballots-resulting in an unfair process.” Exh. 5 ¶5.
Other affiants testified to the fact that Democrats outnumbered Republicans by 2:1 or more Id.
(Helminon aff. ¶12). Democrats also impersonated Republican poll watchers. Id. (Seely aff.
¶19).
8.
80.

Collaboration Between Election Workers, City/County Employees,
and Democratic Party Challengers and Activists.

Affiants testified to systematic and routine collaboration between election

workers, Michigan public employees and Democratic election challengers and activists present,
in particular to intimidate, harass, distract or remove Republican election watchers. See, e.g.,
Exh. 1 (Ballow aff. ¶9; Gaicobazzi aff. ¶¶12, 14; Piontek aff. ¶11).
B.

Election Workers Fraudulently Forged, Added, Removed or Otherwise
Altered Information on Ballots, Qualified Voter List and Other Voting
Records.

81.

A lawsuit recently filed by the Great Lakes Justice Center (“GLJC”) raises similar

allegations of vote fraud and irregularities that occurred in Wayne County. See Exhibit 4 (copy
of complaint filed in the Circuit Court of Wayne County in Costantino, et al. v. City of Detroit, et
al.) (“GLJC Complaint”). The allegations and affidavits included in the GLJC Complaint are
incorporated by reference in the body of this Complaint.

27

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.899 Filed 11/29/20 Page 28 of 86
000039

1.

82.

Election Workers Fraudulently Added “Tens of Thousands” of New
Ballots and New Voters in the Early Morning and Evening of
November 4.

The most egregious example of election workers’ fraudulent and illegal behavior

concerns two batches of new ballots brought to the TCF Center after the 8:00 PM Election Day
deadline. First, at approximately 4:30 AM on November 4, 2020, poll challenger Andrew Sitto
observed “tens of thousands of new ballots” being brought into the counting room, and “[u]nlike
the other ballots, these boxes were brought in from the rear of the room.” Exh. 4, GLJC
Complaint, Exh. C at ¶ 10. Mr. Sitto heard other Republican challengers state that “several
vehicles with out-of-state license plates pulled up to the TCF Center a little before 4:30 AM and
unloaded boxes of ballots.” Id. at ¶ 11. “All ballots sampled that I heard and observed were for
Joe Biden.” Id. at ¶ 12.
83.

A second set of new boxes of ballots arrived at the TCF Center around 9:00 PM

on November 4, 2020. According to poll watcher Robert Cushman, these boxes contained
“several thousand new ballots.” Exh. 4, GLJC Complaint, Exh. D at ¶ 5. Mr. Cushman noted
that “none of the names on the new ballots were on the QVF or the Supplemental Sheets,” id. at
¶ 7, and he observed “computer operators at several counting boards manually adding the names
and addresses of these thousands of ballots to the QVF system.” Id. at ¶ 8. Further, “[e]very
ballot was being fraudulently and manually entered into the [QVF], as having been born on
January 1, 1990.” Id. at ¶ 15. When Mr. Cushman challenged the validity of the votes and the
impossibility of each ballot having the same birthday, he “was told that this was the instruction
that came down from the Wayne County Clerk’s office.” Id. at ¶ 16.
84.

Perhaps the most probative evidence comes from Melissa Carone, who was

“contracted to do IT work at the TCF Center for the November 3, 2020 election.” Exh. 5, ¶1.
On November 4, Ms. Carrone testified that there were “two vans that pulled into the garage of

28

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.900 Filed 11/29/20 Page 29 of 86
000040

the counting room, one on day shift and one on night shift.” Id. ¶8. She thought that the vans
were bringing food, however, she “never saw any food coming out of these vans,” and noted the
coincidence that “Michigan had discovered over 100,000 more ballots – not even two hours after
the last van left.” Id. Ms. Carrone witnessed this illegal vote dump, as well as several other
violations outlined below.
2.
85.

Election Workers Forged and Fraudulently Added Voters to the
Qualified Voter List.

Many challengers reported that when a voter was not in the poll book, the election

officials would enter a new record for that voter with a birth date of January 1, 1900. Exhibit 1
(Gaicobazzi aff. ¶10; Piontek aff. ¶10; Cizmer aff. ¶8(F); Wirsing aff., p. 1; Cassin aff. ¶9;
Langer aff. ¶3; Harris aff. ¶3; Brigmon aff. ¶5; Sherer aff. ¶¶10-11; Henderson aff. ¶9; Early ¶16;
Klamer aff. ¶13; Shock aff. ¶8; M. Seely aff. ¶9). See also id. (Gorman aff. ¶¶23-26; Chopjian
aff. ¶12; Ungar aff. ¶15; Valden aff. ¶17). Braden Gaicobazzi reported that a stack of thirty-five
ballots was counted even though there was no voter record. Id. (Giacobazzi aff. ¶10).
86.

The GLJC Complaint alleges the Detroit Election Commission “systematically

processed and counted ballots from voters whose name failed to appear in either the Qualified
Voter File (QVF) or in the supplemental sheets.” Exh. 4, GLJC Complaint at 3. The GLJC
Complaint provides additional witness affidavits detailing the fraudulent conduct of election
workers, in particular, that of Zachary Larsen, who served as a Michigan Assistant Attorney
General from 2012 through 2020 and was a certified poll challenger at the TCF Center. “Mr.
Larsen reviewed the running list of scanned in ballots in the computer system, where it appeared
that the voter had already been counted as having voted. An official operating the computer then
appeared to assign this ballot to a different voter as he observed a completely different name that
was added to the list of voters at the bottom of a running tab of processed ballots on the right side

29

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.901 Filed 11/29/20 Page 30 of 86
000041

of the screen.” Id. at ¶ 16. Mr. Larsen observed this “practice of assigning names and numbers”
to non-eligible voters who did not appear in either the poll book or the supplement poll book. Id.
at ¶ 17. Moreover, this appeared to be the case for the majority of the voters whose ballots he
personally observed being scanned. Id.
3.
87.

Changing Dates on Absentee Ballots.

All absentee ballots that existed were required to be inputted into the QVF system

by 9:00 PM on November 3, 2020. This was required to be done in order to have a final list of
absentee voters who returned their ballots prior to 8:00 PM on November 3, 2020. In order to
have enough time to process the absentee ballots, all polling locations were instructed to collect
the absentee ballots from the drop-box once every hour on November 3, 2020.
88.

Jessica Connarn is an attorney who was acting as a Republican challenger at the

TCF Center in Wayne County. Ex. 6. Jessica Connarn’s affidavit describes how an election poll
worker told her that he “was being told to change the date on ballots to reflect that the ballots
were received on an earlier date.” Id. ¶1. Jessica Connarn also provided a photograph of a note
handed to her by the poll worker in which the poll worker indicated she (the poll worker) was
instructed to change the date ballots were received. See id. Jessica Connarn’s affidavit
demonstrates that poll workers in Wayne County were pre-dating absent voter ballots, so that
absent voter ballots received after 8:00 PM on Election Day could be counted.
89.

Plaintiffs have learned of a United States Postal Service (“USPS”) worker

Whistleblower, who on November 4, 2020 told Project Veritas that a supervisor named
Johnathan Clarke in Traverse City, Michigan, issued a directive to collect ballots and stamp them
as received on November 3, 2020, even though there were not received timely, as required by
law: "We were issued a directive this morning to collect any ballots we find in mailboxes,
collection boxes, just outgoing mail in general, separate them at the end of the day so that they

30

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.902 Filed 11/29/20 Page 31 of 86
000042

could hand stamp them with the previous day's date," the whistleblower stated. "Today is
November 4th for clarification." 5 This is currently under IG Investigation at the U.S. Post
Office. According to the Postal worker whistleblower, the ballots are in "express bags" so they
could be sent to the USPS distribution center. Id.
90.

As set forth in the GLJC Complaint and in the Affidavit of Jessy Jacob, an

employee of the City of Detroit Elections Department, “on November 4, 2020, I was instructed
to improperly pre-date the absentee ballots receive date that were not in the QVF as if they had
been received on or before November 3, 2020. I was told to alter the information in the QVF to
falsely show that the absentee ballots had been received in time to be valid. She estimates that this
was done to thousands of ballots.” Exh. 4, GLJC Complaint, Exh. B at ¶ 17.
4.
91.

Election Workers Changed Votes for Trump and Other Republican
Candidates.

Challenger Articia Bomer stated, “I observed a station where election workers

were working on scanned ballots that had issues that needed to be manually corrected. I believe
some of these workers were changing votes that had been cast for Donald Trump and other
Republican candidates.” Id. (Bomer aff. ¶9). In addition to this eyewitness testimony of election
workers manually changing votes for Trump to votes for Biden, there is evidence that Dominion
Voting Systems did the same thing on a much larger scale with its Dominion Democracy Suite
software. See generally infra Section IV.
5.
92.

Election Officials Added Votes and Removed Votes from “OverVotes”.

Another challenger observed over-votes on ballots being “corrected” so that the

ballots could be counted. Exh. 3 (Zaplitny aff. ¶13). At least one challenger observed poll
5

https://townhall.com/tipsheet/bethbaumann/2020/11/04/usps-whistleblower-in-michiganclaims-higher-ups-were-engaging-in-voter-fraud-n2579501
31

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.903 Filed 11/29/20 Page 32 of 86
000043

workers adding marks to a ballot where there was no mark for any candidate. Id. (Tyson aff. ¶17).
C.

Additional Violations of Michigan Election Code That Caused Ineligible,
Illegal or Duplicate Ballots to Be Counted.
1.

93.

Illegal Double Voting.

At least one election worker “observed a large number of people who came to the

satellite location to vote in-person, but they had already applied for an absentee ballot. These
people were allowed to vote in-person and were not required to return the mailed absentee ballot
or sign an affidavit that the voter lost the mailed absentee ballot.” Exh. 4, GLJC Complaint
(Exh. B) Jacob aff. at ¶ 10. This permitted a person to vote in person and also send in his/her
absentee ballot, and thereby vote at least twice.
2.
94.

Ineligible Ballots Were Counted – Some Multiple Times.

Challengers reported that batches of ballots were repeatedly run through the vote

tabulation machines. Exh. 3 (Helminen aff. ¶4; Waskilewski aff., p. 1; Mandelbaum aff. ¶5;
Rose aff. ¶¶4-14; Sitek aff. ¶3; Posch aff. ¶8; Champagne aff. ¶8). Challenger Patricia Rose
stated she observed a stack of about fifty ballots being fed multiple times into a ballot scanner
counting machine. Id. (Rose aff. ¶¶4-14). Articia Bomer further stated that she witnessed the
same group of ballots being rescanned into the counting machine “at least five times.” Id. ¶12.
Dominion contractor Melissa Carone observed that this was a routine practice at the TCF Center,
where she “witnessed countless workers rescanning the batches without discarding them first” –
as required under Michigan rules and Dominion’s procedures – “which resulted in ballots being
counted 4-5 times” by the “countless” number of election workers. Carone aff. ¶3. When she
observed that a computer indicated that it had “a number of over 400 ballots scanned – which
means one batch [of 50] was counted over 8 times,” and complained to her Dominion supervisor,
she was informed that “we are here to do assist with IT work, not to run their election.” Id. at ¶4.

32

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.904 Filed 11/29/20 Page 33 of 86
000044

3.
95.

Ballots Counted with Ballot Numbers Not Matching Ballot Envelope.

Many challengers stated that the ballot number on the ballot did not match the

number on the ballot envelope, but when they raised a challenge, those challenges were
disregarded and ignored by election officials, not recorded, and the ballots were processed and
counted. Exh. 3 (A. Seely aff. ¶15; Wasilewski aff., p. 1; Schornak aff. ¶13; Brunell aff. ¶¶17,
19; Papsdorf aff. ¶3; Spalding aff. ¶¶8, 11; Antonie aff. ¶3; Daavettila aff., p. 3; Atkins aff. ¶3;
Harris aff. ¶3; Sherer aff. ¶21; Drzewiecki aff. ¶¶5-6; Klamer aff. ¶4; Rauf aff. ¶¶9-14; Roush
aff. ¶¶5-7; Kinney aff. ¶5). For example, when challenger Abbie Helminen raised a challenge
that the name on the ballot envelope did not match the name on the voter list, she was told by an
election official to “get away”, and that the counting table she was observing had “a different
process than other tables.” Id. (Helminen aff. ¶5).
4.
96.

Election Officials Counted Ineligible Ballots with No Signatures or No
Dates or with No Postmark on Ballot Envelope.

At least two challengers observed ballots being counted where there was no

signature or postmark on the ballot envelope. Id. (Brunell aff. ¶¶17, 19; Spalding aff. ¶13; Sherer
aff. ¶13). Challenger Anne Vanker observed that “60% or more of [ballot] envelopes [in a
batch] bore the same signature on the opened outer envelope.” Id. (Vanker aff. ¶5). Challenger
William Henderson observed that a counting table of election workers lost eight ballot
envelopes. Exhibit 1 (Henderson aff. ¶8). The GLJC Complaint further alleges the Election
Commission “instructed election workers to not verify signatures on absentee ballots, to
backdate absentee ballots, and to process such ballots regardless of their validity.”
97.

Plaintiff Marian Sheridan, who was a poll watcher at TCF Center and is Vice

chair of the Michigan Republican Party, led a “team of almost 1200” to review “the voting
records of 51,018 registered voters” in Wayne County “who voted for the first time in the

33

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.905 Filed 11/29/20 Page 34 of 86
000045

November 3rd election of 2020.” Ex. 20 ¶5. Her team found that 20,300 of those “did not have
a ‘ballot requested date’ in Wayne County,” and that “10,620 absentee ballots show a ‘ballot sent
date’ 40 days before the election, after August 13th but before September 24.” Id. ¶¶8 & 11.
5.
98.

Election Officials Counted “Spoiled” Ballots.

At least two challengers observed spoiled ballots being counted. Id. (Schornak aff.

¶¶6-8; Johnson aff. ¶4). At least one challenger observed a box of provisional ballots being
placed in a tabulation box at the TCF Center. Ex. 1 (Cizmar aff. ¶5).
6.
99.

Systematic Violations of Ballot Secrecy Requirements.

Affiant Larsen identified a consistent practice whereby election officials would

remove ballots from the “secrecy sleeve” or peek into the envelopes, visually inspect the ballots,
and based on this visual inspection of the ballot (and thereby identify the votes cast), determine
whether to “place the ballot back in its envelope and into a ‘problem ballots’ box that required
additional attention to determine whether they would be processed and counted.” Ex. 4, GLJC
Complaint, Ex. A at ¶14. Mr. Larsen also observed that some ballots arriving without any
secrecy sleeve at all were counted after visual inspection, whereas many ballots without a
secrecy sleeve were placed in the “problem ballots” box. Id. at ¶¶21-22. “So the differentiation
among these ballots despite both ballots arriving in secrecy sleeves was perplexing and again
raised concerns that some ballots were being marked as ‘problem ballots’ based on who the
person had voted for rather on any legitimate concern about the ability to count and process the
ballot appropriately.” Id. at ¶24.
7.
100.

Election Workers Accepted Unsecured Ballots, without Chain of
Custody, after 8:00 PM Election Day Deadline.

Poll challengers observed two batches of new ballots brought to the TCF Center

after the 8:00 PM Election Day deadline, as detailed in the GLJC Complaint and Section II.B.1.

34

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.906 Filed 11/29/20 Page 35 of 86
000046

Affiant Daniel Gustafson further observed that these batches of ballots “were delivered to the
TCF Center in what appeared to be mail bins with open tops.” Ex. 4, GLJC Complaint, Ex. E at
¶4. Mr. Gustafson further observed that these bins and containers “did not have lids, were not
sealed, and did not have the capability of having a metal seal,” id. at ¶5, nor were they “marked
or identified in any way to indicated their source of origin.” Id. at ¶6.
101.

An election challenger at the Detroit Department of Elections office observed

passengers in cars dropping off more ballots than there were people in the car. Exh. 3 (Meyers
aff. ¶3). This challenger also observed an election worker accepting a ballot after 8:00 PM on
Election Day. Id. ¶7.
102.

An election challenger at the Detroit Department of Elections office observed

ballots being deposited in a ballot drop box located at the Detroit Department of Elections after
8:00 PM on Election Day. Id. (Meyers aff. ¶6).
103.

On November 4, 2020, Affiant Matt Ciantar came forward who, independently

witnessed, while walking his dog, a young couple deliver 3-4 large plastic clear bags, that
appeared to be “express bags”, as reflected in photographs taken contemporaneously, to a U.S.
Postal vehicle waiting. See generally Exh. 7 Matt Ciantar Declaration. The use of clear “express
bags” is consistent with the USPS whistleblower Johnathan Clarke in Traverse City, Michigan.
See infra Paragraph 78.
8.
104.

Ballots from Deceased Voters Were Counted.

Plaintiff Sheridan’s team reviewed 51,018 new registered voters in Wayne

County, and found that “205 of the voters were deceased, with an additional 1005 unverifiable
through” their sources. Ex. 20 ¶6. One Michigan voter stated that her deceased son has been
recorded as voting twice since he passed away, most recently in the 2020 general election. Ex. 3
(Chase aff. ¶3).

35

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.907 Filed 11/29/20 Page 36 of 86
000047

D.

Wayne County Election So Riddled with “Irregularities and Inaccuracies”
That Wayne County Board of Canvassers Refused to Certify Results.

105.

The attached affidavit of Monica Palmer (Ex. 11), Chairperson of the Wayne

County Board of Canvassers details the numerous “irregularities and inaccuracies” in Wayne
County, both for the August 4, 2020 primary and the November 3, 2020 General Election, which
convinced her to refuse to certify the General Election results. Among other things, her
testimony describes Wayne County’s long-standing systemic problems with “unbalanced”
precincts (i.e., matching the vote count with the actual number of ballots cast). In the August 4,
2020 Primary election, for example, 72% of Detroit’s absentee voting precincts were out of
balance.” Id. ¶7. This may have been due to the fact that the “City of Detroit did not scan a
single precinct within a batch,” which “makes it nearly impossible to re-tabulate a precinct
without potentially disrupting a perfectly balanced precinct. Id. ¶6 (second bullet). As a result,
“[a]ll Board members express serious concerns about the irregularities and inaccuracies,” and
“unanimously approved” a joint resolution to request that Secretary Benson institute an
investigation and appoint an independent election monitor for the 2020 General Election, id. ¶9,
which was not done. Chairperson Palmer determined, based on preliminary results from the
2020 General Election, that once again “more than 70% of Detroit’s 134 Absentee Voter
Counting Boards (AVCB) did not balance and many had no explanation to why they did not
balance.” Id. ¶14.
106.

On November 17, 2020, Chairperson Palmer initially voted not to certify the

results, but subsequently agreed to certify, subject to the condition that Secretary Benson conduct
a “full, independent audit” of the results. Id. ¶21. When Secretary Benson reneged on the
commitment, however, Chairperson Palmer rescinded her prior vote to certify. Id. ¶24. “The
Wayne County election process had serious process flaws which deserve investigation,” and

36

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.908 Filed 11/29/20 Page 37 of 86
000048

Chairperson Palmer continues to believe that the results should not be certified pending “an
additional 10 days of canvass by the State Board of Canvassers.” Id. ¶ 26.
107.

Wayne County Board of Canvassers Member William C. Hartmann has also

testified to the serious problems with the Wayne County Canvass. See Ex. 12. Like Chairperson
Palmer, he “determined that 71% of Detroit’s 134 Absent[ee] Voter Counting Boards (AVCB)
were left unbalanced and many unexplained.” Id. ¶6 (emphasis in original). Mr. Hartmann
joined Chairperson Palmer in initially voting not to certify the results of the 2020 General
Election, and the subsequent decision to do so based on a commitment to conduct an independent
audit, and then voting again not to certify when Secretary Benson refused to conduct an audit.
Id. ¶¶ 7, 11, and 18. In his testimony, Mr. Hartmann identifies a number of questions that must
be answered – many of them tracking the concerns raised in Section II.A to II.C above – before
the results can be certified. Of particular concern is the “use of private monies directing local
officials regarding the management of the election, how these funds were used and whether
such funds were used to pay election workers.” Id. ¶17.c. He also raises questions as to”
“[w]hy the pollbooks, Qualified Voter Files, and final tallies do not match or balance?”; “were
republicans not used in signing seals certified at the end of the night … before ballot boxes were
documented, closed and locked?”; the absence of logs from Detroit’s 134 ACVB; “[h]ow many
challenged ballots were counted?”; “[h]ow many voter birthdates were altered in the
pollbooks?”; “[w]ere ballots counted in TCF that were not reflected in the electronic pollbook or
paper supplemental list?”; and were the “18,000 same-day registrations in Detroit on November
3 … verified as proper voters prior to the tabulation of their ballots?” Id. ¶17. “Until these
questions are addressed,” Mr. Hartmann “remain[s] opposed to certification of the Wayne
County results.” Id. ¶19.

37

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.909 Filed 11/29/20 Page 38 of 86
000049

III.

EXPERT WITNESS TESTIMONY INDICATING WIDESPREAD VOTING
FRAUD AND MANIPULATION
A.

Approximately 30,000 Michigan Mail-In Ballots Were Lost, and
Approximately 30,000 More Were Fraudulently Recorded for Voters who
Never Requested Mail-In Ballots.

108.

The attached report of William M. Briggs, Ph.D. (“Dr. Briggs Report”)

summarizes the multi-state phone survey data of 248 Michigan voters collected by Matt
Braynard, which was conducted from November 15-17, 2020. (See Ex. 101, Dr. Briggs Report
at 1 & Att. 1 thereto (“Braynard Survey”)). Using the Braynard Survey, Dr. Briggs identified
two specific errors involving unreturned mail-in ballots that are indicative of voter fraud,
namely: “Error #1: those who were recorded as receiving absentee ballots without requesting
them;” and “Error #2: those who returned absentee ballots but whose votes went missing (i.e.,
marked as unreturned).” Id. Dr. Briggs then conducted a parameter-free predictive model to
estimate, within 95% confidence or prediction intervals, the number of ballots affected by these
errors out of a total of 139,190 unreturned mail-in ballots for the State of Michigan.
109.

With respect to Error #1, Dr. Briggs’ analysis estimated that 29,611 to 36,529

ballots out of the total 139,190 unreturned ballots (21.27% - 26.24%) were recorded for voters
who had not requested them. Id. With respect to Error #2, the numbers are similar with 27,928
to 34,710 ballots out of 139,190 unreturned ballots (20.06% - 24.93%) recorded for voters who
did return their ballots were recorded as being unreturned. Id. Taking the average of the
two types of errors together, 62,517 ballots, or 45% of the total, are “troublesome.”
110.

These errors are not only conclusive evidence of widespread fraud by the State of

Michigan, 6 but they are fully consistent with the fact witness statements above the evidence
6

The only other possible explanations for the statements of 248 Michigan mail-in voters
included in the Braynard Survey data is (a) that the 248 voters (who had no known pre-existing
relationship apart from being listed as having unreturned absentee ballots) somehow contrived to
38

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.910 Filed 11/29/20 Page 39 of 86
000050

regarding Dominion presented below insofar as these purportedly unreturned absentee ballots
provide a pool of 60,000-70,000 unassigned and blank ballots that could be filled in by
Michigan election workers, Dominion or other third parties to shift the election to Joe
Biden.
111.

With respect to Error #1, Dr. Briggs’ analysis, combined with the statements of

the Michigan voters in the Braynard Survey, demonstrates that approximately 30,000 absentee
ballots were sent to someone besides the registered voter named in the request, and thus
could have been filled out by anyone and then submitted in the name of another voter.
112.

With respect to Error #2, Dr. Briggs’ analysis indicates that approximately 30,000

absentee ballots were either lost or destroyed (consistent with allegations of Trump ballot
destruction) and/or were replaced with blank ballots filled out by election workers,
Dominion or other third parties. Accordingly, Dr. Briggs’ analysis showing that almost half
of purportedly “unreturned ballots” suffers from one of the two errors above – which is
consistent with his findings in the four other States analyzed (Arizona 58%, Georgia 39%,
Pennsylvania 37%, and Wisconsin 31%) – provides further support that these widespread
“irregularities” or anomalies were one part of a much larger interstate fraudulent scheme to rig
the 2020 General Election for Joe Biden.
B.

Statistical Analysis of Anomalous and Unprecedented Turnout Increases in
Specific Precincts Indicate that There Were at Least 40,000 “Excess Voters”
in Wayne County and At Least 46,000 in Oakland County.

113.

The attached affidavit of Eric Quinell, Ph.D. analyzes the extraordinary increase

in turnout from 2016 to 2020 in a relatively small subset of townships and precincts outside of

collude together to submit false information or (b) that these 248 suffered from amnesia,
dementia or some other condition that caused them to falsely claim that they had requested a
mail-in ballot or returned a mail-in ballot.

39

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.911 Filed 11/29/20 Page 40 of 86
000051

Detroit in Wayne County and Oakland County, and more importantly how nearly 100% or more
of all “new” voters from 2016 to 2020 voted for Biden. (See Ex. 102; see also Ex. 110, Chapter
2). Using publicly available information from Wayne County and Oakland County, Dr. Quinell
first found that for the votes received up to the 2016 turnout levels, the 2020 vote Democrat vs.
Republican two-ways distributions (i.e., excluding third parties) tracked the 2016 Democrat vs.
Republican distribution very closely, which was 55%-45% for Wayne County (outside Detroit)
and 54%-46% for Oakland County. Id. at ¶¶18 & 20.
114.

However, after the 2016 turnout levels were reached, the Democrat vs.

Republican vote share shifts decisively towards Biden by approximately 15 points, resulting in a
72%/28% D/R split for Oakland County and 70%/30% D/R split for Wayne County (outside of
Detroit). What is even more anomalous – and suspicious – is the fact that nearly all of these
“new” votes in excess of 2016 come from a small number of townships/precincts where the
increased Biden vote share is nearly 100% or over 100% for Biden. Id.
115.

For example, in the township of Livonia in Wayne County, Biden gained 3.2

voters for every 1 new Trump voter, and Biden received 97% of all “new” votes over 2016 and
151% of all new voter registrations. Id. at ¶6. In the township of Troy in Oakland County, the
vote share shifted from 51%/49% in 2016 to 80%/20% in 2020 due to Biden receiving 98% of
new votes above 2016 and 109% of new voter registrations. Id. at ¶20. Looking county-wide,
Biden gained 2.32 new voters over 2016 levels to every 1 new Trump voter in Wayne County
(outside Detroit) and 2.54 additional new voters per Trump voter for Oakland County. Id. ¶5.
116.

Based on these statistically anomalous results that occurred in a handful of

townships in these two counties, Dr. Quinell’s model determined that there were 40,771
anomalous votes in Wayne County (outside Detroit) and 46,125 anomalous votes in Oakland

40

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.912 Filed 11/29/20 Page 41 of 86
000052

County, for a total of nearly 87,000 anomalous votes or approximately 65% of Biden’s purported
lead in Michigan.
117.

Dr. Quinell’s conclusions are supported by the testimony S. Stanley Young, Ph.D.

(See Ex. 110, Chapter 1, “Analysis of Michigan County Vote Counts”). Dr. Young examined all
Michigan counties for changes in turnout from 2016 to 2020. In 74 out of 83 Michigan counties,
the 2020 vs. 2016 turnout was within +/- 3,000 votes. Id. at 5. The two largest outliers are
Oakland County (+54,310), Wayne County (+42,166), representing approximately 96,000 net
votes for Biden, with the remaining seven outliers counties (Kent, Washtenaw, Ingham,
Kalamazoo, Macomb, Ottawa, and Grand Traverse), which collectively represent an additional
95,000 net votes for Biden (or 191,000 in total). Id. at 6.
118.

All or nearly all of the “new” votes were due to increased absentee and mail-in

votes. Dr. Young also analyzes the differences in the distributions of election day in-person
voting for Trump and Biden and the distribution for each of absentee mail-in votes. For Trump,
the distributions are nearly identical, whereas the Biden distribution “are very different”
representing “a serious statistical aberration”, that when combined with the turnout anomalies
“are all statistically improbable relative to the body of the data.” Id. at 7. Dr. Young’s analysis
indicates that, when the entire State of Michigan is considered, there were likely over 190,000
“excess” and likely fraudulent Biden votes, which once again is significantly larger than Biden’s
154,188 margin in Michigan.
C.

Over 13,000 Ineligible Voters Who Have Moved Out-of-State Illegally Voted
in Michigan.

119.

Evidence compiled by Matt Braynard using the National Change of Address

(“NCOA”) Database shows that 12,120 Michigan voters in the 2020 General Election moved
out-of-state prior to voting, and therefore were ineligible. Mr. Braynard identified 1,170

41

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.913 Filed 11/29/20 Page 42 of 86
000053

Michigan voters in the 2020 General Election who subsequently registered to vote in another
state, and were therefore ineligible to vote in the 2020 General Election. When duplicates from
the two databases are eliminated, the merged number is 13,248 ineligible voters whose votes
must be removed from the total for the 2020 General Election. 7
D.

Physical Impossibility: There Were At Least 289,866 More Ballots Processed
in Four Michigan Counties on November 4 Than There Was Processing
Capacity.

120.

The expert witness testimony of Russell James Ramsland, Jr. (“Ramsland

Affidavit”), which is described in greater detail below, identifies an event that occurred in
Michigan on November 4 that is “physically impossible” See Ex. 104 at ¶14. The “event”
reflected in the data are “4 spikes totaling 384,733 ballots allegedly processed in a combined
interval of 2 hour[s] and 38 minutes” for four precincts/townships in four Michigan counties
(Wayne, Oakland, Macomb, and Kent). Id. Based on Mr. Ramsland’s analysis of the voting
machines available at the referenced locations, he determined that the maximum processing
capability during this period was only 94,867 ballots, so that “there were 289,866 more ballots
processed in the time available for processing in the four precincts/townships, than there was
processing capacity.” Id. This amount alone is nearly twice the number of ballots by which
Biden purportedly leads President Trump (i.e., 154,188).
E.

Statistical Impossibility: Biden’s Vertical “Jump” of 141,257 Votes at
11:31:48 on November 4, 2020.

121.

Finally, Dr. Louis Bouchard analyzes the widely reported anomalous “jump” in

Biden’s tally, where 141,257 votes for Biden were recorded during a single time interval:
11:31:48 on November 4, 2020. (See Ex. 110, Chapter 7). Before the jump Biden was trailing
7

Mr. Braynard posted the results of his analysis on Twitter. See
https://twitter.com/MattBraynard/status/1329700178891333634?s=20. This Complaint includes
a copy of his posting as Exhibit 103.
42

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.914 Filed 11/29/20 Page 43 of 86
000054

Trump by a significant amount, and then Biden’s vote tally curve went nearly vertical, making
up the difference and surging past Trump nearly instantaneously as shown in the figure in the
upper left below reproduced from Dr. Bouchard’s report. (See id. at 28).

122.

Both candidates had “jumps” reflecting the addition of new votes, but this Biden

jump was orders of magnitude than any jump received by Trump in the two States analyzed by
Dr. Boucher (i.e., Florida and Michigan), id. at 26, and further that the “statistically anomalous
jumps are all in Biden’s favor.” Id. at 27. The odds of a jump of 141,257 votes “is statistically
impossible; the odds of this happening are 1 in 1023.” Id. (Dr. Boucher also found even larger
jumps for Biden in Florida on November 4, one for 435,219 votes and another for 367,539 votes.
Id.).

43

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.915 Filed 11/29/20 Page 44 of 86
000055

F.

Additional Anomalies and Impossibilities for Michigan Mail-In Ballots.

123.

Robert Wilgus finds several additional statistical anomalies, and arguably

impossibilities, in the mail-in ballot data. See Ex. 110 (Chapter 3, “Exploring Michigan Main-In
Ballots Data”). Most notably, Mr. Wilgus analyzed Michigan mail-in data obtained through a
FOIA request, and found the following: (1) 224,525 mail-in ballot applications were sent and
received on the same date; (2) 288,783 mail-in ballots were sent and returned on the same date;
(3) 78,312 applications were sent and received and the ballot sent and received all on the same
date. Id. at 15. These number do not include 217,271 ballots with no date at all, id. at 14,
which likely would have increased the foregoing numbers, and is fully consistent with the
numerous affiants above who testified to observing poll workers processing ballots without
envelopes, and of poll workers, USPS personnel changing dates on absentee ballots and the other
illegal conduct described in Section II.A and II.B above.
124.

Thomas Davis identifies a different anomaly in the absentee mail-in data, namely,

that (1) “the percentage of Democratic absentee voters exceeds the percentage of Republican
absentee voters in every precinct,” and (2) “[e]ven more remarkable – and unbelievable – these
two independent variables appear to track one another.” Ex. 110, Chapter 5 at 17 (emphasis
in original). As shown in Mr. Davis’s article, the plots of the Democrat percentage of absentee
voters in Ingham, Macomb, and Oakland Counties for 2020 are uniformly higher (i.e., with no
intersections or lines crossing) than the Republican precinct, and the D-R percentage are nearly
always in the range of +25%-30%; for 2016, by contrast, the plots for these three counties look
like random walks with the Democrat and Republican line plots frequently crossing back and
forth across one another. Id. at 17-18. Mr. Davis concludes that these statistical anomalies are
“very strong evidence that the absentee voting counts in some counties in Michigan have
likely been manipulated by a computer algorithm,” and that at some time after the 2016

44

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.916 Filed 11/29/20 Page 45 of 86
000056

election, software was installed that programmed tabulating machines “to shift a percentage of
absentee ballot votes from Trump to Biden.” Id. at 19.
IV.

FACTUAL ALLEGATIONS REGARDING DOMINION VOTING SYSTEMS
A.

Dominion Undetectably Switched Trump Votes to Biden in Antrim County,
which Was Only Discoverable Through Manual Recount.

125.

On the morning of November 4, unofficial results posted by the Antrim County

Clerk showed that Joe Biden had over 7,700 votes — 3,000 more than Donald Trump. Antrim
County voted 62% in favor of President Trump in 2016. The Dominion Voting Systems election
management system and voting machines (tabulators), which were used in Antrim County, are
also used in many other Michigan counties, including Wayne County, were at fault.
126.

However, malfunctioning voting equipment or defective ballots may have

affected the outcome of a vote on an office appearing on the ballot.” Michigan Manual for
Boards of County Canvassers. These vote tabulator failures are a mechanical malfunction that,
under MCL §§ 168.831-168.839, requires a “special election” in the precincts affected.
127.

Secretary of State Benson released a statement blaming the county clerk for not

updating certain “media drives,” but her statement failed to provide any coherent
explanation of how the Dominion Voting Systems software and vote tabulators produced such a
massive miscount. 8
128.

Secretary Benson continued: “After discovering the error in reporting the

unofficial results, the clerk worked diligently to report correct unofficial results by reviewing the
printed totals tape on each tabulator and hand-entering the results for each race, for each precinct

8

See State of Michigan, Department of State Report, Isolated User Error in Antrim County
Does Not Affect Election Results (November 7, 2020), available at:
https://www.michigan.gov/documents/sos/Antrim_Fact_Check_707197_7.pdf.

45

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.917 Filed 11/29/20 Page 46 of 86
000057

in the county.” Id. What Secretary Benson fails to address is what would have happened if no
one “discover[ed] the error,” for instance, in Wayne County, where the number of registered
voters is much greater than Antrim County, and where the tabulators were not individually
tested.
129.

Wayne County used the same Dominion voting system tabulators as did Antrim

County, and Wayne County tested only a single one of its vote tabulating machines before the
election. The Trump campaign asked Wayne County to have an observer physically present to
witness the process. See Exhibit 4. Wayne County denied the Trump campaign the opportunity to
be physically present. Representatives of the Trump campaign did have opportunity to watch a
portion of the test of a single machine by Zoom video.
B.

Eyewitness Testimony That Dominion Voting Machines Were
Improperly Connected to the Internet and Used Removable Storage
Media and Mass File Transfers.

130.

Affiant Patrick Colbeck was a Michigan State Senator from 2011 through 2018, is

an IT specialist and certified Microsoft Small Business specialist, and served as a poll challenger
at the TCF Center on November 3-4, 2020. In that capacity, Mr. Colbeck inquired whether the
Dominion voting machines were connected to the Internet, but was repeatedly told “no” by three
different election workers. See Ex. 13, Colbeck Nov. 8 aff ¶¶2,3 & 5. Mr. Colbeck determined
that the voting machines were connected to the Internet, based on his visual inspection of the
machines, which displayed the Windows “icon that indicates internet connection on each
terminal.” Id. ¶5. Mr. Colbeck also took a series of pictures attached to his November 8, 2020
testimony showing the cables connecting the machines to the Internet, as well as screenshots
from his phone showing that the Electronic Poll Books were also connected wirelessly to the
Internet, id. ¶¶5-6, and used this data to create a network topology for the Detroit TCF Center
Absentee Ballot Voter Counting Board. Id. The election workers also repeatedly refused to

46

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.918 Filed 11/29/20 Page 47 of 86
000058

answer Mr. Colbeck’s questions as to how the “tabulated results were to be transferred to the
County and other parties,” despite the fact that the Detroit Elections Manual “specified that the
tabulated votes would be copied from the adjudicator computers to a series of flash drives,” id.
¶5, i.e.¸ rather than through Internet connections.
131.

Mr. Colbeck also “witnessed mass file transfer operations on the monitor of a

Local Data Center computer operated by [TCF Center] IT Staff, Detroit Election Officials, and
Dominion Voting Systems employees.” Ex. 14, Colbeck Nov. 20 aff. ¶7. Based on his
experience as an IT professional, Mr. Colbeck “was curious as to what files would need to be
transferred in mass as opposed to the serial process of importing results from each tabulator one
at a time as prescribed in the Detroit Elections Manual.” Id. This question could be answered
by event logs from the Dominion voting tabulators.
C.

The Pattern of Incidents Shows an Absence of Mistake - Always In The
Favor Of Biden.

132.

Rules of Evidence, 404(b), applicable to civil matters makes clear that,

(b) Evidence of other crimes, wrongs, or acts shall not be admissible to prove the
character of a person in order to show action in conformity therewith. It may,
however, be admissible for other purposes, including, but not limited to,
proof of motive, opportunity, intent, preparation, plan, knowledge, identity,
or absence of mistake or accident.
133.

Tabulator issues and election violations occurred elsewhere in Michigan

reflecting a pattern, where multiple incidents occurred. In Oakland County, votes flipped a seat
to an incumbent Republican, Adam Kochenderfer, from the Democrat challenger when: “A
computer issue in Rochester Hills caused them to send us results for seven precincts as both
precinct votes and absentee votes. They should only have been sent to us as absentee votes,” Joe

47

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.919 Filed 11/29/20 Page 48 of 86
000059

Rozell, Oakland County Director of Elections for the City of Huntington Woods, said. 9
134.

The Oakland County flip of votes becomes significant because it reflects a second

systems error, wherein both favored the Democrats, and precinct votes were sent out to be
counted, and they were counted twice as a result until the error was caught on a recount.
Precinct votes should never be counted outside of the precinct, and they are required to be sealed
in the precinct. See generally, MCL § 168.726.
D.

Dominion Voting Machines and Forensic Evidence of Wide-Spread
Fraud in Defendant Counties.

135.

The State of Michigan entered into a ten-year contract with Dominion Systems’

Democracy Suite 4.14-D first, and then included Dominion Systems Democracy Suite 5.0-S on
or about January 27, 2017, which added a fundamental modification: “dial-up and wireless
results transmission capabilities to the ImageCast Precinct and results transmission using the
Democracy Suite EMS Results Transfer Manager module.” 10
136.

The Michigan Contract with Dominion Voting Systems Democracy packages

include language that describes Safety and Security, which in part makes the risks of potential
breach clear where keys can be lost despite the fact that they provide full access to the unit, and
while it is clear that the electronic access provides control to the unit, and the ability to alter
results, combined with the lack of observers, creates a lack of security that becomes part of a
pattern of the absence of mistake, or fraud:

9

Bill Laitner, Fixed Computer Glitch Turns Losing Republican into a Winner in Oakland
County, Detroit Free Press (Nov. 20, 2020), available at:
https://www.freep.com/story/news/local/michigan/oakland/2020/11/06/oakland-county-election2020-race-results/6184186002/.
10

See Ex. 8, State of Michigan Enterprise Procurement, Dept. of Technology, Management and
Budget Contract No. 071B7700117, between State of Michigan and Dominion Voting Systems
(“Dominion Michigan Contract”).

48

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.920 Filed 11/29/20 Page 49 of 86
000060

The ImageCast tabulators are unlocked by an iButton security key, which is used
to:
• Authenticate the software version (ensuring it is a certified version that has not
been tampered with)
• Decrypt election files while processing ballots during the election
• Encrypt results files during the election
• Provide access control to the unit
It is anticipated that the iButton security keys may get lost; therefore, any
substitute key created for the same tabulator will allow the unit to work
fully. 11
137.

As evidence of the risks of the Dominion Democracy Suite, as described above,

the same Dominion Democracy Suite was denied certification in Texas by the Secretary of State
on January 24, 2020 specifically because the “examiner reports raise concerns about whether
Democracy Suite 5.5-A system … is safe from fraudulent or unauthorized manipulation.” 12
1.
138.

Antrim County “Glitch” Was Not “Isolated Error” and May Have
Affected Other Counties.

The first red flag is the Antrim County, Michigan “glitch” that switched 6,000

Trump ballots to Biden, and that was only discoverable through a manual hand recount. See
supra Paragraph 94. The “glitch” was later attributed to “clerical error” by Dominion and
Antrim Country, presumably because if it were correctly identified as a “glitch”, “the system
would be required to be ‘recertified’ according to Dominion officials. This was not done.” Exh.
104, Ramsland Aff. at ¶10. Mr. Ramsland points out that “the problem most likely did occur due
to a glitch where an update file did not properly synchronize the ballot barcode generation and
reading portions of the system.” Id. Further, such a glitch would not be an “isolated error,”
as it “would cause entire ballot uploads to read as zero in the tabulation batch, which we

11

See Ex. 8, Dominion Michigan Contract at 122.

12

See Ex. 9, State of Texas Secretary of State, Elections Division, Report of Review of
Dominion Voting Systems Democracy Suite 5.5-A at 2 (Jan. 24, 2020) (emphasis added).

49

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.921 Filed 11/29/20 Page 50 of 86
000061

also observed happening in the data (provisional ballots were accepted properly but in-person
ballots were being rejected (zeroed out and/or changed (flipped)).” Id. Accordingly, Mr.
Ramsland concludes that it is likely that other Michigan counties using Dominion may “have the
same problem.” Id.
E.

Anomalies in Dominion’s Michigan Results for 2020 General Election
Demonstrate Dominion Manipulated Election Results, and that the
Number of Illegal Votes Is Nearly Twice As Great as Biden’s
Purported Margin of Victory.

139.

The expert witness testimony of Russell James Ramsland, Jr. (“Ramsland

Affidavit”) 13 analyzes anomalies in Dominion’s Michigan results for the 2020 election, and
flaws in the system architecture more generally, to conclude that Dominion manipulated election
results. Dominion’s manipulation of election results enabled Defendants to engage in further
voting fraud violations above and beyond the litany of violations recited above in Section II.A
through Section II.C.
140.

Mr. Ramsland’s analysis of the raw data, which provides votes counts, rather

than just vote shares, in decimal form proves that Dominion manipulated votes through the
use of an “additive” or “Ranked Choice Voting” algorithm (or what Dominion’s user guide
refers to as the “RCV Method”). See id. at ¶12. 14 Mr. Ramsland presents the following example
of this data – taken from “Dominion’s direct feed to news outlets” – in the table below. Id.
state

timestamp

eevp

trump

biden

TV

BV

michigan

2020-11-04T06:54:48Z

64

0.534

0.448

1925865.66

1615707.52

13

As detailed in the Ramsland Affidavit and the CV attached thereto, Mr. Ramsland is a
member of the management team Allied Security Operations Group, LLC (“ASOG”), a firm
specializing in cybersecurity, OSINT and PEN testing of networks for election security and
detecting election fraud through tampering with electronic voting systems.
14

See id. (quoting Democracy Suite EMS Results Tally and Reporting User Guide, Chapter 11,
Settings 11.2.2., which reads, in part, “RCV METHOD: This will select the specific method of
tabulating RCV votes to elect a winner.”).
50

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.922 Filed 11/29/20 Page 51 of 86
000062

michigan

2020-11-04T06:56:47Z

64

0.534

0.448

1930247.664

1619383.808

michigan

2020-11-04T06:58:47Z

64

0.534

0.448

1931413.386

1620361.792

michigan

2020-11-04T07:00:37Z

64

0.533

0.45

1941758.975

1639383.75

michigan

2020-11-04T07:01:46Z

64

0.533

0.45

1945297.562

1642371.3

michigan

2020-11-04T07:03:17Z

65

0.533

0.45

1948885.185

1645400.25

141.

Mr. Ramsland further describes how the RCV algorithm can be implemented, and

the significance of the use of fractional vote counts, with decimal places, rather than whole
numbers, in demonstrating that Dominion did just that to manipulate Michigan votes.
For instance, blank ballots can be entered into the system and treated as “writeins.” Then the operator can enter an allocation of the write-ins among candidates
as he wishes. The final result then awards the winner based on “points” the
algorithm in the compute, not actual votes. The fact that we observed raw vote
data that includes decimal places suggests strongly that this was, in fact, done.
Otherwise, votes would be solely represented as whole numbers. Below is an
excerpt from Dominion’s direct feed to news outlets showing actual calculated
votes with decimals. Id.
2.
142.

Strong Evidence That Dominion Shifted Votes from Trump to Biden.

Another anomaly identified by Mr. Ramsland is the dramatic shift in votes

between the two major party candidates as the tabulation of the turnout increased, and more
importantly, the change in voting share before and after 2 AM on November 4, 2020, after
Wayne County and other Michigan election officials had supposedly halted counting.
Until the tabulated voter turnout reached approximately 83%, Trump was
generally winning between 55% and 60% of every turnout point. Then, after the
counting was closed at 2:00 am, the situation dramatically reversed itself,
starting with a series of impossible spikes shortly after counting was
supposed to have stopped. Id. at ¶13.
143.

Once again, the means through which Dominion appears to have implemented

this scheme is through the use of blank ballots that were all, or nearly all, cast for Biden.
The several spikes cast solely for Biden could easily be produced in the Dominion
system by pre-loading batches of blank ballots in files such as Write-Ins, then
casting them all for Biden using the Override Procedure (to cast Write-In ballots)
that is available to the operator of the system. A few batches of blank ballots
51

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.923 Filed 11/29/20 Page 52 of 86
000063

could easily produce a reversal this extreme, a reversal that is almost as
statistically difficult to explain as is the impossibility of the votes cast to number
of voters described in Paragraph 11 above. Id.
144.

Mr Ramsland and his team analyzed the sudden injection totaling 384,733 ballots

in four Michigan counties (Wayne, Oakland, Macomb, and Kent) in a 2 hour 38 minute period in
the early morning of November 4 (which would have included the first ballot dump described
above in Paragraph 72), and concluded that “[t]his is an impossibility, given the equipment
available at the 4 reference locations (precincts/townships).” Id. at ¶14.
145.

Specifically, Mr. Ramsland calculated “94,867 ballots as the maximum number of

ballots that could be processed” in that time period, and thus that “[t]here were 289,866 more
ballots processed in the time available for processing in four precincts/townships, than the
capacity of the system allows.” Id. Mr. Ramsland concludes that “[t]he documented existence
of the spikes are strongly indicative of a manual adjustment either by the operator of the system
(see paragraph 12 above) or an attack by outside actors.” Id. The vote totals added for all
Michigan counties, including Wayne, Oakland, Macomb and Kent counties, for the period
analyzed by Mr. Ramsland are reproduced in the figure below.

52

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.924 Filed 11/29/20 Page 53 of 86
000064

3.
146.

The Number of Illegal Votes Attributable to Dominion Is Nearly
Twice Biden’s Purported Margin in Michigan.

Based on his analysis of the red flags and statistical anomalies discussed below,

Mr. Ramsland concludes that:
[T]hese statistical anomalies and impossibilities compels the conclusion to a
reasonable degree of professional certainty that the vote count in Michigan and in
Wayne County, in particular for candidates for President contain at least 289,866
illegal votes that must be disregarded.
Given that Mr. Biden’s currently purported margin of victory is approximately 154,000, the
number of illegal votes attributable Dominion’s fraudulent and illegal conduct is by itself
(without considering the tens or hundreds of thousands of illegal votes due to the unlawful
conduct described in Section II), is nearly twice Mr. Biden’s current purported lead in the State
of Michigan. Thus Mr. Ramsland affidavit alone provides this Court more than sufficient basis
to grant the relief requested herein.

53

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.925 Filed 11/29/20 Page 54 of 86
000065

F.

Additional Independent Findings of Dominion Flaws.

147.

Further supportive of this pattern of incidents, reflecting an absence of mistake,

Plaintiffs have since learned that the "glitches" in the Dominion system, that have the uniform
effect of hurting Trump and helping Biden, have been widely reported in the press and confirmed
by the analysis of independent experts.
1.
148.

Central Operator Can Remove, Discard or Manipulate Votes.

Plaintiffs have also learned of the connection between Dominion Voting Systems,

Smartmatic and the voting systems used in Venezuela and the Philippines.
a. Dominion Voting has also contradicted itself in a rush to denial a pattern of errors
that lead to fraud. For example, Dominion Voting Systems machines can read all
of these instruments, including Sharpies. https://www.dominionvoting.com/
b. Dominion Voting’s Democracy Suite contract with Michigan specifically requires:
Black Ink: Black ink (or toner) must be dense, opaques, light-fast and permanent,
with a measured minimum 1.2 reflection density (log) above the paper base. See
Ex. 8 ¶2.6.2.
149.

Affiant Ronald Watkins, who is a network & Information cyber-securities expert,

under sworn testimony explains that after studying the user manual for Dominion Voting
Systems Democracy software, he learned that the information about scanned ballots can be
tracked inside the software system:
(a)
When bulk ballot scanning and tabulation begins, the "ImageCast Central"
workstation operator will load a batch of ballots into the scanner feed tray and
then start the scanning procedure within the software menu. The scanner then
begins to scan the ballots which were loaded into the feed tray while the
"ImageCast Central" software application tabulates votes in real-time. Information
about scanned ballots can be tracked inside the "ImageCast Central" software
application. (Ex. 106, Watkins aff. ¶11).
150.

Mr. Watkins further explains that the central operator can remove or discard

batches of votes. “After all of the ballots loaded into the scanner's feed tray have been through
the scanner, the "ImageCast Central" operator will remove the ballots from the tray then have the

54

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.926 Filed 11/29/20 Page 55 of 86
000066

option to either "Accept Batch" or "Discard Batch" on the scanning menu …. “ Id. ¶8.
151.

Mr. Watkins further testifies that the user manual makes clear that the system

allows for threshold settings to be set to find all ballots get marked as “problem ballots” for
discretionary determinations on where the vote goes stating:
9. During the ballot scanning process, the "ImageCast Central" software will
detect how much of a percent coverage of the oval was filled in by the voter. The
Dominion customer determines the thresholds of which the oval needs to be
covered by a mark in order to qualify as a valid vote. If a ballot has a marginal
mark which did not meet the specific thresholds set by the customer, then the
ballot is considered a "problem ballot" and may be set aside into a folder named
"NotCastImages".
10. Through creatively tweaking the oval coverage threshold settings, and
advanced settings on the ImageCase Central scanners, it may be possible to set
thresholds in such a way that a non-trivial amount of ballots are marked "problem
ballots" and sent to the "NotCastImages" folder.
11. The administrator of the ImageCast Central work station may view all images
of scanned ballots which were deemed "problem ballots" by simply navigating via
the standard "Windows File Explorer" to the folder named "NotCastImages"
which holds ballot scans of "problem ballots". It may be possible for an
administrator of the "ImageCast Central" workstation to view and delete any
individual ballot scans from the "NotCastImages" folder by simply using the
standard Windows delete and recycle bin functions provided by the Windows 10
Pro operating system. Id. ¶¶9-11.
152.

Mr. Watkins further explains the vulnerabilities in the system when the copy of

the selected ballots that are approved in the Results folder are made to a flash memory card – and
that is connected to a Windows computer stating:
The upload process is just a simple copying of a "Results" folder containing vote
tallies to a flash memory card connected to the "Windows 10 Pro" machine. The
copy process uses the standard drag-n-drop or copy/paste mechanisms within the
ubiquitous "Windows File Explorer". While a simple procedure, this process may
be error prone and is very vulnerable to malicious administrators. Id. ¶13.
2.
153.

Dominion – By Design – Violates Federal Election & Voting Record
Retention Requirements.

The Dominion System put in place by its own design violates the intent of Federal

55

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.927 Filed 11/29/20 Page 56 of 86
000067

law on the requirement to preserve and retain records – which clearly requires preservation of all
records requisite to voting in such an election.
§ 20701. Retention and preservation of records and papers by officers of
elections; deposit with custodian; penalty for violation
Every officer of election shall retain and preserve, for a period of twentytwo months from the date of any general, special, or primary election of
which candidates for the office of President, Vice President, presidential
elector, Member of the Senate, Member of the House of Representatives,
or Resident Commissioner from the Commonwealth of Puerto Rico are
voted for, all records and papers which come into his possession
relating to any application, registration, payment of poll tax, or other
act requisite to voting in such election, except that, when required by
law, such records and papers may be delivered to another officer of
election and except that, if a State or the Commonwealth of Puerto Rico
designates a custodian to retain and preserve these records and papers at a
specified place, then such records and papers may be deposited with such
custodian, and the duty to retain and preserve any record or paper so
deposited shall devolve upon such custodian. Any officer of election or
custodian who willfully fails to comply with this section shall be fined not
more than $1,000 or imprisoned not more than one year, or both.
See 52 USC § 20701.
154.

A Penn Wharton Study from 2016 concluded that “Voters and their

representatives in government, often prompted by news of high-profile voting problems,
also have raised concerns about the reliability and integrity of the voting process, and
have increasingly called for the use of modern technology such as laptops and tablets to
improve convenience.” 15
3.
155.

Dominion Vulnerabilities to Hacking.

Plaintiffs have since learned that the "glitches" in the Dominion system --

15

Penn Wharton Public Policy Initiative, University of Pennsylvania, The Business of Voting:
Market Structure and Innovation in the Election Technology Industry at 16 (2016) (“Penn
Wharton 2016 Study”), available at: https://trustthevote.org/wp-content/uploads/2017/03/2017whartonoset_industryreport.pdf.

56

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.928 Filed 11/29/20 Page 57 of 86
000068

that have the uniform effect of hurting Trump and helping Biden -- have been widely
reported in the press and confirmed by the analysis of independent experts.
156.

Plaintiffs can show, through expert and fact witnesses that:

A.

Massive End User Vulnerabilities.

(1) Users on the ground have full admin privileges to machines and software. The
Dominion system is designed to facilitate vulnerability and allow a select few
to determine which votes will be counted in any election. Workers were
responsible for moving ballot data from polling place to the collector’s office
and inputting it into the correct folder. Any anomaly, such as pen drips or
bleeds, is not counted and is handed over to a poll worker to analyze and
decide if it should count. This creates massive opportunity for improper vote
adjudication. (Ex. 106 Watkins aff. ¶¶8 & 11).
(2) Affiant witness (name redacted for security reasons), in his sworn testimony
explains he was selected for the national security guard detail of the President
of Venezuela, and that he witnessed the creation of Smartmatic for the purpose
of election vote manipulation:
I was witness to the creation and operation of a sophisticated electronic
voting system that permitted the leaders of the Venezuelan government
to manipulate the tabulation of votes for national and local elections
and select the winner of those elections in order to gain and maintain
their power. Importantly, I was a direct witness to the creation and
operation of an electronic voting system in a conspiracy between a
company known as Smartmatic and the leaders of conspiracy with the
Venezuelan government. This conspiracy specifically involved
President Hugo Chavez Frias, the person in charge of the National
Electoral Council named Jorge Rodriguez, and principals,
representatives, and personnel from Smartmatic which included … The
purpose of this conspiracy was to create and operate a voting system
that could change the votes in elections from votes against persons
running the Venezuelan government to votes in their favor in order to
maintain control of the government. (Id. ¶¶6, 9, 10).
157.

Specific vulnerabilities of the systems in question that have been

documented or reported include:
A. Barcodes can override the voters’ vote: As one University of California,
Berkeley study shows, “In all three of these machines [including Dominion
Voting Systems] the ballot marking printer is in the same paper path as the
mechanism to deposit marked ballots into an attached ballot box. This opens

57

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.929 Filed 11/29/20 Page 58 of 86
000069

up a very serious security vulnerability: the voting machine can make the
paper ballot (to add votes or spoil already-case votes) after the last time the
voter sees the paper, and then deposit that marked ballot into the ballot box
without the possibility of detection.” (See Ex. 2, Appel Study).
B. Voting machines were able to be connected to the internet by way of laptops
that were obviously internet accessible. If one laptop was connected to the
internet, the entire precinct was compromised.
C. October 6, 2006 – Congresswoman Carolyn Maloney calls on Secretary of
Treasury Henry Paulson to conduct an investigation into Smartmatic based on
its foreign ownership and ties to Venezuela. (See Ex. 15). Congresswoman
Maloney wrote that “It is undisputed that Smartmatic is foreign owned and it
has acquired Sequoia … Smartmatic now acknowledged that Antonio
Mugica, a Venezuelan businessman has a controlling interest in Smartmatica,
but the company has not revealed who all other Smartmatic owners are. Id.
D. Dominion “got into trouble” with several subsidiaries it used over alleged
cases of fraud. One subsidiary is Smartmatic, a company “that has played a
significant role in the U.S. market over the last decade.” 16 Dominion entered
into a 2009 contract with Smartmatic and provided Smartmatic with the
PCOS machines (optical scanners) that were used in the 2010 Philippine
election, the biggest automated election run by a private company. The
automation of that first election in the Philippines was hailed by the
international community and by the critics of the automation. The results
transmission reached 90% of votes four hours after polls closed and Filipinos
knew for the first time who would be their new president on Election Day. In
keeping with local Election law requirements, Smartmatic and Dominion
were required to provide the source code of the voting machines prior to
elections so that it could be independently verified. Id.
E. Litigation over Smartmatic “glitches” alleges they impacted the 2010 and
2013 mid-term elections in the Philippines, raising questions of cheating and
fraud. An independent review of the source codes used in the machines found
multiple problems, which concluded, “The software inventory provided by
Smartmatic is inadequate, … which brings into question the software
credibility.” 17
F. Dominion acquired Sequoia Voting Systems as well as Premier Election
16

Voting Technology Companies in the U.S. – Their Histories and Present Contributions,
Access Wire, (Aug. 10, 2017), available at: https://www.accesswire.com/471912/VotingTechnology-Companies-in-the-US--Their-Histories.

17

Smartmatic-TIM Running Out of Time to Fix Glitches, ABS-CBN News (May 4, 2010),
available at: https://news.abs-cbn.com/nation/05/04/10/smartmatic-tim-running-out-time-fixglitches.

58

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.930 Filed 11/29/20 Page 59 of 86
000070

Solutions (formerly part of Diebold, which sold Premier to ES&S in 2009,
until antitrust issues forced ES&S to sell Premier, which then was acquired by
Dominion). This map illustrates 2016 voting machine data—meaning, these
data do not reflect geographic aggregation at the time of acquisition, but
rather the machines that retain the Sequoia or Premier/Diebold brand that now
fall under Dominion’s market share. Penn Wharton Study at 16.
G. In late December of 2019, three Democrat Senators, Warren, Klobuchar,
Wyden and House Member Mark Pocan wrote about their ‘particularized
concerns that secretive & “trouble -plagued companies”’ “have long skimped
on security in favor of convenience,” in the context of how they described the
voting machine systems that three large vendors – Election Systems &
Software, Dominion Voting Systems, & Hart InterCivic – collectively provide
voting machines & software that facilitate voting for over 90% of all eligible
voters in the U.S.” (See Ex. 16).
H. Senator Ron Wyden (D-Oregon) said the findings [insecurity of voting
systems] are “yet another damning indictment of the profiteering election
vendors, who care more about the bottom line than protecting our
democracy.” It’s also an indictment, he said, “of the notion that important
cybersecurity decisions should be left entirely to county election offices,
many of whom do not employ a single cybersecurity specialist.” 18
158.

The expert witness in pending litigation in the United States District Court

of Georgia, Case 1:17-cv-02989-AT, Harri Hursti, specifically testified to the acute
security vulnerabilities, among other facts, by declaration filed on August 24, 2020,
(See Ex. 107) wherein he testified or found:
A. “The scanner and tabulation software settings being employed to determine
which votes to count on hand marked paper ballots are likely causing clearly
intentioned votes to be counted” “The voting system is being operated in
Fulton County in a manner that escalates the security risk to an extreme level”
“Votes are not reviewing their BMD printed ballots, which causes BMD
generated results to be un-auditable due to the untrustworthy audit trail.” 50%
or more of voter selections in some counties were visible to poll workers.
Dominion employees maintain near exclusive control over the EMS servers.
“In my professional opinion, the role played by Dominion personnel in Fulton
County, and other counties with similar arrangements, should be considered
18

Kim Zetter, Exclusive: Critical U.S. Election Systems Have Been Left Exposed Online Despite
Official Denials, VICE (Aug. 8, 2019) (“VICE Election Article”), available at:
https://www.vice.com/en/article/3kxzk9/exclusive-critical-us-election-systems have-been-leftexposed-online-despite-official-denials.

59

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.931 Filed 11/29/20 Page 60 of 86
000071

an elevated risk factor when evaluating the security risks of Georgia’s voting
system.” Id. ¶26.
B. A video game download was found on one Georgia Dominion system laptop,
suggesting that multiple Windows updates have been made on that respective
computer.
C. There is evidence of remote access and remote troubleshooting which
presents a grave security implication.
D. Certified identified vulnerabilities should be considered an “extreme security
risk.”
E. There is evidence of transfer of control the systems out of the physical
perimeters and place control with a third party off site.
F. USB drives with vote tally information were observed to be removed from the
presence of poll watchers during a recent election.
1.

Hursti stated within said Declaration:

“The security risks outlined above – operating system risks, the failure to
harden the computers, performing operations directly on the operating
systems, lax control of memory cards, lack of procedures, and potential
remote access are extreme and destroy the credibility of the tabulations
and output of the reports coming from a voting system.” Id. ¶49.
159.

Rather than engaging in an open and transparent process to give credibility

to Michigan’s Dominion-Democracy Suite voting system, the processes were hidden
during the receipt, review, opening, and tabulation of those votes in direct contravention
of Michigan’s Election Code and Federal law.
160.

In October of 2020 The FBI and CISA issued a JOINT CYBERSECURITY

ADVISORY ON October 30, 2020 titled: Iranian Advanced Persistent Threat Actor
Identified Obtained Voter Registration Data
This joint cybersecurity advisory was coauthored by the Cybersecurity and
Infrastructure Security Agency (CISA) and the Federal Bureau of Investigation
(FBI). CISA and the FBI are aware of an Iranian advanced persistent threat (APT)
actor targeting U.S. state websites to include election websites. CISA and the FBI
assess this actor is responsible for the mass dissemination of voter intimidation
emails to U.S. citizens and the dissemination of U.S. election-related

60

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.932 Filed 11/29/20 Page 61 of 86
000072

disinformation in mid-October 2020.1 (Reference FBI FLASH message ME000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the
FBI has identified the targeting of U.S. state election websites was an intentional
effort to influence and interfere with the 2020 U.S. presidential election. (See Ex.
18 at 1, CISA and FBI Joint Cyber Security Advisory of October 30, 2020)
161.

An analysis of the Dominion software system by a former US Military

Intelligence expert subsequently found that the Dominion Voting system and software are
accessible - and got compromised by rogue actors, including foreign interference by Iran and
China. (See Ex. 105, Spider Declaration (Affiant’s name redacted for security reasons)).
162.

The expert finds an analysis and explains how by using servers and employees

connected with rogue actors and hostile foreign influences combined with numerous easily
discoverable leaked credentials, Dominion allowed foreign adversaries to access data and
intentionally provided access to their infrastructure in order to monitor and manipulate elections,
including the most recent one in 2020. (See Id.). Several facts are set forth related to foreign
members of Dominion Voting Systems and foreign servers as well as foreign interference.).
163.

Another expert, whose name has been redacted, conducted in-depth statistical

analysis of publicly available data on the 2020 U.S. Presidential Election from November 13,
2020 through November 28, 2020. (See Ex. 111). He compares results from Dominion Voting
Machines to areas with non-Dominion Voting Machines and he finds that Biden out-performs in
the areas with Dominion Voting Machines, and after checking for other potential drivers of bias,
finds none. Id. ¶¶11-12. He finds the difference to be clearly statistically significant. His
review includes data included vote counts for each county in the United States, U.S. Census data,
and type of voting machine data provided by the U.S. Election Assistance Committee and further
concludes that “the results of the analysis and the pattern seen in the included graph strongly
suggest a systemic, system-wide algorithm was enacted by an outside agent, causing the results
of Michigan’s vote tallies to be inflated by somewhere between three and five point six

61

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.933 Filed 11/29/20 Page 62 of 86
000073

percentage points. Statistical estimating yields that in Michigan, the best estimate of the
number of impacted votes is 162,400. However, a 95% confidence interval calculation yields
that as many as 276,080 votes may have been impacted.” Id. ¶13.
4.
164.

Background of Dominion Connections to Smartmatic and
Hostile Foreign Governments.

Plaintiffs can also show Smartmatic’s incorporation and inventors who

have backgrounds evidencing their foreign connections, including Serbia, specifically
its identified inventors:
Applicant: SMARTMATIC, CORP.
Inventors: Lino Iglesias, Roger Pinate, Antonio Mugica, Paul Babic, Jeffrey
Naveda, Dany Farina, Rodrigo Meneses, Salvador Ponticelli, Gisela Goncalves,
Yrem Caruso 19
165.

Another Affiant witness testifies that in Venezuela, she was in official

position related to elections and witnessed manipulations of petitions to prevent a
removal of President Chavez and because she protested, she was summarily dismissed.
She explains the vulnerabilities of the electronic voting system and Smartmatica to such
manipulations. (See Ex. 17, Cardozo Aff. ¶8).
G.

Because Dominion Senior Management Has Publicly Expressed
Hostility to Trump and Opposition to His Election, Dominion Is Not
Entitled to Any Presumption of Fairness, Objectivity or Impartiality,
and Should Instead Be Treated as a Hostile Partisan Political Actor.

166.

Dr. Eric Coomer is listed as the co-inventor for several patents on ballot

adjudication and voting machine-related technology, all of which were assigned to
Dominion. 20 He joined Dominion in 2010, and most recently served as Voting Systems
See Patents Assigned to Smartmatic Corp., available at:
https://patents.justia.com/assignee/smartmatic-corp
19

20

See “Patents by Inventor Eric Coomer,” available at:
https://patents.justia.com/inventor/eric-coomer. This page lists the following patents
62

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.934 Filed 11/29/20 Page 63 of 86
000074

Officer of Strategy and Director of Security for Dominion. Upon information and
belief, Dr. Coomer first joined Sequoia Voting Systems in 2005 as Chief Software
Architect and became Vice President of Engineering before Dominion Voting Systems
acquired Sequoia. Dr. Coomer’s patented ballot adjudication technology into Dominion
voting machines sold throughout the United States, including those used in Michigan.
167.

In 2016, Dr. Coomer admitted to the State of Illinois that Dominion

Voting machines can be manipulated remotely. 21 He has also publicly posted videos
explaining how Dominion voting machines can be remotely manipulated. 22
168.

Dr. Coomer has emerged as Dominion’s principal defender, both in

litigation alleging that Dominion rigged elections in Georgia and in the media. An
examination of his previous public statements has revealed that Dr. Coomer is a highly
partisan and even more anti-Trump, precisely the opposite of what would expect from

issued to Dr. Coomer and his co-inventors: (1) U.S. Patent No. 9,202,113, Ballot
Adjudication in Voting Systems Utilizing Ballot Images (issued Dec. 1, 2015); (2) U.S.
Patent No. 8,913,787, Ballot Adjudication in Voting Systems Utilizing Ballot Images
(issued Dec. 16, 2014); (3) U.S. Patent No. 8,910,865, Ballot Level Security Features
for Optical Scan Voting Machine Capable of Ballot Image Processing, Secure Ballot
Printing, and Ballot Layout Authentication and Verification (issued Dec. 16, 2014); (4)
U.S. Patent No. 8,876,002, Systems for Configuring Voting Machines, Docking Device
for Voting Machines, Warehouse Support and Asset Tracking of Voting Machines
(issued Nov. 4, 2014); (5) U.S. Patent No. 8,864,026, Ballot Image Processing System
and Method for Voting Machines (issued Oct. 21, 2014); (6) U.S. Patent No. 8,714,450,
Systems and Methods for Transactional Ballot Processing, and Ballot Auditing (issued
May 6, 2014), available at: https://patents.justia.com/inventor/eric-coomer.
21

Jose Hermosa, Electoral Fraud: Dominion’s Vice President Warned in 2016 That VoteCounting Systems Are Manipulable, The BL (Nov. 13, 2020), available at: https://thebl.com/usnews/electoral-fraud-dominions-vice-president-warned-in-2016-that-vote-counting-systems-aremanipulable.html.
22

See, e.g., “Eric Coomer Explains How to Alter Votes in the Dominion Voting System” (Nov.
24, 2020) (excerpt of presentation delivered in Chicago in 2017), available at:
https://www.youtube.com/watch?v=UtB3tLaXLJE.

63

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.935 Filed 11/29/20 Page 64 of 86
000075

the management of a company charged with fairly and impartially counting votes
(which is presumably why he tried to scrub his social media history).
169.

Unfortunately for Dr. Coomer, however, a number of these posts have

been captured for perpetuity. Below are quotes from some of his greatest President
Trump and Trump voter hating hits. (See Ex. 19).
If you are planning to vote for that autocratic, narcissistic, fascist ass-hat
blowhard and his Christian jihadist VP pic, UNFRIEND ME NOW! No,
I’m not joking. … Only an absolute F[**]KING IDIOT could ever vote
for that wind-bag fuck-tard FASCIST RACIST F[**]K! … I don’t give a
damn if you’re friend, family, or random acquaintance, pull the lever,
mark an oval, touch a screen for that carnival barker … UNFRIEND ME
NOW! I have no desire whatsoever to ever interact with you. You are
beyond hope, beyond reason. You are controlled by fear, reaction and
bullsh[*]t. Get your shit together. F[**]K YOU! Seriously, this f[**]king
ass-clown stands against everything that makes this country awesome!
You want in on that? You [Trump voters] deserve nothing but contempt.
Id. (July 21, 2016 Facebook post). 23
170.

In a rare moment of perhaps unintentional honesty, Dr. Coomer anticipates

this Complaint and many others, by slandering those seeking to hold election riggers
like Dominion to account and to prevent the United States’ descent into Venezuelan
levels of voting fraud and corruption out of which Dominion was born:
Excerpts in stunning Trump-supporter logic, “I know there is a lot of voter
fraud. I don’t know who is doing it, or how much is happening, but I
know it is going on a lot.” This beautiful statement was followed by, “It
happens in third world countries, this the US, we can’t let it happen here.”
Id. (October 29, 2016 Facebook post).
171.

Dr. Coomer, who invented the technology for Dominion’s voting fraud

and has publicly explained how it can be used to alter votes, seems to be extremely
hostile to those who would attempt to stop it and uphold the integrity of elections that

In this and other quotations from Dr. Coomer’s social media, Plaintiffs have redacted certain
profane terms.

23

64

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.936 Filed 11/29/20 Page 65 of 86
000076

underpins the legitimacy of the United States government:
And in other news… There be some serious fuckery going on right here
fueled by our Cheeto-in-Chief stocking lie after lie on the flames of [Kris]
Kobach… [Linking Washington Post article discussing the Presidential
Advisory Commission on Election Integrity, of which former Kansas
Secretary of State Kris Kobach was a member, entitled, “The voting
commission is a fraud itself. Shut it down.”] Id. (September 14, 2017
Facebook post.]
172.

Dr. Coomer also keeps good company, supporting and reposting ANTIFA

statements slandering President Trump as a “fascist” and by extension his supporters,
voters and the United States military (which he claims, without evidence, Trump will
make into a “fascist tool”). Id. (June 2, 2020 Facebook post). Lest someone claims that these
are “isolated statements” “taken out of context”, Dr. Coomer has affirmed that he shares
ANTIFA’s taste in music and hatred of the United States of America, id. (May 31, 2020
Facebook post linking “F[**]k the USA” by the exploited), the police. Id. (separate May 31,
2020 Facebook posts linking N.W.A. “F[**]k the Police” and a post promoting phrase “Dead
Cops”). Id. at 4-5.
173.

Affiant and journalist Joseph Oltmann researched an ANTIFA in

Colorado. Id. at 1. “On or about the week of September 27, 2020,” he attended an
Antifa meeting which appeared to be between Antifa members in Colorado Springs and
Denver Colorado,” where Dr. Coomer was present. In response to a question as to what
Antifa “if Trump wins this … election?”, Dr. Coomer responded “Don’t worry about
the election. Trump is not going to win. I made f[**]king sure of that … Hahaha.” Id.
at 2.
174.

By putting an anti-Trump zealot like Dr. Coomer in charge of election “Security,”

and using his technology for what should be impartial “ballot adjudication,” Dominion has given
the fox the keys to the hen house and has forfeited any presumption of objectivity, fairness, or

65

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.937 Filed 11/29/20 Page 66 of 86
000077

even propriety. It appears that Dominion does not even care about even an appearance of
impropriety, as its most important officer has his fingerprints all over a highly partisan,
vindictive, and personal vendetta against the Republican nominee both in 2016 and 2020,
President Donald Trump. Dr. Coomer’s highly partisan anti-Trump rages show clear motive on
the part of Dominion to rig the election in favor of Biden, and may well explain why for each of
the so-called “glitches” uncovered, it is always Biden receiving the most votes on the favorable
end of such a “glitch.”
175.

In sum, as set forth above, for a host of independent reasons, the Michigan

certified election results concluding that Joe Biden received 154,188 more votes that
President Donald Trump must be set aside.
COUNT I
Defendants Violated the Elections and Electors Clauses and 42 U.S.C. § 1983.
176.

Plaintiffs reallege all preceding paragraphs as if fully set forth herein.

177.

The Electors Clause states that “[e]ach State shall appoint, in such Manner as the

Legislature thereof may direct, a Number of Electors” for President. U.S. Const. art. II, §1, cl. 2
(emphasis added). Likewise, the Elections Clause of the U.S. Constitution states that “[t]he
Times, Places, and Manner of holding Elections for Senators and Representatives, shall be
prescribed in each State by the Legislature thereof.” U.S. Const. art. I, § 4, cl. 1 (emphasis
added).
178.

The Legislature is “‘the representative body which ma[kes] the laws of the

people.’” Smiley v. Holm, 285 U.S. 355, 365 (1932). Regulations of congressional and
presidential elections, thus, “must be in accordance with the method which the state has
prescribed for legislative enactments.” Id. at 367; see also Ariz. State Legislature v.

66

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.938 Filed 11/29/20 Page 67 of 86
000078

Ariz. Indep. Redistricting Comm’n, 135 S. Ct. 2652, 2668 (2015).
179.

Defendants are not part of the Michigan Legislature and cannot exercise

legislative power. Because the United States Constitution reserves for the Michigan
Legislature the power to set the time, place, and manner of holding elections for the
President and Congress, county boards of elections and state executive officers have no
authority to unilaterally exercise that power, much less to hold them in ways that
conflict with existing legislation. Defendants are not the legislature, and their unilateral
decision to deviate from the requirements of the Michigan Election Code violates the
Electors and Elections Clause of the United States Constitution.
180.

Many affiants testified to Defendants’ failure to follow the requirements of

the Michigan Election Code, as enacted by the Michigan Legislature, MCL §§ 168.730738, relating to the rights of partisan election challengers to provide transparency and
accountability to ensure that all, and only, lawful ballots casts be counted, and that the
outcome of the election was honestly and fairly determined by eligible voters casting
legal ballots. As detailed in Section II, many of these requirements were either
disregarded altogether or applied in a discriminatory manner to Republican election
challengers. Specifically, election officials violated Michigan’s Election Code by:
(a) disregarding or violating MCL § 168.730 and § 168.733 requiring election
challengers to have meaningful access to observe the counting and processing of ballots,
see supra Section II.A; (b) wanton and widespread forgery and alteration, addition or
removal of votes, voters, or other information from ballots, the QVF or other voting
records, see supra Section II.B; and (c) illegal double voting, counting ineligible ballots,
failure to check signatures or postmarks, and several other practices in clear violation of

67

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.939 Filed 11/29/20 Page 68 of 86
000079

the Michigan Election Code (and in some cases at the express direction of supervisors
or Wayne County officials). See supra Section II.C.
181.

Plaintiffs have no adequate remedy at law and will suffer serious and

irreparable harm unless the injunctive relief requested herein is granted. Defendants
have acted and, unless enjoined, will act under color of state law to violate the Elections
Clause. Accordingly, the results for President in the November 3, 2020 election must
be set aside, the State of Michigan should be enjoined from certifying the results
thereof, and this Court should grant the other declaratory and injunctive relief requested
herein.
COUNT II
Governor Whitmer, Secretary Benson and Other Defendants Violated The Equal
Protection Clause of the Fourteenth Amendment U.S. Const. Amend. XIV &
42 U.S.C. § 1983
Invalid Enactment of Regulations Affecting Observation and Monitoring of the
Election & Disparate Implementation of Michigan Election Code
182.

Plaintiffs refer to and incorporate by reference each of the prior paragraphs of this

Complaint as though the same were repeated at length herein.
183.

The Fourteenth Amendment of the United States Constitution provides “nor shall

any state deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws. See also Bush
v. Gore, 531 U.S. 98, 104 (2000) (having once granted the right to vote on equal terms,
the State may not, by later arbitrary and disparate treatment, value one person’s vote
over the value of another’s). Harper v. Va. Bd. of Elections, 383 U.S. 663, 665 (1966)
(“Once the franchise is granted to the electorate, lines may not be drawn which are
inconsistent with the Equal Protection Clause of the Fourteenth Amendment.”). The

68

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.940 Filed 11/29/20 Page 69 of 86
000080

Court has held that to ensure equal protection, a problem inheres in the absence of
specific standards to ensure its equal application. Bush, 531 U.S. at 106 (“The
formulation of uniform rules to determine intent based on these recurring circumstances
is practicable and, we conclude, necessary.”).
184.

The equal enforcement of election laws is necessary to preserve our most

basic and fundamental rights. The requirement of equal protection is particularly
stringently enforced as to laws that affect the exercise of fundamental rights, including
the right to vote.
185.

The disparate treatment of Michigan voters, in subjecting one class of voters to

greater burdens or scrutiny than another, violates Equal Protection guarantees because “the right
of suffrage can be denied by a debasement or dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of the franchise.” Reynolds, 377 U.S. at
555. Rice v. McAlister, 268 Ore. 125, 128, 519 P.2d 1263, 1265 (1975); Heitman v. Brown Grp.,
Inc., 638 S.W.2d 316, 319, 1982 Mo. App. LEXIS 3159, at *4 (Mo. Ct. App. 1982); Prince v.
Bear River Mut. Ins. Co., 2002 UT 68, ¶ 41, 56 P.3d 524, 536-37 (Utah 2002).
186.

In statewide and federal elections conducted in the State of Michigan,

including without limitation the November 3, 2020 General Election, all candidates,
political parties, and voters, including without limitation Plaintiffs, have a vested
interest in being present and having meaningful access to observe and monitor the
electoral process in each County to ensure that it is properly administered in every
election district and otherwise free, fair, and transparent. Moreover, through its
provisions involving watchers and representatives, the Michigan Election Code ensures
that all candidates and political parties in each County, including the Trump Campaign,

69

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.941 Filed 11/29/20 Page 70 of 86
000081

have meaningful access to observe and monitor the electoral process to ensure that it is
properly administered in every election district and otherwise free, fair, and transparent.
See, e.g., MCL § 168.730 & § 168.733(1).
187.

Further, the Michigan Election Code provides it is a felony punishable by up

to two years in state prison for any person to threaten or intimidate a challenger who is
performing any activity described in Michigan law. MCL § 168.734(4). Defendants have a
duty to treat the voting citizens in each County in the same manner as the citizens in
other Counties in Michigan.
188.

As set forth in Count I above, Defendants failed to comply with the

requirements of the Michigan Election Code and thereby diluted the lawful ballots of
the Plaintiffs and of other Michigan voters and electors in violation of the United States
Constitution guarantee of Equal Protection.
189.

Specifically, Defendants denied the Trump Campaign equal protection of

the law and their equal rights to meaningful access to observe and monitor the electoral
process enjoyed by citizens in other Michigan Counties by: (a) denying Republican poll
challengers access to the TCF Center or physically removing them or locking them out
for pretextual reasons; (b) denied Republican poll watchers meaningful access to, or
even physically blocking their view of, ballot handling, processing, or counting; (c)
engaged in a systematic pattern of harassment, intimidation, verbal insult, and even
physical removal of Republican poll challengers; (d) systematically discriminated
against Republican poll watchers and in favor of Democratic poll watchers and activists
in enforcing rules (in particular, through abuse of “social distancing” requirements); (e)
ignored or refused to record Republican challenges to the violations set forth herein; (f)

70

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.942 Filed 11/29/20 Page 71 of 86
000082

refused to permit Republican poll watchers to observe ballot duplication or to check if
duplication was accurate; (g) unlawfully coached voters to vote for Biden and other
democratic candidates, including at voting stations; and (h) colluded with other
Michigan State, Wayne County and City of Detroit employees (including police) and
Democratic poll watchers and activists to engage in the foregoing violations. See
generally supra Section II.A.
190.

Defendants further violated Michigan voters’ rights to equal protection

insofar as it allowed Wayne County and City of Detroit election workers to process and
count ballots in a manner that allowed ineligible ballots to be counted, including: (a)
fraudulently adding tens of thousands of new ballots and/or new voters to the QVF in
two separate batches on November 4, 2020, all or nearly all of which were votes for Joe
Biden; (b) systematically forging voter information and fraudulently adding new voters
to the QVF (in particular, where a voter’s name could not be found, assigning the ballot
to a random name already in the QVF to a person who had not voted and recorded these
new voters as having a birthdate of 1/1/1900); (c) fraudulently changing dates on
absentee ballots received after 8:00 PM Election Day deadline to indicate that such
ballots were received before the deadline; (d) changing votes for Trump and other
Republican candidates; (e) adding votes to “undervote” ballots and removing votes from
“Over-Votes”; (f) permitting illegal double voting by persons that had voted by absentee
ballot and in person; (g) counting ineligible ballots – and in many cases – multiple
times; (h) counting ballots without signatures, or without attempting to match
signatures, and ballots without postmarks, pursuant to direct instructions from
Defendants; (i) counting “spoiled” ballots; (j) systematic violations of ballot secrecy

71

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.943 Filed 11/29/20 Page 72 of 86
000083

requirements; (k) accepting unsecured ballots arrived at the TCF Center loading garage,
not in sealed ballot boxes, without any chain of custody, and without envelopes, after
the 8:00 PM Election Day deadline; (l) accepting and counting ballots from deceased
voters; and (m) accepting and counting ballots collected from unattended remote drop
boxes. See generally infra Section II.B. and II.C.
191.

Plaintiffs have obtained direct eyewitness testimony confirming that

certain of these unlawful practices were at the express direction of Wayne County
election officials. With respect to (a) and (b), Affiant Cushman testified that election
supervisor Miller informed him that the Wayne County Clerk’s office had expressly
instructed them to manually to enter thousands of ballots arriving around 9 PM on
November 4, 2020, from voters not in the QVF, and to manually enter these
unregistered voters in the QVF with the birthdate of 1/1/1900. Ex. 4, GLJC Complaint,
Ex. D ¶¶ 14-17. With respect to (c), fraudulently back-dating absentee ballots, City of
Detroit election worker Affiant Jacob affirmed that she was instructed by supervisors to
“improperly pre-date the absentee ballots receive date … to falsely show that absentee
ballots had been received in time to be valid.” Id. Ex. B ¶17. With respect to (h)
(accepting ballots without signatures or postmarks), affiants testified that election
workers did so at the express direction of Wayne County election officials. See id. ¶15.
192.

Other Michigan county boards of elections provided watchers and

representatives of candidates and political parties, including without limitation watchers
and representatives of the Trump Campaign, with appropriate access to view the
absentee and mail-in ballots being pre-canvassed and canvassed by those county
election boards without the restrictions and discriminatory treatment outline above.

72

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.944 Filed 11/29/20 Page 73 of 86
000084

Defendants intentionally and/or arbitrarily and capriciously denied Plaintiffs access to
and/or obstructed actual observation and monitoring of the absentee and mail-in ballots
being pre-canvassed and canvassed by Defendants, depriving them of the equal
protection of those state laws enjoyed by citizens in other Counties.
193.

Defendants have acted and will continue to act under color of state law to

violate Plaintiffs’ right to be present and have actual observation and access to the
electoral process as secured by the Equal Protection Clause of the United States
Constitution. Defendants thus failed to conduct the general election in a uniform
manner as required by the Equal Protection Clause of the Fourteenth Amendment, the
corollary provisions of the Michigan Constitution, and the Michigan Election Code.
194.

Plaintiffs seek declaratory and injunctive relief requiring Secretary Benson

to direct that the Michigan Counties allow a reasonable number of challengers to
meaningfully observe the conduct of the Michigan Counties canvassers and board of
state canvassers and that these canvassing boards exercise their duty and authority under
Michigan law, which forbids certifying a tally that includes any ballots that were not
legally cast, or that were switched from Trump to Biden through the unlawful use of
Dominion Democracy Suite software and devices.
195.

In addition, Plaintiffs ask this Court to order that no ballot processed by a

counting board in the Michigan Counties can be included in the final vote tally unless a
challenger was allowed to meaningfully observe the process and handling and counting
of the ballot, or that were unlawfully switched from Trump to Biden.
196.

Plaintiffs have no adequate remedy at law and will suffer serious and

irreparable harm unless the declaratory and injunctive relief requested herein is granted.

73

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.945 Filed 11/29/20 Page 74 of 86
000085

Indeed, the setting aside of an election in which the people have chosen their
representative is a drastic remedy that should not be undertaken lightly, but instead
should be reserved for cases in which a person challenging an election has clearly
established a violation of election procedures and has demonstrated that the violation
has placed the result of the election in doubt. Michigan law allows elections to be
contested through litigation, both as a check on the integrity of the election process and
as a means of ensuring the fundamental right of citizens to vote and to have their votes
counted accurately.
197.

In addition to the alternative requests for relief in the preceding

paragraphs, hereby restated, Plaintiffs seek a permanent injunction requiring the Wayne
County and other Michigan Election Boards to invalidate ballots cast by: (1) any voter
added to the QVF after the 8:00 PM Election Day deadline; (3) any absentee or mail-in
ballot received without a signature or postmark; (4) any ballot cast by a voter who
submitted a mail-in ballot and voted in person; (5) any ballot cast by a voter not in the
QVF that was assigned the name of a voter in the QVF; (6) voters whose signatures on
their registrations have not been matched with ballot, envelope and voter registration
check; and (7) all “dead votes”. See generally supra Section II.A-II.C.
COUNT III
Fourteenth Amendment, Amend. XIV & 42 U.S.C. § 1983
Denial of Due Process On The Right to Vote
198.

Plaintiffs refer to and incorporate by reference each of the prior

paragraphs of this Complaint as though the same were repeated at length herein.
199.

The right of qualified citizens to vote in a state election involving federal

74

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.946 Filed 11/29/20 Page 75 of 86
000086

candidates is recognized as a fundamental right under the Fourteenth Amendment of the
United States Constitution. Harper, 383 U.S. at 665. See also Reynolds, 377 U.S. at
554 (The Fourteenth Amendment protects the “the right of all qualified citizens to vote,
in state as well as in federal elections.”). Indeed, ever since the Slaughter-House Cases,
83 U.S. 36 (1873), the United States Supreme Court has held that the Privileges or
Immunities Clause of the Fourteenth Amendment protects certain rights of federal
citizenship from state interference, including the right of citizens to directly elect
members of Congress. See Twining v. New Jersey, 211 U.S. 78, 97 (1908) (citing Ex
parte Yarbrough, 110 U.S. 651, 663-64 (1884)). See also Oregon v. Mitchell, 400 U.S.
112, 148-49 (1970) (Douglas, J., concurring) (collecting cases).
200.

The fundamental right to vote protected by the Fourteenth Amendment is

cherished in our nation because it “is preservative of other basic civil and political
rights.” Reynolds, 377 U.S. at 562. Voters have a “right to cast a ballot in an election
free from the taint of intimidation and fraud,” Burson v. Freeman, 504 U.S. 191, 211
(1992), and “[c]onfidence in the integrity of our electoral processes is essential to the
functioning of our participatory democracy.” Purcell v. Gonzalez, 549 U.S. 1, 4 (2006)
(per curiam).
201.

“Obviously included within the right to [vote], secured by the

Constitution, is the right of qualified voters within a state to cast their ballots and have
them counted” if they are validly cast. United States v. Classic, 313 U.S. 299, 315
(1941). “[T]he right to have the vote counted” means counted “at full value without
dilution or discount.” Reynolds, 377 U.S. at 555, n.29 (quoting South v. Peters, 339
U.S. 276, 279 (1950) (Douglas, J., dissenting)).

75

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.947 Filed 11/29/20 Page 76 of 86
000087

202.

“Every voter in a federal . . . election, whether he votes for a candidate

with little chance of winning or for one with little chance of losing, has a right under the
Constitution to have his vote fairly counted, without its being distorted by fraudulently
cast votes.” Anderson v. United States, 417 U.S. 211, 227 (1974); see also Baker v.
Carr, 369 U.S. 186, 208 (1962). Invalid or fraudulent votes “debase[]” and “dilute” the
weight of each validly cast vote. See Anderson, 417 U.S. at 227.
203.

The right to vote includes not just the right to cast a ballot, but also the right to

have it fairly counted if it is legally cast. The right to vote is infringed if a vote is cancelled or
diluted by a fraudulent or illegal vote, including without limitation when a single person votes
multiple times. The Supreme Court of the United States has made this clear in case after case.
See, e.g., Gray v. Sanders, 372 U.S. 368, 380 (1963) (every vote must be “protected from the
diluting effect of illegal ballots.”); Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 196
(2008) (plurality op. of Stevens, J.) (“There is no question about the legitimacy or importance of
the State’s interest in counting only the votes of eligible voters.”); accord Reynolds v. Sims, 377
U.S. 533, 554-55 & n.29 (1964).
204.

The right to an honest [count] is a right possessed by each voting elector,

and to the extent that the importance of his vote is nullified, wholly or in part, he has
been injured in the free exercise of a right or privilege secured to him by the laws and
Constitution of the United States.” Anderson, 417 U.S. at 226 (quoting Prichard v.
United States, 181 F.2d 326, 331 (6th Cir.), aff'd due to absence of quorum, 339 U.S.
974 (1950)).
205.

Practices that promote the casting of illegal or unreliable ballots or fail to

contain basic minimum guarantees against such conduct, can violate the Fourteenth

76

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.948 Filed 11/29/20 Page 77 of 86
000088

Amendment by leading to the dilution of validly cast ballots. See Reynolds, 377 U.S. at
555 (“[T]he right of suffrage can be denied by a debasement or dilution of the weight of
a citizen’s vote just as effectively as by wholly prohibiting the free exercise of the
franchise.”).
206.

Section II of this Complaint and the exhibits attached hereto describe

widespread and systematic violations of the Due Process Clause described, namely: (A)
Section II.A, Republican poll challengers were denied the opportunity to meaningfully
observe the processing and counting of ballots; (B) Section II.B, election workers
forged, added, removed or otherwise altered information on ballots, the QFV and other
voting records; and (C) Section II.C, several other Michigan Election Code violations
that caused or facilitated the counting of tens of thousands of ineligible, illegal or
duplicate ballots.
207.

Plaintiffs seek declaratory and injunctive relief requiring that Secretary

Benson and Wayne County are enjoined from certifying the results of the General
Election, or in the alternative, conduct a recount or recanvass in which they allow a
reasonable number of challengers to meaningfully observe the conduct of the Michigan
Board of State Canvassers and the Michigan county Boards of Canvassers and that these
canvassing boards exercise their duty and authority under Michigan law, which forbids
certifying a tally that includes any ballots that were not legally cast, or that were
switched from Trump to Biden through the unlawful use of Dominion Democracy Suite
software and devices.

77

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.949 Filed 11/29/20 Page 78 of 86
000089

COUNT IV
Wide-Spread Ballot Fraud
Violations of Michigan Election Code (MCL §§ 168.730-738) &
Michigan Constitution, Art. II § 4
208.

Plaintiffs reallege all preceding paragraphs as if fully set forth herein.

209.

Plaintiffs contest the results of Michigan’s 2020 General Election. In 2018, the

voters of Michigan enacted an amendment to Article II of the Michigan Constitution that
conferred a number of rights on Michigan voters, and empowered the Michigan Legislature, to
“enact laws … to preserve the purity of elections, … [and] to guard against abuses of the elective
franchise ….” Mich. Const. Art. II § 4(2). Standing conferred under the Michigan Constitution,
Art. II § 4(1), which provides that “[e]very citizen of the United States who is an elector
qualified to vote in Michigan shall have the right,” among other things, “to have the results of
statewide elections audited, …, to ensure the accuracy and integrity of elections.”
210.

Various provisions of the Michigan Election Code also give any citizen the right

to bring an election challenge within 30 days of an election where, as here, it appears that a
material fraud or error has been committed. See, e.g., Hamlin v. Saugatuck Twp., 299 Mich.
App. 233, 240-241 (2013) (citing Barrow v. Detroit Mayor, 290 Mich. App. 530 (2010)); MCL §
168.31a (setting forth election audit requirements); MCL § 168.861 (quo warranto remedy for
fraudulent or illegal voting).
211.

This Complaint has provided evidence from dozens of eyewitnesses who

have detailed dozens of separate violations of the Michigan Election Code by election
workers, acting in concert with government employees and Democratic operatives and
activists, see generally Section II; reinforced by several expert witnesses, each testifying
regarding distinct types statistical anomalies that, whether considered in isolation or in

78

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.950 Filed 11/29/20 Page 79 of 86
000090

combination with others, affect a sufficient number of ballots to affect the result of the
election, see generally Section III; and combined fact and expert testimony regarding
Dominion showing that Dominion, whether acting alone or in concert with domestic or
foreign actors had the means, motive and opportunity to fraudulently manipulate votes
and change the election results. See generally Section IV.
212.

Plaintiffs are not, however, the only ones expressing grave concerns regarding

the propriety of the 2020 General Election. In a concurring opinion issued just a few days ago in
Costantino v. City of Detroit, 2020 WL 6882586 (Mich. Nov. 23, 2020), Justice Zahra of the
Supreme Court of Michigan, in denying as moot a request to enjoin certification by Wayne
County (but not the audit or other requested relief), stated that “Nothing said is to diminish the
troubling and serious allegations of fraud and irregularities asserted by affiants …, among whom
is Ruth Johnson, Michigan’s immediate past Secretary of State.” Id. at *2 (Zahra, J.,
concurring).
213.

As here, plaintiffs in Costantino, presented “evidence to substantiate their

allegations, which include claims of ballots being counted from voters whose names were not
contained in the appropriate poll books, instructions being given to disobey election laws and
regulations,” and several other categories of violations that overlap with those alleged in this
Complaint and in affiants’ testimony. Id. This opinion further urged the trial court to schedule
evidentiary hearing on an expedited basis. Id.
Violation of MCL 168.765a.
214.

Absent voter ballots must only be counted when “at all times” there is “at least 1

election inspector from each major political party.” MCL 168.765a.
215.

Per eyewitness accounts described in this Complaint and its attached sworn

affidavits, Defendants habitually and systematically disallowed election inspectors from the

79

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.951 Filed 11/29/20 Page 80 of 86
000091

Republican Party, including Plaintiff, to be present in the voter counting place and refused
access to election inspectors from the Republican Party, including Plaintiff, to be within a
close enough distance from the absent voter ballots to be able to see for whom the ballots were
cast. See generally supra Section II.A.
216.

Defendants refused entry to official election inspectors from the Republican

Party, including Plaintiff, into the counting place to observe the counting of absentee voter
ballots. Defendants even physically blocked and obstructed election inspectors from the
Republican Party, including Plaintiff, by adhering large pieces of cardboard to the transparent
glass doors so the counting of absent voter ballots was not viewable.
Violation of MCL 168.733
217.

MCL 168.733 sets forth the procedures for election challengers and the powers of

election inspectors.
218.

Per eyewitness accounts described in this Complaint and its attached sworn

affidavits, Defendants habitually and systematically failed to provide space for election
inspectors from the Republican party, including Plaintiff, to observe election procedure,
failed to allow the inspection of poll books, failed to share the names of the electors being
entered in the poll books, failed to allow the examination of each ballot as it was being
counted, and failed to keep records of obvious and observed fraud. See generally supra
Section II.A.
219.

Poll challengers, including Plaintiff, observed election workers and supervisors

writing on ballots themselves to alter them, apparently manipulating spoiled ballots by hand
and then counting the ballots as valid, counting the same ballot more than once, adding
information to incomplete affidavits accompanying absentee ballots, counting absentee

80

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.952 Filed 11/29/20 Page 81 of 86
000092

ballots returned late, counting unvalidated and unreliable ballots, and counting the ballots of
“voters” who had no recorded birthdates and were not registered in the State’s Qualified Voter
File or on any Supplemental voter lists.
Violation of MCL 168.765(5) and 168.764a
220.

Michigan election law, MCL 168.765(5), requires Defendants to post the

specific absentee voting information anytime an election is conducted which involves a state
or federal office, in particular, the number of absentee ballots distributed to absent voters.
221.

Upon information and belief, Defendants failed to post by 8:00 AM on

Election Day the number of absentee ballots distributed to absent voters and failed to post
before 9:00 PM the number of absent voters returned before on Election Day.
222.

Per Michigan Election law, all absentee voter ballots must be returned to the

clerk before polls close at 8 PM. MCL 168.764a. Any absentee voter ballots received by the
clerk after the close of the polls on election day will not be counted.
223.

Michigan allows for early counting of absentee votes prior to the closings of

the polls for large jurisdictions, such as the City of Detroit and Wayne County.
224.

Upon information and belief, receiving tens of thousands additional absentee

ballots in the early morning hours after election day and after the counting of the absentee ballots
had concluded, without proper oversight, with tens of thousands of ballots attributed to just one
candidate, Joe Biden, indicates Defendants failed to follow proper election protocol. See
generally supra Section II.B.1.
Violation of MCL 168.730
225.

MCL 168.730 sets forth the rights and requirements for election challengers.

MCL 168.734 provides, among other things:
Any officer or election board who shall prevent the presence of any such

81

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.953 Filed 11/29/20 Page 82 of 86
000093

challenger as above provided, or shall refuse or fail to provide such challenger
with conveniences for the performance of the duties expected of him, shall,
upon conviction, be punished by a fine not exceeding $1,000.00, or by
imprisonment in the state prison not exceeding 2 years, or by both such fine
and imprisonment in the discretion of the court.
226.

Wayne County’s and Secretary Benson’s denial of Republican challengers’ right

to participate and observe the processing of ballots violates Michigan’s Election Code and
resulting in the casting and counting of ballots that were ineligible to be counted and diluted or
canceled out the lawfully cast ballots of other Michigan voters.
227.

Further, Secretary of State Benson and the election officials in Wayne County

violated MCL 168.730-168.734 by denying Republican challengers’ rights to meaningfully
observe and participate in the ballot processing and counting process.
228.

Based upon the above allegations of fraud, statutory violations, and other

misconduct, as stated herein and in the attached affidavits, it is necessary to order appropriate
relief, including, but not limited to, enjoining the certification of the election results pending a
full investigation and court hearing, ordering a recount of the election results, or voiding the
election and ordering a new election, to remedy the fraud.

82

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.954 Filed 11/29/20 Page 83 of 86
000094

PRAYER FOR RELIEF
229.

Accordingly, Plaintiffs seek an emergency order instructing Defendants to de-

certify the results of the General Election for the Office of President.
230.

Alternatively, Plaintiffs seek an order instructing the Defendants to certify the

results of the General Election for Office of the President in favor of President Donald Trump.
231.

In the alternative, Plaintiffs seek an emergency order prohibiting Defendants from

including in any certified results from the General Election the tabulation of absentee and
mailing ballots which do not comply with the Michigan Election Code, including, without
limitation, the tabulation of absentee and mail-in ballots Trump Campaign’s watchers were
prevented from observing or based on the tabulation of invalidly cast absentee and mail-in
ballots which (i) lack a secrecy envelope, or contain on that envelope any text, mark, or symbol
which reveals the elector’s identity, political affiliation, or candidate preference, (ii) do not
include on the outside envelope a completed declaration that is dated and signed by the elector,
(iii) are delivered in-person by third parties for non-disabled voters, or (iv) any of the other
Michigan Election Code violations set forth in Section II of this Complaint.
232.

Order production of all registration data, ballots, envelopes, etc. required to be

maintained by law. When we consider the harm of these uncounted votes, and ballots not
ordered by the voters themselves, and the potential that many of these unordered ballots may in
fact have been improperly voted and also prevented proper voting at the polls, the mail ballot
system has clearly failed in the state of Michigan and did so on a large scale and widespread
basis. The size of the voting failures, whether accidental or intentional, are multiples larger than
the margin in the state. For these reasons, Michigan cannot reasonably rely on the results of the
mail vote. Relief sought is the elimination of the mail ballots from counting in the 2020 election.
83

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.955 Filed 11/29/20 Page 84 of 86
000095

Alternatively, the electors for the State of Michigan should be disqualified from counting toward
the 2020 election. Alternatively, the electors of the State of Michigan should be directed to vote
for President Donald Trump.
233.

For these reasons, Plaintiffs ask this Court to enter a judgment in their favor and

provide the following emergency relief:
1. An order directing Secretary Benson, Governor Whitmer, the Board of State
Canvassers and Wayne County to de-certify the election results;
2. An order enjoining Secretary Benson and Governor Whitmer from transmitting the
currently certified election results to the Electoral College;
3. An order requiring Governor Whitmer to transmit certified election results that state
that President Donald Trump is the winner of the election;
4. An immediate order to impound all the voting machines and software in Michigan for
expert inspection by the Plaintiffs.
5. An order that no votes received or tabulated by machines that were not certified as
required by federal and state law be counted.
6. A declaratory judgment declaring that Michigan’s failed system of signature
verification violates the Electors and Elections Clause by working a de facto abolition
of the signature verification requirement;
7. A declaratory judgment declaring that current certified election results violates the
Due Process Clause, U.S. CONST. Amend. XIV;
84

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.956 Filed 11/29/20 Page 85 of 86
000096

8. A declaratory judgment declaring that mail-in and absentee ballot fraud must be
remedied with a Full Manual Recount or statistically valid sampling that properly
verifies the signatures on absentee ballot envelopes and that invalidates the certified
results if the recount or sampling analysis shows a sufficient number of ineligible
absentee ballots were counted;
9. An emergency declaratory judgment that voting machines be Seized and Impounded
immediately for a forensic audit—by Plaintiffs’ experts;
10. A declaratory judgment declaring absentee ballot fraud occurred in violation of
Constitutional rights, Election laws and under state law;
11. A permanent injunction prohibiting the Governor and Secretary of State from
transmitting the currently certified results to the Electoral College based on the
overwhelming evidence of election tampering;
12. Immediate production of 48 hours of security camera recording of all rooms used in
the voting process at the TCF Center for November 3 and November 4.
13. Plaintiffs further request the Court grant such other relief as is just and proper,
including but not limited to, the costs of this action and their reasonable attorney fees
and expenses pursuant to 42 U.S.C. 1988.

Respectfully submitted, this 29th day of November, 2020.

85

Case 2:20-cv-13134-LVP-RSW ECF No. 6, PageID.957 Filed 11/29/20 Page 86 of 86
000097

/s/ Sidney Powell*
Sidney Powell PC

/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee
Lansing, MI 48933
(517) 763-7499
Scotthagerstrom @yahoo.com

Texas Bar No. 16209700

/s/ Gregory J. Rohl
Michigan State Bar No. P39185
41850 West 11 Mile Road, Ste 110
Novi, Michigan 48375
(248) 380-9404
gregoryrohl@yahoo.com
Of Counsel:
Emily P. Newman (Virginia Bar No. 84265)
Julia Z. Haller (D.C. Bar No. 466921)
Brandon Johnson (D.C. Bar No. 491730)
2911 Turtle Creek Blvd, Suite 300
Dallas, Texas 75219
*Application for admission pro hac vice
Forthcoming
L. Lin Wood
GA Bar No. 774588
L. LIN WOOD, P.C.
P.O. Box 52584
Atlanta, GA 30305-0584
Telephone: (404) 891-1402
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

86

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.76 Filed 11/25/20 Page 1 of 8
000098

DECLARATION OF
I,

, hereby state the following:
1.

2.

I am an adult of sound mine. All statements in this declaration are based
on my personal knowledge and are true and correct.

3.

I am making this statement voluntarily and on my own initiative. I have
not been promised, nor do I expect to receive, anything in exchange for my
testimony and giving this statement. I have no expectation of any profit
or reward and understand that there are those who may seek to harm me
for what I say in this statement. I have not participated in any political
process in the United States, have not supported any candidate for office
in the United States, am not legally permitted to vote in the United
States, and have never attempted to vote in the United States.

4.

I want to alert the public and let the world know the truth about the
corruption, manipulation, and lies being committed by a conspiracy of
people and companies intent upon betraying the honest people of the
United States and their legally constituted institutions and fundamental
rights as citizens. This conspiracy began more than a decade ago in
Venezuela and has spread to countries all over the world. It is a conspiracy
to wrongfully gain and keep power and wealth. It involves political
leaders, powerful companies, and other persons whose purpose is to gain
and keep power by changing the free will of the people and subverting the
proper course of governing.

5.
Over the course of my career, I
specialized in the marines

6.

Due to my training in special operations and my extensive military and
academic formations, I was selected for the national security guard detail
of the President of Venezuela.

- Page 1 of 8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.77 Filed 11/25/20 Page 2 of 8
000099

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.78 Filed 11/25/20 Page 3 of 8
000100

sophisticated electronic voting system that permitted the leaders of the
Venezuelan government to manipulate the tabulation of votes for national
and local elections and select the winner of those elections in order to gain
and maintain their power.
10. Importantly, I was a direct witness to the creation and operation of an
electronic voting system in a conspiracy between a company known as
Smartmatic and the leaders of conspiracy with the Venezuelan
government. This conspiracy specifically involved President Hugo Chavez
Frias, the person in charge of the National Electoral Council named Jorge
Rodriguez, and principals, representatives, and personnel from
Smartmatic which included
. The
purpose of this conspiracy was to create and operate a voting system that
could change the votes in elections from votes against persons running
the Venezuelan government to votes in their favor in order to maintain
control of the government.
11. In mid-February of 2009, there was a national referendum to change the
Constitution of Venezuela to end term limits for elected officials, including
the President of Venezuela. The referendum passed. This permitted Hugo
Chavez to be re-elected an unlimited number of times.
12. After passage of the referendum, President Chavez instructed me to make
arrangements for him to meet with Jorge Rodriguez, then President of the
National Electoral Council, and three executives from Smartmatic.
Among the three Smartmatic representatives were
President Chavez had multiple meetings with Rodriguez
and the Smartmatic team at which I was present. In the first of four
meetings, Jorge Rodriguez promoted the idea to create software that
would manipulate elections. Chavez was very excited and made it clear
that he would provide whatever Smartmatic needed. He wanted them
immediately to create a voting system which would ensure that any time
anything was going to be voted on the voting system would guarantee
results that Chavez wanted. Chavez offered Smartmatic many
inducements, including large sums of money, for Smartmatic to create or
modify the voting system so that it would guarantee Chavez would win
every election cycle. Smartmatic’s team agreed to create such a system
and did so.
13. I arranged and attended three more meetings between President Chavez
and the representatives from Smartmatic at which details of the new
- Page 3 of 8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.79 Filed 11/25/20 Page 4 of 8
000101

voting system were discussed and agreed upon. For each of these
meetings, I communicated directly with
on details of
where and when to meet, where the participants would be picked up and
delivered to the meetings, and what was to be accomplished. At these
meetings, the participants called their project the “Chavez revolution.”
From that point on, Chavez never lost any election. In fact, he was able
to ensure wins for himself, his party, Congress persons and mayors from
townships.
14. Smartmatic’s electoral technology was called “Sistema de Gestión
Electoral” (the “Electoral Management System”). Smartmatic was a
pioneer in this area of computing systems. Their system provided for
transmission of voting data over the internet to a computerized central
tabulating center. The voting machines themselves had a digital display,
fingerprint recognition feature to identify the voter, and printed out the
voter’s ballot. The voter’s thumbprint was linked to a computerized record
of that voter’s identity. Smartmatic created and operated the entire
system.
15. Chavez was most insistent that Smartmatic design the system in a way
that the system could change the vote of each voter without being
detected. He wanted the software itself to function in such a manner that
if the voter were to place their thumb print or fingerprint on a scanner,
then the thumbprint would be tied to a record of the voter’s name and
identity as having voted, but that voter would not tracked to the changed
vote. He made it clear that the system would have to be setup to not leave
any evidence of the changed vote for a specific voter and that there would
be no evidence to show and nothing to contradict that the name or the
fingerprint or thumb print was going with a changed vote. Smartmatic
agreed to create such a system and produced the software and hardware
that accomplished that result for President Chavez.
16. After the Smartmatic Electoral Management System was put in place, I
closely observed several elections where the results were manipulated
using Smartmatic software. One such election was in December 2006
when Chavez was running against Rosales. Chavez won with a landslide
over Manuel Rosales - a margin of nearly 6 million votes for Chavez versus
3.7 million for Rosales.
17. On April 14, 2013, I witnessed another Venezuelan national election in
which the Smartmatic Electoral Management System was used to
manipulate and change the results for the person to succeed Hugo Chávez
- Page 4 of 8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.80 Filed 11/25/20 Page 5 of 8
000102

as President. In that election, Nicolás Maduro ran against Capriles
Radonsky.
Inside that location was a control room in which there were
multiple digital display screens – TV screens – for results of voting in each
state in Venezuela. The actual voting results were fed into that room and
onto the displays over an internet feed, which was connected to a
sophisticated computer system created by Smartmatic. People in that
room were able to see in “real time” whether the vote that came through
the electronic voting system was in their favor or against them. If one
looked at any particular screen, they could determine that the vote from
any specific area or as a national total was going against either candidate.
Persons controlling the vote tabulation computer had the ability to change
the reporting of votes by moving votes from one candidate to another by
using the Smartmatic software.
18. By two o'clock in the afternoon on that election day Capriles Radonsky
was ahead of Nicolás Maduro by two million votes. When Maduro and his
supporters realized the size of Radonsky’s lead they were worried that
they were in a crisis mode and would lose the election. The Smartmatic
machines used for voting in each state were connected to the internet and
reported their information over the internet to the Caracas control center
in real-time. So, the decision was made to reset the entire system.
Maduro’s and his supporters ordered the network controllers to take the
internet itself offline in practically all parts in Venezuela and to change
the results.
19. It took the voting system operators approximately two hours to make the
adjustments in the vote from Radonsky to Maduro. Then, when they
turned the internet back on and the on-line reporting was up and running
again, they checked each screen state by state to be certain where they
could see that each vote was changed in favor of Nicholas Maduro. At that
moment the Smartmatic system changed votes that were for Capriles
Radonsky to Maduro. By the time the system operators finish, they had
achieved a convincing, but narrow victory of 200,000 votes for Maduro.
20. After Smartmatic created the voting system President Chavez wanted, he
exported the software and system all over Latin America. It was sent to
Bolivia, Nicaragua, Argentina, Ecuador, and Chile – countries that were
in alliance with President Chavez. This was a group of leaders who
wanted to be able to guarantee they maintained power in their countries.
When Chavez died, Smartmatic was in a position of being the only
- Page 5 of 8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.81 Filed 11/25/20 Page 6 of 8
000103

company that could guarantee results in Venezuelan elections for the
party in power.
21. I want to point out that the software and fundamental design of the
electronic electoral system and software of Dominion and other election
tabulating companies relies upon software that is a descendant of the
Smartmatic Electoral Management System. In short, the Smartmatic
software is in the DNA of every vote tabulating company’s software and
system.
22. Dominion is one of three major companies that tabulates votes in the
United States. Dominion uses the same methods and fundamentally same
software design for the storage, transfer and computation of voter
identification data and voting data. Dominion and Smartmatic did
business together. The software, hardware and system have the same
fundamental flaws which allow multiple opportunities to corrupt the data
and mask the process in a way that the average person cannot detect any
fraud or manipulation. The fact that the voting machine displays a voting
result that the voter intends and then prints out a paper ballot which
reflects that change does not matter. It is the software that counts the
digitized vote and reports the results. The software itself is the one that
changes the information electronically to the result that the operator of
the software and vote counting system intends to produce that counts.
That’s how it is done. So the software, the software itself configures the
vote and voting result -- changing the selection made by the voter. The
software decides the result regardless of what the voter votes.
23. All of the computer controlled voting tabulation is done in a closed
environment so that the voter and any observer cannot detect what is
taking place unless there is a malfunction or other event which causes the
observer to question the process. I saw first-hand that the manipulation
and changing of votes can be done in real-time at the secret counting
center which existed in Caracas, Venezuela. For me it was something
very surprising and disturbing. I was in awe because I had never been
present to actually see it occur and I saw it happen. So, I learned firsthand that it doesn’t matter what the voter decides or what the paper
ballot says. It’s the software operator and the software that decides what
counts – not the voter.
24. If one questions the reliability of my observations, they only have to read
the words of
a time period in
- Page 6 of 8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.82 Filed 11/25/20 Page 7 of 8
000104

which Smartmatic had possession of all the votes and the voting, the votes
themselves and the voting information at their disposition in Venezuela.
he was assuring that the voting system implemented or used
by Smartmatic was completely secure, that it could not be compromised,
was not able to be altered.
25. But later, in 2017 when there were elections where Maduro was running
and elections for legislators in Venezuela,
and Smartmatic broke
their secrecy pact with the government of Venezuela. He made a public
announcement through the media in which he stated that all the
Smartmatic voting machines used during those elections were totally
manipulated and they were manipulated by the electoral council of
Venezuela back then.
stated that all of the votes for Nicholas
Maduro and the other persons running for the legislature were
manipulated and they actually had lost. So I think that's the greatest
proof that the fraud can be carried out and will be denied by the software
company that
admitted publicly that Smartmatic had created,
used and still uses vote counting software that can be manipulated or
altered.
26. I am alarmed because of what is occurring in plain sight during this 2020
election for President of the United States. The circumstances and events
are eerily reminiscent of what happened with Smartmatic software
electronically changing votes in the 2013 presidential election in
Venezuela. What happened in the United States was that the vote
counting was abruptly stopped in five states using Dominion software. At
the time that vote counting was stopped, Donald Trump was significantly
ahead in the votes. Then during the wee hours of the morning, when there
was no voting occurring and the vote count reporting was off-line,
something significantly changed. When the vote reporting resumed the
very next morning there was a very pronounced change in voting in favor
of the opposing candidate, Joe Biden.
27.

I have worked in gathering
information, researching, and working with information technology.
That's what I know how to do and the special knowledge that I have. Due
to these recent election events, I contacted a number of reliable and
intelligent ex-co-workers of mine that are still informants and work with
the intelligence community. I asked for them to give me information that
was up-to-date information in as far as how all these businesses are
acting, what actions they are taking.
- Page 7 of 8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-1, PageID.83 Filed 11/25/20 Page 8 of 8
000105

I declare under penalty of perjury that the foregoing is true and correct and that
this Declaration was prepared in Dallas County, State of Texas, and executed on
November 15, 2020.

- Page 8 of8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.84 Filed 11/25/20 Page 1 of 28
000106

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.85 Filed 11/25/20 Page 2 of 28
000107

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.86 Filed 11/25/20 Page 3 of 28
000108

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.87 Filed 11/25/20 Page 4 of 28
000109

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.88 Filed 11/25/20 Page 5 of 28
000110

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.89 Filed 11/25/20 Page 6 of 28
000111

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.90 Filed 11/25/20 Page 7 of 28
000112

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.91 Filed 11/25/20 Page 8 of 28
000113

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.92 Filed 11/25/20 Page 9 of 28
000114

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.93 Filed 11/25/20 Page 10 of 28
000115

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.94 Filed 11/25/20 Page 11 of 28
000116

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.95 Filed 11/25/20 Page 12 of 28
000117

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.96 Filed 11/25/20 Page 13 of 28
000118

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.97 Filed 11/25/20 Page 14 of 28
000119

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.98 Filed 11/25/20 Page 15 of 28
000120

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.99 Filed 11/25/20 Page 16 of 28
000121

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.100 Filed 11/25/20 Page 17 of 28
000122

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.101 Filed 11/25/20 Page 18 of 28
000123

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.102 Filed 11/25/20 Page 19 of 28
000124

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.103 Filed 11/25/20 Page 20 of 28
000125

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.104 Filed 11/25/20 Page 21 of 28
000126

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.105 Filed 11/25/20 Page 22 of 28
000127

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.106 Filed 11/25/20 Page 23 of 28
000128

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.107 Filed 11/25/20 Page 24 of 28
000129

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.108 Filed 11/25/20 Page 25 of 28
000130

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.109 Filed 11/25/20 Page 26 of 28
000131

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.110 Filed 11/25/20 Page 27 of 28
000132

Case 2:20-cv-13134-LVP-RSW ECF No. 1-2, PageID.111 Filed 11/25/20 Page 28 of 28
000133

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.994 Filed 11/29/20 Page 1 of 234
000134

EXHIBIT 3

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.995 Filed 11/29/20 Page 2 of 234
000135

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.996 Filed 11/29/20 Page 3 of 234
000136

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.997 Filed 11/29/20 Page 4 of 234
000137

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.998 Filed 11/29/20 Page 5 of 234
000138

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.999 Filed 11/29/20 Page 6 of 234
000139

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1000 Filed 11/29/20 Page 7 of 234
000140

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1001 Filed 11/29/20 Page 8 of 234
000141

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1002 Filed 11/29/20 Page 9 of 234
000142

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1003 Filed 11/29/20 Page 10 of 234
000143

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1004 Filed 11/29/20 Page 11 of 234
000144

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1005 Filed 11/29/20 Page 12 of 234
000145

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1006 Filed 11/29/20 Page 13 of 234
000146

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1007 Filed 11/29/20 Page 14 of 234
000147

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1008 Filed 11/29/20 Page 15 of 234
000148

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1009 Filed 11/29/20 Page 16 of 234
000149

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1010 Filed 11/29/20 Page 17 of 234
000150

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1011 Filed 11/29/20 Page 18 of 234
000151

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1012 Filed 11/29/20 Page 19 of 234
000152

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1013 Filed 11/29/20 Page 20 of 234
000153

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1014 Filed 11/29/20 Page 21 of 234
000154

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1015 Filed 11/29/20 Page 22 of 234
000155

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1016 Filed 11/29/20 Page 23 of 234
000156

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1017 Filed 11/29/20 Page 24 of 234
000157

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1018 Filed 11/29/20 Page 25 of 234
000158

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1019 Filed 11/29/20 Page 26 of 234
000159

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1020 Filed 11/29/20 Page 27 of 234
000160

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1021 Filed 11/29/20 Page 28 of 234
000161

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1022 Filed 11/29/20 Page 29 of 234
000162

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1023 Filed 11/29/20 Page 30 of 234
000163

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1024 Filed 11/29/20 Page 31 of 234
000164

Case 2:20-cv-13134-LVP-RSW ECF No. 6-3, PageID.1025 Filed 11/29/20 Page 32 of 234
000165

20.

When I asked for the number of ballots that had been counted or processed at each
counting board, I was denied information. I was told I had to get it online. I requested
a print out and was told to access it online. Therefore, I was unable to get a total vote
count from each counting board.

Dated: November 8, 2020
Christopher Schomak

Kimberly A. Moln
NOTARY PUBLIC · STATE OF MICHIGAN
�ounty of Wayne
My Comm1ss1on Expires 10/23/2024
Acting In the County or

----

-3-

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1026
PageID.66 Filed
Filed11/11/20
11/29/20 Page
Page3333ofof234
234
000166

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1027
PageID.67 Filed
Filed11/11/20
11/29/20 Page
Page3434ofof234
234
000167

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1028
PageID.68 Filed
Filed11/11/20
11/29/20 Page
Page3535ofof234
234
000168

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1029
PageID.69 Filed
Filed11/11/20
11/29/20 Page
Page3636ofof234
234
000169

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1030
PageID.70 Filed
Filed11/11/20
11/29/20 Page
Page3737ofof234
234
000170

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1031
PageID.71 Filed
Filed11/11/20
11/29/20 Page
Page3838ofof234
234
000171

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1032
PageID.72 Filed
Filed11/11/20
11/29/20 Page
Page3939ofof234
234
000172

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1033
PageID.73 Filed
Filed11/11/20
11/29/20 Page
Page4040ofof234
234
000173

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1034
PageID.74 Filed
Filed11/11/20
11/29/20 Page
Page4141ofof234
234
000174

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1035
PageID.75 Filed
Filed11/11/20
11/29/20 Page
Page4242ofof234
234
000175

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1036
PageID.76 Filed
Filed11/11/20
11/29/20 Page
Page4343ofof234
234
000176

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1037
PageID.77 Filed
Filed11/11/20
11/29/20 Page
Page4444ofof234
234
000177

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1038
PageID.78 Filed
Filed11/11/20
11/29/20 Page
Page4545ofof234
234
000178

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1039
PageID.79 Filed
Filed11/11/20
11/29/20 Page
Page4646ofof234
234
000179

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1040
PageID.80 Filed
Filed11/11/20
11/29/20 Page
Page4747ofof234
234
000180

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1041
PageID.81 Filed
Filed11/11/20
11/29/20 Page
Page4848ofof234
234
000181

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1042
PageID.82 Filed
Filed11/11/20
11/29/20 Page
Page4949ofof234
234
000182

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1043
PageID.83 Filed
Filed11/11/20
11/29/20 Page
Page5050ofof234
234
000183

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1044
PageID.84 Filed
Filed11/11/20
11/29/20 Page
Page5151ofof234
234
000184

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1045
PageID.85 Filed
Filed11/11/20
11/29/20 Page
Page5252ofof234
234
000185

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1046
PageID.86 Filed
Filed11/11/20
11/29/20 Page
Page5353ofof234
234
000186

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1047
PageID.87 Filed
Filed11/11/20
11/29/20 Page
Page5454ofof234
234
000187

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1048
PageID.88 Filed
Filed11/11/20
11/29/20 Page
Page5555ofof234
234
000188

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1049
PageID.89 Filed
Filed11/11/20
11/29/20 Page
Page5656ofof234
234
000189

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1050
PageID.90 Filed
Filed11/11/20
11/29/20 Page
Page5757ofof234
234
000190

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1051
PageID.91 Filed
Filed11/11/20
11/29/20 Page
Page5858ofof234
234
000191

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1052
PageID.92 Filed
Filed11/11/20
11/29/20 Page
Page5959ofof234
234
000192

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1053
PageID.93 Filed
Filed11/11/20
11/29/20 Page
Page6060ofof234
234
000193

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1054
PageID.94 Filed
Filed11/11/20
11/29/20 Page
Page6161ofof234
234
000194

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1055
PageID.95 Filed
Filed11/11/20
11/29/20 Page
Page6262ofof234
234
000195

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1056
PageID.96 Filed
Filed11/11/20
11/29/20 Page
Page6363ofof234
234
000196

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1057
PageID.97 Filed
Filed11/11/20
11/29/20 Page
Page6464ofof234
234
000197

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1058
PageID.98 Filed
Filed11/11/20
11/29/20 Page
Page6565ofof234
234
000198

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF
ECF No.
No. 6-3,
1-2, PageID.1059
PageID.99 Filed
Filed11/11/20
11/29/20 Page
Page6666ofof234
234
000199

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1060
PageID.100 Filed
Filed11/11/20
11/29/20 Page
Page67
67ofof234
234
000200

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1061
PageID.101 Filed
Filed11/11/20
11/29/20 Page
Page68
68ofof234
234
000201

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1062
PageID.102 Filed
Filed11/11/20
11/29/20 Page
Page69
69ofof234
234
000202

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1063
PageID.103 Filed
Filed11/11/20
11/29/20 Page
Page70
70ofof234
234
000203

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1064
PageID.104 Filed
Filed11/11/20
11/29/20 Page
Page71
71ofof234
234
000204

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1065
PageID.105 Filed
Filed11/11/20
11/29/20 Page
Page72
72ofof234
234
000205

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1066
PageID.106 Filed
Filed11/11/20
11/29/20 Page
Page73
73ofof234
234
000206

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1067
PageID.107 Filed
Filed11/11/20
11/29/20 Page
Page74
74ofof234
234
000207

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1068
PageID.108 Filed
Filed11/11/20
11/29/20 Page
Page75
75ofof234
234
000208

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1069
PageID.109 Filed
Filed11/11/20
11/29/20 Page
Page76
76ofof234
234
000209

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1070
PageID.110 Filed
Filed11/11/20
11/29/20 Page
Page77
77ofof234
234
000210

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1071
PageID.111 Filed
Filed11/11/20
11/29/20 Page
Page78
78ofof234
234
000211

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1072
PageID.112 Filed
Filed11/11/20
11/29/20 Page
Page79
79ofof234
234
000212

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1073
PageID.113 Filed
Filed11/11/20
11/29/20 Page
Page80
80ofof234
234
000213

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1074
PageID.114 Filed
Filed11/11/20
11/29/20 Page
Page81
81ofof234
234
000214

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1075
PageID.115 Filed
Filed11/11/20
11/29/20 Page
Page82
82ofof234
234
000215

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1076
PageID.116 Filed
Filed11/11/20
11/29/20 Page
Page83
83ofof234
234
000216

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1077
PageID.117 Filed
Filed11/11/20
11/29/20 Page
Page84
84ofof234
234
000217

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1078
PageID.118 Filed
Filed11/11/20
11/29/20 Page
Page85
85ofof234
234
000218

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1079
PageID.119 Filed
Filed11/11/20
11/29/20 Page
Page86
86ofof234
234
000219

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1080
PageID.120 Filed
Filed11/11/20
11/29/20 Page
Page87
87ofof234
234
000220

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1081
PageID.121 Filed
Filed11/11/20
11/29/20 Page
Page88
88ofof234
234
000221

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1082
PageID.122 Filed
Filed11/11/20
11/29/20 Page
Page89
89ofof234
234
000222

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1083
PageID.123 Filed
Filed11/11/20
11/29/20 Page
Page90
90ofof234
234
000223

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1084
PageID.124 Filed
Filed11/11/20
11/29/20 Page
Page91
91ofof234
234
000224

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1085
PageID.125 Filed
Filed11/11/20
11/29/20 Page
Page92
92ofof234
234
000225

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1086
PageID.126 Filed
Filed11/11/20
11/29/20 Page
Page93
93ofof234
234
000226

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1087
PageID.127 Filed
Filed11/11/20
11/29/20 Page
Page94
94ofof234
234
000227

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1088
PageID.128 Filed
Filed11/11/20
11/29/20 Page
Page95
95ofof234
234
000228

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1089
PageID.129 Filed
Filed11/11/20
11/29/20 Page
Page96
96ofof234
234
000229

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1090
PageID.130 Filed
Filed11/11/20
11/29/20 Page
Page97
97ofof234
234
000230

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1091
PageID.131 Filed
Filed11/11/20
11/29/20 Page
Page98
98ofof234
234
000231

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1092
PageID.132 Filed
Filed11/11/20
11/29/20 Page
Page99
99ofof234
234
000232

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1093
PageID.133 Filed
Filed11/11/20
11/29/20 Page
Page100
100ofof234
234
000233

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1094
PageID.134 Filed
Filed11/11/20
11/29/20 Page
Page101
101ofof234
234
000234

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1095
PageID.135 Filed
Filed11/11/20
11/29/20 Page
Page102
102ofof234
234
000235

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1096
PageID.136 Filed
Filed11/11/20
11/29/20 Page
Page103
103ofof234
234
000236

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1097
PageID.137 Filed
Filed11/11/20
11/29/20 Page
Page104
104ofof234
234
000237

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1098
PageID.138 Filed
Filed11/11/20
11/29/20 Page
Page105
105ofof234
234
000238

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1099
PageID.139 Filed
Filed11/11/20
11/29/20 Page
Page106
106ofof234
234
000239

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1100
PageID.140 Filed
Filed11/11/20
11/29/20 Page
Page107
107ofof234
234
000240

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1101
PageID.141 Filed
Filed11/11/20
11/29/20 Page
Page108
108ofof234
234
000241

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1102
PageID.142 Filed
Filed11/11/20
11/29/20 Page
Page109
109ofof234
234
000242

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1103
PageID.143 Filed
Filed11/11/20
11/29/20 Page
Page110
110ofof234
234
000243

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1104
PageID.144 Filed
Filed11/11/20
11/29/20 Page
Page111
111ofof234
234
000244

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1105
PageID.145 Filed
Filed11/11/20
11/29/20 Page
Page112
112ofof234
234
000245

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1106
PageID.146 Filed
Filed11/11/20
11/29/20 Page
Page113
113ofof234
234
000246

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1107
PageID.147 Filed
Filed11/11/20
11/29/20 Page
Page114
114ofof234
234
000247

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1108
PageID.148 Filed
Filed11/11/20
11/29/20 Page
Page115
115ofof234
234
000248

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1109
PageID.149 Filed
Filed11/11/20
11/29/20 Page
Page116
116ofof234
234
000249

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1110
PageID.150 Filed
Filed11/11/20
11/29/20 Page
Page117
117ofof234
234
000250

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1111
PageID.151 Filed
Filed11/11/20
11/29/20 Page
Page118
118ofof234
234
000251

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1112
PageID.152 Filed
Filed11/11/20
11/29/20 Page
Page119
119ofof234
234
000252

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1113
PageID.153 Filed
Filed11/11/20
11/29/20 Page
Page120
120ofof234
234
000253

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1114
PageID.154 Filed
Filed11/11/20
11/29/20 Page
Page121
121ofof234
234
000254

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1115
PageID.155 Filed
Filed11/11/20
11/29/20 Page
Page122
122ofof234
234
000255

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1116
PageID.156 Filed
Filed11/11/20
11/29/20 Page
Page123
123ofof234
234
000256

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1117
PageID.157 Filed
Filed11/11/20
11/29/20 Page
Page124
124ofof234
234
000257

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1118
PageID.158 Filed
Filed11/11/20
11/29/20 Page
Page125
125ofof234
234
000258

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1119
PageID.159 Filed
Filed11/11/20
11/29/20 Page
Page126
126ofof234
234
000259

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1120
PageID.160 Filed
Filed11/11/20
11/29/20 Page
Page127
127ofof234
234
000260

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1121
PageID.161 Filed
Filed11/11/20
11/29/20 Page
Page128
128ofof234
234
000261

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1122
PageID.162 Filed
Filed11/11/20
11/29/20 Page
Page129
129ofof234
234
000262

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1123
PageID.163 Filed
Filed11/11/20
11/29/20 Page
Page130
130ofof234
234
000263

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1124
PageID.164 Filed
Filed11/11/20
11/29/20 Page
Page131
131ofof234
234
000264

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1125
PageID.165 Filed
Filed11/11/20
11/29/20 Page
Page132
132ofof234
234
000265

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1126
PageID.166 Filed
Filed11/11/20
11/29/20 Page
Page133
133ofof234
234
000266

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1127
PageID.167 Filed
Filed11/11/20
11/29/20 Page
Page134
134ofof234
234
000267

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1128
PageID.168 Filed
Filed11/11/20
11/29/20 Page
Page135
135ofof234
234
000268

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1129
PageID.169 Filed
Filed11/11/20
11/29/20 Page
Page136
136ofof234
234
000269

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1130
PageID.170 Filed
Filed11/11/20
11/29/20 Page
Page137
137ofof234
234
000270

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1131
PageID.171 Filed
Filed11/11/20
11/29/20 Page
Page138
138ofof234
234
000271

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1132
PageID.172 Filed
Filed11/11/20
11/29/20 Page
Page139
139ofof234
234
000272

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1133
PageID.173 Filed
Filed11/11/20
11/29/20 Page
Page140
140ofof234
234
000273

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1134
PageID.174 Filed
Filed11/11/20
11/29/20 Page
Page141
141ofof234
234
000274

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1135
PageID.175 Filed
Filed11/11/20
11/29/20 Page
Page142
142ofof234
234
000275

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1136
PageID.176 Filed
Filed11/11/20
11/29/20 Page
Page143
143ofof234
234
000276

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1137
PageID.177 Filed
Filed11/11/20
11/29/20 Page
Page144
144ofof234
234
000277

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1138
PageID.178 Filed
Filed11/11/20
11/29/20 Page
Page145
145ofof234
234
000278

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1139
PageID.179 Filed
Filed11/11/20
11/29/20 Page
Page146
146ofof234
234
000279

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1140
PageID.180 Filed
Filed11/11/20
11/29/20 Page
Page147
147ofof234
234
000280

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1141
PageID.181 Filed
Filed11/11/20
11/29/20 Page
Page148
148ofof234
234
000281

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1142
PageID.182 Filed
Filed11/11/20
11/29/20 Page
Page149
149ofof234
234
000282

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1143
PageID.183 Filed
Filed11/11/20
11/29/20 Page
Page150
150ofof234
234
000283

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1144
PageID.184 Filed
Filed11/11/20
11/29/20 Page
Page151
151ofof234
234
000284

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1145
PageID.185 Filed
Filed11/11/20
11/29/20 Page
Page152
152ofof234
234
000285

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1146
PageID.186 Filed
Filed11/11/20
11/29/20 Page
Page153
153ofof234
234
000286

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1147
PageID.187 Filed
Filed11/11/20
11/29/20 Page
Page154
154ofof234
234
000287

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1148
PageID.188 Filed
Filed11/11/20
11/29/20 Page
Page155
155ofof234
234
000288

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1149
PageID.189 Filed
Filed11/11/20
11/29/20 Page
Page156
156ofof234
234
000289

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1150
PageID.190 Filed
Filed11/11/20
11/29/20 Page
Page157
157ofof234
234
000290

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1151
PageID.191 Filed
Filed11/11/20
11/29/20 Page
Page158
158ofof234
234
000291

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1152
PageID.192 Filed
Filed11/11/20
11/29/20 Page
Page159
159ofof234
234
000292

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1153
PageID.193 Filed
Filed11/11/20
11/29/20 Page
Page160
160ofof234
234
000293

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1154
PageID.194 Filed
Filed11/11/20
11/29/20 Page
Page161
161ofof234
234
000294

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1155
PageID.195 Filed
Filed11/11/20
11/29/20 Page
Page162
162ofof234
234
000295

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1156
PageID.196 Filed
Filed11/11/20
11/29/20 Page
Page163
163ofof234
234
000296

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1157
PageID.197 Filed
Filed11/11/20
11/29/20 Page
Page164
164ofof234
234
000297

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1158
PageID.198 Filed
Filed11/11/20
11/29/20 Page
Page165
165ofof234
234
000298

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1159
PageID.199 Filed
Filed11/11/20
11/29/20 Page
Page166
166ofof234
234
000299

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1160
PageID.200 Filed
Filed11/11/20
11/29/20 Page
Page167
167ofof234
234
000300

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1161
PageID.201 Filed
Filed11/11/20
11/29/20 Page
Page168
168ofof234
234
000301

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1162
PageID.202 Filed
Filed11/11/20
11/29/20 Page
Page169
169ofof234
234
000302

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1163
PageID.203 Filed
Filed11/11/20
11/29/20 Page
Page170
170ofof234
234
000303

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1164
PageID.204 Filed
Filed11/11/20
11/29/20 Page
Page171
171ofof234
234
000304

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1165
PageID.205 Filed
Filed11/11/20
11/29/20 Page
Page172
172ofof234
234
000305

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1166
PageID.206 Filed
Filed11/11/20
11/29/20 Page
Page173
173ofof234
234
000306

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1167
PageID.207 Filed
Filed11/11/20
11/29/20 Page
Page174
174ofof234
234
000307

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1168
PageID.208 Filed
Filed11/11/20
11/29/20 Page
Page175
175ofof234
234
000308

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1169
PageID.209 Filed
Filed11/11/20
11/29/20 Page
Page176
176ofof234
234
000309

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1170
PageID.210 Filed
Filed11/11/20
11/29/20 Page
Page177
177ofof234
234
000310

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1171
PageID.211 Filed
Filed11/11/20
11/29/20 Page
Page178
178ofof234
234
000311

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1172
PageID.212 Filed
Filed11/11/20
11/29/20 Page
Page179
179ofof234
234
000312

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1173
PageID.213 Filed
Filed11/11/20
11/29/20 Page
Page180
180ofof234
234
000313

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1174
PageID.214 Filed
Filed11/11/20
11/29/20 Page
Page181
181ofof234
234
000314

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1175
PageID.215 Filed
Filed11/11/20
11/29/20 Page
Page182
182ofof234
234
000315

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1176
PageID.216 Filed
Filed11/11/20
11/29/20 Page
Page183
183ofof234
234
000316

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1177
PageID.217 Filed
Filed11/11/20
11/29/20 Page
Page184
184ofof234
234
000317

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1178
PageID.218 Filed
Filed11/11/20
11/29/20 Page
Page185
185ofof234
234
000318

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1179
PageID.219 Filed
Filed11/11/20
11/29/20 Page
Page186
186ofof234
234
000319

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1180
PageID.220 Filed
Filed11/11/20
11/29/20 Page
Page187
187ofof234
234
000320

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1181
PageID.221 Filed
Filed11/11/20
11/29/20 Page
Page188
188ofof234
234
000321

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1182
PageID.222 Filed
Filed11/11/20
11/29/20 Page
Page189
189ofof234
234
000322

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1183
PageID.223 Filed
Filed11/11/20
11/29/20 Page
Page190
190ofof234
234
000323

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1184
PageID.224 Filed
Filed11/11/20
11/29/20 Page
Page191
191ofof234
234
000324

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1185
PageID.225 Filed
Filed11/11/20
11/29/20 Page
Page192
192ofof234
234
000325

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1186
PageID.226 Filed
Filed11/11/20
11/29/20 Page
Page193
193ofof234
234
000326

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1187
PageID.227 Filed
Filed11/11/20
11/29/20 Page
Page194
194ofof234
234
000327

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1188
PageID.228 Filed
Filed11/11/20
11/29/20 Page
Page195
195ofof234
234
000328

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1189
PageID.229 Filed
Filed11/11/20
11/29/20 Page
Page196
196ofof234
234
000329

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1190
PageID.230 Filed
Filed11/11/20
11/29/20 Page
Page197
197ofof234
234
000330

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1191
PageID.231 Filed
Filed11/11/20
11/29/20 Page
Page198
198ofof234
234
000331

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1192
PageID.232 Filed
Filed11/11/20
11/29/20 Page
Page199
199ofof234
234
000332

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1193
PageID.233 Filed
Filed11/11/20
11/29/20 Page
Page200
200ofof234
234
000333

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1194
PageID.234 Filed
Filed11/11/20
11/29/20 Page
Page201
201ofof234
234
000334

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1195
PageID.235 Filed
Filed11/11/20
11/29/20 Page
Page202
202ofof234
234
000335

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1196
PageID.236 Filed
Filed11/11/20
11/29/20 Page
Page203
203ofof234
234
000336

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1197
PageID.237 Filed
Filed11/11/20
11/29/20 Page
Page204
204ofof234
234
000337

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1198
PageID.238 Filed
Filed11/11/20
11/29/20 Page
Page205
205ofof234
234
000338

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1199
PageID.239 Filed
Filed11/11/20
11/29/20 Page
Page206
206ofof234
234
000339

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1200
PageID.240 Filed
Filed11/11/20
11/29/20 Page
Page207
207ofof234
234
000340

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1201
PageID.241 Filed
Filed11/11/20
11/29/20 Page
Page208
208ofof234
234
000341

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1202
PageID.242 Filed
Filed11/11/20
11/29/20 Page
Page209
209ofof234
234
000342

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1203
PageID.243 Filed
Filed11/11/20
11/29/20 Page
Page210
210ofof234
234
000343

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1204
PageID.244 Filed
Filed11/11/20
11/29/20 Page
Page211
211ofof234
234
000344

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1205
PageID.245 Filed
Filed11/11/20
11/29/20 Page
Page212
212ofof234
234
000345

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1206
PageID.246 Filed
Filed11/11/20
11/29/20 Page
Page213
213ofof234
234
000346

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1207
PageID.247 Filed
Filed11/11/20
11/29/20 Page
Page214
214ofof234
234
000347

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1208
PageID.248 Filed
Filed11/11/20
11/29/20 Page
Page215
215ofof234
234
000348

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1209
PageID.249 Filed
Filed11/11/20
11/29/20 Page
Page216
216ofof234
234
000349

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1210
PageID.250 Filed
Filed11/11/20
11/29/20 Page
Page217
217ofof234
234
000350

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1211
PageID.251 Filed
Filed11/11/20
11/29/20 Page
Page218
218ofof234
234
000351

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1212
PageID.252 Filed
Filed11/11/20
11/29/20 Page
Page219
219ofof234
234
000352

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1213
PageID.253 Filed
Filed11/11/20
11/29/20 Page
Page220
220ofof234
234
000353

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1214
PageID.254 Filed
Filed11/11/20
11/29/20 Page
Page221
221ofof234
234
000354

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1215
PageID.255 Filed
Filed11/11/20
11/29/20 Page
Page222
222ofof234
234
000355

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1216
PageID.256 Filed
Filed11/11/20
11/29/20 Page
Page223
223ofof234
234
000356

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1217
PageID.257 Filed
Filed11/11/20
11/29/20 Page
Page224
224ofof234
234
000357

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1218
PageID.258 Filed
Filed11/11/20
11/29/20 Page
Page225
225ofof234
234
000358

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1219
PageID.259 Filed
Filed11/11/20
11/29/20 Page
Page226
226ofof234
234
000359

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1220
PageID.260 Filed
Filed11/11/20
11/29/20 Page
Page227
227ofof234
234
000360

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1221
PageID.261 Filed
Filed11/11/20
11/29/20 Page
Page228
228ofof234
234
000361

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1222
PageID.262 Filed
Filed11/11/20
11/29/20 Page
Page229
229ofof234
234
000362

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1223
PageID.263 Filed
Filed11/11/20
11/29/20 Page
Page230
230ofof234
234
000363

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1224
PageID.264 Filed
Filed11/11/20
11/29/20 Page
Page231
231ofof234
234
000364

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1225
PageID.265 Filed
Filed11/11/20
11/29/20 Page
Page232
232ofof234
234
000365

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1226
PageID.266 Filed
Filed11/11/20
11/29/20 Page
Page233
233ofof234
234
000366

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-2,
6-3, PageID.1227
PageID.267 Filed
Filed11/11/20
11/29/20 Page
Page234
234ofof234
234
000367

Case 2:20-cv-13134-LVP-RSW ECF No. 6-4, PageID.1228 Filed 11/29/20 Page 1 of 77
000368

EXHIBIT 4

Case 2:20-cv-13134-LVP-RSW ECF No. 6-4, PageID.1229 Filed 11/29/20 Page 2 of 77
000369

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and EDWARD P.
McCALL, Jr.,
Plaintiff,

COMPLAINT AND
APPLICATION FOR SPECIAL
LEAVE TO FILE QUO
WARRANTO COMPLAINT

-vs-

EXPEDITED CONSIDERATION
REQUESTED

CITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in
her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of
the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
capacity as the CLERK OF WAYNE
COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.

FILE NO: 20-

-AW

JUDGE

/

David A. Kallman
(P34200)
Erin E. Mersino
(P70886)
Jack C. Jordan
(P46551)
Stephen P. Kallman
(P75622)
GREAT LAKES JUSTICE CENTER
Attorneys for Plaintiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207/Fax: (517) 322-3208
There is no other pending or resolved civil action arising out of the same transaction or
occurrence as alleged in the complaint.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1230
PageID.274 Filed
Filed11/11/20
11/29/20 Page
Page33ofof77
77
000370

APPLICATION FOR SPECIAL LEAVE TO FILE
QUO WARRANTO COMPLAINT
NOW COMES the above-named Plaintiffs, CHERYL A. COSTANTINO AND EDWARD P.
MCCALL, JR., by and through their attorneys, GREAT LAKES JUSTICE CENTER, and for their
application for leave to file a complaint for quo warranto relief, and for their complaint, hereby
states as follows:
1.

Pursuant to MCL 600.4545(2), Plaintiffs respectfully request that this Honorable

Court grant them special leave to file Counts II and III of this complaint for quo warranto for all
the reasons as stated in their complaint, motion for temporary restraining order, supporting
affidavits, exhibits, and accompanying brief, which are all incorporated herein by reference.
2.

Plaintiffs request this relief as recognized in Shoemaker v City of Southgate, 24

Mich App 676, 680 (1970).
WHEREFORE, Plaintiffs request that his application for special leave to file Counts II and
III of this complaint for quo warranto relief be granted and that this Honorable Court grant such
other and further relief as appropriate.
Dated: November 8, 2020.

/s/ David A. Kallman
David A. Kallman
Attorney for Plaintiffs

(P34200)

COMPLAINT
NOW COMES the above-named Plaintiffs, CHERYL A. COSTANTINO AND EDWARD P.
MCCALL, JR. (hereinafter “Plaintiff”), by and through their attorneys, GREAT LAKES JUSTICE
CENTER, and for their Complaint hereby states as follows:
INTRODUCTION
1.

The election was held on November 3, 2020 and approximately 850,000 votes were

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1231
PageID.275 Filed
Filed11/11/20
11/29/20 Page
Page44ofof77
77
000371

reported as cast in Wayne County, Michigan.
2.

Plaintiff brings this action to raise numerous issues of fraud and misconduct that

occurred in order to protect the rights of all voters in Michigan, especially Wayne County.
3.

In summary, this Complaint raises numerous instances of fraud, including, but not

limited to:
a. Defendants systematically processed and counted ballots from voters whose name
failed to appear in either the Qualified Voter File (QVF) or in the supplemental
sheets. When a voter’s name could not be found, the election worker assigned the
ballot to a random name already in the QVF to a person who had not voted.
b. Defendants instructed election workers to not verify signatures on absentee ballots,
to backdate absentee ballots, and to process such ballots regardless of their validity.
c. After election officials announced the last absentee ballots had been received,
another batch of unsecured and unsealed ballots, without envelopes, arrived in trays
at the TCF Center. There were tens of thousands of these absentee ballots, and
apparently every ballot was counted and attributed only to Democratic candidates.
d. Defendants instructed election workers to process ballots that appeared after the
election deadline and to falsely report that those ballots had been received prior to
November 3, 2020 deadline.
e. Defendants systematically used false information to process ballots, such as using
incorrect or false birthdays. Many times, the election workers inserted new names
into the QVF after the election and recorded these new voters as having a birthdate
of 1/1/1900.
f. On a daily basis leading up to the election, City of Detroit election workers and

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1232
PageID.276 Filed
Filed11/11/20
11/29/20 Page
Page55ofof77
77
000372

employees coached voters to vote for Joe Biden and the Democrat party. These
workers and employees encouraged voters to do a straight Democrat ballot. These
election workers and employees went over to the voting booths with voters in order
to watch them vote and coach them for whom to vote.
g. Unsecured ballots arrived at the TCF Center loading garage, not in sealed ballot
boxes, without any chain of custody, and without envelopes.
h. Defendant election officials and workers refused to record challenges to their
processes and removed challengers from the site if they politely voiced a challenge.
i. After poll challengers started discovering the fraud taking place at the TCF Center,
Defendant election officials and workers locked credentialed challengers out of the
counting room so they could not observe the process, during which time tens of
thousands of ballots were processed.
j. Defendant election officials and workers allowed ballots to be duplicated by hand
without allowing poll challengers to check if the duplication was accurate. In fact,
election officials and workers repeatedly obstructed poll challengers from
observing. Defendants permitted thousands of ballots to be filled out by hand and
duplicated on site without oversight from poll challengers.
PARTIES, JURISDICTION, AND VENUE
4.

Plaintiff Cheryl A. Costantino is a resident of Wayne County, voted in the

November 3, 2020 election, and was a poll challenger.
5.

Plaintiff Edward P. McCall, Jr. is a resident of Wayne County, voted in the

November 3, 2020 election, and was a poll challenger.
6.

Defendant City of Detroit is a municipality located in Wayne County tasked with

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1233
PageID.277 Filed
Filed11/11/20
11/29/20 Page
Page66ofof77
77
000373

the obligation to hold all elections in a fair and legal manner.
7.

Defendant Election Commission is a department of the City of Detroit.

8.

Janice M. Winfrey, in her official capacity, is Clerk of the Defendant City of Detroit

and the Chairman of the Defendant Detroit City Election Commission and is the city official who
oversees and supervises all elections in the City of Detroit.
9.

Cathy M. Garrett, in her official capacity, is the Clerk of Defendant Wayne County,

and is the county official who oversees and supervises all elections in Wayne County.
10.

Defendant Wayne County Board of Canvassers is the appointed body that is

responsible for canvassing the votes cast within the county they serve. The Board members certify
elections for all local, countywide and district offices which are contained entirely within the
county they serve.
11.

This action is properly filed in Wayne County Circuit Court pursuant to MCR

3.306(A)(2), Mich. Const. art. 2, sec. 4, par. 1(h), MCL 600.4545, and MCL 600.605. Venue is
proper pursuant to MCR 3.306(D).
GENERAL ALLEGATIONS
12.

Wayne County used the TCF Center in downtown Detroit to consolidate, collect,

and tabulate all of the ballots for the County.
13.

The TCF Center was the only facility within Wayne County authorized to count the

ballots.
Forging Ballots on the Qualified Voter List
14.

An attorney and former Michigan Assistant Attorney General was a certified poll

challenger at the TCF Center (Exhibit A – Affidavit of Zachary Larsen).
15.

As Mr. Larsen watched the process, he was concerned that ballots were being

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1234
PageID.278 Filed
Filed11/11/20
11/29/20 Page
Page77ofof77
77
000374

processed without confirmation that the voter was an eligible voter in the poll book because of
information he had received from other poll challengers (Exhibit A).
16.

Mr. Larsen reviewed the running list of scanned in ballots in the computer system,

where it appeared that the voter had already been counted as having voted. An official operating
the computer then appeared to assign this ballot to a different voter as he observed a completely
different name that was added to the list of voters at the bottom of a running tab of processed
ballots on the right side of the screen (Exhibit A).
17.

Mr. Larsen was concerned that this practice of assigning names and numbers

indicated that a ballot was being counted for a non-eligible voter who was not in either the poll
book or the supplemental poll book. From his observation of the computer screen, the voters were
not in the official poll book. Moreover, this appeared to be the case for the majority of the voters
whose ballots he personally observed being scanned (Exhibit A).
18.

Because of Mr. Larsen’s concern, he stepped behind the table and walked over to a

spot behind where the first official was conducting her work. Understanding health concerns due
to COVID-19, he attempted to stand as far away from this official as he reasonably could while
also being able to visually observe the names on the supplemental poll book and on the envelopes
(Exhibit A).
19.

As soon as Mr. Larsen moved to a location where he could observe the process by

which the first official at this table was confirming the eligibility of the voters to vote, the first
official immediately stopped working and glared at him. He stood still until she began to loudly
and aggressively tell him that he could not stand where he was standing. She indicated that he
needed to remain in front of the computer screen where he could not see what the worker was
doing (Exhibit A).

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1235
PageID.279 Filed
Filed11/11/20
11/29/20 Page
Page88ofof77
77
000375

20.

Both officials then began to tell Mr. Larsen that because of COVID, he needed to

be six feet away from the table. He responded that he could not see and read the supplemental poll
book from six feet away, and that he was attempting to keep his distance to the extent possible
(Exhibit A).
21.

Just minutes before at another table, a supervisor had explained that the rules

allowed Mr. Larsen to visually observe what he needed to see and then step back away. Likewise,
on Election Day, he had been allowed to stand at equivalent distance from poll books in Lansing
and East Lansing precincts without any problem. With this understanding, he remained in a
position to observe the supplemental poll book (Exhibit A).
22.

Both officials indicated that Mr. Larsen could not remain in a position that would

allow him to observe their activities; the officials indicated they were going to get their supervisor
(Exhibit A).
23.

When the supervisor arrived, she reiterated that Mr. Larsen was not allowed to stand

behind the official with the supplemental poll book, and he needed to stand in front of the computer
screen. Mr. Larsen told her that was not true, and that he was statutorily allowed to observe the
process, including the poll book (Exhibit A).
24.

The supervisor then pivoted to arguing that Mr. Larsen was not six feet away from

the first official. Mr. Larsen told her that he was attempting to remain as far away as he could while
still being able to read the names on the poll book (Exhibit A).
25.

The supervisor then stood next to the chair immediately to the left of the first

official and indicated that Mr. Larsen was “not six feet away from” the supervisor and that she
intended to sit in the chair next to the official with the poll book, so he would need to leave (Exhibit
A).

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1236
PageID.280 Filed
Filed11/11/20
11/29/20 Page
Page99ofof77
77
000376

26.

This supervisor had not been at the table at any time during the process, and she

had responsibility for numerous ACVBs. Further, the supervisor’s choice of chairs was
approximately three feet to the left of the first official and therefore in violation of the six-foot
distance rule (Exhibit A).
27.

Accordingly, Mr. Larsen understood that this was a ruse to keep him away from a

place where he could observe the confirmation of names in the supplemental poll book. The
supervisor began to repeatedly tell him that he “needed to leave” so he responded that he would
go speak with someone else and fill out a challenge form (Exhibit A).
28.

After Mr. Larsen observed and uncovered the fraud that was taking place and had

the confrontation with the supervisor, he left the counting room to consult with another attorney
about the matter around 1:30 p.m. to 2:00 p.m. (Exhibit A).
29.

It was at this point that election officials stopped permitting any further poll

challengers to enter the counting room, including Mr. Larsen (Exhibit A).
30.

Election officials never allowed Mr. Larsen to re-enter the counting room to fulfill

his duties as a poll challenger after he had discovered the fraud which was taking place.
Illegal Voter Coaching and Identification Issues
31.

An election employee with the City of Detroit was working at a polling location for

approximately three weeks prior to the election. This City of Detroit employee directly observed,
on a daily basis, other City of Detroit election workers and employees coaching voters to vote for
Joe Biden and the Democrat party. This employee witnessed these workers and employees
encouraging voters to do a straight Democrat ballot and witnessed these election workers and
employees going over to the voting booths with voters in order to watch them vote and coach them
for whom to vote (Exhibit B – Affidavit of Jessy Jacob).

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1237
PageID.281 Filed
Filed11/11/20
11/29/20 Page
Page10
10ofof77
77
000377

32.

During the last two weeks while this same employee was working at the polling

location, she was specifically instructed by her supervisor never to ask for a driver’s license or any
photo I.D. when a person was trying to vote (Exhibit B).
Changing Dates on Ballots
33.

All absentee ballots that existed were required to be inputted into the QVF system

by 9:00 p.m. on November 3, 2020. This was required to be done in order to have a final list of
absentee voters who returned their ballots prior to 8:00 p.m. on November 3, 2020. In order to
have enough time to process the absentee ballots, all polling locations were instructed to collect
the absentee ballots from the drop-box once every hour on November 3, 2020 (Exhibit B).
34.

On November 4, 2020, a City of Detroit election worker was instructed to

improperly pre-date the absentee ballots receive date that were not in the QVF as if they had been
received on or before November 3, 2020. She was told to alter the information in the QVF to
falsely show that the absentee ballots had been received in time to be valid. She estimates that this
was done to thousands of ballots (Exhibit B).
Illegal Double Voting
35.

The election employee observed a large number of people who came to the satellite

location to vote in-person, but they had already applied for an absentee ballot. These people were
allowed to vote in-person and were not required to return the mailed absentee ballot or sign an
affidavit that the voter lost the mailed absentee ballot (Exhibit B).
36.

This would permit a person to vote in person and also send in his/her absentee

37.

Prior to the election, the Michigan Secretary of State sent ballot applications to

ballot.

deceased residents and to non-residents of the State of Michigan.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1238
PageID.282 Filed
Filed11/11/20
11/29/20 Page
Page11
11ofof77
77
000378

First Round of New Ballots
38.

At approximately 4:00 a.m. on November 4, 2020, tens of thousands of ballots were

suddenly brought into the counting room through the back door (Exhibit C – Affidavit of Andrew
Sitto).
39.

These new ballots were brought to the TCF Center by vehicles with out-of-state

license plates (Exhibit C).
40.

It was observed that all of these new ballots were cast for Joe Biden (Exhibit C).
Second Round of New Ballots

41.

The ballot counters were required to check every ballot to confirm that the name on

the ballot matched the name on the electronic poll list; this was the list of all persons who had
registered to vote on or before November 1, 2020 and is often referred to as the QVF (Exhibit D Affidavit of Bob Cushman)
42.

The ballot counters were also provided with Supplemental Sheets which had the

names of all persons who had registered to vote on either November 2, 2020 or November 3, 2020
(Exhibit C).
43.

The validation process for a ballot requires the name on the ballot to be matched

with a registered voter on either the QVF or the Supplemental Sheets.
44.

At approximately 9:00 p.m. on Wednesday, November 4, 2020, numerous boxes of

ballots were brought to TCF Center (Exhibit D).
45.

Upon information and belief, the Wayne County Clerk’s office instructed the ballot

counters to use the date of birth of January 1, 1900 on all of these newly appearing ballots.
46.

None of the names of these new ballots corresponded with any registered voter on

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1239
PageID.283 Filed
Filed11/11/20
11/29/20 Page
Page12
12ofof77
77
000379

the QVF or the Supplemental Sheets (Exhibit D).
47.

Despite election rules that required that all absentee ballots be inputted into the

QVF system before 9:00 p.m. on November 3, 2020 (Exhibit B), the election workers inputted all
of these new ballots into the QVF and manually added each voter to the list after 9:00 p.m. (Exhibit
D).
48.

Upon information and belief, the vast majority of these new ballots indicated the

voter’s date of birth as January 1, 1900 entered into the QVF (Exhibit D).
49.

These newly received ballots were either fraudulent or apparently cast by persons

who were not registered to vote prior to the polls closing at 8:00 p.m. on November 3, 2020.
No Transparency - Denied Access
50.

Numerous election challengers were denied access to observe the counting process

by the Defendants.
51.

After denying access to the counting rooms, election officials used large pieces of

cardboard to block the windows to the counting room thereby preventing anyone from watching
the ballot counting process (Exhibit C).
Qualified Voter File Access
52.

Whenever an absentee vote application or in-person absentee voter registration was

finished, election workers were instructed to input the voter’s name, address, and date of birth into
the QVF system (Exhibit B).
53.

The QVF system can be accessed and edited by any election processor with proper

credentials in the State of Michigan at any time and from any location with internet access (Exhibit
B).
54.

This access permits anyone with the proper credentials to edit when ballots were

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1240
PageID.284 Filed
Filed11/11/20
11/29/20 Page
Page13
13ofof77
77
000380

sent, received, and processed from any location with internet access (Exhibit B).
55.

Many of the counting computers within the counting room had icons that indicated

that they were connected to the internet (Exhibit F – Affidavit of Patrick J. Colbeck).
Absentee Ballot Signatures
56.

Whenever a person requested an absentee ballot either by mail or in-person, that

person was required to sign the absentee voter application.
57.

When the voter returned his/her absentee ballot to be counted, the voter was

required to sign the outside of the envelope that contained the ballot.
58.

Election officials who process absentee ballots are required to compare the

signature on the absentee ballot application with the signature on the absentee ballot envelope.
59.

Election officials at the TCF Center instructed workers to never validate or compare

the signatures on absentee applications and the absentee envelopes to ensure their authenticity and
validity (Exhibit B).
Unsecured Ballots
60.

A poll challenger witnessed tens of thousands of ballots being delivered to the TCF

Center that were not in any approved, sealed, or tamper-proof container (Exhibit E – Affidavit of
Daniel Gustafson).
61.

Large quantities of ballots were delivered to the TCF Center in what appeared to

be mail bins with open tops (Exhibit E).
62.

Contrary to law, these ballot bins and containers did not have lids, were not sealed,

and did not have the capability of having a metal seal (Exhibit E).
COUNT I – CONSTITUTIONAL RIGHT TO ACCURACY AND INTEGRITY OF ELECTIONS
MICHIGAN CONSTITUTION – ARTICLE 2, SECTION 4, PARAGRAPH 1(H)
63.

Paragraphs 1 through 62 are hereby incorporated by reference as if fully restated

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1241
PageID.285 Filed
Filed11/11/20
11/29/20 Page
Page14
14ofof77
77
000381

herein.
64.

Plaintiff brings this action to vindicate his constitutional right to a free and fair

election ensuring the accuracy and integrity of the process pursuant to the Michigan Constitution,
art. 2, sec. 4, par. 1(h), which states all Michigan citizens have:
The right to have the results of statewide elections audited, in such
a manner as prescribed by law, to ensure the accuracy and integrity
of elections.
65.

The Mich. Const., art. 2, sec. 4, further states, “All rights set forth in this subsection

shall be self-executing. This subsection shall be liberally construed in favor of voters' rights in
order to effectuate its purposes.”
66.

Based upon all the allegations of fraud, statutory violations, and other misconduct,

as stated herein and in the attached affidavits, it is necessary to enjoin the certification of the
election results pending a full investigation and court hearing, and to order an independent audit
of the November 3, 2020 election to ensure the accuracy and integrity of the election.
COUNT II – STATUTORY QUO WARRANTO CLAIM – ELECTION FRAUD
MCL 600.4545(2); MCL 168.861
67.

Paragraphs 1 through 66 are hereby incorporated by reference as if fully restated

68.

MCL 600.4545(2) permits an action to request the issuance of a writ of quo

herein.

warranto if the action is brought within 30 days after the election upon the request of “any citizen
of the county by special leave of the court or a judge thereof.”
69.

The statute also requires this action to “be brought against the municipality wherein

such fraud or error is alleged to have been committed.”
70.

Quo Warranto may be brought to remedy fraudulent or illegal voting or tampering

with ballots or ballot boxes before a recount pursuant to MCL 168.861, which states,

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1242
PageID.286 Filed
Filed11/11/20
11/29/20 Page
Page15
15ofof77
77
000382

For fraudulent or illegal voting, or tampering with the ballots or
ballot boxes before a recount by the board of county canvassers, the
remedy by quo warranto shall remain in full force, together with any
other remedies now existing.
71.

Based upon the allegations contained herein, material fraud or error occurred in this

election so that the outcome of the election was affected.
72.

Based upon the above allegations of fraud, statutory violations, and other

misconduct, as stated herein and in the attached affidavits, it is necessary to issue a writ of quo
warranto and order appropriate relief, including, but not limited to, enjoining the certification of
the election results pending a full investigation and court hearing, ordering a recount of the election
results, or voiding the election and ordering a new election, to remedy the fraud.
COUNT III – COMMON LAW QUO WARRANTO CLAIM – ELECTION FRAUD
73.

Paragraphs 1 through 72 are hereby incorporated by reference as if fully restated

74.

MCR 3.306(B)(2) permits an action to request the issuance of a writ of quo

herein.

warranto.
75.

An application to proceed by quo warranto must disclose sufficient facts and

grounds and sufficient apparent merit to justify further inquiry.
76.

Quo warranto is warranted whenever it appears that material fraud or error has been

committed at any election. This type of action is brought to challenge the validity of the election
itself. Barrow v Detroit Mayor, 290 Mich App 530, 543 (2010). For all the reasons stated herein
and in the attached affidavits, material fraud or error was committed during the election.
77.

This Quo Warranto claim is brought to remedy fraudulent or illegal voting or

tampering with ballots or ballot boxes.
78.

Based upon the allegations contained herein, material fraud or error occurred in this

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1243
PageID.287 Filed
Filed11/11/20
11/29/20 Page
Page16
16ofof77
77
000383

election so that the outcome of the election was affected.
79.

Based upon the above allegations of fraud, statutory violations, and other misconduct, as

stated herein and in the attached affidavits, it is necessary to issue a writ of quo warranto and order
appropriate relief, including, but not limited to, enjoining the certification of the election results

pending a full investigation and court hearing, ordering a recount of the election results, or voiding the
election and ordering a new election, to remedy the fraud.

COUNT IV – EQUAL PROTECTION VIOLATION
Mich Const, art I, § 2.
80.

Paragraphs 1 through 79 are hereby incorporated by reference as if fully restated

81.

The Equal Protection Clause of the Michigan Constitution provides that “[n]o

herein.

person shall be denied the equal protection of the laws; nor shall any person be denied the
enjoyment of his civil or political rights.” Mich Const, art I, § 2.
82.

The right to vote is a fundamental civil right and a political right.

83.

The Equal Protection Clause forbids election officials granting the right to vote on

equal terms but later devaluing a person’s vote through failing to use specific standards and
uniform rules.
84.

Only specific standards and uniform rules provide sufficient guarantees of equal

treatment.
85.

Every person has the right to vote, with their vote counted as one vote, and not have

his or her vote diluted and voided out by the counting of an illegal vote.
86.

Defendants handling of the election, as described above and as described in the

attached affidavits, establish how rampant and systemic fraud devalued and diluted Plaintiff’s civil
and political rights.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1244
PageID.288 Filed
Filed11/11/20
11/29/20 Page
Page17
17ofof77
77
000384

87.

The illegal procedures, illegal standards, and illegal treatment of the ballots and the

counting of ballots in Wayne County and in Detroit employed by Defendants unconstitutionally
burden the fundamental right to vote.
88.

Defendants have no legitimate interest in counting illegal and improper ballots,

counting ballots more than once, illegally correcting and improperly duplicating ballots, adding
false birthdates and voter information to ballots, and improperly handling the collection and
counting of ballots in a way that dilutes and cancels out rightfully and properly cast votes.
89.

Based upon the above allegations of fraud, statutory violations, and other

misconduct, as stated herein and in the attached affidavits, it is necessary to order appropriate
relief, including, but not limited to, enjoining the certification of the election results pending a full
investigation and court hearing, ordering a recount of the election results, or voiding the election
and ordering a new election, to remedy the fraud.
COUNT V – STATUTORY ELECTION LAW VIOLATIONS
90.

Paragraphs 1 through 89 are hereby incorporated by reference as if fully restated

herein.
Violation of MCL 168.765a.
91.

Absent voter ballots must only be counted when “at all times” there is “at least

1 election inspector from each major political party.” MCL 168.765a.
92.

Per eyewitness accounts described in this Complaint and its attached sworn

affidavits, Defendants habitually and systematically disallowed election inspectors from the
Republican party, including Plaintiff, to be present in the voter counting place and refused
access to election inspectors from the Republican party, including Plaintiff, to be within a
close enough distance from the absent voter ballots to be able to see for whom the ballots were

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1245
PageID.289 Filed
Filed11/11/20
11/29/20 Page
Page18
18ofof77
77
000385

cast.
93.

Defendants refused entry to official election inspectors from the Republican

party, including Plaintiff, into the counting place to observe the counting of absentee voter
ballots. Defendants even physically blocked and obstructed election inspectors from the
Republican party, including Plaintiff, by adhering large pieces of cardboard to the transparent
glass doors so the counting of absent voter ballots was not viewable.
Violation of MCL 168.733
94.

MCL 168.733 requires:
(1) The board of election inspectors shall provide space for the
challengers within the polling place that enables the challengers to
observe the election procedure and each person applying to vote. A
challenger may do 1 or more of the following:
(a) Under the scrutiny of an election inspector, inspect
without handling the poll books as ballots are issued to electors and
the electors' names being entered in the poll book.
(b) Observe the manner in which the duties of the election
inspectors are being performed.
(c) Challenge the voting rights of a person who the
challenger has good reason to believe is not a registered elector.
(d) Challenge an election procedure that is not being
properly performed.
(e) Bring to an election inspector's attention any of the
following:
(i) Improper handling of a ballot by an elector or election
inspector.
(ii) A violation of a regulation made by the board of election
inspectors pursuant to section 742.
(iii) Campaigning being performed by an election inspector
or other person in violation of section 744.
(iv) A violation of election law or other prescribed election
procedure.
(f) Remain during the canvass of votes and until the
statement of returns is duly signed and made.
(g) Examine without handling each ballot as it is being
counted.
(h) Keep records of votes cast and other election procedures
as the challenger desires.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1246
PageID.290 Filed
Filed11/11/20
11/29/20 Page
Page19
19ofof77
77
000386

(i) Observe the recording of absent voter ballots on voting
machines.
95.

Per eyewitness accounts described in this Complaint and its attached sworn

affidavits, Defendants habitually and systematically failed to provide space for election
inspectors from the Republican party, including Plaintiff, to observe election procedure,
failed to allow the inspection of poll books, failed to share the names of the electors being
entered in the poll books, failed to allow the examination of each ballot as it was being
counted, and failed to keep records of obvious and observed fraud.
96.

Poll challengers, including Plaintiff, observed election workers and supervisors

writing on ballots themselves to alter them, apparently manipulating spoiled ballots by hand
and then counting the ballots as valid, counting the same ballot more than once, adding
information to incomplete affidavits accompanying absentee ballots, counting absentee
ballots returned late, counting unvalidated and unreliable ballots, and counting the ballots of
“voters” who had no recorded birthdates and were not registered in the State’s Qualified Voter
File or on any Supplemental voter lists.
97.

Michigan law requires that in order to register as an absentee voter, the application

must be made in writing and received by the clerk by 5pm on the Friday before the election.
Violation of MCL 168.765(5)
98.

Michigan election law, MCL 168.765(5), requires Defendants to post the following

absentee voting information anytime an election is conducted which involves a state or federal
office:
a.
The clerk must post before 8:00 a.m. on Election Day: 1) the
number of absent voter ballots distributed to absent voters 2) the
number of absent voter ballots returned before Election Day and 3)
the number of absent voter ballots delivered for processing.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1247
PageID.291 Filed
Filed11/11/20
11/29/20 Page
Page20
20ofof77
77
000387

b.
The clerk must post before 9:00 p.m. on Election Day: 1) the
number of absent voter ballots returned on Election Day 2) the
number of absent voter ballots returned on Election Day which were
delivered for processing 3) the total number of absent voter ballots
returned both before and on Election Day and 4) the total number of
absent voter ballots returned both before and on Election Day which
were delivered for processing.
c.
The clerk must post immediately after all precinct returns are
complete: 1) the total number of absent voter ballots returned by
voters and 2) the total number of absent voter ballots received for
processing.
99.

Upon information and belief, Defendants failed to post by 8:00 a.m. on Election

Day the number of absentee ballots distributed to absent voters and failed to post before 9:00 p.m.
the number of absent voters returned before on Election Day.
100.

Per Michigan Election law, all absentee voter ballots must be returned to the clerk

before polls close at 8pm. MCL 168.764a. Any absentee voter ballots received by the clerk after
the close of the polls on election day will not be counted.
101.

Michigan allows for early counting of absentee votes prior to the closings of the

polls for large jurisdictions, such as the City of Detroit and Wayne County.
102.

Upon information and belief, receiving tens of thousands additional absentee

ballots in the early morning hours after election day and after the counting of the absentee ballots
had concluded, without proper oversight, with tens of thousands of ballots attributed to just one
candidate, Joe Biden, indicates Defendants failed to follow proper election protocol.
103.

Based upon the above allegations of fraud, statutory violations, and other

misconduct, as stated herein and in the attached affidavits, it is necessary to order appropriate
relief, including, but not limited to, enjoining the certification of the election results pending a full
investigation and court hearing, ordering a recount of the election results, or voiding the election
and ordering a new election, to remedy the fraud.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1248
PageID.292 Filed
Filed11/11/20
11/29/20 Page
Page21
21ofof77
77
000388

WHEREFORE, Plaintiff respectfully requests that this Honorable Court:
A.

issue an order requiring Defendants to conduct an independent and non-partisan

audit to determine the accuracy and integrity of the November 3, 2020 election;
B.

issue an ex-parte TRO prohibiting Defendants’ from certifying the election results

or continuing to count ballots until this matter can be heard by the Court.
C.

issue an preliminary injunction prohibiting Defendants’ from certifying the

election results until this matter can be heard by the Court.
D.

issue an order voiding the November 3, 2020 election results and order a new

election to be held.
E.

Issue a protective order as requested in the attached Motion for TRO.

F.

grant such other and further relief as is equitable and just, and grant him costs,

expenses and attorney fees incurred in having to bring this action.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1249
PageID.293 Filed
Filed11/11/20
11/29/20 Page
Page22
22ofof77
77
000389

I HEREBY STATE AND AFFIRM THAT I HAVE HAD READ THE
FOREGOING COMPLAINT AND THAT IT IS TRUE AND ACCURATE TO THE BEST
OF MY INFORMATION, KNOWLEDGE, AND BELIEF.

s...

,

...,

Dated: November 8, 2020.

Cheryl A. Constantino, Plaintiff

Q)

u

.....u

Q)

(/)

::l
..--,

Dated: November 8, 2020.

Edward P. McCall, Plaintiff

(/)

Q)
.!<:
rd
...:I

s...

Q)

Prepared By:

Isl David A. Kallman
David A. Kallman
Stephen P. Kallman
Jack C. Jordan
Erin E. Mersino
Attorneys for Plaintiff

(P34200)
(P75622)
(P46551)
(P70886)

21

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1250
PageID.294 Filed
Filed11/11/20
11/29/20 Page
Page23
23ofof77
77
000390

I HEREBY STATE A�D AFFIR:'1 THAT I HA VE HAD READ THE
FOREGOI:"iG COMPLAINT A�ID THAT IT IS TRL'E AND ACCURATE TO THE BEST
OF MY �FOR'1ATION, KNO'\VLEDGE, AND BELIEF.

(;)���
'---fheryl A. llitantino, Plaintiff

Dated: November 8, 2020.

Dated: November 8, 2020.

�

ca>
a>

Edward P. McCall, Plaintiff

Prepared By:

u
Q)

0

�
::,
--,

Isl David A. Kallman
David A. Kallman
Stephen P. Kallman
Jack C. Jordan
Erin E. Mersino
Attorneys for Plaintiff

u,
a>

.:,t;

ti)

....J

16Q)
�

(!)

(P34200)
(P75622)
(P46551)
(P70886)

,.
21
EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1251
PageID.295 Filed
Filed11/11/20
11/29/20 Page
Page24
24ofof77
77
000391

EXHIBIT A

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1252
PageID.296 Filed
Filed11/11/20
11/29/20 Page
Page25
25ofof77
77
000392

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and EDWARD P.
McCALL, JR.,
Plaintiff,

AFFIDAVIT OF ZACHARY
LARSEN
FILE NO: 20-

-vs-

JUDGE

CITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in
her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of
the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
capacity as the CLERK OF WAYNE
COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.

-AW

/

David A. Kallman
(P34200)
Erin E. Mersino
(P70886)
Jack C. Jordan
(P46551)
Stephen P. Kallman
(P75622)
GREAT LAKES JUSTICE CENTER
Attorneys for Plaintiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207/Fax: (517) 322-3208
AFFIDAVIT
The Affiant, Zachary Larsen, being first duly sworn, hereby deposes and states as follows:
1.

My name is Zachary Larsen, I am over the age of eighteen, have personal

knowledge of the facts stated in this Affidavit and, if sworn as a witness, I am competent to testify
to these facts.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1253
PageID.297 Filed
Filed11/11/20
11/29/20 Page
Page26
26ofof77
77
000393

2.

I am an attorney in private practice and licensed in the State of Michigan. Prior to

my entry into private practice, I served as an Assistant Attorney General for eight years from
January 2012 through January 2020, where I was recognized with an award for the quality of my
work and served the state on several high-priority litigation matters.
3.

In September 2020, I volunteered to serve as a poll challenger for the Michigan

Republic Party’s election day operations to ensure the integrity of the vote and conformity of the
election process to the election laws of Michigan.
4.

In preparation for my service, I attended an elections training, reviewed materials

relating to the conduct of elections, and read pertinent sections of Michigan’s election law.
5.

On Election Day, Tuesday, November 3, 2020, I served as a roving attorney and

credentialed poll challenger with a group of attorneys and visited approximately 20-30 voting
precincts in Lansing, East Lansing, and Williamston, Michigan to confirm that the election was
conducted in accordance with law, and on a few occasions, to address complaints raised by specific
voters.
6.

During my visits to precincts on Election Day, I was allowed to visually inspect the

poll book without touching it at every precinct where we asked to review it. In each instance, I was
allowed to stand a respectful distance behind the election officials while remaining close enough
to read relevant names and numbers.
7.

The following day, on Wednesday, November 4, 2020, I arrived at the former Cobo

Center, now known as the TCF Center, in Detroit, Michigan to serve as a poll challenger for the
absent voter count occurring in Detroit and arrived between 9:30 and 9:45 a.m.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1254
PageID.298 Filed
Filed11/11/20
11/29/20 Page
Page27
27ofof77
77
000394

8.

Prior to my admission to the floor where the absent voter count was occurring, I

received credentials from the Michigan Republican Party and further instruction regarding the
process for handling ballots at absent voter counting boards (“AVCBs”).
9.

Thereafter, I received a temperature scan from election officials that confirmed I

did not have an elevated temperature. I arrived inside, and I was “checked in” by an election
official who reviewed my driver’s license and confirmed my credentials and eligibility to serve as
a challenger. I was admitted at approximately 10:30 a.m.
10.

When I arrived at a counting table and began to observe the process, I noticed

immediately that part of the process that was being implemented did not conform to what I had
been told in my training and the materials that I had received.
11.

Specifically, the information I had received described the process that was

supposed to be occurring at the tables as follows.
12.

A first election official would scan a ballot. If the scan did not confirm a voter in

the poll book, that official would then check the voter against a paper copy “supplemental poll
book.”
13.

The official would then read the ballot number to a second election official and

hand the ballot to that official, who would remove the ballot (while still in the secrecy sleeve) and
confirm the ballot number. That second official would then hand the ballot (in the secrecy sleeve)
to a third official who would tear the stub off of the ballot, and place the stub in a ballot stub
envelope, then pass the remaining ballot to a fourth official.
14.

The fourth official would then remove the ballot from the secrecy sleeve, flatten

the ballot to ensure it was capable of processing, and visually inspect for rips, tears, or stains before
placing the ballot in the “ballots to be tabulated box.” However, if that fourth official identified a

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1255
PageID.299 Filed
Filed11/11/20
11/29/20 Page
Page28
28ofof77
77
000395

concern, she would place the ballot back in its envelope and into a “problem ballots” box that
required additional attention to determine whether they would be processed and counted. A copy
of a diagram that I had received on this process is attached as Exhibit A to this affidavit.
15.

What I observed immediately was that the secrecy of the ballot was not being

respected.
16.

Instead, the second official at the table where I was observing was repeatedly

placing her fingers into the secrecy sleeve to separate the envelope and visually peek into the
envelopes in a way that would allow her to visually observe the ballot and identify some of the
votes cast by the voter.
17.

Sometimes, the third official whose job was merely to remove the stub from the

ballot would likewise remove the ballot from the secrecy sleeve or otherwise peek to observe the
ballot. Sometimes a ballot would be removed completely from the secrecy sleeve and then placed
back inside and passed along this process.
18.

I conferred regarding this issue with another challenger at a nearby table, and he

indicated he had observed similar irregularities regarding the use of the secrecy sleeves.
19.

When that challenger raised the issue with a supervisor, and he was immediately

asked “why does it matter?” and “what difference does it make?”
20.

Beyond the legal requirements for maintaining ballot secrecy, both of us were

concerned that the violations of the secrecy of the ballot that we witnessed could be or were being
used to manipulate which ballots were placed in the “problem ballots” box.
21.

Later that morning, at another table, a challenger identified concerns that ballots

were being placed into “problem ballots” boxes purportedly based on the reason that the voter had
failed to place the ballot in the secrecy sleeve, while other ballots at the same table were being

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1256
PageID.300 Filed
Filed11/11/20
11/29/20 Page
Page29
29ofof77
77
000396

passed along and placed into the “ballots to be tabulated” box that also did not have secrecy
sleeves.
22.

I personally observed that several ballots were placed into the “problem ballots”

boxed and marked with a sticky note indicating that they were “problem ballots” merely because
of the lack of a secrecy sleeve.
23.

When I spoke with a supervisor regarding this issue, he explained that these ballots

were being placed in the “problem ballots” box for efficiency.
24.

From my experience at the first table I had visited (addressed in Paragraphs 15

through 17 above), I had also witnessed ballots that were placed into the “ballots to be tabulated”
box that had arrived without a secrecy sleeve. So the differentiation among these ballots despite
both ballots arriving in secrecy sleeves was perplexing and again raised concerns that some ballots
were being marked as “problem ballots” based on who the person had voted for rather than on any
legitimate concern about the ability to count and process the ballot appropriately.
25.

Just before noon, I arrived at another table (which I later contemporaneously noted

as AVCB # 23), and I conferred with the Republican challenger who had been observing the
process from a viewing screen and watching the response of the computer system as ballots were
scanned by the first official.
26.

I asked the challenger if she had observed anything of concern, and she immediately

noted that she had seen many ballots scanned that did not register in the poll book but that were
nonetheless processed. Because she needed to leave for lunch, I agreed to watch her table.
27.

As I watched the process, I was sensitive to her concern that ballots were being

processed without confirmation that the voter was an eligible voter in the poll book, so I stood at
the monitor and watched.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1257
PageID.301 Filed
Filed11/11/20
11/29/20 Page
Page30
30ofof77
77
000397

28.

The first ballot scanned came in as a match to an eligible voter. But the next several

ballots that were scanned did not match any eligible voter in the poll book.
29.

When the scan came up empty, the first official would type in the name “Pope” that

brought up a voter by that last name.
30.

I reviewed the running list of scanned in ballots in the computer system, and it

appeared that the voter had already been counted as having voted. Then the first official appeared
to assign a number to a different voter as I observed a completely different name that was added
to the list of voters at the bottom of a running tab of processed ballots on the right side of the
screen.
31.

That same official would then make a handwritten notation on her “supplemental

poll book,” which was a hard copy list that she had in front of her at the table.
32.

The supplemental poll book appeared to be a relatively small list.

33.

I was concerned that this practice of assigning names and numbers indicated that a

ballot was being counted for a non-eligible voter who was not in either the poll book or the
supplemental poll book. From my observation of the computer screen, the voters were certainly
not in the official poll book. Moreover, this appeared to be the case for the majority of the voters
whose ballots I had personally observed being scanned.
34.

Because of this concern, I stepped behind the table and walked over to a spot

behind where the first official was conducting her work.
35.

Understanding health concerns due to COVID-19, I attempted to stand as far

away from this official as I reasonably could while also being able to visually observe the names
on the supplemental poll book and on the envelopes.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1258
PageID.302 Filed
Filed11/11/20
11/29/20 Page
Page31
31ofof77
77
000398

36.

Partly inhibiting my ability to keep a distance, the tables were situated so that two

counting tables were likely a maximum of eight feet apart. In other words, you could not stand
more than four feet behind one without being less than four feet from another.
37.

As soon as I moved to a location where I could observe the process by which the

first official at this table was confirming the eligibility of the voters to vote, the first official
immediately stopped working and glared at me. I stood still until she began to loudly and
aggressively tell me that I could not stand where I was standing. She indicated that I needed to
remain in front of the computer screen.
38.

I responded, “Ma’am, I am allowed by statute to observe the process.” As I did, a

Democratic challenger ran towards me and approached within two feet of me, saying “You cannot
speak to her! You are not allowed to talk to her.” I responded, “Sir, she spoke to me. I was just
answering her.”
39.

The first official again told me that the only place I was allowed to observe from

was at the computer screen. A second official at the table reiterated this. I said that was not true.
40.

Both officials then began to tell me that because of COVID, I needed to be six feet

away from the table. I responded that I could not see and read the supplemental poll book from six
feet away, but I was attempting to keep my distance to the extent possible.
41.

Just minutes before at another table, a supervisor had explained that the rules

allowed me to visually observe what I needed to see and then step back away. Likewise, on
Election Day, I had been allowed to stand at equivalent distance from poll books in Lansing and
East Lansing precincts without any problem. With this understanding, I remained in a position
where I would be able to observe the supplemental poll book until I could do so for the voter whose
ballots had just been scanned and did not register in the poll book.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1259
PageID.303 Filed
Filed11/11/20
11/29/20 Page
Page32
32ofof77
77
000399

42.

Both officials indicated that I could not remain in a position that would allow me

to observe their activities and they were going to get their supervisor.
43.

This seemed particularly concerning because the Democratic challenger who raised

concerns over my verbal response to the official had been positioned behind the second official
(the one who confirms ballots as described in Paragraph 13) no further away than I was from the
first official at that time and had not been stationed at the computer screen as the officials
repeatedly told me was the only place that I could stay.
44.

When the supervisor arrived, she reiterated that I was not allowed to stand behind

the official with the supplemental poll book, and I needed to stand in front of the computer screen.
I told her that was not true, and that I was statutorily allowed to observe the process, including the
poll book.
45.

The supervisor then pivoted to arguing that I was not six feet away from the first

official. I told her I was attempting to remain as far away as I could while still being able to read
the names on the poll book.
46.

In an attempt to address her concerns, I took a further step away from the table and

indicated I would try to keep my distance, and that I thought I was about six feet away from the
first official. The supervisor then stood next to the chair immediately to the left of the first official
and indicated that I was “not six feet away from” the supervisor and that she intended to sit in the
chair next to the official with the poll book, so I would need to leave.
47.

This supervisor had not been at the table at any time during the process, and she

had responsibility for numerous ACVBs. Further, the supervisor’s choice of chairs was
approximately three feet to the left of the first official and therefore in violation of the six-foot
distance rule.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1260
PageID.304 Filed
Filed11/11/20
11/29/20 Page
Page33
33ofof77
77
000400

48.

Accordingly, I understood that this was a ruse to keep me away from a place where

I could observe the confirmation of names in the supplemental poll book. The supervisor began to
repeatedly tell me that I “needed to leave” so I responded that I would go speak with someone else
or fill out a challenge form.
49.

I went to find another attorney serving as a challenger and returned to discuss the

matter further with the supervisor. When I returned, she reiterated her assertions and insisted that
there was nowhere where I could stand in conformity with the six-foot rule that would allow me
to observe the supplemental poll book. Ultimately, to avoid further conflict with the supervisor, I
agreed that I would leave that counting table and move to another table.
50.

Between 1:30 p.m. and 2 p.m., my colleague and I decided to return to the suite that

housed the Republican challengers to get lunch. We left the counting floor and went up to the
Republicans second-floor suite.
51.

About 30 to 45 minutes later, an announcement was made that challengers needed

to return to the floor. As we attempted to return, we were made aware that the officials admitting
people had limited the number of election challengers to another 52 people who would be allowed
inside. I displayed my credentials and walked up to near the door where a small crowd was
gathering to be let in.
52.

Shortly thereafter, a man came out to announce that no one would be let in (despite

the prior announcement) because the room had reached the maximum number of challengers. As
he was asked why we would not be let in, he explained that the maximum number of challengers
were determined from the number of names on the sign-in sheet, regardless of how many people
had left the room.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1261
PageID.305 Filed
Filed11/11/20
11/29/20 Page
Page34
34ofof77
77
000401

53.

Many Republican challengers had left the room for lunch without signing out,

including myself and my colleague. Accordingly, we were being arbitrarily "counted" towards this
capacity limitation without actually being allowed into the room to observe.
54.

When challengers raised this issue with the man at the door, he refused to discuss

any solutions such as confirming the identify of challengers who had been previously admitted.
55.

To the best of my recollection, I was never informed that if I left the room and

failed to sign out that I would be refused admission or that there would be no means of confirming
that I had been previously admitted.
a::
w
1z
w

u

56.

The above information is true to the best of my information, knowledge, and belief.

57.

Further affiant says not.

w

u

7
{f)

w
�

w
a::
l9

On this 8th day of November, 2020, before me personally appeared Zachary Larsen, who
in my presence did execute the foregoing affidavit, and who, being duly sworn, deposes and states
that he has read the foregoing affidavit by his subscribed and knows the contents thereof, and that
the same is true of his own knowledge and belief, except as to those matters he states to be on
rue.
v
information and belief, and as to those matter h
� s: �
Stephen P:kaiiman
Notary Public, Eaton County, Michigan
My Commission Expires: 11/26/2025

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1262
PageID.306 Filed
Filed11/11/20
11/29/20 Page
Page35
35ofof77
77
000402

EXHIBIT B

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1263
PageID.307 Filed
Filed11/11/20
11/29/20 Page
Page36
36ofof77
77
000403

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and EDWARD P.
McCALL, JR.,
Plaintiff,

AFFIDAVIT OF JESSY JACOB

-vs-

JUDGE

FILE NO: 20-

-AW

CITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in
her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of
the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
capacity as the CLERK OF WAYNE
COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.

/

David A. Kallman
(P34200)
Erin E. Mersino
(P70886)
Jack C. Jordan
(P46551)
Stephen P. Kallman
(P75622)
GREAT LAKES JUSTICE CENTER
Attorneys for Plaintiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207/Fax: (517) 322-3208
AFFIDAVIT
The Affiant, Jessy Jacob, being first duly sworn, hereby deposes and states as follows:
1.

My name is Jessy Jacob. I am an adult citizen and resident of the State of Michigan.

2.

I have been an employee for the City of Detroit for decades.

3.

I was assigned to work in the Elections Department for the 2020 election.

4.

I received training from the City of Detroit and the State of Michigan regarding the election
process.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1264
PageID.308 Filed
Filed11/11/20
11/29/20 Page
Page37
37ofof77
77
000404

5.

I worked at the election headquarters for most of September and I started working at a
satellite location for most of October, 2020.

6.

I processed absentee ballot packages to be sent to voters while I worked at the election
headquarters in September 2020 along with 70-80 other poll workers. I was instructed by my
supervisor to adjust the mailing date of these absentee ballot packages to be dated earlier
than they were actually sent. The supervisor was making announcements for all workers to
engage in this practice.

7.

At the satellite location, I processed voter registrations and issued absentee ballots for people
to vote in person at the location.

8.

I directly observed, on a daily basis, City of Detroit election workers and employees coaching
and trying to coach voters to vote for Joe Biden and the Democrat party. I witnessed these
workers and employees encouraging voters to do a straight Democrat ballot. I witnessed
these election workers and employees going over to the voting booths with voters in order to
watch them vote and coach them for whom to vote.

9.

During the last two weeks while working at this satellite location, I was specifically
instructed by my supervisor not to ask for a driver’s license or any photo I.D. when a person
was trying to vote.

10.

I observed a large number of people who came to the satellite location to vote in-person, but
they had already applied for an absentee ballot. These people were allowed to vote in-person
and were not required to return the mailed absentee ballot or sign an affidavit that the voter
lost the mailed absentee ballot.

11.

Whenever I processed an absentee voter application or in-person registration, I was
instructed to input the person’s name, address, and date of birth into the Qualified Voter File
(QVF) system.

12.

The QVF system can be accessed and edited by any election processor with proper
credentials in the State of Michigan at any time and from any location with internet access.

13.

I worked at the satellite location until the polls closed on November 3, 2020 at 8:00 p.m. and
properly completed the entry of all absentee ballots into the QVF by 8:30 p.m.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1265
PageID.309 Filed
Filed11/11/20
11/29/20 Page
Page38
38ofof77
77
000405

· 14.

I then reported to work at the TCF Center on November 4, 2020, at 8:30 a.m. to process
ballots. I was instructed not to validate any ballots and not to look for any deficiencies in the

ballots.
15. Absentee ballots that were received in the mail would have the voter's signature on the
envelope. While I was at the TCF Center, I was instructed not to look at any of the signatures
on the absentee ballots, and I was instructed not to compare the signature on the absentee
ballot with the signature on file.
16. All absentee ballots that existed were required to be inputted into the QVF system by 9:00
p.m. on November 3, 2020. This was required to be done in order to have a final list of
absentee voters who returned their ballots prior to 8:00 p.m. on November 3, 2020. In order
to have enough time to process the absentee ballots, all satellites were instructed to collect

O:'.

w
1-­
z
w

u
w

u

the absentee ballots from the drop-box once every hour on November 3, 2020.
17.

�

date that were not in the QVF as if they had been received on or before November 3, 2020.

:J

7

�
j

0

On November 4, 2020, I was instructed to improperly pre-date the absentee ballots receive
I was told to alter the information in the QVF to falsely show that the absentee ballots had
been received in time to be valid. I estimate that this was done to thousands of ballots.

18. The above infonnation is true to the best of my information, knowledge, and belief.
19.

...,

Further affiant says not.
Jessy�

On this 7th day of November, 2020, before me personally appeared Jessy Jacob, who in
my presence did execute the foregoing affidavit, and who, being duly sworn, deposes and states
that she has read the foregoing affidavit by her subscribed and knows the contents thereof, and that
the same is true of her own knowledge and belief, except as to those matters she states to be on
information and belief, and as to those matters
?��
Stephen P. Kallman
Notary Public, Eaton County, Michigan
My Commission Expires: 11/26/2025

3

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1266
PageID.310 Filed
Filed11/11/20
11/29/20 Page
Page39
39ofof77
77
000406

EXHIBIT C

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1267
PageID.311 Filed
Filed11/11/20
11/29/20 Page
Page40
40ofof77
77
000407

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and EDWARD P.
McCALL, Jr.,
Plaintiff,

AFFIDAVIT OF ANDREW
SITTO

-vsCITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in
her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of
the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
capacity as the CLERK OF WAYNE
COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.

FILE NO: 20-

-AW

JUDGE

/

David A. Kallman
(P34200)
Erin E. Mersino
(P70886)
Jack C. Jordan
(P46551)
Stephen P. Kallman
(P75622)
GREAT LAKES JUSTICE CENTER
Attorneys for Plaintiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207/Fax: (517) 322-3208
AFFIDAVIT
The Affiant, Andrew Sitto, being first duly sworn, hereby deposes and states as follows:
1.

My name is Andrew Sitto and I was a poll challenger for the November 3, 2020 election.

2.

I arrived at the TCF Center at 9:30 p.m. on November 3, 2020.

3.

I reported to the counting room, which is a large room on the main floor of the TCF Center.
The room is about 100 yards long and about 50 yards wide with windows.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1268
PageID.312 Filed
Filed11/11/20
11/29/20 Page
Page41
41ofof77
77
000408

4.

The poll challengers watch the counters who were sitting at tables comparing paper ballots
to Michigan electronic poll book or registered voter list (sometimes called the QVF) on
computer screens. Each counter compares the ballot to an electronic database on his/her
computer to determine if the ballot correlates to a person who is registered to vote.

5.

I was standing in the center of the room where there were replacement or duplicate ballots
for damaged ballots. I remained in this location from about 10:00 p.m. until about 4:30 a.m.
If a counter needed a duplicate ballot, they would come to this central location to take a
duplicate ballot.

6.

At approximately 4:30 a.m., I thought everyone was going to go home as our shift had ended.

7.

There were two men in charge of the counting, one in his 30s and one in his 50s.

8.

At approximately 4:30 a.m., on November 4, 2020, the man in his 50s got on the microphone
and stated that another shipment of absentee ballots would be arriving and would have to be
counted.

9.

I heard other challengers say that several vehicles with out-of-state license plates pulled up
to the TCF Center a little before 4:30 a.m. and unloaded boxes of ballots.

10.

At approximately 4:30 a.m., tens of thousands of ballots were brought in and placed on eight
long tables. Unlike the other ballots, these boxes were brought in from the rear of the room.

11.

The same procedure was performed on the ballots that arrived at approximately 4:30 a.m.,
but I specifically noticed that every ballot I observed was cast for Joe Biden.

12.

While counting these new ballots, I heard counters say at least five or six times that all five
or six ballots were for Joe Biden. All ballots sampled that I heard and observed were for Joe
Biden.

13.

There was a shift change at 5:00 a.m. for the poll challengers. Many challengers decided to
leave at the 5:00 a.m. shift change. I decided not to leave and continued to monitor the ballot
counting.

14.

Upon information and belief, the TCF Center was the only place where absentee ballots were
being counted.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1269
PageID.313 Filed
Filed11/11/20
11/29/20 Page
Page42
42ofof77
77
000409

14. Upon infoIID8tion and belief, the TCF Center was the only place where absentee ballots
were being counted.
15. I :filled out about six or seven incident reports about what occurred at the TCF Center.
16. At approximately 2:00 p.m. on November 4, 2020, election officials covered windows to
the counting room with cardboard to block the view.
17. A little after 2:00 p.m., I exited the glass enclosed room to take a break in the lobby area of
the TCF Center. When I tried to go back into the counting room, security guards refused to
allow me back in to monitor the counting
18. Previously, people could come and go freely into the counting room.
19. The above information is true to the best ofmy information, knowledge, and belief.
20. Further affiant says not
C:
a,

�
ii
::,

..,
m
-'

1ii
I!!

(!)

On this ..:::1fu day of November, 2020, before me personally appeared Andrew Sitto,
who in my presence did execute the foregoing affidavit, and who, being duly sworn, deposes and
states that he has read the foregoing affidavit by him subscn'bed and knows the contents thereof:
and that the same is true of his own knowledge and belief, except as to those matters he states to
be on information and belief: and as to those matters he believes them to be true.

Michigan

Mo\eo-n I,
My Commission Expires: 7 / f / 2.c, t-1
Notary

Public,

County,

3
EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1270
PageID.314 Filed
Filed11/11/20
11/29/20 Page
Page43
43ofof77
77
000410

EXHIBIT D

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1271
PageID.315 Filed
Filed11/11/20
11/29/20 Page
Page44
44ofof77
77
000411

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and EDWARD P.
McCALL, JR.,
Plaintiff,

AFFIDAVIT OF ROBERT
CUSHMAN

-vsCITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in
her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of
the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
capacity as the CLERK OF WAYNE
COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.

FILE NO: 20-

-AW

JUDGE

/

David A. Kallman
(P34200)
Erin E. Mersino
(P70886)
Jack C. Jordan
(P46551)
Stephen P. Kallman
(P75622)
GREAT LAKES JUSTICE CENTER
Attorneys for Plaintiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207/Fax: (517) 322-3208
AFFIDAVIT
The Affiant, Robert Cushman, being first duly sworn, hereby deposes and states as follows:
1.

My name is Robert Cushman. I am an adult citizen and resident of the State of

Michigan.
2.

I served and was trained to be a poll challenger for the November 2020 election in

Detroit, Michigan.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1272
PageID.316 Filed
Filed11/11/20
11/29/20 Page
Page45
45ofof77
77
000412

3.

During my observations of the normal processing of ballots on November 4th

between about 7:45 a.m. and 8:30 a.m. I was substantially obstructed from performing my
challenger duties of observing and making notes at Board Number 31. The persons involved either
directly or indirectly involved: 1. A worker named Joe, 2. A supervisor named Miss Browner, 3.
an unknown person with no credentials, 4. a Democratic Challenger with credentials and one of
the AVCB leaders named David Nathan.
4.

On Wednesday, November 4, 2020, Detroit election officials told us that they were

going to process military ballots last. I did my best to try to observe the processing/duplication of
the military ballots.
5.

On November 4, 2020, I was surprised to see numerous new boxes of ballots arrive

at the TCF Center in the evening. I first noticed these boxes in the distribution area after many of
the military ballots had been distributed and processed. I estimate these boxes contained several
thousand new ballots when they appeared.
6.

The main list of persons who had registered to vote on or before November 1, 2020,

was listed on an electronic poll book, often referred to as the QVF. As I understand it, the
Supplemental Sheets were the lists of persons who had registered to vote on November 2, 2020 or
November 3, 2020.
7.

I observed that none of the names on these new ballots were on the QVF or the

Supplemental Sheets.
8.

I saw the computer operators at several counting boards manually adding the names

and addresses of these thousands of ballots to the QVF system.
9.

When I asked what the possible justification was to counting ballots from unknown,

unverified “persons,” I was told by election supervisors that the Wayne County Clerk’s Office had
“checked them out.”
10.

I challenged not one ballet, but the entire process as the names were not in the QVF

or Supplemental Sheets and because the DOB’s were all wrong, all being marked as 01-01-1900.
11.

An Election Supervisor near board number #86 advised me to go to the podium of

election officials and ask one of them to help me. I did, and I enlisted the help of one of the leaders,
a young man named Anthony Miller.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1273
PageID.317 Filed
Filed11/11/20
11/29/20 Page
Page46
46ofof77
77
000413

12.

Mr. Miller walked me back to board number #86 and asked what I wanted the

challenge to say. I said that I did not want to challenge just one ballot, but the entire process, as I
was witnessing several thousand ballots inputted illegally.
13.

Mr. Miller advised the computer operator what to type in as a challenge so that it

was part of the Official Record in the Poll Book for Board Number #86.
14.

I challenged the authority and the authenticity of all of these ballots that were being

processed late with absolutely no accompanying documentation, no corresponding name in the
QVF, and no corresponding name in the Supplemental List.
15.
0::

w
1-­
z
w

u

w
u
::>

7

w
:,::

U)

w

0::
(..9

Every ballot was being fraudulently and manually entered into the Electronic Poll

Book (QVF), as having been born on January 1, 1900. This "last" batch of ballots was processed
in the 8:00 p.m. to 10:00 p.m. time frame.
16.

When I asked about this impossibility of each ballot having the same birthday

occurring in 1900, I was told that was the instruction that came down from the Wayne County
Clerk's office.
17.

Mr. Miller was very clear about these late ballots and that the instructions were

coming from the Wayne County Clerk's office.
18.

I was surprised and disappointed at the preponderance of dishonesty, irregularities,

and fraudulent tactics at the November 3, 2020 election at the TCF Center.
19.

The above information is true to the best of my information, knowledge, and belief.

20.

Further affiant says not.
Robert Cushman

On this 7th day of November, 2020, before me personally appeared Robert Cushman, who
in my presence did execute the foregoing affidavit, and who, being duly sworn, deposes and states
that he has read the foregoing affidavit by him subscribed and knows the contents thereof, and that
the same is true of his own knowledge and belief, except as to those matters he states to be on
ves
information and belief, and as to those matters
:c; �
Stephen P. Kallman
Notary Public, Eaton County, Michigan
My Commission Expires: 11/26/2025

3

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1274
PageID.318 Filed
Filed11/11/20
11/29/20 Page
Page47
47ofof77
77
000414

EXHIBIT E

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1275
PageID.319 Filed
Filed11/11/20
11/29/20 Page
Page48
48ofof77
77
000415

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and EDWARD P.
McCALL, JR.,
Plaintiff,

AFFIDAVIT OF DANIEL
GUSTAFSON

-vsCITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in
her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of
the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
capacity as the CLERK OF WAYNE
COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.

FILE NO: 20-

-AW

JUDGE

/

David A. Kallman
(P34200)
Erin E. Mersino
(P70886)
Jack C. Jordan
(P46551)
Stephen P. Kallman
(P75622)
GREAT LAKES JUSTICE CENTER
Attorneys for Plaintiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207/Fax: (517) 322-3208
AFFIDAVIT
The Affiant, Daniel Gustafson, being first duly sworn, hereby deposes and states as follows:
1.

My name is Daniel Gustafson. I am an adult citizen and resident of the State of Michigan.

2.

I served and was trained to be a poll challenger for the November 3, 2020 election.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1276
PageID.320 Filed
Filed11/11/20
11/29/20 Page
Page49
49ofof77
77
000416

4.

Large quantities of ballots were delivered to the TCF Center in what appeared to be mail bins
with open tops.

5.

These ballot bins and containers did not have lids, were not sealed, and did not have the
capability of having a metal seal.

0::
w
1z
w

u

w
0
::i

7

lf)

w
:,:::
w
0::
l9

6.

The ballot bins were not marked or identified in any way to indicate their source of origin.

7.

The above information is true to the best of my information, knowledge, and belief.

8.

Further affiant says not.

Uaif

On this 8th day of November, 2020, before me personally appeared Daniel Gustafson, who
in my presence did execute the foregoing affidavit, and who, being duly sworn, deposes and states
that he has read the foregoing affidavit by him subscribed and knows the contents thereof, and that
the same is true of his own knowledge and belief, except as to those matters he states to be on
information and belief, and as to those matters he believes them to be true.

5:;22 __

Stephen P. Kallman
Notary Public, Eaton County, Michigan
My Commission Expires: 11/26/2025

2

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1277
PageID.321 Filed
Filed11/11/20
11/29/20 Page
Page50
50ofof77
77
000417

EXHIBIT F

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1278
PageID.322 Filed
Filed11/11/20
11/29/20 Page
Page51
51ofof77
77
000418

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and EDWARD P.
McCALL, JR.,
Plaintiff,

AFFIDAVIT OF PATRICK J.
COLBECK

-vsCITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in
her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of
the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
capacity as the CLERK OF WAYNE
COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.

FILE NO: 20-

-AW

JUDGE

/

David A. Kallman
(P34200)
Erin E. Mersino
(P70886)
Jack C. Jordan
(P46551)
Stephen P. Kallman
(P75622)
GREAT LAKES JUSTICE CENTER
Attorneys for Plaintiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207/Fax: (517) 322-3208
AFFIDAVIT
The Affiant, Robert Cushman, being first duly sworn, hereby deposes and states as follows:
1.

My name is Patrick J. Colbeck, I was a poll challenger for the November 3, 2020 election,
and I am a resident of Wayne County.

2.
At approximately 5:30pm on November 3, 2020, I asked Daniel Baxter if Tabulation
Computers were connected to internet. Mr. Baxter said simply “No.”

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1279
PageID.323 Filed
Filed11/11/20
11/29/20 Page
Page52
52ofof77
77
000419

3.
At approximately 5:45pm on November 3, 2020, I first asked Chris Thomas how the
tabulated results were to be transferred to the County and other parties. He said he didn't know,
but he would find out. I repeated this inquiry throughout the evening until Mr. Thomas
responded that he would not be able to release that information until the end of the next
day. Early during the morning, I was able to look at a copy of the Detroit Election manual which
specified that the tabulated votes would be copied from the adjudicator computers to a series of
flash drives.
4.
At approximately 7:30pm on November 3, 2020, about 50% of Poll Workers left the AV
Counting Board before 8pm in violation ofMCL 168.792a(l l). An announcement was made by
Detroit Election Officials at 7:45pm calling them back but most had already left the AV
Counting Board area.

w1-O'.'.
wz
uw
u
�
:J

7

w�
CJ)

<(
_J

wCt'.

(.9

5.
At approximately 11pm on November 3, 2020, I asked David Nathan if any of the
computers were connected to the internet. He said "No." When I asked for confirmation, he said
"Trust me." I stated that he may have been misled. When I pressed for a demonstration, he
repeated "Trust me." All it takes to confirm the connectivity status of a Windows computer is to
roll the cursor over the LAN connection icon in the bottom right comer of the display. When
there is no internet connection, a unique icon showing a cross-hatched globe appears. I
proceeded to review the terminal screens for the Tabulator and Adjudicator computers and I
observed the icon that indicates internet connection on each terminal. Other poll challengers can
attest to this observation as required (e.g. Kristina Karamos and Randy Bishop).
Sometime during the evening I proceeded to examine the physical cabling connections
6.
between all of the computers in the facility. The results of this observation are captured in the
attached network topology diagram. The IT technician stationed on the stage actively
discouraged any close-up observation of the network. Phone usage ban discouraged taking
photographs of equipment. There were no observed ethernet connections for Electronic Poll
Books at AV Counting Boards, but Wi-Fi Routers were present with attached active Wi-Fi
networks in area including one called "AV_Connect" and a separate one for "CPSStaff'' which
were both of sufficient signal strength to be accessed outside of the Counting Board as well as
inside. I did not confirm presence of internet connection for Electronic Poll Books but the
"security incident" at 1 0am on 11/3 would seem to indicate that they were connected to internet
via Wi-Fi.
7.

Further affiant says not.

2
EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1280
PageID.324 Filed
Filed11/11/20
11/29/20 Page
Page53
53ofof77
77
000420

On this 8th day of November, 2020, before me personally appeared Patrick J. Colbeck, who
in my presence did execute the foregoing affidavit, and who, being duly sworn, deposes and states
that he has read the foregoing affidavit by him subscribed and knows the contents thereof, and that
the same is true of his own knowledge and belief, except as to those matters he states to be on
information and belief, and as to those matters he believes them to be true.

�{)��
Notary Public, ()qf(f �
County, Michigan
My Commission Expires: ifl.i�

'i,

.;,-tJ ;)...C--

BARBARA A. HARRELL
NOTARY PUBLIC, STAic OF Ml
COUNTY OF OAKLAND
MY COMMISSION EXPIRES Aug 4, 20'25

w1-0::
zw
u
w
u

ACTING IN COUNTY OF � Y), �

�

::J
}

w::.:::

(J)
<(
_J

w
Cl'.:
(J

3
EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1281
PageID.325 Filed
Filed11/11/20
11/29/20 Page
Page54
54ofof77
77
000421

EXHIBIT G

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1282
PageID.326 Filed
Filed11/11/20
11/29/20 Page
Page55
55ofof77
77
000422

STATE OF MICHIGAN
COURT OF APPEALS

PROMOTE THE VOTE,
Plaintiff-Appellant,
V
SECRETARY OF STATE,

FOR PUBLICATION
July 20, 2020
9:00 a.m.
No. 353977
Court of Claims
LC No. 20-000002-MZ

Defendant-Appellee,
and
HOUSE OF REPRESENTATIVES and SENATE,
Intervening Appellees.

PRIORITIES USA and RISE, INC.,
Plaintiffs-Appellants,
V
SECRETARY OF STATE

No. 354096
Court of Claims
LC No. 19-000191-MZ

Defendant-Appellee,
and
SENATE and HOUSE OF REPRESENTATIVES,
Intervening Defendants-Appellees.

Before: METER, P.J., and RONAYNE KRAUSE and GADOLA, JJ.
METER, P.J.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1283
PageID.327 Filed
Filed11/11/20
11/29/20 Page
Page56
56ofof77
77
000423

In Docket No. 353977, plaintiff, Promote the Vote (PTV), appeals by right a June 24, 2020
order entered by the Court of Claims. In Docket No. 354096, plaintiffs, Priorities USA and Rise,
Inc. (collectively, the Priorities USA plaintiffs), also appeal by right the June 24, 2020 order. The
Court of Claims order denied PTV’s motion for summary disposition, as well as the Priorities USA
plaintiffs’ motion for a preliminary injunction, and granted the motions for summary disposition
of the Secretary of State (Secretary) and the Senate and House of Representatives (collectively,
the Legislature). This Court consolidated the two cases and ordered that the appeals would be
decided without oral arguments. Promote the Vote v Secretary of State, unpublished order of the
Court of Appeals, entered July 8, 2020 (Docket Nos. 353977, 354096).
Priorities USA is a “voter-centric progressive advocacy and service organization,” which
spends resources, including in the state of Michigan, to register young individuals to vote. Rise,
Inc., is a “nonprofit organization that runs statewide advocacy and voter mobilization programs”
in Michigan and California, as well as on a number of campuses throughout the country. Part of
its mission is to increase voting access for college students. PTV is “a ballot question committee”
that drafted the language of Proposal 3, a 2018 ballot proposal to amend Michigan’s Constitution,
collected more than 400,000 signatures in order to get the proposal placed on the ballot, and led
the campaign for the proposal’s passage.
On appeal, PTV and the Priorities USA plaintiffs argue that the proof of residency
requirements in MCL 168.497(2)-(4), the challenged ballot procedure in MCL 168.497(5), and the
Secretary’s automatic voter registration policy unduly burden the rights in 1963 Const, art 2,
§ (4)(1), and are therefore unconstitutional. PTV and the Priorities USA plaintiffs also argue that
MCL 168.497 violates the Equal Protection Clause of the Michigan Constitution. For the reasons
discussed below, we affirm.
I. LEGAL BACKGROUND
In the 2018 general election, Michigan voters approved Proposal 3, which made changes
to Michigan’s election law. Specifically, Proposal 3 amended 1963 Const, art 2, § 4. The article
now provides:
(1) Every citizen of the United States who is an elector qualified to vote in
Michigan shall have the following rights:
(a) The right, once registered, to vote a secret ballot in all elections.
* * *
(d) The right to be automatically registered to vote as a result of conducting
business with the secretary of state regarding a driver’s license or personal
identification card, unless the person declines such registration.
(e) The right to register to vote for an election by mailing a completed voter
registration application on or before the fifteenth (15th) day before that election to
an election official authorized to receive voter registration applications.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1284
PageID.328 Filed
Filed11/11/20
11/29/20 Page
Page57
57ofof77
77
000424

(f) The right to register to vote for an election by (1) appearing in person
and submitting a completed voter registration application on or before the fifteenth
(15th) day before that election to an election official authorized to receive voter
registration applications, or (2) beginning on the fourteenth (14th) day before that
election and continuing through the day of that election, appearing in person,
submitting a completed voter registration application and providing proof of
residency to an election official responsible for maintaining custody of the
registration file where the person resides, or their deputies.[1] Persons registered in
accordance with subsection (1)(f) shall be immediately eligible to receive a regular
or absent voter ballot.
* * *
All rights set forth in this subsection shall be self-executing. This subsection shall
be liberally construed in favor of voters’ rights in order to effectuate its purposes.
Nothing contained in this subsection shall prevent the legislature from expanding
voters’ rights beyond what is provided herein. This subsection and any portion
hereof shall be severable. If any portion of this subsection is held invalid or
unenforceable as to any person or circumstances, that invalidity or unenforceability
shall not affect the validity, enforceability, or application of any other portion of
this subsection.
(2) Except as otherwise provided in this constitution or in the constitution
or laws of the United States[,] the legislature shall enact laws to regulate the time,
place and manner of all nominations and elections, to preserve the purity of
elections, to preserve the secrecy of the ballot, to guard against abuses of the
elective franchise, and to provide for a system of voter registration and absentee
voting. No law shall be enacted which permits a candidate in any partisan primary
or partisan election to have a ballot designation except when required for
identification of candidates for the same office who have the same or similar
surnames.[2]

We will refer to the period “beginning on the fourteenth (14th) day before that election and
continuing through the day of that election” as the “14-day period.”
1

2

Before the passage of Proposal 3, 1963 Const, art 2, § 4 consisted of one paragraph, which was
very similar to the current paragraph in § 4(2). It provided:
The legislature shall enact laws to regulate the time, place and manner of all
nominations and elections, except as otherwise provided in this constitution or in
the constitution and laws of the United States. The legislation shall enact laws to
preserve the purity of elections, to preserve the secrecy of the ballot, to guard
against abuses of the elective franchise, and to provide for a system of voter
registration and absentee voting. No law shall be enacted which permits a candidate
in any partisan primary or partisan election to have a ballot designation except when

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1285
PageID.329 Filed
Filed11/11/20
11/29/20 Page
Page58
58ofof77
77
000425

Following the 2018 general election, the Legislature enacted 2018 PA 603, which amended
MCL 168.497. The first five provisions of MCL 168.497 now provide:
(1) An individual who is not registered to vote but possesses the
qualifications of an elector as provided in [MCL 168.492] may apply for
registration to the clerk of the county, township, or city in which he or she resides
in person, during the clerk’s regular business hours, or by mail or online until the
fifteenth day before an election.
(2) An individual who is not registered to vote but possesses the
qualifications of an elector as provided in [MCL 168.492] or an individual who is
not registered to vote in the city or township in which he or she is registering to
vote may apply for registration in person at the city or township clerk’s office of
the city or township in which he or she resides from the fourteenth day before an
election and continuing through the day of the election. An individual who applies
to register to vote under this subsection must provide to the city or township clerk
proof of residency in that city or township. For purposes of this subsection, proof
of residency includes, subject to subsection (3), any of the following:
(a) An operator’s or chauffeur’s license issued under the Michigan vehicle
code, 1949 PA 300, MCL 257.1 to 257.923, or an enhanced driver license issued
under the enhanced driver license and enhanced official state personal identification
act, 2008 PA 23, MCL 28.301 to 28.308.
(b) An official state personal identification card issued under 1972 PA 222,
MCL 28.291 to 28.300, or an enhanced official state personal identification card
issued under the enhanced driver license and enhanced official state personal
identification card act, 2008 PA 23, MCL 28.301 to 28.308.[3]
(3) If an application for voter registration under subsection (2) does not have
proof of residency as that term is defined in subsection (2), the applicant may
provide as his or her proof of residency any other form of identification for election

required for identification of candidates for the same offense which have the same
or similar surnames.
3

A person registering to vote in the 14-day period does not provide proof of residency simply by
presenting a Michigan driver’s license or personal identification card. Because the individual
“must provide to the city or township clerk proof of residency in that city or township,” the
Michigan driver’s license or personal identification card must include an address located in either
the city or township. Both the Priorities USA plaintiffs and the Secretary read MCL 168.497(2)
in the same manner. We will refer to a Michigan’s driver’s license or personal identification card
that can establish proof of residency under MCL 168.497(2) as a “current Michigan driver’s license
or personal identification card.”

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1286
PageID.330 Filed
Filed11/11/20
11/29/20 Page
Page59
59ofof77
77
000426

purposes as that term is defined in [MCL 168.2] and 1 of the following documents
that contains the applicant’s name and current residence address:
(a) A current utility bill.
(b) A current bank statement.
(c) A current paycheck, government check, or other government document.
(4) If an application for voter registration under subsection (2) does not have
identification for election purposes, the applicant may register to vote if he or she
signs an affidavit indicating that the applicant does not have identification for
election purposes and the applicant provides 1 of the following documents that
contains the applicant’s name and current residence address:
(a) A current utility bill.
(b) A current bank statement.
(c) A current paycheck, government check, or other government document.
(5) Immediately after approving a voter registration application, the city or
township clerk shall provide to the individual registering to vote a voter registration
receipt that is in a form as approved by the secretary of state. If an individual
registers to vote in person 14 days or less before an election or registers to vote on
election day, and that applicant registers to vote under subsection (3) or (4), the
ballot of that elector must be prepared as a challenged ballot as provided in [MCL
168.727] and must be counted as any other ballot is counted unless determined by
a court of law under [MCL 168.747 or MCL 168.748] or any other applicable law.
MCL 168.2(k) defines “identification for election purposes” as the following: “[a]n
operator’s or chauffeur’s license issued under the Michigan vehicle code . . . or an enhanced driver
license issued under the enhanced driver license and enhanced official state personal identification
card act”; “[a]n official state personal identification card . . . or an enhanced official state personal
identification card issued under the enhanced driver license and enhanced official state personal
identification card act”; a current operator’s or chauffeur’s license issued by another state; a current
state personal identification card issued by another state; a current state government issued photo
identification card; a current United States passport or federal government issued photo
identification card; a current military photo identification card; a current tribal photo identification
card; or “[a] current student photo identification card issued by a high school in this state, an
institution of higher education in this state described in section 4, 5, or 6 of article VIII of the state
constitution of 1963, a junior college or community college established under section 7 of article
VIII of the state constitution of 1963, or another accredited degree[-] or certificate[-]granting
college or university, junior college, or community college located in this state.”

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1287
PageID.331 Filed
Filed11/11/20
11/29/20 Page
Page60
60ofof77
77
000427

An election inspector must identify, as provided in MCL 168.745 and MCL 168.746, a
challenged ballot. MCL 168.727(2)(a).4 Under MCL 168.745, the election inspectors “shall cause
to be plainly endorsed on said ballot, with pencil, before depositing the same in the ballot box, the
number corresponding to the number placed after such voter’s name on the poll lists without
opening the same[.]” To prevent the identification of challenged ballots, the election inspectors
“shall cause to be securely attached to said ballot, with mucilage or other adhesive substance, a
slip or piece of blank paper of the same color and appearance, as nearly as may be, as the paper of
the ballot, in such manner as to cover and wholly conceal said endorsement but not to injure or
deface the same[.]” MCL 168.746.
MCL 168.747 provides:
In case of a contested election, on the trial thereof before any court of
competent jurisdiction, it shall be competent for either party to the cause to have
produced in court the ballot boxes, ballots and poll books used at the election out
of which the cause has arisen, and to introduce evidence proving or tending to prove
that any person named on such poll lists was an unqualified voter at the election
aforesaid, and that the ballot of such person was received. On such trial, the
correspondence of the number endorsed on a ballot as herein provided with the
number of the ballot placed opposite the name of any person on the poll lists shall
be received as prima facie proof that such ballot was cast by such person: Provided,
That the ballot of no person shall be inspected or identified under the provisions of
this chapter unless such person shall consent thereto in writing, or unless such
person has been convicted of falsely swearing in such ballot, or unless the fact that

4

Any voter may be challenged under MCL 168.727. In re Request for Advisory Opinion
Regarding Constitutionality of 2005 PA 71, 479 Mich 1, 14 n 24; 740 NW2d 444 (2007). Under
MCL 168.727(1), an election inspector shall challenge an applicant applying for a ballot if the
inspector knows or has good reason to know that the applicant is not a qualified and registered
elector of the precinct. A registered elector of the precinct present in the polling place may
challenge the right of anyone attempting to vote if the elector knows or has good reason to suspect
that the individual is not a registered elector in that precinct. Id. Additionally, an election inspector
or other qualified challenger may challenge the right of an individual attempting to vote who has
previously applied for an absent voter ballot and who on election day is claiming to have never
received the absent voter ballot or to have lost or destroyed the absent voter ballot. Id. These
challenges shall not be made indiscriminately or without good cause. MCL 168.727(3). If a person
attempting to vote is challenged, the person shall be sworn by one of the election inspectors to
truthfully answer the questions asked of the person concerning the person’s qualifications as an
elector. MCL 168.729. If the person’s answers to the questions show that the person is a qualified
elector in the precinct, the person “shall be entitled to receive a ballot and vote.” Id. The person’s
ballot shall be marked as required by MCL 168.745 and MCL 168.746, but it is counted as a
regular ballot.
MCL 168.727(2)(a); In re Request for Advisory Opinion Regarding
Constitutionality of 2005 PA 71, 479 Mich at 14 n 24.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1288
PageID.332 Filed
Filed11/11/20
11/29/20 Page
Page61
61ofof77
77
000428

such person was an unqualified elector at the time of casting such ballot has been
determined.[5]
See also In re Request for Advisory Opinion Regarding Constitutionality of 2005 PA 71, 479 Mich
1, 14 n 24; 740 NW2d 444 (2007) (“The ballot cast by a challenged voter is marked (and the mark
subsequently concealed) with a number corresponding to the voter’s poll list number, and is
counted as a regular ballot. MCL 168.745; MCL 168.746. The marked ballot becomes relevant
only in the event of litigation surrounding a contested election, where the challenged voter’s
qualifications to vote are disputed.”).
According to the Priorities USA plaintiffs, following the passage of Proposal 3, the
Secretary began to automatically register to vote those who conducted business with her regarding
a driver’s license or personal identification card if they were at least 17½ years of age (the AVR
Policy). To support this claim, the Priorities USA plaintiffs provide a press release from the
Secretary that announced that she had instituted automatic voter registration.6 But the press release
says nothing about automatic voter registration only applying to those who are at least 17½ years
of age. However, the Secretary does not dispute the Priorities USA plaintiffs’ claim.
II. PROCEDURAL HISTORY
On November 22, 2019, Priorities USA filed suit against the Secretary in the Court of
Claims. An amended complaint was filed on January 21, 2020, by the Priorities USA plaintiffs.

5

MCL 168.748 provides:
After issue joined in any case of contested election, either party to the cause
may present a petition to the court before which the said cause is to be tried, setting
forth among other things that the petitioner has good reason to believe and does
believe that 1 or more voters at the election out of which the cause has arisen,
naming him or them, and stating his or their place of residence, were unqualified to
vote at such election; that he believes the same can be established by competent
testimony; that the ballot or ballots of such voter or voters were received after being
challenged, as provided by law; and praying that the court may try and determine
the question of the qualification of such voter or voters at said election, which
petition shall be verified by the oath of the petitioner or some other person
acquainted with the facts, and thereupon the court shall direct an issue to be framed,
within a time to be fixed therefor, for the purpose of determining the question of
the qualifications of the voter or voters named in said petition to vote at said
election; and such issue shall stand for trial as in other cases, and the verdict of the
jury or judgment of the court upon such issue so made shall be received, upon the
trial of the principal issue in said cause, as conclusive evidence to establish or to
disprove the said qualifications of said voter or voters.

6

Secretary of State, Secretary Benson Announces Modernized Voter Registration on National
Voter Registration Day <https://www.michigan.gov/sos/0,4670,7-127-1640_9150-508246-,00.html> (accessed July 14, 2020).

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1289
PageID.333 Filed
Filed11/11/20
11/29/20 Page
Page62
62ofof77
77
000429

On January 6, 2020, PTV filed suit against the Secretary in the Court of Claims. PTV’s complaint
and the Priorities USA plaintiffs’ amended complaint both advanced similar allegations. PTV and
the Priorities USA plaintiffs asserted that the Legislature’s proof of residency definition in MCL
169.497 and the requirement that some voters be issued a challenge ballot unduly burdened the
self-executing provisions in 1963 Const, art 2, § 4. Additionally, the proof of residency definition
violated the Equal Protection Clause of the Michigan Constitution by burdening the right to vote,
and by treating similarly situated voters differently: those who registered to vote within the 14-day
period, but who could not show proof of residency with a current Michigan driver’s license or
personal identification card were issued a challenged ballot. The Priorities USA plaintiffs finally
asserted that the Secretary’s AVR Policy burdened and curtailed the right in 1963 Const, art 2,
§ 4(1)(d).
Following the consolidation of the two cases, and the Legislature’s intervention, the
Legislature filed a motion for summary disposition under MCR 2.116(C)(10).7 The Legislature
argued that the proof of residency amendment in MCL 168.497 was a constitutional exercise of its
power to preserve the purity of elections, guard against abuses of the elective franchise, and
provide for a system of voter registration and absentee balloting. The Legislature further argued
that the Michigan Constitution, following the passage of Proposal 3, did not define proof of
residency, which essentially required the Legislature to exercise its constitutional powers to define
the phrase. The definition of proof of residency did not violate the Equal Protection Clause
because the statute provided reasonable, nondiscriminatory restrictions; thus, it was subject to only
rational basis review. The state’s interest in preventing voter fraud justified the restrictions.
Finally, the Legislature argued that the AVR Policy was consistent with 1963 Const, art 2, § 4
because the right to be automatically registered to vote only applies to those who are entitled to
register to vote, namely individuals who are 17½ years of age or older.
The Secretary also moved for summary disposition under MCR 2.116(C)(10). Regarding
the AVR Policy, the Secretary was automatically registering individuals to vote pursuant to the
Michigan Constitution and statute, not a policy. The Secretary also argued that the definition of
proof of residency did not impose an unconstitutional burden on the right to vote because the
Legislature properly supplemented 1963 Const, art 2, § 4. Furthermore, an individual can register
to vote in the 14-day period by signing an affidavit that the individual does not have a form of
identification for election purposes and by presenting a document from a broad array of documents
listed in the statute. Relatedly, an individual whose ballot must be marked as a challenged ballot
casts either a regular ballot or an absent voter ballot. The ballot is merely marked so that it can
later be identified if an election is contested. A challenged ballot does not require the individual
to reveal the content of the ballot. Individuals who cannot produce a current Michigan driver’s
license or personal identification card and are required to vote a challenged ballot are not denied
equal protection. Individuals who must vote a challenged ballot are not similarly situated to
individuals who have a current Michigan’s driver’s license or personal identification card. The

The Court of Claims granted the Legislature’s motion to intervene in lower court no. 19-000191MZ, and the Priorities USA plaintiffs do not challenge that order on appeal.
7

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1290
PageID.334 Filed
Filed11/11/20
11/29/20 Page
Page63
63ofof77
77
000430

use of alternative, and sometimes less objective, forms of proof of residency reasonably warrants
additional procedural requirements.
In PTV’s motion for summary disposition under MCR 2.116(C)(10), PTV argued that
MCL 168.497 imposed additional obligations on the self-executing rights of 1963 Const, art 2,
§ 4. The term “residence” is generally understood as the place where a person lives. In MCL
168.497, the Legislature defined proof of residency to mean more than simply proof of where one
lives. It defined proof of residency to include proof of identity, i.e., a driver’s license or personal
identification card. Although MCL 168.497 did not require a person registering to vote in the 14day period to provide a current Michigan driver’s license or personal identification card, the
Legislature narrowly limited the documents that it would accept as proof of residency, which
curtailed and burdened the rights guaranteed by 1963 Const, art 2, § 4. Additionally, under MCL
168.497, only those who provide a current Michigan driver’s license or personal identification card
receive a regular or absent voter ballot. All others receive a challenged ballot, which is not a
regular or absent voter ballot and which is also not a secret ballot.
PTV also argued that MCL 168.497 failed to provide equal protection of the law. The
statute creates three classes of voters: (1) those who present a current Michigan driver’s license or
personal identification card, and who are allowed to vote a regular or absent voter ballot; (2) those
who either submit other proof of identity, or who execute an affidavit attesting that they do not
possess any of the acceptable forms of proof of identity, with one of a limited number of documents
establishing residency, and who are required to vote a challenged ballot, and (3) those who do not
have one of the limited number of documents establishing residency, and who are not allowed to
vote. MCL 168.497 imposed a severe burden on the rights of the voters in the second class. Those
voters had to vote a challenged ballot, which required extra time by the clerk’s office, which
required the voters to wait longer. MCL 168.497 also imposed a severe burden on the rights of
the voters in the third class. These voters were deprived of their right to vote, and there was no
compelling state interest justifying the deprivation, according to PTV.
The Priorities USA plaintiffs moved for a preliminary injunction, attaching three affidavits
from two students at the University of Michigan and one student at Michigan State University that
detailed their difficulties in registering to vote in the 14-day period. The Priorities USA plaintiffs
also attached a report from Michael E. Herron, Ph.D., which detailed the results from two surveys
he commissioned. In the first survey, 2,000 Michigan residents, who were eligible to vote and
planned to vote in 2020, were asked about whether they had the documents listed in MCL 168.497.
According to Dr. Herron, 1.6% of the participants answered that they did not have documentation
that would satisfy the requirements of MCL 168.497. 1.6% of citizens of voting age in Michigan
is 159,320 individuals. According to Dr. Herron, the survey also showed that approximately 6%
of the participants who were younger than 25 years of age lacked documentation that would satisfy
the requirements of MCL 168.497. The participants in the second survey were students at
Michigan colleges or universities. According to Dr. Herron, of the students who were United
States citizens and not registered to vote in Michigan, 16.9% of them did not have documentation
that would satisfy the requirements of MCL 168.497. Dr. Herron believed that approximately
15,514 of the college and university students in Michigan would not be able to provide proof of
residency under MCL 168.497. Dr. Herron also reviewed records provided by the Secretary,
which indicated that, in the five elections following the passage of Proposal 3, 264 individuals (94

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1291
PageID.335 Filed
Filed11/11/20
11/29/20 Page
Page64
64ofof77
77
000431

of whom were 21 years of age or younger) were not able to register in the 14-day period for the
upcoming election because they lacked proof of residency.
On June 24, 2020, the Court of Claims issued an opinion and order granting the
Legislature’s and the Secretary’s motions for summary disposition, denying PTV’s motion for
summary disposition, and denying the Priorities USA plaintiffs’ motion for a preliminary
injunction. The Court of Claims first addressed the claim that the amendments of 1963 Const, art
2, § 4, following the passage of Proposal 3, were “self-executing” and that the requirements of
MCL 168.497(2)-(5) were unconstitutional because they unduly restricted the new rights
recognized in the Michigan Constitution. The Court of Claims held that while the Legislature may
not enact laws that impose additional burdens on self-executing constitutional provisions, it may
enact laws that supplement those provisions, such as laws that provide clarity and safeguard against
abuses. Because the phrase proof of residency was undefined in Const 1963, art 2, § 4, and the
residence of a voter is essential for voting purposes, the Legislature properly supplemented the
constitutional provision when it defined proof of residency.
Next, the Court of Claims rejected the argument that the AVR Policy unduly burdened and
curtailed the rights in 1963 Const, art 2, § 4. The AVR Policy was not a policy, but “rather a
restatement of state law, specifically MCL 168.493a and MCL 168.492, and is consistent with the
right of ‘electors qualified to vote’ being entitled to automatically register to vote when doing
business with the secretary of state offices.” Further, the Michigan Constitution defines an elector
qualified to vote as any resident who has reached the age of 18, and a qualified voter may be
automatically registered to vote as a result of conducting business with the secretary of state.
Under MCL 168.492, an elector qualified to vote is someone 17½ years of age or older, “and
nowhere does the Constitution grant individuals under the age of [17½] the right to be
automatically registered when conducting business with the secretary of state.”
The Court of Claims then addressed whether MCL 168.497 placed an unconstitutional
burden on voters. The court noted that, although the right to vote was not enumerated in either the
federal or state constitutions, the United States Supreme Court has held that citizens have a
constitutionally protected right to participate in elections on an equal basis with other citizens in
the jurisdiction. Furthermore, the court held, the right to vote is not absolute. A state has the
power to impose voter qualifications and to regulate access to the franchise in many different ways.
The court rejected the argument that the Legislature’s definition of proof of residency in MCL
168.497 placed a severe burden on the constitutional right to register to vote in the 14-day period.
The statute imposed some burden on voters—the statute requires an individual to bring to the
election office or polling place some form of proof of residency. But, this was a reasonable,
nondiscriminatory restriction, given the wide variety of documents that constituted acceptable
ways to establish proof of residency. Additionally, if a voter did not have an acceptable proof of
residency in the form of a driver’s license or a personal identification card, “that person may vote
with a challenged ballot that is counted that day, the same as all other ballots,” so long as they
produce one of the acceptable forms of proof of residency.
The Court of Claims also rejected the Priorities USA plaintiffs’ suggestion that younger
voters will be most harmed by MCL 168.497. First, because it was a facial challenge to MCL
168.497, there could not be a focus on any possible effects on a discrete population; the focus must
be on the voting population as whole. Second, the argument “overlook[ed] the broad range of

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1292
PageID.336 Filed
Filed11/11/20
11/29/20 Page
Page65
65ofof77
77
000432

documents that suffice under the statute, the majority of which are readily available to college
students, and the fact that registration can be accomplished over the internet, something ‘younger
voters’ are surely able to utilize.” Third, the argument gave no credence to the young voters’
ability to understand and follow clear voter registration procedures.
Finally, the Court of Claims rejected the argument that the requirement in MCL 168.497(5)
that challenged ballots be issued to those who register to vote in the 14-day period without
providing a current Michigan driver’s license or personal identification card violates equal
protection because it denied those voters the right to a secret ballot. The court reasoned that
challenged ballots were treated the same as any other ballot on election day. “[D]espite [the
challenged ballot] being marked on the outside as challenged, upon presentment of identification,
the voter was eligible to receive, and did receive, a regular ballot,” which complied with 1963
Const, art 2, § 4(1)(f). To the extent that any burden was placed on a voter’s right, it was minimal.
A challenged ballot was a secret ballot because it was counted in the same way as a normal ballot,
and the contents were not revealed to the public. The Court of Claims explained:
It is only in the event of a contested election, where the challenged ballot is at issue,
that the ballot may be inspected or identified; however, this inspection may only
occur with either: the voter’s written consent; or only after the individual has been
convicted of falsely swearing the ballot; or the voter was deemed to be unqualified.
MCL 168.474. Therefore, the only way for the vote to be revealed—absent express
written consent—is under court order and even then, only in two limited
circumstances that require a prior determination of falsehood. This is not a severe
burden, and it places no burden on the voter at the time of voting, nor does it impact
the tabulation of those particular votes cast on election day.
In contrast, the state has an interest in ensuring the integrity of ballots should
it be needed. This specific interest is properly served by this regulation, as in the
event of suspected voter fraud, the court may reveal the identity of the voter and a
determination can be made. Overall, the burden imposed on voters’ rights is
minimal, and the legislation is within the scope of the state’s interest in preserving
the purity of elections.
Thus, the Court of Claims granted summary disposition in favor of the Legislature and the
Secretary, and dismissed the complaints with prejudice. This appeal follows.
III. DISCUSSION
On appeal in Docket No. 353977, PTV argues that the Court of Claims erred in concluding
that there is no constitutional right to vote; MCL 168.497 impermissibly imposed additional
obligations on the self-executing provisions of 1963 Const, art 2, § 4(1)(a) and § 4(1)(f)(2); the
requirement of issuing a challenged ballot was burdensome, unconstitutional, and served no
legitimate state interest. In Docket No. 354096, the Priorities USA plaintiffs similarly argue that
the Court of Claims erred in concluding that MCL 168.497 did not violate the self-executing
provisions of 1963 Const, arts 1, § 2 and 2, § 4; the AVR Policy did not violate the self-executing
provision of 1963 Const, art 2, § 4; and they were entitled to a preliminary injunction. We disagree.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1293
PageID.337 Filed
Filed11/11/20
11/29/20 Page
Page66
66ofof77
77
000433

A. STANDARD OF REVIEW
This Court reviews de novo a trial court’s decision on a motion for summary disposition.
Ellison v Dep’t of State, 320 Mich App 169, 175; 906 NW2d 221 (2017). Summary disposition is
proper under MCR 2.116(C)(10) if, “[e]xcept as to the amount of damages, there is no genuine
issue as to any material fact, and the moving party is entitled to judgment or partial judgment as a
matter of law.”
This Court also reviews de novo questions of constitutional law. Bonner v Brighton, 495
Mich 209, 221; 848 NW2d 390 (2014). “A statute challenged on a constitutional basis is ‘clothed
in a presumption of constitutionality,’ and the burden of proving that a statute is unconstitutional
rests with the party challenging it.” In re Request for Advisory Opinion Regarding
Constitutionality of 2005 PA 71, 479 Mich 1, 11; 740 NW2d 444 (2007) (citation omitted).
A challenge to the constitutionality of a statute is either a facial challenge or an as-applied
challenge. Bonner, 495 Mich at 223 nn 26-27; In re Request for Advisory Opinion Regarding
Constitutionality of 2005 PA 71, 479 Mich at 11 & n 20. “A facial challenge is a claim that the
law is invalid in toto—and therefore incapable of any valid application,” whereas an as-applied
challenge “considers the specific application of a facially valid law to individual facts.” In re
Request for Advisory Opinion Regarding Constitutionality of 2005 PA 71, 479 Mich at 11 & n 20
(quotation marks and citation omitted). The challenges to MCL 168.497 are facial challenges.
PTV and the Priorities USA plaintiffs are asking that MCL 168.497(2)-(5) be declared
unconstitutional in all circumstances. They do not claim the statute is unconstitutional only when
applied in a specific circumstance.
“A party challenging the facial constitutionality of a [statute] ‘faces an extremely rigorous
standard.’ ” Bonner, 495 Mich at 223 (citation omitted). A plaintiff “must establish that no set of
circumstances exists under which the act would be valid” and “[t]he fact that the . . . act might
operate unconstitutionally under some conceivable set of circumstances is insufficient’ ” to render
the act invalid. Council of Orgs & Others for Ed About Parochiaid, Inc v Governor, 455 Mich
557, 568; 566 NW2d 208 (1997) (quotation marks, alteration marks, and citation omitted). Indeed,
“if any state of facts reasonably can be conceived that would sustain [a legislative act], the
existence of the state of facts at the time the law was enacted must be assumed.” Id. (quotation
marks, alteration marks, and citation omitted). “[B]ecause facial attacks, by their nature, are not
dependent on the facts surrounding any particular decision, the specific facts surrounding
plaintiffs’ claim are inapposite.” Bonner, 495 Mich at 223.
B. CONSTITUTIONAL RIGHT TO VOTE
PTV and the Priorities USA plaintiffs argue that the Court of Claims erred by stating that
the right to vote was not expressly enumerated in the Michigan Constitution. Before addressing
this argument, we find it necessary to detail the history of the right to vote.
In the Court of Claims opinion and order, the court stated that “the right to vote is not
enumerated in either the federal or state constitution . . . .” Although there are numerous
provisions in the United States Constitution that prevent states from discriminating against specific
groups by taking away their right to vote, there is no specific enumeration of the right to vote. See

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1294
PageID.338 Filed
Filed11/11/20
11/29/20 Page
Page67
67ofof77
77
000434

San Antonio Indep Sch Dist v Rodriguez, 411 US 1, 35 n 78; 193 S Ct 1278; 36 L Ed 2d 16 (1973)
(“[T]he right to vote, per se, is not a constitutionally protected right . . . .”). For example, the
Fifteenth Amendment states: “The right of citizens of the United States to vote shall not be denied
or abridged by the United States or by any State on account of race, color, or previous condition
of servitude.” US Const, Am XV. Nearly identical language is used in the Nineteenth and TwentySixth Amendments, which prohibit denying or abridging the right to vote on the basis of gender
or age, respectively. See US Const, Ams XIX and XXVI.
Despite the lack of a positive right to vote, the United States Supreme Court, “[i]n decision
after decision, . . . has made clear that a citizen has a constitutionally protected right to participate
in elections on an equal basis with other citizens in the jurisdiction.” Dunn v Blumstein, 405 US
330, 336; 92 S Ct 995; 31 L Ed 2d 274 (1972). Indeed, “[n]o right is more precious in a free
country than that of having a voice in the election of those who make the laws under which, as
good citizens, we must live. Other rights, even the most basic, are illusory if the right to vote is
undermined.” Wesberry v Sanders, 376 US 1, 17; 84 S Ct 526, 534-535; 11 L Ed 2d 481 (1964).
However, “[t]his equal right to vote is not absolute; the States have the power to impose voter
qualifications, and to regulate access to the franchise in other ways.” Dunn, 405 US at 336
(quotation marks and citation omitted).
Following the passage of Proposal 3 in Michigan, this state’s constitution now reads:
“Every citizen of the Unites States who is an elector qualified to vote in Michigan shall have the
following rights: The right, once registered, to vote a secret ballot in all elections.” 1963 Const,
art 2, § 4(1)(a). Although decided before the passage of Proposal 3, and the relevant amendment
of our state’s constitution, our Supreme Court stated in In re Request for Advisory Opinion
Regarding Constitutionality of 2005 PA 71, 479 Mich at 16, that “the right to vote is an implicit
fundamental political right that is preservative of all rights.” (Quotation marks and citation
omitted). Our Supreme Court continued: “However, ‘[t]his equal right to vote is not absolute . . . .’
” Id., quoting Dunn, 405 US at 336 (alteration in original; internal quotation marks omitted).
PTV and the Priorities USA plaintiffs assert that 1963 Const, art 2, § 4(1)(a) provides a
constitutional right to vote. This section unambiguously provides that a qualified citizen has the
“right, once registered, to vote a secret ballot in all elections.” 1963 Const, art 2, § 4(1)(a).
However, this section does not provide that an individual has an absolute constitutional right to
vote; the individual must first be a qualified elector who has registered to vote. Id. Although the
Michigan Constitution now expressly provides for the right to vote, certain requirements must be
met before an individual can exercise his or her fundamental political right to vote. Despite the
Court of Claims’ quotation of caselaw predating the passage of Proposal 3, the court’s opinion
recognized the constitutionally protected status of the right to vote. Thus, there is no error
requiring reversal.
C. SELF-EXECUTING CONSTITUTIONAL PROVISIONS
PTV and the Priorities USA plaintiffs argue that the Legislature’s definition of proof of
residency in MCL 168.497 and the requirement in MCL 168.497(5) that a challenged ballot be
issued to anyone who registers to vote in the 14-day period without providing a current Michigan
driver’s license or personal identification card unduly burden the rights in 1963 Const, art 2,
§ (4)(1)(f). They claim that, because the rights in 1963 Const, art 2, § 4(1) are self-executing

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1295
PageID.339 Filed
Filed11/11/20
11/29/20 Page
Page68
68ofof77
77
000435

rights, the statutory provisions are unconstitutional. The Priorities USA plaintiffs also argue that
the Secretary’s AVR Policy unduly burdens the right in 1963 Const, art 2, § (4)(1)(d). We
disagree.
There is no dispute among the parties that the rights in Const 1963, art 2, § 4(1) are selfexecuting. “A constitutional provision is deemed self-executing, if it supplies a sufficient rule, by
means of which the right given may be enjoyed and protected, or the duty imposed may be
enforced[.]” League of Women Voters of Mich v Secretary of State, ___ Mich App ___, ___; ___
NW2d ___ (2020) (Docket Nos. 350938, 351073); slip op at 11 (quotation marks and citation
omitted). While the Legislature may not impose additional obligations on a self-executing
constitutional provision, Wolverine Golf Club v Secretary of State, 384 Mich 461, 466; 185 NW2d
392 (1971); Durant v Dep’t of Ed (On Second Remand), 186 Mich App 83, 98; 463 NW2d 461
(1990), it may enact laws that supplement a self-executing constitutional provision, see Wolverine
Golf Club, 384 Mich at 466. Statutes that supplement a self-executing constitutional provision
may not curtail the constitutional rights or place any undue burdens on them. See id.; Durant, 186
Mich App at 98. Additionally, the statutes must be in harmony with the spirit of the Michigan
Constitution and their object must be to further the exercise of the constitutional rights and make
them more available. League of Women Voters of Mich, ___ Mich App at ___; slip op at 11.
Statutes that supplement a self-executing provision may be desirable, “by way of providing a more
specific and convenient remedy and facilitating the carrying into effect or executing of the rights
secured, making every step definite, and safeguarding the same so as to prevent abuses.”
Wolverine Golf Club v Secretary of State, 24 Mich App 711, 730; 180 NW2d 820 (1970) (opinion
by LESINSKI, C.J.), aff’d 384 Mich 461 (1971) (quotation marks and citation omitted).
1. PROOF OF RESIDENCY
Under 1963 Const, art 2, § 4(1)(f)(2), a person who seeks to register to vote “beginning on
the fourteenth (14th) day before that election and continuing through the day of that election” must
submit “a completed voter registration application” and provide “proof of residency.” A person’s
residence, for purposes of Michigan election law, is the “place at which a person habitually sleeps,
keeps his or her personal effects, and has a regular place of lodging. If a person has more than 1
residence . . . that place at which the person resides the greater part of the time shall be his or her
official residence[.]” MCL 168.11(1). An individual may only vote in the township or city in
which the individual resides. See MCL 168.491; MCL 168.492. Because an individual may only
vote in the township where he or she resides, the individual’s residence dictates which candidates
and proposals the individual can vote for.
MCL 168.497(2) requires an individual who applies to register to vote in the 14-day period
to provide proof of residency. This is not an additional requirement; 1963 Const, art 2, § 4(1)(f)(2)
specifically provides that a person who registers to vote in the 14-day period must provide proof
of residency. In MCL 168.497(2)-(5), the Legislature defined proof of residency. Because there
is no definition of proof of residency in 1963 Const, art 2, § 4(1), the Legislature’s definition of
proof of residency is a law that supplements the constitutional provision.
A definition from the Legislature of proof of residency was desirable. Wolverine Golf
Club, 24 Mich App at 730. Absent a statutory definition of proof of residency, confusion and
disorder could arise during the 14-day period and on election day itself. Any person who wanted

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1296
PageID.340 Filed
Filed11/11/20
11/29/20 Page
Page69
69ofof77
77
000436

to register to vote in the 14-day period would be left to wonder what documents would be accepted
as proof of residency. Each city or township clerk would have to make his or her own
determination regarding what is acceptable proof of residency. Under these individualized
determinations, the documents that would be accepted as proof of residency could be different in
each of Michigan’s cities and townships. Consequently, a definition of proof of residency makes
definite what documents an individual must bring to register to vote in the 14-day period and
creates a uniform standard in each of Michigan’s voting jurisdictions. Id. Furthermore, the
Legislature has the constitutional authority under 1963 Const, art 2, § 4(2) to enact laws to preserve
the purity of elections,8 to guard against abuses of the elective franchise, and to provide for a
system of voter registration and absentee voting. Accordingly, a legislative definition of proof of
residency, which makes definite what documents can be used as proof of residency, is in harmony
with the Legislature’s obligations under the Michigan Constitution concerning the administration
of elections and furthers the exercise of voter registration in the 14-day period. League of Women
Voters of Mich, ___ Mich App at ___; slip op at 11.
Additionally, even though the Priorities USA plaintiffs have presented evidence that the
Legislature’s definition of proof of residency in MCL 168.497 has prevented, and may prevent,
individuals who are qualified to vote from registering in the 14-day period, the Legislature’s
definition of proof of residency does not unduly burden the right to register to vote in the 14-day
period. Under MCL 168.497, a person provides proof of residency if the person presents either of
the following: (1) a current Michigan driver’s license or personal identification card, MCL
168.497(2); (2) “any other form of identification for election purposes,” which includes driver’s
licenses and personal identification cards issued by other states and student photo identification
cards, see MCL 168.2(k), along with a current utility bill, a current bank statement, or a current
paycheck, government check, or other government document, MCL 168.497(3); or (3) an affidavit
indicating that the individual does not have “identification for election purposes” and a current
utility bill, a current bank statement, or a current paycheck, government check, or other
government document, MCL 168.497(4).
The Legislature’s definition of proof of residency allows a person to register to vote in the
14-day period with a broad array of common, ordinary types of documents that are available to
persons of all voting ages. The Legislature did not provide a narrow list of documents that
individuals who register to vote in the 14-day period must present as proof of residency. Moreover,
1963 Const, art 2, § 4(1)(f) requires an individual to provide proof of residency when registering
to vote in the 14-day period, and MCL 168.497(2)-(4) defines what documents are acceptable to
fulfill that constitutional requirement. Because the Legislature’s definition does not unduly burden
the right to register to vote in the 14-day period, the definition is a proper supplement to 1963
Const, art 2, § 4(1)(f).

“The phrase ‘purity of elections’ does not have a single precise meaning. However, it
unmistakably requires fairness and evenhandedness in the election laws of this state.” Barrow v
Detroit Election Comm, 305 Mich App 649, 676; 854 NW2d 489 (2014) (quotation marks and
citation omitted).
8

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1297
PageID.341 Filed
Filed11/11/20
11/29/20 Page
Page70
70ofof77
77
000437

2. CHALLENGED BALLOTS
We reject the claims of PVT and the Priorities USA plaintiffs that MCL 168.497(5), which
requires that a challenged ballot be issued to anyone who registers to vote in the 14-day period
without providing a current Michigan driver’s license or personal identification card, unduly
burdens the rights in 1963 Const, art 2, § 4(1)(a) and (f). Under 1963 Const, art 2, § 4(1)(f), a
person who registers to vote in accordance with that subsection “shall be immediately eligible to
receive a regular or absent voter ballot.” Under 1963 Const, art 2, § 4(1)(a), a voter is entitled to
“a secret ballot.”
Michigan election law defines a “regular ballot” as “a ballot that is issued to a voter on
election day at a polling place location.” MCL 168.3(h). An “absent voter ballot” is “a ballot that
is issued to a voter through the absentee voter process.” MCL 168.2(b). A challenged ballot is
not a third type of ballot. Rather, a challenged ballot is either a regular ballot or an absent voter
ballot that is marked (and the mark subsequently concealed) with the number corresponding to the
voter’s poll list number. See MCL 168.745; MCL 168.746; MCL 168.761(6); In re Request for
Advisory Opinion Regarding Constitutionality of 2005 PA 71, 479 Mich at 14 n 24. Notably, a
challenged ballot is entered and tabulated with all the other ballots that are cast. See MCL
168.497(5); In re Request for Advisory Opinion Regarding Constitutionality of 2005 PA 71, 479
Mich at 14 n 24.
Furthermore, a challenged ballot is a secret ballot. Generally, a secret ballot is one that
prevents anyone else from knowing how the individual voted. See Helme v Bd of Election
Comm’rs of Lenawee Co, 149 Mich 390, 391-393; 113 NW 6 (1907); People v Cicott, 16 Mich
283, 297 (1868), overruled on other grounds by Petrie v Curtis, 387 Mich 436 (1972). The mark
on a challenged ballot, either before or after it is concealed, does not indicate to anyone how the
individual voted. Long before Proposal 3 was passed, the Supreme Court recognized that 1963
Const, art 2, § 4 provided a right to a secret ballot. Belcher v Mayor of Ann Arbor, 402 Mich 132,
134; 262 NW2d 1 (1978). This right is not absolute; upon a showing that the voter acted
fraudulently, the right can be abrogated. Id. (“We hold that a citizen’s right to a secret ballot in all
elections as guaranteed by Const 1963, art 2, § 4, cannot be so abrogated in the absence of a
showing that the voter acted fraudulently.”). In a contested election, a challenged ballot may be
inspected. See MCL 168.747. But, it may only be inspected if the person consents, the person has
been convicted of falsely swearing in such ballot, or if it has been determined that such person was
an unqualified elector at the time of casting the ballot. Id. Because the right to a secret ballot is
not absolute, the fact that a challenged ballot may be inspected in a contested election, MCL
168.474, does not mean that it is not a secret ballot.
3. AVR POLICY
The Secretary’s AVR Policy does not unduly burden the right in 1963 Const, art 2,
§ 4(1)(d). Under 1963 Const, art 2, § 4(1), “[e]very citizen of the United States who is an elector
qualified to vote in Michigan shall have [certain] rights[.]” In other words, the rights listed in 1963
Const, art 2, § 4(1), including “[t]he right to be automatically registered to vote as a result of
conducting business with the secretary of state regarding a driver’s license or personal
identification card,” are rights of “any citizen of the United States who is an elector qualified to
vote in Michigan.” An individual is not an elector qualified to vote in Michigan—and entitled to

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1298
PageID.342 Filed
Filed11/11/20
11/29/20 Page
Page71
71ofof77
77
000438

the rights listed in 1963 Const, art 2, § 4(1)—until the individual reaches 18 years of age. See US
Const, Am XXVI; 1963 Const, art 2, § 1; In re Request for Advisory Opinion Regarding
Constitutionality of 2005 PA 71, 479 at 47 n 1 (CAVANAGH, J., dissenting).
The AVR Policy, which allows those who are 17½ years of age or older to be automatically
registered to vote as a result of conducting business with the Secretary regarding a driver’s license
or personal identification card, is consistent with MCL 168.492. The statute provides:
Each individual who has the following qualifications of an elector is entitled
to register as an elector in the township or city in which he or she resides. The
individual must be a citizen of the United States; not less than 17-½ years of age; a
resident of this state; and a resident of the township or city. [MCL 168.492.]
Because a person under the age of 18 is not an elector qualified to vote in Michigan, and because
the AVR Policy is consistent with MCL 168.492, which allows an individual who is not less than
17½ years of age to register to vote, the argument that the AVR Policy unduly burdens the right in
1963 Const, art 2, § 4(1)(d) is without merit.
D. EQUAL PROTECTION
PTV and the Priorities USA plaintiffs argue that MCL 168.497 violates the Equal
Protection Clause of the Michigan Constitution. 1963 Const, art 1, § 2 provides that “[n]o person
shall be denied the equal protection of the laws; nor shall any person be denied the enjoyment of
his civil or political rights or be discriminated against in the exercise thereof because of religion,
race, color or national origin.” The Equal Protection Clause in the Michigan Constitution is
coextensive with the Equal Protection Clause of the United States Constitution. Shepherd
Montessori Ctr Milan v Ann Arbor Charter Twp, 486 Mich 311, 318; 783 NW2d 695 (2010).
Equal protection applies when a state either classifies voters in disparate ways or places undue
restrictions on the right to vote. Obama for America v Husted, 697 F3d 423, 428 (CA 6, 2012).
The Priorities USA plaintiffs argue that MCL 168.497(5) violates equal protection because
it treats similarly situated voters differently. According to them, although Const 1963, art 2,
§ 4(1)(f) guarantees that all individuals who register to vote in the 14-day period shall receive a
regular or absent voter ballot, under MCL 168.497(5), only those who submit a current Michigan
driver’s license or personal identification card as their proof of residency receive a regular or
absent voter ballot. PTV similarly argues that many people who register to vote in the 14-day
period are denied the right to receive a regular or absent voter ballot. The basis for these arguments
is that a challenged ballot does not constitute a regular or absent voter ballot. But, as previously
discussed, a challenged ballot is a regular or absent voter ballot. As also laid out previously, a
challenged ballot does not lose its character as a secret ballot unless the election is contested.
Regardless how an individual provides proof of residency, as defined in MCL 168.497, the
individual receives a regular or absent voter ballot that is also a secret ballot. Similarly situated
voters are not treated differently under MCL 168.497(5).
The Priorities USA plaintiffs argue that the Legislature’s definition of proof of residency
in MCL 168.497 severely burdens the right to vote because it has, and will, disenfranchise

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1299
PageID.343 Filed
Filed11/11/20
11/29/20 Page
Page72
72ofof77
77
000439

hundreds, if not thousands, of individuals in Michigan who are qualified to vote. According to the
Priorities USA plaintiffs, strict scrutiny should be applied to the definition.
Every election law, “whether it governs the registration and qualifications of voters, the
selection and eligibility of candidates, or the voting process itself, inevitably affects—at least to
some degree—the individual’s right to vote and his right to associate with others for political
ends.” Anderson v Celebrezze, 460 US 780, 788; 103 S Ct 1564; 75 L Ed 2d 547 (1983).9
Consequently, subjecting every voting regulation to strict scrutiny, thereby requiring that the
regulation be narrowly tailored to advance a compelling state interest, would tie the hands of states
seeking to assure that elections are operated equitably and efficiently. Burdick v Takushi, 504 US
428, 433; 112 S Ct 2059; 119 L Ed 2d 245 (1992). In Burdick, the United States Supreme Court
held that “a more flexible standard” applies:
A court considering a challenge to a state election law must weigh the “character
and magnitude of the asserted injury to the rights protected by the First and
Fourteenth Amendments that the plaintiff seeks to vindicate” against “the precise
interests put forward by the State as justifications for the burden imposed by its
rule,” taking into consideration “the extent to which those interests make it
necessary to burden the plaintiff’s rights.”
Under this standard, the rigorousness of our inquiry into the propriety of a
state election law depends upon the extent to which a challenged regulation burdens
First and Fourteenth Amendment rights. Thus, as we have recognized when those
rights are subjected to “severe” restrictions, the regulation must be “narrowly drawn
to advance a state interest of compelling importance.” But when a state election
law provision imposes only “reasonable, nondiscriminatory restrictions” upon the
First and Fourteenth Amendment rights of voters, “the State’s important regulatory
interests are generally sufficient to justify” the restrictions. [Id. at 434 (citations
omitted).]
See also In re Request for Advisory Opinion Regarding Constitutionality of 2005 PA 71, 479 Mich
at 21-22, where the Supreme Court, after quoting these two paragraphs, stated:
Thus, the first step in determining whether an election law contravenes the
constitution is to determine the nature and magnitude of the claimed restriction
inflicted by the election law on the right to vote, weighed against the precise interest
identified by the state. If the burden on the right to vote is severe, then the

9

Regardless whether the right to vote, following the passage of Proposal 3, is now an expressly
enumerated right in the Michigan Constitution, the United States Supreme Court has recognized
that the right to vote is a “ ‘a fundamental political right’ ” that “is preservative of other basic and
civil political rights.” Reynolds v Sims, 377 US 533, 562; 84 S Ct 1362; 12 L Ed 2d 506 (1964)
(citation omitted). A citizen has “a constitutionally protected right to participate in elections on
an equal basis with other citizens in the jurisdiction.” Dunn, 405 US at 336. The right to vote,
however, is not absolute; a state has the power to impose voter qualifications, and to regulate
access to the franchise in other ways. Id.; see also 1963 Const, art 2, § 4(2).

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1300
PageID.344 Filed
Filed11/11/20
11/29/20 Page
Page73
73ofof77
77
000440

regulation must be “narrowly drawn” to further a compelling state interest.
However, if the restriction imposed is reasonable and nondiscriminatory, then the
law is upheld as warranted by the important regulatory interest identified by the
state. The United States Supreme Court has stressed that each inquiry is fact and
circumstance specific, because “[n]o bright line separates permissible electionrelated regulation from unconstitutional infringements[.]” [Citation omitted.]
In resolving an equal protection challenge to an election law under the Michigan Constitution, this
Court applies the Burdick test. Id. at 35.
The Legislature’s definition of proof of residency does not impose a severe burden on the
right to vote. Because Const 1963, art 2, § 4(1) does not define proof of residency, the Legislature
provided a definition in MCL 168.497, and the Legislature’s definition allows individuals to
provide proof of residency with a broad array of ordinary, common documents that are available
to persons of all voting ages. The Priorities USA plaintiffs have presented evidence that there are
individuals who are qualified to vote and who could not provide proof of residency, as defined in
MCL 168.497, in the 14-day period leading up to the March 2020 presidential primary.
However, in arguing that the Legislature’s definition of proof of residency has, and will,
disenfranchise these individuals, the Priorities USA plaintiffs fail to recognize that an individual
can register to vote in several ways. An individual can register to vote by mailing a completed
voter registration application on or before the 15th day before the election. 1963 Const, art 2,
§ 4(1)(e). An individual can register to vote by appearing in person and submitting a completed
voter registration application on or before the 15th day before the election. 1963 Const, art 2,
§ 4(1)(f)(1). See also MCL 168.497(1), which allows an individual to register to vote in person,
by mail, or online until the 15th day before the election. Additionally, an individual can register
to vote in the 14-day period by appearing in person, submitting a completed voter registration
application, and providing proof of residency. 1963 Const, art 2, § 4(1)(f)(2).
The Priorities USA plaintiffs make no claim that any person who is unable to provide proof
of residency, as defined in MCL 168.497, in the 14-day period would not be able to register to
vote on or before the 15th day before the election. Notably, election days are set by the Michigan
Constitution and by statute. See 1963 Const, art 2, § 5; MCL 168.641. Consequently, one should
not be uninformed regarding when an election is to be held. Furthermore, it is not unreasonable
to expect an individual who wishes to vote in an election, but who is not registered to vote or who
has moved since registering to vote, to make inquiries or conduct research—in advance of the
election—regarding how to register to vote. In doing so, an individual can learn the different
options for registering to vote and the documents that are needed for each method. These inquiries
are not a severe or substantial burden. Cf. Crawford v Marion Co Election Bd, 553 US 181, 198;
128 S Ct 1610; 170 L Ed 2d 574 (2008) (opinion by STEVENS, J.) (indicating that the inconvenience
for those who need a photo identification to vote by gathering the required documents, making a
trip to the bureau of motor vehicles, and posing for a photograph does not qualify as a substantial
burden); id. at 205 (SCALIA, J., concurring) (stating that burdens are severe if they go beyond the
merely inconvenient and that “[o]rdinary and widespread burdens, such as those requiring
‘nominal effort’ of everyone, are not severe”) (citation omitted). Furthermore, while the Priorities
USA plaintiffs claim that the Legislature’s definition of proof of residency is narrow, they make
no claim that a more expansive list of specific documents, such as those which the Secretary allows

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1301
PageID.345 Filed
Filed11/11/20
11/29/20 Page
Page74
74ofof77
77
000441

to constitute proof of residency when one applies for a driver’s license or personal identification
card,10 would allow a significant number of individuals who cannot provide proof of residency, as
defined by MCL 168.497, to provide it.
The Legislature’s definition of proof of residency in MCL 168.497 is a reasonable,
nondiscriminatory restriction that applies to all individuals who seek to register to vote in the 14day period. See In re Request for Advisory Opinion Regarding Constitutionality of 2005 PA 71,
497 Mich at 25. It does not, therefore, violate equal protection of the laws.
Furthermore, the Legislature’s definition of proof of residency is warranted by the state’s
regulatory interests. Id. at 22. The Legislature has constitutional authority to enact laws to
preserve the purity of elections, to guard against abuses of the elective franchise, and to provide
for a system of voter registration and absentee voting. 1963 Const, art 2, § 4(2). These obligations
include ensuring that fraudulent voting does not dilute the votes of lawful voters. In re Request
for Advisory Opinion Regarding Constitutionality of 2005 PA 71, 497 Mich at 19-20. Because a
person’s residence dictates which candidates and proposals the person can vote for, see MCL
168.492, the Legislature has an interest in ensuring that only residents of a city or township vote
in that city or township. By defining proof of residency, a phrase undefined by 1963 Const, art 2,
§ 4(1), the Legislature has enacted a statute that helps to preserve the purity of elections and aids
in providing for a system of voter registration. The clerks of Michigan’s cities and townships, as
well as those qualified to vote in Michigan, now know what documents are needed to establish
proof of residency in the 14-day period.
Furthermore, the Legislature’s definition of proof of residency is a reasonable means to
prevent voter fraud. By defining proof of residency as requiring either a current Michigan driver’s
license or personal identification or a utility bill, bank statement, paycheck, government check, or
other government document with the person’s name and current address, the Legislature has
required the person to provide a document—created by a neutral, detached third party—that
connects the person with their place of residence.
We reject the Priorities USA plaintiffs’ claim that voter fraud does not justify the
Legislature’s definition of proof of residency because voter fraud is not a problem in Michigan
and there is no reason to believe that voter fraud would be more prevalent during the 14-day period
than in any preceding period. Recall that it is the Michigan Constitution that requires different
treatment of persons who register to vote in person on or before the 15th day before the election
and those who register in the 14-day period. See 1963 Const, art 2, § 4(1)(f).11 Additionally, the
10

These documents include a credit card bill, bank statement, Michigan school transcript,
mortgage, lease, or rental agreement, insurance policy, and vehicle title and registration. See
Michigan Secretary of State, Driver’s License or ID Requirements, SOS-428 (June 2020).
“[T]he primary objective of constitutional interpretation, not dissimilar to any other exercise in
judicial interpretation, is to faithfully give meaning to the intent of those who enacted the law.”
Nat’l Pride at Work, Inc v Governor, 481 Mich 56, 67; 748 NW2d 524 (2008). Under 1963 Const,
art 2, § 4(1)(f), when a person registers to vote in person, the documents that the person must
present to the election official depends on when the person registers to vote. If the person registers
11

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1302
PageID.346 Filed
Filed11/11/20
11/29/20 Page
Page75
75ofof77
77
000442

Legislature was not required to wait until there was proven voter fraud during the 14-day period
before it could enact a definition of proof of residency. See In re Request for Advisory Opinion
Regarding Constitutionality of 2005 PA 71, 479 Mich at 26-27, where the Supreme Court rejected
the argument that the state’s interest in preventing in-person voter fraud was illusory because there
was no significant evidence of such fraud:
[T]here is no requirement that the Legislature “prove” that significant in-person
voter fraud exists before it may permissibly act to prevent it. The United States
Supreme Court has explicitly stated that “elaborate, empirical verification of the
weightiness of the State’s asserted justifications” is not required. Rather, a state is
permitted to take prophylactic action to respond to potential electoral problems:
To require States to prove actual [harm] as a predicate to the
imposition of reasonable . . . restrictions would invariably lead to
endless court battles over the sufficiency of the “evidence”
marshaled by a State to prove the predicate. Such a requirement
would necessitate that a State’s political system sustain some level
of damage before the legislature could take corrective action.
Legislatures, we think, should be permitted to respond to potential
deficiencies in the electoral process with foresight rather than
reactively, provided that the response is reasonable and does not
significantly impinge on constitutionally protected rights.
Therefore, the state is not required to provide any proof, much less “significant
proof,” of in-person voter fraud before it may permissibly take steps to prevent it.
[Citations omitted.]
We also reject the Priorities USA plaintiffs’ claim that the Legislature’s definition of proof
of residency was not justified because other statutes adequately prevent voter fraud. They point
to MCL 168.933, which provides that “[a] person who makes a false affidavit or swears falsely
while under oath . . . for the purpose of securing registration, for the purpose of voting at an
election . . . is guilty of perjury.” In In re Request for Advisory Opinion Regarding
Constitutionality of 2005 PA 71, 479 Mich at 28 n 69, the Supreme Court rejected a similar
argument that the picture identification requirement of MCL 168.523(1) was not justified because
there were statutes that imposed criminal penalties for those who impersonated another for voting
purposes. It explained:

to vote on or before the 15th day before the election the person must submit “a completed voter
registration application.” 1963 Const, art 2, § 4(1)(f)(1). But, if the person registers to vote during
the 14-day period, the person must submit “a completed voter registration application” and provide
“proof of residency.” 1963 Const, art 2, § 4(1)(f)(2). Consequently, it is apparent that the voters
who enacted Proposal 3 intended that those who register to vote in the 14-day period must provide
additional documentation than those who register to vote on or before the 15th day before the
election—in addition to submitting a completed voter registration application, they must also
provide proof of residency.

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1303
PageID.347 Filed
Filed11/11/20
11/29/20 Page
Page76
76ofof77
77
000443

[T]hat Michigan criminalizes in-person voter fraud does not address Michigan’s
undisputed interest in preventing fraud in the first instance, nor do criminal
sanctions provide a means of detecting fraud. Moreover, it is unclear how the
imposition of criminal penalties could remedy the harm inflicted on our electoral
system by a fraudulently cast ballot. [Id.]
Accordingly, MCL 168.933 does not dispel the Legislature’s interest in preventing voter fraud
during the 14-day period.
Finally, PTV, in arguing that MCL 168.497 violates equal protection, focuses on the burden
that is caused by the actual issuance of challenged ballots. According to PTV, because it takes
longer for a challenged ballot to be issued, which results in longer lines, the requirement that
challenged ballots be issued to those who register in the 14-day period without a current Michigan
driver’s license or personal identification card burdens the right to vote.
The burden of long lines, which results in people having to wait longer to register to vote,
is not a severe burden. Long lines are certainly an inconvenience, but a burden must go beyond
mere inconvenience to be severe. Crawford, 553 US at 205 (SCALIA, J., concurring). Additionally,
the burden is justified by the state’s interest in preventing voter fraud. See In re Request for
Advisory Opinion Regarding Constitutionality of 2005 PA 71, 479 Mich at 19-20. The challenged
ballot provides a procedure, in a contested election, to identify a ballot that was cast by someone
who engaged in voter fraud. See MCL 168.747; Belcher, 402 Mich at 132. It was reasonable for
the Legislature to conclude that it was less likely that those persons who register to vote in the 14day period with a current Michigan driver’s license or identification card would be committing
fraud than those who register without one. Those who register to vote with a current Michigan
driver’s license or personal identification card have a government issued identification that
contains their picture and their current address. But someone who registers to vote by providing
“any other form of identification for election purposes,” may have picture identification with a
noncurrent address, such as a driver’s license or personal identification card issued by another
state, or no address for the person, such as a student photo identification card, and someone who
registers to vote by submitting an affidavit that he or she does not have “identification for election
purposes” simply provides no photo identification at all.
IV. RESPONSE TO THE DISSENT
Our dissenting colleague concedes that the Legislature was within its rights to establish
what constitutes “proof of residency” within the 14-day period. Indeed, the dissent states that the
Legislature “can and should” provide guidance as to what is acceptable proof of residency. By
making this concession, our colleague must also acknowledge that the legislative choice reflected
in MCL 168.497 represents a considered policy judgment of the political branches of our
government. That policy judgment is one with which our dissenting colleague clearly disagrees.
Indeed, our colleague states that she might have upheld the statute had the Legislature enacted a
definition of proof of residency more in line with what she considers to be its “well-understood

EXHIBIT 3

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-4,
6-4, PageID.1304
PageID.348 Filed
Filed11/11/20
11/29/20 Page
Page77
77ofof77
77
000444

meaning.”12 But in our view it is not part of the judicial role to second guess the Legislature’s
policy judgment in this regard, so long as what has been enacted does not run afoul of the
constitution. See State Farm Fire & Cas Co v Old Republic Ins Co, 466 Mich 142, 149; 644
NW2d 715 (2002) (“It is not the role of the judiciary to second-guess the wisdom of a legislative
policy choice; our constitutional obligation is to interpret—not to rewrite—the law.”). We have
laid out in painstaking detail why the statutory enactments at issue in this case are well within
constitutional bounds.
Finally, the dissent posits that there is a well-accepted meaning of the term “proof of
residency.” If so, why should the Legislature have need of defining the term, as the dissent
concedes that it “can and should” have done? More fundamentally, we disagree that the
Legislature has substituted “proof of identity” for “proof of residency.” In the context of this
statute, a State of Michigan driver’s license or personal identification card is being used not as
proof of identity, but as proof of residency. Indeed, the Legislature considers it to be the highest
and best proof of residency, as a prospective voter need not supply any other documentation within
the 14-day period so long as the voter presents either of those documents reflecting an address
within the voting jurisdiction.
V. CONCLUSION
We affirm the June 24, 2020 opinion and order of the Court of Claims. The Secretary and
the Legislature were entitled to summary disposition. The Legislature’s definition of proof of
residency in MCL 168.497 and the requirement in MCL 168.497(5) that a challenged ballot be
issued to any person who registers to vote in the 14-day period without providing a current
Michigan driver’s license or personal identification card does not unduly burden any of the rights
in 1963 Const, art 2, § 4(1)(a) and (f). The Secretary’s AVR Policy also does not unduly burden
the right in 1963 Const, art 2, § 4(1)(d). Additionally, the Legislature’s definition of proof of
residency in MCL 168.497 and the requirement in MCL 168.497(5) concerning the issuance of
challenged ballots do not violate equal protection.
Affirmed.
/s/ Patrick M. Meter
/s/ Michael F. Gadola

12

The dissent lays out the list of documents the Secretary of State accepts as proof of residency
when seeking to obtain a driver’s license or personal identification card, which is more expansive
than the list in MCL 169.497. First, given the Legislature’s duty to preserve the purity of elections,
and to ensure that the votes of qualified electors are not unfairly diluted, the Legislature was within
its rights to require a higher standard of proof of residency for voting purposes than for driving
purposes. As to the dissent’s argument that the list the Legislature chose discriminates on the basis
of income, we note that the more expansive list the dissent appears to prefer includes items such
as utility bills, bank statements, mortgages, pay stubs, life insurance policies, and other documents
that presume a certain economic status. This appears unavoidable in any scheme designed to
establish a person’s residency.

EXHIBIT 3

Case 2:20-cv-13134-LVP-RSW ECF No. 1-5, PageID.423 Filed 11/25/20 Page 1 of 3
000445

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE

MELLISSA A. CARONE,

AFFIDAVIT OF MELLISSA A.
Plaintiff,

CARONE

-vs-

CITY OF DETROIT: DETROIT ELECTION
COMMISSION; JANICE M. WINFREY, in

F1LE NO:_ _ _ _-AW

her official capacity as the CLERK OF THE
CITY OF DETROIT and the Chairperson of

JUDGE

The DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official
Capacity as the CLERK OF WAYNE COUNTY
BOARD OF CANVASSERS,
BOBBY TENORIO

Defendants,

________________/
David A. Kallman

(P43200)

Erin E. Mersino

(P70886)

Jack C. Jordan

(P46551)

Stephan P. Kallman

(P75622)

NOTARY PUBLIC - STATE OF MICHIGAN
COUNTY OF WASHTENAW
My Commission 'Expires February 19, 2021
Acting in the Gou~ of lu<?-:-:(kc.?

GREAT LAKES JUSTICE CENTER
Attorneys for Plantiff
5600 W. Mount Hope Hwy.
Lansing, MI 48917

(517) 322-3207/ Fax: (517) 322-3208

AFFIDAVIT
The Affiant, Mellissa A. Carone, being the first duly sworn, hereby deposes and states as follows:

Case 2:20-cv-13134-LVP-RSW ECF No. 1-5, PageID.424 Filed 11/25/20 Page 2 of 3
000446

\.

My name is Mellissa A. Carone, I was contracted by Dominion Voting Services to do IT work at
the TCF Center for the November 3, 2020 election, and I am a resident of Wayne County.

2.

I arrived at the TCF Center at approximately 6: 15 AM November 3, 2020 and worked until 4:00
AM November 4, 2020. I went home to get some sleep, then arrived back at the TCF Center at
I 0:00 AM in which l stayed until I :45 PM. During this time I witnessed nothing but fraudulent
actions take place.

3. The counters (which were trained very little or not at all), were handed a "batch" (stack of 50) of
mail-in ballots in which they would run through the tabulator. The tabulators would get jammed
4-5 times an hour, when they jammed the computer would put out an error that tells the worker
the ballot number that was jammed and gives an option to either discard the batch or continue
scanning at which the counter should discard the batch, put the issue ballot on top of the batch
and rescan the entire batch. I witnessed countless workers rescanning the batches without
discarding them first which resulted in ballots being counted 4-5 times.
4. At approximately midnight I was called over to assist one of the counters with a paper jam and
noticed his PC had a number of over 400 ballots scanned- which means one batch was counted
over 8 times. This happened countless times while I was at the TCF Center. I confronted my
manager, Nick lkonomakis saying how big of a problem this was, Nick told me he didn't want to
hear that we have a big problem. He told me we are here to do assist with IT work, not to run
their election.
5. The adjudication process, from my understanding there's supposed to be a republican and a
democrat judging these ballots. I overheard numerous workers talking during shift change in
which over 20 machines had two democrats judging the ballots-resulting in an unfair process.
6. Next, I want to describe what went on during shift change, it was a chaotic disaster. It took over
two hours for workers to arrive at their "assigned areas", over 30 workers were taken upstairs and
told they didn't have a job for them to do. These people were chosen to be counters, in which 6
workers admitted to me that they received absolutely no training at all.
7. The night shift workers were free to come and go as they pleased, they could go out and smoke
from the counting room. This is illegal, as there were boxes and stacks of ballots everywhere,
anyone could have taken some out or brought some in, and No one was watching them.
8. There was two vans that pulled into the garage of the counting room, one on day shift and one on
night shift. These vans were apparently bringing food into the building because they only had
enough food for not even 1/3 of the workers. I never saw any food coming out of these vans,
coincidently it was announced on the news that Michigan had discovered over 100,000 more
ballots- not even two hours after the last van left.
9. When a worker had a ballot that they either could not read, or it had something spilled on it, they
would go to a table that had blank ballots on it and fill it out. They were supposed to be filling
them out exactly like the one they had received but this was not the case at all. The workers
would also sign the name of the person that the ballot belonged to-which is clearly illegal.
10. Samuel Challandes and one more young man in his mid-20 were responsible for submitting the
numbers into the main computer. They had absolutely no overhead, my manager Nick would
assist them with any questions but Nick was on the floor assisting with IT most of the time.

BOBBY TENORIO
NOTARY PUBLIC • STATE OF MICHIGAN
COUNTY OF WASHTENAW

My Commission bpires February 19. 2021

Acting In the Couf'4;'-01 J6?C':'ilA-Q-

Case 2:20-cv-13134-LVP-RSW ECF No. 1-5, PageID.425 Filed 11/25/20 Page 3 of 3
000447

11. There was a time I overheard Samuel talking to Nick about losing tons of data, they all got on
their phones and stepped to the side of the stage. I asked Nick what was going one and he told me
it was all taken care of and not to worry about it. I fully believe that this was something very
crucial that they just covered up.
12. I was the only republican working for Dominion Voting, and on the stage there was many terrible
comments being made by the city workers and Dominion workers about republicans. I did not
give out any indication that I was a republican, I have a family at home and knew I was going to
have to walk to my car at the end of my shift. If anyone had an American flag on their shirt or
mask, they were automatically deemed to be Trump supporters.
13. I called the FBI and made a report with them, I was told that I will be getting a call back.
14. I am doing my best to make sure something is done about this, I was there and I seen all of this
take place.

On this 8th day of November, 2020, before me personally appeared Mellissa A. Carone, who in my
presence did execute the foregoing affidavit, and who, being duly sworn, deposes and states that he
has read the foregoing affidavit by him subscribed and knows the contents thereof, and that the same
is true of his own knowledge and belief, except as to those matters he states to be on information and
behalf, and as to those matters he believes them to be true.

Notary Public, Lt)~
My Commission Expires:

County, Michigan
01..

..'.l..

\ "'\

• ~ e \::,

\ "I.

,

c-:i. (

2 6-z /

ll("' IZ02~
BOBBY TENORIO
NOTARY PUBLIC - STATE OF MICHIGAN
COUNTY OF WASHTENAW
My Commission ixpires February 19 2021
Acting in the Gou~ of
'

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-3,
6-6, PageID.1308
PageID.268 Filed
Filed11/11/20
11/29/20 Page
Page11ofof44
000448

EXHIBIT 6

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-3,
6-6, PageID.1309
PageID.269 Filed
Filed11/11/20
11/29/20 Page
Page22ofof44

EXHIBIT 2

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-3,
6-6, PageID.1310
PageID.270 Filed
Filed11/11/20
11/29/20 Page
Page33ofof44

EXHIBIT 2

Case
Case2:20-cv-13134-LVP-RSW
1:20-cv-01083-JTN-PJG ECF No. 1-3,
6-6, PageID.1311
PageID.271 Filed
Filed11/11/20
11/29/20 Page
Page44ofof44
000451

EXHIBIT 2

Case 2:20-cv-13134-LVP-RSW ECF No. 1-7, PageID.430 Filed 11/25/20 Page 1 of 3
000452

Case 2:20-cv-13134-LVP-RSW ECF No. 1-7, PageID.431 Filed 11/25/20 Page 2 of 3
000453

Case 2:20-cv-13134-LVP-RSW ECF No. 1-7, PageID.432 Filed 11/25/20 Page 3 of 3
000454

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.433 Filed 11/25/20 Page 1 of 161
000455

STATE OF MICHIGAN
ENTERPRISE PROCUREMENT
Department of Technology, Management, and Budget
525 W. Allegan, Lansing MI 48913
P.O. Box 30026, Lansing, MI 48909

NOTICE OF CONTRACT
CONTRACT NO. 071B7700117 .
between

THE STATE OF MICHIGAN
and

Program
Manager

1201 18th Street, Suite 210

STATE

Denver, CO 80202
Gio Costantiello

Sally Williams

MDOS

517-241-2747
williams1@michigan.gov

Contract
Administrator

CONTRACTOR

Dominion Voting Systems Inc.

416-762-8683 ext. 241
gio.costantiello@dominionvoting.com

Sue Cieciwa

DTMB

517-284-7007
cieciwas@michigan.gov

5149
CONTRACT SUMMARY
DESCRIPTION:

Voting System Hardware, Firmware, Software and Service – Department of State

INITIAL EFFECTIVE DATE

INITIAL EXPIRATION DATE

INITIAL AVAILABLE
OPTIONS

EXPIRATION DATE BEFORE
CHANGE(S) NOTED BELOW

March 1, 2017

February 28, 2027

None

February 28, 2027

PAYMENT TERMS

DELIVERY TIMEFRAME

Net 45 Days

Refer to Section 2.1 Time Frames

ALTERNATE PAYMENT OPTIONS

☐ P-card

☐ Direct Voucher (DV)

EXTENDED PURCHASING

☐ Other

☒ Yes

☐ No

MINIMUM DELIVERY REQUIREMENTS

There is no minimum order requirement.
MISCELLANEOUS INFORMATION

$0.00

ESTIMATED CONTRACT VALUE AT TIME OF EXECUTION

1

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.434 Filed 11/25/20 Page 2 of 161
000456
CONTRACT NO. 071B7700117

FOR THE CONTRACTOR:

Company Name

Authorized Agent Signature

Authorized Agent (Print or Type)

Date

FOR THE STATE:

Signature

Name & Title

Agency

Date

2

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.435 Filed 11/25/20 Page 3 of 161
000457

CONTRACT #071B7700117

STATE OF MICHIGAN
VOTING SYSTEM HARDWARE,
SOFTWARE AND SERVICES
CONTRACT TERMS
This VOTING SYSTEM, HARDWARE, SOFTWARE AND SERVICES CONTRACT (“Contract”) is agreed
to between the State of Michigan (the “State”) and Dominion Voting Systems Inc. (“Contractor”), a
Delaware corporation. This Contract is effective on March 1, 2017 (“Effective Date”), and unless
terminated, expires on February 28, 2027 (the “Term”).
The parties agree as follows:
1.

Definitions. For the purposes of this Contract, the following terms have the following meanings:
“Acceptance” has the meaning set forth in Section 8.e.
“Audit Period” has the meaning set forth in Section 30.
“Authorized Users” means all Michigan counties, cities, or townships.
“Business Day” means a day other than a Saturday, Sunday or other day on which the State is
authorized or required by Law to be closed for business.
“Change” has the meaning set forth in Section 4.
“Change Notice” has the meaning set forth in Section 4.b.
“Change Proposal” has the meaning set forth in Section 4.a.
“Change Request” has the meaning set forth in Section 4.
“Confidential Information” has the meaning set forth in Section 28.a.
“Configuration” means State-specific changes made to the Software without Source Code or structural
data model changes occurring.
“Contract” has the meaning set forth in the preamble.
“Contract Administrator” is the individual appointed by each party to (a) administer the terms of this
Contract, and (b) approve any Change Notices under this Contract. Each party’s Contract Administrator
will be identified in the Statement of Work.
“Contractor” has the meaning set forth in the preamble.
“Contractor Personnel” means all employees of Contractor and any Permitted Subcontractors
involved in the performance of Services hereunder.
“Deliverables” means the voting system tabulators and all related components, and the accessible
voting system components, and all other materials that Contractor is required to or otherwise does
provide to the State or Authorized Users under this Contract and otherwise in connection with any
Services, including all items specifically identified as Deliverables in the Statement of Work.

3

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.436 Filed 11/25/20 Page 4 of 161
000458

CONTRACT #071B7700117

Notwithstanding the foregoing, the term Deliverable shall not include the EMS Software or System
Software.
“Dispute Resolution Procedure” has the meaning set forth in Section 39.
“Documentation” means all user manuals, operating manuals, technical manuals and any other
instructions, specifications, documents or materials, in any form or media, that describe the
functionality, installation, testing, operation, use, maintenance, support, technical or other components,
features or requirements of any Deliverable.
“Effective Date” has the meaning set forth in the preamble.
“EMS Software” means the Election Management System (EMS) software provided by Contractor
under the Statement of Work, and any Maintenance Releases or New Versions provided to the State
and any Configurations or Modifications made by or for the State pursuant to this Contract, and all
copies of the foregoing permitted under this Contract and the License Agreement.
“Extended Service Period” has the meaning set forth in Section 1.6 of the Statement of Work.
“Fees” means the prices for Services, EMS Software and Deliverables set forth in an attachment to the
Statement of Work.
“Harmful Code” means any: (a) virus, trojan horse, worm, backdoor or other software or hardware
devices the effect of which is to permit unauthorized access to, or to disable, erase, or otherwise harm,
any computer, systems or software; or (b) time bomb, drop dead device, or other software or hardware
device designed to disable a computer program automatically with the passage of time or under the
positive control of any Person, or otherwise prevent, restrict or impede the State's or any Authorized
User's use of such software.
“Initial Service Period” has the meaning set forth in Section 1.6 of the Statement of Work.
“Intellectual Property Rights” means any and all intellectual property rights in any part of the world,
whether registered or unregistered, and all applications for and renewals or extensions of such rights,
including rights comprising or relating to: (a) patents, patent disclosures and inventions (whether
patentable or not); (b) trademarks, service marks, trade dress, trade names, logos, corporate names
and domain names, together with all of the goodwill associated therewith; (c) works of authorship,
designs, copyrights and copyrightable works (including computer programs), mask works and rights in
data and databases; (d) trade secrets, know-how and other confidential information; and (e) all similar
or equivalent rights or forms of protection.
“Key Personnel” means any Contractor Personnel identified as key personnel in the Statement of
Work.
“License Agreement” has the meaning set forth in Section 5.
“Maintenance Release” means any update, upgrade, release or other adaptation or modification of the
Software, including any updated Documentation, that Contractor may generally provide to its licensees
from time to time during the Term, which may contain, among other things, error corrections,
enhancements, improvements or other changes to the user interface, functionality, compatibility,
capabilities, performance, efficiency or quality of the Software.
“Modification” means State-specific changes made to the Source Code of the Software to enhance,
improve or otherwise create derivative works of the Software.

4

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.437 Filed 11/25/20 Page 5 of 161
000459

CONTRACT #071B7700117

“New Version” means any new version of the Software that the Contractor may from time to time
introduce and market generally as a distinct licensed product, as may be indicated by Contractor's
designation of a new version number.
“Operating Environment” means, collectively, the platform, environment and conditions on, in or under
which the EMS Software is intended to be installed and operate, as set forth in the Statement of Work,
including such structural, functional and other features, conditions and components as hardware,
operating software and system architecture and configuration.
“Permitted Subcontractor” has the meaning set forth in Section 10.e.
“Person” means an individual, corporation, partnership, joint venture, limited liability company,
governmental authority, unincorporated organization, trust, association or other entity.
“Program Manager” is the individual appointed by each party to (a) monitor and coordinate the dayto-day activities of this Contract, and (b) for the State, to co-sign off on its notice of Acceptance for
Services, the EMS Software and Deliverables. Each party’s Program Manager will be identified in the
Statement of Work.
“Purchase Order” means an order for EMS Software, Services or Deliverables to be provided by
Contractor and the corresponding fees to be paid by the State or Authorized User, issued by the State
or Authorized User, and subject to these terms and conditions.
“Representatives” means a party's employees, officers, directors, partners, shareholders, agents,
attorneys, third-party advisors, successors and permitted assigns.
“Services” means any of the services Contractor is required to or otherwise does provide under this
Contract or the Statement of Work (including any exhibits or attachments), as more fully described in
the body of this Contract and the Statement of Work.
“Software” means both the EMS Software and the System Software.
“Source Code” means the human readable source code of the Software to which it relates, in the
programming language in which the Software was written, together with all related flow charts and
technical documentation, including a description of the procedure for generating object code, all of a
level sufficient to enable a programmer reasonably fluent in such programming language to understand,
build, operate, support, maintain and develop modifications, upgrades, updates, adaptations,
enhancements, new versions and other derivative works and improvements of, and to develop
computer programs compatible with, the EMS Software.
“Specifications” means, for the Software, the specifications collectively set forth in the Business
Requirements Specification and Technical Specification, together with any other specifications set forth
in the Statement of Work or Documentation.
“State” means the State of Michigan.
“State Data” has the meaning set forth in Section 27.
“Statement of Work” means the statement of work attached as Schedule A to this Contract, including
all attachments and exhibits thereto.
“State Resources” means all materials and information, including documents, data, know-how, ideas,
methodologies, specifications, software, content and technology, in any form or media, directly or
indirectly provided or made available to Contractor by or on behalf of the State or Authorized Users in
connection with this Contract.

5

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.438 Filed 11/25/20 Page 6 of 161
000460

CONTRACT #071B7700117

“System Software” means the operating system code, including software, firmware and microcode,
(object code version) for each Deliverable, including any subsequent revisions, as well as any
applicable Documentation.
“Term” has the meaning set forth in the preamble.
“Third Party” means any Person other than the State, an Authorized User, or Contractor.
“Third-Party Products” software or hardware that are not Contractor’s proprietary software or
hardware, provided by Contractor’s distributors or other Third Parties to State.
“Transition Period” has the meaning set forth in Section 22.
“Transition Responsibilities” has the meaning set forth in Section 22.
“Unauthorized Removal” has the meaning set forth in Section 10.d.ii.
“Unauthorized Removal Credit” has the meaning set forth in Section 10.d.iii.
2.

Statement of Work. Contractor shall provide the Deliverables, EMS Software and Services, pursuant
to the executed License Agreement (defined below) and to the executed Statement of Work, which is
attached as Schedule A to this Contract. The terms and conditions of this Contract will apply at all
times to the Statement of Work.

3.

Statement of Work Requirements. The Statement of Work will include the following:
a. A detailed description of the Services to be provided by Contractor, including any service and
maintenance obligations and training obligations of Contractor;
b. A detailed description of the EMS Software to be provided by Contractor;
c. A detailed description of the Deliverables to be provided by Contractor;
d. Names and contact information for Contractor’s Contract Administrator, Program Manager and
Customer Service Manager, and any other Key Personnel of Contractor;
e. Names and contact information for the State’s Contract Administrator and Program Manager;
f. An exhibit detailing the Fees payable under the Statement of Work, the manner in which such
Fees will be calculated, any invoicing requirements, including any time frames on which any
such Fees are conditioned, and such other information as the parties deem necessary; and
g. A detailed description of all State Resources required to complete the Services and
Deliverables set forth in the Statement of Work.

4.

Change Control Process. The State may at any time request in writing (each, a “Change Request”)
changes to the Statement of Work, including changes to the Services, EMS Software (subject to Section
1.5D Statement of Work) and Deliverables (each, a “Change”). Upon the State’s submission of a
Change Request, the parties will evaluate and implement all Changes in accordance with this Section
4.
a. As soon as reasonably practicable, and in any case within twenty (20) Business Days following
receipt of a Change Request, Contractor will provide the State with a written proposal for
implementing the requested Change (“Change Proposal”), setting forth:
i. a written description of the proposed Changes to any Services, EMS Software or
Deliverables;
ii. a schedule for commencing and completing any additional or modified Services,
EMS Software or Deliverables, and the effect of such Changes, if any, on
completing any other Services under the Statement of Work;

6

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.439 Filed 11/25/20 Page 7 of 161
000461

CONTRACT #071B7700117

iii. any additional State Resources Contractor deems necessary to carry out such
Changes; and
iv. any increase or decrease in Fees resulting from the proposed Changes, which
increase or decrease will reflect only the increase or decrease in time and
expenses Contractor requires to carry out the Change.
b. Within thirty (30) Business Days following the State’s receipt of a Change Proposal, the State
will by written notice to Contractor, approve, reject, or propose modifications to such Change
Proposal. If the State proposes modifications, Contractor must modify and re-deliver the
Change Proposal reflecting such modifications, or notify the State of any disagreement, in
which event the parties will negotiate in good faith to resolve their disagreement. Upon the
State’s approval of the Change Proposal or the parties’ agreement on all proposed
modifications, as the case may be, the parties will execute a written agreement to the Change
Proposal (“Change Notice”), which Change Notice will be signed by the State’s Chief
Procurement Officer (or his or her designee), and will constitute an amendment to the
Statement of Work.
c.

If the parties fail to enter into a Change Notice within fifteen (15) Business Days following the
State’s response to a Change Proposal, the State may, in its discretion:
i. require Contractor to perform the Services under the Statement of Work without
the Change;
ii. require Contractor to continue to negotiate a Change Notice;
iii. initiate a Dispute Resolution Procedure; or
iv. if the Change Request is initiated due to changes in the applicable federal or
state certification standards or laws, then, notwithstanding any provision to the
contrary in the Statement of Work, terminate this Contract for cause under
Section 20, or otherwise, terminate this Contract for convenience under Section
21.

d. No Change will be effective until the parties have executed a Change Notice. Except as the
State may request in its Change Request or otherwise in writing, Contractor must continue to
perform its obligations in accordance with the Statement of Work pending negotiation and
execution of a Change Notice. Contractor will use its best efforts to limit any delays or Fee
increases from any Change to those necessary to perform the Change in accordance with the
applicable Change Notice. Each party is responsible for its own costs and expenses of
preparing, evaluating, negotiating, and otherwise processing any Change Request, Change
Proposal, and Change Notice.
e. The performance of any functions, activities, tasks, obligations, roles and responsibilities
comprising the Services or Deliverables as described in this Contract are considered part of
the Services and Deliverables and, thus, will not be considered a Change. This includes the
delivery of all Deliverables in accordance with their respective specifications, and the diagnosis
and correction of non-conformities discovered in Deliverables prior to their Acceptance by the
State or, subsequent to their Acceptance by the State, as necessary for Contractor to fulfill its
associated service and maintenance obligations under this Contract.
f.

Contractor may, on its own initiative and at its own expense, prepare and submit its own
Change Request to the State. However, the State will be under no obligation to approve or
otherwise respond to a Change Request initiated by Contractor.

7

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.440 Filed 11/25/20 Page 8 of 161
000462

CONTRACT #071B7700117

5.

EMS Software and System Software Licenses. Contractor hereby grants to the State and Authorized
Users the right and license to use the EMS Software, System Software and related Documentation in
accordance with the terms and conditions of this Contract and the License Agreement set forth in
Schedule B (the “License Agreement”).

6.

Scope of Use for Deliverables. The State and Authorized Users may use the Deliverables, and any
software licensed in connection with such Deliverable, on a worldwide basis for the benefit of
themselves. Contractor further authorizes use of the Deliverables by third parties who are under
contract with the State or the Authorized User to provide outsourcing services for the benefit of the
State or the Authorized User. There are no restrictions on subsequent resale or distribution of
Deliverables that the State or Authorized User had paid for in full.

7.

Support and Maintenance. Contractor shall provide support and maintenance for the EMS Software
and all Deliverables in accordance with the applicable service level agreement set forth in the Statement
of Work, Section 1.6, and the licensing restrictions set forth in the License Agreement and the terms
and conditions of this Contract.

8.

Purchase, Delivery, Installation and Acceptance.
a. Purchase Orders. The State or Authorized User will order the EMS Software, Services or
Deliverables pursuant to a signed Purchase Order issued by the State or an Authorized User.
The State or Authorized User reserves the right to cancel any Purchase Order at any time prior
to shipment of the Deliverables or delivery of the Services and shall not be subject to any
charges or other fees whatsoever as a result of such cancellation. The State or Authorized
User may by written communication cancel or make changes to any Purchase Order subject
to an equitable adjustment in the price, delivery schedule, or both, where appropriate. THE
TERMS AND CONDITIONS OF THIS CONTRACT WILL APPLY AT ALL TIMES TO ANY
PURCHASE ORDERS ISSUED BY THE STATE OR ANY AUTHORIZED USER UNDER THIS
CONTRACT.
ALL CONTRACTUAL OBLIGATIONS UNDER THIS CONTRACT IN
CONNECTION WITH A PURCHASE ORDER PLACED BY AN AUTHORIZED USER ARE
THE SOLE OBLIGATION OF THE AUTHORIZED USER PLACING THE ORDER AND NOT
THE RESPONSIBILITY OF THE STATE.
b. Delivery Procedure for Deliverables. Contractor shall deliver all Deliverables within the
timeframe set forth in the applicable Purchase Order, FOB destination, with such destination
being the "ship to" address as specified in the applicable Purchase Order. Contractor shall bear
all risk of loss of or damage to the Deliverable until receipt of delivery at the “ship to” address,
and shall arrange and pay for all transportation and insurance sufficient to fully protect the
Deliverable while in transit. Each shipment shall include a packing slip indicating the
Authorized User's order number, a description of the Deliverable shipped and the quantity
shipped. If any loss to, or damage of, the Deliverable occurs prior to receipt of delivery at the
“ship to” address by the Authorized User, Contractor shall immediately provide a replacement
Deliverable. Title shall pass upon receipt of delivery. Contractor shall make available all
appropriate or related user Documentation at the time of delivery of the first unit of each
different Deliverable type. Deliverables delivered without the appropriate and required
Documentation shall be considered "shipped short" until the applicable Documentation has
been received.
c.

EMS Software Installation.
i. Unless otherwise set forth in the Statement of Work or the applicable Purchase
Order, Contractor will deliver, install, and configure the EMS Software in
accordance with the criteria set forth in the Statement of Work.

8

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.441 Filed 11/25/20 Page 9 of 161
000463

CONTRACT #071B7700117

ii. Unless otherwise set forth in the Statement of Work or applicable Purchase
Order, Contractor is responsible for ensuring the relevant Operating Environment
is set up and in working order to allow Contractor to deliver and install the EMS
Software. Contractor will provide the Authorized User with such notice as is
specified in the Statement of Work, prior to delivery of the EMS Software to give
the Authorized User sufficient time to prepare for Contractor’s delivery, and if
applicable, installation of the EMS Software. If the Authorized User is
responsible for site preparation or installation, Contractor will provide such
assistance as Authorized User requests to complete such preparation and
installation on a timely basis.
iii. During the Term, Contractor shall provide the State with all Maintenance
Releases and New Versions in accordance with the Statement of Work (Section
1.5D, Modification Requirements), each of which will constitute EMS Software
and be subject to the terms and conditions of this Contract and the License
Agreement.
iv. The State has no obligation to install or use any Maintenance Release or New
Version. If the State wishes to install any Maintenance Release or New Version,
the State shall have the right to have such Maintenance Release or New Version
installed, in the State's discretion, by Contractor or other authorized party as set
forth in the Statement of Work.
d. Deliverable Installation. Unless otherwise specified in the Statement of Work or applicable
Purchase Order, Contractor shall provide the initial installation of all Deliverables at no
additional charge. Installation shall include: unpacking, removal of all shipping and packing
materials from the premises, positioning, connecting to internal utility services, and related
necessary services to allow for Testing and Acceptance by the Authorized User. All Deliverable
installations shall comply with building and facilities standards established by the State or
Authorized User. If the Authorized User installs the Deliverable, Contractor shall provide all
reasonably necessary telephone assistance at no additional cost during installation.
e. Acceptance. Acceptance procedures for Services, EMS Software and Deliverables is set forth
in the Statement of Work. Upon completion of testing set forth in the Statement of Work, the
State or Authorized User will notify Contractor of its acceptance (“Acceptance”), provided such
Acceptance occurs and is completed within fifteen (15) calendar days of delivery to the ship to
address, after which it will be deemed accepted by the Authorized User or the State, as
applicable.
9.

Invoicing and Payment.
a. Invoicing. Contractor will invoice the State or Authorized user for Fees in accordance with the
requirements set forth in the Statement of Work. Contractor must submit each invoice in
electronic format, via such delivery means and to such address as are specified by the State
or Authorized User. Each separate invoice must:
i. clearly identify this Contract;
ii. list each Fee item separately;
iii. include sufficient detail for each line item to enable the State or Authorized User
to satisfy its accounting and charge-back requirements;

9

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.442 Filed 11/25/20 Page 10 of 161
000464

CONTRACT #071B7700117

iv. for Fees determined on a time and materials basis, report details regarding the
number of hours performed during the billing period, the skill or labor category for
such Contractor Personnel and the applicable hourly billing rates;
v. include such other information as may be required by the State or Authorized
User; and
vi. any other requirements set forth in the Statement of Work.
b. Payment. Invoices are due and payable by the State, within forty-five (45) calendar days after
Acceptance, provided the State determines that the invoice was properly rendered. The State
will only disburse payments under this Contract through Electronic Funds Transfer (EFT).
Contractor must register with the State at http://www.michigan.gov/cpexpress to receive
electronic fund transfer payments. If Contractor does not register, the State is not liable for
failure to provide payment. Invoices are due and payable by Authorized Users in accordance
with the Authorized User’s standard payment procedures.
c.

Payment Disputes. The State or Authorized User may withhold from payment any and all
payments and amounts it disputes in good faith, pending resolution of such dispute, provided
that the State or Authorized User:
i. timely renders all payments and amounts that are not in dispute;
ii. notifies Contractor of the dispute prior to the due date for payment, specifying in
such notice (A) the amount in dispute; and, (B) the reason for the dispute set out
in sufficient detail to facilitate investigation by Contractor and resolution by the
parties;
iii. works with Contractor in good faith to resolve the dispute promptly; and
iv. promptly pays any amount determined to be payable by resolution of the dispute.

d. Not to Withhold Services. Contractor shall not withhold any Services or Deliverables or fail to
perform any obligation hereunder by reason of the State's or Authorized User’s good faith
withholding of any payment or amount or any dispute arising therefrom.
e. Firm Pricing. Unless otherwise set forth in the Statement of Work, all Fees set forth in this
Contract are firm and will not be increased during the Term, or any renewal thereof. For
purpose of clarity, the parties may negotiate pricing for replacement hardware or components
that reach end of life.
f.

Taxes. The State is exempt from State sales tax for direct purchases and may be exempt from
federal excise tax, if Services or Deliverables purchased under this Contract are for the State’s
exclusive use or Authorized users. Notwithstanding the foregoing, all Fees are inclusive of
taxes, and Contractor is responsible for all sales, use and excise taxes, and any other similar
taxes, duties and charges of any kind imposed by any federal, state, or local governmental
entity on any amounts payable by the State under this Contract.

g. Right of Setoff. Without prejudice to any other right or remedy it may have, the State and
Authorized Users reserve the right to set off at any time any amount owing to it by Contractor
against any amount payable by the State or Authorized User to Contractor under this Contract.
10.

Performance of Services. Contractor will provide all Services and Deliverables in a timely,
professional and workmanlike manner and in accordance with the terms, conditions, and specifications
set forth in this Contract and the Statement of Work.

10

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.443 Filed 11/25/20 Page 11 of 161
000465

CONTRACT #071B7700117

a. State Standards
i. To the extent that Contractor has access to the State’s computer system or will
be handling State Data, Contractor must adhere to all existing standards as
described within the comprehensive listing of the State’s existing technology
standards at http://www.michigan.gov/dmb/0,4568,7-150-56355-108233-,00.html
ii. To the extent that Contractor has access to the State’s computer system,
Contractor must comply with the State’s Acceptable Use Policy, see
http://michigan.gov/cybersecurity/0,1607,7-217-34395_34476---,00.html. All
Contractor personnel will be required, in writing, to agree to the State’s
Acceptable Use Policy before accessing the State’s system. The State reserves
the right to terminate Contractor’s access to the State’s system if a violation
occurs.
b. Contractor Personnel
i. Contractor is solely responsible for all Contractor personnel and for the payment
of their compensation, including, if applicable, withholding of income taxes, and
the payment and withholding of social security and other payroll taxes,
unemployment insurance, workers’ compensation insurance payments and
disability benefits.
ii. Prior to any Contractor personnel performing any Services, Contractor will:
1. ensure that such Contractor personnel have the legal right to work in the
United States; and
2. require such Contractor personnel to execute written agreements, in
form and substance acceptable to the State or Authorized User, that bind
such Contractor personnel to confidentiality provisions that are at least
as protective of the State’s information (including all Confidential
Information) as those contained in this Contract.
iii. Contractor and all Contractor Personnel will comply with all rules, regulations,
and policies of the State or Authorized User that are communicated to Contractor
in writing, including security procedures concerning systems and data and
remote access, building security procedures, including the restriction of access
by the State or Authorized User to certain areas of its premises or systems, and
general health and safety practices and procedures.
iv. The State or Authorized User reserves the right to require the removal of any
Contractor Personnel found, in the judgment of the State or Authorized User, to
be unacceptable. The request must be written with reasonable detail outlining
the reasons for the removal request. Replacement personnel for the removed
person must be fully qualified for the position. If the State or Authorized User
exercises this right, and Contractor cannot immediately replace the removed
personnel, the parties agree to negotiate an equitable adjustment in schedule or
other terms that may be affected by the required removal.
c.

Background Checks. Upon request, Contractor must perform background checks on all
employees and subcontractors and its employees prior to their assignment. The scope is at

11

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.444 Filed 11/25/20 Page 12 of 161
000466

CONTRACT #071B7700117

the discretion of the State or Authorized User and documentation must be provided as
requested. Contractor is responsible for all costs associated with the requested background
checks. The State or Authorized User, in its sole discretion, may also perform background
checks.
d. Contractor’s Key Personnel
i. The State has the right to recommend and approve in writing the initial
assignment, as well as any proposed reassignment or replacement, of any Key
Personnel. Before assigning an individual to any Key Personnel position,
Contractor will notify the State of the proposed assignment, introduce the
individual to the State’s Program Manager, and provide the State with a resume
and any other information about the individual reasonably requested by the
State. The State reserves the right to interview the individual before granting
written approval. In the event the State finds a proposed individual
unacceptable, the State will provide a written explanation including reasonable
detail outlining the reasons for the rejection.
ii. Contractor will not remove any Key Personnel from their assigned roles on this
Contract without the prior written consent of the State, not to be unreasonably
withheld. The Contractor’s removal of Key Personnel without the prior written
consent of the State is an unauthorized removal (“Unauthorized Removal”). An
Unauthorized Removal does not include replacing Key Personnel for reasons
beyond the reasonable control of Contractor, including illness, disability, leave of
absence, personal emergency circumstances, resignation, or for cause
termination of the Key Personnel’s employment. Any Unauthorized Removal
may be considered by the State to be a material breach of this Contract, in
respect of which the State may elect to terminate this Contract for cause under
Section 20.
iii. It is further acknowledged that an Unauthorized Removal will interfere with the
timely and proper completion of this Contract, to the loss and damage of the
State, and that it would be impracticable and extremely difficult to fix the actual
damage sustained by the State as a result of any Unauthorized Removal.
Therefore, Contractor and the State agree that in the case of any Unauthorized
Removal in respect of which the State does not elect to exercise its rights under
Section 20, Contractor will issue to the State the corresponding credits set forth
below (each, an “Unauthorized Removal Credit”):
1. For the Unauthorized Removal of any Key Personnel designated in the
Statement of Work, the credit amount will be $1,000.00 per individual if
Contractor identifies a replacement approved by the State and assigns
the replacement to shadow the Key Personnel who is leaving for a period
of at least 30 calendar days before the Key Personnel’s removal.
2. If Contractor fails to assign a replacement to shadow the removed Key
Personnel for at least 30 Calendar Days, in addition to the $1,000.00
credit specified above, Contractor will credit the State $1,000.00 per
Business Day for each day of the 30 calendar Day shadow period that
the replacement Key Personnel does not shadow the removed Key
Personnel, up to $30,000.00 maximum per individual. The total
Unauthorized Removal Credits that may be assessed per Unauthorized
Removal and failure to provide 30 Calendar Days of shadowing will not
exceed $31,000.00 per individual.

12

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.445 Filed 11/25/20 Page 13 of 161
000467

CONTRACT #071B7700117

iv. Contractor acknowledges and agrees that each of the Unauthorized Removal
Credits assessed under Subsection iii above: (i) is a reasonable estimate of and
compensation for the anticipated or actual harm to the State that may arise from
the Unauthorized Removal, which would be impossible or very difficult to
accurately estimate; and (ii) may, at the State’s option, be credited or set off
against any Fees or other charges payable to Contractor under this Contract.
e. Subcontractors. Contractor will not, without the prior written approval of the State, which
consent may be given or withheld in the State’s sole discretion, engage any Third Party to
perform Services. The State’s approval of any such Third Party (each approved Third Party, a
“Permitted Subcontractor”) does not relieve Contractor of its representations, warranties or
obligations under this Contract. Without limiting the foregoing, Contractor will:
i. be responsible and liable for the acts and omissions of each such Permitted
Subcontractor (including such Permitted Subcontractor's employees who, to the
extent providing Services or Deliverables, shall be deemed Contractor
Personnel) to the same extent as if such acts or omissions were by Contractor or
its employees;
ii. name the State a third party beneficiary under Contractor’s Contract with each
Permitted Subcontractor with respect to the Services;
iii. be responsible for all fees and expenses payable to, by or on behalf of each
Permitted Subcontractor in connection with this Contract, including, if applicable,
withholding of income taxes, and the payment and withholding of social security
and other payroll taxes, unemployment insurance, workers' compensation
insurance payments and disability benefits
11.

Notices. All notices and other communications required or permitted under this Contract must be in
writing and will be considered given and received: (a) when verified by written receipt if sent by courier;
(b) when actually received if sent by mail without verification of receipt; or (c) when verified by
automated receipt or electronic logs if sent by facsimile or email.

If to State:
Sue Cieciwa
DTMB Procurement
Constitution Hall
525 West Allegan Street
PO Box 30026
Lansing, MI 48909
Email: cieciwas@michigan.gov
Phone: (517) 284-7007
12.

If to Contractor:
Gio Constantiello
Dominion Voting Systems
1201 18th Street, Suite 210
Denver, CO 80202
Email: gio.costantiello@dominionvoting.com
Phone: (416) 762-8683 x 241

Insurance Requirements. Contractor must maintain the insurances identified below and is
responsible for all deductibles. All required insurance must: (a) protect the State from claims that may
arise out of, are alleged to arise out of, or result from Contractor's or a subcontractor's performance;
(b) be primary and non-contributing to any comparable liability insurance (including self-insurance)
carried by the State; and (c) be provided by a company with an A.M. Best rating of "A" or better and a
financial size of VII or better.
Insurance Type
Additional Requirements
Commercial General Liability Insurance
Minimal Limits:
$1,000,000 Each Occurrence Limit

Contractor must have their policy endorsed to
add “the State of Michigan, its departments,

13

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.446 Filed 11/25/20 Page 14 of 161
000468

CONTRACT #071B7700117

$1,000,000 Personal & Advertising Injury Limit
$2,000,000 General Aggregate Limit
$2,000,000 Products/Completed Operations

divisions, agencies, offices, commissions,
officers, employees, and agents” as additional
insureds using endorsement CG 20 10 11 85,
or both CG 2010 07 04 and CG 2037 07 0.

Deductible Maximum:
$50,000 Each Occurrence
Automobile Liability Insurance
Minimal Limits:
$1,000,000 Per Occurrence
Workers' Compensation Insurance
Minimal Limits:
Coverage according to applicable laws governing
work activities.

Waiver of subrogation, except where waiver is
prohibited by law.

Employers Liability Insurance
Minimal Limits:
$500,000 Each Accident
$500,000 Each Employee by Disease
$500,000 Aggregate Disease.
Crime Insurance

Minimal Limits:
$1,000,000 Employee Theft Per Loss

Contractor must have their policy: (1) cover
forgery and alteration, theft of money and
securities, robbery and safe burglary,
computer fraud, funds transfer fraud, money
order and counterfeit currency, and (2)
endorsed to add “the State of Michigan, its
departments, divisions, agencies, offices,
commissions, officers, employees, and
agents” as Loss Payees.

Professional Liability (Errors and Omissions) Insurance
Minimal Limits:
$5,000,000 Each Occurrence
$5,000,000 Annual Aggregate
Deductible Maximum:
$50,000 Per Loss
Property Insurance
The Contractor is responsible for Property Insurance
covering any loss or damage to State-owned owned
property that results from this agreement including cargo
while in transit, and State-owned office space used by the
Contractor for any reason under this Contract, together with
State-owned equipment, software and other contents of the
office space, including without limitation, those contents
used by the Contractor to provide the Services to the State,
up to its replacement value, where the property is under the
care, custody and control of the Contractor.

14

The State of Michigan, its departments, divisions,
agencies, offices, commissions, officers, employees
and agents must be endorsed on the policy as a
loss payee as its interests appear.

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.447 Filed 11/25/20 Page 15 of 161
000469

CONTRACT #071B7700117

If any of the required policies provide claim-made coverage, the Contractor must: (a) provide coverage
with a retroactive date before the effective date of the contract or the beginning of Services; (b) maintain
coverage and provide evidence of coverage for at least three (3) years after completion of the Services;
and (c) if coverage is canceled or not renewed, and not replaced with another claims-made policy form
with a retroactive date prior to the contract effective date, Contractor must purchase extended reporting
coverage for a minimum of three (3) years after completion of work.
Contractor must: (a) provide insurance certificates to the Contract Administrator, containing the
agreement or purchase order number, at Contract formation and within 20 calendar days of the
expiration date of the applicable policies; (b) require that subcontractors maintain the required
insurances contained in this Section; (c) notify the Contract Administrator within 5 business days if any
insurance is cancelled; and (d) waive all rights against the State for damages covered by insurance.
Failure to maintain the required insurance does not limit this waiver.
This Section is not intended to and is not be construed in any manner as waiving, restricting or limiting
the liability of either party for any obligations under this Contract (including any provisions hereof
requiring Contractor to indemnify, defend and hold harmless the State).
13.

Reserved

14.

Extended Purchasing Program. This Contract is extended to MiDEAL members. MiDEAL members
include local units of government, school districts, universities, community colleges, and nonprofit
hospitals. A current list of MiDEAL members is available at www.michigan.gov/mideal. Upon written
agreement between the State and Contractor, this Contract may also be extended to: (a) State of
Michigan employees and (b) other states (including governmental subdivisions and authorized entities).
If extended, Contractor must supply all Services, EMS Software and Deliverables at the established
Contract prices and terms. The State reserves the right to negotiate additional discounts based on any
increased volume generated by such extensions.
Contractor must submit invoices to, and receive payment from, extended purchasing program members
on a direct and individual basis. ALL CONTRACTUAL OBLIGATIONS UNDER THIS CONTRACT IN
CONNECTION WITH A PURCHASE ORDER PLACED BY A MIDEAL MEMBER ARE THE SOLE
OBLIGATION OF THE MIDEAL MEMBER PLACING THE ORDER AND NOT THE RESPONSIBILITY
OF THE STATE

15.

Independent Contractor. Contractor is an independent contractor and assumes all rights, obligations
and liabilities set forth in this Contract. Contractor, its employees, and agents will not be considered
employees of the State. No partnership or joint venture relationship is created by virtue of this Contract.
Contractor, and not the State, is responsible for the payment of wages, benefits and taxes of
Contractor’s employees and any subcontractors. Prior performance does not modify Contractor’s
status as an independent contractor.

16.

Assignment. Contractor may not assign this Contract to any other party without the prior written
approval of the State. Upon notice to Contractor, the State, in its sole discretion, may assign in whole
or in part, its rights or responsibilities under this Contract to any other party.

17.

Change of Control. Contractor will notify the State, within 90 calendar days of the effective date, of a
change in Contractor’s organizational structure or ownership. For purposes of this Contract, a change
in control means any of the following: (a) a sale of more than 50% of Contractor’s stock resulting in a
circumstance described by (e); (b) a sale of substantially all of Contractor’s assets; (c) a change in a
majority of Contractor’s board members; (d) consummation of a merger or consolidation of Contractor
with any other entity; (e) a change in more than 50% ownership through a transaction or series of
transactions; (f) or the board (or the stockholders) approves a plan of complete liquidation. A change

15

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.448 Filed 11/25/20 Page 16 of 161
000470

CONTRACT #071B7700117

of control does not include any consolidation or merger effected exclusively to change the domicile of
Contractor, or any transaction or series of transactions principally for bona fide equity financing
purposes.
In the event of a change of control, Contractor must require the successor to assume this Contract and
all of its obligations under this Contract.
18.

Liquidated Damages.
Statement of Work.

Liquidated damages, if applicable, will be assessed as described in the

19.

Stop Work Order. The State may suspend any or all activities under the Contract at any time. The
State will provide Contractor a written stop work order detailing the suspension. Contractor must
comply with the stop work order upon receipt. Within 90 calendar days, or any longer period agreed to
by Contractor, the State will either: (a) issue a notice authorizing Contractor to resume work, or (b)
terminate the Contract. The State will not pay for Services or Deliverables, Contractor’s lost profits, or
any additional compensation during a stop work period. The State or Authorized User, as applicable
will pay for any Services or Deliverables that have been ordered, prior to the issuance of the Stop Work
Order.

20.

Termination for Cause. The State may terminate this Contract for cause, in whole or in part, if
Contractor, as determined by the State: (a) endangers the value, integrity, or security of any State or
Authorized User location, data, or personnel; (b) becomes insolvent, petitions for bankruptcy court
proceedings, or has an involuntary bankruptcy proceeding filed against it by any creditor; (c) engages
in any conduct that may expose the State or an Authorized User to liability; (d) breaches any of its
material duties or obligations under this Contractor, including but not limited to obtaining and
maintaining, throughout the Term of the Contract, Federal and/or State voting system certification; or
(e) fails to cure a breach within the time stated in a notice of breach provided Contractor shall be
afforded no less than thirty (30) days to cure any such breach under this Contract unless otherwise
mutually agreed upon by the parties. Any reference to specific breaches being material breaches within
this Contract will not be construed to mean that other breaches are not material.
If the State terminates this Contract under this Section, the State will issue a termination notice
specifying whether Contractor must: (a) cease performance immediately, or (b) continue to perform for
a specified period. If it is later determined that Contractor was not in breach of the Contract, the
termination will be deemed to have been a termination for convenience, effective as of the same date,
and the rights and obligations of the parties will be limited to those provided in Section 21.
The State will only pay for amounts due to Contractor for Services and Deliverables accepted by the
State on or before the date of termination, subject to the State’s right to set off any amounts owed by
the Contractor for the State’s reasonable costs in terminating this Contract. Contractor must promptly
reimburse to the State any Fees prepaid by the State prorated to the date of such termination, including
any prepaid Fees for support and maintenance services. Further, Contractor must pay all reasonable
costs incurred by the State in terminating this Contract for cause, including administrative costs,
attorneys’ fees, and court costs. For purposes of clarity, Contractor will not be responsible for any
transition costs or costs of obtaining substitute Services or Deliverables.

21.

Termination for Convenience. Upon thirty (30) days prior written notice, the State may terminate this
Contract in whole or in part without penalty and for any reason, including but not limited to, appropriation
or budget shortfalls. The termination notice will specify whether Contractor must: (a) cease
performance of the Services immediately, or (b) continue to perform the Services in accordance with
Section 22. If the State terminates this Contract for convenience, the State will pay all reasonable
costs, as determined by the State, for State approved Transition Responsibilities. The State or
Authorized User, as applicable will pay for any Services or Deliverables that have been Accepted, prior
to the effective date of the termination.

16

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.449 Filed 11/25/20 Page 17 of 161
000471

CONTRACT #071B7700117

22.

Transition Responsibilities. Upon termination or expiration of this Contract for any reason,
Contractor must, for a period of time specified by the State (not to exceed 90 calendar days)(the
“Transition Period”), provide all reasonable transition assistance requested by the State, to allow for
the expired or terminated portion of the Services and Deliverables to continue without interruption or
adverse effect, and to facilitate the orderly transfer of such Services and Deliverables to the State or its
designees. Such transition assistance may include, but is not limited to: (a) continuing to perform the
Services at the established Contract rates; (b) taking all reasonable and necessary measures to
transition performance of the work, including all applicable Services and Deliverables, training, reports
and other documentation, to the State or the State’s designee; (c) taking all necessary and appropriate
steps, or such other action as the State may direct, to preserve, maintain, protect, or return to the State
all materials, data, property, and confidential information provided directly or indirectly to Contractor by
any entity, agent, vendor, or employee of the State; (d) transferring title in and delivering to the State,
at the State’s discretion, all completed or partially completed Deliverables prepared under this Contract
as of the Contract termination date; and (e) preparing an accurate accounting from which the State and
Contractor may reconcile all outstanding accounts (collectively, “Transition Responsibilities”). This
Contract will automatically be extended through the end of the transition period.

23.

General Indemnification. Contractor must defend, indemnify and hold the State, its departments,
divisions, agencies, offices, commissions, officers, and employees harmless, without limitation, from
and against any and all actions, claims, losses, liabilities, damages, costs, attorney fees, and expenses
(including those required to establish the right to indemnification), arising out of or relating to third party
claims arising out of: (a) any breach by Contractor (or any of Contractor’s employees, agents,
subcontractors, or by anyone else for whose acts any of them may be liable) of any of the promises,
agreements, representations, warranties, or insurance requirements contained in this Contract; (b) any
infringement, misappropriation, or other violation of any Intellectual Property Right or other right of any
third party, excluding any Third-Party Products; and (c) any bodily injury, death, or damage to real or
tangible personal property occurring wholly or in part due to the negligence or misconduct of Contractor
(or any of Contractor’s employees, agents, subcontractors, or by anyone else for whose acts any of
them may be liable).
The State will notify Contractor in writing if indemnification is sought; however, failure to do so will not
relieve Contractor, except to the extent that Contractor is materially prejudiced. Contractor must, to the
satisfaction of the State, demonstrate its financial ability to carry out these obligations.
The State is entitled to: (i) regular updates on proceeding status; (ii) participate in the defense of the
proceeding; and (iii) employ its own counsel. Contractor will not, without the State’s written consent
(not to be unreasonably withheld), settle, compromise, or consent to the entry of any judgment in or
otherwise seek to terminate any claim, action, or proceeding. To the extent that any State employee,
official, or law may be involved or challenged, the State may, at its own expense, control the defense
of that portion of the claim; provided that, in such event, Contractor will be relieved of its obligations
under this Section with respect to that particular claim.
Any litigation activity on behalf of the State, or any of its subdivisions under this Section, must be
coordinated with the Department of Attorney General. An attorney designated to represent the State
may not do so until approved by the Michigan Attorney General and appointed as a Special Assistant
Attorney General.

24.

Infringement Remedies; Exclusions. Excluding any Third-Party Products, if, in either party’s
opinion, any of the Services, EMS Software or Deliverables supplied by Contractor or its
subcontractors, or its operation, use or reproduction, is likely to become the subject of a copyright,
patent, trademark, or trade secret infringement claim, Contractor must, at its expense do one of the
following at State’s option: (a) procure for the State the right to continue using the Services or
Deliverables, or if this option is not reasonably available to Contractor, (b) replace or modify the same
so that it becomes non-infringing, or if this option is not reasonably available to Contractor, (c) accept
its return by the State with appropriate credits to the State against Contractor’s charges and reimburse

17

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.450 Filed 11/25/20 Page 18 of 161
000472

CONTRACT #071B7700117

the State for any losses or costs incurred as a consequence of the State ceasing its use and returning
it. Contractor will not defend or indemnify the State if any claim of infringement or misappropriation (a)
is asserted by an affiliate of the State; (b) results from the State’s design or alteration of any Services,
EMS Software or Deliverables; (c) results from use of any Deliverable or EMS Software in combination
with any non-Contractor product, except to the extent, if any, that such use in combination is restricted
to the EMS Software system designed by Contractor or Contractor has directed such use; (d) relates
to Third-Party Products; or (e) arises from State-specified customization work undertaken by Contractor
or its designees that are made in response to State specifications. THIS SECTION 24 AND THE
STATE’S INDEMNIFICATION RIGHTS UNDER SECTION 23 STATES THE ENTIRE LIABILITY OF
CONTRACTOR AND STATE’S SOLE AND EXCLUSIVE REMEDIES FOR INFRINGEMENT AND
INTELLECTUAL PROPERTY MISAPPROPRIATION; PROVIDED THAT, THE STATE MAY ALSO
TERMINATE THIS CONTRACT FOR CAUSE.
25.

Limitation of Liability. NEITHER PARTY WILL BE LIABLE, REGARDLESS OF THE FORM OF
ACTION, WHETHER IN CONTRACT, TORT, NEGLIGENCE, STRICT LIABILITY OR BY STATUTE
OR OTHERWISE, FOR ANY CLAIM RELATED TO OR ARISING UNDER THIS CONTRACT FOR
CONSEQUENTIAL, INCIDENTAL, INDIRECT, OR SPECIAL DAMAGES, INCLUDING WITHOUT
LIMITATION LOST PROFITS AND LOST BUSINESS OPPORTUNITIES. IN ADDITION, IN NO
EVENT WILL THE STATE’S OR THE CONTRACTOR’S AGGREGATE LIABILITY TO THE OTHER
OR TO ANY AUTHORIZED USER UNDER THIS CONTRACT EXCEED THE MAXIMUM AMOUNT
OF FEES SPECIFIED IN THE STATEMENT OF WORK WITH RESPECT TO THE STATE OR THE
MAXIMUM AMOUNT OF FEES SPECIFIED IN THE APPLICABLE PURCHASE ORDER FOR SUCH
AUTHORIZED USER.

26.

Disclosure of Litigation, or Other Proceeding. Contractor must notify the State within 14 calendar
days of receiving notice of any litigation, investigation, arbitration, or other proceeding (collectively,
“Proceeding”) involving Contractor, a subcontractor, or an officer or director of Contractor or
subcontractor, that arises during the term of the Contract and that could reasonably be expected to
affect Contractor’s ability to comply with this Agreement, including: (a) a criminal Proceeding; (b) a
parole or probation Proceeding; (c) a Proceeding under the Sarbanes-Oxley Act; (d) a civil Proceeding
involving: (1) a claim that might reasonably be expected to adversely affect Contractor’s viability or
financial stability; or (2) a governmental or public entity’s claim or written allegation of fraud; or (e) a
Proceeding involving any license that Contractor is required to possess in order to perform under this
Contract.

27.

State Data. The State’s data (“State Data”), which will be treated by Contractor as Confidential
Information, includes all of the State’s or Authorized User’s data collected, used, processed, stored, or
generated as the result of the Services. Contractor is provided a limited license to State Data for the
sole and exclusive purpose of providing the Services, including a license to collect, process, store,
generate, and display State Data only to the extent necessary in the provision of the Services.
Contractor must: (a) keep and maintain State Data in strict confidence, using such degree of care as is
appropriate and consistent with its obligations as further described in this Contract and applicable law
to avoid unauthorized access, use, disclosure, or loss; (b) use and disclose State Data solely and
exclusively for the purpose of providing the Services, such use and disclosure being in accordance with
this Contract, any applicable Statement of Work, and applicable law; and (c) not use, sell, rent, transfer,
distribute, or otherwise disclose or make available State Data for Contractor’s own purposes or for the
benefit of anyone other than the State without the State’s prior written consent. This Section survives
the termination of this Contract.

28.

Non-Disclosure of Confidential Information. The parties acknowledge that each party may be
exposed to or acquire communication or data of the other party that is confidential, privileged
communication not intended to be disclosed to third parties. The provisions of this Section survive the
termination of this Contract.

18

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.451 Filed 11/25/20 Page 19 of 161
000473

CONTRACT #071B7700117

a. Meaning of Confidential Information. For the purposes of this Contract, the term “Confidential
Information” means all information and documentation of a party that: (a) has been marked
“confidential” or with words of similar meaning, at the time of disclosure by such party; (b) if
disclosed orally or not marked “confidential” or with words of similar meaning, was
subsequently summarized in writing by the disclosing party and marked “confidential” or with
words of similar meaning; and, (c) should reasonably be recognized as confidential information
of the disclosing party. The term “Confidential Information” does not include any information
or documentation that was or is: (a) subject to disclosure under the Michigan Freedom of
Information Act (FOIA) by the receiving party; (b) already in the possession of the receiving
party without an obligation of confidentiality; (c) developed independently by the receiving
party, as demonstrated by the receiving party, without violating the disclosing party’s
proprietary rights; (d) obtained from a source other than the disclosing party without an
obligation of confidentiality; or, (e) publicly available when received, or thereafter became
publicly available (other than through any unauthorized disclosure by, through, or on behalf of,
the receiving party). For purposes of this Contract, in all cases and for all matters, State Data
is deemed to be Confidential Information.
b. Obligation of Confidentiality. The parties agree to hold all Confidential Information in strict
confidence and not to copy, reproduce, sell, transfer, or otherwise dispose of, give or disclose
such Confidential Information to third parties other than employees, agents, or subcontractors
of a party who have a need to know in connection with this Contract or to use such Confidential
Information for any purposes whatsoever other than the performance of this Contract. The
parties agree to advise and require their respective employees, agents, and subcontractors of
their obligations to keep all Confidential Information confidential. Disclosure to a subcontractor
is permissible where: (a) use of a subcontractor is authorized under this Contract; (b) the
disclosure is necessary or otherwise naturally occurs in connection with work that is within the
subcontractor's responsibilities; and (c) the receiving party obligates the subcontractor in a
written contract to maintain the disclosing party’s Confidential Information in confidence. At a
party’s request, any employee or any subcontractor may be required to execute a separate
agreement to be bound by the provisions of this Section.
c.

Cooperation to Prevent Disclosure of Confidential Information. Each party must use its best
efforts to assist the other party in identifying and preventing any unauthorized use or disclosure
of any Confidential Information. Without limiting the foregoing, each party must advise the
other party immediately in the event either party learns or has reason to believe that any person
who has had access to Confidential Information has violated or intends to violate the terms of
this Contract and each party will cooperate with the other party in seeking injunctive or other
equitable relief against any such person.

d. Remedies for Breach of Obligation of Confidentiality. Each party acknowledges that breach of
its obligation of confidentiality may give rise to irreparable injury to the other party, which
damage may be inadequately compensable in the form of monetary damages. Accordingly, a
party may seek and obtain injunctive relief against the breach or threatened breach of the
foregoing undertakings, in addition to any other legal remedies which may be available, to
include, the immediate termination without penalty to the terminating party, of this Contract or
any Statement of Work corresponding to the breach or threatened breach.
e. Surrender of Confidential Information upon Termination. Upon termination of this Contract or
a Statement of Work, in whole or in part, each party must, within 5 calendar days from the date
of termination, return to the other party any and all Confidential Information received from the
other party, or created or received by a party on behalf of the other party, which are in such
party’s possession, custody, or control. Should Contractor or the State determine that the
return of any Confidential Information is not feasible, such party must destroy the Confidential
Information and must certify the same in writing within 5 calendar days from the date of
termination to the other party.

19

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.452 Filed 11/25/20 Page 20 of 161
000474

CONTRACT #071B7700117

29.

Data Privacy and Information Security. Without limiting Contractor’s obligation of confidentiality as
further described, Contractor is responsible for establishing and maintaining a data privacy and
information security program, including physical, technical, administrative, and organizational
safeguards, that is designed to: (a) ensure the security and confidentiality of State Data; (b) protect
against any anticipated threats or hazards to the security or integrity of State Data; (c) protect against
unauthorized disclosure, access to, or use of State Data; (d) ensure the proper disposal of State Data;
and (e) ensure that all employees, agents, and subcontractors of Contractor, if any, comply with all of
the foregoing.

30.

Records Maintenance, Inspection, Examination, and Audit. The State or its designee may audit
Contractor to verify compliance with this Contract. Contractor must retain, and provide to the State or
its designee and the auditor general upon request, all financial and accounting records related to the
Contract through the term of the Contract and for 4 years after the latter of termination, expiration, or
final payment under this Contract or any extension (“Audit Period”). If an audit, litigation, or other
action involving the records is initiated before the end of the Audit Period, Contractor must retain the
records until all issues are resolved.
Within 10 calendar days of providing notice, the State and its authorized representatives or designees
have the right to enter and inspect Contractor's premises or any other places where Services are being
performed, and examine, copy, and audit all records related to this Contract. Contractor must
cooperate and provide reasonable assistance. If any financial errors are revealed, the amount in error
must be reflected as a credit or debit on subsequent invoices until the amount is paid or refunded. Any
remaining balance at the end of the Contract must be paid or refunded within 45 calendar days.
This Section applies to Contractor, any parent, affiliate, or subsidiary organization of Contractor, and
any subcontractor that performs Services in connection with this Contract.

31.

Warranties and Representations.
a.

Authority. Contractor represents and warrants to the State that:
i. It is duly organized, validly existing, and in good standing as a corporation or
other entity as represented under this Contract under the laws and regulations of
its jurisdiction of incorporation, organization, or chartering;
ii. It has the full right, power, and authority to enter into this Contract, to grant the
rights and licenses granted under this Contract, and to perform its contractual
obligations;
iii. The execution of this Contract by its Representative has been duly authorized by
all necessary organizational action; and
iv. When executed and delivered by Contractor, this Contract will constitute the
legal, valid, and binding obligation of Contractor, enforceable against Contractor
in accordance with its terms.

b. Pass through Warranties. Contractor further represents and warrants to the State that:
i.

it shall pass through all manufacturer supplied end-user warranties to the
Authorized User or the State, as applicable, and that with respect to all of the
Deliverables provided hereunder, it has obtained from manufacturers of such
Deliverables provided hereunder and will assign or pass through to each
Authorized User the following representations and rights from said
manufacturers: that said manufacturers agree to defend, indemnify and hold

20

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.453 Filed 11/25/20 Page 21 of 161
000475

CONTRACT #071B7700117

harmless Contractor and the end user customer at manufacturer's expense
from and against any claim, charge, demand, proceeding, suit, liability, loss,
cost, expense, order, decree, attorneys fees, court costs, trial or appeal and
judgments including damages of any kind resulting from, arising out of or in
connection with any actual or claimed: (a) personal injury (including death),
property damage or loss of any nature whatsoever alleged to have occurred as
a result of the use of any of the Deliverable, (b) any defect in material,
workmanship or design and (c) patent, trademark or copyright infringement
with respect to any of the Deliverables. Notwithstanding the foregoing, the
State and Authorized Users acknowledge that all Third Party Products which
have been purchased by the Contractor for the State or Authorized Users
hereunder are owned by parties other than Contractor. The State and
Authorized Users further acknowledge that except for the payment to
Contractor for the Third Party Products, all of its rights, warranties and
obligations with respect thereto flow from and to the Third Parties. Contractor
is only obligated to pass through the foregoing rights, warranties and
obligations as may be provided by the Third Party.
c.

EMS Software and Deliverable Representations and Warranties.
represents and warrants to the State that:
i.

Contractor further

except for any Third Party Products used in conjunction with the EMS Software
or any Deliverable (including System Software) provided hereunder, it is the
legal and beneficial owner of the entire right, title and interest in and to the
EMS Software and Deliverables (including any System Software), including, all
Intellectual Property Rights relating thereto necessary to perform hereunder;

ii. it has, and throughout the license term, will retain the unconditional and
irrevocable right, power and authority to grant and perform the license hereunder;
iii. the EMS Software and Deliverables (including any System Software), and the
State's use thereof, is and throughout the license term will be free and clear of all
encumbrances, liens and security interests of any kind;
iv. when used by the State or any Authorized User in accordance with this Contract,
the EMS Software or Deliverable (including any System Software) as delivered or
installed by Contractor does not or will not infringe, misappropriate or otherwise
violate any Intellectual Property Right or other right of any third party;
v. Contractor uses industry standard software and tools designed to ensure that the
EMS Software or any System Software does not or will not at any time during the
license term contain any Harmful Code;
vi. when delivered, the EMS Software and System Software shall be at the current
State certified release level unless otherwise requested by the State or
Authorized Users; and
vii. all Documentation is and will be complete and accurate in all material respects
when provided to the State such that at no time during the license term will the
EMS Software or any Deliverables (including any System Software) have any
material undocumented feature.
d. Performance Warranty.

21

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.454 Filed 11/25/20 Page 22 of 161
000476

CONTRACT #071B7700117

i.

Contractor warrants that during the Term of the Contract: (A) the EMS
Software and the Deliverables (including System Software, but, excluding any
Third-Party Products) will function in conformity with this Contract, the
specifications set forth in the Statement of Work, and the Documentation; and
(B) all Deliverables (but excluding any Third-Party Products) will be free of
damage or defect in design, material and workmanship, and will remain so
under ordinary use as contemplated by this Contract, the specifications set
forth in the Statement of Work, and the Documentation. Contractor will, at the
State’s discretion, replace or repair any Contractor hardware that does not
comply with this warranty, at no additional charge to State. The foregoing
warranty shall not include the repair or replacement of any Deliverable
components that are consumed in the normal course of operating the
Deliverables, including printer ribbons, printer cartridges, paper rolls, backup
batteries, removable media storage devices or marking devices. These
warranties are effective provided that (I) the State or Authorized User promptly
notifies Contractor of the failure of performance or defect and is otherwise in
compliance with its obligations hereunder, (II) the Deliverable, EMS Software
or System Software to be repaired or replaced has not been repaired,
changed, modified or altered except as authorized or approved by Contractor,
(III) the Deliverable, EMS Software or System Software to be repaired or
replaced is not damaged as a result of accident, theft, vandalism, neglect,
abuse, use which is not in accordance with instructions or specifications
furnished by Contractor or causes beyond the reasonable control of Contractor
or the State or Authorized User, including, but not limited to, acts of God, fire,
riots, acts of war, terrorism or insurrection, labor disputes, power failures,
surges or electrical damage, transportation delays, governmental regulations
and utility or communication interruptions, and (IV) the State or Authorized
User has installed and is using the most recent Update, provided to it by
Contractor. This warranty is void for any units of a Deliverable which: (i) have
not been stored or operated in a temperature range according their
specifications, (ii) have been severely handled so as to cause mechanical
damage to the unit, or (iii) have been operated or handled in a manner
inconsistent with reasonable treatment of an electronic product.

ii.

Contractor further warrants that the EMS Software and the Deliverables
(including System Software) will operate in conjunction with the Third Party
Products during the Term of the Contract, provided that (i) the State or
Authorized User has installed and is using the most recent State certified
update provided to it by Contractor, and (ii) the Third Party Products are
performing in accordance with their own specifications and documentation in all
material respects and are not defective in material or workmanship. In the
event of a breach of this warranty, Contractor will, in accordance with Section
1.6 of the Statement of Work, use commercially reasonable efforts to remedy
or provide a suitable workaround for defects, errors or malfunctions in the EMS
Software or the Deliverables (including System Software) that is causing such
breach to occur. The State and Authorized Users acknowledge that Contractor
has merely purchased the Third Party Products for resale to State or
Authorized User, and that the proprietary and intellectual property rights to the
Third Party Products are owned by parties other than Contractor. Subject to
the Statement of Work, the State and Authorized User further acknowledge
that except for the payment to Contractor for the Third Party Products, all of its
rights and obligations with respect thereto flow from and to the Third Parties.

iii.

If the Contractor breaches any of the warranties set forth in this Subsection d
Contractor will, upon written notice from the State, remedy such breach in

22

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.455 Filed 11/25/20 Page 23 of 161
000477

CONTRACT #071B7700117

accordance with its service and maintenance obligations set forth in Section
1.6 of the Statement of Work, including the time periods set forth in such
section. In the event Contractor fails to remedy such breach on a timely basis,
the State will be entitled to such remedies as are specified in the Statement of
Work or as may otherwise be available under this Contract, at law or in equity
for breach of its service and maintenance obligations. During the Initial Service
Period (as that term is defined under the Statement of Work), Contractor’s
obligations under this section shall be at Contractor’s sole cost and expense.
Upon expiration of the Initial Service Period, the State will pay in accordance
with the fees set forth in the Statement of Work.

e. CONTRACTOR DISCLAIMS ALL OTHER REPRESENTATIONS AND WARRANTIES,
WHETHER WRITTEN, ORAL, EXPRESS, IMPLIED OR STATUTORY, INCLUDING ANY
WARRANTY OF MERCHANTABILITY OR FITNESS FOR A PARTICULAR PURPOSE
AND ANY WARRANTY BASED ON A COURSE OF DEALING, COURSE OF
PERFORMANCE OR USAGE OF TRADE. OTHER THAN THE WARRANTIES SET
FORTH ABOVE REGARDING COMPABITBILITY, CONTRACTOR MAKES NO
REPRESENTATIONS OR WARRANTIES AS TO THIRD PARTY PRODUCTS, IF ANY,
PROVIDED BY CONTRACTOR TO STATE, ALL OF WHICH IS SOLD, LICENSED, OR
SUBLICENSED TO STATE “AS IS,” OTHER THAN AS MAY BE PROVIDED IN ANY
PASS-THROUGH WARRANTY. CONTRACTOR HAS NO RESPONSIBILITY OR
LIABILITY FOR THIRD PARTY PRODUCTS, IF ANY, PROVIDED BY CONTRACTOR’S
DISTRIBUTORS OR OTHER THIRD PARTIES TO STATE. STATE AND AUTHORIZED
USERS ARE SOLELY RESPONSIBLE FOR ASSURING AND MAINTAINING THE
BACKUP OF ALL CUSTOMER DATA.
UNDER NO CIRCUMSTANCES WILL
CONTRACTOR BE LIABLE TO CUSTOMER OR ANY THIRD PARTY FOR THE LOSS
OF OR DAMAGE TO CUSTOMER DATA
32.

Conflicts and Ethics. Contractor will uphold high ethical standards and is prohibited from: (a) holding
or acquiring an interest that would conflict with this Contract; (b) doing anything that creates an
appearance of impropriety with respect to the award or performance of the Contract; (c) attempting to
influence or appearing to influence any State employee by the direct or indirect offer of anything of
value; or (d) paying or agreeing to pay any person, other than employees and consultants working for
Contractor, any consideration contingent upon the award of the Contract. Contractor must immediately
notify the State of any violation or potential violation of these standards. This Section applies to
Contractor, any parent, affiliate, or subsidiary organization of Contractor, and any subcontractor that
performs Services in connection with this Contract.

Nondiscrimination. Under the Elliott-Larsen Civil Rights Act, 1976 PA 453, MCL 37.2101, et seq.,
and the Persons with Disabilities Civil Rights Act, 1976 PA 220, MCL 37.1101, et seq., Contractor and
its subcontractors agree not to discriminate against an employee or applicant for employment with
respect to hire, tenure, terms, conditions, or privileges of employment, or a matter directly or indirectly
related to employment, because of race, color, religion, national origin, age, sex, height, weight, marital
status, or mental or physical disability. Breach of this covenant is a material breach of this Contract.
34. Unfair Labor Practice. Under MCL 423.324, the State may void any Contract with a Contractor or
subcontractor who appears on the Unfair Labor Practice register compiled under MCL 423.322.
33.

35.

Schedules. All Schedules that are referenced herein and attached hereto are hereby incorporated by
reference. The following Schedules are attached hereto and incorporated herein:
Schedule A

Statement of Work

Schedule B

License Agreement

23

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.456 Filed 11/25/20 Page 24 of 161
000478

CONTRACT #071B7700117

Schedule C

Pricing

36.

Governing Law. This Contract is governed, construed, and enforced in accordance with Michigan law,
excluding choice-of-law principles, and all claims relating to or arising out of this Contract are governed
by Michigan law, excluding choice-of-law principles. Any dispute arising from this Contract must be
resolved in Michigan Court of Claims. Contractor consents to venue in Ingham County, and waives
any objections, such as lack of personal jurisdiction or forum non conveniens. Contractor must appoint
agents in Michigan to receive service of process.

37.

Non-Exclusivity. Nothing contained in this Contract is intended nor will be construed as creating any
requirements contract with Contractor. This Contract does not restrict the State or its agencies from
acquiring similar, equal, or like Services or Deliverables from other sources.

38.

Force Majeure. Neither party will be in breach of this Contract because of any failure arising from any
disaster or acts of god that are beyond their control and without their fault or negligence. Each party
will use commercially reasonable efforts to resume performance. Contractor will not be relieved of a
breach or delay caused by its subcontractors. If immediate performance is necessary to ensure public
health and safety, the State may immediately contract with a third party.

39.

Dispute Resolution. The parties will endeavor to resolve any Contract dispute in accordance with this
provision (the “Dispute Resolution Procedure”). The dispute will be referred to the parties' respective
Contract Administrators or Program Managers. Such referral must include a description of the issues
and all supporting documentation. The parties must submit the dispute to a senior executive if unable
to resolve the dispute within 15 business days. The parties will continue performing while a dispute is
being resolved, unless the dispute precludes performance. A dispute involving payment does not
preclude performance.
Litigation to resolve the dispute will not be instituted until after the dispute has been elevated to the
parties’ senior executive and either concludes that resolution is unlikely, or fails to respond within 15
business days. The parties are not prohibited from instituting formal proceedings: (a) to avoid the
expiration of statute of limitations period; (b) to preserve a superior position with respect to creditors;
or (c) where a party makes a determination that a temporary restraining order or other injunctive relief
is the only adequate remedy. This Section does not limit the State’s right to terminate the Contract.

40.

Media Releases. News releases (including promotional literature and commercial advertisements)
pertaining to the Contract or project to which it relates must not be made without prior written State
approval, and then only in accordance with the explicit written instructions of the State.

41.

Severability. If any part of this Contract is held invalid or unenforceable, by any court of competent
jurisdiction, that part will be deemed deleted from this Contract and the severed part will be replaced
by agreed upon language that achieves the same or similar objectives. The remaining Contract will
continue in full force and effect.

42.

Waiver. Failure to enforce any provision of this Contract will not constitute a waiver.

43.

Survival. The provisions of this Contract that impose continuing obligations, including warranties and
representations, termination, transition, insurance coverage, indemnification, limitations of liability, and
confidentiality (and any surviving provisions in the License Agreement), will survive the expiration or
termination of this Contract.

44.

Entire Agreement. This Contract, including its Schedules, constitutes the sole and entire agreement
of the parties to this Contract with respect to the subject matter contained herein, and supersedes all
prior and contemporaneous understandings and agreements, both written and oral, with respect to
such subject matter. In the event of any conflict between the terms of this Contract and those of the

24

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.457 Filed 11/25/20 Page 25 of 161
000479

CONTRACT #071B7700117

Statement of Work or other Schedule, the following order of precedence governs: (a) first, this Contract;
and (b) second, the Statement of Work or other Schedule. NO TERMS ON CONTRACTOR’S
WEBSITE, BROWSE-WRAP, SHRINK-WRAP, CLICK-WRAP, CLICK-THROUGH OR OTHER NONNEGOTIATED TERMS AND CONDITIONS PROVIDED WITH ANY OF THE SERVICES, EMS
SOFTWARE, DELIVERABLES, OR DOCUMENTATION HEREUNDER WILL CONSTITUTE A PART
OR AMENDMENT OF THIS CONTRACT OR IS BINDING ON THE STATE OR ANY AUTHORIZED
USER FOR ANY PURPOSE. ALL SUCH OTHER TERMS AND CONDITIONS HAVE NO FORCE
AND EFFECT AND ARE DEEMED REJECTED BY THE STATE AND THE AUTHORIZED USER,
EVEN IF ACCESS TO OR USE OF SUCH SERVICE, EMS SOFTWARE, DELIVERABLE OR
DOCUMENTATION REQUIRES AFFIRMATIVE ACCEPTANCE OF SUCH TERMS AND
CONDITIONS.

25

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.458 Filed 11/25/20 Page 26 of 161
000480

CONTRACT #071B7700117

STATE OF MICHIGAN
Voting System Hardware, Firmware, Software and Service

SCHEDULE A
STATEMENT OF WORK
CONTRACT ACTIVITIES
This Contract is for voting systems approved for use in Michigan for the Michigan Department of State
(MDOS) and includes hardware and firmware (tabulators and all related components, including those for
use by voters with disabilities); related Election Management System (EMS) software provided to counties
and select local jurisdictions; initial and extended service and maintenance; training and training
documentation for county/local jurisdiction clerks and election staff and replacement
components/consumables.
This is a multiple-vendor contract award with vendor selection coordinated at the county level and will be
a gradual rollout. The rollout is anticipated to begin in conjunction with the August 2017 election, with
the anticipated statewide completion by the August 2018 primary election. These schedules will be
coordinated at the county level. The accessible voting system component will be rolled out in conjunction
with the new voting system. Ownership will be granted directly to the counties and local jurisdictions.
Upon agreement with jurisdictions in a county, ownership may be granted to the county for jurisdictions
within the county.
A detailed list of the voting system components covered by this Contract, along with associated firmware
and EMS software (including version numbers), is included in Exhibit 1 to Schedule A, Federal Voting
System Testing / Certification Matrix.
BACKGROUND
In Scope:
This Contract includes:
•

Purchase of voting system tabulators and all related components (Election Day precincts: one
tabulator per precinct; and Absent Voter Counting Board, based on a formula determined by the
State.) In addition, one tabulator per county.

•

Purchase of accessible voting system components, for use by voters with disabilities (one per
Election Day polling location [with some exceptions]). In addition, one accessible device per
county.

•

Related Election Management System or ‘EMS’ software. Two EMS software options will be
available at the county level:
o

1) Full EMS (“Program Your Own”), for counties that fully program their elections
internally (without reliance on the voting system Contractor/subcontractor for
programming); and

o

2) Accumulation-Only EMS, for counties that rely on the voting system
Contractor/subcontractor for programming; the accumulation-only functionality for these
counties includes the capability to burn media, read media, transmit results and produce
accumulation reports.

•

Initial training and training documentation for county/local jurisdiction clerks and election staff.

•

Voting System component / consumables costs (replacement or additional components not
already covered in initial purchase).

26

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.459 Filed 11/25/20 Page 27 of 161
000481

CONTRACT #071B7700117

•

Initial system/software service and maintenance (acquisition year + four years).

•

Extended service and maintenance (after the expiration of the initial service and maintenance
period, + 5 years). Note: in the absence of a State appropriation, local counties and jurisdictions
will be solely responsible for the cost of extended service and maintenance.

•

Preventative maintenance (every two years).

•

NOTE: The Contractor shall provide the State with one full set of all system components at no
charge (precinct tabulator; AVCB tabulator; accessible voting device; full EMS software
(“Program Your Own” version); all related training and documentation).

Anticipated Key Implementation Timeframes:
Initial acquisition and implementation is expected to progress over the following anticipated planned
phases:
•

Early to Mid 2017: For counties / jurisdictions that plan to implement the new system’s first use in
Michigan’s August 8, 2017 election;

•

Mid-2017: For counties / jurisdictions that plan to implement the new system’s first use in
Michigan’s November 7, 2017 election;

•

Early 2018: For counties / jurisdictions that plan to implement the new system’s first use in
Michigan’s May 8, 2018 election;

•

Mid-2018: For counties / jurisdictions that plan to implement the new system’s first use in
Michigan’s August 7, 2018 primary election.

•

Statewide implementation is expected to be completed by August 2018.

Detailed Specifications
1.

Specifications

Exhibit 2, Attachments 1.1 – 1.4 to Schedule A contain detailed technical specifications and requirements for
Michigan’s next generation voting system.
1.1 Voting System HARDWARE Technical Requirements
Exhibit 2, Attachment 1.1 to Schedule A lists detailed voting system hardware technical specifications and
requirements. This attachment is broken into several categories, including:
A. Ballot Counter / Tabulator Requirements
B. Ballot Requirements
C. Memory Device Requirements
D. Ballot Box Requirements
E. COTS (Commercial Off the Shelf) Options
F. Reliability Requirements
G. Security Requirements
Refer to Exhibit 2, Attachment 1.1 to Schedule A for additional details of these requirements.
1.2 Voting System ELECTION MANAGEMENT SYSTEM (EMS) SOFTWARE Technical Requirements
Exhibit 2, Attachment 1.2 to Schedule A lists detailed voting system Election Management System (EMS)
software technical specifications and requirements. This attachment is broken into several categories, including:
A. Election Management System (EMS) General Requirements
B. EMS Programming Requirements
C. Ballot Programming and Layout Requirements

27

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.460 Filed 11/25/20 Page 28 of 161
000482

CONTRACT #071B7700117

D.
E.
F.
G.

Election Night Reporting (ENR) Capabilities / Requirements
Reports Requirements
Audit Capabilities / Requirements
System / Software Ownership Requirements

Refer to Exhibit 2, Attachment 1.2 to Schedule A for additional details of these requirements.
1.3 Voting System ABSENTEE VOTING (AV) Technical Requirements
Exhibit 2, Attachment 1.3 to Schedule A lists detailed voting system absentee voting (AV) technical
specifications and requirements. This attachment is broken into the following categories:
A. AV Processing General Requirements
B. High Speed AVCB Tabulator Requirements
Refer to Exhibit 2, Attachment 1.3 to Schedule A for additional details of these requirements.
1.4 Voting System ACCESSIBLE VOTING SYSTEM COMPONENT Technical Requirements
Exhibit 2, Attachment 1.4 to Schedule A lists detailed voting system Accessible Voting System Component
technical specifications and requirements. This attachment is broken into several categories, including:
A. Accessible Voting System General Requirements
B. Accessible Voting System – Use of Touch Screen Interface Requirements
C. Accessible Voting System – Use of Paper Ballots (Requirements related to 3 possible scenarios)
D. Reliability Requirements
Refer to Exhibit 2, Attachment 1.4 to Schedule A for additional details of these requirements
1.5 State and Federal Testing / Certification Requirements
A.

Federal Testing and Certification Requirements

Contractor’s system shall have been tested and successfully completed all certification steps required by the U.S.
Election Assistance Commission (EAC) before the system will be approved for implementation in Michigan.
Documentation detailing the system to be implemented in Michigan is included in Exhibit 1 to Schedule A,
Federal Voting System Testing / Certification Matrix.
For systems still in the process of obtaining EAC certification, the Contractor shall provide a copy of the EAC
certification prior to final State certification and prior to a Purchase Order being placed for the system in any county.
If the Contractor’s system is not EAC certified by March 31, 2017, the State reserves the right to terminate this
Contract and remove it from the program.
Contractor authorizes the State of Michigan to independently verify the status of any system’s (or upgrades)
Federal testing and certification status with the identified VSTL and the EAC, and authorize the identified VSTL and
the EAC to provide information to the State of Michigan.
NOTE: Also see Section 1.5 D – Modification Requirements (below), related to compliance requirements with
future Federal standards.

B. State Testing and Certification Requirements
All voting systems approved for use in Michigan must complete the State voting system certification process, as
required by Michigan Election Law. For systems that have not yet completed EAC certification, the State will
coordinate the details and timeframes for completing final State certification and testing.
In sum, this process is designed to ensure that that all voting systems approved for use in Michigan comply with all
applicable requirements of Michigan Election Law, 1954 PA 116, MCL 168.1 et seq., and related Rules for
Electronic Voting Systems, Mich Admin Code R 168.771 et seq.

28

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.461 Filed 11/25/20 Page 29 of 161
000483

CONTRACT #071B7700117

C. State Uniform Data Format
Contractor agrees and will comply with Michigan-specific uniform data format requirements and Federal IEEE
Standards. Exhibit 6 to Schedule A, Michigan QVF Export File Format contains the State’s current uniform data
structure for use with Contractor’s voting system EMS software.
Federal IEEE Standards: Upon finalization of voting system uniform data format standards currently under
development at the Federal level (commonly referred to as IEEE standards), Contractor shall work with the State to
seamlessly convert the State uniform data structure to comply with and implement the IEEE uniform data format at
an agreed-upon time.
D. Modification Requirements
In the event that any modifications become available and/or necessary after delivery due to changes in the
applicable Federal and/or State certification standards and/or laws that occur during the Contract period, the
Contractor and the State will jointly review and agree upon the scope of, and cost for, any modifications required by
such subsequent changes in Federal and/or State certification requirements and/or law. As part of this
determination process, the Contractor shall thoroughly review the impact of such changes and develop a scope of
work and cost analysis for review and approval by the State before proceeding with any applicable modifications.
System changes that are implemented through this process shall be accepted through the change notice process
and included in the Contract as described in Section 4 in the Contract Terms.
The Contractor shall provide written notice to the State Program Manager of any system modifications made on
behalf of jurisdictions outside the State of Michigan. Such notice shall be provided no later than one month after the
modification is made available.
1.6 Service and Maintenance
The Contractor shall maintain a physical presence in Michigan. The Contractor must include a proposed regional
office structure and regional service and maintenance plan. This plan shall include the number and names of
support personnel and geographic location/region assigned to each.
If a subcontractor is to be used for service and maintenance, the subcontractor must be identified, along with any
Key Personnel (see Section 3.3); as well as relevant experience the subcontractor has with relation to the service
and maintenance of the system being proposed.
In order to achieve the best possible level of service for Michigan customers, the Contractor will utilize two
subcontractors. The two subcontracting companies, Grand Rapids-based ElectionSource and Governmental
Business Systems (GBS), have an existing footprint in the State of Michigan, having provided services and support
to a wide range of county customers for many years. The Contractor, together with ElectionSource and GBS, will
work to ensure that the regional office structure, service and maintenance plan meets the needs of Michigan county
customers.
In order to ensure adequate service coverage, ElectionSource proposes to open up an additional office located in
South-East Michigan, which will add at least four new positions including - but not limited to - experienced service
technicians, an elections programmer, and customer services liaisons for counties in the region.
Similarly, Governmental Business Services (GBS) Michigan-based personnel possess extensive experience in
election supply/services in Michigan. Every GBS account manager's office will be equipped with back-up voting
equipment, spare parts and any other ancillary supply items germane to the ImageCast product line. All GBS staff
(based and/or assigned to Michigan) have been thoroughly trained on every aspect of the Democracy Suite system.
A larger inventory of Dominion Voting products will also be maintained at GBS’ corporate office in Lisle, Illinois, a
90-minute drive to the Michigan state line.
The Contract includes initial, ongoing and extended service and maintenance to include all of the following:
A.

Service and Maintenance

The Contract shall cover an initial service and maintenance period on all Deliverables, System Software, and EMS
Software (as those terms are defined under the Contract Terms) that shall be in effect throughout the acquisition

29

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.462 Filed 11/25/20 Page 30 of 161
000484

CONTRACT #071B7700117

year + 4 years (the “Initial Service Period”), and shall be provided be at no additional cost. Extended service and
maintenance on all Deliverables, System Software, and EMS Software shall cover the time period from the
expiration of the Initial Service Period + 5 years (the “Extended Service Period”). Both the Initial Service Period
and the Extended Service Period must cover all Deliverables, System Software and EMS Software, including any
parts and labor. During the contract period, the Contractor shall repair or replace any Deliverable, System Software
and/or EMS Software that becomes inoperable, is defective in material or workmanship, or otherwise fails to
perform substantially in accordance with the Documentation and Contract requirements.
Deliverables and System Software:
During the term of the Contract, Contractor shall provide the following support and maintenance services (including
unlimited telephonic support and all necessary travel and labor) to maintain the Deliverables and associated
System Software in accordance with the Documentation and Contract requirements:
1.

Upgrades to System Software. Make available to the State and any Authorized User no later than the first
day of general release, or such other time as may be mutually agreed upon by the parties, copies of the
System Software and documentation revised to reflect any enhancements (including New Versions and
upgrades) to the System Software. Acceptance of system upgrades will proceed as outlined in Section
1.5D, Modification Requirements.

2.

Known Defects. Contractor shall promptly notify the State and any Authorized User of any defects or
malfunctions in the Deliverable, associated System Software or Documentation of which it learns from any
source, correct any such defects or malfunctions or provide a workaround until corrected within five (5)
Business Days of knowledge of such defect or malfunction and provide the State or Authorized User with
corrections of same, at no additional cost to the State or Authorized User. If the correction of known
defects requires Federal or State certification, acceptance of the correction will proceed as outlined in
Section 1.5D, Modification Requirements.

3.

Coverage. See Section 1.6(C)(1) below.

4.

Service Levels. Respond to problems with the Deliverable identified by the State or an Authorized User in
no more than two (2) hours after notification. Resolve all problems as specified in Section 1.6(C)(2) below.
For purposes of this section, “resolve” means that Contractor has provided all parts, components and
services required to correct the defect and restore such Deliverable so that it functions as warranted, and
the State or Authorized User has confirmed such correction and its acceptance of it in writing; or
Contractor shall replace it, so that it functions as warranted, and the State or Authorized User has
confirmed such replacement and its acceptance of it in writing. Services provided by Contractor to correct
the defect shall be on-site, and Contractor shall be solely responsible for any shipping cost to return any
Deliverable to Contractor.

Contractor and its subcontractors address warranty, repair, and maintenance in a comprehensive and effective
manner as characterized by the following:
•
•
•
•
•
•
•

•

Engineering – Key components are designed with redundancy.
Manufacture Quality – All components are manufactured using ISO 9001 practices.
Design – The solution architecture is redundant (redundant servers, redundant storage, etc.)
Warranty – We provide hardware and software warranty to meet customer specification.
Preventative Maintenance – Contractor and its subcontractors provide preventative maintenance as
required by the Contract and as presented in this section.
Repair – Contractor maintains distributed warehouse of spare parts. Contractor maintains spare systems
in depots as contingency replacements.
Readiness – During the identified pre-election period, Contractor and its subcontractors will comply with
all requirements for enhanced response time to all repair requests. All staff are available as required in the
Contract. These technicians are well trained, experienced, and have spare systems available to them to
ensure required timelines can be met.
Tracking and Reporting – Contractor and its subcontractors utilize its Automated Ticket Tracking (ATT)
system to manage repair and maintenance tickets. This is the same ticket tracking system that is used for
problem escalation.

30

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.463 Filed 11/25/20 Page 31 of 161
000485

CONTRACT #071B7700117

Since voting systems are unique in that they must be available and fully operational on every voting day, the
Contractor and its subcontractors will offer only one level of service to all of its customers. This is the highest
possible level of service. Every problem or issue will be addressed as high priority.
The Contractor and its subcontractors use a CRM database to capture service calls so no issue is overlooked. The
CRM system tracks service request from the initial point of contact to issue resolution. It provides us with a
management control tool as well as a status/historical reporting capability. The CRM system will also be used to
retain/reference repair orders, maintenance checklists and all other documents reflecting any work performed on
any voting system component. Once a call/email is received, a work ticket is created and the initiating party will be
contacted by a member of the service team.
Initial contact will be established no more than two hours after notification. At that time, additional troubleshooting
instructions may be provided to help the service team better respond to the failure or defect. If the defect or failure
cannot be addressed in this manner, the service representative will make the appropriate arrangements for
resolution. The diagram on the previous page summarizes this process.
If a failed component is under warranty, Contractor’s subcontractors will schedule an onsite visit by a technician to
repair / rectify the defective or failed component. Where a failed or defective component is not covered by
warranty, the State or Authorized User may request an on-site visit to assess and repair the failed / defective
component. Normal rates will apply.

31

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.464 Filed 11/25/20 Page 32 of 161
000486

CONTRACT #071B7700117

5.

Remedies. If Contractor is unable to make the Deliverable conform, in all material respects, to the
Contract requirements and Documentation within thirty (30) calendar days following written notification by
the State or an Authorized User, Contractor shall, at the State’s or such Authorized User’s request, return
all monies paid by the State or such Authorized User per the direction of the State Program Manager for
the non-conforming Deliverable and Documentation and such other related Service(s) rendered unusable,
including any prepaid maintenance fees associated with that Deliverable.
Contractor will accept return of the Deliverable and refund to the State a pro rata portion of the purchase
price paid to Contractor for the defective Deliverable, such refund based on a straight line depreciation
over a ten (10) year term beginning on the date of purchase.

EMS Software: During the term of the Contract, Contractor shall provide the following support and maintenance
services (including unlimited telephonic support and all necessary travel and labor) to maintain the EMS Software in
accordance with the Documentation and Contract requirements:
1.

Maintenance Releases and New Versions. Contractor shall provide to the State and Authorized Users, at
no additional charge, and no later than the first day of general release or such other time as may be
mutually agreed upon by the parties, with all Maintenance Releases and New Versions (as those terms
are defined in the Contract Terms) of the EMS Software. Acceptance of maintenance releases and new
versions will proceed as outlined in Section 1.5D, Modification Requirements.

2.

Known Defects. Promptly notify the State and all Authorized Users of any defects or malfunctions in the
EMS Software or Documentation of which it learns from any source other than the State or an Authorized
User and provide to all Authorized Users a correction of any such defects or malfunctions, or a work
around until a correction is available, within five (5) days of Contractor’s knowledge of such defect or
malfunction. If the correction of known defects requires Federal or State certification, acceptance of the
correction will proceed as outlined in Section 1.5D, Modification Requirements.

3.

Coverage. See Section 1.6(C)(1) below.

4.

Service Levels. Respond to problems with the EMS Software identified by the State or an Authorized User
in no more than two (2) hours after notification. Resolve all problems according to the following:
•
•
•

Priority 1 (EMS Software inoperable) within one week.
Priority 2 (certain processing interrupted or malfunctioning but EMS Software able to process) within
two weeks.
Priority 3 (minor intermittent malfunctioning, EMS Software able to process data) within 30 days.

The level of severity (e.g., Priority 1, 2, or 3), shall be defined by the State or Authorized User. For
purposes of this section, “resolve” means that Contractor has corrected the problem that prompted the
support request so that the EMS Software functions as warranted, and that the State or Authorized User
has confirmed such correction and its acceptance of it in writing; or Contractor shall reinstall the EMS
Software, so that it functions as warranted, and the State or Authorized User has confirmed such
reinstallation and its acceptance of it in writing.
Should the EMS Software be found inoperable (following priority 1 standards) and cannot be repaired, a
new installation of the EMS Software will be performed on-site and all testing of the software will be
performed.
When responding to priority 2 issues, the Contract and its subcontractors will ensure that on-site testing is
performed on the computer system and EMS Software to determine the cause of the problem with the
EMS Software. Contractor may provide assistance to perform programming for Authorized User in the
event that they cannot use the software while testing is being performed.
Similarly with priority 3 problems (minor intermittent malfunctioning, EMS Software able to process data),
on-site testing will be performed on the system to determine the cause of the problem with the EMS

32

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.465 Filed 11/25/20 Page 33 of 161
000487

CONTRACT #071B7700117

Software within 30 days. Contractor may also provide assistance to perform programming for Authorized
Users in the event that they cannot use the software while testing is being performed.
Service Requests will be completed for each Priority type. The Service Request will consist of the
following information:
•
•
•
•
•
•
•

5.

Authorized User information
Date the Service Request was submitted
Reason for the Service Request
Technician performing the service/repair
Explanation of diagnosis and service performed
Length of time service/repair was performed
Date Service Request was completed
o Copies of Service Requests will be given to the Authorized User and to the State for record
keeping.

Remedies. If Contractor is unable to make the EMS Software conform, in all material respects, to the
Contract requirements and Documentation within thirty (30) calendar days following written notification by
the State or an Authorized User, Contractor shall, at the State’s or such Authorized User’s request, cancel
the license to such EMS Software, accept return of such EMS Software and Documentation, if applicable,
rendered unusable, and return all monies paid by the State or such Authorized User per the direction of
the State Program Manager for the non-conforming EMS Software and Documentation and such other
related Service(s) rendered unusable, including any prepaid maintenance fees associated with the EMS
Software.
Contractor will accept return of the EMS Software and refund to the State a pro rata portion of the license
fee paid to Contractor for the EMS Software, such refund based on a straight line amortization over a ten
(10) year term beginning on the date of purchase.

B.

Preventative Maintenance (Tabulators/accessible voting system components only)
• Biennial (every two years) preventative maintenance package
• Preventative maintenance must consist of standard steps and checklists for each tabulator/accessible voting system
component

Service and maintenance also includes preventative maintenance (PM) for tabulators / accessible voting system
components throughout the contract term. Preventative maintenance includes both remedial and preventative
maintenance services, including all labor and parts except consumables such as printer cartridges, paper rolls, and backup
batteries that can be accessed/changed by the local jurisdiction. NOTE: batteries associated with the system motherboard
shall be covered by warranty.
Refer to Schedule C-Pricing for pricing on all consumables, as well as information on how and when to obtain replacement
consumables, and consumables that are available commercially off-the-shelf (COTS).
Contractor and its subcontractors shall provide preventative maintenance on a biennial basis (every two years).
Preventative maintenance schedules for individual counties shall be finalized with input and approval by the individual
counties. See Section 1.6C(4) below.
Preventative maintenance must consist of standard steps and checklists for each ImageCast precinct tabulator, ImageCast
X accessible voting system component and ImageCast Central high speed AVCB tabulator. Refer to Exhibit 3 to
Schedule A Preventative Maintenance Checklists. The State has final approval over all preventative maintenance
checklists.
Preventative maintenance for Contractor’s Democracy Suite is designed to minimize all maintenance, and is primarily
focused on the mechanical components.
The State of Michigan requires assurances from the Contractor that the purchased system has high availability, will be well
maintained, and repaired promptly. The Contractor shall provide these assurances as follows:

33

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.466 Filed 11/25/20 Page 34 of 161
000488

CONTRACT #071B7700117

The Contractor’s subcontractors will be responsible for repairing Voting System components and performing preventative
maintenance during the warranty period. Warranty and repair parts shall be new. The Contractor’s subcontractors will track
and retain documentation on maintenance and repair activities. The Contractor will coordinate all repair and maintenance
actions with the State or Authorized User. The jurisdictions will be given written documentation to confirm completion of
work performed and status of the Voting System.
The Contractor provides standard costs for all consumables as well as information on how and when to obtain replacement
consumables, and consumables that are available COTS. Refer to Schedule C – Pricing.
C.

Technical Support Response Requirements
• Help Desk Telephone Support
• Equipment Repair/Replace
• Reporting Requirements
• Support Personnel

NOTE: counties and local jurisdictions may contract and pay separately for Election Day Support, which will
entail dedicated Election Day support resources and specific additional requirements beyond what is listed here.
Counties and local jurisdictions will not be limited in the number of help desk calls.
1.

Help Desk Telephone Support
a. Toll-Free Number: 1-886-654-8683 (VOTE)
Contractors must provide a single toll-free number for Help Desk Support.
This toll-free number must allow callers to speak directly to live support representatives that are equipped to
handle Michigan customer service, technical support, and other needs identified in the Contract.
In addition, the Contractor and its subcontractors will also provide local ongoing technical support. Each
county, depending on the specifics of their contract agreement, will have the option of having an Election Day
support team in their county that they can contact directly.
b.

Timeframe availability: Help Desk support is available during regular business hours (Mon-Fri, 8 am – 5 pm,
Michigan local time) and 6 am – midnight on Election Day. In addition, support personnel have company cell
phones for after-hours support.

c.

Response time for calls: Response to calls is required within two hours of receipt of the call.
Contractor’s process for escalating and ensuring all Election Day support calls are handled and resolved as
expeditiously as possible, is as follows:
The Contractor and its subcontractors will use an automated ticket tracking system. The target resolution time
serves as a trigger point for escalation of the problem. The following table characterizes types, severity, and
response times for problems.

Phase
Election Day
Ballot
Programming1

Initial Response
Immediate

Estimation Response
30 minutes

Subsequent
Responses
30 minutes

Target Resolution
Time
1 Hour

Immediate

1 Hour

Every 2 hours

4 Hours

Period2

Immediate

4 hours

Each Calendar Day

1 Business Day

Non-Election Period

Immediate

Next Business Day

Each Business Day

As Agreed

Pre-Election

1. The period beginning with the release of final geopolitical data for a given election, and ending with the
creation of the approved ballot images and election files.
2. The period beginning 60 days prior to a scheduled election and ending on certification of official results
reports.
d.

For local jurisdictions contracting for Election Day support, an after-hours “emergency” toll-free number must
be available for on-call service and support.

34

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.467 Filed 11/25/20 Page 35 of 161
000489

CONTRACT #071B7700117

Contractor’s toll-free number for support is 1-886-654-8683 (VOTE). The Contractor shall provide Election
Day support from 6:00 am until all counties report in, with live call center to dispatch technician, if needed.

2.

Equipment Repair/Replace
a. Contractor must maintain a reasonable supply of certified manufacturer replacement parts and components
at distributed warehouses necessary to repair malfunctioning equipment and return it to service as soon as
possible. Contractor’s subcontractor, ElectionSource, for example, maintains spare systems in its Grand
Rapids office and in depots as contingency replacements. Technicians must be equipped with all commonly
required spare parts.
b. Equipment repair shall occur on-site, unless there is a demonstrable need to ship the equipment off-site for
service, repair, or replacement. (See paragraph e. below.)
c. Equipment shall be repaired or replaced within ten business days. On Election Day, equipment shall be
repaired or replaced as soon as possible that day. Contractor shall have a process for escalating and
ensuring all Election Day equipment problems are handled and repaired/replaced as expeditiously as
possible. Prior to Election Day, repaired/replaced equipment shall be available to allow for adequate time for
pre-election testing and successful use on Election Day.
d. In the event of inoperability on Election Day, the Contractor and its subcontractors will have technicians
strategically placed throughout the state in order to be no more than one hour away from trouble calls on
Election Day. Technicians will have parts and loaner equipment available at no cost to the local jurisdictions.
e. If a demonstrable need exists to ship equipment for service, repair, or replacement, the Contractor shall pay
the full cost of shipping and all related expenses, including packing materials.

3.

Reporting Requirements
a. Contractor shall promptly provide the counties and local jurisdictions with written information on any
tabulator/accessible voting system hardware, firmware and/or EMS software problems that are encountered
wherever the equipment is in use (inside or outside of Michigan), along with written instructions explaining the
solution to those problems. Copies of these communications shall also be provided to the State’s Contract
Administrator and Program Manager at the time of issuance to the counties and local jurisdictions. The
State’s Contract Administrator and Program Manager shall also receive prompt written notice whenever a
problem exists that may affect multiple jurisdictions.
b. Contractor shall provide written reports on a monthly basis (or on a regular timeframe mutually agreed upon
between the State and the Contractor) that summarize all service and maintenance work completed during
the reporting period; all service and maintenance work scheduled for the upcoming reporting period; and any
unresolved problems or other issues that may affect multiple jurisdictions. These reports shall be submitted
via email to the State’s Program Manager.
c. Contractor shall promptly notify the State’s Contract Administrator and Program Manager in writing of any
material errors or defects in the tabulator/accessible voting system hardware, firmware, software and/or EMS
software deliverables known, or made known to Contractor from any source (inside or outside of Michigan)
during the Contract term that could cause the production of incomplete, inaccurate, or otherwise materially
incorrect, results. Contractor shall immediately initiate actions as may be commercially necessary or proper
to effect corrections of any such errors or defects.

4. Support Personnel
The Contractor shall provide well-trained and knowledgeable election service technicians for all activities that are the
Contractor’s responsibility. The Contractor must maintain election service technicians in various areas of the state to
meet the counties’ and local jurisdictions’ service and maintenance needs and to conform with response time
requirements. Counties and local jurisdictions have the right of approval for any support personnel provided at the
county/local level.
The Contractor and its subcontractors will provide qualified technicians and a range of necessary parts on-site to
enable immediate repairs to commonly identified problems. Technicians are factory trained and can handle most
repairs on-site. However, the sophisticated nature of the ImageCast system may require that some systems are
repaired in Contractor’s depot facility. In this event, a spare will be provided if needed to meet an election deadline.
Technicians will have cell phones and company vehicles.
For preventative maintenance visits and when service and maintenance needs require an in-person visit by an
election service technician, Contractor staff must work with counties and local jurisdictions to establish mutually
agreeable timeframes and locations for repairs and preventative maintenance services. The Contractor must
develop a proposed preventative maintenance schedule for review and approval by the counties and local

35

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.468 Filed 11/25/20 Page 36 of 161
000490

CONTRACT #071B7700117

jurisdictions; counties/local jurisdictions are not responsible for developing this schedule. It will be up to the counties
and/or local jurisdiction to select on-site vs. centralized locations for preventative maintenance.
While on-site, election service technicians must establish contact with the designated jurisdiction representative upon
arrival and before leaving. Contractor staff must provide jurisdiction staff with a copy of the completed Preventative
Maintenance Checklist, a written status report upon completion of support/maintenance work, indicating the work that
was completed, any outstanding issues and the plan for resolving those issues.
All service technicians shall:
a. Be well trained, professional, knowledgeable and experienced in the maintenance and repair of tabulators,
accessible voting components, firmware and EMS software; and capable of replacing malfunctioning equipment in
county/local jurisdiction offices, storage facilities and/or the polling place.
b. Have reliable dedicated transportation of sufficient size to accommodate the transport of voting equipment as
needed.
c. Maintain a reasonable supply of certified manufacturer replacement parts and components necessary to repair
malfunctioning equipment and return it to service.
d. Have cellular telephones or other means of real-time communication, and must provide this information to the
designated jurisdiction representatives.
1.7 Product Recall Requirements and Procedures
Any issues with the voting system will always be immediately addressed by working directly with the Bureau of Elections
and the State. In the case of a recall, Contractor’s response plan starts with defining a plan that is acceptable to all parties,
performing the recall, and repeating acceptance testing.
Contractor’s procedures related to product recall, covering how and when it is determined that a product recall is needed,
how information on product recalls is communicated to customers and how product recalls are tested, scheduled, deployed
and completed are described as follows:.
Firstly, to communicate and formulate a product recall plan:
1. Notify Contractor’s communications assigned contact with the State by telephone without delay to discuss the
recall situation, and begin to create the recall plan which would cover scheduling, retesting, and redeployment
2. Provide the State with a Product Advisory Notice document so the information is in writing
3. Notify the counties by telephone and then in writing
4. Notify remaining jurisdictions by telephone and then in writing
5. Finalize recall plan
Finally, execute the agreed recall plan with the State, which could follow the following suggested steps:
1. Provide release notes and test results to the State
2. Repeat certification testing
3. If the recall is on physical units:
a. Return units that are being recalled to the repair facility
b. Update the units at repair facility
c. Return units to customer sites
d. Perform acceptance testing
4. If the recall is on software:
a. Distribute the software to customer sites
b. Reinstall the software
c. Perform acceptance testing
1.8 Quality Assurance Program
Contractor must have Quality Assurance programs in place for the voting system, accessible voting system components
and related EMS software products, covering ongoing programs that test, validate and upgrade hardware, firmware,
software and other key components.
Contractor uses multi-level quality assurance and quality control processes to ensure that all elements of its integrated
voting system perform properly with every use. Contractor uses a top tier contract manufacturer, based in the United
States, and recognized as a leader in the industry for manufacturing. Internal acceptance testing is performed on each
voting system on receipt from the manufacturer. By the time its products are purchased by the State or Authorized End
User, they have gone through three full rounds of acceptance testing. Independent reviews of election databases are

36

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.469 Filed 11/25/20 Page 37 of 161
000491

CONTRACT #071B7700117

conducted prior to Logic & Accuracy testing. Contractor recommends (and supports their customers to conduct) precinctlevel pre-election testing.
In addition to this rigorous testing and control program designed to catch errors, Contractor regularly conducts process
audits of our acceptance testing, and programming processes to ensure that errors never occur.

Testing Phase Summary
EAC Certification
State Requirements Testing
State Certification Testing
Acceptance
Testing
End-to-End test
Pre-LAT
Pre-election Test
Development and Federal Verification
State Verification
Election Preparation
Contractor tests its equipment to the highest standards in the industry. Contractor’s test plan is multi-layered, and designed
to complement County tests. Key attributes of the test plan are as follows:
1. EAC Certification – Contractor’s products are certified as EAC compliant. This is the highest certification standard
in the industry and is your assurance that all products have undergone the highest level of testing.
2. State Requirements Testing – Contractor’s Engineers work to configure the EAC certified platform to meet
Michigan’s specific certification requirements.
3. State Certification Testing – Contractor’s team works with the State board to demonstrate compliance of the
system with state requirements.
4. Acceptance Testing – Each component of the system is tested for functionality on site at the customer warehouse.
Contractor’s subcontractor will provide training and documentation to county officials to assist them in undertaking
this task.
5. End-to-End test – Contractor and its subcontractors will work with the county to conduct end-to-end testing.
Contractor recommends that this test is completed following EMS training on a project reflecting Election Day
requirements. In this test, an election project is created, and a representative sample of tabulators is programmed.
Test ballots with known results are prepared and cast. Results are uploaded into the election management system
and reports generated. The results are then compared to the expected outcomes to verify the system is performing
properly. This test is performed on site at the customer warehouse.
6. Pre-Election Logic & Accuracy Testing – In advance of all elections Dominion Voting recommends that Logic &
Accuracy Testing of each voting system is tested with final Election Day ballots. This complete end-to-end test
provides certainty that the system will perform as planned on Election Day. This test is performed on site at the
customer warehouse.
7. Pre-election test – Contractor advocates the use of a pre-election system readiness test. Prior to the beginning of
voting, following the distribution of election systems to the precincts, customers have the option to run a small,
mock-election. This test familiarizes poll staff in election night procedures, and provides additional assurance that
all elements of the system are functioning properly after transport.
8. Automated Test Deck Creation – The creation of automated, comprehensive test decks is an optional service
provided by Contractor to assist customers in conducting Logic & Accuracy testing. Using the Election Day
database a series of pre-marked ballots are generated based on a computer algorithm designed to provide the
highest assurance of system accuracy. When scanned these decks create known outcomes that can be compared
with tabulated results. The elimination of error due to mistakes in hand-marking provides a higher degree of
confidence in test results.

37

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.470 Filed 11/25/20 Page 38 of 161
000492

CONTRACT #071B7700117

Available system upgrades shall be communicated and offered through the life of this Contract as described in Section 1.5
D (State Certification Process, Modification Requirements).
1.9 Incentives
Contractor offers a trade-in allowance incentive program for legacy tabulators and ballot marking devices, whereby the
Contractor would take possession and ownership of existing voting systems, to assist counties and local jurisdictions in
disposing of voting systems currently in place in the State of Michigan. Refer to Schedule C, Pricing for trade-in discount
program available under this Contract.
2. Service Levels
2.1 Time Frames – Order Placement and Processing
Refer to the Background and Purpose section (under KeyTimeframes), for detail on the planned multiple purchasing
phases.
After Contract execution, a vendor selection process will occur at the County level. Counties, in consultation with their local
jurisdictions, will select a single system for the county. MCL 168.771a. Counties will also work with their local jurisdictions
to determine a local funding plan (if necessary) and select a purchase phase for each jurisdiction.
Given the State’s proposed implementation approach and timeframes, Contractor has provided details on the planned
timeframes for delivery, testing and training for each purchase phase.
The State of Michigan requires a comprehensive implementation that is based on well-established principles of project
management. The structure of the plan includes key milestones, which allow Michigan to see tangible progress.
Procurement and Delivery
Initiation of the procurement and delivery phase begins immediately on receipt of a signed purchase order from the State
(POs will be issued for each county.
Contractor maintains a moderate inventory of all components, consumables, and parts that are available for immediate
delivery. Through a network of suppliers, Contractor is able to procure supplies and consumables within 15-30 days to
replenish inventory. When hardware orders are received, production is increased accordingly.
During the procurement phase of the project, all of the commercial off the shelf components used in Contractor’s election
system are purchased.
Hardware Manufacturing – Tabulators provided to counties in Michigan will be newly manufactured by Flextronics in their
Plano, Texas manufacturing facility. Approximately ninety (90) days is required to procure all necessary components and
complete manufacturing of the first tabulator, with the final system ready for delivery to the client approximately 14 days
later. At this time purchase orders for ancillary equipment (i.e., buttons, additional compact flash cards, etc.) and any
election consumables are generated.
Responsibility – County
Documentation
Finalize user documentation – All Dominion products are supplied with comprehensive technical documentation used by
local election officials in the process of certifying and accepting voting systems. In addition, user documentation, forms and
quick reference guides will be provided to reflect the specific needs of Michigan users.
Responsibility – County
Acceptance Testing of Election Equipment
County officials must formally accept all tabulators. To ensure complete functionality at the time of delivery, Dominion
Voting follows a rigorous acceptance testing process.
County Acceptance – Counties are responsible for system acceptance testing. However, Dominion subcontractors will
provide support to individual counties for acceptance testing. Acceptance testing involves:
Tabulator Acceptance Testing:
1.
Physical inspection of tabulator
2.
Functional testing using provided test materials, including the State-provided Acceptance Checklist
EMS Acceptance Testing:
1.
Utilization of the EMS system to restore or create a simple election project

38

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.471 Filed 11/25/20 Page 39 of 161
000493

CONTRACT #071B7700117

2.
3.
4.
5.

Creation of sample election files and ballots for the tabulator
Record sample ballot audio
Directly load sample results from tabulator memory cards
Create Election Results Reports

County representatives will verify that the acceptance test has been successful, and complete a Receipt/Acceptance form
to be submitted to the State.
Acceptance testing is an essential part of the quality assurance process. Dominion’s goal is that all election equipment
arrives at the client warehouse in perfect condition, however it is normal to see a small number of tabulators that fail initial
acceptance. Where the equipment in question can easily be repaired, the on-site Dominion subcontractor hardware
technician will address these deficiencies immediately. When this is not possible, the equipment in question will be
returned to our central depot and replaced.
Responsibility – County, Subcontractor
System Training
EMS Training – Dominion and its subcontractors will provide on-site training to County officials in the use of the election
management system.
Responsibility – Dominion, Subcontractor
Tabulator and Accessible Voting System Training – Dominion and its subcontractors will provide on-site training to
County officials in the use of the tabulator(s) and the accessible voting devices.
Responsibility – Dominion, Subcontractor
Refer to Section 9.9 Project Plan for further details. Also refer to Section 2.2 (Delivery), Section 2.6 (Training) and
Section 5 (Ordering) for additional details.
2.2 Delivery
Contractor shall develop a county-by-county implementation plan for delivering and conducting acceptance testing in each
county/jurisdiction prior to each purchasing phase. Delivery plans, timeframes and locations must be mutually agreed upon
between the Contractor and the County.
Voting systems, accessible voting system components, related EMS software and all related components
must be delivered and acceptance testing completed no later than 90 calendar days prior to the system’s
first use. Acceptance testing will consist of accuracy tests as prescribed under the Electronic Voting System
Promulgated Rules, Mich Admin Code R 168.771 et seq. and State standard test deck processes, for both
primary and general elections.
2.3 RESERVED
2.4 RESERVED
2.5 RESERVED
2.6 Training
Training Plan Overview
The State of Michigan requires a robust state-of-the-art training approach to fully internalize the new voting system solution
into the voting operations of the state. All levels of staff - from poll workers to highly technical IT personnel - need to not
only understand the new technology, but also how it integrates with the procedures and practices of Michigan elections.
Contractor and its subcontractors also understand that some election jurisdictions may have additional or special needs.
For instance, a large County with a full time IT department will have different training requirements than a small County
where there may not be a full time Elections Director. Given the unique circumstances of each Michigan county customer,
Dominion and its subcontractors will work closely with each jurisdiction to ensure that the training program is customized to
meet the County’s specific needs.
Training is the primary tool for organizational change integration. The voting system solution will require election workers to
learn a new suite of hardware, software, and procedures. Our suite of training materials (documents, presentation, guides,

39

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.472 Filed 11/25/20 Page 40 of 161
000494

CONTRACT #071B7700117

reference cards, web resources, and self-paced learning) all contribute to integrating the new solution into the day-to-day
routine of the organization.
A.

Training Documentation - within 30 calendar days after Contract execution, the Contractor shall provide 10 copies
of user manuals and step-by-step procedures for using the voting system and all components, accessible voting
system components and EMS software to the State Program Manager or designee. Contractor and its
subcontractors prepare all needed training material, which includes training manuals, training videos, quick
reference guides, website instructional courses, and technical reference manuals when necessary. This material
shall be provided both in paper and electronic (e.g., pdf) form. Delivery of equipment and software to the
Counties and local jurisdictions must include at least one complete set of training documentation (both electronic
(e.g. pdf) and paper form) for each County and local jurisdiction. Contractor and its subcontractors understand
that training must support the local county election process. Contractor works in conjunction with county election
staff to define training for each county so it will fit into the county's normal election process.

B.

Electronic Training Modules – Within 30 calendar days after Contract execution, the Contractor shall provide an
electronic training course (e.g., video, web-based, etc.) that can be viewed, downloaded, and published online by
the State, county and local election officials, covering end-to-end operation of the system; step-by-step
procedures covering equipment set up, processing and close-down procedures; and other relevant information
related to the use of the voting system and its components, and accessible voting system components. The
electronic training module must be no longer than 30 minutes in length and be suitable for use as part of a training
program for election inspectors (Election Day precinct workers). The electronic training modules must be provided
in a format that allows the State to utilize the content (in whole or in part) in State-specific online training courses.
The Contractor offers flexibility to deliver training in multiple formats that gives the State or Authorized End User a
choice of many different delivery methods for training. One aspect of the customization is utilizing different formats
when creating training, including instructor-led classes in person, instructor-led classes online, and self-paced
online eLearning.
Often, election preparation schedules prevent the delivery of training at the optimal time for retention on Election
Day. This can be particularly apparent in small counties, where a very limited team is responsible for all election
related activities. In these situations the use of in person, instructor-led hands-on training, complemented with
self-paced online eLearning courses not only allows the benefit of practical hands-on equipment experience to
users (and their supervisors) but also provides the opportunity to refresh knowledge immediately prior to the
election. Similarly, the Contractor has made extensive use of video training for locations where eLearning was not
felt to be practical.
Self-Paced e-learning –Contractor offers a complete library of self-paced e-learning courses which includes both
hardware and software training. These courses are designed to deliver training in a unique format while still
keeping the student engaged and active.
Contractor’s online training courses provide step-by-step explanations of the needed information. Contractor uses
eLearning tools such as Captivate and Articulate to create interactive and engaging training. At the end of a
course, a student is required to pass an assessment in order to receive a certificate of completion.

40

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.473 Filed 11/25/20 Page 41 of 161
000495

CONTRACT #071B7700117

C.

In-Person Training – Contractor’s plan for training State staff and local election officials (including but not limited to
county and local clerks) on the operation and use of the new voting system, accessible voting system components
and EMS software, includes, but will not be limited to the following:
a. Use of the EMS to set up an election and design and layout ballots
b. Programming of tabulators and related component(s)
c. Programming of accessible voting system component(s)
d. Programming and use of tabulators and related component(s) used in AVCBs
e. Preparation of tabulators and accessible voting system components, including setup and pre-election testing
f. Election day operations from the opening to the closing of the polls
g. Processing of voters and absentee ballots
h. Processing write-in votes
i. Adjudicating ballots that may require manual review
j. Troubleshooting – identifying and resolving basic problems (issues that do not require a service call)
k. Security, including safeguards to prevent and detect tampering
l. Tabulation of results
m. Electronic transmission of election results
n. Printing standard reports
o. Customizing reports
p. Checks and balances – methods for ensuring the accuracy of precinct results
q. Full understanding of audit procedures

41

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.474 Filed 11/25/20 Page 42 of 161
000496

CONTRACT #071B7700117

r.
s.
t.
u.

Any special requirements related to conducting a recount using the tabulator
Records preservation
How and when to place service calls
Any other pertinent processing steps as recommended by the Contractor

Through each stage of the implementation process, Contractor and its subcontractors’ support staff assigned to
the implementation project will provide hands-on training to election staff for the operation of the election
management system.
State Staff and Local Election Officials Training
Contractor and its subcontractors will provide in-depth and hands-on training to elections staff personnel in all
functional areas of the voting system(s) implementation. Dominion and its subcontractors will work with the State
and local elections staff to determine which key staff members need specialized training. It is recommended that
all department personnel receive training on how to operate the Democracy Suite system so that they will
understand the implementation and can answer questions from the general public.
With regards to specific functional areas, it is recommended to limit the training to those departmental personnel
with responsibilities specific to those functional areas. Cross training can be performed at a later date.
Poll Worker Training
Contractor and its subcontractors recommend that each jurisdiction divide the poll worker training program into
classes with as few poll workers as is feasible given the available trainers, training facilities, and the limited time
on the election calendar. Past implementations have proven that it is very important for all poll workers to have a
chance to operate the machines “hands-on” in class, or at least participate in a small group and review. This
allows poll workers to operate equipment while others observe and ask questions.
Contractor and its subcontractors will assist each jurisdiction in integrating the new voting system training into its
current poll worker-training program’s content and format, as well as in the development of training materials, and
providing “train the trainers” courses.
Such a change in voting systems requires a change in polling place forms and procedures and as such, Dominion
and its subcontractors will provide sample forms from previous implementations and will assist in redesigning
forms and procedures accordingly.
The goal is to assist in training poll workers to comfortably, confidently operate voting machines and readily
provide voters with simple instructions and assistance in voting on them.
Curriculum
Contractor’s standard course offerings include the full range of the Democracy Suite classes. Training agendas
and curriculum particular to the resources, staff and needs of each jurisdiction will be developed as part of the
implementation meetings.
Precinct Tabulator and Accessible Voting Systems Training
This course provides an introduction to the Contractor’s ImageCast Precinct tabulator and the ImageCast X used
for accessible voting. Topics include:
•
•
•
•
•
•
•
•
•
•
•

Setup of the equipment
Security, including safeguards to prevent and detect tampering
Opening polls
Processing ballots
Processing write-in votes
Accessible voting
Closing polls
Electronic transmission of election results
Acceptance testing
Troubleshooting - identifying and resolving basic problems (issues that do not require a service call)
Performing Logic & Accuracy testing

Absentee Voter Counting Board Systems Training

42

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.475 Filed 11/25/20 Page 43 of 161
000497

CONTRACT #071B7700117

This course provides an introduction to the ImageCast Central. Topics include:
•
•
•
•
•
•
•
•
•
•

Setup of the equipment
Security, including safeguards to prevent and detect tampering
Opening polls
Processing ballots
Adjudicating ballots that may require manual review
Processing write-in votes
Closing polls
Acceptance testing
Troubleshooting - identifying and resolving basic problems (issues that do not require a service call)
Performing L&A

Democracy Suite EMS Training:
This course introduces election programming concepts in EMS. Topics include:
•
System security
•
Creating and editing geo-political data (if applicable)
•
Creating and editing offices and contests (if applicable)
•
Adding choices (if applicable)
•
Creating and editing ballot layout (if applicable)
•
Programming tabulators (if applicable)
•
Creating Audio Files for accessible voting (if applicable)
•
Records preservation
•
Creating Memory Cards
•
Tabulating Results
•
Election Night Reporting (Results Tally & Reporting, including customizing and printing reports)
•
Checks and balances – methods for ensuring the accuracy of precinct results
•
Full understanding of audit procedures
•
Any special requirements related to conducting a recount using the tabulator
D.

Refer to Contractor’s course descriptions in the training plan below for details related to the conduct of in-person
training, including the length of the training session; proposed structure for the sessions (e.g., multiple day
training; separate courses covering specific topics, such as EMS-only training; number of contractor staff hours
per session; recommended number of participants per session; and use of alternative training formats, such as
train-the-trainer).
Contractor’s standard course offerings include the full range of the Democracy Suite classes. As noted above,
training agendas and curriculum particular to the resources, staff and needs of each jurisdiction will be developed
as part of the implementation meetings.
The following is the Contractor’s class listings with the recommended target audience, number of hours or days
for the training, and the recommended number of participants per session. Train-the-trainer courses are
recommended for larger counties, and include additional topics such as training techniques and presentation
skills.
Precinct Tabulator and Accessible Voting Systems Training

Training Class

Target Audience

Number of
Days/ Hours

Max Number
of Students

Precinct Tabulator and
Accessible Voting Systems
Training

Election Administrators, Clerks, Poll
Workers’ Trainers, Poll workers,
Election Day Technicians

3 Days / 24
hours

25 students
with two
trainers

Train the Trainer
(recommended for larger
counties)

Poll Workers’ Trainers, Clerks,
Election Administrators

3 Days / 24
hours

15 students
with two
trainers

43

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.476 Filed 11/25/20 Page 44 of 161
000498

CONTRACT #071B7700117

Poll Worker Training
(optional)

Poll Workers, Election
Administrators

1 Day / two 4hour sessions

25 students
with one
trainer

Absentee Voter Counting Board Systems Training

Training Class

Target Audience

Number of
Days/ Hours

Max Number
of Students

Absentee Voter Counting
Board Systems Training

Election Administrators, Clerks

1 Day / 8 hours

8 students
with one
trainer

Democracy Suite Election Management System

E.

Training Class

Target Audience

Number of
Days/ Hours

Max Number
of Students

Democracy Suite EMS
Training – including Election
Event Designer and Results
Tally & Reporting

Election Administrators, Clerks

5 Days / 40 hours

8 students
with one
trainer

Results Tally & Reporting
training (optional)

Election Administrators, Clerks

1 Day / 8 hours

8 students
with one
trainer

Results Transfer Manager
training (optional)

Election Administrators, Clerks

1 Day / 8 hours

10 students
with one
trainer

ImageCast Communications
Manager training (optional)

Election Administrators, Clerks

3 Days / 24 hours

8 students
with one
trainer

Counties shall have final approval of their individual Contractor-conducted training plans, including the number of
sessions, locations and participants per session.
Contractor and its subcontractors’ staff will work closely with the counties to determine the best location(s) to
accommodate all attendees. Training can be held at a County office location, local school, and/or town hall. The
location of training will be determined by a series of factors such as the number of attendees, proper resources
available to conduct the training effectively, and the County’s personal preference.
In addition to onsite County training, Contractor and its subcontractors will offer training in its Grand Rapids and
planned South-East Michigan office locations. These centers provide a classroom setting where qualified
instructors reinforce classroom training with hands-on lab exercises conducted on operating equipment and
software.

F.

The Contractor shall assist county and local election officials (if requested) in conducting comprehensive training
for election inspectors (Election Day precinct workers) prior to the primary and general elections in the first year of
use.

44

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.477 Filed 11/25/20 Page 45 of 161
000499

CONTRACT #071B7700117

As each jurisdiction’s implementation may comprise the full 2017 or 2018 election cycles, Contractor and its
subcontractors’ support staff will continue to be dedicated to the counties and jurisdictions in the provision of
training and hands-on application for each election through 2017 or 2018 as applicable. Election personnel will be
provided repetitive practice and experience in practical application over election cycles, building confidence in the
system and their abilities.
2.7 RESERVED
2.8 Meetings, Project Updates and Reports
The Contractor’s State Project Manager and other identified Key Personnel must attend the following meetings:
•
Initial contract kick-off meeting within 10 business days of Contract execution.
•
Weekly update meetings after the initial kick-off meeting through the completion of the first planned
implementation phase. Decisions on whether these updates take place via phone vs. in person meetings shall be
at the discretion of the State.
•
Monthly update meetings after the completion of the first implementation phase, through the life of the contract.
Decisions on whether these updates take place via phone vs. in person meetings shall be at the discretion of the
State.
•
Written weekly updates, after the initial kick-off meeting through the completion of the first planned implementation
phase. Written weekly updates will summarize work completed during the reporting period; planned work for the
upcoming reporting period; issues affecting the timely and/or successful completion of planned milestones, along
with the effect on planned timelines and resolution plan for each issue.
•
Written monthly updates, after the completion of the first implementation phase, through the life of the contract.
Written monthly updates will summarize work completed during the reporting period; planned work for the
upcoming reporting period; issues affecting the timely and/or successful completion of planned milestones, along
with the effect on planned timelines and resolution plan for each issue.
•
Written updates after each Election Day, which identify and categorize service calls, equipment failures and
resolution for all issues identified 14 calendar days prior to each election (up to and including Election Day), for
each election in which the Contractor’s voting system is used. These updates must be provided within 14
calendar days after each election.
•
Annual reports prior to billing - during the extended service/maintenance period, a listing of all counties and
jurisdictions and associated annual charges shall be provided to the State Program Manager at least 30 calendar
days prior to the annual billing cycle.
The State may require other meetings and reports as it deems appropriate.
3. Staffing
3.1 Contractor Representatives
The Contractor shall appoint a State Project Manager, specifically assigned to State of Michigan accounts, that will
respond to State inquiries regarding the Contract Activities, answering questions related to ordering and delivery, ongoing
service and maintenance, warranties, Election Day support, and other key requirements covered by the Contract (the
“Contractor Representative”). The State Project Manager shall maintain a presence in the State of Michigan.
State Project Manager
Gio Costantiello
State Project and Contract Manager
Phone: (416) 762-8683 x241, Mobile: (416) 580-0084
Email: gio.costantiello@dominionvoting.com
The Contractor shall also appoint a designated State Customer Service Manager, who will maintain a presence in the
State of Michigan and shall work with and support counties and local jurisdictions on an ongoing basis through the life of
the Contract.
State Customer Service Manager
Nicole Nollette
Executive Vice President, Operations
Phone: 866-654-8683 x9223
Mobile: 702-786-7131
Email: nicole.nollette@dominionvoting.com
The Contractor shall provide written notice to the Contract Administrator at least 30 calendar days before removing or
assigning a new Contractor Representative.
3.2 Customer Service Toll-Free Number

45

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.478 Filed 11/25/20 Page 46 of 161
000500

CONTRACT #071B7700117

In addition to the requirements listed in Section 1.6 (Service and Maintenance), the Contractor shall provide a Customer
Service toll-free number for the State, counties and local jurisdictions to make contact with the Customer Service Support
personnel. See other support requirements lists in Section 1.6.
In addition to the requirements listed in Section 1.6 (Service and Maintenance), the Contractor must specify its Technical
Support toll-free number for the State, counties and local jurisdictions to make contact with the Contractor for technical
support, repairs and maintenance. The Contractor must be available for calls and service during the hours of 8 am to 5
pm local time. These availability hours must be expanded during key Election Day support timeframes as identified in
Section 1.6.
NOTE: A single toll-free number will be used for both overall Customer Service, Help Desk Support and Technical
Support.
Customer Service, Help Desk Support and Technical Support
Toll-Free Number: 1-886-654-8683 (VOTE)
3.3 Disclosure of Subcontractors
The Contractor intends to utilize the following subcontractors to fulfill the requirements of this Contract. The Contractor
must provide prior written notice of all of the following:
The legal business name; address; telephone number; a description of subcontractor’s organization and the services it will
provide; names and titles of all subcontractor staff that will be assigned to the Michigan contract, along with each
individual’s role and responsibilities; and information concerning subcontractor’s ability to provide the Contract Activities.
The relationship of the subcontractor to the Contractor.
Whether the Contractor has a previous working experience with the subcontractor. If yes, provide the details of that
previous relationship.
A complete description of the Contract Activities that will be performed or provided by the subcontractor.
A complete description of the subcontractor’s prior experience that illustrates the subcontractor’s relevant qualifications for
completing the planned work they will be assigned under this Contract.
Any planned change to subcontractor staff must be communicated to the State Contract Administrator and Program
manager at least 30 calendar days prior to the planned change. The State has the right of approval for any subcontractors
provided.
Of the total Contract value, the price of the subcontractor’s work.
ElectionSource
Legal Business Name
Address and telephone number

Organization description

Working experience with Contractor

Contract activities’ description

A complete description of the
subcontractor’s prior experience that
illustrates the subcontractor’s relevant
qualifications for completing the planned
work they will be assigned under this
Contract.

Miller Consultations & Elections, Inc. DBA -ElectionSource
4615 Danvers Dr. SE
Grand Rapids, MI 49512
phone: 616.464.2283, 888.742.8037
fax: 616.464.0926
www.electionsource.com
ElectionSource is a leader in the election industry, providing turnkey
election services, support and products. Our experienced staff has
over 100 years of combined experience working on elections with
governments, unions, homeowners associations and fraternal
organizations all across the nation.
ElectionSource and Contractor have been providing the best in
innovation, integration, and accessibility, while providing simplicity of
use and the transparency to meet customer’s election needs for over
16 years.
Preventative maintenance, EMS support services, poll worker training,
staff training, project management reporting, product installation, and
acceptance testing. EMS and tabulator support.
ElectionSource currently employs 15 full time people and another 5 part
time people that have a combined total of over 150 years’ experience in
elections. During peak election times, ElectionSource employs up to 30
people in the State of Michigan. Many of these employees will provide
service and support to this Contract. Several people will play a key role
in each jurisdiction. Refer below to the ElectionSouce staff members
assigned to the Michigan contract, their roles, and responsibilities.

46

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.479 Filed 11/25/20 Page 47 of 161
000501

CONTRACT #071B7700117

Names and titles of all subcontractor staff
that will be assigned to this Contract,
along with each individual contract, along
with each individual’s role and
responsibilities.

Jeff DeLongchamp – President
Oversee all staff to ensure deadlines and tasks are met. Provide
additional support for software, testing, product implementation, project
management, and delivery.
Steve DeLongchamp – Vice President
Provide additional support to Project Managers. Assist with planning
and the resolution of issues that can arise during project
implementation. Act as an internal, oversight mechanism monitoring
project implementation.
Andrea Richardson – Elections Administrator
Provide additional support to Project Managers. Assist with planning
and the resolution of any issues that may arise during project
implementation.
John Keefer – Technical Services/Testing Manager
Provide scheduling and performing state-wide biannual maintenance.
Assist with product installation, acceptance testing, and act as
resolution mechanism for issues that arise with hardware.
Amy Burns – Executive Assistant & Sales Support
Provide assistance to the President of ElectionSource with projects,
commissions, reports, clients and scheduling. Provide sales and
scheduling support.
Gerrid Uzarski – Regional Sales Manager
Will help maintain current points of contact and establish new points of
contact. Work closely with Commissioners, Election Directors, County
Clerks, Local Clerks, and other personnel responsible for carrying out
elections. Assist in testing equipment.
Additional Testing, Implementation, Training and Programming support:
Mike Kelava – IT Manager
Assist with training, programming, software installation, server set up,
programming, software support and training, and ordering of PC
equipment
Logan McGregor – Technician
Provide testing and implementation support
Matt Bosker – Elections Specialist
Provide training support, software support, and programming

Relationship of subcontractor to
Contractor
Complete descriptions of the Contract
Activities that will be perform or provided
by the subcontractor.

Sales representative/distributor for Contractor.
Project Management and Product Implementation:
The Lead Project Team Manager is a key part of ElectionSource’s
organizational structure. The Lead Project Team Manager will work
with Dominion to coordinate the shipping of equipment and software for
each jurisdiction. The Lead Project Manager will then turn over
coordination of setup and training of voting equipment to the County
assigned Project Managers who will then oversee this process.
Our County Project Managers will work with each county to develop
and implement a plan that best suits the needs of all the municipalities
within the county. ElectionSource will then provide progress reports to
each of the counties on a regular basis. Our County Project Managers
will work with all our team leaders and support technicians to provide

47

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.480 Filed 11/25/20 Page 48 of 161
000502

CONTRACT #071B7700117

the necessary training and support needed by each county. Their goal
is to provide a level of training that will allow the municipalities to be
self-sufficient needing only minimal support from our technicians.
Other activities provided by subcontractor, but not limited to, are:
•
Equipment Training
•
EMS/Software Training
•
On-site Election Day Support
•
Programming/Coding Support
•
Consultations
•
Computer Equipment Set-Up/Installation
•
Maintenance
•
Acceptance Testing
•
Election Data Delivery
•
Equipment Installation
Governmental Business Systems
Legal Business name
Address and telephone number

Organization description
Working experience with Dominion
Contract activities’ description
A complete description of the
subcontractor’s prior experience that
illustrates the subcontractor’s relevant
qualifications for completing the planned
work they will be assigned under this
proposal.

Names and titles of all subcontractor staff
that will be assigned to the Michigan
contract, along with each individual’s role
and responsibilities

Governmental Business Systems
4995 Varsity Dr., Unit C
Lisle, IL 60532
Phone: 888.640.8683
Fax: 630.241.4295
Website: www.gbsvote.com
Supplier of election related supplies, voting hardware and software.
Market and support DVS election related products.
Provide local Level 1 hardware support & preventative maintenance,
EMS support, poll worker training, Logic & Accuracy support.
Currently support 35 counties in Michigan using AccuVote optical scan.
GBS provides a multitude of election services to the vast majority of
these accounts including programming/coding support, ballot printing,
precinct kits, election supplies, equipment maintenance, pollworker
training and related support services. GBS’ account managers
possess an aggregate of over 50 years of hands-on election
experience working with election officials from every entity who assume
a role & responsibility in this process.
Tim Allshouse - Account Manager
Account Manager responsible for customer account management,
sales, and support of the Democracy Suite voting system in Southern
Michigan
Kurt Knowles - Account Manager
Account Manager responsible for customer account management,
sales, and support of the Democracy Suite voting system in Northern
Lower Michigan
Dave Carmody - Account Manager
Account Manager responsible for customer account management,
sales, and support of the Democracy Suite voting system in the Upper
Peninsula of Michigan
Larry Calvert - Director of Election Services
Direct staff and provide customer support, consulting and election
programming / coding
Tiffany Tuominen - Manager of Customer Service
Will assist with election programming, pre-press file preparation,
customer/technical support, and ensuring timely delivery of election
products/services to meet federal requirements.

48

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.481 Filed 11/25/20 Page 49 of 161
000503

CONTRACT #071B7700117

Relationship of subcontractor to
Contractor
A complete description of the Contract
Activities that will be performed or
provided by the subcontractor

Dealer for DVS products and services.
Activities provided by subcontractor, but not limited to, are:
•
Equipment Training
•
EMS/Software Training
•
On-site Election Day Support
•
Programming/Coding Support
•
Consultations
•
Computer Equipment Set-Up/Installation
•
Maintenance
•
Acceptance Testing
•
Election Data Delivery
•
Equipment Installation

3.4 Security
The Contractor will be subject to the following security procedures:
On a case-by-case basis, the State may investigate the Contractor’s personnel before they may have access to State
facilities, data and systems. The scope of the background check is at the discretion of the State and the results shall be
used to determine Contractor personnel eligibility for working within State facilities and systems. The investigations shall
include Michigan State Police Background checks (ICHAT) and may include the National Crime Information Center (NCIC)
fingerprints. Proposed Contractor personnel may be required to complete and submit an RI-8 Fingerprint Card for the NCIC
Fingerprint Check. Any request for background checks shall be initiated by the State and shall be reasonably related to the
type of work requested.
All Contractor personnel shall also be expected to comply with the State’s security and acceptable use policies for State IT
equipment and resources. Furthermore, Contractor personnel shall be expected to agree to the State’s security and
acceptable use policies before the Contractor personnel shall be accepted as a resource to perform the work for the State.
It is expected the Contractor shall present these documents to the prospective employee before the Contractor presents
the individual to the State as a proposed resource. Contractor staff shall be expected to comply with all physical security
procedures in place within the facilities where they are working.
The Contractor’s staff may be required to make deliveries to or enter State, county and local jurisdiction facilities. The
Contractor must: (a) ensure the security of State, county and local jurisdiction facilities, (b) use uniforms and ID badges,
etc., (c) perform background checks as requested by the State and/or Authorized User through services such as
Checkmate, www.intantcheckmate.com , and (d) determine the scope of the background checks, which will include
detailed information such as arrest records, phone numbers, contact information, previous arrests, criminal convictions,
traffic citations, and sex offender status, in accordance with applicable laws.
The Contractor will provide the following additional security measures to ensure the security of State, county and local
jurisdiction facilities.
Prior to making deliveries the local jurisdiction and or county facilities will be contacted by phone. Through consultation, a
time and date along with who will be making the deliveries will be established. At that time, what we will be delivering, how
we will be making the delivery and how we will be transporting the delivery product will be finalized, setting a clear picture
of who and what to expect.
Contractor and its subcontractors will implement all necessary securities to ensure the protection of the complete election
system and processes involved. At the beginning of the project planning, along with the State, County and local
jurisdictions, the Contractor and its subcontractors will contract, if necessary, with an accredited securities firm to conduct a
site survey and assessment of the security and safety of the buildings and all election related facilities to determine the
necessary measures to be taken. In addition to physical security and access, personnel background checks will be
conducted as needed.
4. Pricing
4.1 Price Term
Refer to the Pricing Matrix included in Schedule C for all pricing. Prices listed in Schedule C are fixed for the contract
term, and represent the maximum prices per item. Notwithstanding the foregoing, the Contractor is authorized to negotiate
pricing with individual counties that are lower than the prices listed in Schedule C. Any and all lower negotiated prices
must be communicated to the Program Manager immediately as they are finalized.

49

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.482 Filed 11/25/20 Page 50 of 161
000504

CONTRACT #071B7700117

4.2 Price Changes
Aside from negotiations as outlined in Section 4.1 Price Term, price changes may only be considered after the expiration of
the initial service/maintenance period (acquisition year + 4 years); and only for component replacement/additional parts
(applicable to Cost Table 4 only – see Schedule C.) Adjustments will be based on changes in actual Contractor costs.
Any request must be supported by written evidence documenting the change in costs. The State may consider sources,
such as the Consumer Price Index; Producer Price Index; other pricing indices as needed; economic and industry data;
manufacturer or supplier letters noting the increase in pricing; and any other data the State deems relevant.
Following the presentation of supporting documentation, both parties will have 30 calendar days to review the information
and prepare a written response. If the review reveals no need for modifications, pricing will remain unchanged unless
mutually agreed to by the parties. If the review reveals that changes are needed, both parties will negotiate such changes,
for no longer than 30 days, unless extended by mutual agreement.
The Contractor remains responsible for Contract Activities at the current price for all orders received before the mutual
execution of a Change Notice indicating the start date of the new Pricing Period.
5. Ordering
5.1 Authorizing Document
The appropriate authorizing document for the Contract will be a written Purchase Order, which will be initiated at the State
level for each county for each planned purchase period. All orders are subject to the State’s standard contract terms.
Initial purchase orders will be placed by State purchasing officials. Counties and local jurisdiction election officials (county,
city and township clerks) will be eligible to purchase additional voting systems and voting system components, over and
above what is included in the State-issued purchase order at the established Contract prices and terms. Refer to Contract
Terms, Section 14 Extended Purchasing Program. Also, Refer to Section 7.1 Acceptance, Inspection and Testing
“Counties will work with the State to finalize the list of jurisdictions that will accept delivery and implement the new voting
system for each planned purchase phase. The State will initiate each county-based Purchase Order (PO) for each
purchase phase based on this plan.”
The State will generate each Purchase Order only after a finalized funding plan has been established for each county and
local jurisdiction in the county; after a Grant Agreement has been executed with the county and each local jurisdiction
which specifies ownership and payment obligations for the county and each local jurisdiction; and the State has received
payment from the county and each local jurisdiction for their individual portions of the county/local funding plan.
As an alternative to counties and local jurisdictions making direct payments to the State for the local funding component,
the Contractor may execute an agreed upon payment plan between the Contractor, county, and local jurisdictions within
the county. Any separate agreements of this type must be transmitted to the State Program Manager prior to issuance of
the Purchase Order.
Upon issuance of each State-issued PO on behalf of the county, the Contractor will work with each county to finalize each
jurisdiction’s delivery plan, including timeframes and locations.
5.2 Order Verification
The Contractor must have internal controls to verify abnormal or excessive orders and to ensure that only authorized
individuals place orders.
5.3 Minimum Order
There is no minimum order requirement.
6. Delivery
6.1 Delivery Programs
Contractor will provide delivery programs tailored to the needs of the State and Authorized End Users in delivery of the
Contract Activities.
Contractor’s standard service is "ground", which typically delivers in five (5) days. However, Contractor uses a variety of
carriers allowing flexibility in choosing the delivery method required by both the size of the shipment and the State or
Authorized End User's specific dock/receiving setup.
A full truckload is approximately 25 full pallets of machines/accessories or 56 ballot boxes.
Contractor uses truckload and LTL (less than truckload) carriers, FedEx and US mail to ship products.
Moreover, should more expedited shipping be requested by the State or Authorized End User, this will be available at an
additional cost. Contractor will make every effort to ensure that the State or Authorized End User’s expedited delivery time-

50

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.483 Filed 11/25/20 Page 51 of 161
000505

CONTRACT #071B7700117

frame is met and that additional charges to the State or Authorized End User for the expedited delivery, if any, will be
minimized.
With regards to providing expedited shipping, the State or Authorized End Users will have the option to request it at an
additional cost. Limitations on expedited service include timing of receipt of requests, the size of the shipment, and location
of customer. Any requests received after noon (12:00pm) will not be typically shipped until the following day. However,
depending on the location/zip code of the customer's warehouse/office, FedEx may not be able to deliver early the
following day/next day.
Shipments requiring pallets generally do not deliver the following day. Contractor uses standard pallets in various sizes to
accommodate the size of the merchandise/packages. These are typically made of wood and are stackable and re-useable.
The transportation method used will depend on the size of the order/number of pallets.
The Contractor ensures the best transportation rates for every order since they receive bids from multiple carriers at the
time. The Contractor can deliver to warehouses with standard loading docks as well as to smaller offices that require
inside deliver/white glove service.
6.2 Packaging and Palletizing
Packaging must be optimized to permit the lowest freight rate. Shipments must be palletized whenever possible using
manufacturer's standard 4-way shipping pallets.
7. Acceptance
7.1 Acceptance, Inspection and Testing
Counties will work with the State to finalize the list of jurisdictions that will accept delivery and implement the new voting syste
for each planned purchase phase. The State will initiate each county-based Purchase Order (PO) for each purchase phase
based on this plan.
Upon issuance of each State-issued PO on behalf of the county, the Contractor will work with each county to finalize each
jurisdiction’s delivery plan, including timeframes and locations.
With respect to delivery and installation of EMS, the Contractor shall provide an EMS delivery/installation plan that allows for
EMS software installation to be handled by the counties and local jurisdictions. If such an arrangement is proposed and
mutually agreed upon, Contractor must provide detailed software installation instructions to counties and local jurisdictions at
the time of EMS delivery. In addition, Contractor must provide technical phone support to assist counties and local jurisdictio
with software installation.
The Contractor’s minimum system requirements, including the required/relevant Operating System, to ensure successful
operation of the EMS are listed as follows. Contractor provides these requirements for both the full EMS and the accumulatio
only EMS options.
The following table includes the minimum requirements for the recommended express hardware configuration:
EMS EXPRESS HARDWARE CONFIGURATION
Component

Minimum

Motherboard

Motherboard with integrated sound
controller and SATA controller

CPU

Intel i5 series

Recommended
Motherboard with integrated sound controller and SATA
controller. RAID functionality or separate hardware RAID
controller
Intel i7 series

RAM

4GB

8GB

HDD

Single 500GB

Dual 500GB in RAID 1 mode (mirror)

Additional

USB Compact Flash card reader

USB Compact Flash card reader

USB iButton Security Key reader

USB iButton Security Key reader

19” or higher monitor for desktop PCs

19” or higher monitor for desktop PCs

Keyboard and mouse

Keyboard and mouse

Headset or headphones with microphone

Headset or headphones with microphone

Internal or external DVD R/W

Internal or external DVD R/W

51

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.484 Filed 11/25/20 Page 52 of 161
000506

CONTRACT #071B7700117

The following tables include the minimum requirements for the standard recommended hardware and software configuration:
EMS STANDARD HARDWARE CONFIGURATION: CLIENT
Component

CPU

Minimum
Motherboard with integrated sound
controller and SATA controller
Intel i5 series

Recommended
Motherboard with integrated sound controller
and SATA controller
Intel i7 series

RAM

4GB

8GB

HDD

Single 500GB

Single 500GB

Additional

USB Compact Flash card reader

USB Compact Flash card reader

USB iButton Security Key reader

USB iButton Security Key reader

19” or higher monitor for desktop PCs

19” or higher monitor for desktop PCs

Keyboard and mouse

Keyboard and mouse

Headset or headphones with micro-phone

Headset or headphones with microphone

Internal or external DVD R/W

Internal or external DVD R/W

Motherboard

EMS STANDARD HARDWARE CONFIGURATION: SERVER

CPU

Minimum
Single core CPU with integrated
SATA controller
Intel Xeon L5500 series

Recommended
Dual quad core CPU with integrated SATA controller and RAID
functionality or separate hardware RAID controller
Intel Xeon E5 series

RAM

8GB

16GB

HDD

Dual 500GB

Internal or external DVD R/W

Dual 500GB in RAID 1 mode, and 4x 500GB in RAID 10
mode
PCI-E card SATA controller with RAID 10 functionality, or
compatible
Internal or external DVD R/W

Single or dual power supply

Single or dual power supply

Optional monitor, keyboard, and
mouse

Optional monitor, keyboard, and mouse

Component
Motherboard

Additional

Note: Express and Standard refer to the hardware architecture for EMS (either Full or Accumulation only). Express is for
smaller jurisdictions with less server infrastructure requirements (desktop and tower servers) and Standard is for larger
jurisdictions that require higher performance IT infrastructure (rack servers for example). Contractor can install either
version of software on either Express or Standard however performance is what determines which IT infrastructure
Contractor recommends.

52

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.485 Filed 11/25/20 Page 53 of 161
000507

CONTRACT #071B7700117

X
X
X
X
X
X
X
X
X
X

X

X
X
X

X
X
X
X

X
X
X

X

Enterprise Client

X
X

Enterprise Database Server

X

X
X
X

X

X

X

X
X
X

X

Microsoft SQL Server 2008 R2 Standard with Service Pack 1 (SP1)
Installed
Microsoft SQL Server 2008 R2 with Advanced Series
and Service Pack 1 (SP1) Installed
Microsoft Visual C++ x86 Redistributable
Microsoft Visual J# 2.0
Optional additional fonts
Optional Avast! antivirus software
Optional eSATA card
Optional Excel 2010
Optional printer drivers
Optional Uninterruptable Power Supply drivers
Windows 7 Professional x64 with Service Pack 1 (SP1) Installed
Windows Server 2008 R2 with Service Pack 1 (SP1) Installed

Enterprise Application Server

Adobe Acrobat Reader 10.1.1
Cepstral Voices
Dallas 1-Wire Device Driver 4.0.3
EMS Client components
EMS Server components
Java Runtime Environment 6.0.290
Microsoft .NET Framework 4.0
Microsoft Access Database Engine
Microsoft IIS 7.5
Microsoft SQL Server 2008 R2 Express
Microsoft SQL Server 2008 R2 Reporting Services only and
Service Pack 2 (SP2) Installed

Standard Client Configuration

EMS Software Configurations

Standard Server Configuration

Express Software Configuration

EMS SOFTWARE CONFIGURATION

X

X

X
X
X
X
X
X
X
X

X
X
X
X
X

X
X
X
X

X
X
X
X

X

X
X
X

X

X
X
X

X

X
X

X
X
X
X

X
X

X

For more information about the EMS configuration options, including operating system and hardware/software
requirements, see Schedule C, Pricing; Cost Table 5.
Upon receipt of the systems at the county and local jurisdiction level, each jurisdiction will be responsible for testing and
accepting their designated systems, based upon a checklist developed by the State. Each county and jurisdiction
receiving voting systems, accessible voting system components and related EMS software will be required to complete a
Receipt/Acceptance form and submit it to the State. Acceptance test criteria will include a logic/accuracy test (for
tabulators/accessible devices) and a confirmation of successful installation of the approved version of EMS software
(where applicable). If defects are uncovered during testing that result in an unsuccessful test, affected system
component(s) will be rejected and Contractor must replace and re-test the component(s) within 10 business days. Once
all voting systems and EMS software is tested and accepted a completed Receipt/Acceptance form (developed by the
State) will be completed and returned by each jurisdiction in in the county for each purchase phase documenting

53

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.486 Filed 11/25/20 Page 54 of 161
000508

CONTRACT #071B7700117

successful completion of required testing; at which point, the State will release payment on the State-issued countybased PO.

7.2 Final Acceptance
Final acceptance of each local county and jurisdiction order will be accomplished via the receipt/acceptance process
described in Section 7.1 and Section 8e in the Standard Contract Terms.
8. Invoice and Payment
8.1 Invoice Requirements
All invoices submited to the State must include: (a) contract number; (b) Purchase Order number; (c) county name; (d)
listing of all delivered components, itemized and listed by jurisdiction; (e) unit prices; (f) total price per item, per jurisdiction;
(g) ship to address; (h) jurisdiction contact; (i) total price per jurisdiction; and (k) total price per county / Purchase Order
(less any agreed upon payment arrangement made between the Contractor and the County).
Invoices must be forwarded to the State only after all equipment and components listed on the Purchase Order have been
delivered. The State will release payment to the Contractor for the State portion of the invoice amount, upon the
successful completion of acceptance testing and submission of completed Receipt/Acceptance forms from the county and
each local jurisdiction listed on the Purchase Order. Note that the State portion of the invoice amount will equal 100% of
the total invoice if the State has collected the local funding component up front.
8.2 Payment Methods
The State will make payment for Contract Activities as outlined in Sections 5.1, 7.1 and in Section 9, Invoicing and
Payment, in the Standard Contract Terms. Payment will be made by Electronic Funds Transfer (EFT).
9. Additional Requirements
9.1 Environmental and Energy Efficient Products
The Contractor has identified the following energy efficient, bio-based, or otherwise environmental friendly products used in
the products, including relevant third-party certification.
Contractor’s Products
Some materials used in Contractor’s product line are RoHS (Restriction of Hazardous Substances) and Energy Star
compliant.
Contractor’s plastic ballot boxes and covers are made from polypropelyne and ABS which are recyclable. Units have a 10year+ lifespan, and are either recycled in specialized facilities, or donated to a non-profit organization which uses them in
the developing world.
Units are shipped in recyclable corrugated cardboard boxes. Contractor reuses these boxes as many times as possible
before recycling.
Fedex Packaging is both recyclable and can be re-used for shipping. Labels are printed on 100% Recycled FSC-Certified
Copy Paper. It is recycled without using chlorine or chlorine compounds, acid free, 100% post-consumer recycled content.
9.2 Hazardous Chemical Identification
In accordance with the federal Emergency Planning and Community Right-to-Know Act, 42 USC 11001, et
seq., as amended, the Contractor must provide a Material Safety Data Sheet listing any hazardous chemicals,
as defined in 40 CFR §370.2, to be delivered. Each hazardous chemical must be properly identified, including
any applicable identification number, such as a National Stock Number or Special Item Number.
The Contractor identifies the following hazardous chemicals that will be provided under this Contract.
The ImageCast Precinct tabulator uses leaded solder paste. There are two types of battery backup systems that the
Contractor’s voting systems use. The first is based off Lithium Ion technology. The second battery is based off of sealed
Lead Acid technology. The Contractor will provide more detailed information and the MSDS for both these materials upon
request.
9.3 Mercury Content
Pursuant to MCL 18.1261d, mercury-free products must be procured when possible. The Contractor does not intend to
provide products containing mercury under this Contract.
9.4 Brominated Flame Retardants
The State prefers to purchase products that do not contain brominated flame retardants (BFRs) whenever possible. The
Contractor must disclose whether the products contain BFRs. The electronics circuit boards contained in the Contractor’s
product contain flame retardant bromine Tetrabromobisphenol A (TBBPA). This bromine is a part of the polymer of the
circuit board and it is not regulated by RoHS or WEEE directives under their listing of restricted chemicals. This bromine

54

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.487 Filed 11/25/20 Page 55 of 161
000509

CONTRACT #071B7700117

(TBBPA) is complexed in the resin of almost all PCB’s produced today. Please see the Exhibit A – 9.4. TBBPA Factsheet
included for more details.
9.5 License Agreement
The State and Counties that receive and use EMS software will be required to sign a software license agreement. Refer to
Schedule B-Software License Agreement.
9.6 Key Personnel
The Contractor must appoint a State Project Manager and State Customer Service Manager. See other details in
Section 3.1. These individuals shall be directly responsible for the day to day operations of the Contract (“Key
Personnel”). Key Personnel must be specifically assigned to the State account, be knowledgeable on the contractual
requirements, and respond to State inquires within 24 hours.
State Project Manager
Gio Costantiello
State Project and Contract Manager
Phone: (416) 762-8683 x241, Mobile: (416) 580-0084
Email: gio.costantiello@dominionvoting.com
State Customer Service Manager
Nicole Nollette
Executive Vice President, Operations
Phone: (866) 654-8683 x9223, Mobile: (702) 786-7131
Email: nicole.nollette@dominionvoting.com
Contractor’s Key Personnel must be available for meetings and updates as outlined in Section 2.8.
The Contractor may not remove or assign Key Personnel without the prior consent of the State. Prior consent is not
required for reassignment for reasons beyond the Contractor’s control, including illness, disability, death, leave of absence,
personal emergency circumstances, resignation, or termination for cause. The State may request a résumé and conduct
an interview before approving a change. The State may require a 30 calendar day training period for replacement
personnel. Also refer to Section 10 in the Standard Contract Terms.
9.7 Non-Key Personnel
The Contractor must notify the Contract Administrator at least 10 calendar days before removing or assigning non-key
personnel.
Team Member
Role
Alex Soto Vasquez

Product Support Specialist

Nick Mantzios

Product Support

Xenofon Marangos

Senior Systems Manager

Goran Obradovic

Product Development

Ronald Morales

Product Support

Penelope Starr

Marketing and Voter Outreach Support

Steve Moreland

Manufacturing & Delivery

James Hoover

Printer Liaison, General Project Support

Steve Popoulias

Customer Service Manager

55

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.488 Filed 11/25/20 Page 56 of 161
000510

CONTRACT #071B7700117

9.8 Organizational Chart
The Contractor has provided the following overall organizational chart that details staff members, by
name and title, including subcontractors, as well as each member’s area of responsibility.

56

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.489 Filed 11/25/20 Page 57 of 161
000511

CONTRACT #071B7700117

9.9 Project Plan
The Contractor will carry out this project under the direction and control of the State Program Manager. Within 30
calendar days of the Effective Date, the Contractor will submit a project plan to the Program Manager for final
approval. The plan must include: (a) the Contractor's organizational chart with names and titles of personnel
assigned to the project, which must align with the staffing stated in accepted proposals; and (b) the project
breakdown showing sub-projects, tasks, and resources required.

57

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.490 Filed 11/25/20 Page 58 of 161
000512

CONTRACT #071B7700117

Exhibit 1 to Schedule A

Federal Voting System Testing / Certification Matrix
Contractor has provided the following detailed information on currently certified voting systems and the
voting system(s) for use in Michigan.
Definitions:
• EAC: United States Election Assistance Commission
• VSTL: Voting System Test Laboratory, accredited by the US Election Assistance Commission
• Currently Certified System(s) (Table A): These are your company’s end-to-end voting system(s)
for which EAC certification has already been obtained, if any.
• Michigan Proposed Voting System Configuration (Seeking Federal Certification) (Table B): This is
the end-to-end base voting system proposed for use in Michigan, if the proposed Michigan
system has not yet obtained EAC certification.
• Proposed Modification to Base Michigan Voting System Configuration (Table C): Voting system
that allows for secure electronic transmission of unofficial Election Night results from the precincts
to the local counties/jurisdictions and the State. If the base voting system proposed for Michigan
(Table A or B) allows for electronic transmission, please state this in your response, and leave
Table C blank.

A) Currently Certified System(s)
Does your company have an existing end-to-end voting system that has completed Federal testing and
the U.S. Election Assistance Commission (EAC) certification process? For these purposes, an end-to-end
voting system includes use of a paper ballot, tabulator, accessible voting device (for use by individuals
with disabilities) and related Election Management System (EMS) software.
Yes

No

If you answered “Yes”, complete the following table to provide information on your company’s currentlycertified system(s) that utilize a paper ballot – attach additional tables/pages if necessary. If you
answered “No”, proceed to Table B:
Contractor Response
Product / System Name
Democracy Suite 4.14-D
Model or Version #
4.14-D
Components – list all system
Please see pp. 7-9 in the attached EAC Scope of Certification
components of the currently
document for Democracy Suite 4.14-D.
certified end-to-end voting
system(s) as described above,
including Software/Firmware
version or Hardware version of
each component. Add lines if
necessary, or provide a
separate attachment, clearly
labeled ‘CURRENTLY
CERTIFIED VOTING SYSTEM
COMPONENTS’
Name / Location of VSTL
National Technical Systems, Huntsville, AL
Date VSTL testing completed October 20, 2014
Date EAC certification issued November 25, 2014
EAC Certification Number
DVS-DemSuite4.14-D
List the U.S. state(s) in which Iowa, Minnesota, Missouri, Nevada, New York, Ohio, Puerto Rico,
this system is in use, if any
Tennessee, Washington, Wisconsin, Utah

58

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.491 Filed 11/25/20 Page 59 of 161
000513

CONTRACT #071B7700117

Is a currently-certified
system proposed for use in
Michigan?

Yes

No

If ‘Yes’, list the model or version number proposed for use in
Michigan:
____________________
If ‘No’, complete Table B.

B) Michigan Proposed Voting System Configuration (Seeking Federal Certification)
Provide information on the base voting system proposed for use in Michigan, if Federal certification has
not yet been obtained:
Bidder Response
Product / System Name
Democracy Suite 5.0
Model or Version #
5.0
Components – list all system
Please see the attached D-Suite 5.0 System Configuration List
components of the proposed
document for details on the system components of the proposed
base Michigan voting system
base Michigan voting system configuration.
configuration, including
Software/Firmware version or
Hardware version of each
component. Add lines if
necessary, or provide a
separate attachment, clearly
labeled ‘PROPOSED BASE
MICHIGAN VOTING SYSTEM
COMPONENTS’
Name / Location of VSTL
Pro V&V, Huntsville, AL

VSTL Testing Status*

Complete 1 OR 2 below:
1) VSTL testing completed: December 1, 2017
Date

2) VSTL testing not yet complete:
a) Date submitted or will be submitted to VSTL: ____________
b) Estimated VSTL testing completion date: ___________
This estimated date was determined / provided by (check
one):
Vendor
VSTL
c) Current status (summarize, in detail, the proposed system’s
status with respect to VSTL testing): Dates and testing
status updates can be provided on a bi-weekly basis after
submission of this bid.
EAC Certification Status*
a) Date submitted or will be submitted to EAC: April 15, 2016

59

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.492 Filed 11/25/20 Page 60 of 161
000514

CONTRACT #071B7700117

b) Estimated EAC certification date: January 27, 2017
This estimated date was determined / provided by:
Vendor
EAC
c) Current status (summarize, in detail, the proposed system’s
status with respect to EAC certification): EAC is finalizing
paperwork.
*NOTE: If VSTL and/or EAC reports have been issued, also attach the report(s).

C) Proposed Modification to Base Michigan Voting System Configuration
Provide information on the proposed voting system for use in Michigan that provides for secure electronic
transmission of unofficial Election Night results (if different from the proposed base Michigan voting
system described in Table A or B):
Bidder Response
Product / System Name
Democracy Suite 5.0-S
Model or Version #
5.0-S
Components – list all system
Please see the attached D-Suite 5.0-S System Configuration List
components of the proposed
document for details on the system components of the proposed
modification to the base
base Michigan voting system configuration.
Michigan voting system
configuration, including
Software/Firmware version or
Hardware version of each
component. Add lines if
necessary, or provide a
separate attachment, clearly
labeled ‘PROPOSED
MODIFICATION TO BASE
SYSTEM COMPONENTS’
Name / Location of VSTL
Pro V&V, Huntsville, AL
VSTL Testing Status*
Complete 1 OR 2 below:
1) VSTL testing completed: January 13, 2017
Date
2) VSTL testing not yet complete:
a) Date submitted or will be submitted to VSTL: ____________
b) Estimated VSTL testing completion date: ____________
This estimated date was determined / provided by:
Vendor
VSTL
c) Current status (summarize, in detail, the proposed system’s
status with respect to VSTL testing):
Differences between
proposed base Michigan
voting system and the
proposed modification to the
base system – list, in detail, all
substantive differences between
the proposed BASE SYSTEM

The modification to the base system, Democracy Suite 5.0-S, adds
dial-up and wireless results transmission capabilities to the
ImageCast Precinct and results transmission using the Democracy
Suite EMS Results Transfer Manager module. Additionally, the
COTS Canon M160II scanner is added with the 5.0-S system
configuration.

60

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.493 Filed 11/25/20 Page 61 of 161
000515

CONTRACT #071B7700117

and proposed MODIFICATION
TO BASE SYSTEM

The ImageCast Listener add-on component incorporates with the
Democracy Suite EMS Server and adds a dedicated server, using
an encrypted TCP/IP-based protocol, to receive results data. An
industry-standard firewall appliance is used to isolate the EMS
network from the external network.
Both ImageCast Precinct tabulators and the Results Transfer
Manager module communicate with the ImageCast Listener server.
The Results Transfer Manager can also transmit data to shared
folders on a network.

The ImageCast Precinct model 321-C contains an internal dial-up
modem; wireless 3G modems are available as external devices.
The ImageCast Precinct requires a different Device Configuration
File to enable the results transmission capabilities. No other
functional differences exist between the two versions.
*NOTE: If VSTL report has been issued, also attach the report.

61

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.494 Filed 11/25/20 Page 62 of 161
000516

CONTRACT #071B7700117

Exhibit 2 to Schedule A
Technical Requirements
See separate Excel spreadsheet document.

62

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.495 Filed 11/25/20 Page 63 of 161
000517

CONTRACT #071B7700117

Exhibit 3 to Schedule A
Preventative Maintenance Checklists

63

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.496 Filed 11/25/20 Page 64 of 161
000518

CONTRACT #071B7700117

ImageCast Precinct Sample Preventative Maintenance Checklist

64

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.497 Filed 11/25/20 Page 65 of 161
000519

CONTRACT #071B7700117

ImageCast Central Sample Preventative Maintenance Checklist

65

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.498 Filed 11/25/20 Page 66 of 161
000520

CONTRACT #071B7700117

DOMINION ICX PREVENTATIVE MAINTENANCE CHECKLIST
SID-XXV
Preventative Maintenance Checklist

Items to Test / Inspect
1. Top Door (Larger)

OK

Not OK

A. Confirm Hinges Swing Freely
B. Inspect/Test Magnet on Side of Door for
Proper Operation
C. Inspect Hasp/Staple for Proper Operation
D. Inspect USB & MicroSD Connectors

⃝

⃝

⃝

⃝

⃝
⃝

⃝
⃝

A. Inspect Battery PCB Connection with Battery
B. Inspect Battery is Secure Under Bracket
C. Inspect Battery PCB Cable Connection to
Main Unit

⃝
⃝

⃝
⃝

⃝

⃝

⃝

⃝

⃝

⃝

⃝
⃝

⃝
⃝

⃝

⃝

⃝
⃝
⃝
⃝

⃝
⃝
⃝
⃝

⃝

⃝

⃝

⃝

⃝

⃝

⃝

⃝

⃝

⃝

2. Battery Inspection

3. Bottom Door (Smaller)

A. Confirm Hinges Swing Freely
B. Inspect/Test Magnet on Side of Door for
Proper Operation
C. Inspect Hasp/Staple for Proper Operation
D. Inspect Cable Routing through Plastic Bushing
E. Confirm DC-IN Power is Properly connected
to Main Unit

4. VESA Stand / General

A. Inspect Cable Routing Inside I/O Cover
B. Inspect Cables for Any Wear or Damage
C. Inspect Card Reader in Base (Front)
D. Confirm System can Tilt on Stand

5. Electrical / Technical

A. Confirm Main Power Cable Connection
Between Base and Outlet
B. Confirm Button under Bottom Door Turns
Green when Power is Applied
C. Confirm the LCD Touch is Functional
D. Confirm the Battery is Fully Charged and has
at Least 2 Hours of Runtime Available. If not,
it is Recommended to Replace the Battery
(Refer to Battery Test Procedure)
E. Confirm Input Connectors Functionalities
(I.e. USB’s, LAN, Audio, etc.)

66

Notes

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.499 Filed 11/25/20 Page 67 of 161
000521

CONTRACT #071B7700117

Exhibit 4 to Schedule A
Voting System Description

Table of Contents
Paper Ballot – Providing a Permanent Record of Voter Intent ...................................................70
Highlights ..............................................................................................................................70
Ballot artwork.........................................................................................................................71
Ballot artwork – Optical Scan Paper Ballots .......................................................................71
Ballot artwork and style – ImageCast X electronic ballot and Verifiable Choice Summary
Ballots ................................................................................................................................71
Optical Scan Paper Ballot ......................................................................................................72
ImageCast X Verifiable Choice Summary Ballot ....................................................................73
Ballot Printing ........................................................................................................................74
Ballot Printing – Optical Scan Paper Ballots .......................................................................74
Ballot Printing – ImageCast X Verifiable Choice Summary Ballots .....................................74
Ballot Printer Qualification .....................................................................................................74
Ballot Paper ...........................................................................................................................74
ImageCast Security Paper .....................................................................................................75
Sample Ballots ......................................................................................................................75
Democracy Suite Election Management System – The engine that powers your entire election
.................................................................................................................................................76
Highlights ..............................................................................................................................77
Benefits of Democracy Suite .................................................................................................78
Election Event Designer ........................................................................................................79
Results Tally and Reporting...................................................................................................80
Core Technology - Ensuring Accurate & Transparent Elections ................................................82
Highlights ..............................................................................................................................82
Dual Threshold Technology (Marginal Marks) .......................................................................83
Dominion’s Exclusive Digital Ballot AuditMark .......................................................................84
Hand-marked Ballot Image with Audit Trail: .......................................................................84
Verifiable Choice Summary Ballot Image with Audit Trail: ..................................................85
The AuditMark Advantage ..................................................................................................86

67

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.500 Filed 11/25/20 Page 68 of 161
000522

CONTRACT #071B7700117

ImageCast Precinct – The world’s most reliable optical scan tabulator .....................................87
Highlights ..............................................................................................................................87
Standard features ..................................................................................................................88
Sample ImageCast Precinct Screenshots..............................................................................90
ImageCast Precinct Report Tapes .........................................................................................92
ImageCast Precinct Zero Tape ..........................................................................................92
ImageCast Precinct Results Tape ......................................................................................94
ImageCast Precinct Simple and Complete Diagnostics Reports ........................................96
ImageCast Precinct Tabulator Information Report..............................................................97
ImageCast Precinct Sample Preventative Maintenance Checklist .........................................64
ImageCast Ballot Box................................................................................................................99
Standard Features .................................................................................................................99
ImageCast X – It’s everything you want it to be .......................................................................100
Highlights ............................................................................................................................100
Accessibility .........................................................................................................................104
ImageCast Central – Scalable & Efficient High Speed Scanning .............................................106
Highlights ............................................................................................................................106
ImageCast Central Reports ..............................................................................................108
ImageCast Central Sample Preventative Maintenance Checklist .......................................65
Mobile Ballot Printing Module ..................................................................................................110
Highlights ............................................................................................................................110
Results Accumulation..............................................................................................................112
Method 1 – Returning memory cards from each tabulator to the Elections Office ................112
Method 2 – Dial-up and Cellular Modem transmission .........................................................112
ImageCast Listener ..........................................................................................................114
Method 3 – Results Transfer Manager.................................................................................115
Election Night Reporting .........................................................................................................116
Electronic Ballot Delivery – Dominion’s ImageCast Remote (UOCAVA) .................................118
System Security Overview ......................................................................................................119
Maintaining Data Integrity ....................................................................................................119
EMS Security.......................................................................................................................119
Role-based Access Controls ...............................................................................................119

68

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.501 Filed 11/25/20 Page 69 of 161
000523

CONTRACT #071B7700117

Hardware Access Controls ..................................................................................................120
Communications..................................................................................................................120
Effective Password Management ........................................................................................120
EMS Audit Log ....................................................................................................................121
Tabulator Security ...............................................................................................................122
Electronic Safeguards and Security .................................................................................122
Internal Battery ................................................................................................................122
Results Storage Media .....................................................................................................123
Media Storage Security ....................................................................................................123
Tabulator Audit Trail.........................................................................................................124

69

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.502 Filed 11/25/20 Page 70 of 161
000524

CONTRACT #071B7700117

Paper Ballot – Providing a Permanent Record of Voter Intent

Highlights



Dominion’s Democracy Suite Election Management System (EMS) creates
tabulator-ready PDF optical scan ballot artwork files and election files for
the ImageCast X and ImageCast Precinct.



These optical scan paper ballot artwork files are full-sized press-ready ballots
generated in industry-standard PDF format and containing all required ballot
elements and the unique ballot ID barcode that distinguishes each ballot
style.



A range of modern printing technologies can easily print ImageCast optical scan
and verifiable choice summary ballots.



The optical scan paper ballot is 8.5” inch wide and can vary between 11”-22” in
length. It can be printed in four colors and has been tested and certified for use
up to its maximum length of 22”. The ImageCast X prints a verifiable choice
summary ballot that is 8.5” wide and 11” in length.



The optical scan paper ballot can also be double sided and, if necessary, can
be made up of multiple pages to accommodate a ballot with offices and
candidates that might exceed one double-sided page.



Dominion also offers optional infrared security paper for additional peace of
mind.

70

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.503 Filed 11/25/20 Page 71 of 161
000525

CONTRACT #071B7700117

Ballot artwork
Ballot artwork – Optical Scan Paper Ballots

Dominion’s Democracy Suite Election Management System (EMS) creates tabulatorready PDF ballot artwork files for hand-marked ballots. Ballot artwork files are created
as complete ballot images, without trim lines or crop marks, and are designed to directly
print on digital 4-color sheet-fed xerographic or other electro-photographic printers
(most B-sized laser printers). Ballot artwork is generated in industry-standard PDF
format and CMYK color space. Ballot artwork files are full-sized press-ready ballots
containing all required ballot elements and the unique ballot ID barcode that
distinguishes each ballot style. Each file contains one or two ballot images: a front
image (if the ballot is single-sided) or paired front and back ballot images. All fonts used
in the ballot artwork are embedded in the PDF file. Ballot artwork files are digitallysigned (X.509) and tied to the election project files produced by Democracy Suite EMS
to allow for authentication and revision control.
Ballot artwork and style – ImageCast X electronic ballot and Verifiable Choice Summary
Ballots

Dominion’s Democracy Suite Election Management System (EMS) creates the
electronic ballots for the ImageCast X as well as the verifiable choice summary ballots
that are printed at the end of the voting session on the ImageCast X. The verifiable
choice summary ballot PDF files are generated for each ballot style with ballot headers
only, and the voter’s choices are printed once they have completed their voting session
on the ImageCast X.

71

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.504 Filed 11/25/20 Page 72 of 161
000526

CONTRACT #071B7700117

Optical Scan Paper Ballot

72

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.505 Filed 11/25/20 Page 73 of 161
000527

CONTRACT #071B7700117

ImageCast X Verifiable Choice Summary Ballot

Ballot Header:
Contains relevant
election event
information as well as
the ballot style
2D Barcode: The
voter’s choices are
encrypted and digitally
signed in the barcode.
This barcode can only
be scanned and
decrypted by an
ImageCast Tabulator.
Verifiable Choice
Summary: The ballot
contains a list of all
contests and a
summary of the voter’s
selections and nonselections (undervote
or blank contest).

73

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.506 Filed 11/25/20 Page 74 of 161
000528

CONTRACT #071B7700117

Ballot Printing
Ballot Printing – Optical Scan Paper Ballots

ImageCast paper ballots can be easily printed by a range of modern printing
technologies.
•

•

•

Small quantities of tabulator-ready ballots can be printed with a conventional Bsize laser printer (600 dpi min., pre-calibrated), directly onto pre-cut blank ballot
stock. ImageCast ballot artwork ﬁles are pre-conﬁgured for this use. In-house
laser printing of ImageCast prooﬁng and test ballots allows a jurisdiction to
quickly and easily test the Democracy Suite EMS election project setup and
tabulation options.
Most jurisdictions choose a Dominion-certiﬁed print vendor to produce the ballots
that will be used for their election. ImageCast ballots are produced by
conventional oﬀset lithographic presses, or high-speed digital xerographic or
other electro-photographic presses.
Ink jet printers, from small desktop units to high-speed web print engines, have
produced millions of ImageCast ballots.

Common to all successful ballot printing methods is the strict adherence to Dominion’s
ImageCast ballot speciﬁcations, which have been provided to the State of Michigan as
part of this RFP response.
Ballot Printing – ImageCast X Verifiable Choice Summary Ballots

The ImageCast X comes with a commercial off-the-shelf conventional laser printer that
prints the verifiable choice summary ballot at the end of the voting session. The Canon
LBP151dw laser printer is currently used with the ImageCast X.

Ballot Printer Qualification
Dominion licenses and qualifies ballot printers to produce and sell ballots for Dominion
ImageCast tabulators. Dominion will be happy to work closely with a ballot printer of the
counties’ choice to ensure they receive the qualification and are able to print Dominion’s
licensed ImageCast optical scan paper ballots.
The printer training and qualification program is designed to ensure the production of
high quality ballots, with low defect rates and high-levels of customer satisfaction.
Qualification includes on-site ballot production instruction, ballot inspection procedures
and tools, ballot QA programs and ballot printing tests. The program offers a fair and
open ballot printer training and certification process, geared for range of commercial or
governmental print operations. Dominion encourages customers to require the use of
certified ballot printers for all print contracts.

Ballot Paper
The text and cover paper stocks that have been tested and approved for manufacturing
ImageCast optical scan paper ballots are:

74

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.507 Filed 11/25/20 Page 75 of 161
000529

CONTRACT #071B7700117

Approved Papers
- Cascades Fine Paper

- Rolland Opaque 50

- International Paper

- Accent Opaque

- Cascades Fine Paper

- Rolland Opaque 50

- International Paper

- Accent Opaque

80# and 100#
Text

Bright White,
Smooth Finish

65# cover

Bright White,
Smooth Finish

We recommend 100# text paper stock for use with the ImageCast X.

ImageCast Security Paper
Dominion’s custom ballot authentication system is built around an (optional) secure ballot paper
stock and in-tabulator authenticators that include:
•
•

Custom ballot stock that incorporates an invisible infrared-reactive agent, built into the paper
as it is manufactured.
Matching non-contact paper sensor/authenticators are built into the ImageCast tabulators.

This combination of technologies assures that:
• Secure ballots cannot be counterfeited or duplicated, yet can be simply printed by our
certified printers and by our customers.
• An ecologically-sound paper product will put us in the vanguard of responsible paper users.
Additional Security Paper Features:
•
•
•
•
•

Special coating to improve toner adhesion
Reduced porosity to limit pen bleed-through
Binders to limit curl induced by xerographic printers
Improving fold tear strength
Improving ballot stacking

Sample Ballots
Sample ballots can be found in Appendix 2 – Sample Ballots and Reports

75

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.508 Filed 11/25/20 Page 76 of 161
000530

CONTRACT #071B7700117

Democracy Suite Election Management System – The engine that powers your entire election

76

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.509 Filed 11/25/20 Page 77 of 161
000531

CONTRACT #071B7700117

Highlights
 Democracy Suite powers the entire voting system out of a single comprehensive database,
with all the tools needed to simplify and streamline the process.
 All voting channels – whether absentee ballots, accessible voting, or precinct-based voting –
are supported and powered by Democracy Suite.
 All pre-election and post-election tasks take place out of the same database – from ballot
programming to results reporting on Election Night, Democracy Suite is a complete, endto-end elections solution.
 It is designed to suit the needs and requirements of jurisdictions large and small, and
can be easily scaled to support any size jurisdiction.
 The counties will be equipped with Dominion’s Democracy Suite Election Management
System, which is comprised of several modules to manage an election project from start to
finish. Democracy Suite is composed of two main modules:


Through the Election Event Designer (EED), the election definitions of each
jurisdiction such as districts, races, and candidates can be input or imported. The
Election Data Translator utility allows the import of the election definition from the
Michigan QVF file further simplifying the election definition process for the County
Administrator.

•

Through the Results Tally and Reporting (RTR), the counties can easily and quickly
receive and accumulate election results from their precincts and rapidly report them to
the State for accumulation and distribution of State-wide election results. The module
exports results in a data format compliant with the Michigan Standard Results File
Format.

 The system allows for the configuration and creation of a wide range of reports that can
be easily accessed or customized.

77

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.510 Filed 11/25/20 Page 78 of 161
000532

CONTRACT #071B7700117

Benefits of Democracy Suite
The Democracy Suite technology platform delivers an improved experience for the voter, longterm sustainability, operational efficiencies, transparency and cost-savings.

•

Designed to meet the latest EAC
VVSG requirements with industry
leading FIPS 140-2 compliant
security protocols

•

Complete end-to-end system
auditability

•

Symmetric and asymmetric
encryption for data confidentiality

•

All communications channels are
encrypted with SSL protocols

•

Capable of handling many types of
elections, voting rules (i.e. straight
party, open or closed primaries, etc.),
and a range of jurisdiction sizes

•

A diverse range of EMS modules and
voting channel singular devices with
flexible configurations to meet
jurisdictional needs

78

•

Reduced complexity for election officials, as
programming and results consolidation takes
place out of a single unified database

•

With easy-to-use, intuitive user interfaces across
the entire product line, your staff and poll workers
are able to confidently carry out the tasks in their
workflow

•

Improved and user-friendly experience for voters

•

Built-in tools to help you simplify and streamline
your process, increase productivity, and save
you time and money

•

Save and re-use ballot templates, election
event definitions, and report templates so you
can quickly and easily generate future election
projects

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.511 Filed 11/25/20 Page 79 of 161
000533

CONTRACT #071B7700117

Election Event Designer
The Election Event Designer module manages all of the information needed to define
an election. Definition of an election is a complex task, and the event definition module
allows for the easy entry and tracking of districts, precincts, contests, candidate names,
voting locations and ImageCast tabulators. Election Event Designer allows jurisdictions
to choose from a variety of language options for an election project.
Election definition data may be entered manually, or imported using the Election Data
Translator utility. The Election Data Translator utility allows the import of the election
definition from the Michigan QVF file further simplifying the election definition process
for the County Administrator. Election definition data from may be exported or copied
from prior election databases to speed up the process of coding subsequent elections.
Sample Election Data Translator import files can be found in Appendix 2a – Sample
Election Data Translator Imports.
Election Event Designer uses the County's geopolitical and election event data to
automatically calculate the required ballot styles and generate full-sized press-ready
ballots in industry-standard PDF format. EMS lays out contests on the ballot in the most
space-efficient manner possible, in order to minimize printing costs. Election Event
Designer offers extensive options for ballot styling with full user control - choose fonts,
line weights, number of columns, multiple languages, multi-card or double-sided,
landscape or portrait-style, variety of voting target options, colored headers, etc. A
unique ballot ID barcode distinguishes each ballot style. The ballot is 8.5” wide and can
vary between 11”-22” in length.
The ballot can be double sided and, if necessary, can be made up of multiple pages (up
to 15) to accommodate a ballot with offices and candidates that might exceed one
double-sided page. ImageCast Optical Scan Ballots can be easily printed by a range of
modern printing technologies. All fonts used in the ballot artwork are embedded in the
PDF file and ballot artwork files are digitally-signed (X.509) and tied to the election
project files produced by Democracy Suite EMS to allow for authentication and
revision control.
The EMS system uses Cepstral, a third-party text-to-audio synthesizer, to automatically
generate audio ballots for the ImageCast X Ballot Marking Device. Users also have the
option to import human-recorded audio, with or without the help of the EMS Audio
Studio module, or fine tune pronunciation of the synthesized audio using Cepstral's
Swifttalker application. The system outputs audio ballots (PNG images, SPX audio files
and XML definition files), definition reports (XML, Excel or HTML files), and election
definition files required to program the ImageCast Precinct, ImageCast X, and
ImageCast Central.
The ImageCast Precinct tabulators are defined and configured in the Election Project
and these parameters are passed to the voting machines via the election files on the

79

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.512 Filed 11/25/20 Page 80 of 161
000534

CONTRACT #071B7700117

Compact Flash memory card. Tabulators are automatically configured to know which
ballot styles to accept, how the unit should interact with voters and where results files
are uploaded. The poll worker only needs to follow the Election Day procedures
established by the County and never needs to make a decision regarding the tabulator’s
settings at the voting location.
The ImageCast X Ballot Marking Devices are also defined and configured in the
Election Project and these parameters are passed to the ImageCast X devices via the
election files on a USB. The ImageCast X will store all available ballot styles, and will
present the correct ballot style to the voter when the voter inserts their Smart Card and
activates the voting session. No results are stored on the ImageCast X. The ImageCast
X prints a paper Verifiable Choice Summary Ballot at the end of the voting session,
which the voter inserts into the ImageCast Precinct. All results files are stored on the
ImageCast Precinct.
Sample Election Event Designer reports can be found in Appendix 2b – Sample
Election Event Designer Reports.

Results Tally and Reporting
The EMS Results Tally and Reporting (EMS RTR) module is used on Election Night
upon close of polls to accumulate results from tabulators and generate results reports.
The application allows for the direct transmission of results to the ImageCast Listener
server from the precinct or the AVCB through secure wireless or dial-up modem
transmission, or from a designated hub using the Results Transfer Manager. For more
information on transmission options, please see the Results Accumulation section
below.
For the EMS RTR module, inputs represent encrypted and signed election result files
(proprietary format), log files (plain text) and scanned ballot images with AuditMark,
produced by the Precinct and Central tabulators (PNG and TIFF images). Outputs
represent a variety of election result reports, as well as auditing information (XML,
HTML, CSV, MS Excel and PDF formats).
The program automatically uploads the result files into the results tally module, and
consolidated results are verified, tabulated, and published. Once the vote data is
uploaded into the result tally module, the flow of results to the public and media can be
controlled.
RTR allows election officials to review the results before releasing them, and the system
provides a number of reporting methods, including but not limited to Summary and
Precinct-level (Statement of Votes Cast) result reports. In addition to the static, predefined reports found in most reporting systems, RTR’s Summary and Precinct-level
reports use the Microsoft SQL Server Reporting Services engine to offer maximum
flexibility to user. These reports feature a variety of configurable options and filters,

80

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.513 Filed 11/25/20 Page 81 of 161
000535

CONTRACT #071B7700117

including detailed breakdowns of provisional ballots cast, ballots cast during early
voting, on Election Day, and by mail. Election administrators may use the default
settings, or configure the data fields included in the reports depending on the target
audience. Reports may be filtered by precinct, district, contest, tabulator, or voting
location, to narrow in on specific results data of interest contained within the election
database.
RTR features a one-click results export in CSV format that is fully compliant with the
Michigan Standard Results File Format. In addition, the module features numerous
export types for compatibility with third-party web-based Election Night Reporting
software. As is currently the case in states such as Florida and New Mexico – which
also have state-standardized export formats - Dominion will stay current and compliant
with the Michigan Bureau of Elections’ evolving standard, and releases updates to the
export file as the standard changes. After approval from the Bureau of Elections, an
independent update file is easily imported into the EMS Server, eliminating the need for
recertification or reinstallation of the entire application.
Sample Results Tally and Reporting reports can be found in Appendix 2c – Sample
Results Tally & Reporting reports.

81

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.514 Filed 11/25/20 Page 82 of 161
000536

CONTRACT #071B7700117

Core Technology - Ensuring Accurate & Transparent Elections
Highlights
 The Democracy Suite Election Management System handles all activities related to your election. It
produces ballots and tabulator information, and is enhanced by Dominion’s Core Dual Threshold and
AuditMark technologies.


Dual Threshold technology has a user-defined low and high marginal mark threshold to ensure that
each and every voter’s ballot will be read the same every time. If a voter does not properly fill in the
oval while marking their ballot and their oval mark falls in the marginal mark zone, the system will
inform the voter of the Marginal Mark and the onus of clearly defining their intent is on the voter,
not the Election Official.



The AuditMark auditing system is, however, what makes the Dominion difference and sets us apart
from other vendors in this industry. It is the only system that digitally stores an image of every
ballot cast along with a record of how the ImageCast tabulator interpreted each vote, ensuring a
completely transparent and auditable election.



Administrators find it a great comfort when reviewing ballot images during recounts and every image is
accompanied by this clear, digital, human-readable AuditMark record.



We take particular pride in this unique feature, because it demonstrates how seriously Dominion takes
our policy of being 100% accountable for each and every vote cast.

Dominion Voting Systems has invested in the development of proprietary technology that truly sets its products
apart from the competition. Dominion’s core technologies focus on ensuring two key aspects of the electoral
process – accuracy and transparency.

82

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.515 Filed 11/25/20 Page 83 of 161
000537

CONTRACT #071B7700117

Dual Threshold Technology (Marginal Marks)
From its early beginnings, Dominion Voting has emphasized the use of digital scanning, and continues to set
the standard in digital image acquisition and analysis in the tabulation of digitally scanned ballots. When a
hand-marked ballot is scanned by an ImageCast tabulator – at the precinct level or centrally - a complete
duplex image is created and then analyzed for tabulation by evaluating the pixel count of a voter mark. The
pixel count of each mark is compared with two thresholds (which are defined through the Election Management
System by the Election Official) to determine what constitutes a vote.
If a mark falls above the upper threshold, it is determined to be a valid vote. If a mark falls below the lower
threshold, it will not be counted as a vote. However, if a mark falls between the two thresholds (known as the
“ambiguous zone”), it will be deemed as a marginal mark and the ballot will be returned to the voter for
corrective action (please see diagram below).
With this feature, the voter is given the ability to determine his or her intent at the time they cast their ballot, not
an inspection or recount board after the fact, when it is too late. The chart below illustrates the Marginal Mark
threshold interpretation.

83

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.516 Filed 11/25/20 Page 84 of 161
000538

CONTRACT #071B7700117

Dominion’s Exclusive Digital Ballot AuditMark
Dominion’s AuditMark technology will allow the State of Michigan to provide greater transparency in the
electoral process. Every single ballot in the election is imaged and appended with Dominion’s patented
AuditMark, a record of how the system interpreted the voter’s intent. The AuditMark is the only technology
that provides a clear and fully auditable single vote cast record for every ballot cast.
This ballot-level audit trail allows election officials and other stakeholders to review not only the ballot images,
but also the tabulator’s interpretation of each ballot.

Hand-marked Ballot Image with Audit Trail:
This is a sample ballot image for a
centrally-processed ballot. All ballots are
imaged and stored for auditing purposes.
The image contains:
1. Image of front side of ballot (if the
reverse side of the ballot is used,
the image is also captured)
2. Clear image of all text, ballot
identifiers, candidates and voter
markings.
3. AuditMark: Ballot-level audit trail
feature showing the results
interpreted by the system for this
ballot.

{
84

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.517 Filed 11/25/20 Page 85 of 161
000539

CONTRACT #071B7700117

Verifiable Choice Summary Ballot Image with Audit Trail:
This is a sample ballot image for a
centrally-processed verifiable choice
summary ballot. All ballots are imaged and
stored for auditing purposes. The image
contains:
1. Image of the Verifiable Choice
Summary Ballot.
2. Voter’s choices are encrypted and
digitally signed in the secure
barcode image that can only be
scanned and decrypted by
Dominion’s ImageCast tabulators.
3. Clear image of all text, ballot
contest headings, and voter
choices.
4. AuditMark: Ballot-level audit trail
feature showing how the tabulator
decrypted the barcode image and
counted the voter’s choices.
Comparing the AuditMark to the
written summary verifies that the
system accurately recorded the
voter’s selections.

{

85

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.518 Filed 11/25/20 Page 86 of 161
000540

CONTRACT #071B7700117

The AuditMark Advantage
Transparency: Our system is the only one that stores a complete image of every ballot cast, along with the
audit trail for that ballot visually affixed to the image.
Accuracy: The audit trail shows how the tabulator interpreted the voted ballot markings or the secure barcode,
at the time the ballot was cast. By viewing this image, an election official can easily verify that the tabulator has
correctly interpreted the voter’s selections on the ballot.
Trust: Furthermore, by randomly opening a small number of image files and verifying that the audit trail
displays the correct results, the election official can quickly develop a high level of confidence that all of the
ballots have been interpreted correctly.
In practice, the AuditMark feature can be used as:


a method to test machine integrity before an election



a method of obtaining confidence that the equipment is functioning properly



a method to completely audit the entire election



a method to enhance re-counts

86

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.519 Filed 11/25/20 Page 87 of 161
000541

CONTRACT #071B7700117

ImageCast Precinct – The world’s most reliable optical scan tabulator

Highlights



The ImageCast Precinct is one of the most widely used tabulators with over
100,000 units deployed worldwide



It is one of the most reliable optical scan tabulators, that safely stores and
tabulates each vote from every ballot – including hand-marked ballots and
verifiable choice summary ballots



It is designed to be easy-to-use for both voters and poll workers



Lightweight (14lbs), easy to store, carry and set-up



Designed by engineers to withstand the most challenging environments

The ImageCast Precinct tabulator is a lightweight, robust and easy-to-use optical scan tabulator. With major
deployments including 82,000 units in Philippines, 11,000 units in New York, and 2,500 units in Mongolia, the
ImageCast Precinct is the most reliable optical scanner ever developed.
The system scans marked paper ballots, interprets voter marks on the paper ballot and safely stores and
tabulates each vote from each paper ballot. The ImageCast Precinct is also designed to read and tabulate
verifiable choice summary ballots produced on the ImageCast X, which include a 2D barcode read by the
scanner, as well as a human-readable text summary of the voter’s selections.
The ImageCast Precinct reads single and double-sided ballots in four orientations, and accepts striping and
colored headers to distinguish ballots.
The ImageCast Precinct is designed to be “plug and play,” making it very straightforward and quick to set up
for poll workers. The ImageCast Precinct will power on upon plugging in the AC power cord. The poll worker
will apply their iButton and enter their credentials to open the polls and print the zero tape, and the ImageCast
Precinct tabulators are ready to commence standard voting and accept ballots.
87

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.520 Filed 11/25/20 Page 88 of 161
000542

CONTRACT #071B7700117

At the polling place, the voter makes their selections by filling in the voting targets next to their choices, or
makes their selections on the ImageCast X ballot marking device which then prints a paper ballot. The voter
then inserts their ballot directly into the ImageCast Precinct, which performs the following functions:
•
•
•
•

Scans the ballot and interprets the digital image to tabulate the voter’s choices
Appends to the bottom of the ballot image a record of how that ballot was counted on Election Day
(known as the AuditMark)
Redundantly stores and tallies the results
Prints cumulative totals of all votes cast after the polls have been closed

Standard features
•
•
•
•
•
•
•

200 dpi scanner
Security detector (optional)
Internal diverter
VVSG 2005 security
2 memory cards
AuditMark capability
Ultra-sonic multi-feed detector that prevents the device from accepting more than one ballot a time.

ImageCast Precinct on the Dominion Ballot Box

88

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.521 Filed 11/25/20 Page 89 of 161
000543

CONTRACT #071B7700117

The ImageCast Precinct – a lightweight but robust and versatile
tabulator

89

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.522 Filed 11/25/20 Page 90 of 161
000544

CONTRACT #071B7700117

Sample ImageCast Precinct Screenshots
The ImageCast Precinct tabulator provides feedback, messages, and instructions to voters and poll workers.
As discussed in response to requirement
1.1.A.8 in Exhibit A – Attachment 1.1, the
ImageCast Precinct display alerts voters to
any and all voter/ballot errors with clear
language describing the error, before
accepting the ballot for tabulation. The
example at left shows the tabulator’s message
after detecting an overvoted contest, giving the
option for the voter to either cast their ballot
as-is, or return it for correction.

As discussed in response to requirement
1.1.A.13 in Exhibit A - Attachment 1.1, the
ImageCast Precinct display shows the total
number of ballot cards cast.

90

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.523 Filed 11/25/20 Page 91 of 161
000545

CONTRACT #071B7700117

As discussed in response to requirement 1.1.A.27 in Exhibit A - Attachment 1.1, the ImageCast Precinct has
a fitted, lockable, and sealable hard plastic lide (the ballot box cover) that completely covers the unit, protecting
it from direct water contact.
As discussed in response to requirement 1.1.F.3 in Exhibit A – Attachment 1.1, the ImageCast Precinct
tabulator presents clear messages to the user if a paper jam is detected. Paper jams in the ImageCast Precinct
tabulator are rare, but can occur due to such reasons as wrinkled or bent edges on the ballot.
When a paper jam occurs, the screen displays the message “PAPER JAM DETECTED…” with a button
labeled “CLEARED” at the bottom-right corner. Paper jams can occur at the ballot entry slot as soon as the
ballot is fed into the tabulator or at the exit slot when the ballot is being dropped into the ballot box. In each
scenario, the screen will display the relevant message as shown below:

Paper jam message (entry slot)

Paper jam message (exit slot)

91

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.524 Filed 11/25/20 Page 92 of 161
000546

CONTRACT #071B7700117

ImageCast Precinct Report Tapes
ImageCast Precinct Zero Tape

92

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.525 Filed 11/25/20 Page 93 of 161
000547

CONTRACT #071B7700117

93

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.526 Filed 11/25/20 Page 94 of 161
000548

CONTRACT #071B7700117

ImageCast Precinct Results Tape

94

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.527 Filed 11/25/20 Page 95 of 161
000549

CONTRACT #071B7700117

95

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.528 Filed 11/25/20 Page 96 of 161
000550

CONTRACT #071B7700117

ImageCast Precinct Simple and Complete Diagnostics Reports

96

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.529 Filed 11/25/20 Page 97 of 161
000551

CONTRACT #071B7700117

ImageCast Precinct Tabulator Information Report

97

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.530 Filed 11/25/20 Page 98 of 161
000552

CONTRACT #071B7700117

ImageCast Precinct Sample Preventative Maintenance Checklist

98

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.531 Filed 11/25/20 Page 99 of 161
000553

CONTRACT #071B7700117

ImageCast Ballot Box
Dominion has designed an innovative, complementary ballot box, pictured below, for our precinct tabulators. It
is built of sturdy plastic, and features four large lockable swivel wheels and handles on all sides for ease of
movement, allowing the units to be securely transported to and from the polling place. Since it has no internal
moving parts, the ballot box can also accommodate Election Day supplies when it is not storing ballots. For
security purposes, the ballot box features five locks and multiple security seal points to limit access and
prevent tampering.
When the poll worker arrives to set up, they will unlock the cover, plug the ballot box into the wall plug, and the
system will turn on and be ready to print the zero tape. All other components are already attached, keeping
polling location issues to a minimum.

Standard Features
• The ImageCast Ballot Box is made from solid extruded plastic and built to the requirements of the EAC.
• The ballot box capacity meets US polling place requirements, with three bins (main bin, write-in bin,
and auxiliary/emergency bin).
• The ImageCast Precinct tabulator locks and seals onto the ballot box, which features a cover that
provides additional security and ease of transportation.
• Features a sealed plastic base and is water resistant.
• Offers multiple deployment and warehousing options.

Plastic Ballot Box – with the lockable cover (left), and showing the three interior compartments (right)

99

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.532 Filed 11/25/20 Page 100 of 161
000554

CONTRACT #071B7700117

ImageCast X – It’s everything you want it to be
Highlights


Today, voters and election officials are increasingly looking to leverage everyday technologies to
improve the voting process and experience. Dominion is listening to our customers, and has designed a
touchscreen precinct-voting terminal that combines the flexibility, efficiency, and simplicity of
modern technology, with an underlying platform of security and performance - Democracy Suite.



Fully integrated into the Democracy Suite platform, the ImageCast X takes full advantage of
commercially available hardware, making it a cost-effective and flexible solution.



The ImageCast X also offers options for voters with accessibility needs – ranging from contrast
and text size, to being able to toggle between languages during the voting session or listen to an audio
ballot, as well as allowing for the use of personal assistive devices, such as a sip and puff.



The touchscreen interface is user-friendly and intuitive for poll workers and voters, improving the
voting process and experience.



The ImageCast X prints a verifiable choice summary ballot that is scanned on the ImageCast
Precinct or ImageCast Central.



As with all other ImageCast products, the ImageCast X has been designed with a high level of
security that meets the latest EAC VVSG requirements while maintaining ease of use.



Similarly, as with all other ImageCast tabulators, the ImageCast X benefits from Dominion’s
patented exclusive ballot-level audit trail, the AuditMark, which not only creates a digital image of
every ballot cast, but also appends to that image a record of how the voter’s selections were interpreted
by the voting system.

100

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.533 Filed 11/25/20 Page 101 of 161
000555

CONTRACT #071B7700117

Fully integrated into the Democracy Suite platform, the ImageCast X takes advantage of commercially
available technologies and is driven by a robust, secure and flexible application developed by Dominion. The
use of compact, commercially available hardware makes the ImageCast X a cost-effective and versatile inperson voting solution. It requires less space to warehouse and is more affordable than larger proprietary
solutions, while at the same time offering full ADA compliance.
The ImageCast X has an intuitive touchscreen interface with various features for accessibility, and connects to
a printer that prints the voter’s ballot directly in the voting booth. Once the ballot is printed, the voter scans their
ballot on the ImageCast Precinct, the same as all other voters.
Training for election poll workers is minimal and straightforward. When a voter checks in to vote, the poll
worker will verify the voter’s credentials and program a Smart Card using the Smart Card writer/reader. The
Smart Card is used to activate a voting session on the ImageCast X and to present the voter with their correct
ballot style. No information that can identify the voter is programmed on the Smart Card. Once the voter has
printed their ballot, the Smart Card is inactivated and can be returned to be re-programmed for the next voter.

The ImageCast X is a universal voting device that is software-driven and
leverages the flexibility of COTs technology

101

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.534 Filed 11/25/20 Page 102 of 161
000556

CONTRACT #071B7700117

The voter will insert their Smart Card to activate the
voting session on the ImageCast X. If available, the
voter will be prompted to choose their preferred
language for their voting session. The voter will
automatically be presented with the first contest on
the ballot. The voter will navigate the ballot contestby-contest by touching the screen to select options,
candidates, and text for write-in candidates. The
voter can change or cancel their selection by
deselecting their previous choice.

The ImageCast X features an
intuitive touchscreen

The voter can also change the text size or contrast of the display.
The View button allows the voter to change the display to high
contrast white on black, or black on white. The text size button
allows the voter to change the text size.
At any time, the voter can select the Review button to view their
selections on their ballot. The ballot review will show all of the
contests on the ballot, and give warning messages if there are any
issues with the ballot, such as an undervote or blank contest. If the
voter wishes to modify a contest, they simply touch that contest from
the review screen and they will be taken directly to that contest page
so that they can update their selection(s).
Once the voter has reviewed their ballot and has confirmed they are
ready to print, the ImageCast X can print a verifiable choice
summary ballot which contains a written summary of the voter’s
choices, as well as a 2D barcode which is read by the ImageCast
Precinct. No voter selections are stored on the ImageCast X.

The ImageCast X features an intuitive touchscreen
interface that the voter navigates contest by
contest

102

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.535 Filed 11/25/20 Page 103 of 161
000557

CONTRACT #071B7700117

At any time the voter can change the text size or contrast of the display, as well as
see a review of their ballot.

103

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.536 Filed 11/25/20 Page 104 of 161
000558

CONTRACT #071B7700117

Accessibility
Designed as a voting solution for all, the ImageCast X
also offers several options for voters with accessibility
needs to vote in a private and independent manner.
The ImageCast X offers the following user interfaces:
•

•

•

Visual mode: Voter navigates their ballot using
one of the available accessibility tools and the
visual display
Audio mode: Visual display can be disabled
and the voter uses headphones to navigate an
audio ballot using one of the available
accessibility tools
Visual & audio mode: Voter navigates their
ballot using one of the available accessibility
tools, the visual display, and the audio ballot

The ImageCast X pictured here with joystick and paddle button
accessible voting devices.

In addition to the touchscreen functionality, the ImageCast X is
compatible with a range of accessibility tools that voters can
use to navigate through the ballot and make their selections.
The system is compatible with commercially available
accessibility devices, such as a four-way joystick, as well as a
hand-held controller called the Audio Tactile Interface (ATI),
sip and puff device, or paddle device.

The ImageCast X is compatible with a range of
accessibility tools and can present the ballot in audio
only, visual only or both audio/visual mode.

The Audio Tactile Interface (ATI) is the handheld device that is used by a voter during an Accessible Voting
Session to navigate through and make selections to their ballot. The ATI:
•

Has raised keys that are identifiable tactilely without activation (i.e. raised buttons of

104

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.537 Filed 11/25/20 Page 105 of 161
000559

CONTRACT #071B7700117

•
•
•
•
•
•

different shapes and colors, large or Braille numbers and letters)
Can be operated with one hand
Includes a 3.5 mm headphone jack
Includes a T-Coil coupling
Has a T4 rating for interference
Uses light pressure switches
Can be equipped with a pneumatic switch,
also known as a sip and puff device, or a set
of paddles.

The ImageCast X can present the ballot in audio only,
visual only, or both audio and visual modes,
depending on personal preference. Voters can adjust
the rate and volume of their audio ballot, as well as
the text size and contrast of the display, or disable the
display entirely for added privacy. Every voter
conﬁgurable option is automatically reset to its default
value with the initiation of each new voting session.
Voters are able to review, verify and correct their
selections prior to printing their ballot, by audio and/or
visual means. Voters are warned if they have missed,
or undervoted a contest, and have the opportunity to
go back and correct their selections. Once the ballot
is printed, the voter scans their ballot on the
ImageCast Precinct, the same as all other voters.

Voters can adjust the rate and volume of their audio
ballot.

The ImageCast X was recently deployed in the State of Colorado as
part of their Uniform Voting System initiative, where it received the
highest usability ranking by in-person voters with disabilities. The
ImageCast X features the latest technological advances in accessible
voting technology, providing more options for voters with accessibility
needs to vote privately and independently.

The ImageCast X features many options for
voters with disabilities.

105

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.538 Filed 11/25/20 Page 106 of 161
000560

CONTRACT #071B7700117

ImageCast Central – Scalable & Efficient High Speed Scanning


Dominion’s ImageCast Central tabulation system was designed with efficiency in mind. Most
central count solutions that exist in the market today are large, expensive, proprietary solutions that
are not scalable, efficient or easy to use or maintain.



The ImageCast Central makes use of industry-leading commercial-off-the-shelf (COTS) hardware
to decrease capital costs and minimize risk of hardware failure. So no matter the size of the county,
adding multiple COTS scanners increases efficiency without breaking the bank.



The ImageCast Central is engineered for operational simplicity. Step 1- The user loads a batch of
ballots and presses ‘scan’ – Simple! Step 2 – When the batch scan is complete, the user presses
‘accept’ – Easy! The ImageCast Central continues scanning ballots until there are none left.

106

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.539 Filed 11/25/20 Page 107 of 161
000561

CONTRACT #071B7700117

Dominion’s ImageCast Central, like all of our ImageCast products, stores the ballot image with the secure
AuditMark. The system’s flexibility allows the jurisdiction to customize out-stacking conditions, such as
overvotes, undervotes, marginal marks, and certified write-in contests. The ImageCast Central has all
the tools election officials are looking for to make their central count process easy and more efficient.
With the ImageCast Central count solution, Dominion focused its efforts on how to create efficiency using lower
cost, off-the-shelf scanners which meet the VVSG 2005 standards, and software that streamlines the process.
Dominion has included two scanner options in this proposal, the Canon DR-G1130 and the smaller scale
Canon DR-M160II.
The software is intuitive and requires minimal training for users. It is simple - the operator loads the batch into
the scanner; presses scan. When complete, the operator presses the accept button and moves on to the next
batch. The operator does nothing but process the ballots. The system’s intelligence does the rest. Along with
the requisite COTS hardware, the ImageCast Central provides ample flexibility to meet the needs of small,
medium and large jurisdictions. ImageCast Central allows jurisdictions to consolidate results in an efficient
environment, in real time.

Jurisdictions can add ImageCast Central units to maintain efficiency while remaining cost-effective.

This use of less expensive and compact third-party devices enables the ImageCast Central count solution to
offer higher sustained throughputs in the face of hardware failures, flexible site layouts when space is at a
premium, and access to a vast pool of readily available replacement parts and certified technicians. All of these
factors translate to improved maintainability, and lower cost of ownership.
Central scanning is typically used to process absentee or mail-in ballots. The election definition is taken from
EMS, using the same database that is utilized to program any precinct scanners for a given election. Multiple
ImageCast Central scanners can be programmed for use in an election. The ImageCast Central application is
installed and later initialized on a computer attached to the central count scanner. Ballots are processed
through the central scanner(s) in batches based on jurisdictional preferences and requirements.
The ImageCast Central stores ballot images by scanned batches. The scanned ballot images are migrated to
the Election Management System through computer networking or removable media. As with results data from

107

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.540 Filed 11/25/20 Page 108 of 161
000562

CONTRACT #071B7700117

any precinct scanners in use for an election, Results Tally and Reporting is the portion of EMS that processes
the images to provide tabulation and operational reports to the jurisdiction.
Batches can be appended, deleted, and processed in a number of ways to suit typical election workflows,
intake of ballots before, during, and after Election Day, jurisdictional requirements surrounding absentee ballot
tabulation, and canvassing needs. The ImageCast Central also features all of the technological advances
present in the precinct-level tabulators – the AuditMark and the Dual Threshold technology.

ImageCast Central Reports
Sample ImageCast Central reports can be found in Appendix 2d – Sample ImageCast Central Reports.

108

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.541 Filed 11/25/20 Page 109 of 161
000563

CONTRACT #071B7700117

ImageCast Central Sample Preventative Maintenance Checklist

109

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.542 Filed 11/25/20 Page 110 of 161
000564

CONTRACT #071B7700117

Mobile Ballot Printing Module

Highlights


Simple: No unnecessary complexity – simple interface and voter registration integration
makes it easy for election staff to quickly print the correct ballot style for each voter.



Secure: Strong auditability features ensure security and transparency.



Flexible: The Mobile Ballot Printing module is hardware “agnostic,” giving you the flexibility to
use your existing print hardware or leverage other commercially available off-the-shelf
(COTS) printers.



Efficient: Save on additional printing and storage costs associated with having to provide
multiple ballot styles to every “Vote Anywhere” location.



The Mobile Ballot Printing Module allows you to easily print ballots for any election whenever
and wherever needed – at the central office, at the precinct, or other remote locations. The
system is fully integrated with Democracy Suite.



The system is portable and simple to set up in any location. Since the system is hardware
“agnostic,” the jurisdiction has the flexibility to use their existing print hardware, or leverage
other commercially available off-the-shelf printers that print high-quality paper ballots. Not all
systems can offer this flexibility in printer choice.



The user-friendly interface, along with integration with a variety of voter registration systems,
makes it easy for election staff to quickly print the correct ballot style for each voter. The
Mobile Ballot Printing module simplifies ballot management and logistics – you no longer
need to worry about stacks of different ballot styles in the precinct and about estimating the
correct number of ballots to print.

110

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.543 Filed 11/25/20 Page 111 of 161
000565

CONTRACT #071B7700117

111

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.544 Filed 11/25/20 Page 112 of 161
000566

CONTRACT #071B7700117

Results Accumulation
There are several methods to upload or transmit encrypted vote totals from the precinct tabulators and/or
AVCBs to the Elections Office.

Method 1 – Returning memory cards from each tabulator to the Elections Office
Using this method, after the poll worker closes the polls, the memory cards with the encrypted vote totals are
removed from their slots in the ImageCast Precinct units, and are returned to the Elections Office for manual
upload to the Results Tally and Reporting module.

Method 2 – Dial-up and Cellular Modem transmission
The ImageCast Precinct tabulators can be deployed with remote transmission options
to transfer encrypted results files from the precinct (if used as Election Day tabulators)
or hub (if used as AVCBs) to the Elections Office. This can be done by landline modem,
or by wireless cellular modem.
ImageCast Precinct: The ImageCast Precinct tabulators are equipped with internal dialup modems, and can also transmit results via an external cellular modem.
Transmission of results via modem is a very intuitive process, involving minimal input from a poll worker. After
the polls have been closed, the poll worker has the option to select “Results Transfer” from the Main menu.
The results transfer settings, which contain precinct-specific network data pre-configured from the EMS
System, will appear. To upload the results to the ImageCast Listener server, the poll worker presses “Start”
within the Results Transfer option.
The modem must be plugged into the unit in order to begin results transmission. The intuitive user interface on
the tabulator informs the poll worker of the status of the upload and when it is completed, as seen on the
screenshots below.

112

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.545 Filed 11/25/20 Page 113 of 161
000567

CONTRACT #071B7700117

ImageCast Precinct – Modem transfer interface examples

113

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.546 Filed 11/25/20 Page 114 of 161
000568

CONTRACT #071B7700117

ImageCast Listener

The ImageCast Listener module is responsible for receiving and tracking encrypted results file transmissions
from any ImageCast Election Day tabulator.
Unlike traditional results transmission using FTP/SFTP, the ImageCast Listener uses a secure and proprietary
protocol for establishing an authenticated connection with the ImageCast tabulators. The ImageCast Listener
verifies the signature of the results file upon receipt and immediately informs election officials whether the file is
valid or if any suspicious activity is detected. Results files are encrypted using AES-128 or AES-256. They are
signed with SHA-256.

114

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.547 Filed 11/25/20 Page 115 of 161
000569

CONTRACT #071B7700117

If the ImageCast Listener recognizes the transmitted files as valid, they are automatically made available for
loading into the Results Tally & Reporting module in the main Election Management System server.
As mentioned above, ImageCast tabulators at the voting location will receive confirmation from the server that
the results transmission was successful, or in rare cases, prompt the poll worker to retry the transmission. At
the Elections office, election officials can view the upload status of all ImageCast tabulators deployed in the
field from a single intuitive dashboard.
The ImageCast Listener service resides on an independent server from the main EMS server, and is protected
by a dedicated firewall appliance. The firewall’s client software includes a suite of monitoring tools for
traceability of all external network traffic, including source and destination IP addresses. The ImageCast
Listener’s audit log also records all transmission activity, allowing for full auditability for a given election.

Method 3 – Results Transfer Manager
Similarly to Method 1, memory cards with the encrypted vote totals are removed from
their slots in the units and brought to a local hub. At the hub, the memory cards are
inserted into a card reader connected to an Results Transfer Manager client laptop with
a secure Internet connection. The Results Transfer Manager will automatically upload
the encrypted results files, and transmit them to the ImageCast Listener server, in a
manner similar to results sent via modem. Once the files are received, they are
available for loading into the Results Tally & Reporting module of the EMS system.

115

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.548 Filed 11/25/20 Page 116 of 161
000570

CONTRACT #071B7700117

Election Night Reporting
As an optional additional feature, Dominion offers enhanced Election Night Reporting
tools to create an Internet-based graphical display of results, which provides an
attractive and dynamic focus on election night. Our cross-platform (mobile-friendly)
results display based in HTML5 is our standard and most popular configuration. The
report display runs in real-time on the Internet, updating as results are released from
the results tally module by officials. It can be projected on public display screens, such as County Offices, fed
to local television stations, and displayed on the county or state’s website. Dominion has different report
layouts available, and can configure the display with the jurisdiction’s logos and colors.

The Internet-based graphical display is completely automated and runs behind the scenes. Once
election officials have released a set of results, XML files are created and transferred to a local FTP directory
(or via an external memory device), and the graphical display is automatically updated. This XML file is in an
internationally defined election format called EML (Election Markup Language). As such, the election results
are transferred in a format that can be easily read by news media, if they wish to import the XML files into their
own display program (or they can simply use your Dominion graphical report for broadcast).

116

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.549 Filed 11/25/20 Page 117 of 161
000571

CONTRACT #071B7700117

Example of the Election Night Reporting module web display

117

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.550 Filed 11/25/20 Page 118 of 161
000572

CONTRACT #071B7700117

Electronic Ballot Delivery – Dominion’s ImageCast Remote (UOCAVA)
Dominion’s ImageCast Remote UOCAVA system offers a secure and efficient means
for overseas and military voters to receive, mark, print and return their ballot to their
local elections office. The ImageCast Remote UOCAVA system ensures the security
and transparency of the balloting process while preserving the privacy of UOCAVA
voters.
Fully integrated and supported by Democracy Suite, the ImageCast Remote UOCAVA system allows election
officials to conduct a seamless election, without the need for a separate database or election project. Ballots
returned by UOCAVA voters can be processed on ImageCast Central, eliminating the need to duplicate
ballots or process UOCAVA ballots on a separate system.

118

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.551 Filed 11/25/20 Page 119 of 161
000573

CONTRACT #071B7700117

System Security Overview
Dominion implements security protocols that meet or exceed EAC VVSG 2005 requirements. All of
Dominion’s security protocols are designed and implemented to stay current with the rapidly evolving EAC
security requirements set forth by various iterations of the VVSG.
Dominion’s security technology is unprecedented insofar as it takes into account every aspect and every
component of the Democracy Suite platform. This includes – but is not limited to – the full encryption of
election projects, iButton security keys, Compact flash cards, election data, software applications, elections
results files, and data transmission. In addition, Dominion developed a custom ballot authentication system
built around an (optional) secure ballot paper stock and in-tabulator authenticators.

Maintaining Data Integrity
Data generated by the Democracy Suite platform is protected by the deployment of FIPS-approved symmetric
AES and asymmetric RSA encryption. The Democracy Suite Election Management System uses these
techniques to encrypt election files prior to their use on ImageCast tabulators. Once the polls have been
closed, the ImageCast tabulators encrypt all of the results files prior to transmitting them back to EMS.
SHA-256 hashes are used for all data integrity and verification. Should an intrusive process or altering of any
file occur, hash values will be, in turn, altered as well. With that said, any presence of an intrusive process will
be detected, as the hashes of any altered data will not match the value initially determined.

EMS Security
To protect any modification of software by malicious users, the Democracy Suite Election Management System
integrates the Microsoft .NET Framework code signing process, within which, Dominion Voting digitally signs
every executable and library (DLL) during the software build procedure. After the installation of Election
Management software, only successfully verified EMS software components will be available for use. Digital
signature verification is performed by the .NET Framework runtime binaries. If a malicious user tries to replace
or modify any EMS executables or library files, the digital signature verification will fail and the user will not be
able to start the EMS application.

Role-based Access Controls
Democracy Suite integrates a role-based access control system for all software and hardware components.
Each user accessing the system is the member of one of the predefined or custom-made roles. Each role has
its own set of permissions, or actions that users of that role are allowed to perform. This access control
approach provides authentication and authorization services and can be granular according to the jurisdiction’s
needs and organization. Complete user and role membership management is integrated within the Democracy
Suite EMS Election Event Designer client module.
The Democracy Suite EMS platform implements role-based user management for provisioning access control
mechanisms on each election project. Managing access control policies is integrated within the User
Management activity of the EMS EED module. This activity is permitted only for users with administrative
privileges.

119

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.552 Filed 11/25/20 Page 120 of 161
000574

CONTRACT #071B7700117

Hardware Access Controls
Democracy Suite utilizes hardware-based security
tokens (iButton security keys) in the process of
access control for ImageCast Precinct tabulators.
These password paired hardware tokens contain
data encryption information used in the voting
process (encryption and signing keys). Without a
valid security token, and paired access password,
the administrative functions of election tabulators
are effectively locked.
The poll worker applies his/her iButton security key to the tabulator

Communications
For communication channels (as well as data storage) a combination of security techniques for data integrity,
authenticity and confidentiality is implemented. Democracy Suite integrates AES or RSA encryption algorithms
for data confidentiality, along with SHA-256 and HMAC digital signatures for data signing (data authenticity and
integrity). The system does not require external Internet connections.

Effective Password Management
Proper password management requires multiple activities and controls, namely:
-

Input data validation
Data quality
Utilization of one-way (hash) cryptography
Computer generated passwords for greater entropy and protection from dictionary attacks
Different password strength profiles for different user levels
Utilization of hardware tokens for storing user credentials (two-level authentication security: something
you know and something you have)
User state machine (initial, active, inactive)

120

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.553 Filed 11/25/20 Page 121 of 161
000575

CONTRACT #071B7700117

All of these activities and controls are integrated within the Democracy Suite platform.
Dominion utilizes authentication and authorization protocols that meet EAC VVSG 2005 standards. In addition,
Dominion’s solution relies on industry-standard security features to ensure that the correct users based on a
user role or group are granted the correct privileges. Finally, each jurisdiction is responsible for ensuring that
only authorized personnel have access to both the system and tools used for installation and configuration
purposes. All back end system, and tabulator operations are continuously and completely logged at all times
to maintain a complete record of all election-related processes.

File Type to Security Algorithmic Mappings

EMS Audit Log
From the initial state of the election project, until the deactivation state, the EMS system maintains an activity
log within the EMS Database. This activity log contains every action that any of the users have performed
within the system and represents a detailed audit log that can be analyzed and printed in the form of an audit
report. The audit record information cannot be modified or permanently deleted using the EMS client
applications. It can, however, be exported for archiving purposes as part of the record retention policy. Keeping
in mind that audit log information can contain a significant amount of information, it is the responsibility of the
administrative user to perform regular archiving of the log.
During the voting phase of the election event, ImageCast devices also keep an activity audit log which tracks
events happening on the device itself.

121

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.554 Filed 11/25/20 Page 122 of 161
000576

CONTRACT #071B7700117

Tabulator Security
Electronic Safeguards and Security
To access any of the administration functions of the ImageCast tabulators, an electronic iButton security key
has to make contact with the iButton security key receptacle on the cover of the unit.
Access to the unit can be granted to two different levels of people:
• The poll worker iButton security key is used by the poll worker to access all poll worker functions.
• The Technician iButton security key is used by a Technician with authorized access to update and
verify firmware.
In the power on sequence, the unit will not function until the poll official accesses the administrator access
screen. The ImageCast tabulators are unlocked by an iButton security key, which is used to:
• Authenticate the software version (ensuring it is a certified version that has not been tampered with)
• Decrypt election files while processing ballots during the election
• Encrypt results files during the election
• Provide access control to the unit
It is anticipated that the iButton security keys may get lost; therefore, any substitute key created for the same
tabulator will allow the unit to work fully.
A valid poll worker iButton security key will grant access to the admin screen from which the following
operational functions can be accessed:
• Diagnostics Test
• Provisional Voting/Ballot Test
• Opening Poll
• Accessible Voting
• Closing Poll
• Reports
• Election Statistics
• Re-Open Poll
• Re-Zero Poll
• Power Down
• Ballot Review

Internal Battery
In the event of a power failure, ImageCast tabulator units have an internal Lithium Ion rechargeable battery
with a two-hour life.

122

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.555 Filed 11/25/20 Page 123 of 161
000577

CONTRACT #071B7700117

In the case of a power failure, including full power drain, restarting places the unit in “Interrupt” mode, in which
the previously stored election data is reloaded when the unit resumes operation. If there is catastrophic
electrical or mechanical damage, the memory cards are inserted into a spare unit. When powered on, the unit
resumes operation using the previously stored election data.

Results Storage Media
The ImageCast tabulators have sockets for two removable, non-volatile Compact Flash cards (Primary and
Administration), both of which are accessible from the unit and stored behind sealable doors. The content of
each card is encrypted and signed.
The system saves election and voting data simultaneously to both locations, keeping the content of both
memory cards in sync. The administrative memory card holds a copy of the election results and audit log from
the primary card. The memory cards will retain data for over twenty-two months, as per EAC VVSG 2005
Volume I requirements.

Ballot Size
(Single-sided)
8.5” x 11”
8.5” x 14”
8.5” x 17”
8.5” x 20”
8.5” x 22”
Ballot Size
(Double-sided)
8.5” x 11”
8.5” x 14”
8.5” x 17”
8.5” x 20”
8.5” x 22”

Memory Card Size
8GB
16GB

Approx. Ballot
Image Size (KB)
250
277
312
334
357

4GB
14000
12600
11200
10500
9800

30000
27000
24000
22400
21000

62000
55800
49600
46400
43400

357
454
499
555
624

9800
7700
7000
6300
5600

21000
16500
15000
13500
12000

43400
34100
31100
27900
24800

ImageCast tabulators memory media capacity

Media Storage Security
The entire set of data files supporting the election are contained on the Primary Compact Flash device. The
files stored on these cards allow for recovery from external conditions that cause equipment to become
inoperable. The election results, device logs and scanned ballot images are recoverable from the secondary
memory card. Further, the AuditMark functionality can be used to independently verify the total votes for any
particular candidate or ballot issue.

123

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.556 Filed 11/25/20 Page 124 of 161
000578

CONTRACT #071B7700117

Tabulator Audit Trail
The tabulator Audit trail file is stored on the Compact Flash memory card, and contains a chronological list of
all messages generated by tabulator software. All audit record entries include a time-and-date stamp. This file
is encrypted and digitally signed to protect its integrity.
During the final results tally audit activity, the automated audit log of each optical scanner is input into the
EMS Results Tally and Reporting system for a consolidated record.
This tabulator Audit trail file will include:
 System startup messages (recorded by Application Loader).
 System self-diagnostic messages (module initializations, security verifications).
 All administrator operations (messages include “security key” id names).
 All ballots cast, rejected and diverted.
 All voter notifications (undervotes, overvotes).
 All system errors (paper jams, power failures, hardware failures, data errors, etc.).
 Source and disposition of system interrupts resulting in entry into exception handling routines.
 All messages generated by exception handlers.
 Notification of system login or access errors, file access errors, and physical violations of security
as they occur, and a summary record of these events after processing.
 Non-critical status messages that are generated by the machine's data quality monitor or by
software and hardware condition monitors.
All audit logs are digitally signed. If there is tampering of the audit data or logs, this is detected by the operating
unit. The unit reports ‘Election file mismatch’ and will not operate since modifying the audit files can only
indicate malicious usage.
Every action, event, and operation that occurs on ImageCast tabulators is permanently logged to an audit log
file that exists on both memory cards. Every event and operation that occurs on the election management
system is kept on the election project audit within the EMS Database. This file is signed and encrypted.
Audit logs are available to operators at all times. On the optical scanners, these can be accessed from the
Administration menu, and printed. In EMS, a directory of audit files is accessed in the graphical user interface,
and can be printed. Operators with Administration privileges can access these files at any time.
Audit log records cannot be deleted nor modified. Users with proper authorization levels can generate and view
the audit report. Audit reports cannot be deleted.

124

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.557 Filed 11/25/20 Page 125 of 161
000579

CONTRACT #071B7700117

Exhibit 5 to Schedule A
Sample Ballots and Reports
See separate document (26 pgs.)

125

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.558 Filed 11/25/20 Page 126 of 161
000580

CONTRACT #071B7700117

Exhibit 6 to Schedule A
Michigan QVF Export File Format
See separate document (83 pgs.)

126

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.559 Filed 11/25/20 Page 127 of 161
000581

CONTRACT #071B7700117

Exhibit 7 to Schedule A
Results Transmission Overview
Refer to Exhibit 2 to Schedule A, 1.1-1.4, Technical Requirements: 1.2A.25, 1.2D.1 and 1.3.B.1. The
following provides a detailed description of the recommended infrastructure necessary for a county to design
and implement a LAN, modem based, or cellular transmission network for uploading unofficial results on
election night.
Precinct and RTM Transmission with ImageCast Listener
The ImageCast Listener is an add-on component to the base EMS system—it is designed as a turnkey
solution for jurisdictions to implement results transmission from their precinct tabulators and/or RTM client
laptops. The system supports wireless cellular/internet-based transmission, analog dial-up modem
transmission, or both, providing flexible options to meet a jurisdiction’s particular requirements and
preferences. The jurisdiction is responsible for providing external access to the back-end receiving
infrastructure.
The base ImageCast Listener system consists of two pieces of hardware: the ImageCast Listener (ICL) server
and a firewall appliance (WatchGuard Technologies Firebox M200 or XTM 25). When dial-up transmission is
used, an additional Remote Access Server (RAS) is required. The RAS server uses analog USB modems,
connected to the server via a powered USB 3.0 hub.
In addition to the base EMS system, the required components for the ImageCast Listener system, using
wireless/internet transmission are:
• ImageCast Listener Server (Dell PowerEdge R330 recommended)
• WatchGuard Technologies Firebox M200 or XTM 25 firewall appliance
• 2 x CAT5e or CAT6 Ethernet cables
• 1 x external wireless modem (eDevices CellGo) per precinct (multiple tabulators in a precinct can share the same
modem if transmission is performed serially, rather than simultaneously).
When dial-up transmission is used, the RAS server component is required in addition to the components listed
above:
• Remote Access Server (Dell PowerEdge R330 recommended)
• Powered 10-port USB 3.0 hub
• USB analog dial-up modems (up to 10)
• 1 x CAT5e or CAT6 Ethernet cable
Note: analog modems on the transmitting end are built into the ImageCast Precinct tabulator.

127

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.560 Filed 11/25/20 Page 128 of 161
000582

CONTRACT #071B7700117

The EMS Results Transfer Manager (RTM) application requires the following components:
• Laptop (with internet access)
• Compact Flash (CF) card reader/writer
Complete instructions for installing and configuring the ImageCast Listener and RAS servers can be found in
the system installation documents (2.08 ImageCast Listener System Operation Procedures, RAS Installation
and Configuration Procedure and EMS RTM User’s Guide).
Note: these documents currently describe the configuration steps using screenshots from Microsoft Windows
Server 2008 R2 Standard, however the 5.0-S system uses Microsoft Windows Server 2012 R2 Standard. The
configuration steps are the same on both platforms.

128

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.561 Filed 11/25/20 Page 129 of 161
000583

CONTRACT #071B7700117

For wireless/internet-based results transmission, a static external IP address at the jurisdiction’s central office
is required. Dominion recommends that jurisdictions use a dedicated external internet connection for this
purpose, however jurisdictions may choose to route the TCP/IP traffic from their existing firewall, through their
internal network to the ImageCast Listener firewall. Note that the diagram above illustrates both modes of
external internet access, although only one is required.
Note also that the diagram depicts the EMS Standard configuration. The EMS Express configuration
substitutes the EMS Standard Server and EMS Workstation with a single EMS Express Server machine
(running both server and client applications), and the WatchGuard Firebox M200 with the WatchGuard XTM
25. All other aspects of the system are identical to the EMS Standard configuration.
On the transmitting/sending end, precinct tabulators require an external wireless modem and an active GSM
SIM card with cellular data services enabled (CDMA-based cellular networks are not supported at this time).
RTM clients run on a laptop that requires an internet connection.
For dial-up results transmission, the jurisdiction is required to provide a bank of analog telephone lines that
connect to the Remote Access Server’s (RAS) analog modems. The analog dial-up transmission system does
not support digital telephone lines. These lines should be configured in a “hunt group” allowing a single
telephone number to be dialed from the precinct, with the call rolling over to the next available modem if the
primary line is busy. This configuration minimizes the chance of the tabulator receiving a busy signal and
needing to re-dial.
On the transmitting/sending end, precinct tabulators require an analog telephone line at the voting location,
which is connected to the tabulator’s internal dial-up modem.
Dominion recommends that jurisdictions perform a wireless test at each potential voting location to ensure that
adequate wireless signal is available. Analog phone lines at both the transmitting and receiving end should
also be tested prior to each election to ensure they are functioning correctly.
EMS Results Transfer Manager (RTM)
The EMS Results Transfer Manager application resides on a standalone, internet- or LAN-connected laptop.
The following steps are performed to transmit results securely to the central location:
1. Jurisdictions remove the primary or backup Compact Flash memory card from the ImageCast Precinct
tabulators and transport them to a regional office.
2. The RTM application allows jurisdictions to rapidly load the ICP results files from the Compact Flash
cards to the laptop using a CF card reader.
3. All loaded results files are securely transmitted to the ImageCast Listener or to a local or shared
network folder (see the following section for more details).
Note that the application also supports non-secure FTP transmission. Because the transmission channel is not
encrypted, this functionality is not suitable for use in jurisdictions in the United States. Only secure TCP/IP
transmission to the ImageCast Listener service, or shared folder transmission over secure VPN is permitted.
When RTM is used to transmit results to the ImageCast Listener, the ImageCast Listener Dashboard tracks
the progress of received results files, in the same way as when results are transmitted directly from the
ImageCast Precinct at the polling place.
Please see the EMS Results Transfer Manager User’s Guide for detailed installation and use procedures.

129

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.562 Filed 11/25/20 Page 130 of 161
000584

CONTRACT #071B7700117

EMS Results Transfer Manager With VPN Network
A purely LAN-based solution can be implemented using the RTM application, which allows jurisdictions to load
results from ImageCast Precinct memory cards at a regional office and send those results to a local folder or a
shared network folder within a secure Virtual Private Network (VPN). This solution does not require the
ImageCast Listener on the receiving end. Received results files are manually copied from the shared folder on
the jurisdiction’s secure network to the EMS Workstation machine using a removable medium, and loaded into
the EMS Results Tally and Reporting application.

It is entirely the jurisdiction’s responsibility to set up the required infrastructure for linking remote locations in a
wide-area network (for example, creating secure VPN tunnels between offices). Dominion can work with IT
departments to plan these solutions, but due to the variability of the networking and firewall equipment used by
different jurisdictions, cannot take responsibility for directly configuring or maintaining the jurisdiction’s VPN
infrastructure.
When RTM is used to transmit results to a shared network folder, without the ImageCast Listener, the
Dashboard is not available. Progress of results files can be tracked in EMS Results Tally and Reporting as
they are loaded into the system.

130

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.563 Filed 11/25/20 Page 131 of 161
000585

CONTRACT #071B7700117

Exhibit 8 to Schedule A
Dominion Voting System ImageCast Printing Brief
Version: 4.19::27
April 23, 2015

131

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.564 Filed 11/25/20 Page 132 of 161
000586

CONTRACT #071B7700117

132

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.565 Filed 11/25/20 Page 133 of 161
000587

CONTRACT #071B7700117

133

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.566 Filed 11/25/20 Page 134 of 161
000588

CONTRACT #071B7700117

134

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.567 Filed 11/25/20 Page 135 of 161
000589

CONTRACT #071B7700117

135

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.568 Filed 11/25/20 Page 136 of 161
000590

CONTRACT #071B7700117

136

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.569 Filed 11/25/20 Page 137 of 161
000591

CONTRACT #071B7700117

137

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.570 Filed 11/25/20 Page 138 of 161
000592

CONTRACT #071B7700117

138

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.571 Filed 11/25/20 Page 139 of 161
000593

CONTRACT #071B7700117

139

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.572 Filed 11/25/20 Page 140 of 161
000594

CONTRACT #071B7700117

SCHEDULE B LICENSE AGREEMENT
Dominion Voting Systems, Inc.
EMS AND SYSTEM SOFTWARE LICENSE AGREEMENT
1.

Definitions.
3.2. Certification Requirement. Notwithstanding any other
terms herein, Licensor shall not provide, and shall not be
obligated to provide under any upgrade or other software update
that has not been certified under the applicable provisions of the
election laws and regulations of the State of Michigan.

1.1. “Hardware" means the ImageCast® system defined in the
State Contract.
1.2. “Licensee” shall mean the State and Authorized Users.
1.3. “Licensor” shall mean Dominion Voting Systems, Inc.

4. Prohibited Acts. The Licensee shall not, without the prior
written permission of Licensor:

1.4. “Party” or “Parties” Licensor and Licensee may hereinafter
be referred to individually as a Party and collectively as the
Parties.

4.1. Transfer or copy onto any other storage device or hardware
or otherwise copy the Software in whole or in part except for
purposes of system backup;

1.5. “Software” means the Democracy Suite® and/or
ImageCast® software licensed by Licensor hereunder, in object
code form, including all documentation therefore.

4.2. Reverse engineer, disassemble, decompile, decipher or
analyze the Software in whole or in part;

1.6. “Specifications” means descriptions and data regarding the
features, functions and performance of the Software and
Hardware, as set forth in user manuals or other applicable
documentation provided by Licensor.

4.3. Alter or modify the Software in any way or prepare any
derivative works of the Software or any part of parts of the
Software;

1.7. “State Contract” means the contract entered into by the
State of Michigan and Dominion Voting Systems, Inc. All
capitalized term defined in the State Contract shall have the
same meaning and effect in this EMS and Software License
Agreement.
2.

4.4. Alter, remove or obstruct any copyright or proprietary
notices from the Software, or fail to reproduce the same on any
lawful copies of the Software.
5. Return of Software. Upon termination or expiration of this
license, Licensee shall (i) forthwith return to Licensor all
Software in its possession or control, or destroy all such
Software from any electronic media, and certify in writing to
Licensor that it has been destroyed.

License.

2.1. License to Software. Subject to the terms herein, Licensor
grants Licensee a non-exclusive, non-transferrable license to
use the Software solely for the Licensee’s own business
purposes for the Term of 10 years from the date of purchase,
and any extension thereof by the State or Authorized User.

6. Warranties. All Software warranty terms specified in
Section 31 of the State Contract and Section 1.6 of the State
Contract SOW shall apply to this EMS and System Software
License Agreement.

2.2. Print Copyright License. Subject to the Licensor’s Print
Copyright License terms and conditions attached hereto as
Exhibit B-1. Licensor grants to Licensee a non-exclusive, nontransferable print copyright license.
2.3. No Other Licenses. Other than as expressly set forth herein,
(a) Licensor grants no licenses, expressly or by implication, and
(b) Licensor is not licensing or assigning any intellectual
property rights of Licensor to Licensee or any third party.
Licensee agrees not to use the Software for elections outside
the State of Michigan and agrees not to reverse engineer or
otherwise attempt to derive the source code of the Software. The
Licensee shall have no power to transfer or grant sub-licenses
for the Software. Any use of all or any portion of the Software
not expressly permitted is strictly prohibited.
3. Upgrades and Certification. During the Term, Licensor
may provide upgrades to Licensee under the following terms
and conditions.
3.1. Upgrades. In the event that Licensor, at its sole discretion,
certifies a Software upgrade under the applicable laws and
regulations of the State of Michigan, Licensor shall make the
certified Software upgrade available to the Licensee at no
additional cost.

140

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.573 Filed 11/25/20 Page 141 of 161
000595

CONTRACT #071B7700117

EXHIBIT B-1
PRINT COPYRIGHT LICENSE TERMS AND CONDITIONS
1.

2.

Definitions.
1.1.

“Derivative Works" shall mean any work that is based upon or derived from
the Licensor’s voting systems’ ballots, including without limitation, sample
ballots and voting booklets.

1.2.

“Voting Systems’ Ballots” shall mean any ballot created for use with any
voting system owned or licensed by the Licensor.

Print Copyright License and Use.
2.1.

Copyright License Grant. Licensor grants to the Licensee a non-exclusive,
non-transferable copyright license to print, reproduce, distribute or otherwise
copy the Licensor’s Voting Systems’ Ballots or any Derivative Works
(collectively the “Materials”) pursuant to the terms and conditions of this
Schedule A.

2.2.

Copyright License Use. Other than as expressly set forth herein, (a) Licensor
grants no other licenses, expressly or by implication, (b) Licensor’s entering
into and performing the Agreement will not be deemed to license or assign
any intellectual property rights of Licensor to Licensee or any third party, and
(c) the copyright license granted herein cannot be transferred or sublicensed
and the Voting Systems’ Ballots or Derivative Works cannot be reproduced
by any third party without the prior written consent of the Licensor, including
without limitation:
(i)
(ii)

2.3.

any commercial or non-commercial printer
any third party vendor using ballot on demand system.

Rights and Interests. All right, title and interest in the Material, including
without limitation, any copyright, shall remain with the Licensor.

3. No Copyright Warranties. LICENSOR DISCLAIMS ALL REPRESENTATIONS
AND WARRANTIES, WHETHER WRITTEN, ORAL, EXPRESS, IMPLIED OR
STATUTORY, INCLUDING ANY WARRANTY OF MERCHANTABILITY OR FITNESS
FOR A PARTICULAR PURPOSE AND ANY WARRANTY BASED ON A COURSE OF
DEALING, COURSE OF PERFORMANCE OR USAGE OF TRADE.

141

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.574 Filed 11/25/20 Page 142 of 161
000596

CONTRACT #071B7700117

STATE OF MICHIGAN
Contract No. 071B7700117
Voting System Hardware, Firmware, Software and Service

SCHEDULE C
PRICING
1.

The pricing schedule for the Contract Activities is in the cost tables on the following pages.

2.

Pricing encompasses 5 separate tables (attached):
•
Cost Table 1. Precinct Tabulators and Accessible Voting Systems
•
Cost Table 2. Election Management System (EMS) Software –License Fee and Extended Service /
Maintenance (NOTE: this cost table has 2 parts: Tables 2a and 2b)
•
Cost Table 3. OPTIONAL ITEM – High Speed AVCB Tabulator
•
Cost Table 4. Component Replacement / Additional Parts
• Cost Table 5: Additional Options/Costs – EMS Network Configuration options - The Contractor has
standard third party network configurations and related pricing for use by counties and select local
jurisdictions in implementing Election Management Systems (EMS) for the following environments:
Accumulation Only; Full EMS; Accumulation Only with modeming; and Full EMS with modeming.
Orders for these configuration components will be handled and negotiated separately between the
Contractor and their individual customers.

3.

Prices include all costs, including but not limited to any one-time or set-up charges, fees, and potential costs
that Contractor may charge the State/Authorized User (e.g., shipping and handling, per-piece pricing, and
palletizing). Any element of the Contractor’s system with an associated cost (including optional system
features) must be listed and included in one of the Cost Tables available.

4.

Prices listed are fixed for the contract term, and represent the maximum prices per item. Notwithstanding the
foregoing, the Contractor is authorized to negotiate pricing with individual counties that are lower than the prices
listed here. Any and all lower negotiated prices must be communicated to the Program Manager immediately as
they are finalized. Additionally, price changes may be proposed at the end of the initial service and maintenance
period, (acquisition year + 4 years) for component replacement/additional parts only (Cost Table 4).

142

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.575 Filed 11/25/20 Page 143 of 161
000597

CONTRACT #071B7700117

Cost Table 1. Precinct Tabulators and Accessible Voting Systems

PURCHASE AND INITIAL SERVICE / MAINTENANCE
PERIOD
(ACQUISITION YEAR + 4 YEARS)

Precinct Tabulators –
•
1 at State level (no
charge)
•
1 per county
•
1 per precinct
•
AVCB Tabulators
Accessible Voting System
(1 per polling place)**

EXTENDED SERVICE /
MAINTENANCE PERIOD
(ANNUAL PAYMENT –
UP TO 5 ADDITIONAL
YEARS)

Per-Unit
Purchase
Price

Incentive Program
(existing equipment perunit trade-in discount)
See Schedule A Section
1.9

Per-Unit Purchase
Price with Discount

$5,390.00

($95.00)

$5,295.00

$375.00

$3,555.00

($40.00)

$3,515.00

$240.00

**Polling places with more than 2 precincts may receive an additional accessible voting system.

143

Per-Unit
Annual Extended
Service/Maintenance Price

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.576 Filed 11/25/20 Page 144 of 161
000598

CONTRACT #071B7700117

Cost Table 2. Election Management System (EMS) Software –SOFTWARE LICENSE FEE; INITIAL AND EXTENDED
SERVICE / MAINTENANCE
Two cost tables are included in this section (2a and 2b).Several clarifying notes are provided with respect to EMS Pricing.
EMS costs will be applicable to counties, as well as select local jurisdictions. Each county will select either:
1) Full EMS (“Program Your Own”), for counties that fully program their elections internally (without reliance on the
voting system Contractor/subcontractor); or
2) Accumulation-Only EMS, for counties that rely on the voting system Contractor/subcontractor for programming; the
accumulation-only functionality for these counties shall include the capability to burn media, read media, transmit results
and produce accumulation reports.
•

The Accumulation-Only version of EMS will also be available to local jurisdictions statewide. While each county will
acquire either Full EMS or Accumulation-Only EMS), local cities and townships (local jurisdictions) will have the option to
acquire a copy of Accumulation Only EMS. A statewide EMS purchase for local jurisdictions is not planned.

•

The EMS License fee is included in the initial payment in year 1, and covers the entire contract term. The initial payment
also covers the initial service and maintenance period (acquisition year, plus 4 additional years). The extended
service/maintenance period covers an additional 5 years, after the expiration of the initial service and maintenance period.
During the extended service/maintenance period (years 6-10), counties have the option of selecting either an annual fee
or an hourly technical support rate. See Table 2b for additional information on extended service/maintenance costs and
options.

•

NOTE: Additional EMS component costs are listed in Cost Table 4. Also, Cost Table 5 includes costs for
required/recommended EMS Network components, for several possible network configurations. These additional EMS
component and network costs are the sole responsibility of the county/local jurisdiction.

144

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.577 Filed 11/25/20 Page 145 of 161
000599

CONTRACT #071B7700117

Cost Table 2a – Base EMS Price (Software License Fee + Initial Service/Maintenance)
EMS SOFTWARE LICENSE FEE
(INCLUDES INITIALSERVICE / MAINTENANCE FOR
ACQUISITION YEAR + 4 ADDITIONAL YEARS)
EMS Software License Fee
(price per copy)
Based on total registered voters (county):

Category

County Option 1: Full EMS*

0 to 15,000

$50,310.00

15,001 to 30,000

$64,800.00

30,001 to 60,000

$115,000.00

60,001 to 125,000

$157,250.00

125,001 to 250,000

$220,363.00

more than 250,000

$295,000.00

Based on total registered voters (county):

County Option 2: Accumulation Only*

Local Jurisdiction EMS: Accumulation-Only

0 to 15,000

$12,623.00

15,001 to 30,000

$18,563.00

30,001 to 60,000

$27,000.00

60,001 to 125,000

$41,650.00

125,001 to 250,000

$58,905.00

more than 250,000

$84,150.00

$2,500.00

*Please see the list below for the specific EMS software components that are included in both the full and Accumulation

Only versions of Democracy Suite® EMS:

145

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.578 Filed 11/25/20 Page 146 of 161
000600

CONTRACT #071B7700117

Both full and Accumulation only versions of Democracy Suite® EMS include:
Dominion Software Modules:
Democracy Suite® EED
Democracy Suite® RTR
Democracy Suite® AS
Data Center Manager – DCM
Application Server – APPS
Democracy Suite® EMS Service
ImageCast® Voter Activation – ICVA
Results Transfer Manager – RTM
Election Data Translator – EDT
File System Service – FSS
Smart Card Service
Third Party Software Components:
Adobe Reader
Microsoft SQL
Microsoft Visual Studio C++ 2013 Redistributable Libraries
Microsoft Visual J# Redistributable Libraries
Java Runtime Environment
Microsoft Access Database Engine
Open XML SDK 2.0 for MS Office
Dallas Semiconductor 1-Wire Driver(s) for iButton
System Fonts (Arial)
Cepstral
Google Text-to-Speech
The Accumulation only version allows for restoring project databases, programming machine memory cards, editing audio for
accessible voting, uploading results, and generating results reports.

146

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.579 Filed 11/25/20 Page 147 of 161
000601

CONTRACT #071B7700117

Cost Table 2b – EMS Extended Service / Maintenance Fees
NOTE: For EMS extended service / maintenance, counties have the option to choose either a flat annual rate or an hourly
technical support rate. These rates shall be the same for all counties for each option (one set price for Full EMS, one set
price for Accumulation-Only EMS).
EMS EXTENDED SERVICE / MAINTENANCE PERIOD
(UP TO 5 ADDITIONAL YEARS)
OPTION 1:
ANNUAL COUNTY EMS SUPPORT PAYMENT
EMS Extended Service / Maintenance Annual
Payment Option
(annual price per county)

OPTION 2:
HOURLY TECHNICAL SUPPORT
RATE
EMS Extended Service /
Maintenance
Hourly Technical Support Rate
Option for Counties

Based on total registered voters
County Option 1: Full
EMS*

(county):

$8,000.00

0 to 15,000

$10,000.00

15,001 to 30,000

$20,000.00

30,001 to 60,000

$25,000.00

60,001 to 125,000

$34,000.00

125,001 to 250,000

$50,000.00

$300.00

more than 250,000

County Option 2:
Accumulation-Only*

Based on total registered voters
(county):
0 to 15,000

$1,700.00
$2,500.00

15,001 to 30,000

$3,000.00

30,001 to 60,000

$300.00

$5,400.00

60,001 to 125,000

$8,400.00

125,001 to 250,000

$12,000.00

more than 250,000
Local Jurisdiction EMS:
Accumulation Only

$750.00

147

$300.00

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.580 Filed 11/25/20 Page 148 of 161
000602

CONTRACT #071B7700117

Cost Table 3. OPTIONAL ITEM – High Speed AVCB Tabulator
Hardware
COTS?
(Y/N)

Additional Hardware /
Software Required?
(Y/N)**

Processing Speed
(Ballots per
Minute)

Per-Unit
Purchase
Price
(includes
Service /
Maintenance
for acquisition
year + 4 years)

Annual Per-Unit
Extended
Service /
Maintenance Price
(5 additional years)

$14,050.00

$2,500.00

$2,200.00

$115.00

$19,100.00

$2,900.00

$35,350.00

$5,515.00

$3,480.00

$725.00

$2,200.00

$115.00

$7,300.00

$900.00

$12,980.00

$1,740.00

High Speed AVCB
Tabulator*
ICC G1130 System
Canon DR-G1130

Yes

Yes – ICC Software

Workstation

Yes

Yes – ICC Software

ICC Software

NA

Yes – Workstation and
Scanner

ICC M160II System
Canon DR-M160II

Yes

Yes – ICC Software

Workstation

Yes

Yes – ICC Software

ICC Software

NA

Yes – Workstation and
Scanner

11" - 80/min,
4,800/hr
14" - 64/min,
3,840/hr
17" - 53/min,
3,180/hr
20" - 45/min,
2,700/hr
11" - 60/min,
3,600/hr
14" - 47/min,
2,820/hr
17" - 38/min,
2,280/hr
20" - 33/min,
1,980/hr

*NOTE:
• The AVCB tabulators are utilized at the local jurisdiction (city/township) level, not at the county level.

148

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.581 Filed 11/25/20 Page 149 of 161
000603

CONTRACT #071B7700117

Cost Table 4. Component Replacement / Additional Parts
All applicable and available component parts for the Contractor’s system are listed below. For each component part, the
Contractor has identified the source for obtaining the part and whether the part is available commercially off the shelf (COTS).
NOTE: If alternative purchase sources are available, the State, counties and local jurisdictions reserve the right to purchase
from those sources.
Contractor must also list all other system features available in their proposed system, if the cost for such features have not
been included elsewhere in this Cost Proposal.
Product
Ballot and Report Printer - C931
Compact Flash Memory Card 8GB
Compact Flash Reader/Writer
EMS Express Managed Switch
EMS Express Server - Desktop
EMS Standard Server - Rackmount
EMS Standard Server KVM Switch - Rackmount
EMS Standard Server Network Switch - Rackmount
EMS Standard Server Power Strip - Rackmount
EMS Standard Server Rack
EMS Standard Smart UPS
EMS Workstation PC
ImageCast Listener Express Firewall
ImageCast Listener Express RAS Server
ImageCast Listener Express Server - Desktop
ImageCast Listener Standard Firewall - Rackmount
ImageCast Listener Standard RAS Server Rackmount
ImageCast Listener Standard Server - Rackmount
ImageCast Listener USB Hub
ImageCast Listener USB Modems
Headphones
I-Button Programmer with USB Adapter
ICC I-Button Security Key
ICP Backup Battery
ICP Ballot Box - Plastic
ICP Ballot Box - Collapsible Plastic
ICP Cleaning Sheet
ICP External Wireless Modem
ICP I-Button Security Key
ICP Paper Roll (60')
ICP Power Supply and Cord
ICP Tech Key - Blue
ICP-300A Coin Battery
ICX Accessible Voting Kit
ICX Transport Case
ICX Printer Transport Case
ICX Laser Printer
ICX UPS 1500
ICX Smart Card
ICX Smart Card Programmer
ICX Voting Booth
Mobile Ballot Printing System Hardware - LV

5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years
5 years

Purchase Source
(Indicate if COTS)
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS
COTS

5 years

COTS

$2,000.00

5 years
5 years
5 years
5 years
8 years
8 years
5 Years when recharged every 6
months
7 years
5 years
1 year
10 years
8 years
1 year
7 years
8 years
7 years
7 years
7 years
7 years
5 years
5 Years when recharged every 6
months
5 years
5 years
8 years
5 years

COTS
COTS
COTS
COTS
COTS
COTS

$2,000.00
$165.00
$225.00
$15.00
$50.00
$25.00

Estimated Life (Years)

149

Dominion
Dominion
Dominion
Dominion
COTS
COTS
Dominion
Dominion
Dominion/COTS
COTS
COTS
Dominion
Dominion
COTS
COTS
COTS
COTS
ElectionSource
Dominion/COTS

Per-Unit Price
$6,200.00
$75.00
$60.00
$200.00
$1,750.00
$7,800.00
$80.00
$400.00
$200.00
$900.00
$800.00
$1,200.00
$480.00
$2,000.00
$2,200.00
$2,300.00

$165.00
$1,000.00
$1,000.00
$20.00
$295.00
$25.00
$2.50
$30.00
$25.00
$5.00
$400.00
$175.00
$100.00
$220.00
$600.00
$10.00
$200.00
$375.00
$9,500.00

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.582 Filed 11/25/20 Page 150 of 161
000604

CONTRACT #071B7700117
Cost Table 5 – EMS Network Configuration Options
Dominion Voting Systems
Democracy Suite Sample Configuration for Michigan
The following Democracy Suite® Configurations are samples based on estimated needs of the counties
and local jurisdictions. These configurations can be further adjusted according to the specific
components required for each county. They have been simplified to illustrate the major components
required in each location.
Configuration 1
Democracy Suite® Components located at the County/central office and/or local satellite office (city or township) for larger jurisdictions:


EMS Standard (with client station)



EMS Express (no client station)




Listener (wireless modems only)
ICC (M160-II) for AVCB

Please see below for the Configuration diagram.

Dominion Voting Systems

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.583 Filed 11/25/20 Page 151 of 161
000605

CONTRACT #071B7700117

Configuration 2
Democracy Suite® Components located at the County/central office and/or local satellite office (city or township) for larger jurisdictions:


EMS Standard (with client station)



EMS Express (no client station)




Listener (wireless and analog modems)
ICC (M160-II) for AVCB

See below for the Configuration Diagram.

151

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.584 Filed 11/25/20 Page 152 of 161
000606

CONTRACT #071B7700117

Configuration 3
Democracy Suite® Components located at the County/central office and local satellite office (city or township) for small to medium


EMS Express (no client station)



Listener (wireless modems only)


ICC (M160-II) for AVCB
Dominion Voting Systems
Configuration 3
Democracy Suite® Components located at the County/central office and local satellite office (city or township) for small to medium sized counties:

•
•
•

EMS Express (no client station)
Listener (wireless modems only)
ICC (M160-II) for AVCB

Please see the next page for the Configuration diagram.

152

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.585 Filed 11/25/20 Page 153 of 161
000607

CONTRACT #071B7700117

Dominion Voting Systems
Configuration 4
Democracy Suite® Components located at the County/central office and local satellite office (city or township) for small to medium sized counties:

153

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.586 Filed 11/25/20 Page 154 of 161
000608

CONTRACT #071B7700117



EMS Express (no client station)



Listener (wireless and analog modems)



ICC (M160-II) for AVCB

Please see below for the Configuration diagram.

Cost Table 5 – EMS Network Configuration Options
Democracy Suite Sample Configuration Pricing for Michigan

154

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.587 Filed 11/25/20 Page 155 of 161
000609

CONTRACT #071B7700117

Configuration 1 - Hardware Pricing

Product

Purchase Source

Quantity

Per-Unit Price

Total Price

EMS Standard Server - Rackmount

COTS

1

$7,800.00

$7,800.00

EMS Standard Server KVM Switch - Rackmount

COTS

1

$80.00

$80.00

EMS Standard Server Network Switch - Rackmount

COTS

1

$400.00

$400.00

EMS Standard Server Power Strip - Rackmount

COTS

1

$200.00

$200.00

EMS Standard Server Rack

COTS

1

$900.00

$900.00

EMS Standard Smart UPS

COTS

1

$800.00

$800.00

EMS Workstation PC

COTS

1

$1,200.00

$1,200.00

ImageCast Listener Standard Firewall - Rackmount

COTS

1

$2,300.00

$2,300.00

ImageCast Listener Standard Server - Rackmount

COTS

1

$2,000.00

$2,000.00

EMS Report Printer

COTS

1

$250.00

$250.00

County or Central Location:

$15,930.00

Total per County:

City or Town Location:
EMS Express Managed Switch

COTS

1

$200.00

$200.00

EMS Express Server and Adjudication Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ICC Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ImageCast Express Firewall

COTS

1

$480.00

$480.00

EMS Report Printer

COTS

1

$250.00

$250.00
$5,330.00

Total per City or Town:

155

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.588 Filed 11/25/20 Page 156 of 161
000610

CONTRACT #071B7700117

Configuration 2 - Hardware Pricing

Purchase
Source

Quantity

EMS Standard Server - Rackmount

COTS

1

$7,800.00

$7,800.00

EMS Standard Server KVM Switch - Rackmount

COTS

1

$80.00

$80.00

EMS Standard Server Network Switch - Rackmount

COTS

1

$400.00

$400.00

EMS Standard Server Power Strip - Rackmount

COTS

1

$200.00

$200.00

EMS Standard Server Rack

COTS

1

$900.00

$900.00

EMS Standard Smart UPS

COTS

1

$800.00

$800.00

EMS Workstation PC

COTS

1

$1,200.00

$1,200.00

ImageCast Listener Standard Firewall - Rackmount

COTS

1

$2,300.00

$2,300.00

ImageCast Listener Standard Server - Rackmount

COTS

1

$2,000.00

$2,000.00

ImageCast Listener Standard RAS Server - Rackmount

COTS

1

$2,000.00

$2,000.00

ImageCast Listener USB Hub

COTS

1

$165.00

$165.00

ImageCast Listener USB Modems - quantity based on 6 tabulators using analog modems

COTS

12

$225.00

$2,700.00

EMS Report Printer

COTS

1

$250.00

$250.00

Product

Per-Unit Price

Total Price

County or Central Location:

$20,795.00

Total per County:

City or Town Location:
EMS Express Managed Switch

COTS

1

$200.00

$200.00

EMS Express Server and Adjudication Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ICC Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ImageCast Express Firewall

COTS

1

$480.00

$480.00

156

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.589 Filed 11/25/20 Page 157 of 161
000611

CONTRACT #071B7700117
EMS Report Printer

COTS

1

$250.00

$250.00
$5,330.00

Total per City or Town:

157

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.590 Filed 11/25/20 Page 158 of 161
000612

CONTRACT #071B7700117

Configuration 3 - Hardware Pricing

Purchase
Source

Quantity

EMS Express Managed Switch

COTS

1

$200.00

$200.00

EMS Express and Listener Server - Desktop

COTS

1

$2,200.00

$2,200.00

ImageCast Listener Express Firewall

COTS

1

$480.00

$480.00

EMS Report Printer

COTS

1

$250.00

$250.00

Product

Per-Unit Price

Per-Unit Price

County or Central Location:

$3,130.00

Total per County:

City or Town Location:
EMS Express Managed Switch

COTS

1

$200.00

$200.00

EMS Express Server and Adjudication Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ICC Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ImageCast Express Firewall

COTS

1

$480.00

$480.00

EMS Report Printer

COTS

1

$250.00

$250.00
$5,330.00

Total per City or Town:

158

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.591 Filed 11/25/20 Page 159 of 161
000613

CONTRACT #071B7700117

Configuration 4 - Hardware Pricing

Purchase
Source

Quantity

EMS Express Managed Switch

COTS

1

$200.00

$200.00

EMS Express Server - Desktop

COTS

1

$2,200.00

$2,200.00

ImageCast Listener Express Firewall

COTS

1

$480.00

$480.00

ImageCast Listener Express Server (Wirelss and Analog)

COTS

1

$2,000.00

$2,000.00

ImageCast Listener USB Hub

COTS

1

$165.00

$165.00

ImageCast Listener USB Modems - quantity based on 6 tabulators using analog modems

COTS

12

$225.00

$2,700.00

EMS Report Printer

COTS

1

$250.00

$250.00

Product

Per-Unit Price

Per-Unit Price

County or Central Location:

$7,995.00

Total per County:

City or Town Location:
EMS Express Managed Switch

COTS

1

$200.00

$200.00

EMS Express Server and Adjudication Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ICC Workstation - Desktop

COTS

1

$2,200.00

$2,200.00

ImageCast Express Firewall

COTS

1

$480.00

$480.00

EMS Report Printer

COTS

1

$250.00

$250.00
$5,330.00

Total per City or Town:

159

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.592 Filed 11/25/20 Page 160 of 161
000614

CONTRACT #071B7700117

Modular Software Pricing
Adjudication Software Pricing
Purchase
Source

Based on total registered voters (county):

5 year Initial
Contract
Period

Extended Service / Maintenance Annual
Payment

0 to 15,000

Dominion

$7,043

$900

15,001 to 30,000

Dominion

$14,085

$1,800

30,001 to 60,000

Dominion

$21,128

$2,700

60,001 to 125,000

Dominion

$31,500

$4,050

125,001 to 250,000

Dominion

$49,298

$6,300

more than 250,000

Dominion

$70,425

$9,000

Listener Software Pricing
Purchase
Source

Based on total registered voters (county):

5 year Initial
Contract
Period

Extended Service / Maintenance Annual
Payment

0 to 15,000

Dominion

$9,000

$1,000

15,001 to 30,000

Dominion

$10,800

$1,200

30,001 to 60,000

Dominion

$12,600

$1,400

60,001 to 125,000

Dominion

$21,600

$4,320

125,001 to 250,000

Dominion

$36,000

$7,200

more than 250,000

Dominion

$54,000

$10,800

160

Case 2:20-cv-13134-LVP-RSW ECF No. 1-8, PageID.593 Filed 11/25/20 Page 161 of 161
000615

CONTRACT #071B7700117

Mobile Ballot Printing Software Pricing
Purchase
Source

Based on total registered voters (county):

5 year Initial
Contract
Period

Extended Service / Maintenance Annual
Payment

0 to 15,000

Dominion

$3,240

$360

15,001 to 30,000

Dominion

$4,050

$450

30,001 to 60,000

Dominion

$4,860

$540

60,001 to 125,000

Dominion

$6,750

$810

125,001 to 250,000

Dominion

$10,530

$1,170

more than 250,000

Dominion

$16,200

$1,800

161

Case 2:20-cv-13134-LVP-RSW ECF No. 6-9, PageID.1476 Filed 11/29/20 Page 1 of 3
000616

Case 2:20-cv-13134-LVP-RSW ECF No. 6-9, PageID.1477 Filed 11/29/20 Page 2 of 3
000617

Case 2:20-cv-13134-LVP-RSW ECF No. 6-9, PageID.1478 Filed 11/29/20 Page 3 of 3
000618

Case 2:20-cv-13134-LVP-RSW ECF No. 6-10, PageID.1479 Filed 11/29/20 Page 1 of 7
000619

State of Michigan

)

County of Oakland ) Sworn Statement
1. My name is Kayla Toma, I am a law school graduate, a US citizen, an Oakland County
resident, and registered voter who resides in Novi, MI.
2. On Election Day, November 3, 2020, I was a volunteer for the Michigan Republican Party and
Trump Campaign in Lansing at the Radisson hotel. I signed up for the 12 to 3 PM shift, but
ended up working until 12 AM.
3. At the headquarters, I filled out incident reports. I would get calls and emails relating to poll
challengers, poll watchers, or concerned voters that called the EDO hotline to report an incident
or something that they saw as suspicious.
4. !,made notes about incidents as quickly as possible. I was able to receive and note scores of
unliawful incidents and report them to the on-site attorneys.
5. If there-was a clear violation of election law, I would walk over to the two supeIVisors, give
them a quick description of the incident, and they reported it to the lawyers.
6. Our written reports contained blanks for description of the incident, name, phone, township or
city, county, polling location, category of incident (illegal voting, intimidation, electioneering,
ballots, machines, election workers, etc.), as well as what was the remedy/response (if any).
7. While making these reports, I began seeing a pattern and frequently encountering illegal
situations, and otheFstrange situations, that were very concerning and stuck with me.
8. The following is not an exhaustive list of the reports that were made to me as an EDO
Hotline operator, but these stuck out as highly questionable or concerning:
9. During a challenger's ·shift at the polling location, the election worker preemptively shut down
the machine, prior to any malfunction or jam. The election worker, after being approached by the
challenger, told the challenger that they could just tell when a machine is about to jam so they
were allowed to do this.
10. There were several reports of polling places with their malfunctioning machines
11. While the machines were down in various areas in the morning, afternoon and evening,
concerned voters began calling to verify if it was OK that they are being told by election workers
to place their ballots in the back of the machine even though the ballots were within reach and
could be easily pulled out after they left.
12. Other callers, at separate polling locations, had similar concerns. Instead of putting their
ballots in the back of the machine, they were required to place their ballots in a blue square clear
bag located just behind the machine.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-10, PageID.1480 Filed 11/29/20 Page 2 of 7
000620

13. In Detroit, after attempting to enforce the rules re. a provisional ballot, a challenger was met
with a hostility by election workers-the challenger pointed out the hostility and they then
refused to allow the challenger to see the poll book.
14. Similarly, several challengers were not allowed to stand behind the election workers and
were blocked from seeing poll books.
15. In one situation, a challenger was extremely upset that she was told she had to be 10-15 feet
away and could not see the poll book. She requested a lawyer to come out right away. Poll
workers then became aggressive and bullied her by saying that she was blind for not being able
to see a poll book 10-15 feet away from a diagonal angle, and even threatened to have her
arrested.
16. In different polling locations, there were several calls made about clear violations of the 100foot rule. There were posters, pamphlets, and banners, explicitly advocating for Democratic
candidates within 100 feet of the front door. The challengers/voters that I spoke with took
photographs and videos of these violations, including incidents ofliterature distributed at the
door, pamphlets of lists of Democrats that the voter should vote for within 50 feet of the door,
and large Democratic boards and banners within 100 feet of the door.

17. Poll challengers or Republican voters reported a water pipe broken in a precinct. (I heard that
in other states water pipes were breaking in Republican districts.)
18. There were several calls from challengers and voters claiming that voters were required to
use permanent markers on the ballot; one voter observed that the marker bled through to the back
of his ballot, allowing duplication of on the ground that this was a "mistake" by the voter.
19. One caller reported containers/coolers in the polling location which could have contained
ballots.
20. One voter reported that Googling "Republican Party near me" and "Republican Party number
near me," showed only Democratic hotlines. It wasn't until she searched MI GOP on Facebook
iliat she got ilie number.

Sworn to before me this.
day of November 2020

I 3 t\.JCY 1 Oc9'0

~ .

e 2:20-cv-13134-LVP-RSW ECF No. 6-10, PageID.1481 Filed 11/29/20 Page 3
000621

State of Michigan
County of Oakland ) Sworn Statement
1. My name is Kayla Toma, I am a law school graduate, a US citizen, an Oakland County
resident, and registered voter who resides in Novi, MI.
2. On Wednesday, November 4, 2020, I received an email from Nicholas Schneider, Michigan
Republican Deputy Coalitions Director in Michigan to volunteer.
3. I signed up to be a canvasser in Oakland County, Michigan.
4. On Nov. 4 at about 12:00 I arrived at the 1200 Building in Pontiac, Michigan . At 12:05, I
found the Oakland County Elections Office. I told the front desk person that I that I was a
canvasser.
5. Inside the office, I noticed a long line and stock pile of boxes, and bins that were stacked on
top of one another. The bins were overtilled with folders.
6. The front desk lady showed me two sign-in sheets that were side-by-side. The left side, I was
told, was,for the general public, whereas the right was for the employees who would be
reviewing and deciding on the reports. I signed in at 12:09, but I never signed the time that I left.
(I have evidence of the sign-in sheet).
7. The canvassing room was huge, at least 100 feet long. There were five people having lunch
close to one another.
8. There were two African females; one younger Caucasian female with dark hair; one older
Caucasian female, with a blue shirt, red vest, and light-colored hair that was short; and one husky
Caucasian older male.
9. Initially, (I have a video) the rooms were divided by sections of rows; at the end of the room
and along the back walls, there were 5 office desks.
10. By the time I left, the room changed drastically. There were no more sections or tables--only
chairs pushed to the walls and employees working at their desks at least 100ft away. One desk
was 50ft away, so far that I could not observe anything or hear what was said or whispered.
11. The following is the layout (I have photos and videos of the layout) of how the room looked
initially:

e 2:20-cv-13134-LVP-RSW ECF No. 6-10, PageID.1482 Filed 11/29/20 Page 4
000622
12. There was at least one chair for every table. There was plexiglass that di vided each tab le.
There was at least six tables for each row (3 , side-by-side).
13 . Each row was long, and there were seven rows. Two rows were laid out on the right side of
the room, directly when you walk into the room . Two rows were going vertically: one of th ose
rows were where the employees were eating their lunch.
14. One row was in the near middle to the left side of the room; and two rows were on the left
side of the room .
15. Five out of the seven rows had election materials on them, either they were folders, papers,
and pencils and highlighters, and they also had very large bins stuffed to the top with large
folders right next to the table or on top.
16. When I sat down, I pulled out my phone to take a picture. The older Caucasian female in the
vest struck up a conversation with me. She told me everyone was at lunch and that they will not
begin working for another 40 minutes. She suggested that I should to leave and return later. She
told me it was going to be boring to observe. I said no thanks, I'd wait. She then asked me who
am I here with, I told her that I am here as a volunteer to observer as a member of the public. She
then asked again, who am I here with, and I replied that I was a Republican volunteer to observe
as a canvasser. I could tell that the answer did not sit well with her because she began to get
defensive and her mood switched. She then repeated that they were not going to start for another
40 minutes. And I said I'll wait, that I did not mind.
17. Shortly after the exchange, two other Caucasian females, middle-aged, came into the room .
noticed that the person in the red vest, looked at me and then went to those two females who then
began whispering and huddling in a pack. One of the females had a manila envelope in her hand.
I thought they were acting suspicious; their body language told me that they didn't like me there.
So, I took pictures of them. One other woman said that she took a picture ofus.
18. As they formed their group, I noticed another group come in. This time it was a group of
men. The vested woman ordered him to break down the tables and put it on the outside of the
side of the room. She told him to take away the plexiglass.
19. I asked one of the guys what they were doing, and then asked him how was I supposed to
observe? He didn't like what was happening. (I have a video) he then walked over to the husky
man. The husky man then walked over to me.
20. The husky man (recording number 348, 1:35) told me that I needed to contact Rocky
(Rajkowski), whom I knew to be a member of the Oakland County GOP.
21. The husky man stated that since we didn't get tables, we had to sit in the chairs, and then I
asked how was I supposed to review (observe) the documents and then he said "you don' t get tot
This isn't what this about. Rocky has been here this morning, to straighten that out. He left with
a clear understanding of the process." He told me that I needed to check in with Rocky. I told
him that I do not have his contact information, and if he's willing to give it to me, and he said no.

0-cv-13134-LVP-RSW ECF No. 6-10, PageID.1483 Filed 11/29/20 Pa
000623
22 . I explained that I was unfamiliar with the process and that I did not have Rocky's number,
and asked if there were a particular rule that I should be aware of.
23 . The husky man then told me that "the people who sent me should have prepared me." I said
that I understood, and asked for a particular rule, and he told me MCL 160.
24. After looking this rule up on my phone, I realized that the husky man was intenti onally trying
to undermine my right to observe since there is no election law under MCL 160. I turned on my
camera and began recording them breaking down the tables and stacking up the chairs instead.
25 . I made sure my chair was not going to be touched, by sitting in it, while it was already
dragged off to the side and against the wall .
26. I contacted Mayra Rodriguez, who was involved with the 14th Congressional District. I told
her at 12:44 that they were taking tables away, while everyone was out to lunch . She told me that
she would let others know. I text her at 12:52 when I spoke with the supervisor, Ellie (or a name
that is similar to it), who claimed that the tables were rentals, but they were never taken from the
office. They were still on the side of the room off to the side, even at the time I left at 2pm. The
tables were there for 2 hours, so they did not appear to rentals .
27. Before they began but after they broke down the tables, an older lady in navy-colored outfit,
also a public observer, came back from her lunch break and sat near me. She told me that she
was with the League of Women Voters of Michigan. (I have a recording of this conversation,
recording number 349, 5:06). She said that the tables were a waste of space and it was good to
have it removed because of Covid.
28. She attempted to say that they removed the tables because of social distancing. I said that
social distancing meant 6 feet, not 20 feet, apart. I said that plexiglass dividers protected people.
Observers were simply unable to observe.
29. Before lunch, the tables were set up, and used by everyone, but when I came at noon, after
stating my political affiliation, the guys were called to break down the tables, and cleared out the
room. I was fed up. I went out of the room and into the office area.
30. I recorded a conversation with the receptionist, Andie (or Angie or Addie) (I have thi s
recording, recording number 350, at I :20) Andie was at the front desk.
31. I approached Andie to ask if they are having the chairs placed on top of each other, or against
the wall, where the observers were supposed to review the reports, as the distance they wanted
was at least 100 feet between my seat and where the workers and reports were. I asked how I was
supposed to observe from 100 feet away .
32. Andie stated that "you can't be on top of them ." I told her that it is not my intention to be "on
top of them" because I have a very low immune system , and even showed her medical proof.

0-cv-13134-LVP-RSW ECF No. 6-10, PageID.1484 Filed 11/29/20 Pa
000624
33 . Andie became sympathetic. I explained that I understand there' s hi gh stress levels, hostil ity,
tn the workers_who may resent that I was judging or checking their jobs, but that was not my
intention . My intent was to volunteer to make sure that there was a lawful election.
34. I explained that this was the law. I also apologized to her in advance for asking more
questions.
35 . _She then explained the process: at the end of the night, there was paperwork that each
polling location required, including canvass reports. Everything had to be complete, signed
properly, and votes balanced-all this was to be recorded .
36. I told her that they wanted me against the wall, with no tables in their room, with workers at
their desk at the very end of the far side of the room . I couldn't see what is going on.
37. I said that they wanted me 100 feet away, so I could not observe, just try to listen.
38. Andie then introduced me to Ellie, who was "the second in command to the director" . Elli e
was a supervisor of the whole office.
39. I asked Ellie what happened if I could not observe or even hear discussions? The workers
were whispering and barely talking.
40. Ellie told me that workers do not have to discuss the reports; they could unilaterally decide
discrepancies, and correct them on the report that is within the report, without di scussing it
amongst their peers. I asked if they were going to at least call out the inforrnation on the reports
and she told me that I wouldn't get to know the numbers, and they didn't have to tell me or
discuss anything.
41. I asked why I should be there, i.e. what was the point of having a law for observers to
observe if they could not hear or see anything. She couldn't answer this question. I realized that
they were all following a pattern. Indeed, she went right back to talking about Covid. In
addition, I thought that it was odd that the courthouse could not afford tables and had to rent
them . It didn' t make sense. Nevertheless, I went back into the room .
42. I heard the lady in the red vest tell the African-American female worker to add two points.
43 . Immediately, I walked outside to find Ellie to ask her one last question . Andie told me Ellie
is not in her office. Andie told me to tell her my question so she can rely it to Ellie since she is
going to go look for her now. I stated to Andie, my question is whether I could ask questions to a
person reviewing the reports, i.e. elaborate, after they made a remark? (Recording 352).
44 . Ellie answered the question, according to Andie, who then relied that answer. Andie told me
that I was not allowed to talk to them . I was not allowed to ask any questions nor obtain any
inforrnation.

cv-13134-LVP-RSW ECF No. 6-10, PageID.1485 Filed 11/29/20
000625
45 . At thi s time, I was so fed up that I texted Mayra and a famil y friend , saying that I needed a
lawyer because I knew these were blatant violations.
46 . I also then called Rocky and told him what the workers were claiming. I told him I was
leaving because they would not let me hear or know or see anything. I walked out of the room .
told Rocky how they told me that I was unable to view any reports; they didn' t need to talk to
each other and could unilaterally decide and correct incorrect canvassing reports on their own.
47 . I left the room about four times. Whenever I walked out of the room, the older lady in the
red vest always followed me. I was being watched. She was listening to my conversations and
watching what I was doing.
48. Before going on one restroom break, I placed my purse on the chair and left the room and the
office. When I came back into the office, the doors were locked. I looked and pointed at the door
after seeing Andie, who opened the door. The lady in the red vest was nearby . She seemed
annoyed, and I noticed that two blue coolers that once were placed on top of each other were
moved side by side.
49. By the coolers there was a black box that look like a drive or a modem . When the coolers
were set side by side, the black box was in front.
50. I believe it was odd that coolers were used because everyone brought their own lunch, and in
their own lunch bags. (please see videos of break-down of tables). They never went to the
coolers while I was present. I believe that other items, not the regular drinks or food, were kept
in the coolers.

~
Sworn to before this

)3 Nov . Jo,;:lo

day of November 2020

a

Case 2:20-cv-13134-LVP-RSW ECF No. 6-11, PageID.1486 Filed 11/29/20 Page 1 of 3
000626

Case 2:20-cv-13134-LVP-RSW ECF No. 6-11, PageID.1487 Filed 11/29/20 Page 2 of 3
000627

Case 2:20-cv-13134-LVP-RSW ECF No. 6-11, PageID.1488 Filed 11/29/20 Page 3 of 3
000628

Case 2:20-cv-13134-LVP-RSW ECF No. 6-11, PageID.1486 Filed 11/29/20 Page 1 of 3
000629

Case 2:20-cv-13134-LVP-RSW ECF No. 6-11, PageID.1487 Filed 11/29/20 Page 2 of 3
000630

Case 2:20-cv-13134-LVP-RSW ECF No. 6-11, PageID.1488 Filed 11/29/20 Page 3 of 3
000631

Case 2:20-cv-13134-LVP-RSW ECF No. 6-12, PageID.1489 Filed 11/29/20 Page 1 of 5
000632

Case 2:20-cv-13134-LVP-RSW ECF No. 6-12, PageID.1490 Filed 11/29/20 Page 2 of 5
000633

Case 2:20-cv-13134-LVP-RSW ECF No. 6-12, PageID.1491 Filed 11/29/20 Page 3 of 5
000634

Case 2:20-cv-13134-LVP-RSW ECF No. 6-12, PageID.1492 Filed 11/29/20 Page 4 of 5
000635

Case 2:20-cv-13134-LVP-RSW ECF No. 6-12, PageID.1493 Filed 11/29/20 Page 5 of 5
000636

Case 2:20-cv-13134-LVP-RSW ECF No. 6-13, PageID.1494 Filed 11/29/20 Page 1 of 7
000637

Case 2:20-cv-13134-LVP-RSW ECF No. 6-13, PageID.1495 Filed 11/29/20 Page 2 of 7
000638

Case 2:20-cv-13134-LVP-RSW ECF No. 6-13, PageID.1496 Filed 11/29/20 Page 3 of 7
000639

Case 2:20-cv-13134-LVP-RSW ECF No. 6-13, PageID.1497 Filed 11/29/20 Page 4 of 7
000640

Case 2:20-cv-13134-LVP-RSW ECF No. 6-13, PageID.1498 Filed 11/29/20 Page 5 of 7
000641

LEGEND

Detroit Absentee Voter Counting Board
TCF Facility

Confirmed Wireless
Router

Confirmed Ethernet
Router
Probable Ethernet
Router
Adjudication
Station

Adjudication
Station

Confirmed Ethernet
Cable
Probable Ethernet
Cable
Probable Internet
Cable
Observed internet
Connection

Tabulation Station

Counting Board
Electronic Poll Books

Prepared by Patrick Colbeck, Poll Challenger

Tabulation Station

Election Official
Station

Adjudication
Station

Election Official
Station

Adjudication
Station

Tabulation Station

Tabulation Station

Case 2:20-cv-13134-LVP-RSW ECF No. 6-13, PageID.1499 Filed 11/29/20 Page 6 of 7
000642

Case 2:20-cv-13134-LVP-RSW ECF No. 6-13, PageID.1500 Filed 11/29/20 Page 7 of 7
000643

Case 2:20-cv-13134-LVP-RSW ECF No. 6-14, PageID.1501 Filed 11/29/20 Page 1 of 2
000644

Case 2:20-cv-13134-LVP-RSW ECF No. 6-14, PageID.1502 Filed 11/29/20 Page 2 of 2
000645

Case 2:20-cv-13134-LVP-RSW ECF No. 6-15, PageID.1503 Filed 11/29/20 Page 1 of 2
000646

Case 2:20-cv-13134-LVP-RSW ECF No. 6-15, PageID.1504 Filed 11/29/20 Page 2 of 2
000647

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1505 Filed 11/29/20 Page 1 of 15
000648

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1506 Filed 11/29/20 Page 2 of 15
000649

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1507 Filed 11/29/20 Page 3 of 15
000650

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1508 Filed 11/29/20 Page 4 of 15
000651

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1509 Filed 11/29/20 Page 5 of 15
000652

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1510 Filed 11/29/20 Page 6 of 15
000653

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1511 Filed 11/29/20 Page 7 of 15
000654

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1512 Filed 11/29/20 Page 8 of 15
000655

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1513 Filed 11/29/20 Page 9 of 15
000656

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1514 Filed 11/29/20 Page 10 of 15
000657

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1515 Filed 11/29/20 Page 11 of 15
000658

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1516 Filed 11/29/20 Page 12 of 15
000659

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1517 Filed 11/29/20 Page 13 of 15
000660

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1518 Filed 11/29/20 Page 14 of 15
000661

Case 2:20-cv-13134-LVP-RSW ECF No. 6-16, PageID.1519 Filed 11/29/20 Page 15 of 15
000662

Case 2:20-cv-13134-LVP-RSW ECF No. 6-17, PageID.1520 Filed 11/29/20 Page 1 of 5
000663

Case 2:20-cv-13134-LVP-RSW ECF No. 6-17, PageID.1521 Filed 11/29/20 Page 2 of 5
000664

Case 2:20-cv-13134-LVP-RSW ECF No. 6-17, PageID.1522 Filed 11/29/20 Page 3 of 5
000665

Case 2:20-cv-13134-LVP-RSW ECF No. 6-17, PageID.1523 Filed 11/29/20 Page 4 of 5
000666

Case 2:20-cv-13134-LVP-RSW ECF No. 6-17, PageID.1524 Filed 11/29/20 Page 5 of 5
000667

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1525 Filed 11/29/20 Page 1 of 10
000668

TLP:WHITE

This advisory uses the MITRE Adversarial Tactics, Techniques, and Common Knowledge
(ATT&CK®) framework. See the ATT&CK for Enterprise framework for all referenced threat actor
techniques.
This joint cybersecurity advisory was coauthored by the Cybersecurity and Infrastructure Security
Agency (CISA) and the Federal Bureau of Investigation (FBI). CISA and the FBI are aware of an
Iranian advanced persistent threat (APT) actor targeting U.S. state websites to include election
websites. CISA and the FBI assess this actor is responsible for the mass dissemination of voter
intimidation emails to U.S. citizens and the dissemination of U.S. election-related disinformation in
mid-October 2020.1 (Reference FBI FLASH message ME-000138-TT, disseminated October 29,
2020). Further evaluation by CISA and the FBI has identified the targeting of U.S. state election
websites was an intentional effort to influence and interfere with the 2020 U.S. presidential election.

Analysis by CISA and the FBI indicates this actor scanned state websites, to include state election
websites, between September 20 and September 28, 2020, with the Acunetix vulnerability scanner
(Active Scanning: Vulnerability Scanning [T1595.002]). Acunetix is a widely used and legitimate web
scanner, which has been used by threat actors for nefarious purposes. Organizations that do not
regularly use Acunetix should monitor their logs for any activity from the program that originates from
IP addresses provided in this advisory and consider it malicious reconnaissance behavior.
Additionally, CISA and the FBI observed this actor attempting to exploit websites to obtain copies of
voter registration data between September 29 and October 17, 2020 (Exploit Public-Facing
1

See FBI FLASH, ME-000138-TT, disseminated 10/29/20, https://www.ic3.gov/Media/News/2020/201030.pdf.
This disinformation
the
was in the form of a video purporting to misattribute
the activity to a U.S. domestic actor and implies that individuals could cast fraudulent ballots, even from
overseas. https://www.odni.gov/index.php/newsroom/press-releases/item/2162-dni-john-ratcliffe-s-remarks-atpress-conference-on-election-security.
To report suspicious or criminal activity related to information found in this Joint Cybersecurity Advisory, contact
your local FBI field office at www.fbi.gov/contact-us/field,
(855) 292-3937 or by e-mail at CyWatch@fbi.gov. When available, please include the following information
regarding the incident: date, time, and location of the incident; type of activity; number of people affected; type of
equipment used for the activity; the name of the submitting company or organization; and a designated point of
contact. To request incident response resources or technical assistance related to these threats, contact CISA at
Central@cisa.dhs.gov.
This document is marked TLP:WHITE. Disclosure is not limited. Sources may use TLP:WHITE when information
carries minimal or no foreseeable risk of misuse, in accordance with applicable rules and procedures for public
release. Subject to standard copyright rules, TLP:WHITE information may be distributed without restriction.
For more information on the Traffic Light Protocol, see https://us-cert.cisa.gov/tlp.

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1526 Filed 11/29/20 Page 2 of 10
000669

TLP:WHITE
Application [T1190]). This includes attempted exploitation of known vulnerabilities, directory traversal,
Structured Query Language (SQL) injection, web shell uploads, and leveraging unique flaws in
websites.
CISA and the FBI can confirm that the actor successfully obtained voter registration data in at least
one state. The access of voter registration data appeared to involve the abuse of website
misconfigurations and a scripted process using the cURL tool to iterate through voter records. A
review of the records that were copied and obtained reveals the information was used in the
propaganda video.
CISA and FBI analysis of identified activity against state websites, including state election websites,
referenced in this product cannot all be fully attributed to this Iranian APT actor. FBI analysis of the
Iranian APT actor activity has identified
Compromise
Infrastructure [T1584]) within a similar timeframe, use of IP addresses and IP ranges including
numerous virtual private network (VPN) service exit nodes which correlate to this Iran APT actor
(Gather Victim Host Information [T1592)]), and other investigative information.

The FBI has information indicating this Iran-based actor attempted to access PDF documents from
state voter sites using advanced open-source queries (Search Open Websites and Domains [T1539]).
The actor demonstrated interest in PDFs hosted on
. The FBI identified queries of URLs for election-related sites.
The FBI also has information indicating the actor researched the following information in a suspected
attempt to further their efforts to survey and exploit state election websites.
YOURLS exploit
Bypassing ModSecurity Web Application Firewall
Detecting Web Application Firewalls
SQLmap tool

CISA
identified the scanning of multiple entities by the Acunetix Web Vulnerability scanning
platform between September 20 and September 28, 2020 (Active Scanning: Vulnerability Scanning
[T1595.002]).
The actor used the scanner to attempt SQL injection into various fields in
with status codes 404 or 500:

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1527 Filed 11/29/20 Page 3 of 10
000670

TLP:WHITE

The actor used the following requests associated with this scanning activity.

CISA and FBI have observed the following user agents associated with this scanning activity.

Following the review of web server access logs, CISA analysts, in coordination with the FBI, found
instances of the cURL and FDM User Agents sending GET requests to a web resource associated
with voter registration data. The activity occurred between September 29 and October 17, 2020.
Suspected scripted activity submitted several hundred thousand queries iterating through voter

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1528 Filed 11/29/20 Page 4 of 10
000671

TLP:WHITE
identification values, and retrieving results with varying levels of success [Gather Victim Identity
Information (T1589)]. A sample of the records identified by the FBI reveals they match information in
the aforementioned propaganda video.

The actor used the following requests.

Note: incrementing

values in

CISA and FBI have observed the following user agents.

See figure 1 below for a

malicious activity.

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1529 Filed 11/29/20 Page 5 of 10
000672

TLP:WHITE

Organizations can identify Acunetix scanning activity by using the following keywords while
performing log analysis.

For a downloadable copy of IOCs, see AA20-304A.stix.
Disclaimer: Many of the IP addresses included below likely correspond to publicly available VPN
services, which can be used by individuals all over the world. Although this creates the potential for
false positives, any activity listed should warrant further investigation. The actor likely uses various IP
addresses and VPN services.
The following IPs have been associated with this activity.
102.129.239[.]185 (Acunetix Scanning)
143.244.38[.]60 (Acunetix Scanning and cURL requests)
45.139.49[.]228 (Acunetix Scanning)
156.146.54[.]90 (Acunetix Scanning)
109.202.111[.]236 (cURL requests)
185.77.248[.]17 (cURL requests)
217.138.211[.]249 (cURL requests)
217.146.82[.]207 (cURL requests)
37.235.103[.]85 (cURL requests)
37.235.98[.]64 (cURL requests)
70.32.5[.]96 (cURL requests)

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1530 Filed 11/29/20 Page 6 of 10
000673

TLP:WHITE
70.32.6[.]20 (cURL requests)
70.32.6[.]8 (cURL requests)
70.32.6[.]97 (cURL requests)
70.32.6[.]98 (cURL requests)
77.243.191[.]21 (cURL requests and FDM+3.x (Free Download Manager v3)
enumeration/iteration)
92.223.89[.]73 (cURL requests)
CISA and the FBI are aware the following IOCs have been used by this Iran-based actor. These IP
addresses facilitated the mass dissemination of voter intimidation email messages on October 20,
2020.
195.181.170[.]244 (Observed September 30 and October 20, 2020)
102.129.239[.]185 (Observed September 30, 2020)
104.206.13[.]27 (Observed September 30, 2020)
154.16.93[.]125 (Observed September 30, 2020)
185.191.207[.]169 (Observed September 30, 2020)
185.191.207[.]52 (Observed September 30, 2020)
194.127.172[.]98 (Observed September 30, 2020)
194.35.233[.]83 (Observed September 30, 2020)
198.147.23[.]147 (Observed September 30, 2020)
198.16.66[.]139(Observed September 30, 2020)
212.102.45[.]3 (Observed September 30, 2020)
212.102.45[.]58 (Observed September 30, 2020)
31.168.98[.]73 (Observed September 30, 2020)
37.120.204[.]156 (Observed September 30, 2020)
5.160.253[.]50 (Observed September 30, 2020)
5.253.204[.]74 (Observed September 30, 2020)
64.44.81[.]68 (Observed September 30, 2020)
84.17.45[.]218 (Observed September 30, 2020)
89.187.182[.]106 (Observed September 30, 2020)
89.187.182[.]111 (Observed September 30, 2020)
89.34.98[.]114 (Observed September 30, 2020)
89.44.201[.]211 (Observed September 30, 2020)

The following list provides recommended self-protection mitigation strategies against cyber
techniques used by advanced persistent threat actors:
Validate input as a method of sanitizing untrusted input submitted by web application users.
Validating input can significantly reduce the probability of successful exploitation by providing

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1531 Filed 11/29/20 Page 7 of 10
000674

TLP:WHITE
protection against security flaws in web applications. The types of attacks possibly prevented
include SQL injection, Cross Site Scripting (XSS), and command injection.
Audit your network for systems using Remote Desktop Protocol (RDP) and other internetfacing services. Disable unnecessary services and install available patches for the services in
use. Users may need to work with their technology vendors to confirm that patches will not
affect system processes.
Verify all cloud-based virtual machine instances with a public IP, and avoid using open RDP
ports, unless there is a valid need. Place any system with an open RDP port behind a firewall
and require users to use a VPN to access it through the firewall.
Enable strong password requirements and account lockout policies to defend against bruteforce attacks.
Apply multi-factor authentication, when possible.
Maintain a good information back-up strategy by routinely backing up all critical data and
system configuration information on a separate device. Store the backups offline, verify their
integrity, and verify the restoration process.
Enable logging and ensure logging mechanisms capture RDP logins. Keep logs for a
minimum of 90 days and review them regularly to detect intrusion attempts.
When creating cloud-based virtual machines, adhere to the cloud provider's best practices for
remote access.
Ensure third parties that require RDP access follow internal remote access policies.
Minimize network exposure for all control system devices. Where possible, critical devices
should not have RDP enabled.
Regulate and limit external to internal RDP connections. When external access to internal
resources is required, use secure methods, such as a VPNs. However, recognize the security
of VPNs matches the security of the connected devices.
Use security features provided by social media platforms; use strong passwords, change
passwords frequently, and use a different password for each social media account.
Best Practices for Securing Election Systems for more information.

Apply all available software updates and patches and automate this process to the greatest extent
possible (e.g., by using an update service provided directly from the vendor). Automating updates and
patches is critical because of the speed of threat actors to create new exploits following the release of
-day exploits. Ensure the authenticity and
integrity of vendor updates by using signed updates delivered over protected links. Without the rapid
2
and thorough application of patches

2

NSA "NSA'S Top Ten Cybersecurity Mitigation Strategies" https://www.nsa.gov/Portals/70/documents/whatwe-do/cybersecurity/professional-resources/csi-nsas-top10-cybersecurity-mitigation-strategies.pdf

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1532 Filed 11/29/20 Page 8 of 10
000675

TLP:WHITE
Additionally, use tools (e.g., the OWASP Dependency-Check Project tool3) to identify the publicly
known vulnerabilities in third-party libraries depended upon by the application.

Implement a plan to scan public-facing web servers for common web vulnerabilities (e.g., SQL
injection, cross-site scripting) by using a commercial web application vulnerability scanner in
combination with a source code scanner.4 Fixing or patching vulnerabilities after they are identified is
especially crucial for networks hosting older web applications. As sites get older, more vulnerabilities
are discovered and exposed.

Deploy a web application firewall (WAF) to prevent invalid input attacks and other attacks destined for
the web application. WAFs are intrusion/detection/prevention devices that inspect each web request
made to and from the web application to determine if the request is malicious. Some WAFs install on
the host system and others are dedicated devices that sit in front of the web application. WAFs also
weaken the effectiveness of automated web vulnerability scanning tools.

Patch web application vulnerabilities or fix configuration weaknesses that allow web shell attacks, and
follow guidance on detecting and preventing web shell malware.5 Malicious cyber actors often deploy
web shells software that can enable remote administration
r. Malicious
cyber actors can use web shells to execute arbitrary system commands commonly sent over HTTP or
HTTPS. Attackers often create web shells by adding or modifying a file in an existing web application.
Web shells provide attackers with persistent access to a compromised network using communications
channels disguised to blend in with legitimate traffic. Web shell malware is a long-standing, pervasive
threat that continues to evade many security tools.

Prioritize protection for accounts with elevated privileges, remote access, or used on high-value
assets.6 Use physical token-based authentication systems to supplement knowledge-based factors
such as passwords and personal identification numbers (PINs).7 Organizations should migrate away
from single-factor authentication, such as password-based systems, which are subject to poor user

3

https://owasp.org/www-project-dependency-check/
NSA "Defending Against the Exploitation of SQL Vulnerabilities to Compromise a Network"
https://apps.nsa.gov/iaarchive/library/ia-guidance/tech-briefs/defending-against-the-exploitation-of-sqlvulnerabilities-to.cfm
5
NSA & ASD "CyberSecurity Information: Detect and Prevent Web Shell Malware"
https://media.defense.gov/2020/Jun/09/2002313081/-1/-1/0/CSI-DETECT-AND-PREVENT-WEB-SHELLMALWARE-20200422.PDF
6
https://us-cert.cisa.gov/cdm/event/Identifying-and-Protecting-High-Value-Assets-Closer-Look-GovernanceNeeds-HVAs
7
NSA "NSA'S Top Ten Cybersecurity Mitigation Strategies" https://www.nsa.gov/Portals/70/documents/whatwe-do/cybersecurity/professional-resources/csi-nsas-top10-cybersecurity-mitigation-strategies.pdf
4

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1533 Filed 11/29/20 Page 9 of 10
000676

TLP:WHITE
choices and more susceptible to credential theft, forgery, and password reuse across multiple
systems.

First, identify and remediate critical web application security risks. Next, move on to other less critical
vulnerabilities. Follow available guidance on securing web applications.8,9,10

and restore
functions according to your business continuity plan. Organizations should maintain and regularly test
backup plans, disaster recovery plans, and business continuity procedures.

To report an intrusion and to request incident response resources or technical assistance, contact
CISA (Central@cisa.gov or 888-282-0870) or the FBI
Division (CyWatch@ic.fbi.gov or 855-292-3937).

CISA Tip: Best Practices for Securing Election Systems
CISA Tip: Securing Voter Registration Data
CISA Tip: Website Security
CISA Tip: Avoiding Social Engineering and Phishing Attacks
CISA Tip: Securing Network Infrastructure Devices
Joint Advisory: Technical Approaches to Uncovering and Remediating Malicious Activity
CISA Insights: Actions to Counter Email-Based Attacks on Election-related Entities
FBI and CISA Public Service Announcement (PSA): Spoofed Internet Domains and Email
Accounts Pose Cyber and Disinformation Risks to Voters
FBI and CISA PSA: Foreign Actors Likely to Use Online Journals to Spread Disinformation
Regarding 2020 Elections
FBI and CISA PSA: Distributed Denial of Service Attacks Could Hinder Access to Voting
Information, Would Not Prevent Voting
FBI and CISA PSA: False Claims of Hacked Voter Information Likely Intended to Cast Doubt
on Legitimacy of U.S. Elections FBI and CISA PSA: Cyber Threats to Voting Processes Could
Slow But Not Prevent Voting

8

https://apps.nsa.gov/iaarchive/library/iaguidance/security-tips/building-web-applications-security-recommendations-for.cfm
9
https://owasp.org/www-project-top-ten/
10

https://cwe.mitre.org/top25/archive/2020/2020_cwe_top25.html

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-18, PageID.1534 Filed 11/29/20 Page 10 of 10
000677

TLP:WHITE
FBI and CISA PSA: Foreign Actors and Cybercriminals Likely to Spread Disinformation
Regarding 2020 Election Results

TLP: WHITE

Case 2:20-cv-13134-LVP-RSW ECF No. 6-19, PageID.1535 Filed 11/29/20 Page 1 of 6
000678

Case 2:20-cv-13134-LVP-RSW ECF No. 6-19, PageID.1536 Filed 11/29/20 Page 2 of 6
000679

Case 2:20-cv-13134-LVP-RSW ECF No. 6-19, PageID.1537 Filed 11/29/20 Page 3 of 6
000680

Case 2:20-cv-13134-LVP-RSW ECF No. 6-19, PageID.1538 Filed 11/29/20 Page 4 of 6
000681

Case 2:20-cv-13134-LVP-RSW ECF No. 6-19, PageID.1539 Filed 11/29/20 Page 5 of 6
000682

Case 2:20-cv-13134-LVP-RSW ECF No. 6-19, PageID.1540 Filed 11/29/20 Page 6 of 6
000683

Case 2:20-cv-13134-LVP-RSW ECF No. 6-20, PageID.1541 Filed 11/29/20 Page 1 of 2
000684

Marian Sheridan
Pursuant to 28 U.S.C Section 1746, I, Marian Sheridan, make the
following declaration.
1. I am over the age of 21 years and I am under no legal disability,
which would prevent me from giving this declaration.
2. I worked as a Republican Poll challenger in 2018 at TCF and in
August of 2020. As Grassroots Vice chair of the Michigan Republican
Party I organized and helped train hundreds of poll challengers for
the 2020 election.
3. I reside at 7259 White Oak Drive, West Bloomfield Mi 48324
4. My affidavit highlights voting irregularities from Wayne County,
Michigan
5. A team of almost 1200 people participated in reviewing the voting
records of 51,018 registered voters who voted for the first time in the
November 3rd election of 2020. Of the 51,018 voter records, 30,133
were reviewed. Of the reviewed records the team has re-checked
8,094 of the 10,182 records with irregularities.
6. To the best of our ability we found 205 of the voters were deceased,
with an additional 1005 unverifiable through our sources.
7. 2,362 had invalid addresses, with the residence of an additional 857
unverifiable.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-20, PageID.1542 Filed 11/29/20 Page 2 of 2
000685

8. 20,300 of the 51,018 list did not have a “ballot requested date” in
Wayne County,
10. 16,636 of the 20,300 ‘ballot request date” were from Detroit.
11. 10,620 absentee ballots show a “ballot sent date” ​40 days before the
election, ​after August 13th but before September 24.
Marian Sheridan
11/29/2020

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1543 Filed 11/29/20 Page 1 of 20
000686

An Analysis of Surveys Regarding Absentee Ballots Across Several States
William M. Briggs
November 23, 2020

1

Summary

Survey data was collected from individuals in several states, sampling those who the states listed as not returning absentee
ballots. The data was provided by Matt Braynard.
The survey asked respondents whether they (a) had ever requested an absentee ballot, and, if so, (b) whether they had
in fact returned this ballot. From this sample I produce predictions of the total numbers of: Error #1, those who were
recorded as receiving absentee ballots without requesting them; and Error #2, those who returned absentee ballots but
whose votes went missing (i.e. marked as unreturned).
The sizes of both errors were large in each state. The states were Georgia, Michigan, Wisconsin, and Arizona where
ballots were across parties. Pennsylvania data was for Republicans only.

2

Analysis Description

Each analysis was carried out separately for each state. The analysis used (a) the number of absentee ballots recorded as
unreturned, (b) the total responding to the survey, (c) the total of those saying they did not request a ballot, (d) the total
of those saying they did request a ballot, and of these (e) the number saying they returned their ballots. I assume survery
respondents are representative and the data is accurate.
From these data a simple parameter-free predictive model was used to calculate the probability of all possible outcomes.
Pictures of these probabilities were derived, and the 95% prediction interval of the relevant numbers was calculated. The
pictures appear in the Appendix at the end. They are summarized here with their 95% prediction intervals.
Error #1: being recorded as sent an absentee ballot without requesting one.
Error #2: sending back an absentee ballot and having it recorded as not returned.
State
Unreturned ballots
Error #1
Error #2
Georgia
138,029
16,938–22,771
31,559–38,866
Michigan
139,190
29,611–36,529
27,928–34,710
Pennsylvania∗
165,412
32,414–37,444
26,954–31,643
Wisconsin
96,771
16,316–19,273
13,991–16,757
Arizona
518,560
208,333–229,937 78,714–94,975
∗
Number for Pennsylvania represent Republican ballots only.
Ballots that were not requested, and ballots returned and marked as not returned were classed as troublesome. The
estimated average number of troublesome ballots for each state were then calculated using the table above and are presented
next.
State

Estimated average
troublesome ballots
Georgia
138,029
53,489
Michigan
139,190
62,517
Pennsylvania∗
165,412
61,780
Wisconsin
96,771
29,594
Arizona
518,560
303,305
∗
Number for Pennsylvania represent Republican ballots only.

3

Unreturned ballots

Percent
39%
45%
37%
31%
58%

Conclusion

There are clearly a large number of troublesome ballots in each state investigated. Ballots marked as not returned that were
never requested are clearly an error of some kind. The error is not small as a percent of the total recorded unreturned ballots.

1

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1544 Filed 11/29/20 Page 2 of 20
000687

Ballots sent back and unrecorded is a separate error. These represent votes that have gone missing, a serious mistake.
The number of these missing ballots is also large in each state.
Survey respondents were not asked if they received an unrequested ballot whether they sent these ballots back. This is
clearly a lively possibility, and represents a third possible source of error, including the potential of voting twice (once by
absentee and once at the polls). No estimates or likelihood can be calculated for this potential error due to absence of data.

4

Declaration of William M. Briggs, PhD

1. My name is William M. Briggs. I am over 18 years of age and am competent to testify in this action. All of the facts
stated herein are true and based on my personal knowledge.
2. I received a Ph.D of Statistics from Cornell University in 2004.
3. I am currently a statistical consultant. I make this declaration in my personal capacity.
4. I have analyzed data regarding responses to questions relating to mail ballot requests, returns and related issues.
5. I attest to a reasonable degree of professional certainty that the resulting analysis are accurate.
I declare under the penalty of perjury that the foregoing is true and correct.

23 November 2020
William M. Briggs

5

Appendix

The probability pictures for each state for each outcome as mentioned above.

Probability of numbers of un−requested absentee ballots listed as
not returned for Georgia
There is a 95 % chance from
between 16938 and 22771
absentee ballots were not
requested but marked as not
returned

Probability

0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Georgia
There is a 95 % chance from
between 31559 and 38866
absentee ballots were
returned but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

Ballots Listed as Not Returned

2

100,000

120,000

140,000

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1545 Filed 11/29/20 Page 3 of 20
000688

Probability of numbers of un−requested absentee ballots listed as
not returned for Michigan
There is a 95 % chance from
between 29611 and 36529
absentee ballots were not
requested but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Michigan
There is a 95 % chance from
between 27928 and 34710
absentee ballots were
returned but marked as not
returned

Probability

0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

Ballots Listed as Not Returned

Probability of numbers of un−requested absentee ballots listed as
not returned for Pennsylvania
0.00030

There is a 95 % chance from
between 32414 and 37444
absentee ballots were not
requested but marked as not
returned

Probability

0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

120,000

140,000

160,000

Ballots Listed as Not Returned

0.00035

Probability of numbers of absentee ballots returned but listed as
not returned for Pennsylvania
There is a 95 % chance from
between 26954 and 31643
absentee ballots were
returned but marked as not
returned

Probability

0.00030
0.00025
0.00020
0.00015
0.00010
0.00005
0.00000
0

20,000

40,000

60,000

80,000

100,000

Ballots Listed as Not Returned

3

120,000

140,000

160,000

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1546 Filed 11/29/20 Page 4 of 20
000689

Probability of numbers of un−requested absentee ballots listed as
not returned for Wisconsin
There is a 95 % chance from
between 16316 and 19273
absentee ballots were not
requested but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

Probability of numbers of absentee ballots returned but listed as
not returned for Wisconsin
There is a 95 % chance from
between 13991 and 16757
absentee ballots were
returned but marked as not
returned

Probability

0.0005
0.0004
0.0003
0.0002
0.0001
0.0000
0

10,000

20,000

30,000

40,000

50,000

60,000

70,000

80,000

90,000

Ballots Listed as Not Returned

Probability

Probability of numbers of un−requested absentee ballots listed as
not returned for Arizona
0.00007
0.00006
0.00005
0.00004
0.00003
0.00002
0.00001
0.00000

There is a 95 % chance from
between 208333 and 229937
absentee ballots were not
requested but marked as not
returned

0

50,000

100,000

150,000

200,000

250,000

300,000

350,000

400,000

450,000

500,000

Ballots Listed as Not Returned

0.00010

Probability of numbers of absentee ballots returned but listed as
not returned for Arizona
There is a 95 % chance from
between 78714 and 94975
absentee ballots were
returned but marked as not
returned

Probability

0.00008
0.00006
0.00004
0.00002
0.00000
0

50,000

100,000

150,000

200,000

250,000

300,000

Ballots Listed as Not Returned

4

350,000

400,000

450,000

500,000

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1547 Filed 11/29/20 Page 5 of 20
000690

William M. Briggs, PhD
Statistician to the Stars!
matt@wmbriggs.com
917-392-0691
1. Experience
(1) 2016: Author of Uncertainty: The Soul of Modeling, Probability & Statistics, a book which argues for a complete and fundamental change in the
philosophy and practice of probability and statistics. Eliminate hypothesis
testing and estimation, and move to verifiable predictions. This includes
AI and machine learning. Call this The Great Reset, but a good one.
(2) 2004-2016 Adjunct Professor of Statistical Science, Cornell
University, Ithaca, New York
I taught a yearly Masters course to people who (rightfully) hate statistics.
Interests: philosophy of science & probability, epistemology, epidemiology
(ask me about the all-too-common epidemiologist fallacy), Bayesian statistics, medicine, climatology & meteorology, goodness of forecasts, overconfidence in science; public understanding of science, limitations of science,
scientism; scholastic metaphysics (as it relates to epistemology).
(3) 1998-present. Statistical consultant, Various companies
Most of my time is spent coaxing people out of their money to tell them
they are too sure of themselves. All manner of analyses cheerfully undertaken. Example: Fraud analysis; I created the Wall Street Journal’s
College Rankings. I consultant regularly at Methodist and other hospitals,
start-ups, start-downs, and with any instition willing to fork it over.
(4) 2003-2010. Research Scientist, New York Methodist Hospital,
New York
Besides the usual, I sit/sat on the Institutional Review Committee to assess
the statistics of proposed research. I was an Associate Editor for Monthly
Weather Review (through 2011). Also a member of the American Meteorological Society’s Probability and Statistics Committee (through 2011). At
a hospital? Yes, sir; at a hospital. It rains there, too, you know.
(5) Fall 2007, Fall 2010 Visiting Professor of Statistics, Department of Mathematics, Central Michigan University, Mt. Pleasant, MI
Who doesn’t love a visit from a statistician? Ask me about the difference
between “a degree” and “an education.”
(6) 2003-2007, Assistant Professor Statistics, Weill Medical College of Cornell University, New York, New York
Working here gave me a sincere appreciation of the influences of government
money; grants galore.
(7) 2002-2003. Gotham Risk Management, New York
A start-up then, after Enron’s shenanigans, a start-down. We set future
weather derivative and weather insurance contract prices that incorporated
information from medium- and long-range weather and climate forecasts.
(8) 1998-2002. DoubleClick, New York
Lead statistician. Lot of computer this and thats; enormous datasets.
(9) 1993-1998. Graduate student, Cornell University
1

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1548 Filed 11/29/20 Page 6 of 20
000691

2

Meteorology, applied climatology, and finally statistics. Was Vice Chair of
the graduate student government; probably elected thanks to a miracle.
(10) 1992-1993. National Weather Service, Sault Ste. Marie, MI
Forecast storms o’ the day and launched enormous balloons in the name of
Science. My proudest moment came when I was able to convince an ancient
IBM-AT machine to talk to an analog, 110 baud, phone-coupled modem,
all using BASIC!
(11) 1989-1992. Undergraduate student, Central Michigan University
Meteorology and mathematics. Started the local student meteorology group
to chase tornadoes. Who knew Michigan had so few? Spent a summer at
U Michigan playing with a (science-fiction-sounding) lidar.
(12) 1983-1989. United States Air Force
Cryptography and other secret stuff. Shot things; learned pinochle. I
adopted and became proficient with a fascinating and versatile vocabulary.
Irritate me for examples. TS/SCI, etc. security clearance (now inactive).
2. Education
(1) Ph.D., 2004, Cornell University. Statistics.
(2) M.S., 1995, Cornell University. Atmospheric Science.
(3) B.S., Summa Cum Laude, 1992, Central Michigan University. Meteorology
and Math.
3. Publications
3.0.1. Popular.
(1) Op-eds in various newspapers; articles in Stream, Crisis Magazine, The
Remnant, Quadrant, Quirks; blog with ∼70,000 monthly readers. Various
briefs submitted to government agencies, such as California Air Resources
Board, Illinois Department of Natural Resources. Talks and holding-forths
of all kinds.
3.0.2. Books.
(1) Richards, JW, WM Briggs, and D Axe, 2020. UThe Price of Panic: How
the Tyranny of Experts Turned a Pandemic into a Catastrophe. Regnery.
Professors Jay Richards, William Briggs, and Douglas Axe take a deep dive
into the crucial questions on the minds of millions of Americans during one
of the most jarring and unprecedented global events in a generation.
(2) Briggs, WM., 2016. Uncertainty: The Soul of Modeling, Probability &
Statistics. Springer. Philosophy of probability and statistics. A new (old)
way to view and to use statistics, a way that doesn’t lead to heartbreak
and pandemic over-certainty, like current methods do.
(3) Briggs, WM., 2008 Breaking the Law of Averages: Real Life Probability and
Statistics in Plain English. Lulu Press, New York. Free text for undergraduates.
(4) Briggs, WM., 2006 So You Think You’re Psychic? Lulu Press, New York.
Hint: I’ll bet you’re not.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1549 Filed 11/29/20 Page 7 of 20
000692

3

3.0.3. Methods.

(1) Briggs, WM and J.C. Hanekamp, 2020. Uncertainty In The MAN Data
Calibration & Trend Estimates. Atmospheric Environment, In review.
(2) Briggs, WM and J.C. Hanekamp, 2020. Adjustments to the Ryden & McNeil Ammonia Flux Model. Soil Use and Management, In review.
(3) Briggs, William M., 2020. Parameter-Centric Analysis Grossly Exaggerates
Certainty. In Data Science for Financial Econometrics, V Kreinovich, NN
Thach, ND Trung, DV Thanh (eds.), In press.
(4) Briggs, WM, HT Nguyen, D Trafimow, 2019. Don’t Test, Decide. In
Behavioral Predictive Modeling in Econometrics, Springer, V Kreinovich, S
Sriboonchitta (eds.). In press.
(5) Briggs, William M. and HT Nguyen, 2019. Clarifying ASA’s view on pvalues in hypothesis testing. Asian Journal of Business and Economics,
03(02), 1–16.
(6) Briggs, William M., 2019. Reality-Based Probability & Statistics: Solving The Evidential Crisis (invited paper). Asian Journal of Business and
Economics, 03(01), 37–80.
(7) Briggs, William M., 2019. Everything Wrong with P-Values Under One
Roof. In Beyond Traditional Probabilistic Methods in Economics, V Kreinovich,
NN Thach, ND Trung, DV Thanh (eds.), pp 22—44.
(8) Briggs, WM, HT Nguyen, D Trafimow, 2019. The Replacement for Hypothesis Testing. In Structural Changes and Their Econometric Modeling,
Springer, V Kreinovich, S Sriboonchitta (eds.), pp 3—17.
(9) Trafimow, D, V Amrhein, CN Areshenkoff, C Barrera-Causil, ..., WM
Briggs, (45 others), 2018. Manipulating the alpha level cannot cure significance testing. Frontiers in Psychology, 9, 699. doi.org/10.3389/ fpsyg.2018.00699.
(10) Briggs, WM, 2018. Testing, Prediction, and Cause in Econometric Models.
In Econometrics for Financial Applications, ed. Anh, Dong, Kreinovich,
and Thach. Springer, New York, pp 3–19.
(11) Briggs, WM, 2017. The Substitute for p-Values. JASA, 112, 897–898.
(12) J.C. Hanekamp, M. Crok, M. Briggs, 2017. Ammoniak in Nederland.
Enkele kritische wetenschappelijke kanttekeningen. V-focus, Wageningen.
(13) Briggs, WM, 2017. Math: Old, New, and Equalitarian. Academic Questions, 30(4), 508–513.
(14) Monckton, C, W Soon, D Legates, ... (several others), WM Briggs 2018. On
an error in applying feedback theory to climate. In submission (currently
J. Climate).
(15) Briggs, WM, JC Hanekamp, M Crok, 2017. Comment on Goedhart and
Huijsmans. Soil Use and Management, 33(4), 603–604.
(16) Briggs, WM, JC Hanekamp, M Crok, 2017. Response to van Pul, van
Zanten and Wichink Kruit. Soil Use and Management, 33(4), 609–610.
(17) Jaap C. Hanekamp, William M. Briggs, and Marcel Crock, 2016. A volatile
discourse - reviewing aspects of ammonia emissions, models, and atmospheric concentrations in The Netherlands. Soil Use and Management,
33(2), 276–287.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1550 Filed 11/29/20 Page 8 of 20
000693

4

(18) Christopher Monckton of Brenchley, Willie Soon, David Legates, William
Briggs, 2015. Keeping it simple: the value of an irreducibly simple climate
model. Science Bulletin. August 2015, Volume 60, Issue 15, pp 1378–1390.
(19) Briggs, WM, 2015. The Third Way Of Probability & Statistics: Beyond
Testing and Estimation To Importance, Relevance, and Skill. arxiv.org/
abs/1508.02384.
(20) Briggs, WM, 2015. The Crisis Of Evidence: Why Probability And Statistics
Cannot Discover Cause. arxiv.org/abs/1507.07244.
(21) David R. Legates, Willie Soon, William M. Briggs, Christopher Monckton
of Brenchley, 2015. Climate Consensus and ‘Misinformation’: A Rejoinder
to Agnotology, Scientific Consensus, and the Teachingand Learning of Climate Change. Science and Education, 24, 299–318, DOI 10.1007/s11191013-9647-9.
(22) Briggs, WM, 2014. The Problem Of Grue Isn’t. arxiv.org/abs/1501.03811.
(23) Christopher Monckton of Brenchley, Willie Soon, David Legates, William
Briggs, 2014. Why models run hot: results from an irreducibly simple
climate model. Science Bulletin. January 2015, Volume 60, Issue 1, pp
122-135.
(24) Briggs, WM, 2014. Common Statistical Fallacies. Journal of American
Physicians and Surgeons, Volume 19 Number 2, 58–60.
(25) Aalt Bast, William M. Briggs, Edward J. Calabrese, Michael F. Fenech,
Jaap C. Hanekamp, Robert Heaney, Ger Rijkers, Bert Schwitters, Pieternel
Verhoeven, 2013. Scientism, Legalism and Precaution—Contending with
Regulating Nutrition and Health Claims in Europe. European Food and
Feed Law Review, 6, 401–409.
(26) Legates, DR, Soon, W, and Briggs, 2013. Learning and Teaching Climate
Science: The Perils of Consensus Knowledge Using Agnotology. Science
and Education, DOI 10.1007/s11191-013-9588-3.
(27) Briggs, WM, 2012. On Probability Leakage. arxiv.org/abs/1201.3611.
(28) Briggs, WM, 2012. Why do statisticians answer questions no one ever asks?
Significance. Volume 9 Issue 1 Doi: 10.1111/j.1740-9713.2012.00542.x. 30–
31.
(29) Briggs, WM, Soon, W, Legates, D, Carter, R, 2011. A Vaccine Against
Arrogance. Water, Air, & Soil Pollution: Volume 220, Issue 1 (2011),
Page 5-6
(30) Briggs, WM, and R Zaretzki, 2009. Induction and falsifiability in statistics.
arxiv.org/abs/math/0610859.
(31) Briggs, WM, 2011. Discussion to A Gelman. Why Tables are Really Much
Better than Graphs. Journal Computational and Graphical Statistics. Volume 20, 16–17.
(32) Zaretzki R, Gilchrist MA, Briggs WM, and Armagan A, 2010. Bias correction and Bayesian analysis of aggregate counts in SAGE libraries. BMC
Bioinformatics, 11:72doi:10.1186/1471-2105-11-72.
(33) Zaretzki, R, Briggs, W, Shankar, M, Sterling, M, 2009. Fitting distributions of large scale power outages: extreme values and the effect of
truncation. International Journal of Power and Energy Systems. DOI:
10.2316/Journal.203.2009.1.203-4374.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1551 Filed 11/29/20 Page 9 of 20
000694

5

(34) Briggs, WM, 2007. Changes in number and intensity of world-wide tropical
cyclones arxiv.org/physics/0702131.
(35) Briggs, WM, 2007. On the non-arbitrary assignment of equi-probable priors
arxiv.org/math.ST/0701331.
(36) Briggs, WM, 2007. On the changes in number and intensity of North
Atlantic tropical cyclones Journal of Climate. 21, 1387-1482.
(37) Briggs, WM, Positive evidence for non-arbitrary assignments of probability,
2007. Edited by Knuth et al. Proceedings 27th International Workshop on
Bayesian Inference and Maximum Entropy Methods in Science and Engineering. American Institute of Physics. 101-108.
(38) Briggs, WM, R Zaretzki, 2007. The Skill Plot: a graphical technique for
the evaluating the predictive usefulness of continuous diagnostic tests. With
Discussion. Biometrics. 64(1), 250-6; discussion 256-61. PMID: 18304288.
(39) Zaretzki R, Gilchrist MA, Briggs WM, 2010. MCMC Inference for a Model
with Sampling Bias: An Illustration using SAGE data. arxiv.org/abs/0711.3765
(40) Briggs, WM, and D Ruppert, 2006. Assessing the skill of yes/no forecasts
for Markov observations. Monthly Weather Review. 134, 2601-2611.
(41) Briggs, WM, 2007. Review of Statistical Methods in the Atmospheric Sciences (second edition, 2006) by Wilks, D.S. Journal of the American Statistical Association, 102, 380.
(42) Briggs, WM, M Pocernich, and D Ruppert, 2005. Incorporating misclassification error in skill assessment. Monthly Weather Review, 133(11), 33823392.
(43) Briggs, WM, 2005. A general method of incorporating forecast cost and
loss in value scores. Monthly Weather Review, 133(11), 3393-3397.
(44) Briggs, WM, and D Ruppert, 2005. Assessing the skill of Yes/No Predictions. Biometrics. 61(3), 799-807. PMID: 16135031.
(45) Briggs, WM, 2004. Discussion to T Gneiting, LI Stanberry, EP Grimit, L
Held, NA Johnson, 2008. Assessing probabilistic forecasts of multivariate
quantities, with an application to ensemble predictions of surface winds.
Test. 17, 240-242.
(46) Briggs, WM, 2004. Discussion to Gel, Y, AE Raftery, T Gneiting, and V.J.
Berrocal, 2004. Calibrated Probabilistic Mesoscale Weather Field Forecasting: The Geostatistical Output Perturbation (GOP) Method. J. American
Statistical Association. 99 (467): 586-587.
(47) Mozer, JB, and Briggs, WM, 2003. Skill in real-time solar wind shock
forecasts. J. Geophysical Research: Space Physics, 108 (A6), SSH 9 p.
1-9, (DOI 10.1029/2003JA009827).
(48) Briggs, WM, 1999. Review of Forecasting: Methods and Applications (third
edition, 1998) by Makridakis, Wheelwright, and Hyndman; and Elements
of Forecasting (first edition, 1998) by Diebold. Journal of the American
Statistical Association, 94, 345-346.
(49) Briggs, W.M., and R.A. Levine, 1997. Wavelets and Field Forecast Verification. Monthly Weather Review, 25 (6), 1329-1341.
(50) Briggs, WM, and DS Wilks, 1996. Estimating monthly and seasonal distributions of temperature and precipitation using the new CPC long-range
forecasts. Journal of Climate, 9, 818-826.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1552 Filed 11/29/20 Page 10 of 20
000695

6

(51) Briggs, WM, and DS Wilks, 1996. Extension of the CPC long-lead temperature and precipitation outlooks to general weather statistics. Journal
of Climate, 9, 3496-3504.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1553 Filed 11/29/20 Page 11 of 20
000696

7

3.0.4. Applications.

(1) Jamorabo, Daniel, Renelus, Benjamin, Briggs, WM, 2019. ”Comparative
outcomes of EUS-guided cystogastrostomy for peripancreatic fluid collections (PFCs): A systematic review and meta-analysis, 2019. Therapeutic
Advances in Gastrointestinal Endoscopy, in press.
(2) Benjamin Renelus, S Paul, S Peterson, N Dave, D amorabo, W Briggs,
P Kancharla, 2019. Racial disparities with esophageal cancer mortality
at a high-volume university affiliated center: An All ACCESS Invitation,
Journal of the National Medical Association, in press.
(3) Mehta, Bella, S Ibrahim, WM Briggs, and P Efthimiou, 2019. Racial/Ethnic
variations in morbidity and mortality in Adult Onset Still’s Disease: An
analysis of national dataset”, Seminars in Arthritis and Rheumatism, doi:
10.1016/j.semarthrit.2019.04.0044.
(4) Ivanov A, Dabiesingh DS, Bhumireddy GP, Mohamed A, Asfour A, Briggs
WM, Ho J, Khan SA, Grossman A, Klem I, Sacchi TJ, Heitner JF. Prevalence and Prognostic Significance of Left Ventricular Noncompaction in
Patients Referred for Cardiac Magnetic Resonance Imaging. Circ Cardiovasc Imaging. 2017 Sep;10(9). pii: e006174. doi: 10.1161/CIRCIMAGING.117.006174.
(5) Ivanov A, Kaczkowska BA, Khan SA, Ho J, Tavakol M, Prasad A, Bhumireddy G, Beall AF, Klem I, Mehta P, Briggs WM, fpaSacchi TJ, Heitner JF, 2017. Review and Analysis of Publication Trends over Three
Decades in Three High Impact Medicine Journals. PLoS One. 2017 Jan
20;12(1):e0170056. doi: 10.1371/journal.pone.0170056.
(6) A. Ivanova, G.P. Bhumireddy, D.S. Dabiesingh, S.A. Khana, J. Hoa N.
Krishna, N. Dontineni, J.A Socolow, W.M. Briggs, I. Klem, T.J. Sacchi,
J.F. Heitner, 2016. Importance of papillary muscle infarction detected by
cardiac magnetic resonance imaging in predicting cardiovascular events.
International Journal of Cardiology. Volume 220, 1 October 2016, Pages
558–563. PMID: 27390987.
(7) A Ivanov, J Yossef, J Taillon, B Worku, I Gulkarov, A Tortolani, TJ
Sacchi, WM Briggs, SJ Brener, JA Weingarten, JF Heitner, 2015. Do
pulmonary function tests improve risk stratification before cardiothoracic
surgery? Journal of Thoracic and Cardiovascular Surgery. 2015 Oct 30.
pii: S0022-5223(15)02165-0. doi: 10.101. PMID: 26704058.
(8) Chen O, Sharma A, Ahmad I, Bourji N, Nestoiter K, Hua P, Hua B, Ivanov
A, Yossef J, Klem I, Briggs WM, Sacchi TJ, Heitner JF, 2015. Correlation
between pericardial, mediastinal, and intrathoracic fat volumes with the
presence and severity of coronary artery disease, metabolic syndrome, and
cardiac risk factors. Eur Heart J Cardiovasc Imaging. 2015 Jan;16(1):3746. doi: 10.1093/ehjci/jeu145.
(9) Chery J, Semaan E, Darji S, Briggs W, Yarmush J, D’Ayala M, 2014.
Impact of regional versus general anesthesia on the clinical outcomes of
patients undergoing major lower extremity amputation. Ann Vasc Surg,
2014 Jul;28(5):1149-56. PMID: 24342828.
(10) Visconti A, Gaeta T, Cabezon M, Briggs W, Pyle M., 2013. Focused Board
Intervention (FBI): A Remediation Program for Written Board Preparation

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1554 Filed 11/29/20 Page 12 of 20
000697

8

(11)

(12)

(13)

(14)

(15)

(16)

(17)

(18)

(19)

(20)

(21)

and the Medical Knowledge Core Competency. J Grad Med Educ. 2013
Sep;5(3):464-7. PMID: 24404311.
Annika Krystyna, D Kumari, R Tenney, R Kosanovic, T Safi, WM Briggs,
K Hennessey, M Skelly, E Enriquez, J Lajeune, W Ghani and MD Schwalb,
2013. Hepatitis c antibody testing in African American and Hispanic men
in New York City with prostate biopsy. Oncology Discovery, Vol 1. DOI:
10.7243/2052-6199-1-1.
Ziad Y. Fayad, Elie Semaan, Bashar Fahoum, W. Matt Briggs, Anthony
Tortolani, and Marcus D’Ayala, 2013. Aortic mural thrombus in the normal or minimally atherosclerotic aorta: A systematic review and metaanalysis of the available literature. Ann Vasc Surg., Apr;27(3):282-90.
DOI:10.1016/j.avsg.2012.03.011.
Elizabeth Haines, Gerardo Chiricolo, Kresimir Aralica, William Briggs,
Robert Van Amerongen, Andrew Laudenbach, Kevin O’Rourke, and Lawrence
Melniker MD, 2012. Derivation of a Pediatric Growth Curve for Inferior
Vena Caval Diameter in Healthy Pediatric Patients. Crit Ultrasound J.
2012 May 28;4(1):12. doi: 10.1186/2036-7902-4-12.
Wei Li, Piotr Gorecki, Elie Semaan, William Briggs, Anthony J. Tortolani,
Marcus D’Ayala, 2011. Concurrent Prophylactic Placement of Inferior Vena
Cava Filter in gastric bypass and adjustable banding operations: An analysis of the Bariatric Outcomes Longitudinal Database (BOLD). J. Vascular
Surg. 2012 Jun;55(6):1690-5. doi: 10.1016/j.jvs.2011.12.056.
Krystyna A, Kosanovic R, Tenney R, Safi T, Briggs WM, et al. (2011)
Colonoscopy Findings in Men with Transrectal Ultrasound Guided Prostate
Biopsy: Association of Colonic Lipoma with Prostate Cancer. J Cancer Sci
Ther S4:002. doi:10.4172/1948-5956.S4-002
Birkhahn RH, Wen W, Datillo PA, Briggs WM, Parekh A, Arkun A, Byrd
B, Gaeta TJ, 2012. Improving patient flow in acute coronary syndromes
in the face of hospital crowding. J Emerg Med. 2012 Aug;43(2):356-65.
PMID: 22015378.
Birkhahn RH, Haines E, Wen W, Reddy L, Briggs WM, Datillo PA., 2011.
Estimating the clinical impact of bringing a multimarker cardiac panel to
the bedside in the ED. Am J Emerg Med. 2011 Mar;29(3):304-8.
Krystyna A, Safi T, Briggs WM, Schwalb MD., 2011. Correlation of hepatitis C and prostate cancer, inverse correlation of basal cell hyperplasia
or prostatitis and epidemic syphilis of unknown duration. Int Braz J Urol.
2011 Mar-Apr;37(2):223-9; discussion 230.
Muniyappa R, Briggs WM, 2010. Limited Predictive Ability of Surrogate
Indices of Insulin Sensitivity/Resistance in Asian Indian Men: A Calibration Model Analysis. AJP - Endocrinology and Metabolism. 299(6):E110612. PMID: 20943755.
Birkhahn RH, Blomkalns A, Klausner H, Nowak R, Raja AS, Summers
R, Weber JE, Briggs WM, Arkun A, Diercks D. The association between
money and opinion in academic emergency medicine. West J Emerg Med.
2010 May;11(2):126-32. PMID: 20823958.
Loizzo JJ, Peterson JC, Charlson ME, Wolf EJ, Altemus M, Briggs WM,
Vahdat LT, Caputo TA, 2010. The effect of a contemplative self-healing

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1555 Filed 11/29/20 Page 13 of 20
000698

9

(22)

(23)

(24)

(25)

(26)

(27)

(28)

(29)

(30)

(31)

(32)

(33)

program on quality of life in women with breast and gynecologic cancers.
Altern Ther Health Med., May-Jun;16(3):30-7. PMID: 20486622.
Krystyna A, Safi T, Briggs WM, Schwalb MD, 2010. Higher morbidity
in prostate cancer patients after transrectal ultrasound guided prostate
biopsy with 3-day oral ciprofloxacin prophylaxis, independent of number
of cores. Brazilian Journal of Urology. Mar-Apr;37(2):223-9; discussion
230. PMID:21557839.
Arkun A, Briggs WM, Patel S, Datillo PA, Bove J, Birkhahn RH, 2010.
Emergency department crowding: factors influencing flow West J Emerg
Med. Feb;11(1):10-5.PMID: 20411067.
Li W, D’Ayala M, Hirshberg A, Briggs W, Wise L, Tortolani A, 2010. Comparison of conservative and operative treatment for blunt carotid injuries:
analysis of the National Trauma Data Bank. J Vasc Surg.. Mar;51(3):5939, 599.e1-2.PMID: 20206804.
D’Ayala M, Huzar T, Briggs W, Fahoum B, Wong S, Wise L, Tortolani
A, 2010. Blood transfusion and its effect on the clinical outcomes of patients undergoing major lower extremity amputation. Ann Vasc Surg.,
May;24(4):468-73. Epub 2009 Nov 8.PMID: 19900785.
Tavakol M, Hassan KZ, Abdula RK, Briggs W, Oribabor CE, Tortolani AJ,
Sacchi TJ, Lee LY, Heitner JF., 2009. Utility of brain natriuretic peptide
as a predictor of atrial fibrillation after cardiac operations. Ann Thorac
Surg. Sep;88(3):802-7.PMID: 19699901.
Zandieh SO, Gershel JC, Briggs WM, Mancuso CA, Kuder JM., 2009. Revisiting predictors of parental health care-seeking behaviors for nonurgent
conditions at one inner-city hospital. Pediatr Emerg Care., Apr;25(4):238243.PMID: 19382324.
Birkhahn RH, Blomkalns AL, Klausner HA, Nowak RM, Raja AS, Summers RL, Weber JE, Briggs WM, Arkun A, Diercks D., 2008. Academic
emergency medicine faculty and industry relationships. Acad Emerg Med.,
Sep;15(9):819-24.PMID: 19244632.
Westermann H, Choi TN, Briggs WM, Charlson ME, Mancuso CA. Obesity
and exercise habits of asthmatic patients. Ann Allergy Asthma Immunol.
2008 Nov;101(5):488-94. doi: 10.1016/S1081-1206(10)60287-6.
Boutin-Foster C., Ogedegbe G., Peterson J., Briggs M., Allegrante J.,
Charlson ME., 2008. Psychosocial mediators of the relationship between
race/ethnicity and depressive symptoms in Latino and white patients with
coronary artery disease. J. National Medical Association. 100(7), 849-55.
PMID: 18672563
Charlson ME, Charlson RE, Marinopoulos S, McCulloch C, Briggs WM,
Hollenberg J, 2008. The Charlson comorbidity index is adapted to predict costs of chronic disease in primary care patients. J Clin Epidemiol,
Dec;61(12):1234-40. PMID: 18619805.
Mancuso CA, Westermann H, Choi TN, Wenderoth S, Briggs WM, Charlson ME, 2008. Psychological and somatic symptoms in screening for depression in asthma patients. J. Asthma. 45(3), 221-5. PMID: 18415830.
Ullery, BW, JC Peterson, FM, WM Briggs, LN Girardi, W Ko, AJ Tortolani, OW Isom, K Krieger, 2007. Cardiac Surgery in Nonagenarians:

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1556 Filed 11/29/20 Page 14 of 20
000699

10

(34)

(35)

(36)

(37)

(38)

(39)

(40)

(41)

(42)

(43)

(44)

(45)

Should We or Shouldn’t We? Annals of Thoracic Surgery. 85(3), 854-60.
PMID: 18291156.
Mancuso, CA, T Choi, H Westermann, WM Briggs, S Wenderoth, 2007.
Patient-reported and Physician-reported Depressive Conditions in Relation
to Asthma Severity and Control. Chest. 133(5), 1142-8. PMID: 18263683.
Rosenzweig JS, Van Deusen SK, Okpara O, Datillo PA, Briggs WM, Birkhahn
RH, 2008. Authorship, collaboration, and predictors of extramural funding in the emergency medicine literature. Am J Emerg Med. 26(1), 5-9.
PMID: 18082774.
Westermann H, Choi TN, Briggs WM, Charlson ME, Mancuso CA, 2008.
Obesity and exercise habits of asthmatic patients. Ann Allergy Asthma
Immunol. Nov;101(5):488-94.PMID: 19055202.
Hogle NJ, Briggs WM, Fowler DL, 2007.Documenting a learning curve and
test-retest reliability of two tasks on a virtual reality training simulator in
laparoscopic surgery. J Surg Educ. 64(6), 424-30. PMID: 18063281.
D’Ayala, M, C Martone, R M Smith, WM Briggs, M Potouridis, J S Deitch,
and L Wise, 2006. The effect of systemic anticoagulation in patients undergoing angioaccess surgery. Annals of Vascular Surgery. 22(1), 11-5.
PMID: 18055171.
Charlson ME, Peterson F, Krieger K, Hartman GS, Hollenberg J, Briggs
WM, et al., 2007. Improvement of outcomes after coronary artery bypass II:
a randomized trial comparing intraoperative high versus customized mean
arterial pressure. J. Cardiac Surgey. 22(6), 465-72. PMID: 18039205.
Charlson ME, Peterson F, Boutin-Foster C, Briggs WM, Ogedegbe G, McCulloch C, et al., 2008. Changing health behaviors to improve health outcomes after angioplasty: a randomized trial of net present value versus
future value risk communication.. Health Education Research. 23(5), 82639. PMID: 18025064.
Charlson, M, Peterson J., Syat B, Briggs WM, Kline R, Dodd M, Murad
V, Dione W, 2007. Outcomes of Community Based Social Service Interventions in Homebound Elders Int. J. Geriatric Psychiatry. 23(4), 427-32.
PMID: 17918183.
Hogle NJ, Briggs WM, Fowler DL. Documenting a learning curve and
test-retest reliability of two tasks on a virtual reality training simulator
in laparoscopic surgery. J Surg Educ. 2007 Nov-Dec;64(6):424-30. PMID:
18063281.
Mancuso, CA, T Choi, H Westermann, WM Briggs, S Wenderoth, 2007.
Measuring physical activity in asthma patients: two-minute walk test, repeated chair rise test, and self-reported energy expenditure. J. Asthma.
44(4), 333-40. PMID: 17530534.
Charlson ME, Charlson RE, Briggs W, Hollenberg J, 2007. Can disease
management target patients most likely to generate high costs? The impact
of comorbidity. J Gen Intern Med. 22(4), 464-9. PMID: 17372794.
Charlson ME, Boutin-Foster C, Mancuso CA, Peterson F, Ogedegbe G,
Briggs WM, Robbins L, Isen A, Allegrante JP, 2006. Randomized Controlled Trials of Positive Affect and Self-affirmation to Facilitate Healthy

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1557 Filed 11/29/20 Page 15 of 20
000700

11

(46)

(47)

(48)

(49)

(50)

(51)

(52)

(53)

(54)

(55)

Behaviors in Patients with Cardiopulmonary Diseases: Rationale, Trial Design, and Methods. Contemporary Clinical Trials. 28(6), 748-62. PMID:
17459784.
Charlson ME, Boutin-Foster C., Mancuso C., Ogedegbe G., Peterson J.,
Briggs M., Allegrante J., Robbins L., Isen A., 2007. Using positive affect
and self affirmation to inform and to improve self management behaviors
in cardiopulmonary patients: Design, rationale and methods. Controlled
Clinical Trials. November 2007 (Vol. 28, Issue 6, Pages 748-762).
Melniker LA, Leibner E, McKenney MG, Lopez P, Briggs WM, Mancuso
CA., 2006. Randomized Controlled Clinical Trial of Point-of-Care, Limited
Ultrasonography (PLUS) for Trauma in the Emergency Department: The
First Sonography Outcomes Assessment Program (SOAP-1) Trial. Annals
of Emergency Medicine. 48(3), 227-235. PMID: 16934640.
Milling, TJ, C Holden, LA Melniker, WM Briggs, R Birkhahn, TJ Gaeta,
2006. Randomized controlled trial of single-operator vs. two-operator ultrasound guidance for internal jugular central venous cannulation. Acad
Emerg Med., 13(3), 245-7. PMID: 16495416.
Milla F, Skubas N, Briggs WM, Girardi LN, Lee LY, Ko W, Tortolani AJ,
Krieger KH, Isom OW, Mack CA, 2006. Epicardial beating heart cryoablation using a novel argon-based cryoclamp and linear probe. J Thorac
Cardiovasc Surg., 131(2), 403-11. PMID: 16434271.
Birkhahn, SK Van Deusen, O Okpara, PA Datillo, WM Briggs, TJ Gaeta,
2006. Funding and publishing trends of original research by emergency
medicine investigators over the past decade. Annals of Emergency Medicine,
13(1), 95-101. PMID: 16365335.
Birkhahn, WM Briggs, PA Datillo, SK Van Deusen, TJ Gaeta, 2006. Classifying patients suspected of appendicitis with regard to likelihood. American
Journal of Surgery, 191(4), 497-502. PMID: 16531143
Charlson ME, Charlson RE, Briggs WM, Hollenberg J, 2006. Can disease
management target patients most likely to generate high costs. J. General
Internal Medicine. 22(4), 464-9.
Milling, TJ, J Rose, WM Briggs, R Birkhahn, TJ Gaeta, JJ Bove, and
LA Melniker, 2005. Randomized, controlled clinical trial of point-of-care
limited ultrasonography assistance of central venous cannulation: the Third
Sonography Outcomes Assessment Program (SOAP-3) Trial. Crit Care
Med. 33(8), 1764-9. PMID: 16096454.
Garfield JL, Birkhahn RH, Gaeta TJ, Briggs WM, 2004. Diagnostic Delays
and Pathways on Route to Operative Intervention in Acute Appendicitis.
American Surgeon. 70(11), 1010-1013. PMID: 15586517.
Birkhahn RH, Gaeta TJ, Tloczkowski J, Mundy TA, Sharma M, Bove JJ,
Briggs WM, 2003. Emergency medicine trained physicians are proficient in
the insertion of transvenous pacemakers. Annals of Emergency Medicine.
43 (4), 469-474. PMID: 15039689.

3.1. Talks (I am years behind updating these).
(1) Briggs, 2016. The Crisis Of Evidence: Probability & The Nature Of Cause.
Institute of Statistical Science, Academia Sinica, Taipei, Taiwan.
(2) Wei Li,Piotr Gorecki, Robert Autin, William Briggs, Elie Semaan, Anthony
J. Tortolani, Marcus D’Ayala, 2011. Concurrent Prophylactic Placement of

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1558 Filed 11/29/20 Page 16 of 20
000701

12

(3)

(4)

(5)
(6)

(7)

(8)

(9)

(10)

(11)

(12)

(13)

(14)

Inferior Vena Cava Filter (CPPOIVCF) in Gastric Bypass and Adjustable
Banding Operations: An analysis of the Bariatric Outcomes Longitudinal
Database. Eastern Vascular Society 25th Annual Meeting, 2011.
Wei Li, Jo Daniel, James Rucinski, Syed Gardezi, Piotr Gorecki, Paul
Thodiyil, Bashar Fahoum, William Briggs, Leslie Wise, 2010. FACSFactors
affecting patient disposition after ambulatory laparoscopic cholecystectomy
(ALC) cheanalysis of the National Survey of Ambulatory Surgery (NSAS).
American College of Surgeons.
Wei Li, Marcus D’Ayala, et al., William Briggs, 2010. Coronary bypass and
carotid endarterectomy (CEA): does a combined operative approach offer
better outcome? - Outcome of different management strategies in patients
with carotid stenosis undergoing coronary artery bypass grafting (CABG).
Vascular Annual Meeting.
Briggs, WM, 2007. On equi-probable priors, MAX ENT 2007, Saratoga
Springs, NY.
Briggs, WM, and RA Zaretzki, 2006. On producing probability forecasts
(from ensembles). 18th Conf. on Probability and Statistics in the Atmospheric Sciences, Atlanta, GA, Amer. Meteor. Soc.
Briggs, WM, and RA Zaretzki, 2006. Improvements on the ROC Curve:
Skill Plots for Forecast Evaluation. Invited. Joint Research Conference on
Statistics in Quality Industry and Technology, Knoxville, TN.
Briggs, WM, and RA Zaretzki, 2005. Skill Curves and ROC Curves for
Diagnoses, or Why Skill Curves are More Fun. Joint Statistical Meetings,
American Stat. Soc., Minneapolis, MN.
Briggs W.M., 2005. On the optimal combination of probabilistic forecasts
to maximize skill. International Symposium on Forecasting San Antonio,
TX. International Institute of Forecasters.
Briggs, WM, and D Ruppert, 2004. Assessing the skill of yes/no forecasts
for Markov observations. 17th Conf. on Probability and Statistics in the
Atmospheric Sciences, Seattle, WA, Amer. Meteor. Soc.
Melniker, L, E Liebner, B Tiffany, P Lopez, WM Briggs, M McKenney,
2004. Randomized clinical trial of point-of-care limited ultrasonography
(PLUS) for trauma in the emergency department. Annals of Emergency
Medicine, 44.
Birkhahn RH, Gaeta TJ, Van Deusen SK, Briggs WM, 2004. Classifying
patients suspected of appendicitis with regard to likelihood. Annals of
Emergency Medicine, 44 (4): S17-S17 51 Suppl. S.
Zandieh, SO, WM Briggs, JM Kuder, and CA Mancuso, 2004. Negative
perceptions of health care among caregivers of children auto-assigned to
a Medicaid managed care health plan. Ambulatory Pediatric Association
Meeting, San Francisco, CA; and National Research Service Award Trainees
Conference, San Diego, CA.
Melniker, L, E Liebner, B Tiffany, P Lopez, M Sharma, WM Briggs, M
McKenney, 2003. Cost Analysis of Point-of-care, Limited Ultrasonography (PLUS) in Trauma Patients: The Sonography Outcomes Assessment
Program (SOAP)-1 Trial. Academic Emergency Medicine, 11, 568.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1559 Filed 11/29/20 Page 17 of 20
000702

13

(15) Melniker, LA, WM Briggs, and CA Mancuso, 2003. Including comorbidity in the assessment of trauma patients: a revision of the trauma injury
severity score. J. Clin Epidemiology, Sep., 56(9), 921. PMID: 14505784.
(16) Briggs, WM, and RA Levine, 1998. Comparison of forecasts using the
bootstrap. 14th Conf. on Probability and Statistics in the Atmospheric
Sciences Phoenix, AZ, Amer. Meteor. Soc., 1-4.
(17) Briggs, WM, and R Zaretzki, 1998. The effect of randomly spaced observations on field forecast error scores. 14th Conf. on Probability and Statistics
in the Atmospheric Sciences Phoenix, AZ, Amer. Meteor. Soc., 5-8.
(18) Briggs, WM, and RA Levine, 1996. Wavelets and image comparison: new
approaches to field forecast verification. 13th Conf. on Probability and
Statistics in the Atmospheric Sciences, San Francisco, CA, Amer. Meteor.
Soc., 274-277.
(19) Briggs, WM, and DS Wilks, 1996. Modifying parameters of a daily stochastic weather generator using long-range forecasts. 13th Conf. on Probability
and Statistics in the Atmospheric Sciences, San Francisco, CA, Amer. Meteor. Soc., 243-2246.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1560 Filed 11/29/20 Page 18 of 20
000703

MI Unreturned Live Agent - Mass Markets
3,815 Completes
Completed survey** 248 Q4=01
Message Left
1,257 VM
Refused/Early
Hang
2,310 up/RC
62,569 No
Answer
Bad/Wrong
3,644 Numbers/Language

11/15/2020 11/16/2020 11/17/2020
990
2,825
1-Completed Survey
2-Message Delivered VM
3-Refused
4-No Answer
5-Bad Number

-

36
388
566
15,482
570

212
869
1,744
47,087
3,074

100.00% List Penetration
70,030 Data Loads
Q1 - May I please speak to <lead on
screen>?
958
23.65%
142
3.51%
2,950
72.84%
0
0.00%
4,050
100.00%

Q2 - Did you request Absentee
Ballot in state of MI?

Response
A-Reached
Target
B-What
Is This
About? /
Uncertain
X = Refused

11/15/2020 11/16/2020 11/17/2020
158
800
57
85
883
2,067

Sum of All Responses

-

1,098

2,952

Response
11/15/2020 11/16/2020 11/17/2020

752

49.64% A-Yes [Go to Q3]

Ex. 101, Attachment 1, Braynard Survey Data

-

167

585

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1561 Filed 11/29/20 Page 19 of 20
000704

239
50
17
37
11
409

1,515

15.78%
3.30%
1.12%
2.44%
0.73%
27.00%

106

Response
A-Yes [Go to Q4]
B-No [Go
Close A]
C-Yes
(pertoSpouse/family
Member)
to Q4]
D-No
(per[Go
Spouse/family
Member)
[Go
to Close
A]to
E-Unsure / Refused
[Go
Close A]
X = Refused

-

39
5
2
4
2
63

282

200
45
15
33
9
346

1,233

11/15/2020 11/16/2020 11/17/2020
41
191
109
363
2
8
2
26
5
17
60
266
-

100.00% Sum of All Responses

Q4 - Can you please give us the
best phone number to reach you
at?
246

-

100.00% Sum of All Responses

Q3 - Did you mail your ballot back?
232
21.28%
472
43.30%
10
0.92%
28
2.57%
22
2.02%
326
29.91%

1,090

B-No
Q4]
C-Yes[Go
(pertoSpouse/family
Member)
to Q3]
D-No (per[Go
Spouse/family
Member) [Go to Q4]
E-Unsure
[Go toAt
Close
F-Not
Available
The A]
Moment [Go to Close A]
X = Refused

-

219

871

Response

A-Yes (Capture Number) [Go
69.89% to Q5]
30.11% B-Refused [Go to Q5]

11/15/2020 11/16/2020 11/17/2020

Ex. 101, Attachment 1, Braynard Survey Data

-

36
27

210
79

Case 2:20-cv-13134-LVP-RSW ECF No. 6-21, PageID.1562 Filed 11/29/20 Page 20 of 20
000705

0
0
352

0.00%
0.00%
100.00% Sum of All Responses

Q5 - Can you provide us your email
address?
7.26%
18
92.74%
230
0.00%
0
248
100.00%

Response
01-Yes [Go to Close B]
02-No [Go to Close B]

-

63

289

11/15/2020 11/16/2020 11/17/2020
5
13
31
199

Sum of All Responses

Ex. 101, Attachment 1, Braynard Survey Data

-

36

212

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1563 Filed 11/29/20 Page 1 of 8
000706

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1564 Filed 11/29/20 Page 2 of 8
000707

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1565 Filed 11/29/20 Page 3 of 8
000708

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1566 Filed 11/29/20 Page 4 of 8
000709

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1567 Filed 11/29/20 Page 5 of 8
000710

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1568 Filed 11/29/20 Page 6 of 8
000711

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1569 Filed 11/29/20 Page 7 of 8
000712

Case 2:20-cv-13134-LVP-RSW ECF No. 6-22, PageID.1570 Filed 11/29/20 Page 8 of 8
000713

Case 2:20-cv-13134-LVP-RSW ECF No. 6-23, PageID.1571 Filed 11/29/20 Page 1 of 1
000714

Matt Braynard on Twitter: "Update: -Residency Analysis of ABS/EV Voters These are the two indicators
of someone no longer eligible to vote due to residency: NCOA = Voters who filed change of address to
another state. SVR = Subsequent Voter Registration in another state Merged = NCOA+SVR Deduped" /
Twitter

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1572 Filed 11/29/20 Page 1 of 8
000715

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1573 Filed 11/29/20 Page 2 of 8
000716

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1574 Filed 11/29/20 Page 3 of 8
000717

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1575 Filed 11/29/20 Page 4 of 8
000718

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1576 Filed 11/29/20 Page 5 of 8
000719

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1577 Filed 11/29/20 Page 6 of 8
000720

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1578 Filed 11/29/20 Page 7 of 8
000721

RUSSELL JAMES RAMSLAND, Jr.
_____________________________________________________________

__

Professional Summary
Unusual breadth of experience as a Senior Management Executive with MBA in both start-up and private company
environments. Background includes international and domestic experience, oil and gas exploration and production, advanced
converged telecom, highly advanced semiconductor materials, hospitality, commercial real estate development & operation,
investment banking and service industries.

Professional Experience
Allied Special Operations Group, LLC. – Addison, Texas
2017 –present
Co-Founder
ASOG is a group of globally engaged professionals who come from various disciplines that includes Department of Defense,
Secret Service, Department of Homeland Security, the Central Intelligence Agency and others. It offers services cybersecurity
services, safety and security training, personal protection CONUS and OCONUS, Open Source Investigations, and two mission
projects centered on the US Elections system and human trafficking.
Independent Consultant – Dallas, Texas
2003 – 2017
General business consulting with a variety of clients and industries including oil and gas exploration, architectural firms,
interiors design firms, printing companies, hospitality industry and real estate. Advise on strategic and operational issues,
mergers and acquisitions, and financial performance enhancement.
SandStream, Inc. – Lewisville, Texas
1999–2003
CFO/VP Finance/Board of Directors
Start-up company developed a fully interactive, converged service consisting of DVD quality streaming video, voice and data
using IP and Ethernet over a fiber network. Responsible for all aspects of finance, accounting and legal departments. Worked
closely with CEO on strategic planning and direction. Developed a new model for fiber-to-the-home deployments that saved
40% over traditional practices while supporting a 10% greater initial service offering. Patent application was filed and was
named co-inventor. Conducted numerous private placement offerings of common and preferred securities with financial and
strategic investors including Nortel Networks, Cisco Systems and Texas Instruments. Total amount of financing was $70
million. Primary negotiator for company’s senior secured and subordinated debt facilities. Company achieved a valuation in
excess of $250 million.
Capital Alliance Corp. - Dallas, Texas
1996-1999
Vice President
A 39 year old investment banking firm based in Dallas, Texas specializing in middle market Mergers and Acquisitions with
annual transaction volume of approximately $200 million at the time. Participated in the successful launch of the International
Division in 1996-97. Developed new business, structured financial transactions, sourced funds and negotiated on behalf of
clients with banks and investors in the US and Mexico. Represented a variety of industries including telecommunications,
tourism, healthcare, electrical contracting, construction, banking and oil and gas exploration.
Grandactual Ltd. dba “The Texas Embassy Cantina” – London, England
1994-2012
Co-founder, Principal and Director
The Texas Embassy Cantina® on Trafalgar Square in London, England was Europe’s highest grossing Tex-Mex restaurant and
evolved into a brand name recognized worldwide. Responsibilities included operations oversight, development of MIS reports,
investor relations and marketing. Negotiated the sale of the venture after 18 years of operation
Microgravity Research Associates, Inc. – Huntsville, Alabama
1980-1992
Co-Founder, Director, CEO
This start-up company developed a unique Liquid Phase Electroepitaxial approach to grow very advanced III-V semiconductor
materials as binaries, ternaries and quaternaries, first in the low gravity environment of space and later terrestrially for use in
very advanced sensors and detectors as required by NASA and U.S. Department of Defense. Negotiated the nation's first Joint
Endeavor Agreement (JEA) with NASA that pioneered a new form of partnership between the United States government and a
private firm. Worked in concert with various entities of the Reagan White House, M.I.T., NASA (Marshall Space Flight
Center), Boeing, Teledyne Brown and C. Itoh (Japan).

Case 2:20-cv-13134-LVP-RSW ECF No. 6-24, PageID.1579 Filed 11/29/20 Page 8 of 8
000722

Dinero Companies - Midland, Texas
1979-Present
Chairman, Director
Family based oil and gas exploration and production company based in Midland, Texas. Company has drilled and operated in
8 states, Canada and offshore Ecuador and was early pioneer in the search to develop shale oil bearing zones. In 2006,
company was in the top 50 largest gas producers in the State of New Mexico. Over the years the company has had over 600
private partners with varying interest in several hundred wells.
Tuku Tuku Ranch – Formerly the Island of Efate, New Hebrides
1976-1977
Leader of Evaluation/Due Diligence Team
Consultant to consortium of private individuals formed to establish a cattle ranching operation on Efate, New Hebrides in
conjunction with a proposed Japanese fleet of processing ships supplying beef to Japanese mainland.
Blue Seas Shipping Co. – London, England & Riyadh, Saudi Arabia
1975-1977
Chief Financial Strategist
Consultant to consortium of private individuals, the C.T. Bowring Group of London and Sheikh Jamil Khogeer of Mecca,
Saudi Arabia that was formed to establish a Saudi flag carrier for shipping transport of crude oil.
Honorable George W. Mahon – U.S. HOUSE OF REPRESENTATIVES
Chairman Mahon and the House Appropriations Committee
Researched and reported to the Chairman in areas of oil & gas legislation and defense.

1974

PROFESSIONAL AND CIVIC ACTIVITIES – Past & Present
Present
Member of Finance Committee of Park Cities Presbyterian Church
State Delegate to 5 Republican Conventions
Election Judge & Poll Watcher
Board of Directors - PhotonX, Inc.

Past
2016 Candidate for U.S. House of Representatives – CD-32 Texas
Founder and Leader of 1,200+ member Park Cities/Preston Hollow Leadership Forum dedicated to the political education of its
members.
Precinct Chairman – several years
Member of the Society of International Business Fellows
Chairman and member of Finance Committee of Park Cities Presbyterian Church
Deacon at Park Cities Presbyterian Church - Dallas
Board of Directors – Permian Basin Petroleum Association
Co-founder of Young Producer’s Forum (oil and gas)
Member of U.S. Department of Transportation’s Commercial Space Transportation Advisory Committee (COMSTAC)
Member of National Chamber of Commerce (Washington) Space Policy Task Force
Member of Advisory Board of Main Hurdman’s Space Industry Consulting Group
Member of U.S. Office of Technology Assessment Space Law Task Force
Consultant to NASA 1978-79
Invited speaker at Harvard University, M.I.T, the New York Society of Securities Analysts, International Space Conference at
Montreux, Switzerland, and others.

ACADEMIC BACKGROUND

Harvard Graduate School of Business - M.B.A 1979
Duke University - B.A. - Political Science 1975

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1580 Filed 11/29/20 Page 1 of 17
000723

Declaration of XXXXXXXXX.
Pursuant to 28 U.S.C Section 1746, I, XXXXXXXX, make the following
declaration.
1. I am over the age of 21 years and I am under no legal disability, which would prevent me
from giving this declaration.
2. I was an electronic intelligence analyst under 305th Military Intelligence with experience
gathering SAM missile system electronic intelligence. I have extensive experience as a white
hat hacker used by some of the top election specialists in the world. The methodologies I
have employed represent industry standard cyber operation toolkits for digital forensics and
OSINT, which are commonly used to certify connections between servers, network nodes
and other digital properties and probe to network system vulnerabilities.
3. I am a US citizen and I reside at {redacted} location in the United States of America.
4. Whereas the Dominion and Edison Research systems exist in the internet of things, and
whereas this makes the network connections between the Dominion, Edison Research and
related network nodes available for scanning,
5. And whereas Edison Research’s primary job is to report the tabulation of the count of the
ballot information as received from the tabulation software, to provide to Decision HQ for
election results,
6. And whereas Spiderfoot and Robtex are industry standard digital forensic tools for evaluation
network security and infrastructure, these tools were used to conduct public security scans of
the aforementioned Dominion and Edison Research systems,
7. A public network scan of Dominionvoting.com on 2020-11-08 revealed the following interrelationships and revealed 13 unencrypted passwords for dominion employees, and 75
hashed passwords available in TOR nodes:

1

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1581 Filed 11/29/20 Page 2 of 17
000724

2

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1582 Filed 11/29/20 Page 3 of 17
000725

8. The same public scan also showed a direct connection to the group in Belgrade as
highlighted below:

9. A cursory search on LinkedIn of “dominion voting” on 11/19/2020 confirms the numerous
employees in Serbia:

3

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1583 Filed 11/29/20 Page 4 of 17
000726

10. An additional search of Edison Research on 2020-11-08 showed that Edison Research has an
Iranian server seen here:

Inputting the Iranian IP into Robtex confirms the direct connection into the “edisonresearch”
host from the perspective of the Iranian domain also. This means that it is not possible that the
connection was a unidirectional reference.

A deeper search of the ownership of Edison Research “edisonresearch.com” shows a connection
to BMA Capital Management, where shareofear.com and bmacapital.com are both connected to
edisonresearch.com via a VPS or Virtual Private Server, as denoted by the “vps” at the start of
the internet name:

4

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1584 Filed 11/29/20 Page 5 of 17
000727

Dominionvoting is also dominionvotingsystems.com, of which there are also many more
examples, including access of the network from China. The records of China accessing the server
are reliable.

5

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1585 Filed 11/29/20 Page 6 of 17
000728

6

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1586 Filed 11/29/20 Page 7 of 17
000729

11. BMA Capital Management is known as a company that provides Iran access to capital
markets with direct links publicly discoverable on LinkedIn (found via google on
11/19/2020):
7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1587 Filed 11/29/20 Page 8 of 17
000730

The same Robtex search confirms the Iranian address is tied to the server in the Netherlands,
which correlates to known OSINT of Iranian use of the Netherlands as a remote server (See
Advanced Persistent Threats: APT33 and APT34):

12. A search of the indivisible.org network showed a subdomain which evidences the existence
of scorecard software in use as part of the Indivisible (formerly ACORN) political group for
Obama:

13. Each of the tabulation software companies have their own central reporting “affiliate”.
Edison Research is the affiliate for Dominion.
14. Beanfield.com out of Canada shows the connections via co-hosting related sites, including
dvscorp.com:

8

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1588 Filed 11/29/20 Page 9 of 17
000731

This Dominion partner domain “dvscorp” also includes an auto discovery feature, where new innetwork devices automatically connect to the system. The following diagram shows some of the
related dvscopr.com mappings, which mimic the infrastructure for Dominion and are an obvious
typo derivation of the name. Typo derivations are commonly purchased to catch redirect traffic
and sometimes are used as honeypots. The diagram shows that infrastructure spans multiple
different servers as a methodology.

9

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1589 Filed 11/29/20 Page 10 of 17
000732

The above diagram shows how these domains also show the connection to Iran and other
places, including the following Chinese domain, highlighted below:

15. The auto discovery feature allows programmers to access any system while it is connected to
the internet once it’s a part of the constellation of devices (see original Spiderfoot graph).
16. Dominion Voting Systems Corporation in 2019 sold a number of their patents to China (via
HSBC Bank in Canada):

10

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1590 Filed 11/29/20 Page 11 of 17
000733

11

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1591 Filed 11/29/20 Page 12 of 17
000734

12

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1592 Filed 11/29/20 Page 13 of 17
000735

Of particular interest is a section of the document showing aspects of the nature of the patents
dealing with authentication:

17. Smartmatic creates the backbone (like the cloud). SCYTL is responsible for the security
within the election system.

13

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1593 Filed 11/29/20 Page 14 of 17
000736

18. In the GitHub account for Scytl, Scytl Jseats has some of the programming necessary to
support a much broader set of election types, including a decorator process where the data is
smoothed, see the following diagram provided in their source code:

14

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1594 Filed 11/29/20 Page 15 of 17
000737

19. Unrelated, but also a point of interest is CTCL or Center for Tech and Civic Life funded by
Mark Zuckerberg. Within their github page (https://github.com/ctcl), one of the programmers
holds a government position. The Bipcoop repo shows tanderegg as one of the developers,
and he works at the Consumer Financial Protection Bureau:

15

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1595 Filed 11/29/20 Page 16 of 17
000738

20. As seen in included document titled
“AA20-304AIranian_Advanced_Persistent_Threat_Actor_Identified_Obtaining_Voter_Registration_Data
” that was authored by the Cybersecurity & Infrastructure Security Agency (CISA) with a
Product ID of AA20-304A on a specified date of October 30, 2020, CISA and the FBI
reports that Iranian APT teams were seen using ACUTENIX, a website scanning software, to
find vulnerabilities within Election company websites, confirmed to be used by the Iranian
APT teams buy seized cloud storage that I had personally captured and reported to higher
authorities. These scanning behaviors showed that foreign agents of aggressor nations had
access to US voter lists, and had done so recently.
21. In my professional opinion, this affidavit presents unambiguous evidence that Dominion
Voter Systems and Edison Research have been accessible and were certainly compromised
by rogue actors, such as Iran and China. By using servers and employees connected with
rogue actors and hostile foreign influences combined with numerous easily discoverable
leaked credentials, these organizations neglectfully allowed foreign adversaries to access data
16

Case 2:20-cv-13134-LVP-RSW ECF No. 6-25, PageID.1596 Filed 11/29/20 Page 17 of 17
000739

and intentionally provided access to their infrastructure in order to monitor and manipulate
elections, including the most recent one in 2020. This represents a complete failure of their
duty to provide basic cyber security. This is not a technological issue, but rather a
governance and basic security issue: if it is not corrected, future elections in the United States
and beyond will not be secure and citizens will not have confidence in the results.
I declare under penalty of perjury that the forgoing is true and correct to the best of my
knowledge. Executed this November 23th, 2020.

17

Case 2:20-cv-13134-LVP-RSW ECF No. 6-26, PageID.1597 Filed 11/29/20 Page 1 of 7
000740

DECLARATION OF RONALD WATKINS

I, Ronald Watkins, hereby state the following:

1. I am a United States citizen currently residing in Japan.

2. I am an adult of sound mind. All statements in this declaration are based on my personal
knowledge and are true and correct.

3. I am making this statement voluntarily and on my own initiative. I have not been promised,
nor do I expect to receive, anything in exchange for my testimony and giving this statement. I
have no expectation of any profit or reward and understand that there are those who may seek to
harm me for what I say in this statement.

4. I want to alert the public and let the world know the truth about actual voting tabulation
software designed, whether with malicious intent or plain incompetence, in such a way so as to
facilitate digital ballot stuffing via simple vote result manipulation and abuse of the digital
adjudication manual review system. The Dominion Democracy Suite may both enable voter
fraud by unethical officials out to undermine the will of the people, and honest officials making
simple, nearly untraceable, mistakes. Voting is a fundamental manifestation of our First
Amendment right to free speech and under no circumstance shall we allow a conspiracy of
people and companies to subvert and destroy one of our most sacred rights.

5. I am a network and information security expert with nine years of experience as a network
and information defense analyst and a network security engineer. In my nine years of network
and information security experience, I have successfully defended large websites and networks
against major and powerful cyberattacks.

6. The ImageCast Central system is a software and hardware workstation system designed to
work with just a common "Windows 10 Pro"[1][2] computer paired via data cable [3] to an offthe-shelf document scanner [4] "for high speed scanning and counting of paper ballots.[5]”

7. When bulk ballot scanning and tabulation begins, the "ImageCast Central" workstation
operator will load a batch of ballots into the scanner feed tray and then start the scanning
Page 1 of 7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-26, PageID.1598 Filed 11/29/20 Page 2 of 7
000741

procedure within the software menu [6]. The scanner then begins to scan the ballots which were
loaded into the feed tray while the "ImageCast Central" software application tabulates votes in
real-time. Information about scanned ballots can be tracked inside the "ImageCast Central"
software application [7].

8. After all of the ballots loaded into the scanner's feed tray have been through the scanner, the
"ImageCast Central" operator will remove the ballots from the tray then have the option to
"Accept Batch" on the scanning menu [8]. Accepting the batch saves the results into the local file
system within the "Windows 10 Pro" machine [9]. Any "problem ballots" that may need to be
examined or adjudicated at a later time can be found as ballot scans saved as image files into a
standard Windows folder named "NotCastImages" [9]. These "problem ballots" are
automatically detected during the scanning phase and digitally set aside for manual review based
on exception criteria [10]. Examples of exceptions may include: overvotes, undervotes, blank
contests, blank ballots, write-in selections, and marginal marks [11]. “Customizable outstack
conditions and marginal mark detection lets [Dominion’s Customers] decide which ballots are
sent for Adjudication. [12]”

9. During the ballot scanning process, the "ImageCast Central" software will detect how much
of a percent coverage of the oval was filled in by the voter [13]. The Dominion customer
determines the thresholds of which the oval needs to be covered by a mark in order to qualify as
a valid vote [14][15]. If a ballot has a marginal mark which did not meet the specific thresholds
set by the customer, then the ballot is considered a "problem ballot" and may be set aside into a
folder named "NotCastImages" [9]. “The ImageCast Central's advanced settings allow for
adjustment of the scanning properties” to “[set] the clarity levels at which the ballot should be
scanned at. Levels can be set as a combination of brightness and contrast values, or as a gamma
value. [16]”

10. Through creatively tweaking the oval coverage threshold settings, and advanced settings on
the ImageCast Central scanners, it may be possible to set thresholds in such a way that a nontrivial amount of ballots are marked "problem ballots" and sent to the "NotCastImages" folder.

11. The administrator of the ImageCast Central work station may view all images of scanned
ballots which were deemed “problem ballots” by simply navigating via the standard "Windows
File Explorer" to the folder named "NotCastImages" which holds ballot scans of "problem
ballots" [17][18]. It may be possible for an administrator of the "ImageCast Central" workstation
to view and delete any individual ballot scans from the "NotCastImages" folder by simply using
the standard Windows delete and recycle bin functions provided by the Windows 10 Pro
operating system.
Page 2 of 7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-26, PageID.1599 Filed 11/29/20 Page 3 of 7
000742

12. Adjudication is “the process of examining voted ballots to determine, and, in the judicial
sense, adjudicate voter intent. [19]” A biased poll worker without sufficient honest oversight
could abuse the adjudication system to fraudulently switch votes for a specific candidate.

13. After the tabulation process, the ImageCast Central software saves a copy of the tabulation
results locally to the "Windows 10 Pro" machine's internal storage. The results data is located in
an easy-to-find path which is designed to easily facilitate the uploading of tabulation results to
flash memory cards. The upload process is just a simple copying of a "Results" folder containing
vote tallies to a flash memory card connected to the "Windows 10 Pro" machine. The copy
process uses the standard drag-n-drop or copy/paste mechanisms within the ubiquitous
"Windows File Explorer" [20]. While a simple procedure, the report results process may be error
prone and is very vulnerable to malicious administrators. Before delivering final tabulation
results to the county, it is within the realm of possibility to mistakenly copy the wrong "Results"
folder or even maliciously copy a false "Results" folder, which may contain a manipulated data
set, to the flash memory card.
References:
[1]

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p3, [online
document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed
November 23, 2020)
https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide5-11-CO.pdf [archive]

[2]

Georgia State Certification Testing, Dominion Voting Systems D-Suite 5.5-A Voting
System, p5, table 2-1, [online document]
https://sos.ga.gov/admin/uploads/Dominion_Test_Cert_Report.pdf (accessed November,
23, 2020), https://web.archive.org/web/20201106055006/https://sos.ga.gov/admin/
uploads/Dominion_Test_Cert_Report.pdf [archive]

[3]

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p2, s2.1, [online
document, https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/ documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed
November 23, 2020)
https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide5-11-CO.pdf [archive]

Page 3 of 7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-26, PageID.1600 Filed 11/29/20 Page 4 of 7
000743

[4]

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p6,
1.1.E.1, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_
A_Tech_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/
sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive]

[5]

Commonwealth of Pennsylvania Department of State, Report Concerning the
Examination Results of Dominion Voting Systems Democracy Suite 5.5A p6, s2.4, [online
document], https://www.dos.pa.gov/VotingElections/Documents/Voting%20Systems/
Dominion%20Democracy%20Suite%205.5-A/Dominion%20Democracy%20Suite
%20Final%20Report%20scanned%20with%20signature%20011819.pdf (accessed
November 23, 2020),
https://web.archive.org/web/20201016161321/https://www.dos.pa.gov/
VotingElections/Documents/Voting%20Systems/Dominion%20Democracy%20Suite
%205.5-A/Dominion%20Democracy%20Suite%20Final%20Report%20scanned%20with
%20signature%20011819.pdf [archive]

[6]

Dominion Voting, ImageCast Central, p2, [online document],
https://www.edcgov.us/Government/Elections/Documents/ImageCast%20Central
%20Brochure%202018%20FINAL.pdf (accessed November 23, 2020)
https://web.archive.org/web/20201017175507/https://www.edcgov.us/Government/
Elections/Documents/ImageCast%20Central%20Brochure%202018%20FINAL.pdf
[archive]

[7]

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2,
[online document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed
November 23, 2020),
https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide5-11-CO.pdf [archive]

[8]

Dominion Voting, ImageCast Central, [website],
https://www.dominionvoting.com/imagecast-central/ (Accessed November 23, 2020)
https://web.archive.org/web/20201101203418/https://www.dominionvoting.com/
imagecast-central/ [archive]

[9]

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, p25, s4.1.2,
[online document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed
November 23, 2020),

Page 4 of 7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-26, PageID.1601 Filed 11/29/20 Page 5 of 7
000744

https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide5-11-CO.pdf [archive]
[10]

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p21,
1.3.B.6, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_
A_Tech_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/
sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive]

[11]

MASTER SOLUTION PURCHASE AND SERVICES AGREEMENT BY AND
BETWEEN DOMINION VOTING SYSTEMS, INC. as Contractor, and SECRETARY
OF STATE OF THE STATE OF GEORGIA as State, p52, s1.3, [online document],
https://georgiaelections.weebly.com/uploads/1/0/8/5/108591015/contract.pdf (Accessed
November 23, 2020),
https://web.archive.org/web/20201122213728/https://georgiaelections.weebly.com/
uploads/1/0/8/5/108591015/contract.pdf [archive]

[12]

Dominion Voting, ImageCast Central, [website],
https://www.dominionvoting.com/imagecast-central/ (Accessed November 23, 2020)
https://web.archive.org/web/20201101203418/https://www.dominionvoting.com/
imagecast-central/ [archive]

[13]

Michigan.gov, DOMINION VOTING SYSTEMS CONTRACT No. 071B7700117, p3,
1.1.A.22, [online document],
https://www.michigan.gov/documents/sos/071B7700117_Dominion_Exhibit_2_to_Sch_
A_Tech_Req_555357_7.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201115084004/https://www.michigan.gov/documents/
sos/071B7700117_Dominion_Exhibit_2_to_Sch_A_Tech_Req_555357_7.pdf [archive]

[14]

Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, p19, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of
%20Deeds/local%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed
November 23, 2020),
https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/
calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local%20clerk
%20resources/5_5_icc_operations_manual.pdf [archive]

Page 5 of 7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-26, PageID.1602 Filed 11/29/20 Page 6 of 7
000745

[15]

IMAGECAST® CENTRAL Brochure, [website],
https://www.edcgov.us/Government/Elections/Documents/ImageCast%20Central
%20Brochure%202018%20FINAL.pdf (accessed November 23, 2020),
https://web.archive.org/web/20201017175507/https://www.edcgov.us/Government/
Elections/Documents/ImageCast%20Central%20Brochure%202018%20FINAL.pdf
[archive]

[16]

Dominion Voting, Democracy Suite®ImageCast® Central User Guide, pp20-21, s3.22,
[online document], https://www.sos.state.co.us/pubs/elections/VotingSystems/DVSDemocracySuite511/documentation/UG-ICC-UserGuide-5-11-CO.pdf (Accessed
November 23, 2020),
https://web.archive.org/web/20201019175854/https://www.sos.state.co.us/pubs/
elections/VotingSystems/DVS-DemocracySuite511/documentation/UG-ICC-UserGuide5-11-CO.pdf [archive]

[17]

Dominion Voting, Democracy Suite® Use Procedures, p433, F.3.11, [online document]
https://votingsystems.cdn.sos.ca.gov/vendors/dominion/ds510-use-proc-jan.pdf
(Accessed November 23, 2020),
https://web.archive.org/web/20201101173723/https://votingsystems.cdn.sos.ca.gov/
vendors/dominion/ds510-use-proc-jan.pdf [archive]

[18]

Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, p27, [online document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of
%20Deeds/local%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed
November 23, 2020),
https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/
calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local%20clerk
%20resources/5_5_icc_operations_manual.pdf [archive]

[19]

Dominion Voting, Democracy Suite® Use Procedures, p9, [online document]
https://votingsystems.cdn.sos.ca.gov/vendors/dominion/ds510-use-proc-jan.pdf
(Accessed November 23, 2020),
https://web.archive.org/web/20201101173723/https://votingsystems.cdn.sos.ca.gov/
vendors/dominion/ds510-use-proc-jan.pdf [archive]

[20]

Calhoun County, MI, ImageCast Central (ICC) 5.5 Operations, pp25-28, [online
document],
https://cms5.revize.com/revize/calhouncountymi/Clerk%20&%20Register%20of
%20Deeds/local%20clerk%20resources/5_5_icc_operations_manual.pdf (accessed
November 23, 2020),

Page 6 of 7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-26, PageID.1603 Filed 11/29/20 Page 7 of 7
000746

https://web.archive.org/web/20200802003507/https://cms5.revize.com/revize/
calhouncountymi/Clerk%20&%20Register%20of%20Deeds/local%20clerk
%20resources/5_5_icc_operations_manual.pdf [archive]
I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct and that this Declaration was prepared in Japan. Executed on
November 23, 2020.

___________________________
RONALD WATKINS

Page 7 of 7

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1604
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 1 ofPage
48 1 of 48
000747

EXHIBIT 107

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1605
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 2 ofPage
48 2 of 48
000748

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONNA CURLING, ET AL.,
Plaintiffs,
vs.
BRAD RAFFENSPERGER,
ET AL.,
Defendants.

)
)
)
)
)
)
)
)
)
)

CIVIL ACTION
FILE NO. 1:17-cv-2989-AT

DECLARATION OF HARRI HURSTI
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the
foregoing is true and correct.
1.

My name is Harri Hursti. I am over the age of 21 and competent to

give this testimony. The facts stated in this declaration are based on my personal
knowledge, unless stated otherwise.
2.

My background and qualifications in voting system cybersecurity are

set forth in my December 16, 2019 declaration. (Doc. 680-1, pages 37 et seq). I
stand by everything in that declaration and in my August 21, 2020 declaration.
(Doc. 800-2).

1

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1606
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 3 ofPage
48 3 of 48
000749

3.

I am also an expert in ballot scanning because of extensive

background in digital imaging prior by work researching election systems. In
addition, in 2005 I started an open source project for scanning and auditing paper
ballots from images. As a result, I am familiar with different scanner types, how
scanner settings and image processing features change the images, and how file
format choices affect the quality and accuracy of the ballots.
4.

I am engaged as an expert in this case by Coalition for Good

Governance.
5.

In developing this declaration and opinion, I visited Atlanta to observe

certain operations of the June 9, 2020 statewide primary, and the August 11 runoff.
During the June 9 election, I was an authorized poll watcher in some locations and
was a public observer in others. On August 11, I was authorized as an expert
inspecting and observing under the Coalition for Good Governance’s Rule 34
Inspection request in certain polling places and the Fulton County Election
Preparation Center. As I will explain below in this declaration, my extensive
experience in the area of voting system security and my observations of these
elections lead to additional conclusions beyond those in my December 16, 2019
declaration. Specifically:

2

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1607
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 4 ofPage
48 4 of 48
000750

a) the scanner and tabulation software settings being employed to determine
which votes to count on hand marked paper ballots are likely causing
clearly intentioned votes not to be counted;
b) the voting system is being operated in Fulton County in a manner that

escalates the security risk to an extreme level; and
c) voters are not reviewing their BMD printed ballots, which causes BMD
generated results to be un-auditable due to the untrustworthy audit trail.
Polling Place Observations
6.

Election observation on Peachtree Christian Church. The ballot

marking devices were installed so that 4 out of 8 touchscreen devices were clearly
visible from the pollbook check in desk. Voter’s selections could be effortlessly
seen from over 50 ft away.
7.

Over period of about 45 minutes, I only observed one voter who

appeared to be studying the ballot after picking it up from the printer before casting
it in the scanner. When voters do not fully verify their ballot prior to casting, the
ballots cannot be considered a reliable auditable record.
8.

The scanner would reject some ballots and then accept them after they

were rotated to a different orientation. I noted that the scanner would vary in the
amount of time that it took to accept or reject a ballot. The delay varied between 3
3

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1608
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 5 ofPage
48 5 of 48
000751

and 5 seconds from the moment the scanner takes the ballot until the scanner either
accepts the ballot or rejects it. This kind of behavior is normal on general purpose
operating systems multitasking between multiple applications, but a voting system
component should be running only a single application without outside
dependencies causing variable execution times.
9.

Further research is necessary to determine the cause of the unexpected

scanning delays. A system that is dedicated to performing one task repeatedly
should not have unexplained variation in processing time. As security researcher,

we are always suspicious about any unexpected variable delays, as those are
common telltale signs of many issues, including a possibility of unauthorized
code being executed. So, in my opinion changes of behaviors between
supposedly identical machines performing identical tasks should always be
investigated.
When ballots are the same and are produced by a ballot marking device,
there should be no time difference whatsoever in processing the bar codes.
Variations in time can be the result of many things - one of them is that the
scanner encounters an error reading the bar code and needs to utilize error
correcting algorithms to recover from that error. Further investigation is
4

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1609
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 6 ofPage
48 6 of 48
000752

necessary to determine the root cause of these delays, the potential impact of the
error correcting algorithms if those are found to be the cause, and whether the
delay has any impact upon the vote.
10.

Election observation in Central Park Recreation Center. The Poll

place manager told me that no Dominion trained technician had reported on
location to help them that morning.
11.

The ballot marking devices were originally installed in a way that

voter privacy was not protected, as anyone could observe across the room how
people are voting on about 2/3 devices.
12.

The ballot scanner took between 4 and 6 seconds to accept the ballot.

I observed only one ballot being rejected.
13.

Generally, voters did not inspect the ballots after taking it from the

printer and casting it into the scanner.
14.

Election observation in Fanplex location. Samantha Whitley and

Harrison Thweatt were poll watchers at the Fanplex polling location. They
contacted me at approximately 9:10am about problems they were observing with
the operation of the BMDs and Poll Pads and asked me to come to help them

5

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1610
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 7 ofPage
48 7 of 48
000753

understand the anomalies they were observing. I arrived at FanPlex at
approximately 9:30am.
15.

I observed that the ballot scanner located by a glass wall whereby

standing outside of the building observe the scanning, would take between 6 and 7
seconds to either accept or reject the ballot.
16.

For reasons unknown, on multiple machines, while voters were

attempting to vote, the ballot marking devices sometimes printed “test” ballots. I
was not able to take a picture of the ballot from the designated observation area,
but I overheard the poll worker by the scanner explaining the issue to a voter which
was sent back to the Ballot-Marking Device to pick up another ballot from the
printer tray. Test ballots are intended to be used to test the system but without
being counted by the system during an election. The ballot scanner in election
settings rejects test ballots, as the scanners at FanPlex did. This caused confusion
as the voters needed to return to the ballot-marking device to retrieve the actual
ballot. Some voters returned the test ballot into the printer tray, potentially
confusing the next voter. Had voters been reviewing the ballots at all before taking
them to the scanner, they would have noticed the “Test Ballot” text on the ballot. I
observed no voter really questioning a poll worker why a “Test” ballot was printed
in the first place.
6

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1611
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 8 ofPage
48 8 of 48
000754

17.

Obviously, during the election day, the ballot marking device should

not be processing or printing any ballot other than the one the voter is voting.
While the cause of the improper printing of ballots should be examined, the fact
that this was happening at all is likely indicative of a wrong configuration given to
the BMD, which in my professional opinion raises another question: Why didn’t
the device print only test ballots? And how can the device change its behavior in
the middle of the election day? Is the incorrect configuration originating from the
Electronic Pollbook System? What are the implications for the reliability of the
printed ballot and the QR code being counted?
18.

Election observation Park Tavern. The scanner acceptance delay did

not vary as it had in previous locations and was consistently about 5 seconds from
the moment the scanner takes the ballot, to the moment the scanner either accepts
the ballot or rejects it. The variation between scanners at different locations is
concerning because these are identical physical devices and should not behave
differently while performing the identical task of scanning a ballot.
19.

The vast majority of voters at Park Tavern did not inspect the ballots

after taking them from the printer and before casting them in the scanner.

7

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1612
Filed 11/29/20
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 9 ofPage
48 9 of 48
000755

Fulton Tabulation Center Operation-Election Night, August 11, 2020
20.

In Fulton County Election Preparation Center (“EPC”) on election

night I reviewed certain operations as authorized by Rule 34 inspection.
21.

I was permitted to view the operations of the upload of the memory

devices coming in from the precincts to the Dominion Election Management
System (“EMS”) server. The agreement with Fulton County was that I could
review only for a limited period of time; therefore, I did not review the entire
evening’s process. Also, Dominion employees asked me to move away from the
monitors containing the information and messages from the upload process and
error messages, limiting my ability to give a more detailed report with
documentation and photographs of the screens. However, my vantage point was
more than adequate to observe that system problems were recurring and the
Dominion technicians operating the system were struggling with the upload
process.
22.

It is my understanding the same EMS equipment and software had

been used in Fulton County’s June 9, 2020 primary election.
23.

It is my understanding that the Dominion technician (“Dominic”)

charged with operating the EMS server for Fulton County had been performing

8

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1613
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 10 of
48 10 of 48
000756

these duties at Fulton County for several months, including during the June 9
primary.
24.

During my August 11 visit, and a follow-up visit on August 17, I

observed that the EMS server was operated almost exclusively by Dominion
personnel, with little interaction with EPC management, even when problems were
encountered. In my conversations with Derrick Gilstrap and other Fulton County
Elections Department EPC personnel, they professed to have limited knowledge of
or control over the EMS server and its operations.
25.

Outsourcing the operation of the voting system components directly to

the voting system vendors’ personnel is highly unusual in my experience and of
grave concern from a security and conflict of interest perspective. Voting system
vendors’ personnel have a conflict of interest because they are not inclined to
report on, or address, defects in the voting systems. The dangers this poses is
aggravated by the absence of any trained County personnel to oversee and
supervise the process.
26.

In my professional opinion, the role played by Dominion personnel in

Fulton County, and other counties with similar arrangements, should be considered
an elevated risk factor when evaluating the security risks of Georgia’s voting
system.
9

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1614
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 11 of
48 11 of 48
000757

27.

Based on my observations on August 11 and August 17, Dell

computers running the EMS that is used to process Fulton county votes appeared
not to have been hardened.
28.

In essence, hardening is the process of securing a system by reducing

its surface of vulnerability, which is larger when a system performs more
functions; in principle it is to the reduce the general purpose system into a singlefunction system which is more secure than a multipurpose one. Reducing available
ways of attack typically includes changing default passwords, the removal of
unnecessary software, unnecessary usernames or logins, grant accounts and
programs with the minimum level of privileges needed for the tasks and create
separate accounts for privileged operations as needed, and the disabling or removal
of unnecessary services.
29.

Computers performing any sensitive and mission critical tasks such as

elections should unquestionably be hardened. Voting system are designated by the
Department of Homeland Security as part of the critical infrastructure and certainly
fall into the category of devices which should be hardened as the most fundamental
security measure. In my experience, it is unusual, and I find it unacceptable for an
EMS server not to have been hardened prior to installation.

10

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1615
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 12 of
48 12 of 48
000758

30.

The Operating System version in the Dominion Election Management

computer, which is positioned into the rack and by usage pattern appears to be the
main computer, is Windows 10 Pro 10.0.14393. This version is also known as the
Anniversary Update version 1607 and it was released August 2, 2016. Exhibit A is
a true and correct copy of a photograph that I took of this computer.
31.

When a voting system is certified by the EAC, the Operating System

is specifically defined, as Windows 10 Pro was for the Dominion 5.5-A system.
Unlike consumer computers, voting systems do not and should not receive
automatic “upgrades” to newer versions of the Operating System. without
undergoing tests for conflicts with the new operating system software.
32.

That computer and other computers used in Georgia’s system for vote

processing appear to have home/small business companion software packages
included. Exhibits B and C are true and correct copies of photographs that I took
of the computer located in the rack and the computer located closest to the rack on
the table to the right. The Start Menu shows a large number of game and
entertainment software icons. As stated before, one of the first procedures of
hardening is removal of all unwanted software, and removal of those game icons
and the associated games and installers alongside with all other software which is
not absolutely needed in the computer for election processing purposes would be
11

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1616
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 13 of
48 13 of 48
000759

one of the first and most basic steps in the hardening process. In my professional
opinion, independent inquiry should be promptly made of all 159 counties to
determine if the Dominion systems statewide share this major deficiency.
33.

Furthermore, when I asked the Dominion employee Dominic assigned

to the Fulton County election server operation about the origin of the Windows
operating system, he answered that he believed that “it has been provided by the
State.”
34.

Since Georgia’s Dominion system is new, it is a reasonable

assumption that all machines in the Fulton County election network had the same
version of Windows installed. However, not only the two computers displayed
different entertainment software icons, but additionally one of the machines in
Fulton’s group of election servers had an icon of computer game called
“Homescapes” which is made by Playrix Holding Ltd., founded by Dmitry and
Igor Bukham in Vologda, Russia. Attached as Exhibit C is a true and correct copy
of a photograph that I took of the Fulton voting system computer” Client 02”. The
icon for Homescapes is shown by the arrow on Exhibit C.
35.

The Homescapes game was released in August 2017, one year after

Fulton County’s operating system release. If the Homescapes game came with the
operating system it would be unusual, because at the time of the release of
12

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1617
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 14 of
48 14 of 48
000760

Homescapes, Microsoft had already released 3 major Microsoft Windows 10
update releases after build 14393 and before the release of that game. This calls
into question whether all Georgia Dominion system computers have the same
operating system version, or how the game has come to be having a presence in
Fulton’s Dominion voting system.
36.

Although this Dominion voting system is new to Georgia, the

Windows 10 operating system of at least the ‘main’ computer in the rack has not
been updated for 4 years and carries a wide range of well-known and publicly
disclosed vulnerabilities. At the time of this writing, The National Vulnerability
Database maintained by National Institute of Standards and Technology lists 3,177
vulnerabilities mentioning “Windows 10 Pro” and 203 vulnerabilities are
specifically mentioning “Windows 10 Pro 1607” which is the specific version
number of the build 14393 that Dominion uses.
37.

Even without internet connectivity, unhardened computers are at risk

when those are used to process removable media. It was clear that when Compact
Flash storage media containing the ballot images, audit logs and results from the
precinct scanners were connected to the server, the media was automounted by the
operating system. When the operating system is automounting a storage media, the
operating system starts automatically to interact with the device. The zero-day
13

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1618
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 15 of
48 15 of 48
000761

vulnerabilities exploiting this process has been recurringly discovered from all
operating systems, including Windows. Presence of automount calls also into
question presence of another setting which is always disabled in hardening process.
It is autorun, which automatically executes some content on the removable media.
While this is convenient for consumers, it poses extreme security risk.
38.

Based on my experience and mental impression observing the

Dominion technician’s activities, Fulton County’s EMS server management seems
to be an ad hoc operation with no formalized process. This was especially clear on
the manual processing of the memory cards storage devices coming in from the
precincts on election night and the repeated access of the operating system to
directly access filesystem, format USB devices, etc. This kind of operation in
naturally prone to human errors. I observed personnel calling on the floor asking if
all vote carrying compact flash cards had been delivered from the early voting
machines for processing, followed by later finding additional cards which had been
overlooked in apparent human error. Later, I heard again one technician calling on
the floor asking if all vote carrying compact flashes had been delivered. This
clearly demonstrates lack of inventory management which should be in place to
ensure, among other things, that no rogue storage devices would be inserted into
the computer. In response, 3 more compact flash cards were hand-delivered. Less
14

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1619
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 16 of
48 16 of 48
000762

than 5 minutes later, I heard one of the county workers say that additional card was
found and was delivered for processing. All these devices were trusted by printed
label only and no comparison to an inventory list of any kind was performed.
39.

In addition, operations were repeatedly performed directly on the

operating system. Election software has no visibility into the operations performed
directly on the operating system, and therefore those are not included in election
system event logging. Those activities can only be partially reconstructed from
operating system logs – and as these activities included copying election data files,
election software log may create false impression that the software is accessing the
same file over a period of time, while in reality the file could had been replaced
with another file with the same name by activities commanded to the operating
system. Therefore, any attempt to audit the election system operated in this manner
must include through analysis of all operating system logs, which complicates the
auditing process. Unless the system is configured properly to collect file system
auditing data is not complete. As the system appears not to be hardened, it is
unlikely that the operating system has been configured to collect auditing data.
40.

A human error when operating live election system from the operating

system can result in a catastrophic event destroying election data or even rendering
the system unusable. Human error is likely given the time pressure involved and,
15

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1620
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 17 of
48 17 of 48
000763

at least in Fulton County, no formal check lists or operating procedures were
followed to mitigate the human error risk. The best practice is to automate trivial
tasks to reduce risk of human error, increase the quality assurance of overall
operations and provide auditability and transparency by logging.
41.

Uploading of memory cards had already started before I arrived at

EPC. While one person was operating the upload process, the two other Dominion
employees were troubleshooting issues which seemed to be related to ballot images
uploads. I repeatedly observed error messages appearing on the screen of the EMS
server. I was not able to get picture of the errors on August 11th, I believe the error
was the same or similar that errors recurring August 17th as shown on Exhibit D
and discussed later in this declaration. Dominion employees were troubleshooting
the issue with ‘trial-and-error’ approach. As part of this effort they accessed
“Computer Management” application of Windows 10 and experimented with
trouble shooting the user account management feature. This demonstrates that they
had complete access to the computer. This means there are no meaningful access
separation and privileges and roles controls protecting the county’s primary
election servers. This also greatly amplifies the risk of catastrophic human error
and malicious program execution.

16

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1621
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 18 of
48 18 of 48
000764

42.

I overheard the Dominion technician’s conversation that they had

issues with file system structure and “need 5 files out of EMS server and paste.
Delete everything out of there and put it there.” To communicate the gravity of the
situation to each other they added “Troubleshooting in the live environment”.
These conversations increased the mental image that they were not familiar the
issue they were troubleshooting.
43.

After about 45 minutes of trying to solve the issue by instructions

received over the phone, the two Dominion employees’ (who had been
troubleshooting) behavior changed. The Dominion staff member walked behind
the server rack and made manual manipulations which could not be observed from
my vantage point. After that they moved with their personal laptops to a table
physically farther away from the election system and stopped trying different ways
to work around the issue in front of the server, and no longer talked continuously
with their remote help over phone.
44.

In the follow-up-calls I overheard them ask people on the other end of

the call to check different things, and they only went to a computer and appeared to
test something and subsequently take a picture of the computer screen with a
mobile phone and apparently send it to a remote location.

17

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1622
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 19 of
48 19 of 48
000765

45.

Based on my extensive experience, this all created a strong mental

impression that the troubleshooting effort was being done remotely over remote
access to key parts of the system. Additionally, new wireless access point with a
hidden SSID access point name appeared in the active Wi-Fi stations list that I was
monitoring, but it may have been co-incidental. Hidden SSIDs are used to obscure
presence of wireless networking from casual observers, although they do not
provide any real additional security.
46.

If in fact remote access was arranged and granted to the server, this

has gravely serious implications for the security of the new Dominion system.
Remote access, regardless how it is protected and organized is always a security
risk, but furthermore it is transfer of control out of the physical perimeters and
deny any ability to observe the activities.
47.

I also observed USB drives marked with the Centon DataStick Pro

Logo with no visible inventory control numbering system being taken repeatedly
from the EMS server rack to the Fulton managers’ offices and back. The
Dominion employee told me that the USB drives were being taken to the Election
Night Reporting Computer in another office. This action was repeated several
times during the time of my observation. Carrying generic unmarked and therefore
unidentifiable media out-of-view and back is a security risk – especially when the
18

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1623
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 20 of
48 20 of 48
000766

exact same type of devices was piled on the desk near the computer. During the
election night, the Dominion employees reached to storage box and introduced
more unmarked storage devices into the ongoing election process. I saw no effort
made to maintain a memory card inventory control document or chain of custody
accounting for memory cards from the precincts.
48.

I also visited the EPC on August 17. During that visit, the staff

working on uploading ballots for adjudication experienced an error which appeared
similar to the one on election night. This error was repeated with multitude of
ballots and at the time we left the location, the error appeared to be ignored, rather
that resolved. (EXHIBIT D - the error message and partial explanation of the error
being read by the operator.).
49.

The security risks outlined above – operating system risks, the failure

to harden the computers, performing operations directly on the operating systems,
lax control of memory cards, lack of procedures, and potential remote access, are
extreme and destroy the credibility of the tabulations and output of the reports
coming from a voting system.
50.

Such a risk could be overcome if the election were conducted using

hand marked paper ballots, with proper chain of custody controls. For elections
conducted with hand marked paper ballots, any malware or human error involved
19

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1624
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 21 of
48 21 of 48
000767

in the server security deficiencies or malfunctions could be overcome with a robust
audit of the hand marked paper ballots and in case of irregularities detected,
remedied by a recount. However, given that BMD ballots are computer marked,
and the ballots therefore unauditable for determining the result, no recovery from
system security lapses is possible for providing any confidence in the reported
outcomes.
Ballot Scanning and Tabulation of Vote Marks
51.

I have been asked to evaluate the performance and reliability of

Georgia’s Dominion precinct and central count scanners in the counting of votes
on hand marked paper ballots.
52.

On or about June 10th, Jeanne Dufort and Marilyn Marks called me to

seek my perspective on what Ms. Dufort said she observed while serving as a Vote
Review Panel member in Morgan County. Ms. Dufort told me that she observed
votes that were not counted as votes nor flagged by the Dominion adjudication
software.
53.

Because of the ongoing questions this raised related to the reliability

of the Dominion system tabulation of hand marked ballots, I was asked by
Coalition Plaintiffs to conduct technical analysis of the scanner and tabulation
accuracy. That analysis is still in its early stages.
20

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1625
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 22 of
48 22 of 48
000768

54.

Before addressing the particulars of my findings and research into the

accuracy of Dominion’s scanning and tabulation, I will address the basic process
by which an image on a voted hand marked paper ballot is processed by scanner
and tabulation software generally. It is important to understand that the Dominion
scanners are Canon off the shelf scanners and their embedded software were
designed for different applications than ballot scanning which is best conducted
with scanners specifically designed for detecting hand markings on paper ballots.
55.

Contrary of public belief, the scanner is not taking a picture of the

paper. The scanner is illuminating the paper with a number of narrow spectrum
color lights, typically 3, and then using software to produce an approximation what
the human eye would be likely to see if there would had been a single white widespectrum light source. This process takes place in partially within the scanner and
embedded software in the (commercial off the shelf) scanner and partially in the
driver software in the host computer. It is guided by number of settings and
configurations, some of which are stored in the scanner and some in the driver
software. The scanner sensors gather more information than will be saved into the
resulting file and another set of settings and configurations are used to drive that
part of the process. The scanners also produce anomalies which are automatically
removed from the images by the software. All these activities are performed
21

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1626
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 23 of
48 23 of 48
000769

outside of the Dominion election software, which is relying on the end product of
this process as the input.
56.

I began reviewing Dominion user manuals in the public domain to

further investigate the Dominion process.
57.

On August 14, I received 2 sample Fulton County August 11 ballots

of high-speed scanned ballot from Rhonda Martin, who stated that she obtained
them from Fulton County during Coalition Plaintiff’s discovery. The image
characteristics matched the file details I had seen on the screen in EPC. The image
is TIFF format, about 1700 by 2200 pixels with 1-bit color depth (= strictly black
or white pixels only) with 200 by 200 dots per square inch (“dpi”) resolution
resulting in files that are typically about 64 or 73 kilo bytes in size for August 11
ballots. With this resolution, the outer dimension of the oval voting target is about
30 by 25 pixels. The oval itself (that is, the oval line that encircles the voting
target) is about 2 pixels wide. The target area is about 450 pixels; the area of the
target a tight bounding box would be 750 pixels and the oval line encircling the
target is 165 pixels. In these images, the oval itself represented about 22% value in
the bounding box around the vote target oval.
58.

Important image processing decisions are done in scanner software

and before election software threshold values are applied to the image. These
22

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1627
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 24 of
48 24 of 48
000770

scanner settings are discussed in an excerpt Dominion’s manual for ICC operations
My understanding is that the excerpt of the Manual was received from Marilyn
Marks who stated that she obtained it from a Georgia election official in response
to an Open Records request. Attached as Exhibit E is page 9 of the manual. Box
number 2 on Exhibit E shows that the settings used are not neutral factory default
settings.
59.

Each pixel of the voters’ marks on a hand marked paper ballot will be

either in color or gray when the scanner originally measures the markings. The
scanner settings affect how image processing turns each pixel from color or gray to
either black or white in the image the voting software will later process. This
processing step is responsible for major image manipulation and information
reduction before the election software threshold values are calculated. This process
has a high risk of having an impact upon how a voter mark is interpreted by the
tabulation software when the information reduction erases markings from the
scanned image before the election software processes it.
60.

In my professional opinion, any decision by Georgia’s election

officials about adopting or changing election software threshold values is
premature before the scanner settings are thoroughly tested, optimized and locked.

23

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1628
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 25 of
48 25 of 48
000771

61.

The impact of the scanner settings is minimal for markings made with

a black felt pen but can be great for markings made with any color ballpoint pens.
To illustrate this, I have used standard color scanning settings and applied then
standard conversion from a scanned ballot vote target with widely used free and
open source image processing software “GNU Image Manipulation Program
version 2.10.18” EXHIBIT G shows the color image being converted with the
software’s default settings from color image to Black-and-White only. The red
color does not meet the internal conversion algorithm criteria for black, therefore it
gets erased to white instead.
62.

Dominion manual for ICC operations clearly show that the scanner

settings are changed from neutral factory default settings. EXHIBIT H shows how
these settings applied different ways alter how a blue marking is converted into
Black-and-White only image.
63.

The optimal scanner settings are different for each model of scanner

and each type of paper used to print ballots. Furthermore, because scanners are
inherently different, the manufacturers use hidden settings and algorithms to cause
neutral factory settings to produce similar baseline results across different makes
and models. This is well-studied topic; academic and image processing studies
published as early as 1979 discuss the brittleness of black-or-white images in
24

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1629
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 26 of
48 26 of 48
000772

conversion. Subsequently, significance for ballot counting has been discussed in
academic USENIX conference peer-reviewed papers.
64.

On the August 17th at Fulton County Election Preparation Center

Professor Richard DeMillo and I participated in a scan test of August 11 test
ballots using a Fulton County owned Dominion precinct scanner. Two different
ballot styles were tested, one with 4 races and one with 5 races. Attached as
Exhibits I and J show a sample ballots with test marks.
65.

A batch of 50 test ballots had been marked by Rhonda Martin with

varying types of marks and varying types of writing instruments that a voter might
use at home to mark an absentee ballot. Professor DeMillo and I participated in
marking a handful of ballots.
66.

Everything said here concerning the August 17 test is based on a very

preliminary analysis. The scanner took about 6 seconds to reject the ballots, and
one ballot was only acceptable “headfirst” while another ballot only “tail first.”
Ballot scanners are designed to read ballots “headfirst” or “tail first,” and front side
and backside and therefore there should not be ballots which are accepted only in
one orientation. I observed the ballots to make sure that both ballots had been
cleanly separated from the stub and I could not identify any defects of any kind on
the ballots.
25

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1630
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 27 of
48 27 of 48
000773

67.

There was a 15 second cycle from the time the precinct scanner

accepted a ballot to the time it was ready for the next ballot. Therefore, the
maximum theoretical capacity with the simple 5 race ballot is about 4 ballots per
minute if the next ballot is ready to be fed into the scanner as soon as the scanner
was ready to take it. In a real-world voting environment, it takes considerably
longer because voters move away from the scanner, the next voter must move in
and subsequently figure where to insert the ballot. The Dominion precinct scanner
that I observed was considerably slower than the ballot scanners I have tested over
the last 15 years. This was done with a simple ballot, and we did not test how
increase of the number of races or vote targets on the ballot would affect the
scanning speed and performance.
68.

Though my analysis is preliminary, this test reveals that a significant

percentage of filled ovals that would to a human clearly show voter’s intent failed
to register as a vote on the precinct count scanner.
69.

The necessary testing effort has barely begun at the time of this

writing, as only limited access to equipment has been made available. I have not
had access to the high-volume mail ballot scanner that is expected to process
millions of mail ballots in Georgia’s upcoming elections. However, initial results
suggest that significant revisions must be made in the scanning settings to avoid a
26

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1631
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 28 of
48 28 of 48
000774

widespread failure to count certain valid votes that are not marked as filled in
ovals. Without testing, it is impossible to know, if setting changes alone are
sufficient to cure the issue.
Scanned Ballot Tabulation Software Threshold Settings
70.

Georgia is employing a Dominion tabulation software tool called

“Dual Threshold Technology” for “marginal marks.” (See Exhibit M) The intent of
the tool is to detect voter marks that could be misinterpreted by the software and
flag them for review. While the goal is admirable, the method of achieving this
goal is quite flawed.
71.

While it is compelling from development cost point of view to use

commercial off the shelf COTS scanners and software, it requires additional steps
to ensure that the integration of the information flow is flawless. In this case, the
software provided by the scanner manufacturer and with settings and
configurations have great impact in how the images are created and what
information is removed from the images before the election software processes it.
In recent years, many defective scanner software packages have been found. These
software flaws include ‘image enhancement’ features which have remained
enabled even when the feature has been chosen to be disabled from the scanner
software provided by the manufacturer. An example of dangerous feature to keep
27

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1632
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 29 of
48 29 of 48
000775

enabled is ‘Punch Hole Removal’, intended to make images of documents removed
from notebook binders to look more aesthetically pleasing. The software can and
in many cases will misinterpret a voted oval as a punch hole and erase the vote
from the image file and to make this worse, the punch holes are expected to be
found only in certain places near the edge of the paper, and therefore it will erase
only votes from candidates whose targets are in those target zones.
72.

Decades ago, when computing and storage capacity were expensive

black-and-white image commonly meant 1-bit black-or-white pixel images like
used by Dominion system. As computer got faster and storage space cheaper
during the last 2-3 decades black-and-white image has become by default meaning
255 shades of gray grayscale images. For the purposes of reliable digitalization of
physical documents, grayscale image carries more information from the original
document for reliable processing and especially when colored markings are being
processed. With today’s technology, the difference in processing time and storage
prices between grayscale and 1-bit images has become completely meaningless,
and the benefits gained in accuracy are undeniable.
73.

I am aware that the Georgia Secretary of State’s office has stated that

Georgia threshold settings are national industry standards for ballot scanners
(Exhibit K). This is simply untrue. If, there were an industry standard for that, it
28

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1633
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 30 of
48 30 of 48
000776

would be part of EAC certification. There is no EAC standard for such threshold
settings. As mentioned before, the optimal settings are products of many elements.
The type of the scanner used, the scanner settings and configuration, the type of the
paper used, the type of the ink printer has used in printing the ballots, color dropout
settings, just to name few. Older scanner models, which were optical mark
recognitions scanners, used to be calibrated using calibration sheet – similar
process is needed to be established for digital imaging scanners used this way as
the ballot scanners.
74.

Furthermore, the software settings in Exhibit E box 2 show that the

software is instructed to ignore all markings in red color (“Color drop-out: Red”),
This clearly indicates that the software was expecting the oval to be printed in Red
and therefore it will be automatically removed from the calculation. The software
does not anticipate printed black ovals as used in Fulton County. Voters have
likely not been properly warned that any pen they use which ink contains high
concentration of red pigment particles is at risk of not counting, even if to the
human eye the ink looks very dark.
75.

I listened to the August 10 meeting of the State Board of Elections as

they approved a draft rule related to what constitutes a vote, incorporating the
following language:
29

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1634
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 31 of
48 31 of 48
000777

Ballot scanners that are used to tabulate optical scan ballots marked by
hand shall be set so that:
1. Detection of 20% or more fill-in of the target area surrounded by the
oval shall be considered a vote for the selection;
2. Detection of less than 10% fill-in of the target area surrounded by the
oval shall not be considered a vote for that selection;
3. Detection of at least 10% but less than 20% fill-in of the target area
surrounded by the oval shall flag the ballot for adjudication by a vote
review panel as set forth in O.C.G.A. 21-2-483(g). In reviewing any ballot
flagged for adjudication, the votes shall be counted if, in the opinion of the
vote review panel, the voter has clearly and without question indicated the candidate or
candidates and answers to questions for which such voter desires to vote.

76.

The settings discussed in the rule are completely subject to the

scanner settings. How the physical marking is translated into the digital image is
determined by those values and therefore setting the threshold values without at the
same time setting the scanner settings carries no value or meaning. If the ballots
will be continuing to be printed with black only, there is no logic in having any
drop-out colors.
77.

Before the State sets threshold standards for the Dominion system,

extensive testing is needed to establish optimal configuration and settings for each
step of the process. Also, the scanners are likely to have settings additional
configuration and settings which are not visible menus shown in the manual
excerpt. All those should be evaluated and tested for all types of scanners approved
for use in Georgia, including the precinct scanners
30

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1635
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 32 of
48 32 of 48
000778

78.

As temporary solution, after initial testing, the scanner settings and

configuration should be locked and then a low threshold values should be chosen.
All drop-out colors should be disabled. This will increase the number of ballots
chosen for human review and reduce the number of valid votes not being counted
as cast.
Logic and Accuracy Testing
79.

Ballot-Marking Device systems inherits the same well-documented

systemic security issues embedded in direct-recording electronic (DRE) voting
machine design. Such design flaws eventually are causing the demise of DRE
voting system across the country as it did in Georgia. In essence the Ballot
Marking Device is a general-purpose computer running a general-purpose
operating system with touchscreen that is utilized as a platform to run a software,
very similar to DRE by displaying a ballot to the voter and recording the voter’s
intents. The main difference is that instead of recording those internally digitally, it
prints out a ballot summary card of voter’s choices.
80.

Security properties of this approach would be positively different

from DREs if the ballot contained only human-readable information and all voters
are required to and were capable of verifying their choices from the paper ballot
summary. That of course is unrealistic.
31

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1636
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 33 of
48 33 of 48
000779

81.

When voter fails to inspect the paper ballot and significant portion of

the information is not in human readable from as a QR barcode, Ballot-Marking
Device based voting effectively inherits most of the negative and undesirable
security and reliability properties directly from DRE paradigm, and therefore
should be subject to the same testing requirements and mitigation strategies as
DREs.
82.

In response to repeating myriad of issues with DREs, which have been

attributed to causes from screen calibration issues to failures in ballot definition
configuration distribution, a robust Logic & Accuracy testing regulation have been
established. These root causes are present in BMDs and therefore should be
evaluated in the same way as DREs have been.
I received the Georgia Secretary of State’s manual “Logic and Accuracy
Procedures “Version 1.0 January 2020 from Rhonda Martin. Procedure described
in section D “Testing the BMD and Printer” is taking significant shortcuts,
presumably to cut the labor work required. (Section D is attached as Exhibit L)
These shortcuts significantly weaken the security and reliability posture of the
system and protections against already known systemic pitfalls, usability
predicaments and security inadequacies.

32

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1637
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 34 of
48 34 of 48
000780

CONCLUSIONS
83.

The scanner software and tabulation software settings and

configurations being employed to determine which votes to count on hand marked
paper ballots are likely causing clearly intentioned votes not to be counted as cast.
84.

The method of using 1-bit images and calculated relative darkness

values from such pre-reduced information to determine voter marks on ballots is
severely outdated and obsolete. It artificially and unnecessarily increases the
failure rates to recognize votes on hand-marked paper ballots. As a temporary
mitigation, optimal configurations and settings for all steps of the process should
be established after robust independent testing to mitigate the design flaw and
augment it with human assisted processes, but that will not cure the root cause of
the software deficiency which needs to be addressed.
85.

The voting system is being deployed, configured and operated in

Fulton County in a manner that escalates the security risk to an extreme level and
calls into question the accuracy of the election results. The lack of well-defined
process and compliance testing should be addressed immediately using
independent experts. The use and the supervision of the Dominion personnel
operating Fulton County’s Dominion Voting System should be evaluated.

33

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1638
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 35 of
48 35 of 48
000781

86.

Voters are not reviewing their BMD printed ballots before scanning

and casting them, which causes BMD-generated results to be un-auditable due to
the untrustworthy audit trail. Furthermore, because BMDs are inheriting known
fundamental architectural deficiencies from DREs, no mitigation and assurance
measures can be weakened, including but not limited to Logic and Accuracy
Testing procedures.

This 24th day of August 2020.
________________________
Harri Hursti

34

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1639
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 36 of
48 36 of 48
000782

EXHIBIT A:

35

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1640
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 37 of
48 37 of 48
000783

EXHIBIT B:

36

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1641
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 38 of
48 38 of 48
000784

EXHIBIT C:

37

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1642
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 39 of
48 39 of 48
000785

EXHIBIT D:

38

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1643
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 40 of
48 40 of 48
000786

EXHIBIT E:

39

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1644
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 41 of
48 41 of 48
000787

EXHIBIT F:

40

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1645
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 42 of
48 42 of 48
000788

EXHIBIT G:

41

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1646
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 43 of
48 43 of 48
000789

EXHIBIT H:

42

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1647
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 44 of
48 44 of 48
000790

EXHIBIT I:

43

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1648
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 45 of
48 45 of 48
000791

EXHIBIT J:

44

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1649
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 46 of
48 46 of 48
000792

EXHIBIT K:

45

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1650
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 47 of
48 47 of 48
000793

EXHIBIT L:

46

Case 2:20-cv-13134-LVP-RSW
No. 6-27,
PageID.1651
Filed 11/29/20
Page
Case 1:17-cv-02989-ATECF
Document
809-3
Filed 08/24/20
Page 48 of
48 48 of 48
000794

EXHIBIT M:

47

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1652
Filed 10/09/20
Filed 11/29/20
Page 1 ofPage
119 1 of 119
000795

Exhibit 4

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1653
Filed 10/09/20
Filed 11/29/20
Page 2 ofPage
119 2 of 119
000796

From: Samantha Whitley <cgganalyst2@gmail.com>
Sent: Wednesday, October 7, 2020 9:11 AM
To: elections@lowndescounty.com; elections@lumpkincounty.gov; tdean@mcelections.us; Marion
County Elections & Registrations <marioncountyelect@gmail.com>; Phyllis Wheeler
<Phyllis.Wheeler3@thomson‐mcduffie.net>; Doll Gale <egale@darientel.net>; Patty Threadgill
<p.threadgill@meriwethercountyga.gov>; Jerry C <registrars@millercountyga.com>; Terry Ross
<tross@mitchellcountyga.net>; Kaye Warren <kwarren@monroecoga.org>; rmoxsand@hotmail.com;
Jennifer Doran <jdoran@morgancountyga.gov>; vote@murraycountyga.gov; Nancy Boren
<nboren@columbusga.org>; Angela Mantle <amantle@co.newton.ga.us>; Fran Leathers
<fleathers@oconee.ga.us>; Steve McCannon <smccannon@oglethorpecountyga.gov>; Deidre Holden
<deidre.holden@paulding.gov>; Adrienne Ray <adrienne‐ray@peachcounty.net>; Julie Roberts
<jroberts@pickenscountyga.gov>; Leah Williamson <leah.williamson@piercecountyga.gov>; Sandi
Chamblin <schamblin@pikecoga.com>; Lee Ann George <lgeorge@polkga.org>; quit.judge@gqc‐ga.org;
twhitmire@rabuncounty.ga.gov; Todd Black <rcc.boe@gmail.com>; Lynn Bailey
<lbailey@augustaga.gov>; cynthia.welch@rockdalecountyga.gov; Schley Registrars
<registrars_schley@yahoo.com>
Subject: Followup ‐ new unsealed documents and response to Harvey bulletin

Providing the Facts—BMD Security Risks and Software Update

The events of the last 11 days have made it clearer than ever that county election
officials have the duty to abandon the county-wide use of BMD touchscreen machines
and adopt hand marked paper ballots because the BMD units cannot be used securely
or legally---certainly making their deployment “impossible,” “impractical” or “unusable.”
[Those are the conditions in the statute and new election rule that call for the
superintendent’s decision to use hand marked paper ballots.] We offer more facts as
your board makes this significant decision.

The 2020 General Election is underway, and last week the Secretary of State ordered
election officials across the state to erase the original certified software from 34,000
Ballot Marking Devices and install new software, which was uncertified and untested.

Channel 11 in Atlanta featured the issue tonight. (https://youtu.be/lMJU2p4_LDM) We
are aware that several other reporters are trying to get answers as well, without
success.

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1654
Filed 10/09/20
Filed 11/29/20
Page 3 ofPage
119 3 of 119
000797

Yesterday the Court unsealed critical information about the voting system changes,
which is important for election officials to read. Meantime, the State is pressuring county
officials to comply with their instructions, without considering the consequences.

On Monday Chris Harvey issued a bulletin titled, “Be Wary of False and Misleading
Information re: ICX Update”

The extra capitalization probably tipped you off to be wary of what was to follow.

If you’ve read many of the Court documents in our Curling v. Raffensperger case, you’ll
be familiar with the pattern: Coalition for Good Governance presents testimony from the
nation’s most respected expert witnesses, evidence, science, law, and facts. State
responds with hyperbole and unsubstantiated claims, and sometimes name-calling.

The State is attempting to force you into a difficult choice –to follow their orders, and
trust that nothing goes wrong, or to use your authority do follow what the statutes and
election rules require, risking retribution from the State Election Board. It comes down to
this - use the un-auditable BMDs with altered software, or use ballots marked by pen for
in-person voting.

The experts confirm that installing hastily written software on the eve of in-person voting
is akin to redesigning an aspect of an airplane as it is about to take off.

Here’s what’s wrong with assertions made in the Monday’s Bulletin from Chris Harvey:

Fact: EAC certification requires pre-approval of de minimis changes before they are
implemented. The vendor declaring software error-correcting changes “de minimis”
does not make it so. When you received the new software on Sept 30, with, instructions
to immediately wipe your BMDs clean and install it, the test lab had NOT issued its
report (dated Oct 2) and Dominion had not submitted the proposed “de minimis” change
to the EAC. We can find no evidence that the proposed change has been submitted to
the EAC for certification, despite the Secretary’s commitment to the Court that it had
been done.

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1655
Filed 10/09/20
Filed 11/29/20
Page 4 ofPage
119 4 of 119
000798

Fact: the lab that tested the software change did not test to be sure it did not “cause any
other issues with the operation of the ICX.”

Fact: When you were asked to install the software on 9/30, the updated version of the
ICX touchscreen software (version 5.5.10.32) was NOT certified by the Secretary of
State. It was technically certified (but without conducting the mandated prerequisite
tests) yesterday, October 5. This is risk for your voters and their candidates that the
county boards simply cannot tolerate.

Fact: The Secretary made no mention that state law requires counties to conduct
acceptance testing after installing modified software, and before installing the November
programming and conducting LAT, leaving the counties to deal with the consequences
of the failure to do so.

With regards to the shocking assertion that the Secretary of State helped draft an
intended loophole in the law to make required EAC system certification meaningless – it
boggles the imagination. He claims that while the General Assembly ordered that only
EAC software be purchased, he can change it behind closed doors to do whatever he
wants. The Secretary is shamelessly defending his “election security be damned”
policies, despite the his disingenuous “Secure the Vote” logo.

Don’t take our word for any of this. The transcript of the October 1 court conference was
just unsealed, along with new declarations from experts Alex Halderman, Kevin
Skoglund, and Harri Hursti, plus the Pro V&V test lab letter. We attached them for

you to read the grave concerns of the nationally respected experts along with
the transcript from the sealed proceedings. The State has been unable to
engage experts who support their use of BMDs or this software. Instead they
only have (often inaccurate) testimony from vendors.

The SOS wants you to bet your voters’ ballots, and your counties’ candidates’
campaigns, on the high-risk notion that the software change solves the original problem,
with no unintended consequences, including the introduction of more errors or malware.
Also he wants you to bet that losing candidates won’t challenge the election on the
basis of the host of BMD risks, problems and legal non-compliance from ballot secrecy
to failing software that may well hide its defects.

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1656
Filed 10/09/20
Filed 11/29/20
Page 5 ofPage
119 5 of 119
000799

The experts are clear: if you use the altered BMDs, your elections will not be
defensible.

The only sound choice is to draw a line in the sand and strictly comply with the law. The
law holds the County Superintendent responsible for the conduct of elections. And when
things go wrong, and the lawsuits come, the Secretary of State will blame the counties.

The November 2020 election is consequential. All eyes are on election administrators.
And on Georgia. We urge you to put voters first, set aside the problematic BMDs, and
use ballots marked by pen for in-person voting as authorized by O.C.G.A 21-2-281 and
SEB Rule 183-1-12-.11(2)(c)-(d)—the only legal path before you for conducting an
accountable and constitutionally compliant election.

As always, we are happy to hear from you to discuss this further.

Marilyn Marks
Executive Director
Coalition for Good Governance
Marilyn@USCGG.org
704 292 9802

‐‐
Samantha Whitley
Research Analyst
Coalition for Good Governance
Cell: 704 763 8106

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1657
Filed 10/09/20
Filed 11/29/20
Page 6 ofPage
119 6 of 119
000800

cgganalyst2@gmail.com

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1658
Filed 10/09/20
Filed 11/29/20
Page 7 ofPage
119 7 of 119
000801

Exhibit A

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1659
Filed 10/09/20
Filed 11/29/20
Page 8 ofPage
119 8 of 119
000802

OFFICIAL ELECTION BULLETIN
October 5, 2020
_____________________________________________________________________________________________

TO:

County Election Officials and County Registrars

FROM:

Chris Harvey, Elections Division Director

RE:

Be Wary of False and Misleading Information re: ICX Update

______________________________________________________________________
You may have received correspondence today from activists for hand-marked paper
ballots and their attorney. These activists have been suing the state and Georgia counties
for years because they disagree with the decision of the Georgia General Assembly to
use electronic ballot-marking devices instead of hand-marked paper ballots. Because
their preferred policy was not enacted, they have tried to force their preferred policy on
the state through litigation. The latest correspondence makes false and misleading
allegations regarding the recent update to the ICX (touchscreen) component of Georgia’s
voting system.
As you know, an issue was discovered during Logic and Accuracy testing that, in certain
rare circumstances, caused the second column of candidates in the U.S. Senate Special
Election to not correctly display on the touchscreen. The issue was caught prior to any inperson voting due to excellent L&A testing by county election officials. Soon after the
issue was brought to our attention, Dominion diagnosed the issue and began to work on
a solution.
Dominion’s solution required a de minimis software update to the touchscreen. That
update was tested at Dominion, tested again at the state’s EAC-certified test lab, and
tested again at the Center for Election Systems to determine that it resolved the display
issue and did not cause any other issues with the operation of the ICX. The state only
distributed the update after verifying the test results with the EAC-certified test lab and
acceptance testing the update at CES prior to distribution to counties. This is the normal
process to follow for a state certification update. The updated version of the ICX
touchscreen software (Version 5.5.10.32) has been certified by the Secretary of State as
safe for use in Georgia’s elections. You should continue to install the update as instructed
Page 1 of 2

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1660
Filed 10/09/20
Filed 11/29/20
Page 9 ofPage
119 9 of 119
000803

by CES. You should also confirm both the confidential hash value and the version number
on each ICX BMD touchscreen during L&A testing.
The correspondence you may have received today also misstates Georgia law when it
says that the update has to first be certified by the EAC. Georgia law required the initial
system procured to be EAC certified, but it does not require that all updates first be
certified by the EAC. The law was drafted that way intentionally, with input from our office,
to ensure that the state did not have to wait on the EAC when important updates were
needed.1 Even with these provisions of Georgia law, Dominion advises that it has already
submitted the update to the EAC for approval as a de minimis change, as recommended
by the EAC-certified test lab.
Thank you to the counties whose diligent L&A testing allowed this issue to be identified
and resolved quickly. And thank you to all county election officials for your continued hard
work in this difficult year for election administration.

1

You probably remember that the EAC was without a quorum for two years, and therefore unable to take any
action.

Page 2 of 2

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1661
941 Filed
Filed10/09/20
10/03/20
Filed 11/29/20
Page
Page10
1 of
of
Page
711910 of 119
000804

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

DONNA CURLING, ET AL.,
Plaintiffs,
v.

DECLARATION OF
J. ALEX HALDERMAN

BRAD RAFFENSPERGER, ET AL.,
Defendants.

Civil Action No. 1:17-CV-2989-AT

Pursuant to 28 U.S.C. § 1746, J. ALEX HALDERMAN declares under
penalty of perjury that the following is true and correct:
1.

I hereby incorporate my previous declarations as if fully stated herein.

I have personal knowledge of the facts in this declaration and, if called to testify as
a witness, I would testify under oath to these facts.
2.

I have reviewed the “Letter Report” prepared by Pro V&V concerning

version 5.5.10.32 of the Dominion BMD software (Dkt. No. 939). The report makes
clear that Pro V&V performed only cursory testing of this new software. The
company did not attempt to independently verify the cause of the ballot display
problem, nor did it adequately verify that the changes are an effective solution. Pro

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1662
941 Filed
Filed10/09/20
10/03/20
Filed 11/29/20
Page
Page11
2 of
of
Page
711911 of 119
000805

V&V also appears to have made no effort to test whether the changes create new
problems that impact the reliability, accuracy, or security of the BMD system.
3.

This superficial testing is deeply concerning, because Pro V&V’s

characterization of the source code changes indicates that they are considerably more
complicated than what Dr. Coomer previously testified was the threshold for
considering a change to be “de minimis”: “literally a one-line configuration change
in some config file that would have no material impact on the system” (Dkt. No. 905
at 102:18-103:14). Instead, Pro V&V states that Dominion made two kinds of
changes and modified lines in five different source code files. In general, changes
that affect more lines of source code or more source code files are riskier than smaller
change, as there is a greater likelihood that they will have unintended side-effects.
Changes to source code files, as Dominion made here, also tend to be riskier than
changes to “config[uration] files.”
4.

The nature of the changes gives me further reason for concern.

According to Pro V&V, one change involved changing a “variable declaration” to
modify the “type” of a variable. A variable’s type determines both what kind of data
it holds and how operations on it function. Although changing a variable declaration
often involves differences in only one line of source code, the effect is a change to
how the program operates everywhere the variable is used, which could involve

2

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1663
941 Filed
Filed10/09/20
10/03/20
Filed 11/29/20
Page
Page12
3 of
of
Page
711912 of 119
000806

many parts of the source code and span multiple files. For this reason, changing a
variable’s type frequently introduces new bugs that are difficult to detect. I have
often experienced such problems while writing software myself.
5.

It is not possible to evaluate the effects of such a change by analyzing

only the lines of source code that have been modified. Yet Pro V&V’s description
of its “source code review” is consistent with having done nothing more. The
company could have engaged an expert in the specific programming language to
analyze the quality of the changes and look for subtle side-effects throughout the
code, but it appears that they did not.
6.

Instead, the report states that “Pro V&V conducted functional

regression testing.” Regression testing has a well-defined meaning in computer
science: checking that a change to a system does not break its existing functionality.
After a change to a voting system like this, rigorous regression testing is essential
for ensuring that the system’s reliability, accuracy, and security are not degraded.
Yet the testing Pro V&V describes performing is not regression testing at all.
Instead, the company focused entirely on checking whether the ballot display
problem was fixed and makes no mention of testing any other functionality
whatsoever.

3

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1664
941 Filed
Filed10/09/20
10/03/20
Filed 11/29/20
Page
Page13
4 of
of
Page
711913 of 119
000807

7.

Even for this limited purpose, Pro V&V’s testing methodology is

inadequate. They first tried to observe the error while using the current version of
the BMD software, 5.5.10.30. They managed to trigger it using an artificial test
ballot but failed to reproduce it using the real ballot design from Douglas County
(where the problem was observed during L&A testing) even after 400 attempts.1
They then performed the same checks using the 5.5.10.32 software. Pro V&V’s basis
for concluding that the new software corrects the problem is that they were unable
to trigger the error with either ballot after 400 tries. Yet this ignores the obvious
possibility that the error might simply be eluding them, as it did with the Douglas
County ballot under version 5.5.10.30.
8.

That is the full extent of the testing described in Pro V&V’s report.

They did not test that the other functionalities of the machine are not impacted by
the change. They did not test that the BMD selected and printed results accurately,
nor did they test that security was unaffected. Tests only answer the questions you
ask. Here—regardless of what Pro V&V intended—the only questions asked were:
“Is the stated error observed when using the old software?” and “Is the stated error
observed when using the new software?” They did not ask, “Is Dominion correct

It is curious that Pro V&V was unable to reproduce the problem experienced in
Douglas County, but they appear not to have made any effort to investigate this.
1

4

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1665
941 Filed
Filed10/09/20
10/03/20
Filed 11/29/20
Page
Page14
5 of
of
Page
711914 of 119
000808

about the cause of the problem?” They did not ask, “Does this change absolutely and
completely fix the issue?” Most importantly, they never asked or answered the key
question for determining whether the change is de minimis, “Will these
modifications have any impact on the rest of the voting system’s functionality?”
9.

Even if the change does correct the bug without introducing new

problems, it still represents a significant security risk, because of the possibility that
attackers could hijack the replacement software to spread malware to Georgia’s
BMDs.
10.

Defendants say they will guard against this using hash comparisons, but

the hash comparison process they have described is inadequate in several ways. 2 As
I have previously explained, examining the hash that the BMD displays on screen
provides no security, because malware on the BMD could be programmed to
calculate and display the expected hash. Although the State now says it will perform
some acceptance testing at a central facility, such testing has limited value at best.
Even if performed correctly—by securely computing the hash of the software using
a device that is assuredly not affected by malware—acceptance testing can only

The Pro V&V report lists the hash of a file named ICX.iso, which presumably
contains the APK as well as other files. Without access to the ICX.iso file, I cannot
confirm whether that the software purportedly being installed on the BMDs is the
same as the software Pro V&V built and tested.
2

5

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1666
941 Filed
Filed10/09/20
10/03/20
Filed 11/29/20
Page
Page15
6 of
of
Page
711915 of 119
000809

confirm that the new software was not modified between Pro V&V and the test
facility. It does not ensure that the new software actually matches Dominion’s source
code or that it will not be modified during later distribution to counties or installation
on the tens of thousands of BMDs statewide.
11.

The report mentions that Pro V&V performed a “trusted build” of the

new software. This refers to the process by which Pro V&V compiled the source
code to produce the APK file for distribution and installation throughout Georgia.
The result of compiling source code, often called a software “binary,” is in a nonhuman readable format, and it is not possible in general to confirm that a binary
faithfully matches source code from which it was purportedly compiled. As a result,
if Pro V&V were to modify the BMD software to introduce malicious
functionality—or if attackers who infiltrated their systems were to do so3—there

Notably, Pro V&V’s website (http://www.provandv.com/) does not support
HTTPS encryption, and modern web browsers warn users that it is not secure, as
shown below. In my experience, organizations that fail to support HTTPS are
likely to be ignoring other security best practices too, which increases the
likelihood of attackers successfully infiltrating their systems.
3

6

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1667
941 Filed
Filed10/09/20
10/03/20
Filed 11/29/20
Page
Page16
7 of
of
Page
711916 of 119
000810

would be no readily available way for the State or Dominion to detect the change.
The State’s election security experts themselves have emphasized the risk of election
manipulation by so-called “insiders.”
12.

Defendants state that Pro V&V has submitted the report to the EAC to

seek approval for a de minimis change. The EAC’s de minimis software change
process was introduced less than a year ago, and, as far as I am aware, it has only
been invoked on one or two occasions so far. In my opinion, the EAC cannot make
an informed determination as to whether the new Dominion software meets the de
minimis standard based on the information contained in Pro V&V’s report, and I
sincerely hope the agency demands more rigorous testing before allowing the
software to be used under its certification guidelines.

I declare under penalty of the perjury laws of the State of Georgia and the
United States that the foregoing is true and correct and that this declaration was
executed this 3rd day of October, 2020 in Ann Arbor, Michigan.

J. ALEX HALDERMAN

7

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1668
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 17
1 ofof
Page
11
11917 of 119
000811

IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

DONNA CURLING, et al.
Plaintiff,
vs.
BRAD RAFFENSPERGER, et al.
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION FILE NO.: 1:17cv-2989-AT

SUPPLEMENTAL DECLARATION OF KEVIN SKOGLUND
KEVIN SKOGLUND declares, under penalty of perjury, pursuant to
28 U.S.C. § 1746, that the following is true and correct:
1. I hereby incorporate my previous declarations as if fully stated herein. I
have personal knowledge of all facts stated in this declaration, and if
called to testify, I could and would testify competently thereto.
2. I have read the Letter Report regarding “Dominion Voting Systems ICX
Version 5.5.10.32” from Pro V&V to Michael Barnes dated October 2,
2020 (“Letter Report”).
3. The Letter Report describes Pro V&V’s evaluation of a proposed code
change by Dominion to address a flaw in the current ICX software
related to reliably displaying two columns of candidates.

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1669
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 18
2 ofof
Page
11
11918 of 119
000812

4. Pro V&V’s evaluation is inadequate to verify Dominion’s opinion of the
root cause of the error, Dominion’s proposed fix for the error, or whether
the nature of the proposed change is considered “de minimis” as defined
by the U.S. Election Assistance Commission (“EAC”).

High Impact Changes
5. The Letter Report describes changes that are potentially high impact.
6. I expected the change to be limited to one or two lines in a configuration
file based its description in the hearings. A configuration file change
would provide a new value for the existing code to use.
7. The impact of changing a value being used by code is far less than the
impact of changing the code itself, in the same way that changing the
furniture in a house has less impact than moving walls. The value may be
different but it will travel the same pathways through the code during
operation. The structure and governing rules are unchanged.
8. Instead, the Letter Report describes two sets of changes to the source
code itself in a total of five files. It does not quantify the number of lines
changed, but it must be at least five. These are not merely configuration
changes. Variable and function definitions in the source code are
changed.

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1670
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 19
3 ofof
Page
11
11919 of 119
000813

9. The changes described may sound minor, for example changing a
variable from an integer (e.g., 123) to a string (e.g., “123”), but I would
give them no less consideration. I have broken plenty of code making
similar changes.
10.One reason is that any code elsewhere in the program that uses a changed
variable or function could be impacted. Another part of the code may act
correctly when given 123 but act incorrectly when given “123”. The first
can have numbers added and subtracted, while the second can be
searched for a specific character, but the reverse is often not true.
11.The Letter Report describes a source code review limited to the changed
lines of source code. The code comparison performed is similar to
reviewing the changed text in a legal blackline. It does not appear that
Pro V&V looked throughout the source code for other interactions which
could prove problematic.
12.The Letter Report states that Dominion believes the problem is a
collision of resource identifiers between their software and the
underlying operating system. I think it’s a fair analogy to say that
Dominion’s software and the operating system sometimes try to park in
the same parking space.
13.In my experience, an abundance of caution is necessary when the
operating system and software running on it are working in a shared

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1671
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 20
4 ofof
Page
11
11920 of 119
000814

space and not playing well together. A misstep could create additional
problems in their interactions and any change should be carefully
considered and well tested.
14.The Letter Report does not describe any review of the proposed
software’s interaction with the operating system. It does not mention the
involvement of any expert on the operating system or an opinion
regarding colliding resource identifiers—the reported cause and the target
of the resolution. This is a concerning oversight.

Inadequate Testing of the Root Cause of the Error
15.Pro V&V was unable to reliably reproduce the error with the current
version of the software, ICX 5.5.10.30. In fact, they reported producing
the error only once out of 810 total attempts.
16.Pro V&V appears to have taken Dominion’s word for the root cause of
the error. The Letter Report does not mention any independent
investigation to determine the cause.
17.The description of Pro V&V’s first test, using a sample election database,
begins with a procedure likely suggested by Dominion—toggling
between font sizes to trigger the error. When the 10th toggle produced the
error, Pro V&V considered the root cause to be confirmed. That is in
itself not unreasonable.

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1672
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 21
5 ofof
Page
11
11921 of 119
000815

18.However, the same test procedure was later performed using an actual
election database, from Douglas County where logic and accuracy testing
had revealed the error previously, and 400 toggles and several reboots
could not produce the error. Of two test cases that should have both
failed, one failed and one did not.
19.Despite these conflicting test results, Pro V&V did not investigate further.
They did not consider what might be different between these two test
cases to cause contradictory results. They did not consider if the sample
election database at the center of their tests was a poor substitute for a
real database. They did not consider that the root cause could be different,
or that toggling the font size might not be a good trigger for the error.
20.Pro V&V wrote the Letter Report without having confirmed that
Dominion’s opinion of the root cause was correct.

Inadequate Testing of the Proposed Fix for the Error
21.It is impossible to verify that a proposed change sufficiently addresses an
error if the root cause is unconfirmed. A change may only appear to fix
the error due to coincidence. Correlation is not causation. A change may
incompletely fix the error or create subtle side effects.
22.I have learned this lesson many times while fixing software bugs during
my 23 years as a programmer, and I teach that lesson in a course on

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1673
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 22
6 ofof
Page
11
11922 of 119
000816

software testing. I have also had the practical experience of taking a car
to the auto mechanic over and over as they try different solutions for an
uncertain cause.
23.Pro V&V’s basis for determining that the error was fully resolved by the
proposed change, ICX 5.5.10.32, was that the error was not observed
after 400 toggles and several reboots.
24.This is not an ideal test case because “absence of evidence is not
evidence of absence.” The conclusion requires an assumption that
subsequent attempts would not surface the error. Given that the first test
required only 10 toggles to trigger the error, after 400 toggles and several
reboots I might have made a similar assumption.
25.However, when Pro V&V performed the subsequent test on the Douglas
County database and also could not observe the anticipated error after
400 toggles and several reboots, they did not revisit their conclusion
about ICX 5.5.10.32. They should have.
26.They did not consider that the error could be eluding them in ICX
5.5.10.32 as it was with ICX 5.5.10.30 using Douglas County’s database.
They did not consider that their assumption that 400 toggles was enough
to surface the error was wrong. They did not consider that the proposed
change might be an insufficient remedy for the problem.

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1674
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 23
7 ofof
Page
11
11923 of 119
000817

27.To be clear, I am not suggesting that Dominion’s opinion of the root
cause is incorrect or that Dominion’s proposed change does not fix it. I
am saying that testing was insufficient to verify either one. Pro V&V
showed no skepticism about their findings when the results created a
logical fallacy.
28.Even more surprising, Pro V&V had a real election database from
Douglas County in hand, yet they did not test it with ICX 5.5.10.32. The
stated purpose of this eleventh-hour software change was to resolve this
error for the current election database, rather than create and distribute a
new one. The test lab hired to confirm that the new software will work
with the current database in a matter of days did not even check.
29.Pro V&V wrote the Letter Report without having confirmed that
Dominion’s proposed fixed correctly addressed the error, neither on the
sample election database nor on the election county database counties are
planning to use.

Inadequate Testing of “De Minimis”
30.The EAC defines a de minimis change as:
A de minimis change is a change to a certified voting system’s
hardware, software, TDP, or data, the nature of which will not
materially alter the system’s reliability, functionality, capability, or

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1675
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 24
8 ofof
Page
11
11924 of 119
000818

operation. Under no circumstances shall a change be considered de
minimis if it has reasonable and identifiable potential to impact the
system’s performance and compliance with the applicable voting
Standard.1
31.The Letter Report does not describe any testing to demonstrate that the
nature of the proposed change does not “materially alter the system’s
reliability, functionality, capability, or operation” and does not have a
“reasonable and identifiable potential to impact the system’s performance
and compliance with the applicable voting Standard.”
32.Pro V&V ignored these critical, foundational requirements in their
testing.
33.Pro V&V did not test whether any other functionalities of the device are
impacted. They did not test whether the new build of the software
correctly selects candidates in a series of contests and accurately prints
them on a ballot. They did not test other screens to ensure that a fix to the
two-column layout did not break another. They did not check if it was
still possible to change languages or screen contrast, or whether the audio
ballot, used by voters with disabilities, was still working. They did not
test whether the device’s security was impacted.

“Testing and Certification Program Manual,” Section 3.4.2, available at: https://
www.eac.gov/sites/default/files/eac_assets/1/6/Cert_Manual_7_8_15_FINAL.pdf
1

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1676
943 Filed
Filed 10/09/20
10/04/20
Filed 11/29/20
Page
Page 25
9 ofof
Page
11
11925 of 119
000819

34.Pro V&V did not answer the litmus test for de minimis. Does the change
materially alter the system’s reliability, functionality, capability, or
operation?
35.The Letter Report describes “functional regression testing,” which might
help answer this question, but it misuses the term.
36.Regression testing is a “re-running functional and non-functional tests to
ensure that previously developed and tested software still performs after a
change.”2 It is so named because a regression is a step backwards in the
development of software, the proverbial “two steps forward, one step
back.”
37.Pro V&V examined the rendering of the two-column layout in their tests.
Regression testing would validate that other parts of the software still
perform correctly.
38.Regardless of Pro V&V’s determination, this change is not a de minimis
change until the EAC reviews it and approves in writing. “The EAC has
sole authority to determine whether any VSTL endorsed change
constitutes a de minimis change under this section. The EAC will inform
the Manufacturer and VSTL of its determination in writing.”3

“Regression Testing”, Wikipedia, available at https://en.wikipedia.org/wiki/
Regression_testing
2

3

“Testing and Certification Program Manual,” Section 3.4.3

Case 2:20-cv-13134-LVP-RSW
Case
Case1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
943
PageID.1677
Filed
Filed 10/04/20
10/09/20
Filed 11/29/20
Page
Page 10
26 of
of
Page
11
11926 of 119
000820

39.The EAC prohibited any software changes to be considered de minimis
until recently out of concern that even small changes might alter the
system functionality, due to potential ripple effects I described earlier.
40.Given that the process is new, I expect that the EAC will scrutinize any
request for a software de minimis change carefully. I expect the EAC to
ask for more rigorous testing and reporting than the Letter Report.

Concerns about the Time Remaining for Review and Testing
41.In my previous declaration I expressed concern about a software change
at this late date and fear that time pressures may result in less thorough
review and testing of the proposed change.
42.The Letter Report is a wholly inadequate review. Its tests are incomplete.
43.The EAC has not yet begun to review this proposed software change.
Using the revised software without the EAC’s approval will void the
federal certification. EAC approval must be granted in the next five
business days to allow early voting to commence on the following
Monday.
44.Yet the uncertified software has been distributed and counties have been
instructed to install it on over 30,000 ImageCast X devices and to begin
testing them.

Case 2:20-cv-13134-LVP-RSW
Case
Case1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
943
PageID.1678
Filed
Filed 10/04/20
10/09/20
Filed 11/29/20
Page
Page 11
27 of
of
Page
11
11927 of 119
000821

45.Last week, I heard Michael Barnes describe the current procedures for
logic and accuracy testing. The procedures do not test every device, for
every ballot style, for every candidate. The procedures do not include any
additional testing related to this error. This problem and others could pass
through logic and accuracy testing undetected.

Executed on this date, October 4, 2020.

Kevin Skoglund

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1679
Filed 10/09/20
Filed 11/29/20
Page 28 of
Page
11928 of 119
000822

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1680
Filed 10/09/20
Filed 11/29/20
Page 29 of
Page
11929 of 119
000823

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1681
Filed 10/09/20
Filed 11/29/20
Page 30 of
Page
11930 of 119
000824

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1682
Filed 10/09/20
Filed 11/29/20
Page 31 of
Page
11931 of 119
000825

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1683
Filed 10/09/20
Filed 11/29/20
Page 32 of
Page
11932 of 119
000826

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1684
Filed 10/09/20
Filed 11/29/20
Page 33 of
Page
11933 of 119
000827

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1685
Filed 10/09/20
Filed 11/29/20
Page 34 of
Page
11934 of 119
000828

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1686
948 Filed
Filed10/09/20
10/05/20
Filed 11/29/20
Page
Page35
1 of
of
Page
311935 of 119
000829

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONNA CURLING, et al.
Plaintiffs,
CIVIL ACTION
v.

FILE NO. 1:17-cv-2989-AT

BRAD RAFFENSPERGER, et al.,
Defendants.

STATE DEFENDANTS’ NOTICE OF FILING
REDACTED VOTING SYSTEM TEST LABORATORY REPORT
Pursuant to the Court’s September 30, 2020 docket entry, and as
discussed in Defendants’ Notice of Filing Regarding the Court’s Request for
Documentation, [Doc. 929], State Defendants provide notice of filing a
redacted copy of the Voting System Test Laboratory Report, attached hereto
as Exhibit 1.
Respectfully submitted this 5th day of October 2020,
/s/ Carey Miller
Vincent R. Russo
Georgia Bar No. 242628
vrusso@robbinsfirm.com
Josh Belinfante
Georgia Bar No. 047399
jbelinfante@robbinsfirm.com
Carey A. Miller
Georgia Bar No. 976240
1

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1687
948 Filed
Filed10/09/20
10/05/20
Filed 11/29/20
Page
Page36
2 of
of
Page
311936 of 119
000830

cmiller@robbinsfirm.com
Alexander Denton
Georgia Bar No. 660632
adenton@robbinsfirm.com
Robbins Ross Alloy Belinfante Littlefield LLC
500 14th Street, N.W.
Atlanta, Georgia 30318
Telephone: (678) 701-9381
Facsimile: (404) 856-3250
Bryan P. Tyson
Georgia Bar No. 515411
btyson@taylorenglish.com
Bryan F. Jacoutot
Georgia Bar No. 668272
bjacoutot@taylorenglish.com
Diane F. LaRoss
Georgia Bar No. 430830
dlaross@taylorenglish.com
Loree Anne Paradise
Georgia Bar No. 382202
lparadise@taylorenglish.com
TAYLOR ENGLISH DUMA LLP
1600 Parkwood Circle, Suite 200
Atlanta, GA 30339
Telephone: 678-336-7249
Counsel for State Defendants

2

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
PageID.1688
948 Filed
Filed10/09/20
10/05/20
Filed 11/29/20
Page
Page37
3 of
of
Page
311937 of 119
000831

CERTIFICATE OF COMPLIANCE
Pursuant to L.R. 7.1(D), the undersigned hereby certifies that the
foregoing STATE DEFENDANTS’ NOTICE OF FILING REDACTED
VOTING SYSTEM TEST LABORATORY REPORT has been prepared in
Century Schoolbook 13, a font and type selection approved by the Court in
L.R. 5.1(B).
/s/ Carey Miller
Carey Miller

3

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
948-1
PageID.1689
Filed
Filed
10/09/20
10/05/20
Filed 11/29/20
Page
Page
381of
Page
of119
5 38 of 119
000832

Exhibit 1

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
948-1
PageID.1690
Filed
Filed
10/09/20
10/05/20
Filed 11/29/20
Page
Page
392of
Page
of119
5 39 of 119
000833

Letter Report

To:

Michael Barnes

From: Wendy Owens - Pro V&V, Inc.
CC:
Date:

Jack Cobb - Pro V&V, Inc.
October 02, 2020

Subject: Dominion Voting Systems ICX Version 5.5.10.32

Dear Mr. Barnes:
Pro V&V is providing this letter to report the results of the evaluation effort on the ICX version 5.5.10.32.
An examination was performed to confirm that this version of the ICX software corrected the issue with
displaying of two column contests found in ICX version 5.5.10.30.
Background
Pro V&V was contacted by Georgia Secretary of State Office and Dominion Voting System to analyze
an issue that was discovered in Georgia’s Election Logic and Accuracy Testing (L&A testing) for the
2020 General Election. It was discovered during L&A testing that a display error, under certain
conditions, would occur where the second column of candidates would not be displayed properly.
Dominion Voting Systems researched the issue and found that a static container identifier was causing a
collision with an Android automated process for assigning container identifiers. This collision caused the
display for the second column candidates not to be rendered on the screen properly and occurred so
infrequently that it appeared intermittent.
Test Summary
Dominion Voting Systems submitted source code for ICX version 5.5.10.32 to Pro V&V. Pro V&V then
conducted a comparative source code review comparing ICX version 5.5.10.32 to the VSTL-provided
previous ICX version 5.5.10.30. The source code review found two source code changes in a total of five
files. One change was a variable declaration change the variable type to a string from an integer and
changing the assignment from a static number to assigning another variable. The other update was to
change a function call passing a “wrapper tag” instead of a “wrapper ID”. All other source code remained
constant. After conducting the source code review, a Trusted Build process was conducted. The Product
from this build is the ICX.iso file. The SHA-256 hash for this file is as follows:
ICX.iso -

LR-01-02-GA-ICX

1 of 4

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
948-1
PageID.1691
Filed
Filed
10/09/20
10/05/20
Filed 11/29/20
Page
Page
403of
Page
of119
5 40 of 119
000834

Pro V&V conducted functional regression testing using version 5.5.10.30 and 5.5.10.32. An ICX
machine was loaded with 5.5.10.30 and an election containing two 2 column contests. Pro V&V toggled
between “Normal” and “Big” font sizes. Approximately on the 10th toggle the column disappeared as
presented in Photograph 1.and 2 below:

Photograph 1: Max Candidate Election Contest One

LR-01-02-GA-ICX

2 of 4

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
948-1
PageID.1692
Filed
Filed
10/09/20
10/05/20
Filed 11/29/20
Page
Page
414of
Page
of119
5 41 of 119
000835

Photograph 2: Second column was not rendered.

LR-01-02-GA-ICX

3 of 4

Case 2:20-cv-13134-LVP-RSW
Case
Case
1:17-cv-02989-AT
1:17-cv-02989-AT
ECF
Document
Document
No. 6-28,
959-4
948-1
PageID.1693
Filed
Filed
10/09/20
10/05/20
Filed 11/29/20
Page
Page
425of
Page
of119
5 42 of 119
000836

After reproducing the issue. The same device was load with the ICX version 5.5.10.32 and the same
election. Pro V&V toggled 50 times then rebooted, 100 times then rebooted and finally 250 times. Pro
V&V never observed the issue.
Pro V&V requested Douglas County Georgia’s 2020 General Election database that had produced the
issue, but could not reproduce the issue for the ICX software version 5.5.10.30. Even though Pro V&V
could not reproduce the issue, Pro V&V ran the same test as the test election toggling 50 times then
rebooted, 100 times then rebooted and finally 250 times. Pro V&V never observed the issue.
Conclusion
Based on the review of the source code and nature of the change, Pro V&V recommends the change be
deemed as de minimis. Based on the testing performed and the results obtained, it was verified through
source code review and functional testing that the issue found in ICX version 5.5.10.30 can not be
reproduced in ICX version 5.5.10.32.
Should you require additional information or would like to discuss this matter further, please contact me
at 256-713-1111.
Sincerely,

Wendy Owens
VSTL Program Manager
wendy.owens@provandv.com

LR-01-02-GA-ICX

4 of 4

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1694
Filed 10/09/20
Filed 11/29/20
Page 43 of
Page
11943 of 119
000837

SEALED TRANSCRIPT
1

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

2
3
4

DONNA CURLING, ET AL.,

5

PLAINTIFFS,
vs.

6
BRAD RAFFENSPERGER, ET AL.,
7
DEFENDANTS.

:
:
:
:
:
:
:
:

DOCKET NUMBER
1:17-CV-2989-AT

8
9
10

TRANSCRIPT OF ZOOM VIDEO CONFERENCE PROCEEDINGS

11

BEFORE THE HONORABLE AMY TOTENBERG

12

UNITED STATES DISTRICT JUDGE

13

OCTOBER 1, 2020

14

9:08 A.M.

15
16
17
18
19
20
21

MECHANICAL STENOGRAPHY OF PROCEEDINGS AND COMPUTER-AIDED

22

TRANSCRIPT PRODUCED BY:

23
OFFICIAL COURT REPORTER:
24
25

SHANNON R. WELCH, RMR, CRR
2394 UNITED STATES COURTHOUSE
75 TED TURNER DRIVE, SOUTHWEST
ATLANTA, GEORGIA 30303
(404) 215-1383

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1695
Filed 10/09/20
Filed 11/29/20
Page 44 of
Page
11944 of 119
000838

SEALED TRANSCRIPT
1

A P P E A R A N C E S

O F

2

C O U N S E L

2
3

FOR THE PLAINTIFFS DONNA CURLING, DONNA PRICE, JEFFREY
SCHOENBERG:

4
5

DAVID D. CROSS
MORRISON & FOERSTER, LLP

6
7
8

FOR THE PLAINTIFFS COALITION FOR GOOD GOVERNANCE, LAURA DIGGES,
WILLIAM DIGGES, III, AND RICARDO DAVIS:

9
10
11

BRUCE BROWN
BRUCE P. BROWN LAW
ROBERT ALEXANDER McGUIRE, III (VIA VIDEO CONFERENCE)
ROBERT McGUIRE LAW FIRM

12
13

FOR THE STATE OF GEORGIA DEFENDANTS:

14
15

VINCENT ROBERT RUSSO, JR.
CAREY A. MILLER
ROBBINS ROSS ALLOY BELINFANTE LITTLEFIELD, LLC

16
17
FOR THE FULTON COUNTY DEFENDANTS:
18
19

CHERYL RINGER
OFFICE OF THE FULTON COUNTY ATTORNEY

20
21
22
23
24
25
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1696
Filed 10/09/20
Filed 11/29/20
Page 45 of
Page
11945 of 119
000839

SEALED TRANSCRIPT
P R O C E E D I N G S

1
2

3

(Atlanta, Fulton County, Georgia; October 1, 2020.)

3

THE COURT:

Good morning.

Counsel, would you just

4

check the extra numbers here -- anyone with an extra number

5

here or person here to make sure everyone here is identified

6

with you.

I can see what they appear to be.

7

Mr. Martin, is this everybody that you have let in?

8

COURTROOM DEPUTY CLERK:

9

Yes, ma'am, this is

everybody.

10

THE COURT:

All right.

So if -- the two individuals

11

who are just solely appearing by telephone, can you identify

12

yourselves?

13
14

MS. RINGER:

Phone number ending in 8737 is Cheryl

Ringer from Fulton County.

15

THE COURT:

16

And the person whose number ends in 8993, would you

17

MR. FRONTERA:

That is fine.

Your Honor, can you hear me?

This is

Mike Frontera, general counsel, with Dominion Voting Systems.

20
21

Very good.

identify yourself.

18
19

Okay.

THE COURT:
right.

That is fine.

Very good.

Thank you very much.

All

Everyone is authorized to be on.

22

Thank you, everyone, for being here.

23

from the start that we have this now on the platform -- a

24

different Zoom platform, and we are -- I am -- I have

25

authorized the videotaping of the hearing solely for the
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

I want to say

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1697
Filed 10/09/20
Filed 11/29/20
Page 46 of
Page
11946 of 119
000840

SEALED TRANSCRIPT

4

1

purpose of if I determine that some portion of this really

2

should have been on the public record that it can be made

3

available on the record.

4

Not knowing what was going to be discussed exactly

5

and understanding that there might be some confidentiality

6

issues, I decided that we should just proceed in this way,

7

rather than by making it open and then trying to pull it back.

8

So that is the purpose of videotaping it.

9

normally wouldn't do that.

10

I don't really --

But under the emergency circumstances here, I have

11

proceeded this way.

12

proceeding in that way.

13

this that would be public be available to the public.

14

And I think it is the soundest way of
And also I can make any portion of

Additionally, I want to note though that the

15

videotape is not -- will not be the transcript of record.

16

only transcript of record of that will be created by Ms. Welch

17

as the court reporter in this matter.

18

to the videotape at any point as kind of the official record in

19

this matter.

20

The

And you are not to refer

And, of course, the transcript will be filed.

I am -- just was, frankly, perplexed by the response

21

that the State filed last night.

22

I'm not trying to in any way minimize how busy you are.

23

and Mr. Russo already has told me from the start that he has to

24

be out -- that he has to be complete by 10:00.

25

And I know everyone is busy.
And --

Are you starting the hearing in front of Judge Brown
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1698
Filed 10/09/20
Filed 11/29/20
Page 47 of
Page
11947 of 119
000841

SEALED TRANSCRIPT
1

at 10:00, Mr. Russo?

2

MR. RUSSO:

5

Your Honor, that hearing is at 10:00.

3

But we have sent two of our colleagues there to do it so we

4

could be here.

5

Mr. Miller and me are here.

So Mr. Belinfante and Mr. Tyson are there, and

6

THE COURT:

7

MR. MILLER:

Okay.

So you have got us today.
Very good.

Wonderful.

And I think the 10:00 issue was specific

8

to Dr. Coomer's availability.

9

THE COURT:

All right.

Very good.

So please,

10

everyone, bear that in mind as to Dr. Coomer's availability

11

because if there is something that he needs to address early

12

on, whether it is from the perspective of the Court or the

13

State, let's be sure we just jump ahead and get his input.

14

MR. RUSSO:

Your Honor, also, we have the staff from

15

the Secretary's office on standby.

16

general counsel, on right now.

17

are -- we told them to continue working since they have

18

election stuff going on and that if you needed something from

19

them we would patch them in accordingly.

20

THE COURT:

We have Mr. Germany, the

But Mr. Sterling and Mr. Barnes

That's fine.

All right.

Well, as I

21

understand it, the -- from what you -- from what the State

22

submitted last night -- and it wasn't on the record.

23

just, I think, a letter from counsel.

24

basically the State defendants were proceeding, that you were

25

sending the software out today -- the software to jurisdictions

That was

It was that you -- that

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1699
Filed 10/09/20
Filed 11/29/20
Page 48 of
Page
11948 of 119
000842

SEALED TRANSCRIPT

6

1

across the state, and basically this is a distraction that I

2

was causing, and it was none of my business.

3

the tonality of it.

4

Well, that was

It was a quick letter.

But let me just say -- start from the start is that I

5

think I have endeavored to work cooperatively with everyone.

6

have an order to issue.

7

it is just simply -- you know, doesn't do anything at all,

8

which is certainly -- you know, given everything I have told

9

you in the past that I am very reluctant to even consider in

10

this election saying, oh, suddenly do a sudden change to the

11

paper ballot.

12

I need to -- whatever it says, whether

But I still -- this is still a record.

And I don't

13

know what will happen in the days ahead.

14

Court is entitled to, with respect, be given the information

15

needed to issue an intelligent decision.

16

of circumstances.

17

I

But I think that the

And this was a change

And I am -- I don't know who thought I wouldn't have

18

issued a decision without full knowledge of the circumstances

19

that have arisen.

20

I think everyone has generally been very professional with me.

21

But this is not an acceptable response, and I know everyone is

22

short on sleep and at their wits' end on some things.

23

understand it that way.

24
25

I don't mean this personally against anyone.

So I

I sure am very short on sleep too.

And there is a lot of stress under these
circumstances.

So I humanly recognize all of that.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

And so I

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1700
Filed 10/09/20
Filed 11/29/20
Page 49 of
Page
11949 of 119
000843

SEALED TRANSCRIPT

7

1

just sort of had to breathe in and say, all right, where are we

2

going from now, once I got the response and just say, all

3

right, you know, without any drama, I want to understand what

4

is going on.

5

And that -- the expectation I had was not the -- that

6

things were just proceeding and that I wouldn't basically know

7

what was happening.

8
9

So I think that is -- just as an initial matter, that
is where we're at.

I mean, I am, you know, at 95 percent on

10

having an order ready to be timely issued.

11

while this is going on.

12

And I held it back

And, of course, that is why on Monday we issued the

13

order on the one thing that was clearest that needed to be

14

acted upon as soon as possible.

15

as I heard anything was going on.

But I was holding back as soon

16

So let's just talk about what has happened.

17

understanding from the letter on September 29th that is on the

18

record that -- as opposed to the letter that I received

19

yesterday from counsel that the acceptance testing -- there

20

would be acceptance testing that would occur before there was

21

going to be distribution.

22

I guess it is a filing now.

I'm sorry.

23

realize that counsel's letter was filed.

24

that.

25

My

I didn't

So excuse me for

In any event, I thought there was going to be
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1701
Filed 10/09/20
Filed 11/29/20
Page 50 of
Page
11950 of 119
000844

SEALED TRANSCRIPT

8

1

acceptance testing before there was distribution.

2

there was, and maybe I misunderstood what was instead stated in

3

the brief letter.

4
5

And maybe

So, first of all, let's just start off just as to
that.

6

Did that occur?
MR. RUSSO:

Your Honor, yes.

So, first, you know,

7

let me say we filed the letter under seal because that is what

8

was discussed on Monday.

9

under seal.

As a letter, you said to file it

So that is why we filed it that way.

10

THE COURT:

That is fine.

11

MR. RUSSO:

We didn't necessarily think there was

12

something in there that was attorneys' eyes only or anything to

13

that extent.

14
15
16

THE COURT:
Okay.

All right.

Then I will lift the seal.

Fine.
MR. RUSSO:

In terms of the acceptance testing, the

17

Secretary of State's office did conduct acceptance testing

18

prior to distribution of the update.

19

Mr. Barnes did that.

20

THE COURT:

And when did Mr. Barnes do that?

21

MR. RUSSO:

I believe his acceptance testing was

That is correct.

And then the distribution proceeded.

22

done -- conducted yesterday.

23

it was done yesterday or the day before.

24

starting to run together right now.

25

THE COURT:

Mr. Miller might -- might know if
Frankly, my days are

Yeah.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1702
Filed 10/09/20
Filed 11/29/20
Page 51 of
Page
11951 of 119
000845

SEALED TRANSCRIPT
1

MR. MILLER:

9

Your Honor, I believe it was done Monday

2

and Tuesday.

3

acceptance testing was, you know, essentially receiving the

4

application from Pro V&V and running through just a typical

5

acceptance testing and, you know, primarily ensuring also that

6

the rendering issue that was discovered in logic and accuracy

7

testing was not recurring.

8
9
10
11

And so the kind of process through that -- the

And, importantly, you know, there's -- acceptance
testing was not the only thing being done.
test laboratory was also doing its part.
And, frankly, Your Honor, as to the filing, we

12

certainly didn't intend any disrespect.

13

to note our objections.

14

situation to do so.

15

throughout this thing.

16

The voting system

We do, you know, have

And, of course, it becomes an awkward

And we do appreciate your understanding

But we also, frankly, understood that you may be

17

seeking the Pro V&V evaluation, which the formal evaluation we

18

just -- we don't have right now.

19

evaluation.

20

They have completed the

The written report is not done yet.

MR. RUSSO:

That's right, Your Honor.

That was in

21

our filing yesterday.

22

that report -- to have it by the end of the week.

23

And we didn't -- you know, we expect

To the extent there is any delay from Pro V&V getting

24

us the report, we just didn't want, you know, there to be

25

any -- any misunderstanding about a delay if we made that
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1703
Filed 10/09/20
Filed 11/29/20
Page 52 of
Page
11952 of 119
000846

SEALED TRANSCRIPT
1

representation.

2

and we will file it upon receipt.

3

10

But we do expect it by the end of the week,

In terms of the EAC issue, you know, the order said

4

to file -- to file anything that is filed with the EAC,

5

presuming a filing is made with the EAC.

6

does -- Dominion would make the filing with the EAC, not the

7

State.

8
9

Dominion actually

And Dr. Coomer can speak to that.
But there appeared to be some misunderstanding in

counsel's email yesterday regarding the EAC filing.

But to

10

be -- to be clear, we -- since it has not been filed yet, we

11

didn't have any update for you.

12

not a Secretary of State issue.

13

THE COURT:

But that is a Dominion issue,

Well, it is obviously the responsibility

14

under the state law still though for you to have an

15

EAC-certified system.

16
17
18

MR. RUSSO:
de minimis update.

Well, Your Honor, I mean, the update is a

So that is according to Dominion.

In terms of what state law requires and what state

19

law doesn't require, I mean, there is not a claim in this case

20

regarding our compliance with state -- with state law.

21

only state law claim that was in this case was abandoned by

22

plaintiffs earlier and dismissed in Your Honor's order on the

23

dismissal a couple of months ago.

24
25

THE COURT:

All right.

The

Let me just put it this way.

I mean, it is an indicia of -- it is an important indicia of
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1704
Filed 10/09/20
Filed 11/29/20
Page 53 of
Page
11953 of 119
000847

SEALED TRANSCRIPT

11

1

what is going on and is this -- and from an evidentiary

2

perspective certainly relevant.

3

So I would -- you know, I went back at least and

4

looked at the most recent regulations issued by the EAC.

5

didn't see it as not being a requisite step to -- even a

6

software modification as being requisite.

7

differently from Mr. Coomer or Dr. Coomer -- excuse me.

8

Dr. Coomer is welcome to address at this point where things

9

stand.

10
11

DR. COOMER:
Dr. Coomer.

12

Yeah.

Maybe I will hear

Good morning, Your Honor.

And

This is

So I'll try to describe the process again.

So we identified this change.

13

that it was de minimis.

14

ourselves as a company.

15

And I

And it was our feeling

But we do not make that determination

So the way the EAC process works is we submit that

16

change to an accredited laboratory, in this case Pro V&V.

17

analyze the change.

18

whether it is de minimis or not.

They look at the code.

They

And they determine

19

If it is de minimis, then they do whatever testing

20

they need to do to prove the nature of the change and verify

21

it.

22

report.

23

what is called an ECO, an engineering change order.

24
25

And then they label it a de minimis change.

They write a

And at that point, it is just submitted to the EAC as

So there is no new EAC certification effort.
simply updating the current certification for this ECO.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

It is
And

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1705
Filed 10/09/20
Filed 11/29/20
Page 54 of
Page
11954 of 119
000848

SEALED TRANSCRIPT
1

that is what we --

2

THE COURT:

3

DR. COOMER:

4

12

is a software ECO.

I'm sorry.

ECO?

I'm sorry.

ECO, engineering change order.

And this

And that is how the process works.

5

So once Pro V&V has the final report, we will submit

6

that to the EAC, Election Assistance Commission, certification

7

as an ECO, engineering change order, for the current

8

EAC-certified system, the 5.5-A.

9

THE COURT:

So the November 15 clarification --

10

notice of clarification from the EAC that indicates that a

11

proposed de minimis change may not be implemented as such until

12

it has been approved in writing by the EAC, that is

13

meaningless?

14

That is Provision 3.4.3.

DR. COOMER:

I have got to be honest.

We might be a

15

little bit out of my bounds of understanding of the exact rules

16

and regs there.

17
18

THE COURT:

And Mr. Maguire, as counsel for you -- it

looks like he is present.

19

MR. MAGUIRE:

20

THE COURT:

21

MR. MAGUIRE:

22
23

Yes.

That's correct, Your Honor.

Is that said at all?
I'm sorry.

I'm unprepared to address

it, Your Honor.
THE COURT:

All right.

That is fine.

24

you to be prepared.

25

I wanted to give you that opportunity.

I didn't ask

I just wanted to -- in case you wanted to,

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1706
Filed 10/09/20
Filed 11/29/20
Page 55 of
Page
11955 of 119
000849

SEALED TRANSCRIPT
1
2

MR. CROSS:

13

Your Honor, if it is helpful to you,

Mr. Skoglund -- this is an area of expertise for him.

3

Your Honor has hit the nail on the head, which what

4

Dr. Coomer's explanation left off was once that EAC paperwork

5

goes in you still have to wait for approval from the EAC.

6

EAC has to agree that it is a de minimis change and that it can

7

operate under the existing certification.

8
9

If they disagree, then you have got to get a new
certification.

But until that is approved, you do not have EAC

10

approval to proceed.

11

detail.

12

approval.

13

The

And Mr. Skoglund can explain that in more

So right now they would be proceeding without EAC
That is where we stand.
THE COURT:

That should be undisputed.

Maybe that is what they have determined

14

they must do.

15

mean, I think it is sort of evident.

But I'll let Mr. Skoglund briefly discuss it.

16

But, Mr. Skoglund, can we -- thank you.

17

MR. RUSSO:

Your Honor, one quick point.

I

O.C.G.A.

18

21-2-300(a)(3) is clear that the equipment has to be

19

EAC-certified prior to purchase, lease, or acquisition.

20

ongoing EAC certification that is now being raised, that is not

21

in the statute.

22

rest of the process.

23

THE COURT:

24
25

The

But Mr. Skoglund can go ahead and explain the

All right.

And I'll get back to you,

Mr. Russo.
MR. SKOGLUND:

So I would just agree with what has

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1707
Filed 10/09/20
Filed 11/29/20
Page 56 of
Page
11956 of 119
000850

SEALED TRANSCRIPT

14

1

been represented already.

2

certification if you don't have written approval before making

3

this change.

4

That is correct.

You void your

So the correct process is to go to the VSTL, then go

5

to the EAC, have them review it.

6

the determination of de minimis based on the recommendation of

7

the VSTL.

8

then they are the ones who bless it as being part of the

9

certification.

10

They are the ones who make

But it is really up to them to decide that.

THE COURT:

And

Either Mr. Russo or Dr. Coomer, is there

11

any -- has there been any type of contact at this point with

12

the EAC to say you are in emergency circumstances?

13

DR. COOMER:

14

believe so.

15

V&V.

This is Dr. Coomer.

But we were waiting for that final report from Pro

And then that would be immediately submitted to the EAC.

16

MR. RUSSO:

That's right.

17

THE COURT:

I'm sorry.

18

MR. RUSSO:

Vincent Russo.

19

THE COURT:

All right.

20
21

I don't -- I don't

The Pro V&V report --

Who is speaking right now?

I'm sorry.

We've got a lot

of people here.
MR. RUSSO:

No problem.

The Pro V&V report or Pro

22

V&V has indicated it is a de minimis change.

23

Mr. Skoglund mentioned, the EAC will take that report and that

24

recommendation and proceed from there.

25

So as

But, again, we will file that report with you.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

And

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1708
Filed 10/09/20
Filed 11/29/20
Page 57 of
Page
11957 of 119
000851

SEALED TRANSCRIPT

15

1

Dominion will move forward with its piece in reliance on that

2

report.

3

MR. MILLER:

Your Honor, I do also just want to point

4

out briefly that, you know, EAC certification is not

5

necessarily across the board.

6

don't have EAC-certified systems.

7

seeking to -- Dominion is still seeking to obtain the

8

certification.

9

Court as well.

10

There are other states that
Of course, we're still

But I did just want to point that out for the

THE COURT:

This is a -- obviously, it is a provision

11

the EAC has because it is -- no matter whether you call it de

12

minimis or not, it always obviously raises issues when you

13

change a piece of software and then you have to redo

14

everything.

15

You are obviously all doing testing, and I am glad

16

that you are doing the testing.

17

in a place that doesn't require anything is one thing.

18

you know, we are using a statewide system.

19

repercussions when you have a statewide system also.

20

All right.

But the fact that you could be
But,

So it has larger

And so the software -- the new software

21

is supposed to be distributed today.

22

from -- since you have said you are going forward even without

23

the EAC approval or without seeing the actual testing

24

documentation, what is your next plan?

25

next?

And what is the schedule

What is going to happen

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1709
Filed 10/09/20
Filed 11/29/20
Page 58 of
Page
11958 of 119
000852

SEALED TRANSCRIPT
1

MR. MILLER:

16

Your Honor, it was distributed

2

yesterday, I think, with the dropoff.

3

to briefly mention, you know, we sent an email about the

4

confidentiality of the dropoff process.

And which also I do want

5

At this point, that is no longer confidential.

6

was the prior to -- you know, it is a schedule of secure

7

transfer of files that was filed on the public docket.

8

that is the issue.

9

a loose thread there.

10

It

And so

I did just want to make sure we don't have

But in terms of the process next, the counties will

11

begin engaging in that logic and accuracy testing that was put

12

on pause after the last issue was discovered.

13

started that.

14

the software that was given to them, which has already been

15

verified by Pro V&V, the hash outside of the system at the

16

Center for Election Systems, and additionally a hash again

17

outside of the BMD system before those software was copied to

18

the drives that were sent to the counties in sealed

19

envelopes -- sealed, numbered envelopes via the post-certified

20

investigators connected with the Secretary of State's office

21

who met their county liaisons at Georgia State Patrol posts.

22

That was --

23
24
25

And so we

The counties will also verify the hash value on

THE COURT:

What was verified at the Georgia State

MR. MILLER:

That was where the transfer occurred.

post?

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1710
Filed 10/09/20
Filed 11/29/20
Page 59 of
Page
11959 of 119
000853

SEALED TRANSCRIPT

17

1

So when the software was received -- you know, Pro V&V

2

conducted their verification and validation, provided the

3

trusted build hash to the Secretary's office.

4

office then compared that trusted build hash to the hash of the

5

actual software they had received outside of the BMD system.

6

The Secretary's

You have heard here before the concept that the BMD

7

can trick you into saying that the hash is verified.

8

again, this is wholly outside of the system such that that

9

is -- that is a separate issue entirely.

10

But,

After that delivery to the counties, the counties

11

will also verify the hash and will then conduct their logic and

12

accuracy testing.

13

THE COURT:

All right.

All I was asking was when you

14

said something was verified when they picked it up at the

15

Georgia State Patrol.

16
17

That was just the sealing -- the seal of the
envelope?

18

MR. MILLER:

Your Honor, yes.

So the envelope was

19

sealed by -- right, was sealed by the Center for Election

20

Systems.

21

met county superintendents at Georgia State Patrol posts.

22

And then the investigators of the Secretary's office

THE COURT:

Okay.

That's fine.

Have you in any way

23

expanded the scope of your logic and accuracy testing in light

24

of these circumstances?

25

MR. MILLER:

Your Honor, so I think -- I guess I

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1711
Filed 10/09/20
Filed 11/29/20
Page 60 of
Page
11960 of 119
000854

SEALED TRANSCRIPT

18

1

would separate it out briefly in that the Center for Election

2

Systems conducted their own sort of modified logic and accuracy

3

testing, which I referred to earlier as logic and accuracy

4

testing within CES, on BMDs that they themselves had that have

5

never been used in elections to verify that -- first of all,

6

that that same issue was not recurring but also to continue the

7

logic and accuracy testing such that -- to confirm that there

8

were no ancillary issues brought in to do so.

9

At the time it is sent to the counties, the counties

10

will then conduct their logic and accuracy testing, which now

11

also includes before inserting anything into the BMD verifying

12

that hash number, verifying it is the correct software.

13

is kind of the initial step, which I believe -- I don't have

14

the letter in front of me.

15

couple of steps of the logic and accuracy testing.

16

THE COURT:

That

But we laid out kind of that first

All right.

But you haven't decided at

17

this juncture -- to your knowledge that there have been no

18

change in the logic and accuracy testing protocols or just

19

going from one electoral race to the next in the machines so

20

that you don't do the entire ballot on every -- on a larger

21

number of machines in each of the counties?

22
23

And that is the process you-all described, one race
for one and then round-robin.

24

MR. MILLER:

25

the -- any detailed adjustments.

And I'm not sure I can speak to any of
What I will say is the

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1712
Filed 10/09/20
Filed 11/29/20
Page 61 of
Page
11961 of 119
000855

SEALED TRANSCRIPT

19

1

testing that was done within CES included five different ballot

2

styles that were chosen from Dekalb County being a county that

3

would have large ballot styles -- basically, you know, a number

4

of races, number of different types of ballots on there.

5

then they were conducted on those different styles and also

6

conducted on the four different machines and printing out

7

basically hundreds of ballots to confirm the testing.

8
9

THE COURT:

And

Well, as far as you know, there has been

no -- no one has considered trying to test a larger range of

10

the ballot -- the full ballot in a larger range of machines as

11

testified to in -- at the hearing and which was the protocol

12

that Mr. Harvey indicated was the protocol in his testimony?

13

Is that right?

14
15
16

MR. MILLER:

Your Honor, as I understand it, the full

ballot is tested on all of the machines.
THE COURT:

That wasn't his testimony.

The testimony

17

was -- is that one race -- you picked a race.

18

next machine, and it would do the next race.

19

would -- if you exhaust the race, which in Georgia you probably

20

wouldn't exhaust the race, you would start with the next one --

21

if you had 12 machines, you did the 12 first races.

22

would go back to Number 1 machine, and you would go -- and it

23

would do the 13th race.

24

and it would do the 14th race.

25

You went to the
And then you

Then you

Then it would go to Number 2 machine,

That is what I'm getting at.

So that, really, you

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1713
Filed 10/09/20
Filed 11/29/20
Page 62 of
Page
11962 of 119
000856

SEALED TRANSCRIPT

20

1

have a fraction of the machines that are actually doing the

2

race at issue.

3

really what I'm trying to get at.

4
5

But it might screw up other races.

So that is

But it doesn't sound like there have been any change
in the process, in any event, from what you know.

6

MR. MILLER:

Your Honor, I would defer to the

7

testimony and the written instructions on logic and accuracy

8

testing.

9

as to any sort of very specific minutia within that.

10
11
12
13
14

But yes.

To answer your question, I couldn't comment

THE COURT:

All right.

I'm really not asking you to

testify yourself as to it.
As far as you know, no one has indicated to you that
they changed any of the -MR. RUSSO:

That's correct, Your Honor.

As far as we

15

know, the process is the same as Mr. Harvey has discussed

16

previously.

17

THE COURT:

That's all I'm trying to get at.

18

MR. RUSSO:

You know, with respect to printing the

19

ballots and each race that we discussed at the hearing, that

20

hasn't changed.

21

testing are to ensure that the hash value -- check the hash

22

value of the new software and the version on the front end.

23
24
25

The only change is with the logic and accuracy

THE COURT:

And does Dr. Coomer know what was -- what

type of testing was done on the software at PV&V?
DR. COOMER:

Your Honor, I'm not sure of the complete

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1714
Filed 10/09/20
Filed 11/29/20
Page 63 of
Page
11963 of 119
000857

SEALED TRANSCRIPT

21

1

test plan that they completed.

2

determine what test plan is necessary based on their analysis

3

of the code itself.

4

THE COURT:

5

DR. COOMER:

Again, Pro V&V themselves

They didn't tell you?
I don't have the details.

6

just -- I could probably get that.

7

details.

8

THE COURT:

9

DR. COOMER:

10

THE COURT:

When did they complete it?
I believe they completed that either

Do you know who was performing the

testing there?

13
14

But I don't have the

late Monday or Tuesday.

11
12

DR. COOMER:

The individual employees' names, no, I

THE COURT:

I mean, is there a head of the unit that

do not.

15
16

deals with security or not at this point?

17

vague testimony of that at the hearing.

18
19

I would

DR. COOMER:

Because we had very

I don't know the makeup of Pro V&V's

employees.

20

THE COURT:

And do you have a backup plan in case, in

21

fact, there are issues that are arising in connection with

22

this?

23

the best will occur.

24

what is the plan?

25

I mean, you are hoping for the best.

DR. COOMER:

You are thinking

But what -- if there are issues again,

We'll work with our -- we'll work with

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1715
Filed 10/09/20
Filed 11/29/20
Page 64 of
Page
11964 of 119
000858

SEALED TRANSCRIPT
1

22

our partners at the State to do whatever is necessary.

2

MR. RUSSO:

Your Honor, this issue, as you recall,

3

came up as a result of this U.S. Senate special election having

4

too long of a -- too many candidates and the Secretary of State

5

not wanting to have any candidates claim that they were

6

unfairly treated by being on the second page because surely

7

someone would say that by being on the second page they lost

8

votes.

9

We are not aware of any other issues with the BMDs

10

that would change, you know, the processes going forward.

11

mean, Mr. Barnes conducted logic and accuracy -- his logic and

12

accuracy testing -- his acceptance testing I should say -- on

13

the machines.

14

The machines will go through acceptance testing.

I

If

15

anything new is discovered in that process, we'll, of course,

16

have to address that.

17

juncture there is anything new since this issue with the

18

ballot -- the number of candidates being on one screen has been

19

resolved.

20

THE COURT:

But we have no reason to believe at this

Dr. Coomer, did you get an opportunity to

21

read Dr. Halderman's affidavit that was filed that if it really

22

was just simply only the first time ran on a machine why

23

wouldn't it have been adequate essentially to address this by

24

just basically running it the first time?

25

DR. COOMER:

Well, so there is a

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1716
Filed 10/09/20
Filed 11/29/20
Page 65 of
Page
11965 of 119
000859

SEALED TRANSCRIPT

23

1

mischaracterization -- I'm not sure where that came from.

2

did not have a chance to --

3
4

THE COURT:

Uh-oh.

Everyone put themselves on mute,

and we'll try to --

5

DR. COOMER:

6

to read the entire declaration.

7

to disparage Dr. Halderman whatsoever.

8

assumptions when he does not have an understanding of the

9

actual issue.

10

So I

So I didn't read -- I didn't have time
But I will say that -- and not
But he is making

If I had time and charts and I could work on a

11

whiteboard, I could explain exactly what the issue is.

12

is not that it happens the first time.

13

happens once -- can -- not that it always does -- but can

14

happen only once during a voting cycle.

15

cycle of the machine.

16

not just the ballot layout but, you know, the sequence of how

17

the voters have gone through the ballot.

18

I said that it only

And that is a power

It is a rare occurrence that based on --

There are essentially some indexes that are created

19

by Android operating systems.

20

referencing.

21

the issue happens.

22

keeps incrementing these indexes.

23

But it

And we have an index that we are

And if there is a collision between those two,
And it can only happen once because Android

So it can only collide once.

And there is a very

24

specific set of circumstances that leads to this collision.

25

And it doesn't happen every time.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1717
Filed 10/09/20
Filed 11/29/20
Page 66 of
Page
11966 of 119
000860

SEALED TRANSCRIPT
1

24

Our analysis showed us how to actually reproduce that

2

deterministically.

3

sure if it was in Dr. Halderman's declaration or not -- that we

4

didn't understand the root cause of this and it was

5

undetermined how and when this could happen.

6

statements are not correct either.

7

So I have seen some other things -- I'm not

And those

So this is why we felt very confident in this change

8

because it is very minimal.

9

particular ID, we reference it now as what is called a tag.

Instead of referencing this

10

There is no collision possible between our tag and these

11

Android IDs.

12

And then just to hit on this point, you know, asking

13

what if something else happens, well, this version -- you know,

14

the certified version that is being used in Georgia has been --

15

has been used by millions of voters across the U.S.

16

This is the first time we have seen this issue.

And,

17

again, it is due to the unique layout to handle the special

18

Senate contest with the two columns of candidates.

19
20

So I just wanted to sort of make that known.

You are

still on mute, Your Honor.

21

THE COURT:

Can you explain to me what the -- to make

22

sure I don't misunderstand what you mean by power cycle, is

23

it -- basically it could happen every time that -- is it when

24

you turn the power on and then the next time when you turn the

25

power on?
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1718
Filed 10/09/20
Filed 11/29/20
Page 67 of
Page
11967 of 119
000861

SEALED TRANSCRIPT
1

DR. COOMER:

Correct.

Yeah.

25

When you turn the power

2

off and you turn it back on, Android starts those indexes back

3

over.

4

THE COURT:

All right.

Then does it happen each time

5

just in the beginning or any time in the cycle?

6

other part that was a little confusing to me because I had

7

thought you indicated before or somebody had indicated it was

8

right at the start of the cycle.

9

DR. COOMER:

That was the

No, it is not right at the start.

10

Again, it depends on a variety of factors.

11

depends on the number of -- the number of display elements that

12

are on the ballot itself and how the voters walk through.

13

So, you know, it

So it could be -- it could be several voters.

And,

14

again, it doesn't happen all the time because you have to have

15

this unique overlap, you know.

16

on, you know, the sort of behavior of the voters going through

17

the ballot of whether they just happened to hit on this unique

18

circumstance.

19

you know, X number of voters.

20

THE COURT:

And that is wholly dependent

But it is not -- it is not necessarily within,

Okay.

And it is not -- so if you -- it

21

is not dependent on the fact that this is the first time

22

you've -- it is not the first ballot in any event?

23

DR. COOMER:

24

THE COURT:

25

Correct.
It is not the voter who gets -- who is

the first one in line who gets it necessarily?
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1719
Filed 10/09/20
Filed 11/29/20
Page 68 of
Page
11968 of 119
000862

SEALED TRANSCRIPT

26

1

DR. COOMER:

2

MR. CROSS:

3

clarifying question?

4

THE COURT:

Yes.

5

MR. CROSS:

I just want to make sure I understand.

Correct.
Your Honor, could I ask a quick

6

On Monday, Dr. Coomer said -- he said this happens only once

7

for one voter during a complete machine cycle.

8

Dr. Halderman's understanding was coming from.

9
10

That was where

So is it right that it is not just once for one voter
during a machine cycle?

11

DR. COOMER:

It could happen more than once?

No, not during the machine cycle.

12

I say machine cycle, I was referring to power cycle.

13

only happen once.

14

MR. CROSS:

15

couldn't you just power it on?

16

DR. COOMER:

When

So it can

So then why is Dr. Halderman wrong?

Why

Because once is not the same as first.

(Unintelligible cross-talk)

17
18

MR. RUSSO:

We are here to answer your questions,

19

frankly.

20

We are in discovery.

21

But I did want to raise that before we --

22

Plaintiffs can go do discovery if they would like to.

THE COURT:

So you can continue to answer for now.

I think -- Mr. Russo, I appreciate that.

23

But it was -- I certainly had the impression that Mr. Cross did

24

too.

25

So I'm very happy that Dr. Coomer is explaining it.
So if Mr. Cross had a misunderstanding too, then I
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1720
Filed 10/09/20
Filed 11/29/20
Page 69 of
Page
11969 of 119
000863

SEALED TRANSCRIPT
1

think he is entitled to try to --

2
3

27

MR. RUSSO:

And that is fine.

I just wanted to make

sure before we got too far down this road that I raised this.

4

THE COURT:

All right.

5

MR. CROSS:

So, Dr. Coomer, all I was asking you:

It

6

will happen only once in a power cycle, but you don't know when

7

it will happen, meaning you couldn't just do a single test

8

ballot?

9

the one time and then you --

10

You would have to do test ballots until it happened

DR. COOMER:

Right.

And, again, to be clear, it

11

doesn't always happen.

12

through the ballot.

13

going to wait until this happens and it never happens because

14

you have passed those conditions.

15
16

Right?

It is this unique way of going

So you could -- you could say, oh, I'm

MR. CROSS:

Got it.

Okay.

Thank you.

That is

really helpful, Dr. Coomer.

17

DR. COOMER:

18

THE COURT:

Sure.
So -- and maybe one has to have

19

Mr. Barnes here or someone else from the department present.

20

So I'm just trying to understand how the logic and accuracy

21

testing that is being performed at this juncture mirrors

22

that -- those conditions since it is not necessarily the first

23

time it has been done.

24
25

What were -- what are the instructions to make sure
that it doesn't happen, partially because, you know, the point
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1721
Filed 10/09/20
Filed 11/29/20
Page 70 of
Page
11970 of 119
000864

SEALED TRANSCRIPT

28

1

really is the size -- the vote should be counted properly is

2

you just don't -- it could -- there are repercussions if it

3

does in terms of people getting confused at the polls and other

4

sorts of problems that can happen there that it triggers -- the

5

people are worried about their votes and one comes to a halt,

6

et cetera.

7
8
9

MR. CROSS:

Your Honor, could I ask one more

question?
Dr. Coomer, you mentioned that you could do -- you

10

figured out a way to do it deterministically, which means you

11

could trigger it.

12

software, could the counties trigger it using this

13

deterministic approach?

14

happen again with the existing software.

15

Would that work to -- rather than doing new

DR. COOMER:

Then you could trust it wouldn't
Would that be a fix?

I mean, that is -- theoretically, that

16

is possible because it depends on, again, a lot of variables.

17

So each -- you know, obviously each county and each machine

18

has -- may have a different set of ballots on there.

19

So like -- so what we did is -- obviously, this was

20

identified in two counties.

21

they were testing in those counties.

22

and found a way using those two projects how to make it happen.

23

And we know the ballot styles that
So we zeroed in on that

We would have to do that for every machine in every

24

location because it is dependent on the ballots that are in

25

that machine to then want to determine whether you could make
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1722
Filed 10/09/20
Filed 11/29/20
Page 71 of
Page
11971 of 119
000865

SEALED TRANSCRIPT
1
2

29

those IDs collide.
Does that -- does that clarify?

That would be,

3

again, theoretically possible.

4

whole process would have to be done every time the machine is

5

turned on.

6

THE COURT:

A nightmare.

And then that

Let me start this way simply:

You-all

7

did some logic and accuracy testing yourself when you were

8

trying to do the software modification?

9

DR. COOMER:

10

THE COURT:

Oh, extensive testing.
All right.

Extensive.

How did you modify -- how did

11

you do it so that -- in light of these circumstances in terms

12

of the protocol so that you would -- it would be at least

13

randomly captured?

14

DR. COOMER:

Right.

So -- well, the first thing we

15

did is obviously analyze the projects where it was -- where the

16

issue arose.

17

problem was.

And that led us to figuring out what the root

18

Then our initial testing was we actually set up a

19

quick project where -- knowing how the code behaved we knew

20

exactly the steps to take within a few clicks to make this

21

issue happen.

22

multiple machines that we could make it happen according to

23

step A, B, C.

Right?

And so we set that up, verified on

24

So then we applied the change and then redid those

25

steps, verified that that issue no longer arose, and then we
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1723
Filed 10/09/20
Filed 11/29/20
Page 72 of
Page
11972 of 119
000866

SEALED TRANSCRIPT

30

1

took that back to, you know, the actual -- some of the actual

2

real Georgia elections that would be tested and ran full

3

regression tests over several days to verify that nothing else

4

was impacted.

5
6

THE COURT:
determine what?

7
8

You ran full regression tests to

I didn't hear the last part of your sentence.

DR. COOMER:

That no other functionality was

impacted.

9

THE COURT:

So have you made any recommendation to

10

the State regarding any additional measures that should be

11

taken in order to test the functionality of both the fix as

12

well as that it didn't impact anything else?

13

DR. COOMER:

So I don't -- I don't know all of the

14

information that was communicated to the State.

15

we did -- again, as I mentioned, we had those two counties

16

where we -- you know, where the issue was experienced.

17

how to make it happen in those two counties.

18

provided those steps to the State for verification.

19

again, I'm not the one that is actually communicating the

20

operational aspects directly with the State.

21

But I believe

We know

I believe we
But,

And then as far as the other functionality again, the

22

pre-logic and accuracy testing process we feel is enough to

23

verify that the system as a whole is still functioning as it

24

should.

25

THE COURT:

Let me just say that in your testimony

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1724
Filed 10/09/20
Filed 11/29/20
Page 73 of
Page
11973 of 119
000867

SEALED TRANSCRIPT

31

1

before this Court you indicated that you had not been aware

2

that -- that the full ballot had been tested in each machine.

3

So I guess would it be wise to have more of the full

4

ballot tested in every machine?

5

other things, this particular race?

6

DR. COOMER:

I mean, for instance, among

I'm not sure -- I'm not sure I'm

7

following.

8

testing that I'm aware of from the State I believe is adequate.

9

But, again, you know, the logic and accuracy

THE COURT:

I don't want to get into a

10

cross-examination with you myself about that.

11

understand that there is only a small fraction of the machines

12

each that are tested for -- for instance, as to this particular

13

race that are going to be out in the field?

14
15
16
17
18

DR. COOMER:

But you do

Again, I don't -- I don't know every

single detail of the L&A that they are doing.
THE COURT:

All right.

That is fine.

Then we'll

just -- we'll stop at that then.
Mr. Russo and Mr. Miller, is there anyone who is

19

familiar with the -- what the instructions have been to the

20

field with the State available just to talk for -- speak for a

21

minute or two?

22

I know Dr. Coomer has to leave in four minutes.

23

before we do that, I want to make sure that there is not

24

anything else that counsel wish for Dr. Coomer to address.

25

MR. BROWN:

Your Honor, this is Bruce Brown.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

So

I have

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1725
Filed 10/09/20
Filed 11/29/20
Page 74 of
Page
11974 of 119
000868

SEALED TRANSCRIPT
1

one question for Dr. Coomer.

2
3

32

Our information is that the version of the software
that was certified was .30 and the current version is .32.

4

What was .31, and what is .32?

And have the

5

incremental changes from the various versions been tested,

6

certified, or approved?

7

MR. MILLER:

Your Honor, we're just going to raise

8

the same objection earlier as far as cross-examination of the

9

witness right now.

10

THE COURT:

11

DR. COOMER:

12

reasons.

13

at.

14

Well, I think it is -Version numbers change for a variety of

I'm not even sure what that question is trying to get

THE COURT:

Well, it is trying to understand if there

15

have been software change or some other change between the

16

5.5-A, I guess, .30 and 5.5-A.32, which this is.

17

words, what happened -- do you know what was .31?

18
19

DR. COOMER:

In other

There is absolutely no other change than

the one we supplied that we alluded to.

20

MR. BROWN:

21

DR. COOMER:

So why are there two version numbers?
There is not two version numbers.

There

22

are a variety of reasons why when you do a build a version

23

number turns out the way it does.

24

I don't know what you are digging at.

25

you -- I can state as fact -- and I just did -- that the
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

But I can tell

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1726
Filed 10/09/20
Filed 11/29/20
Page 75 of
Page
11975 of 119
000869

SEALED TRANSCRIPT
1

33

only --

2

MR. MILLER:

Your Honor --

3

DR. COOMER:

-- between those two builds is this

4

change that we submitted.

5

THE COURT:

All right.

6

MR. BROWN:

So there is not a version 31?

(Unintelligible cross-talk)

7
8
9

MR. MILLER:
objection.

Your Honor, we just reraise the same

Dr. Coomer is here voluntarily right now.

10

is not a party to this.

11

Court.

12

again.

Dominion

He is trying to be helpful to the

And we are going down a path of cross-examination

13

MR. CROSS:

Why are they scared to answer questions?

14

THE COURT:

All right.

15

just say.

No more commentary, let me

My understanding --

16

DR. COOMER:

17

THE COURT:

All right.

18

MR. CROSS:

I wasn't talking to you, Dr. Coomer.

19

THE COURT:

My understanding just from what

I'm not scared to answer your questions.

20

Dr. Coomer said was very -- there were a lot of people

21

speaking -- is that Dr. Coomer said that there was no separate

22

change from the 5.5-A that has been made so that there is -- to

23

the extent the other one had a .30, there was no .31 separate

24

change.

25

DR. COOMER:

That's correct.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1727
Filed 10/09/20
Filed 11/29/20
Page 76 of
Page
11976 of 119
000870

SEALED TRANSCRIPT
1

THE COURT:

Is that correct?

2

DR. COOMER:

That's correct.

3

THE COURT:

4

All right.

6

as you want to stay.

7

deadline.

9

Fine.

Thank you.

Is there

anything else?

5

8

All right.

34

DR. COOMER:

Doctor, you are welcome to stay as long
But I understood that you had a hard

Yeah.

I do have a hard stop, and I do

appreciate that.

10

THE COURT:

All right.

11

MR. CROSS:

Thank you, Dr. Coomer.

12

THE COURT:

Is it Mr. Barnes who is giving directions

13
14

Thank you very much.

to people in the field about the L&A testing at this point?
MR. RUSSO:

I think Mr. Barnes would be the best

15

person to try to answer your questions.

16

the development of logic and accuracy testing.

He is involved with

17

THE COURT:

All right.

18

MR. RUSSO:

We're going to -- if you can give us one

19
20
21
22
23
24
25

Is he --

minute here to get in touch with him.
THE COURT:

That is fine.

(There was a brief pause in the proceedings.)
THE COURT:

Good afternoon, again, or good morning.

Morning, Mr. Barnes, also.
I just -- we were discussing the circumstances around
the software being distributed and subject to logic and
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1728
Filed 10/09/20
Filed 11/29/20
Page 77 of
Page
11977 of 119
000871

SEALED TRANSCRIPT

35

1

accuracy testing again.

2

were -- to your knowledge, whether there were any additional

3

instructions about conducting logic and accuracy testing that

4

was given to any -- all or any of the counties relative to the

5

software.

6

MR. BARNES:

And I wanted to find out whether there

The one additional instruction was for

7

the counties to verify the new hash signature for the new

8

version number of the ICX application.

9

THE COURT:

And therefore am I to assume that there

10

were no -- there was no other modification and in particular

11

there was no expansion as to the number of the ICX machines

12

that were going to be tested for purposes of looking at that

13

race in particular or any other races?

14

MR. BARNES:

Again, we did not give them another list

15

of instructions to follow for their L&A testing.

16

normal L&A testing is to check every vote position on every

17

ballot as they go through the ballot style.

18

the occurrence was found with the old version.

19

going to have counties follow the same protocols with the new

20

version.

21

THE COURT:

Part of their

And that is how
So we were just

Mr. Harvey had confirmed before though

22

that the instructions were that you would run the ballot --

23

let's say -- let's -- just consider that there were ten

24

machines, let's say, that were being tested.

25

run race Number 1, which would presumably be the presidential

That you would

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1729
Filed 10/09/20
Filed 11/29/20
Page 78 of
Page
11978 of 119
000872

SEALED TRANSCRIPT
1

race, on Number 1 machine.

2

priority on machine Number 2.

3

ten, then you would go back -- the 11th race would be tested

4

again -- would be tested on the machine Number 1 again.

5

Is that something different than you know of?

6

MR. BARNES:

No.

36

Then you would run race Number 2 in
And when you had finished the

What my understanding of the L&A

7

procedure is is the ballot is loaded on to the L&A -- on to the

8

test screen ballot.

9

displayed.

And then the first race of the ballot is

And then on that race, they will mark each -- they

10

will touch the first candidate, validate that the mark is

11

there; proceed to the next race on the ballot; mark the

12

candidate, make sure it is there; and proceed all the way

13

through the ballot until they arrive to the summary screen.

14

And they validate that they see those selections on the summary

15

screen.

16

They then backtrack.

Go back to the first race in

17

the ballot, remove the mark from the first candidate, and then

18

mark the second candidate in that race and proceed through the

19

ballot again all the way through the summary screen.

20

And this is done to make sure that every vote

21

position is responsive and that the system shows that summary

22

selection at the end.

23

through that exercise with at least one of those candidates per

24

contest marked.

25

instance, for every candidate in every race on every machine.

They will produce one printed ballot

But they won't produce a ballot for every

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1730
Filed 10/09/20
Filed 11/29/20
Page 79 of
Page
11979 of 119
000873

SEALED TRANSCRIPT

37

1

They will just produce one printed ballot at the end of that

2

test of that particular BMD.

3
4

THE COURT:

And have you looked at the instructions

that were given in January via Mr. Harvey's office?

5

MR. BARNES:

6

THE COURT:

Yes, ma'am.
And that is what you think is consistent

7

with what -- what you have described is consistent with the

8

protocol described?

9

MR. BARNES:

10

THE COURT:

Yes, ma'am.
Well, let me walk through it again.

11

Because that certainly was not my understanding from the

12

testimony provided or from the observations that were provided

13

by people at the -- observers at the polling.

14

So I'm not -- so you are saying basically the member

15

of the staff who was testing it will go in and vote on the

16

presidential race?

17

stop you now that I have heard the whole -- what you think is

18

supposed to happen.

19

And just walk me through it again so I can

MR. BARNES:

Okay.

So we'll take it as a single

20

race, single -- single ballot, single race.

21

the presidential race, which has four candidate options.

22

And we will say

On the testing, they would load the ballot, bring up

23

the contest that shows the four -- the four contestants.

24

will mark the first contestant and then leave that screen and

25

go to the summary screen to validate that that mark is showing.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

They

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1731
Filed 10/09/20
Filed 11/29/20
Page 80 of
Page
11980 of 119
000874

SEALED TRANSCRIPT
1

38

They would then go back to the race itself, remove

2

the mark, and then put a mark for the second candidate and then

3

proceed back to the summary screen, confirm that that is

4

showing.

5

the third candidate in the race, proceed to the summary screen,

6

confirm that is showing.

7

the mark of the third candidate, put a mark for the fourth

8

candidate, which is the write-in, type in some form of a name,

9

proceed to the summary screen, verify again that that is

10
11

Go back again to the ballot, remove the mark, mark

And then go back to the race, remove

showing.
Then they would backtrack, go back to the race

12

itself, remove the mark, go to the summary screen, verify that

13

that mark again is not showing.

14

now they are going to put a mark on the ballot so that they can

15

produce a printed ballot from the machine.

16

Then go back to the race.

And

And they may select the first candidate or second

17

candidate or third candidate depending on what they are needing

18

to produce for their test deck.

19

candidate and then proceed back to the summary screen and then

20

print the ballot.

21
22
23

THE COURT:

So they may do the first

So is the printed ballot the one with all

of the choices?
MR. BARNES:

The printed ballot will only have the

24

one selection made at that last operation.

25

have one mark for the race.

The ballot can only

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1732
Filed 10/09/20
Filed 11/29/20
Page 81 of
Page
11981 of 119
000875

SEALED TRANSCRIPT
1

THE COURT:

39

I don't -- because I don't know

2

whether -- is anyone with you from -- are you able to receive

3

an email if I send counsel the L&A procedure -- January

4

procedure and they sent it to you at this point?

5

MR. BARNES:

6

THE COURT:

Yes, ma'am.

I have access to email.

I don't want to be the person directly

7

sending it to you.

8

have it directly offhand, Ms. Cole can send it to one of you

9

right away so you can send it on.

But -- all right.

But if counsel doesn't

10

Send it both to Mr. Miller and Mr. Russo.

11

LAW CLERK COLE:

12

and he can share it on the screen.

13

THE COURT:

Okay.

Okay.

I can also send it to Harry,

Why don't we do both?

Why don't

14

we send it because it is harder for -- let's do both and give

15

Mr. Barnes an opportunity to look at it.

16

(There was a brief pause in the proceedings.)

17

MR. BARNES:

18

LAW CLERK COLE:

19
20
21
22
23

All right?

I haven't received anything as of yet.
Mr. Martin has it now if you want

him to share his screen.
THE COURT:

I want Mr. Barnes to be able to review it

without having to see it on the screen first.
MR. RUSSO:
So I emailed it.

My email might be running a little slow.

So it is just a matter of --

24

THE COURT:

25

Ms. Cole, can you pull up Mr. Harvey's affidavit

That is fine.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1733
Filed 10/09/20
Filed 11/29/20
Page 82 of
Page
11982 of 119
000876

SEALED TRANSCRIPT
1

40

also?

2

LAW CLERK COLE:

3

MR. RUSSO:

Do you know what docket number that is?

4

THE COURT:

Well, the affidavit?

5

MR. RUSSO:

Yes, ma'am.

6

LAW CLERK COLE:

7

MR. RUSSO:

Yes.

My recollection is it is 834-3.

Thank you.

I was just trying to look

8

through the transcript for that explanation.

9

it.

10
11

I was not finding

I appreciate that.
MR. CROSS:

Do you mind forwarding that document that

Ms. Cole sent you so that I can pull it up too?

12

MR. RUSSO:

Yes.

13

MR. CROSS:

Thank you.

14

THE COURT:

Does everyone have the procedure?

15

Mr. Barnes, you don't have it still?

16

MR. BARNES:

No, Your Honor, I do not.

17

THE COURT:

Mr. Russo, did you send it?

18

MR. RUSSO:

I did.

19

THE COURT:

Okay.

20

MR. MILLER:

21

THE COURT:

23

25

Very good.

I think we both actually sent it.
All right.

(There was a brief pause in the proceedings.)

22

24

Let me try again.

THE COURT:

All right.

Mr. Barnes, did you get it

yet?
MR. BARNES:

Yes, Your Honor.

I just received it.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1734
Filed 10/09/20
Filed 11/29/20
Page 83 of
Page
11983 of 119
000877

SEALED TRANSCRIPT
1

THE COURT:

Very good.

41

Let me give you an

2

opportunity -- I'll give you the opportunity to read the

3

portion that deals with the process for looking -- testing the

4

polling place scanner, that one -- I'm sorry -- right above it,

5

testing the BMD and printer.

6
7
8

And have you had an opportunity to look at that, that
Section D?
MR. BARNES:

Yes, ma'am.

I'm reviewing that.

(There was a brief pause in the proceedings.)

9
10

MR. BARNES:

11

THE COURT:

Your Honor, I've read it.
Thank you very much.

So my understanding

12

both from Mr. Harvey's testimony on this particular procedure

13

and what the witnesses to the L&A testing observed when they

14

were able to observe this in a -- because it was public was

15

that the description provided in the text under -- in

16

connection with the word example was what was occurring, that

17

there was not -- every race was not in a particular ballot --

18

ballot machine -- every race that was listed on the ballot was

19

not, in fact, tested on that one machine.

20

was -- you went from machine to machine as described under the

21

word example.

22

MR. BARNES:

23

THE COURT:

24

MR. BARNES:

25

That, in fact, it

My -- excuse me.
Yes.

Go ahead.

My reading of the document outlines that

the ballot style will be displayed on, we'll say, machine one
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1735
Filed 10/09/20
Filed 11/29/20
Page 84 of
Page
11984 of 119
000878

SEALED TRANSCRIPT

42

1

and that the process of creating the ballot that is going to be

2

used for the test deck for machine one would be that the --

3

that the operator would select the first candidate not for just

4

one race but the first candidate in every race on that ballot,

5

proceed through the whole ballot, and then at the end would

6

then print that one ballot that had the first candidate

7

selected.

8
9
10

So that the machine one would have ballot style one
and then it would have the selection of the first candidate in
every race selected and print it.

11

On the second machine, the ballot would be loaded.

12

And then from that machine, the ballot that would be printed

13

for the test deck would be the second candidate in each race.

14

And then that ballot would be printed for the test deck.

15

And then they would go to machine three, load the

16

ballot.

17

the test deck would be the third candidate in each race within

18

that ballot and so forth and so on.

19

And on this one, the ballot that would be produced for

THE COURT:

Well, that certainly is somewhat

20

different than my understanding the testimony and evidence.

21

And -- but I understand what you are saying.

22

What is the -- so just to summarize again is that you

23

understood that if I -- whoever was Number 3 in each race would

24

have been picked -- if you were on the third machine, you would

25

have picked Number 3 -- the candidate in the third position for
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1736
Filed 10/09/20
Filed 11/29/20
Page 85 of
Page
11985 of 119
000879

SEALED TRANSCRIPT
1

43

every single race?

2

MR. BARNES:

3

THE COURT:

4

MR. BARNES:

Yes, Your Honor.
And what if there wasn't a candidate?
If there is not a third -- if one race

5

has four candidates but the second race only has two

6

candidates, then you do not make a selection at all.

7

skip.

8

leave that race blank.

There is not a third option to choose.

9

THE COURT:

10

MR. BARNES:

11

THE COURT:

You would

So you would

Then you would continue down the ballot?
Yes, Your Honor.
I think this is sufficiently a material

12

change in the way that perhaps it has been presented.

13

saying anything -- that you are wrong in any way or -- but I

14

just think that I would like to make sure there is nothing that

15

the plaintiffs want to ask in light of that testimony.

16

And have you observed this yourself or not?

17

MR. BARNES:

18
19
20

I'm not

I have not been in the field to observe

the L&A testing with the new system, Your Honor.
THE COURT:

All right.

So you haven't been in the

field to observe their application of this procedure?

21

MR. BARNES:

22

THE COURT:

All right.

23

MR. RUSSO:

Your Honor, I pulled up Mr. Harvey's

That's correct.

24

declaration, and I'm looking at that.

25

that all -- that testing the ballots -- a test deck where you

And he seems to indicate

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1737
Filed 10/09/20
Filed 11/29/20
Page 86 of
Page
11986 of 119
000880

SEALED TRANSCRIPT

44

1

use every permutation would be overly burdensome and

2

unnecessary, as the Coalition plaintiffs urge, in other words,

3

to generate test ballots so that all candidates in all races

4

within the unique style have received a single vote.

5

I think maybe that is where some confusion is coming

6

into play.

7

and his declaration seems clear to me.

8

is some confusion that maybe you thought every permutation on

9

the ballot maybe had to run a test deck with every combination,

And I think Mr. Harvey was under the impression -But to the extent there

10

is that -- and I'm just maybe trying to understand it also

11

myself -- where the disconnect is here, frankly.

12

THE COURT:

Mr. Skoglund was, I think, the

13

Coalition's witness or -- is that right?

14

witness?

15
16

MR. CROSS:

Or was he Mr. Cross'

Mr. Skoglund was a witness for the

Coalition.

17

THE COURT:

Okay.

18

MR. BROWN:

I'm sorry, Your Honor.

19

THE COURT:

So I'm assuming that you spent some more

20
21
22
23

time -- particular time on this, Mr. Brown.
So are there any -- anything you want to point out or
ask Mr. Barnes about?
MR. BROWN:

Thank you, Your Honor.

My question would

24

be, sort of to cut to the chase -- and that is:

25

and accuracy testing as described by Mr. Barnes, all of the way
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

On the logic

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1738
Filed 10/09/20
Filed 11/29/20
Page 87 of
Page
11987 of 119
000881

SEALED TRANSCRIPT

45

1

through tabulation, there is only one ballot that is actually

2

tested and that the other testing that Mr. Barnes described was

3

testing the accuracy of the summary screen rather than the

4

accuracy of the final output.

5

Is that correct, Mr. Barnes?

6

MR. BARNES:

What I was describing was the generation

7

of the test deck that has to be generated at the end of the L&A

8

testing.

9

THE COURT:

Wait a second.

I think we should put

10

ourselves on -- everyone but you on mute so that we make sure

11

that we --

12

Go ahead.

13

MR. BARNES:

Again, what I was describing was the

14

generation of -- it is two parts.

15

validate display of ballot operation of the touchscreen being

16

receptive to touch and then the generation of the record from

17

each device that is used to organize the test deck that is then

18

scanned by the scanner.

19

It is the L&A test to

So the tester wants to go through and look at each

20

race on the ballot, make sure that all the candidates are

21

displayed, make sure that all candidates are receptive to

22

touch, and take that all the way to the end of the summary

23

screen.

24

positions.

25

And then they back out and continue that through all

But when they have completed that, they have to
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1739
Filed 10/09/20
Filed 11/29/20
Page 88 of
Page
11988 of 119
000882

SEALED TRANSCRIPT

46

1

produce a record.

2

printed record from that BMD.

3

all positions voted and a vote registered by doing the machine

4

one, the machine two, the machine three through the ballot

5

style.

But they are only required to produce one
And then they accomplish to get

6

MR. BROWN:

Thanks.

7

MR. CROSS:

Your Honor, could I ask a follow-up

8
9

question?
Mr. Barnes, did I understand you right so if you've

10

got -- well, let's just take a concrete example.

11

Senate race this year that has, as we understand it, it sounds

12

like 20 or so candidates.

13

There is a

So that means you would generate a test ballot that

14

has -- you would generate a separate test ballot for each of

15

those candidates on however many machines correspond.

16

So let's say there are 20 candidates.

Right?

You would

17

generate 20 separate test ballots on 20 consecutive machines

18

selecting each candidate in turn.

19

Do I have that right?

20

MR. BARNES:

What you would do -- let's say that

21

there are -- let's say that there are 20 machines.

22

a balanced number.

23

10 machines and there's 20 candidates.

24
25

We'll make

Let's say -- actually we'll say there are

Then you will start with machine one, check all the
races, check all of the candidates, make sure they are
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1740
Filed 10/09/20
Filed 11/29/20
Page 89 of
Page
11989 of 119
000883

SEALED TRANSCRIPT

47

1

responsive.

2

end of that machine, you would select the first candidate in

3

that Senate race and produce a ballot printout.

4

But when you are done with that machine, at the

Then you would go to the second machine.

The second

5

machine, again, you would check the full race, check all

6

positions, check responses.

7

you would produce one ballot from the second machine and that

8

would have the second candidate.

9

But when you are done with that,

And you would repeat that process through those ten

10

machines.

11

returning back to machine Number 1.

12

you would now select -- again, you have already looked at all

13

of the candidates again already.

So on that machine, you are

14

going to produce a second ballot.

And that second ballot is

15

going to have the 11th candidate selected.

16

When you got to the 11th candidate, you would be
And on machine Number 1,

And then you will continue to proceed in that manner

17

until you have produced a record that -- a vote record that has

18

every candidate in that race voted one time.

19

MR. CROSS:

And if you have got -- if the other

20

elections have fewer candidates -- right?

21

at candidate 6 out of the 20 and all of the other races have

22

fewer than 6 candidates, at that point forward, you would not

23

have any candidates selected on those races for the test

24

ballots?

25

MR. BARNES:

So let's say you are

That's correct.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1741
Filed 10/09/20
Filed 11/29/20
Page 90 of
Page
11990 of 119
000884

SEALED TRANSCRIPT
1

MR. CROSS:

48

So that would mean if we have got a race

2

this year of, say, 20 or so candidates, you would have a pretty

3

large number of test ballots coming out of machines that have

4

no candidate selected for some of those races?

5

MR. BARNES:

6

MR. CROSS:

Thank you.

7

THE COURT:

Just state that again, what you were

8

That would be correct.

saying, Mr. Cross.

9

MR. CROSS:

Because this year we've got a Senate race

10

that has a large number of candidates -- it sounds like 20 or

11

more -- and because once you get over -- say the next highest

12

number of votes is -- I'm trying to think of the easiest way to

13

say what I just said.

14

Once you get over the next highest number of -- say

15

every other race had two -- only two selections.

16

you get to the race that has three or more candidates, you stop

17

selecting any candidates in all of those other races.

18

don't go back and just select one that you have already

19

selected.

20

Right?

Once

You

So that means once you get to 3, 4, 5, 6, on up

21

through 20-something candidates when you are testing it, all

22

the other races on the ballot would have no selections on any

23

of those test ballots for all of those machines.

24

be going machine to machine to machine.

25

THE COURT:

So you would

You are only going by position number.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

I

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1742
Filed 10/09/20
Filed 11/29/20
Page 91 of
Page
11991 of 119
000885

SEALED TRANSCRIPT
1

49

see.

2

MR. CROSS:

So with this particular year with a race

3

with that many selections -- you are talking a pretty large

4

number of BMDs that would have test ballots with only a single

5

candidate selected, which then gets printed and tabulated.

6

Those BMDs would not have test ballots for candidates for all

7

but one race.

8
9

MR. RUSSO:

I mean, there's always going to be

elections where you only have maybe one person in a race.

So,

10

Mr. Barnes, that is what you would do, for example, if you had

11

a county commission race also on the ballot and you've got one

12

person in that race.

13

check that person off the first -- on the first test ballot.

14

But going forward -- I mean, there is going to be other

15

contested races, of course.

16

race, a state house race with three candidates.

17

got to go through those three times.

18

race with only one candidate would only have -- be selected the

19

first time through.

Right.

You would put that -- you could

You know, maybe you have a house

But the county commission

20

MR. BARNES:

21

MR. RUSSO:

We have had this happen in every

THE COURT:

Well, I'm not sure that really helps

22
23

Correct.

So you have

Correct.

And if --

election.

24

because, of course, when you have only a single -- a single

25

individual then they are in position one.

So they are going to

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1743
Filed 10/09/20
Filed 11/29/20
Page 92 of
Page
11992 of 119
000886

SEALED TRANSCRIPT

50

1

be tested -- those races are all going to be counted as

2

position one.

3

The problem here we have is position -- the fact that

4

there might not be any others races that have Position 10 and

5

so -- or Position 8.

6

sort of seemed to have -- on the ballot that had created a

7

quirk, you are going to have the least amount of L&A testing --

8

that's all -- in terms of output.

9
10
11

MR. CROSS:
right, Your Honor.

So that basically in the very race that

Well, yeah.

I'm not sure that is quite

Let me back up.

They will test every candidate in that Senate race.

12

So that particular race that has a large number of

13

candidates -- right? -- that will get tested.

14

What it means is that for all of those ballots

15

beyond, say, the first three or four candidates, depending on

16

what else you have there, there will be no L&A testing for any

17

of those other races.

18

THE COURT:

Right.

19

MR. RUSSO:

Well, they are tested the first time.

20
21

I

mean, I think we are saying the same thing.
MR. CROSS:

No.

No, they are not.

What Mr. Barnes

22

is saying is there is no ballot that will be printed at all

23

from those BMDs that gets printed and scanned and tabulated

24

that has any candidate selected from any race other than the

25

Senate race once you get beyond the max number of candidates in
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1744
Filed 10/09/20
Filed 11/29/20
Page 93 of
Page
11993 of 119
000887

SEALED TRANSCRIPT
1

51

those other races.

2

And given a lot of those races are only going to have

3

maybe 2 or 3 candidates but we have got a race with 20 or more,

4

you are talking about maybe 50 to 20 machines each time that

5

are not having a single candidate tested to get printed and

6

scanned and tabulated.

7

MR. RUSSO:

I understand what you are saying.

But

8

you would have had -- that person who is -- you know, if it is

9

a race of three people, you would have had a test ballot that

10

would have had that person -- the third ballot would have been,

11

you know, in this example that you gave a race of three people.

12

Now, when you get to person four -- Mr. Barnes can

13

explain it.

14

Mr. Barnes explain it.

15

And if I'm wrong, I'm wrong.

MR. CROSS:

Mr. -- I'll let

Because once you get to selection --

16

again, Mr. Barnes, I thought I -- let me just try my question

17

again.

18

I thought we had it straight.
Let's say the maximum number of candidates on a

19

ballot was 4.

20

except for you have got the Senate race, let's say, that has 20

21

candidates.

That is the most you have in any race is 4,

22

Are you with me?

23

MR. BARNES:

24

MR. CROSS:

25

Yes.
Once you get to selection five to test

that, meaning printing a ballot and scanning it, in the Senate
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1745
Filed 10/09/20
Filed 11/29/20
Page 94 of
Page
11994 of 119
000888

SEALED TRANSCRIPT

52

1

race, you are going to do that and that ballot is not going to

2

have any other candidate selected for the test ballot; right?

3

MR. BARNES:

On that ballot style.

But when there

4

are multiple ballot styles within the polling location, once

5

you complete ballot style one, you then have to do the same

6

thing for the next unique ballot style within that -- within

7

that polling location.

8

ballots to be generated with more selections.

9

MR. CROSS:

So there is opportunity for more

Right.

But most -- particularly on

10

election day -- putting aside early voting, on election day,

11

most of your ballots -- most of your polls are going to have a

12

single ballot style; right?

13

polling site that has multiple precincts.

14

MR. BARNES:

15

is different.

16

many.

17

Otherwise, you are talking about a

There is -- every precinct in the state

Some only have one ballot style.

Some have

It is a potpourri out there.
MR. CROSS:

But with my example, you would have --

18

unless you are printing multiple ballot styles on that BMD, you

19

are going to have selections -- you are going to have machines

20

five through -- you are going to have 15 machines -- remaining

21

5 to 20, you are going to have 15 machines for which your test

22

ballot has only a single selected candidate just in that Senate

23

race; right?

24
25

MR. BARNES:
deck, yes.

The ballot that is printed for the test

But every position would have been looked at on
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1746
Filed 10/09/20
Filed 11/29/20
Page 95 of
Page
11995 of 119
000889

SEALED TRANSCRIPT
1

that ballot during the examination.

2

MR. CROSS:

3

MR. BARNES:

4

MR. CROSS:

5

On the screen?
Correct.
And looking at the screen does not tell

you what actually gets tabulated; right?

6

MR. BARNES:

7

intent of the voter.

8

record.

The screen is the interaction and the
The ballot is what will be the official

9

MR. CROSS:

Right.

10

THE COURT:

And the next step is, of course, the

11

MR. BARNES:

13

THE COURT:

15

So --

scanner tabulator?

12

14

Correct.
And you can't really test that just from

looking at the screen?
MR. BARNES:

Again, that is why we produce the record

16

from the machine so that the scanner can also be used to

17

validate that what is coming from the system is what the

18

scanner then tabulates.

19

53

THE COURT:

I think that the -- I mean, I'm not sure

20

that what is happening in the field is what you are describing.

21

But, you know, I'm just -- based on what the evidence is and

22

the way that Mr. Harvey described it but -- and why he thought

23

everything else was too burdensome.

24
25

But that is -- you know, I understand what you are
saying at this juncture.

I mean, I'm looking at my -- at a

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1747
Filed 10/09/20
Filed 11/29/20
Page 96 of
Page
11996 of 119
000890

SEALED TRANSCRIPT

54

1

sample ballot here.

2

number -- where we were actually thinking of four candidates,

3

we get down to the fifth one, only one of the major leaders

4

here who is in that first top four is Doug Collins.

5

And -- and basically when we get down to

So all the testing that would relate to other --

6

identified at least by the polls leaders in this race are after

7

Number 4.

8

would be -- it would be fewer.

9

the way it is indicated.

10

So testing of their -- any ballot, including them,
But that is if it is, in fact,

I'm just looking at Paragraph 6 of Mr. Harvey's

11

affidavit and also testimony.

12

point that what Mr. Barnes describes based on the testimony and

13

the evidence presented is exactly what is happening.

14
15
16
17

And I can't really know at this

But, Mr. Skoglund, did you get an opportunity to be
present during any of the L&A testing?
MR. SKOGLUND:

Remind me.

No, Your Honor, I have not been

present for any of it.

18

Can I offer a thought about this?

19

THE COURT:

20

MR. SKOGLUND:

Yes.
So I think that, as I testified

21

before, you know, logic and accuracy testing depends on what

22

questions you are asking.

23

question you ask depends on the quality of the test.

24

really makes sense to think about what questions you are

25

asking, what are you trying to find out.

Right?

And the quality of the

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

So it

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1748
Filed 10/09/20
Filed 11/29/20
Page 97 of
Page
11997 of 119
000891

SEALED TRANSCRIPT
1

55

And I think, you know, this is -- this is more logic

2

and accuracy testing that some jurisdictions do.

3

that is not the standard.

4

meet Georgia statute, which I think is quite good and quite

5

strong?

6

But I think

I think the question is:

Does it

I would go further, if it were me.
I think that the way I would do -- conduct a logic

7

and accuracy test and the way I have seen other people do it is

8

you create a spreadsheet essentially ahead of time with the

9

test pattern for votes for what you plan to do.

And in that,

10

you try overvotes and undervotes and races where you vote for

11

two and the audio ballot and trying it in Spanish language.

12

And, you know, you try a variety of scenarios.

13

And then, you know, knowing that you have good

14

coverage in that spreadsheet, then you go to the machine and

15

ask each machine to accomplish that set of tests.

16

closer to what I think the Georgia statute requires.

17

THE COURT:

That is

Well, I just would like to know what is

18

actually going to be -- and whether everyone is going to be

19

doing something different actually.

20

juncture but -- based on the evidence introduced.

21

That is my concern at this

But the other thing was simply because this was the

22

-- the alleged tweak that involving this particular ballot one

23

would really want to know it was -- all permutations of that.

24

It is hard for me to know without -- what I do know

25

is what -- the issue that Mr. Cross elicited.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

And it might

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1749
Filed 10/09/20
Filed 11/29/20
Page 98 of
Page
11998 of 119
000892

SEALED TRANSCRIPT

56

1

behoove the State to consider whether to modify at least this

2

in a way -- whatever the process is, if it is, in fact, like

3

what Mr. Barnes describes as opposed to the inference that was

4

given from the procedure as I identified and witnessed by

5

others who were watching the L&A testing in the last election,

6

it really behooves everyone to think about is there something

7

you want to beef up under the circumstances since you have a

8

software change particularly affecting that race.

9

I can't really say more at this juncture.

I'm going

10

to go back and look.

11

differences between the way Mr. Barnes described it and the way

12

it was otherwise described.

13

But there's really some material

MR. MILLER:

Your Honor, I don't have the transcript

14

in front of me from the hearing, so I can't speak exactly of

15

Mr. Harvey's testimony.

16

But as far as the declaration and as I recall the

17

hearing, I think the concept was the concept that Mr. Barnes

18

described of the difference between printed ballots versus the

19

test on the screen.

20
21
22
23

And so I don't think there is --

(Unintelligible cross-talk)
MR. MILLER:

-- necessarily inconsistence there but

different topics.
THE COURT:

Yeah.

I mean, there is no question that

24

it was supposed to be getting at the difference as to whether

25

there was a difference between the way it tabulated and the way
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1750
Filed 10/09/20
Filed 11/29/20
Page 99 of
Page
11999 of 119
000893

SEALED TRANSCRIPT
1
2

57

it printed and the ballot.
But it was -- but it was much more helter-skelter

3

because -- as opposed to just testing one office per machine

4

and sometimes more depending on how large the ballot was.

5

that -- I mean, that is exactly what -- not just through

6

Mr. Harvey's testimony but through the affidavit of people who

7

were witnessing it.

8
9

So

So, Mr. Harvey, are you -- is Mr. Harvey in charge of
giving you instructions or -- I gather?

Are his folks out in

10

the field at all, or is it -- I'm not -- or is it your folks

11

who are doing the L&A testing?

12
13
14
15
16

I mean Mr. Barnes.

I mean, it is somebody from the county.

But who is

the technical adviser, if there is anyone?
MR. BARNES:
responsibility.

Logic and accuracy testing is a county

So it is in the hands of the county.

THE COURT:

And do they -- are they relying then on

17

that 2000 -- January 2020 procedures manual in determining how

18

to proceed?

19

MR. BARNES:

To my understanding, yes, Your Honor.

20

THE COURT:

And this is not something that you have

21

given directions to anyone about in the field, I gather?

22

MR. BARNES:

23

THE COURT:

That would be correct.
And do you have any idea whatsoever why

24

there was an impression that it was a database that is going to

25

be distributed rather than software in the communication?
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1751
Filed 10/09/20
Filed 11/29/20
Page 100Page
of 119
100 of 119
000894

SEALED TRANSCRIPT
1

MR. BARNES:

58

Your Honor, I do not know why they chose

2

the word database for distribution.

3

application install -- an application upgrade installation.

4

MR. MILLER:

It was always that

Your Honor, I believe we can speak to a

5

little bit of clarity on that in that the form that you saw

6

attached to the email that, I believe, Mr. Brown filed is a

7

standard form that is used when databases are delivered to say,

8

here is the schedule, here is where we're coming through.

9

And so that form didn't change because it was the

10

same type of run.

11

counties are used to doing and that the investigators and

12

liaisons sent out.

13

been a bit of a misunderstanding amongst the county liaisons

14

who were the direct contact as to what was being delivered but

15

they knew something was being delivered on this schedule.

16

So it is the same type of thing that the

And, you know, frankly, I think it may have

THE COURT:

I would like to just take a short break

17

so I can talk to Ms. Cole privately, and then -- then we'll

18

resume.

19
20
21
22
23
24
25

MR. RUSSO:

Your Honor, could we let Mr. Barnes go

THE COURT:

Let him stay for just a minute.

or --

keep him much more.

I won't

Thank you.

(A brief break was taken at 11:00 A.M.)
THE COURT:

Mr. Brown, Mr. Miller?

Let me just say

to counsel -- and I realize this is not Mr. Barnes' direct
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1752
Filed 10/09/20
Filed 11/29/20
Page 101Page
of 119
101 of 119
000895

SEALED TRANSCRIPT
1

responsibility.

2

envisioned it at least and testified.

3

59

But he also described the process as he
So that has some value.

At the very least -- and I would say perhaps more

4

than that -- the procedure that was identified on the January

5

memo is susceptible to a very different interpretation or

6

multiple interpretations.

7

And given the importance of the software -- the L&A

8

testing, I can't tell you that you are mandated, but I think

9

you would be really behooved -- it would strongly behoove the

10

State in the interest of everyone involved here that there be

11

clarification of what the process is.

12

You are using -- even though it has been identified

13

as a de minimis change, even if it hadn't been a change, it

14

would have been important for there to be -- in this first use

15

statewide in a major election to have this strong L&A testing.

16

And even if it is construed the way Mr. Barnes says

17

with the effect of it after you get to position four you are

18

going to have fewer tests, you will still have a lot of tests.

19

But, you know, it would have been -- it would be a better thing

20

to have a different process for dealing with this wrinkle.

21

But even so, I don't think that -- from what the

22

evidence was in the record that it is -- that the L&A testing

23

is being pursued in the way that -- the more pristine manner

24

described by Mr. Barnes.

25

in many places it is not.

And maybe it is in some places, but

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1753
Filed 10/09/20
Filed 11/29/20
Page 102Page
of 119
102 of 119
000896

SEALED TRANSCRIPT
1

60

So, you know, to the extent that, you know, it is

2

still in process, which it definitely is -- it is just

3

beginning -- I would really encourage the State to think about

4

providing clearer directions, you know, thinking about

5

having -- not just relying on a written one but having some

6

sort of video conference to discuss it.

7

like it is not necessary and that is -- but I think the

8

evidence might point to the contrary and --

9

MR. MILLER:

And maybe you-all feel

Your Honor, I would want to say that,

10

you know, the memorandum that Mr. Barnes drafted that was

11

distributed by the elections director, that is not in a vacuum.

12

They conduct monthly webinars.

13

through Firefly.

14

into evidence in this case because it, frankly, wasn't at that

15

point as much of a disputed issue.

16

They send various instructions

And those kind of things just haven't come

We, frankly, thought we were talking about malware on

17

ballot-marking devices.

18

that there is a significant amount of additional kind of

19

guidance and instructive material to the county superintendents

20

throughout the election process through webinars and things of

21

that nature.

22

THE COURT:

23

MR. MILLER:

But suffice it to say, Your Honor,

Well -And it touches on this and other issues.

24

And, again, I could go into things that, frankly, are

25

definitely not an issue in this case as to candidate
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1754
Filed 10/09/20
Filed 11/29/20
Page 103Page
of 119
103 of 119
000897

SEALED TRANSCRIPT
1

61

qualification challenges, things of that nature.

2

THE COURT:

I think that this case deals with a

3

variety of things that relate to the machine translating the

4

vote cast by the citizen that walks into the booth or cast in a

5

different way.

6

comments.

7

So I'm just -- that is -- I'm just making these

I encourage you because of the way the evidence came

8

in and what it shows.

9

obviously in a position to say that you -- Mr. Miller, that the

10
11

I'm not saying -- I'm not in any way

individual messages haven't gone out.
But the -- I still have the testimony in front of me.

12

I have the January procedures, which are the official

13

procedures from the Secretary of State about doing this --

14

preparing for an election that were in front of me.

15

have voters as well as others who were on the board -- on the

16

boards' affidavits.

17

mentioning it to you.

18

MR. MILLER:

19
20

And then I

So that is what I'm relying on in just
But, you know -I understand, Your Honor.

I'm not

trying to add additional evidence now.
THE COURT:

I'm talking about the long run here.

My

21

interest is not -- you know, even though it is described as I'm

22

interfering, my interest is in seeing that the voting system

23

works and the voters' votes are counted and that there are no

24

screwups on elections that end up having you back in court.

25

That is -- and to deal with the case in front of me and to deal
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1755
Filed 10/09/20
Filed 11/29/20
Page 104Page
of 119
104 of 119
000898

SEALED TRANSCRIPT
1

with it in an honest and straightforward way.

2
3

And I wouldn't be having this conference otherwise so
I can really understand what is going on.

4

MR. MILLER:

5

THE COURT:

6

62

And --

We understand.
So this is a change.

So that is what I'm

dealing with.

7

I still would -- as soon as you do have the --

8

whatever the submission is from Pro V&V, I would like it to be

9

submitted on the record so that we have it.

10

And the same

thing -- and what the submission is to the EAC.

11

And if there is any further clarification that is

12

provided on L&A testing, I would like to be notified of that.

13

Because right now I have -- I mean, this is exactly what I'm

14

dealing with.

15

order to be inaccurate in any respect factually.

16

I have to issue an order, and I don't want my

You may contest the conclusions.

17

to be inaccurate.

18

know that is a concern always.

19

All right.

20

MR. MILLER:

But I don't want it

And we have all worked really long enough to

Now -Yes, Your Honor.

I apologize.

And I do

21

just to -- as we started off today, I do just want to reiterate

22

that we are appreciative of that and your attention to this.

23

And, frankly, the Secretary has the same goal of ensuring that

24

the election can go forward in the most efficient and effective

25

manner.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1756
Filed 10/09/20
Filed 11/29/20
Page 105Page
of 119
105 of 119
000899

SEALED TRANSCRIPT
1

63

And, Your Honor, we are appreciative and will remain

2

responsive to the Court's requests.

3

know, we are at crunch time.

4

are trying to administer elections while they are performing

5

inspections for the Coalition plaintiffs.

6

officials are trying to help out.

7

realities -- and I understand the Court did not intend -- and

8

we did not intend to have a negative tone towards the Court.

9

THE COURT:

But it is truly a -- you

And our local election officials

All right.

Our State election

And in practical

We'll look at -- when

10

Ms. Welch gets her transcript out, I'll determine if there are

11

any -- what portions of the video could be made available on

12

the public docket.

13

I don't want to get myself in another problem with

14

not having a hearing being in public that should be.

15

that's really again -- and there might be nothing here that is

16

confidential.

And

17

But you are welcome to send me, just having

18

participated in this, any of your position about this and about

19

what portion should be in the public or if all of it can be in

20

the public.

21

If you are going to do that, just simply so I can

22

proceed on a timely basis, I would appreciate your letting me

23

know -- let's see.

24

know by 4:00.

25

It is 11:00 today.

MR. RUSSO:

If you could let us

Your Honor, are we going to get a copy --

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1757
Filed 10/09/20
Filed 11/29/20
Page 106Page
of 119
106 of 119
000900

SEALED TRANSCRIPT
1
2

how do we go about doing that?

64

Do we get a copy of the video?

I mean, I do think probably Dr. Coomer's testimony is

3

something that may not need to be public.

4

to make sure we understand the process here.

5

video and send something to you or just --

6

THE COURT:

However, I just want
We review the

Well, I think at this point I'm not sure

7

we're going to be able to -- I have to find out from IT.

8

have the video, we'll give it to you.

9

to have to just simply go by your recollection -- your joint

10

And if not, you're going

recollection --

11

MR. RUSSO:

Okay.

12

THE COURT:

-- of counsel there.

13

MR. RUSSO:

You say by 4:00 today?

14

THE COURT:

By 4:00.

15
16
17
18
19
20

If we

But I'll let you -- we'll let

you know right away whether we can get you a video.
MR. RUSSO:

Okay.

I didn't know how that -- I have

never had a recording.
THE COURT:

It is either yes or no that we can do it.

All right.
MR. CROSS:

Your Honor, could I ask just -- because

21

it is something that may be breaking, we have heard a lot of

22

new information today.

23

briefly respond to a couple of points?

24

this is stuff you are considering for Your Honor's order.

25

THE COURT:

Could we just have Dr. Halderman just

All right.

Because it sounds like

But I would like to release

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1758
Filed 10/09/20
Filed 11/29/20
Page 107Page
of 119
107 of 119
000901

SEALED TRANSCRIPT

65

1

Mr. Barnes so that he can go back to work, unless you have an

2

objection.

3

MR. CROSS:

No.

4

MR. BROWN:

No objection.

5

THE COURT:

All right.

6

can go on with life.

7

MR. BARNES:

8

THE COURT:

9

Go ahead.

10

MR. MILLER:

Mr. Barnes, you are -- you

Thank you, Your Honor.
All right.

Thank you very much.

Your Honor, before Dr. Halderman begins,

11

because I don't want to interrupt, we just do want to state our

12

objection on the record to the continued expansion of the

13

evidence at issue.

14

THE COURT:

Well, I think that to the extent that he

15

has something useful that helps me understand what has been

16

said, I think the plaintiffs have an opportunity to --

17
18
19
20

MR. RUSSO:

It may be -- you know, to the extent that

Dr. Coomer needs to listen to this -- and I don't know -THE COURT:
reach Dr. Coomer.

You can show -- you are welcome to try to

But it seemed like he had a conflict.

21

MR. RUSSO:

I guess I could show him the video maybe.

22

THE COURT:

Or you could get Ms. Welch --

23

MR. RUSSO:

And he could respond to any --

24

THE COURT:

You could see if you could get her to

25

give you just his portion of the testimony.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1759
Filed 10/09/20
Filed 11/29/20
Page 108Page
of 119
108 of 119
000902

SEALED TRANSCRIPT
1

MR. RUSSO:

Okay.

66

I just want to make sure we get to

2

respond since there was a disputed issue earlier between the

3

two.

4

THE COURT:

Ms. Welch, are you able just to -- just

5

produce Mr. Halderman's -- we don't know how long it is.

6

let's say it is 20 minutes.

7

that around fairly quickly?

8
9

COURT REPORTER:
quickly, Judge.

Are you able to do that -- turn

I can turn it all around very

Whatever they ask of me, I do.
(There was a brief pause in the proceedings.)

10
11
12

But

THE COURT:
or the other.

All right.

We'll get it to you one way

Very good.

13

Can we unmute Dr. Halderman?

14

DR. HALDERMAN:

15

THE COURT:

16

Mr. Cross, did you want to structure this and give

17

Can you hear me, Your Honor?

Yes.

him some questions?

18
19

Hello.

MR. CROSS:

Yeah.

I mean, I think he's been

listening.

20

Probably the easiest way is:

Dr. Halderman, it

21

sounds like there are a few points that you had to respond to.

22

Go ahead.

23
24
25

DR. HALDERMAN:

Yes, of course.

And however I can be

helpful to the Court in this manner.
First, just to respond to the point that Dr. Coomer
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1760
Filed 10/09/20
Filed 11/29/20
Page 109Page
of 119
109 of 119
000903

SEALED TRANSCRIPT

67

1

made about my suggestion in my most recent affidavit that

2

procedural remedies could cure this problem, I think his

3

response seems to indicate that the problem that we're

4

attempting to or the State is attempting to fix here is a

5

complex one, that it is possible to reproduce it but

6

reproducing it reliably, he testified, requires operating with

7

a simpler version of the ballot.

8
9
10

And that just gives me further concern about whether
the software fix can be adequately tested given the time that
is available.

11

Now, beyond that, I would like to reiterate the

12

substance of the security concerns that I have.

13

clear that even if the change to the source code is a small

14

one, as Dominion says it is, the process of updating this

15

software requires replacing completely the core of the Dominion

16

software on every BMD.

17

We have to be

We know that because the update instructions are to

18

uninstall the APK, that is, the package that contains almost

19

all of the Dominion software that runs on the ballot-marking

20

device, and install a new APK, a new copy of all of that

21

software.

22

So this is, frankly, quite alarming from a security

23

perspective.

Replacing the BMD software at this juncture so

24

close to the election is an ideal opportunity for attackers who

25

might want to infiltrate the machines.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1761
Filed 10/09/20
Filed 11/29/20
Page 110Page
of 119
110 of 119
000904

SEALED TRANSCRIPT
1

68

If attackers have gained access to Dominion's

2

systems, to Pro V&V's systems, to the CES systems, or to the

3

county systems that are going to be creating and distributing

4

this software change, that would be an opportunity for the

5

attackers to subvert the software that runs on election day.

6

And, frankly, none of the procedures I have heard described

7

here today would be adequate to stop that.

8
9

So beyond the security questions, the change at this
point seriously concerns me from an accuracy and correctness

10

standpoint.

11

that is complex to reproduce.

12

ensure that the fix actually does correct that problem and

13

that -- and it is virtually impossible at this last minute to

14

thoroughly test that it doesn't create new problems.

15

As I said, the software change is fixing a problem
It is difficult to test to

So quite often last-minute changes to complex systems

16

do create other unknown consequences.

17

version of the BMD software at least had been tested through

18

use in elections, as Dr. Coomer testified millions of voters in

19

aggregate, this new software has only existed for a matter of

20

days.

21

And while the previous

I myself personally have spent more time testing the

22

old version of the software than anyone has spent testing the

23

new version of the software because it has only existed for

24

such a short time.

25

Pro V&V hasn't even had an opportunity to write up
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1762
Filed 10/09/20
Filed 11/29/20
Page 111Page
of 119
111 of 119
000905

SEALED TRANSCRIPT

69

1

its findings.

2

which has introduced this de minimis testing categorization for

3

emergency fixes in small -- that are small in nature.

4

State isn't even following that -- that special case process

5

that has been put in place by EAC.

6

itself is being circumvented.

7

in -- under these circumstances to forgo even that level of

8

compliance.

9

Those finding have not been reviewed by EAC,

But the

It seems that that process

It just seems quite extreme

I wanted to just briefly address the L&A procedures

10

that we heard described.

11

that the L&A testing we have heard about would be trivial for

12

malware to detect and bypass.

13

that the BMD can see, that ballots are being printed, that are

14

being marked in the same position across every race.

15

I think two key points about that are

It has a very clear signature

It would be absolutely simple if you were programming

16

malware for the BMDs to have it avoid cheating on ballots that

17

are marked in the same position across each race.

18

So the security value of this L&A testing is minimal.

19

And we have also heard -- and I think this point came out

20

clearly for the first time today -- that the L&A testing isn't

21

even checking to make sure that each BMD correctly produces a

22

ballot for each -- for the entire set of candidates in every

23

race.

24
25

You don't have to test necessarily every permutation
of candidates in order to check that.

But the least that I

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1763
Filed 10/09/20
Filed 11/29/20
Page 112Page
of 119
112 of 119
000906

SEALED TRANSCRIPT

70

1

would expect from an L&A procedure would be that it checks that

2

each BMD can correctly mark a ballot for each candidate.

3

And as we have heard today, because of the length of

4

the Senate race, many BMDs apparently will not even be tested

5

to make sure that they can print a ballot that is marked for

6

each candidate in the presidential race.

7

because a particular BMD might have a corrupted somehow copy of

8

the database -- of the programming that goes into it.

9

And that concerns me

And the L&A procedures, as described, because they

10

don't involve printing a ballot from each BMD that has been

11

marked for every candidate, wouldn't be able to pick up that

12

problem.

13

been marked and can be tabulated correctly.

You have to actually test that each candidate has

14

THE COURT:

15

DR. HALDERMAN:

Wait a second.
Apparently someone is sawing on the

16

outside of my building, and I may have to quickly move to

17

another room.

18
19
20
21
22

But I think I have addressed the points that I had in
mind.

But I'm very happy to answer any questions.
MR. CROSS:

questions.

Dr. Halderman, just a couple of follow-up

And the Court may have questions or Mr. Russo.

In your experience looking at elections over the

23

years, is there any election that comes to mind where a state

24

was replacing the software with new software less than two

25

weeks before the -UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1764
Filed 10/09/20
Filed 11/29/20
Page 113Page
of 119
113 of 119
000907

SEALED TRANSCRIPT
1

DR. HALDERMAN:

71

No, nothing comes to mind.

This

2

is -- this is not a typical procedure to be going through.

3

an emergency, perhaps you would need to.

4

would be an extremely risky thing to be doing both from a

5

correctness standpoint and from a security standpoint.

6

MR. CROSS:

In

But even then, it

And just two final questions.

Are there

7

real world examples you have seen where a software change that

8

even had been fully vetted and was intended to fix one discrete

9

problem that that then had unintended consequences that were

10

quite significant?

11

DR. HALDERMAN:

Well, the most significant recent

12

example, of course, is the 737 MAX aircraft where after most of

13

the testing had been completed Boeing introduced what they

14

believed was a relatively small design change to the control

15

system that they didn't believe needed to be rigorously tested

16

because it was the equivalent of de minimis.

17

But that unfortunately reportedly had fatal

18

consequences and has been tied to crashes that have killed

19

several hundred people.

20

I think it is a good parallel because both the Georgia election

21

system and the aircraft are examples of complex software

22

systems.

23

But I think that is an illustration.

Georgia's election system is millions of lines of

24

source code that are in the Dominion products.

25

reason, small, even seemingly trivial changes can have
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

And for that

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1765
Filed 10/09/20
Filed 11/29/20
Page 114Page
of 119
114 of 119
000908

SEALED TRANSCRIPT
1

72

consequences that are difficult to understand.

2

It is just -- it is why we normally in the voting

3

system testing and certification process demand such extended

4

testing for accuracy.

5

rule out security problems.

6

that votes are going to be counted correctly in the absence of

7

an attacker.

8
9

That kind of testing can't necessarily
But it does a lot to help ensure

And it is those processes that are being bypassed
here and substituted with apparently less than a week of -- of

10

very rapid-fire testing of some sort.

11

that goes into a voting system in the course of a normal

12

software change.

13
14

MR. CROSS:

Nothing like the testing

Last question, Dr. Halderman.

You

mentioned that the LAT, the logic and accuracy testing -(There was a brief pause in the proceedings.)

15
16

MR. CROSS:

Dr. Halderman, you said that there is a

17

clear signature of testing under this L&A process.

18

example, the candidates are selected in the same position.

19

DR. HALDERMAN:

20

THE COURT:

21

Does anyone have somebody speaking in the

(There was a brief pause in the proceedings.)

23

25

Yes.

background?

22

24

For

MR. CROSS:

It seems like it got quieter.

better?
Okay.

Let me try it again.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Is this

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1766
Filed 10/09/20
Filed 11/29/20
Page 115Page
of 119
115 of 119
000909

SEALED TRANSCRIPT
1

Dr. Halderman, the question was:

73
You said that there

2

is a clear signature for the machine to see that it is being

3

tested during the logic and accuracy testing.

4

course, is all the candidates are in the same position; right?

5

They are all selected in Position 3.

6

One example, of

Just to show the Court this is not a hypothetical

7

concern, that the malware can trick the machine during testing,

8

is there a real world example of where that has happened?

9
10

DR. HALDERMAN:

Of where malware would -- of malware

detecting such a thing?

11

MR. CROSS:

12

DR. HALDERMAN:

Yes.

Testing and then --

Detecting testing.

Well, of course,

13

the prominent example of that is the BMW -- excuse me -- the

14

Volkswagen emissions testing scandal, Dieselgate scandal, where

15

Volkswagen programmed its emission systems to detect -- they

16

were going through EPA testing and emit less pollutants under

17

those circumstances.

18

So the parallel here is detect that the ballot has

19

been marked in the same position across all races and in that

20

case don't cheat; otherwise, cheat with some probability.

21

would be -- for malware running on a BMD, that would be

22

absolutely a simple thing to program.

That

23

MR. CROSS:

Thank you, Your Honor.

24

THE COURT:

Let me just make sure I understand from

25

your perspective what this meant in terms of the testing
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1767
Filed 10/09/20
Filed 11/29/20
Page 116Page
of 119
116 of 119
000910

SEALED TRANSCRIPT

74

1

that -- in terms of the printing of ballots.

2

ballots -- let's say that there were -- because we were using

3

the example previously of four, that there would not be ballots

4

printed with -- that would reflect any other ballot choices as

5

you -- as they -- for any of the -- any of the times where

6

people had cast ballots for candidates five and onward.

7

DR. HALDERMAN:

Yes, Your Honor.

Any time -- any

My understanding of

8

the testimony we heard today is that one BMD would be used to

9

print a ballot marked in the first position across every race,

10

another the second position, another the third position, et

11

cetera and that races that had fewer than that number of

12

positions the race would just be left blank on the BMD that was

13

being tested.

14

So each BMD produces one printout that is marked in

15

one equivalent position across every race.

16

course, has the problem that for a given BMD most of the

17

possible positions that could be marked are not going to be

18

exercised all the way through being printed and being

19

tabulated.

20

And that, of

So if a particular BMD has a database that is somehow

21

corrupted and programmed differently from the other BMDs under

22

testing, the problem would not be discovered.

23

THE COURT:

All right.

24

MR. CROSS:

Not for us, Your Honor.

25

Cross.

Anything else, Counsel?
This is David

If they want to ask questions, they are welcome to.
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1768
Filed 10/09/20
Filed 11/29/20
Page 117Page
of 119
117 of 119
000911

SEALED TRANSCRIPT
1
2

MR. RUSSO:

5

Your Honor, I don't think we have any

questions.

3
4

75

THE COURT:

All right.

Well, thank you-all very

MR. CROSS:

Your Honor, I'm sorry.

much.
There was one

6

final thing that we wanted to clear up if we could.

7

sent an email in this morning.

8

THE COURT:

No, I did not.

9

MR. CROSS:

We're just trying to confirm -- Mr. Tyson

Mr. Brown

I don't know if you saw it.

10

sent in an email indicating that there was a message that went

11

out from Mr. Harvey clarifying that there were no new databases

12

coming out as opposed to a software change.

13

message went to the counties on Tuesday.

14

have -- we have multiple copies from the counties -- indicated

15

it went yesterday around the same time of Mr. Tyson's email.

16

He indicated that

The copies that we

Vincent or Carey, do you know when that actually went

17

out to the counties?

18

MR. RUSSO:

I mean, I believe that it is -- so we

19

looked at it earlier -- what Bruce sent.

20

It is a web portal.

21

accordance with what Mr. Tyson represented.

22

out the following day due to however Buzz, the program,

23

populates the email that automatically goes out.

Buzz is a webface.

So I think Mr. Harvey posted it on Buzz in

24

MR. CROSS:

25

That is all, Your Honor.

Okay.

And the email went

Thank you.
Thank you.

UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1769
Filed 10/09/20
Filed 11/29/20
Page 118Page
of 119
118 of 119
000912

SEALED TRANSCRIPT
1

THE COURT:

2

we'll be -- we'll be in touch.

3

order out this week.

4

this in front of me.

5

MR. CROSS:

Thank you, Your Honor.

6

MR. RUSSO:

Thank you, Your Honor.

All right.

Thank you very much.

76
And

I mean, I'm trying to get an

So I appreciate everyone scurrying to get

7

(The proceedings were thereby concluded at

8

11:32 A.M.)

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW
Case 1:17-cv-02989-ATECF
Document
No. 6-28,
959-4
PageID.1770
Filed 10/09/20
Filed 11/29/20
Page 119Page
of 119
119 of 119
000913

SEALED TRANSCRIPT
1

77

C E R T I F I C A T E

2
3

UNITED STATES OF AMERICA

4

NORTHERN DISTRICT OF GEORGIA

5
6

I, SHANNON R. WELCH, RMR, CRR, Official Court Reporter of

7

the United States District Court, for the Northern District of

8

Georgia, Atlanta Division, do hereby certify that the foregoing

9

76 pages constitute a true transcript of proceedings had before

10

the said Court, held in the City of Atlanta, Georgia, in the

11

matter therein stated.

12
13

In testimony whereof, I hereunto set my hand on this, the
1st day of October, 2020.

14
15
16
17
18

________________________________
SHANNON R. WELCH, RMR, CRR
OFFICIAL COURT REPORTER
UNITED STATES DISTRICT COURT

19
20
21
22
23
24
25
UNITED STATES DISTRICT COURT
OFFICIAL CERTIFIED TRANSCRIPT

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1771 Filed 11/29/20 Page 1 of 57
000914

Michigan
2020 Voting
Analysis
Report
11-27-20 (rev 11-29-20)

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1772 Filed 11/29/20 Page 2 of 57
000915

— DRAFT —

Due to the ﬂuidity of the elec4on informa4on available, this report is a living document. The authors of this
report (all unpaid volunteers) generated a sta4s4cal analysis based on limited data and even more restricted
4me constraints. As relevant new data becomes available, an update will be issued, and the revision date
changed. If any readers have data to share, comments, or correc4ons, please email them here.

Table of Contents
Executive Overview .......................................................................................3
1 - Analysis of Michigan County Vote Counts ........................................5
2 - Wayne & Oakland Counties: Finding Excessive Votes ..................8
3 - Exploring Michigan Mail-in Ballots Data ......................................14
4 - Irrational Michigan Absentee Ballot Findings ............................16
5 - Absentee Ballots Compared in Select MI Counties ....................20
6 - Analysis of a Survey of Absentee Ballot Recipients ...................23
7 - Statistical Analysis of Michigan 2020 Election ............................26
Summary ........................................................................................................ 31

Cover Graphic credit <tinyurl.com/y4wa6k3d>.

Page 2

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1773 Filed 11/29/20 Page 3 of 57
000916

Executive Overview

This scientific analysis of the reported Michigan (MI) 2020 Presidential voting
results is a non-partisan effort by unpaid citizens and volunteer experts
(several un-named). Our only objective is to play a small roll in helping assure
that all legal MI votes are counted, and that only legal MI votes are counted.
Whether Donald Trump or Joseph Biden wins is not of concern in this
analysis — the scientists involved with this report just want the election
results to truly reflect the wishes of Michigan voting citizens.
Since there are multiple reports of voting chicanery circulating the Internet, a
collection of statisticians and other scientists volunteered to examine the
reported MI results from a scientific statistical perspective.
We feel that the best way to do this is to start by putting ourselves in the
shoes of bad actors — and then considering how they might go about
changing the wishes of MI citizens, into a different result. Some of the actions
they might take are:
1 - Keep ineligible people (e.g. deceased, moved, etc.) on the voting roles.
(This would disguise actual voter participation rates, allow fabricated votes
to be submitted in their names, etc.)
2 - Get legislation passed that does not require in-person voter identification.
(This would make it easier for non-citizens, felons, etc. to vote.)
3 - Encourage a much higher percentage of voting by mail.
(This would make it much easier to manipulate, as in-person checking is a
more secure way to keep track of actual registered citizens, etc.)
4 - Discard envelopes and other identifying materials from mail-in votes.
(This makes it very hard to check for duplications, etc.)
5 - Count mail-in votes without careful signature or registration verification.
(This makes mail-in an easier choice for manipulators.)
6 - Allow votes to count that are received after Election Day.
(This can direct where mail-in votes are needed to go.)
7 - Stop vote counting for several hours before the final tabulations.
(This allows for an assessment of how many votes are “needed” etc.)
8 - Do not allow for independent oversight of voting tabulation.
(This would make it easier to lose or miscalculate actual votes.)
9 - Connect voting machines or precincts to the Internet.
(This makes it quite easy for third parties to access and change votes.)
10-Distribute vote manipulations over multiple precincts and/or counties.
(This makes the adjustments more difficult to find.)
11-Make most of the manipulations in unexpected districts.
(In other words, don’t do as much manipulation where it’s expected.)
12-Use multiple methodologies to change vote results.
(It requires a much longer investigation to find all the adjustments.)
There are undoubtedly more strategies those who are trying to control our
politics would employ — but this is a representative sample. It should also be
clear that many of these are difficult and time-consuming to find.
Page 3

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1774 Filed 11/29/20 Page 4 of 57
000917

Frequently there is documented proof of some of these voting actions (e.g.
leaving non-eligible voters on the rolls). However, these are usually dismissed
with cursory responses such as: we’re doing the best that we can, or these
deviations are not statistically significant, or our rolls are as accurate as other
states, or there are some benefits for doing this (e.g. #3 & #6 above), etc.
However, studies like this and reports like this do not instill confidence that
election results actually reflect the wishes of actual citizens.
So what can we do as scientists? Clearly we can’t verify the legitimacy of every
Michigan vote submitted. On the other hand, we can (from a scientific
perspective along with with sufficient data) provide a statistically strong
assessment that reported votes in certain locations are statistically unusual.
Such a determination should be treated as an indication that some type of
accidental or purposeful manipulation almost certainly occurred.
Such a science-based statistical analysis can not identify exactly what
happened — or prove that fraud was involved. Honest mistakes, unintentional
computer glitches, etc. can and do happen.
We approached this project assigning different experts to look at the Michigan
data from different perspectives. By-and-large the experts worked mostly
independently of each other. As a result, there may be some overlaps in the
analyses in the following “chapters.”
All of the experts agreed that there were major statistical aberrations in some
of the Michigan results that are extremely unlikely to occur naturally.
Using more conventional statistical analyses, we identified nine counties with
abnormal results (see Chapter 1). Due to time, data and manpower
limitations, for this Report we focused on the statistical analysis for the worst
two counties. As scientists (not attorneys) our non-legal recommendation is
that both of those Michigan counties have proper recounts
If the results of an accurate recount are that there is no significant change in
voting results for those two counties (very unlikely), then the authors of this
report recommend that we write off those county deviations as an extreme
statistical fluke, and that the Michigan voting results be certified.
On the other hand, if the results of an accurate recount are that there are
significant changes in voting results for either of these two counties, then the
authors of this Report recommend that (as a minimum) that the next seven
statistically suspicious counties also have an accurate recount, prior to any
certifying of the Michigan voting results.
See Summary on the final page, for more conclusions. (Note: we did a report
with similar analyses for Pennsylvania. Contact the undersigned for a copy.)
— Editor, physicist John Droz, jr. 11-28-20
Page 4

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1775 Filed 11/29/20 Page 5 of 57
000918

1 - Analysis of Michigan County Vote Counts
S. Stanley Young, PhD, FASA, FAAAS, 11-25-20
Summary:
People today generally vote as they have done in the past. If a voting pattern
changes, is it a slight shift, or are large changes occurring in a small number of
locations? Our idea is to look at relative vote changes in counties within Michigan.
How does Biden vs Trump2020 compare to Clinton vs Trump2016? There could be
slight shifts that accumulate across the state, or there could be major changes in a
relatively few counties. We use contrasts to examine voting results. We find vote
changes are modest for the bulk of MI counties: less than 3,000± votes. However,
there are nine counties with much larger changes in votes, up to 54,000±.
Item 1 —
Consider Biden vs Trump2020 compared to Clinton vs Trump2016.
Contrast = (Biden – Trump2020) – (Clinton – Trump2016)
Here is the distribution of Contrast:

Examine the left side of the above chart. There we see an approximate bell-shaped
distribution, which is normally what would be expected. The Contrast (change in
votes for Biden vs Trump relative to Clinton vs Trump) for almost all counties is
within the range of plus or minus 3000± votes.
The outliers (numbers unusual relative to the rest of the data) are on the right of
the chart, where Biden bested Trump much more than Clinton bested Trump.
Page 5

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1776 Filed 11/29/20 Page 6 of 57
000919

Item 2 —
Here we rank contrasts from largest to smallest for all Michigan counties.

In the above histogram, each dot is one MI county. In 74 of 83 MI counties, the
differential is small (near zero) implying that for the vast majority of counties,
voters considered Biden vs Trump2020 much like they considered Clinton vs
Trump2016. On the left side of the histogram are the nine (9) outliers — i.e.
counties with numbers that substantially deviate from the main distribution.

These nine counties together substantially increase the vote count for Biden. For
instance, in the first two of these counties (Wayne and Oakland), the differential
(contrast) swing for Biden amounts to 96,000± votes.
Page 6

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1777 Filed 11/29/20 Page 7 of 57
000920

The remainder of the nine outlier counties (ranks 3 to 9 on the spreadsheet above)
represent an additional 95,000± excess votes for Biden, compared to Clinton vs
Trump. (For example, Trump bested Clinton in Kent county by 10,000± votes but
lost to Biden by 22,000± votes, for a net swing of 32,000± votes.) The total
unexpected votes for Biden in the nine Michigan outliers is 190,000± votes.
Item 3 —
Here is another anomaly that indicates suspicious results. The first set of plots
compare Trump’s election day votes to his mail-in votes, for each county. As would
be expected, the distributions are quite similar. The second set of plots compare
Biden’s election day votes to his mail-in votes, again for each county. As is easily
seen, the distributions are very different. This is a serious statistical aberration.

CONCLUSIONS: The distribution of Item 1, and the magnitude of the
differentials in Item 2, and the statistically deviant patterns in Item 3, are all
statistically improbable relative to the body of the data.
Page 7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1778 Filed 11/29/20 Page 8 of 57
000921

2 - Wayne and Oakland Counties:
Finding Excessive Votes in 2020,
Well Outside Their Voting History
(condensed version: full version available)
Dr. Eric Quinnell, Dr. Stanley Young
11/26/2020

Contents

Executive Summary
Wayne County/Oakland Buck the Trend
Wayne County
Oakland County

8
8
9
12

Executive Summary

Analysis – A statistical team of unpaid citizen volunteer scientists, mathematicians, and engineers
collaborated in a statistical vote analysis in the Pennsylvania 2020 Presidential Election, after having worked
originally as individuals on various vote analysis across the country. Following the PA report (available on
request), the collaboration team netted steep learning curves in analysis and methods, and produced a
mathematically based predictive model to reverse engineer vote differential signatures. This now much
more robust model is re-applied to Michigan.
Using simple linear regression of unproblematic voting districts, we predict hypothetically problematic
voting districts. Using distributional characteristics within problematic counties, we point to problematic
districts and precincts.
Findings – Two Michigan counties stand out as problematic, Wayne and Oakland Counties, 40,000 and
46,000 estimated excessive votes, respectively. Problematic districts and precincts within these counties
exhibit unusual Democrat/Republican (D/R) ratios relative to their history and excessive vote in favor of
Biden often in excess of new Democrat registrations.

Wayne County/Oakland Counties Buck the Trend

A bi-variate (two variable) trend-line across all Michigan counties (see next page) identify Wayne County
and Oakland County as behaving well outside the trends of the rest of the state in 2020. Wayne and
Oakland counties also stood out from the analysis done in another section of this report (see Page 6). Thus,
these two counties were selected for deeper analysis.

Page 8

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1779 Filed 11/29/20 Page 9 of 57
000922

Wayne County
A bi-variate linear fit of the Trump and Biden votes in 2020 Wayne County show major precincts
completely off the charts as compared to the majority of the other precincts in the same county. The
points exceedingly off the fit are mostly those in the Absentee Vote Counting Board (AVCB) districts.
Several others outside of Detroit also buck the trend of the rest of the area.

The AVCB mail-in districts within Detroit have no ability to correlate with the precincts inside the city, so a
historical voting pattern per precinct is not possible. There is also no indication that the AVCB distributions
include the same precincts from year to year, so therefore there is no way to link AVCB in obvious ways.
Instead, we first looked at the remainder of Wayne County. Outside the city we have much more history
and can observe both mail-in votes as well as election day votes correlated to a precinct with history.
Page 9

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1780 Filed 11/29/20 Page 10 of 57
000923

Outside Detroit, Wayne County shows a significant disruption or new vote distribution well outside the
2016 norm. Specifically, both candidates achieved the total 2016 vote count and added to their sums,
consistent with new turnout. What’s curious is that above the 2016 totals, a new vote ratio appears in
contrast to the history of the area – showing new votes going 70% Democrat vs 30% Republican – a 15point mismatch to the same area just in the last Presidential Election.

Voting totals of precincts may presume to follow a semi-normal distribution with enough data points. By
fitting a normal distribution to actual data and taking the difference between the fitted and actual,
potentially anomalous precincts can be identified. Using a per-precinct history, we can take an election
result like this:

And identify anomalous precincts. We forced the anomalous precincts back to their voting history ratios
and adjust to keep pace with the 2020 turnout. This results in this prediction:

Which helps us identify several townships outside Detroit in Wayne County that significantly stick out. A
partial list of main townships that show excessive votes vs a standard normal with reasonable variance:
Townships

Excessive Votes

Page 10

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1781 Filed 11/29/20 Page 11 of 57
000924

As an example of the excess vote gains above the norm, consider the Township of Livonia, broken into
precincts. Nearly every single precinct first achieves the entire 2016 vote total for each party, but then a
new population of votes skews excessively in favor of the Biden camp – resulting in a “new vote
population” that is voting 76 D / 24 R — in a 2016 Republican township.
Additionally, the votes gained by Biden well outpace even the new registrations in the township – gaining
151% of the new registered voters and 97% of the new votes above 2016. This result/example is incredibly
mathematically anomalous.

Page 11

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1782 Filed 11/29/20 Page 12 of 57
000925

Oakland County
Oakland shares the Wayne County mathematical deviance of being well outside the norm. In Oakland all
votes added by both candidates above the 2016 take show a new vote ratio of 72% Democrat to 28%
Republican – an 18-point mismatch to the same area just since the last Presidential Election.

As mentioned, voting totals of precincts may presume to follow a normal distribution. By fitting a normal
distribution to actual data and taking the difference between the fitted and actual, potentially anomalous
precincts can be identified. Using a per-precinct history, we can take an election result like this

and identify anomalous precincts. Should we peel those anomalies back to the voting history ratios and
keep pace with the 2020 turnout, we get this prediction:

This helps us identify several townships in Oakland County that significantly stick out. This is a partial list of
main townships that show unexpected deviations:
Townships

Excessive Votes

Page 12

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1783 Filed 11/29/20 Page 13 of 57
000926

As an example of the excess vote gains above the norm, consider the Township of Troy, broken into
precincts. Nearly every single precinct first achieves the entire 2016 vote total for each party, but then a
new population of votes skews excessively in favor of the Biden camp – resulting in a “new vote
population” that is voting 80 D / 20 R — in a 2016 almost evenly split Dem/Rep township.
Additionally, the votes gained by Biden well outpace even the new registrations in the township – gaining
109% of the new registered voters and 98% of the new votes above 2016.
This situation is yet another example that is incredibly mathematically anomalous.

Page 13

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1784 Filed 11/29/20 Page 14 of 57
000927

3 - Exploring Michigan 2020 Mail-In Ballots Data
Robert Wilgus 11/27/20

The 2020 election data for Michigan mail-in ballots was provided as a large file obtained via an FOIA. The
data was perused for anomalies that stood out. A more comprehensive analysis is appropriate and that is
what has been arranged (see Conclusions).
The data file contains 19 fields for each mail-in application. The fields can be text, numbers, or dates. My
understanding of the process is that certain voters (not sure how they were determined) were sent a
form to request a mail-in ballot.
The data available captures the process from when the application was sent. The total of requested
absentee ballots is 3,507,129. The table below contains measures that merit further investigation:

Ballots did not get sent to about 36,000 of the requests received. It’s not clear what the
reason(s) were for this (e.g. faulty address, etc.). The ballot can be marked as Rejected or
Spoiled. Spoiled ballots (incomplete?) and Rejected ballots (duplicates?) add up to about
135,000 ballots that got tossed. That seems like a lot.
The data also includes the voter’s year of birth. One is 170 years old, likely an error but their
applicahon was not rejected. In total more than 1400 of these absentee voters are over 100
years old. These could well be nursing home pahents.
Page 14

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1785 Filed 11/29/20 Page 15 of 57
000928

There are 217,271 applicahons without a recorded date (i.e. never received back). More
intereshng is the 288,783 that have the applicahon sent and ballot received on the same day.
Maybe these are one stop vohng and get recorded with the mail in ballots? The table below
contains other date related ﬁndings:
.

The ballots rejected doesn’t provide any addihonal informahon for what the reason was. It
does appear that the majority of ballots received ajer Nov-3 did fall into this category.

The last but not least is the spoiled ballots. There is a lot of them. In the ﬁrst table there are
8,341 duplicate Voter ID. I would expect these were the ‘spoiled’ ones that got new ballots.
There is another column in the table named SPOILED_IND that means spoiled by the
individual. It has values ‘N’ or is not entered.
There is also very small number that are both rejected and spoiled

CONCLUSIONS: There are numerous measures in the mail-in ballot data that warrant further
investigation. This is surprising because there are very few field values with obvious errors. The records
with multiple empty fields are of concern. Additional information is also needed for the high number of
applications and ballots with the same and returned dates
Because of the importance of this file we recently shared it with a firm that specializes in data analytics of
very large databases, to see what they can tease out if it. We are looking forward to some interesting
analyses.
Page 15

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1786 Filed 11/29/20 Page 16 of 57
000929

4 - Irrational MI Absentee Ballots Findings
Thomas Davis, 11/28/20
All American cihzens, regardless of party aﬃliahon, should be concerned about the integrity of
of our elechon process. If cihzens no longer determine who their representahves are, the
United States is no longer a Republic. Accordingly, post-elechon scruhny of suspicious results is
not only appropriate, but required.
It is unsurprising that absentee vohng in 2020 occurred at a much higher rate than in previous
years. (For example, in Kent County Michigan there were 69,000,± absentee voters in 2016,
and 211,000± in 2020 – a threefold increase.) The COVID-19 virus undoubtedly had a direct
impact on the strong move to absentee vohng across the nahon. In Michigan, there were two
addihonal major contribuhng factors: 1) voters approved a no-reason absentee vohng law in
2018, and 2) Secretary of State Jocelyn Benson sent absentee vohng applicahons to all 7.7
million registered Michigan voters this past summer.
When stahshcs in Michigan showed especially high numbers of absentee votes for Biden, it
didn’t raise many red ﬂags. Ajer all, the Democrahc party had encouraged people to vote
absentee, while the Republican party had encouraged vohng in-person (since ballots could be
lost in the mail). However, a closer look at absentee vohng (from the select Michigan counhes
that publish detailed vohng stahshcs) appears to tell a diﬀerent story.
Let’s start by showing what normal (non-manipulated) absentee vohng results should be. The
plot below is the percentage of absentee ballots received by each 2016 presidenhal candidate
in Ingham County (Michigan), by precinct (Red = R and Blue = D). Note the irregularihes that
occur: some precincts are higher for R, some are higher for D. More importantly, the diﬀerence
between the two (R minus D) varies widely — from plus to minus. In other words: neither the
red line nor the blue line has a discernible paTern. This is what a normal result looks like!

Page 16

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1787 Filed 11/29/20 Page 17 of 57
000930

Now we’ll look at Ingham County for 2020. (Note that Ingham is one of the top nine Michigan
counhes exhibihng 2020 vohng irregularihes [see page 6], and one of the few that has such
data currently available.) Except for one outlier, the percentage of Democrahc absentee voters
exceeds the percentage of Republican absentee voters in every precinct. Even more
remarkable (and unbelievable): these two independent variables appear to track one another.

DEM% (blue) = # of absentee votes for Biden / total # of Biden votes
REP% (red) = # of absentee votes for Trump / total # of Trump votes
There is no apparent legihmate explanahon for the two absentee lines to be tracking each
other like that — other than it being due to a computer algorithm (sojware program).
Just so the reader is not lej with the mistaken impression that Ingham County is some
excephon, we’ll look at two others on the list of nine problemahc Michigan counhes. (We
would have liked to do more, but the data is not available.) Here is another stunning
comparison: Oakland County in 2016 (below). What the following shows is that Oakland
County exhibited a normal absentee pawern for the 2016 Presidenhal elechon.

Page 17

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1788 Filed 11/29/20 Page 18 of 57
000931

Now look at what happens in 2020. Although Oakland County has 4± hmes more voters than
Ingham County, this same arhﬁcial pawern can again be seen in the 2020 Presidenhal elechon
results below — albeit somewhat less clearly, as there are more data points (i.e. precincts):

You should be gexng the idea now, so just one more example from the list of most
problemahc Michigan counhes in 2020: Macomb. The ﬁrst is the expected relahvely normal
plot that occurs in 2016. Below that is the stahshcally tell-tale plot from 2020.

Page 18

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1789 Filed 11/29/20 Page 19 of 57
000932

For stahshcal junkies, here are two other perspechves on one of these counhes. (We have the
plots for the others menhoned above, and they are similarly deviant.) The point is that there
are always mulhple ways to stahshcally look at data, so we tried two addihonal methodologies
here. The inescapable conclusion is the same for all three types of analyses: the 2016 results
look reasonably normal — while the 2020 results look arLﬁcial.

Conclusion: This is very strong evidence that the absentee vohng counts in some counhes in
Michigan have likely been manipulated by a computer algorithm. The comparison of the 2020
results to the normal 2016 elechon data is dramahc.
If no other plausible explanahon can be made for these unexpected ﬁndings, it appears that
this computer sojware was installed somehme ajer the 2016 Presidenhal elechon.
On the surface it would seem that the tabulahng equipment in infected precincts has been
programmed to shij a percentage of absentee votes from Trump to Biden. An accurate handcount of absentee ballots from a sampling of precincts might be helpful.
Assuming that that any sojware inserhons haven’t been undone, it would also be advisable
that for at least the three counhes highlighted here, a forensic analysis (of the tabulahng
equipment and compiling codes) by independent experts would be required for deﬁnihve
proof of malfeasance.
Page 19

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1790 Filed 11/29/20 Page 20 of 57
000933

5 - Michigan Absentee Ballots:
Several Key Counties Compared
Dr. William M. Briggs, 11/26/20

Data from counhes in Michigan where absentee votes by candidate were available were
gathered. The counhes were (alphabehcally): (1) Eaton, (2) Grand Traverse, (3) Ingham,
(4) Leelanau, (5) Macomb, (6) Monroe, (7) Oakland, and (8) Wayne.
In Eaton and Oakland votes could be either straight party (e.g. choose all Democrats for all
contests) or variable ballots (e.g. choose candidates individually). These were treated
separately.
The data sources are: Eaton (XML), Grand Traverse (PDF), Ingham (PDF), Leelanau (PDF),
Macomb (HTML), Monroe (PDF), Oakland (XML), and Wayne (PDF).
The percent of the total vote for each candidate (not the overall total, but the candidate total)
that was absentee was calculated across each precinct or district within each county. The data
within a county was sorted by the absentee percentages for Biden, low to high, for display ease.
Next, we plot the percent absentee votes for both Biden (D:blue) and Trump (R:red). See below
for examples of two large counhes. (For the same types of graphs of more Michigan counhes
see here.) The precinct numbers are here arbitrary, and reﬂect the sorhng of the data.

Page 20

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1791 Filed 11/29/20 Page 21 of 57
000934

Almost never does the percent of absentee ballots cast for Trump exceed the percent cast for
Biden. There are only rare excephons, such as in very small precincts where we'd expect totals
to be more variable.
If absentee vohng behavior was the same for those vohng for Trump and Biden, the chance
that absentee ballots for Biden would almost always be larger would, given the large number
of precincts here, be vanishingly small.
Thus, either the absentee vohng behavior of those vohng for Biden was remarkably
consistently diﬀerent, or there is another explanahon, such as manipulahon of totals.
More proof of this is had by examining the rahos of absentee ballot totals in each precinct. See
below for examples of the same two large counhes. (For the similar graphs of more Michigan
counties see here.) Again, the precinct numbers are arbitrary and reflect the same sorting as before.

Only 36 precincts out of the 2,146 examined had 0% absentee ballots. These are obviously not
shown in the ﬁgures (because of divide-by-zero possibilihes). As menhoned, the raho of Biden
to Trump absentee votes is astonishingly consistent. The mean raho inside each county is
printed in the ﬁgure, along with the number of precincts.
If vohng behavior was similar for both candidates, we'd expect this raho to be 1, with some
variability across precincts, with numbers both above and below 1. Instead, the rahos are
almost always greater than 1, and with a hght mean about 1.5 to 1.6 or so. This indicates the
oﬃcial tallies of absentee ballots for Biden were about 50-60% higher almost everywhere, with
very liwle variahon, except in smaller counhes were the raho was slightly higher.
Page 21

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1792 Filed 11/29/20 Page 22 of 57
000935

Such behavior could be genuine, or programmahc changes of the votes could be the
explanation of these unusual results. The data here is more consistent with the later hypothesis.
Across all counhes there are 2,145 precincts. If Democrat and Republican absentee- vohng
behavior was the same on average, then the probability the number of Democrat absentee
ballots would exceed the number of Republican absentee ballots would be 0.5, or 50%. We can
then plot a probability for every possible number of precincts where Democrats outnumber
Republicans.
This is pictured below. The actual number of D > R precincts is 2,103. The probability this
happens assuming equal behavior is about 10^-557, a very small number, equivalent to
winning the Powerball lowery about 65 hmes in a row.

Page 22

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1793 Filed 11/29/20 Page 23 of 57
000936

6 - An Analysis of Surveys Regarding Absentee
Ballots in Several States (including Michigan)
Dr. William M. Briggs, 11/23/20
1: Summary
Survey data was collected from individuals in several states, sampling those who the
states listed as not returning absentee ballots. Data was provided by Matt Braynard.
The survey asked respondents whether they (a) had ever requested an absentee ballot,
and, if so, (b) whether they had in fact returned this ballot. From this sample I produce
predictions of the total numbers of: Error #1, those who were recorded as receiving
absentee ballots without requesting them; and Error #2, those who returned absentee
ballots but whose votes went missing (i.e. marked as unreturned).
The sizes of both errors were large in each state. The states were: Arizona, Georgia,,
Michigan, Pennsylvania, and Wisconsin.
2: Analysis Description
Each analysis was carried out separately for each state. The analysis used (a) the
number of absentee ballots recorded as unreturned, (b) the total number of people
responding to the survey, (c) the total of those saying they did not request a ballot,
(d) the total of those saying they did request a ballot, and of these (e) the number
saying they returned their ballots.
From these data a simple parameter-free predictive model was used to calculate the
probability of all possible outcomes. Pictures of these probabilities were derived, and
the 95% prediction interval of the relevant numbers was calculated. The pictures for
Michigan appear in the Appendix at the end. (Other states are available on request.)
They are summarized here with their 95% prediction intervals.
Error #1: being recorded as sent an absentee ballot without requesting one.
Error #2: sending back an absentee ballot and having it recorded as not returned.

Page 23

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1794 Filed 11/29/20 Page 24 of 57
000937

Ballots that were not requested, and ballots returned and marked as not returned were
classified as troublesome. The estimated average number of troublesome ballots for
each state was then calculated using the table above and are presented here:

3: Conclusion
There are clearly a large number of troublesome ballots in each swing state
investigated. Ballots marked as not returned that were never requested are clearly an
error of some kind. The error is not small as a percent of the total recorded unreturned
ballots.
Ballots sent back and unrecorded is a separate error. These represent votes that have
gone missing, a serious mistake. The number of these missing ballots is also large in
each state.
Survey respondents were not asked that if they received an unrequested ballot whether
they sent these ballots back. This is clearly a possibility, and represents a third possible
source of error, including the potential of voting twice (once by absentee and once at
the polls). No estimates or likelihood can be calculated for this additional potential
error due to absence of data.

(See next page for an Appendix to this chapter…)

Page 24

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1795 Filed 11/29/20 Page 25 of 57
000938

4: Appendix
The probability pictures for Michigan for each outcome as mentioned above.
Probability of numbers of un−requested absentee ballots listed as not returned for Michigan:

Probability of numbers of absentee ballots returned but listed as not returned for Michigan:

Page 25

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1796 Filed 11/29/20 Page 26 of 57
000939

7 - Statistical Analysis of Michigan 2020 Election
(condensed version: full version available)
Dr. Louis Bouchard
11/28/2020
Synopsis - Elechon results for the state of Michigan (MI) were analyzed for potenhal
anomalies. The state of Florida (FL) is used as reference for comparison, as the elechon results
show a hght race for both states. Therefore, one would assume that the vote counts should be
similar, at least on average. Two such anomalies have been idenhﬁed: (1) The rates vote
counts is signiﬁcantly lower for Trump than Biden (even when normalized to the total vote
count), indicahng the possibility of pro-Biden systemahc bias (weighted vote count); and
(2) StaLsLcally impossible “jumps” in the vote counts are found in Biden’s favor for Michigan.
Methodology - Edison Research elechon data was downloaded from the New York Times
website on Nov. 25, 2020 and analyzed in MATLAB 2019b. (The MATLAB code and JSON ﬁles
are available on request.) We used the state of FL as reference for comparison because no
serious allegahons of elechon fraud have been made to date for FL. The hme axis for each state
is as follows:
FL: from 2020-11-04 06:43:00 to 2020-11-20 14:16:04
MI: from 2020-11-04 10:00:04 to 2020-11-24 02:28:05
To simplify things, in the graphs below hme is reported as “batch”, which roughly speaking
corresponds to hme. We use “hme” and “batch” interchangeably in this document.
Our approach consists of analyzing the stahshcs of votes added from batch to batch. The
rahonale is that with each batch, the votes added enables us to study the potenhal occurrence
of anomalous “jumps”. These jumps are denoted here as: ∆ Trump and ∆ Biden.
Analysis of Sta4s4cal Anomalies - Figure 1 (next page) shows the results for Florida. The four
graphs shown are: [top leW] cumulahve vote count (Trump vs Biden) as funchon of hme
(batch), [top right] votes added (“jumps”) at each batch divided by the hme interval between
consecuhve batches (i.e. “velocity” of vote counts, denoted ∆ Trump and ∆ Biden), [boXom
leW] correlahon analysis of Biden jumps vs Trump jumps and [boXom right] plot of the
residuals. “Residuals” is deﬁned as the diﬀerence between Biden and Trump votes added
(∆ Biden-∆ Trump) for each batch.

Page 26

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1797 Filed 11/29/20 Page 27 of 57
000940

On the average, we expect Trump/Biden jumps to be of the same order of magnitude for each
candidate. Wild diﬀerences in magnitudes, and especially ones that favor a parhcular
candidate, are signs of potenhal anomalies. When the race is hght, we expect the points to lie
along the diagonal red line, indicahng that the jumps in vote counts are similar between both
candidates. Deviahons from the diagonal may indicate anomalous jumps.
As can be seen in the correlahon plot, and to a larger extent in the residuals plot, stahshcally
anomalous jumps are all in Biden’s favor. A jump of magnitude shown by the green line
[boXom right] is stahshcally impossible: the odds of this happening are 1 in 1023. We see two
such jumps in the FL data, both in Biden’s favor.

Figure 1. State of Florida elechon hme series analysis (a reference).
Page 27

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1798 Filed 11/29/20 Page 28 of 57
000941

For the Michigan elechon (Figure 2, next page) there is one stahshcally impossible jump to the
level shown by the horizontal green line [boXom right]. The odds of this happening are 1 in
10117. This “impossible” jump also happens to be in Biden’s favor.
We note that for both states, the largest jumps are not only stahshcally impossible, but all
happen to be in Biden’s favor. For Michigan the jump occurs ajer the elechon (towards the
end of the count). In the case of Florida, the anomalous jumps occur earlier in the count.
These “impossible” Biden jumps are found at the following hme stamps in the EDISON data:
MI: 2020-11-04 11:31:48 (+141,257 votes),
FL: 2020-11-04 00:32:23 (+435,219 votes) and 2020-11-04 00:38:40 (+367,539 votes)

Figure 2. State of Michigan elechon hme series analysis.
Page 28

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1799 Filed 11/29/20 Page 29 of 57
000942

Analysis of Sta4s4cal Bias in Votes Added - Focusing on Michigan, Fig. 2 (top right plot) shows
results for votes added (including any jumps) for both candidates. We ﬁnd that the votes
added for Biden are systemahcally higher, i.e. there are considerably more events of the type
∆ Biden-∆ Trump > 0. While this behavior may be expected for a “blowout race” where one
candidate gets a much higher vote count than the other, it is unexpected in a race this close.
To quanhfy the bias and likelihood of such an unlikely event, we require a reference race to use
for comparison purposes. We will use the race in FL because the results are also close (51.2%
Trump, 47.9% Biden) and the FL elechon has not yet been contested to our knowledge.
Figure 3 presents an alternahve way to plot the results of Fig. 2 (top right). This plot shows the
Biden curve consistently above the Trump curve. As shown by the yellow regions, across more
than 90% of the frequency axis, votes added for Biden are consistently higher than those of
Trump. This is indicahve of bias in the way votes are added: either the vote count for Biden is
arhﬁcially inﬂated at every batch, or those of Trump are systemahcally depressed.

Figure 3. Comparison of stahshcal bias in the votes added for Michigan.
Verhcal axis indicates votes added (for each candidate). Horizontal axis is frequency of
batches. This plot, technically called “power spectral density (PSD)”, depicts how frequently
such a vote-added count pawern occurs in the hme series.

Page 29

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1800 Filed 11/29/20 Page 30 of 57
000943

Quanhﬁcahon of the likelihood of such bias to occur was done using a reference hme series.
FL results were used as reference. A stahshcal test comparing the mean votes added (for MI vs
FL) concluded that for Biden, the means are not stahshcally diﬀerent, implying that the votes in
MI likely have been counted using the same method as in FL.
On the other hand, the test found signiﬁcant diﬀerences in the way Trump votes in MI were
added compared to FL. This could imply: Biden vote counts were inﬂated, or Trump vote
counts were depressed. The odds of this outcome are 1 in 1,000, an unlikely occurrence. This
stahshcal test used all data points in the hme series and the mean value of each hme series is
dominated by small jumps, which happen most frequently (see Figures 1 and 2, top right).
We also compared the “tails” of the distribuhons between MI and FL, i.e. the larger jumps
found in the hme series of ∆ Biden and ∆ Trump (Figs. 1-2, top right plots). These large jumps
contain informahon about rare events, i.e. stahshcal anomalies. By considering the votes
added that correspond to large jumps, we analyzed the behavior of large jumps while
discarding the small jumps.
Our analysis found that the stahshcs of Biden large jumps in MI did not diﬀer from those in FL.
On the other hand, the analysis found that the stahshcs of Trump large jumps in MI diﬀered
from those in FL. The odds of this happening are 1 in 1010, a stahshcal impossibility.
Conclusions - Stahshcally impossible jumps in the Biden vote counts were found in the hme
series of elechon results. For one of these jumps (MI elechon, +141,257 votes for Biden added
during a single hme interval), its odds of happening were 1 in 10117, a vanishingly small
probability. We also found systemahc bias in the way votes were counted, favoring Biden.
With high certainty, Trump vote counts were depressed (or, Biden vote counts were inﬂated).
This bias was conﬁrmed using mulhple methods1. These stahshcally unlikely events in the
Michigan elechon all favored Biden. Our analysis is stahshcal and based on the EDISON hmes
series2. It also uses Florida as a reference state for stahshcal analysis.
We recommend further inveshgahons of the root causes of these anomalies.

1A

more detailed report is available upon request.
dataset exhibited small occasional drops in candidates’ vote counts, but the drops were small and neglected in our analysis;
their presence does not alter our analysis and conclusions.

2 EDISON

Page 30

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1801 Filed 11/29/20 Page 31 of 57
000944

Summary

Several nahonally recognized stahshcal experts were asked to examine some 2020
Michigan vohng records, and to idenhfy anything that they deemed to be stahshcally
signiﬁcant anomalies — i.e large deviahons from the norm.
In the process they basically worked separately from other team members, consulted
with other experts, analyzed the data they were given from diﬀerent perspechves,
obtained some addihonal data on their own, etc. — all in a very limited hme allotment.
Their one — and only — objechve was to try to assure that every legal Michigan vote is
counted, and only legal Michigan votes are counted.
The takeaway is that (based on the data ﬁles they were examining) these experts came
to one or more of the following conclusions:
1) There are some major stahshcal aberrahons in the MI vohng records, that are
extremely unlikely to occur in a normal (i.e. un-manipulated) sexng.
2) The appearance of sojware manipulahon (Chapter 5) is most troubling.
3) The anomalies almost exclusively happened with the Biden votes. By comparison,
the Trump votes looked stahshcally normal.
4) Nine (out of 83) Michigan counhes stood out from all the rest. These counhes (see
Page 6) showed dishnchve signs of vohng abnormalihes — again, all for Biden.
5) The total number of suspicious votes in these counhes is 190,000± — which greatly
exceeds the reported margin of Biden votes over Trump. (We don’t know how
many of these are arhﬁcial Biden votes, or votes switched from Trump to Biden.)
6) These stahshcal analyses do not prove fraud, but rather provide scienhﬁc evidence
that the reported results are highly unlikely to be an accurate reﬂechon of how
Michigan cihzens voted.
As stated in the Executive Overview, our strong recommendation is that (as a minimum):
the two worst of the nine abnormal MI coun4es have an immediate recounts.
If the results of an accurate recount are that there is no signiﬁcant change in vohng results for
those two counhes (very unlikely), then the authors of this report recommend that we write
oﬀ those county deviahons as an extreme stahshcal ﬂuke, and that the Michigan vohng results
be cerhﬁed.
On the other hand, if the results of an accurate recount are that there are signiﬁcant changes
in vohng results for either of these two counhes, then the authors of this Report recommend
that (as a minimum) that the next seven stahshcally suspicious counhes also have an accurate
recount, prior to any cerhfying of the Michigan vohng results.
Page 31

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1802 Filed 11/29/20 Page 32 of 57
000945

Declaration of Thomas Davis
Pursuant to 28 U.S.C Section 1746, I, Thomas Davis, make the
following declaration.
1. I am over the age of 21 years and I am under no legal disability,
which would prevent me from giving this declaration.
2. My training and experience are in Information Technology (IT). I
earned a B.S. in Computer Science from Michigan State University
(MSU) and the bulk of my career was spent working in the central IT
department at MSU. I retired in 2015 and now own and operate a
small IT consulting business (TechWise).
3. I reside at 661 S. Edgar Road, Mason, MI 48854
4. My affidavit highlights the percentage of absentee voting that each
major party presidential candidate received in the Michigan 2020
election.
5. News of a voting “glitch” in Antrim County MI caught my attention.
In an effort to learn about what happened, I went to the Internet in
search of the backstory. Given today’s world full of misinformation, I
kept digging until I was satisfied with the answer.
6. In resolving the Antrim County question satisfactorily, I stumbled
upon a report of statistical anomalies regarding straight-party voting
in Kent County MI. This piqued my interest enough that I went to
the county website, downloaded the election results, and massaged
them into Excel. I was able to reproduce the scatter graph (as seen
on the Internet) but was not convinced that it represented anything
anomalous about the presidential election (as reported).

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1803 Filed 11/29/20 Page 33 of 57
000946

7. Poking around in the Kent County voting data, I noticed that John
James (the Republican senate candidate) received a much higher
percentage of votes than Donald Trump (the Republican presidential
candidate). This intrigued me enough to keep digging.
8. I discovered that several Michigan counties use the same system to
publish voting results – electionreporting.com – so downloaded these
PDF datasets. Reports of potential voting irregularities in various
locations prompted me to peek into voting data from Georgia where I
learned about clarityelections.com (all counties in Georgia publish
their results on this website). A nice feature of this site is that data
can be downloaded directly into Excel for analysis.
9. Turning my focus back to Michigan, I found that Oakland County
publishes voting results (for multiple years) on clarityelections.com
so downloaded the data into Excel and began poking around. This
dataset included details about absentee voting and, in examining
these data, stumbled upon the seemingly anomalous fact that the
percentage of Democrat absentee voters exceeded the percentage of
Republican voters in every precinct. This was remarkable. I then
looked at the 2016 election data and found no similar anomaly.
10.

Being particularly interested in my home county, I learned that

Ingham County publishes detailed voting results (in PDF format).
After loading these data into Excel and looking at absentee voting
percentages, I found the same pattern as Oakland (with one outlier).
11.

Increasingly convinced that these were evidence of algorithmic

manipulation of voting results, I visited the websites of all 83
Michigan county websites in a quest for voting data. Eight counties

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1804 Filed 11/29/20 Page 34 of 57
000947

publish detailed results which include absentee voting by precinct
(Eaton, Grand Traverse, Ingham, Leelanau, Macomb, Monroe,
Oakland, and Wayne) and I created Excel spreadsheets for each. The
absentee voting pattern was evident in all cases.
12.

I subsequently created line graphs for each of the eight counties

and pasted them into a single PDF document. As reports of potential
voting irregularities continued, I began looking for ways to publish
my findings. I learned of Sidney Powell’s lawsuit in Michigan and, in
reading the filing, came across the name William M. Briggs. Having
never heard of him before, I tracked down his website and provided a
copy of my graphs via the “Contact Us” form.
13.

William M. (Matt) Briggs put me in contact with John Kroz and I

subsequently provided my data and graphs to his team of experts. I
also wrote a chapter of the team report which described my findings.

Thomas Davis
November 28, 2020
Mason, MI

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1805 Filed 11/29/20 Page 35 of 57
000948

Thomas D. Davis
661 S. Edgar Road, Mason, MI 48854 | tom@mytechwise.com | 517-881-3578

Summary
 IT executive with diversified experience delivering services that benefit a broad range of end-users
 Well-rounded leader skilled in developing effective teams, processes, and organizational structures
 Team player with results orientation and outstanding communication and interpersonal skills

Experience
Techwise Consulting, LLC (Mason, Michigan)
Organizer and Sole Member — February 2017–Present
 Expert technology solutions and support for small businesses and individuals
Lansing Board of Water and Light (Lansing, Michigan)
Director of Information Technology — July 2015–May 2016
	Overall responsibility for portfolio of IT systems and networks
 Established governance to provide oversight of IT projects and services
 Rebuilt trust and collaboration between IT and business units
MICHIGAN STATE UNIVERSITY (East Lansing, MICHIGAN)
Assistant VP, Information Technology Services — September 2014–June 2015
	Oversaw $20M enterprise research administration project
 Directed team of functional and technical experts implementing complex software system
 Interfaced with senior executives to ensure functional and strategic alignment of project
Acting CIO, Information Technology Services — March 2013–August 2014
 Management and oversight of MSU’s $60M central IT Services organization
	Formulated and executed plans for major IT projects and service improvements
 Developed, maintained, and applied policies and guidelines pertinent to IT resources and assets
 Engaged with senior executives and governance groups relevant to the position
Deputy CIO, Information Technology Services — March 2012–February 2013
	Led planning activities for central IT unit consisting of eight departments and 340 employees
 Built highly collaborative working relationships between central IT and distributed IT units
 Restructured central IT unit to improve organizational effectiveness and service delivery
Director, Academic Technology Services — June 2002–March 2012
 Responsible for campus networking, infrastructure, and central academic computing services
 Directed 140 employees and department with $24M annual operating budget
	Collaborated with campus units on planning, development, and operation of IT-related services
	Upgraded campus network backbone to 10Gbps with fault-tolerant architecture
	Launched annual IT Conference, quarterly IT Exchange meetings, and monthly IT coordinating council
 Refurbished 40-year-old datacenter to state-of-the-art facility supporting co-location and virtualization
 Improved overall IT service quality and support utilizing ITIL-based service management practices
Page 1

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1806 Filed 11/29/20 Page 36 of 57
000949

Thomas D. Davis — continued
 Established high-performance computing center to support computational research
 Merged two diverse departments with long-standing histories into single integrated support unit
	Assisted in the development and implementation of university-wide policies and IT strategic plans
 Developed Michigan Lambda Rail (MiLR) fiber network with University of Michigan and Wayne State
 Represented MSU with off-campus interests including alumni, vendors, peer universities, and the media
Division Manager, Computer Laboratory — April 1996–June 2002
 Managed key campus services including MSUNet authentication, Andrew File System, MSU email system,
Blackboard CourseInfo, microcomputer labs, self-service laser printing, and web services
 Expanded division from five to 20 employees
 Worked collaboratively with Main Library on several initiatives including conversion of online catalog system
 Developed and maintained servers for K-12 schools participating in Southeast Central Network Consortium
 Provided email portion of MichK12 project in partnership with Merit Network, Inc.
 Participated on Instructional Computing and Technology Committee
Team Leader, Computer Laboratory — May 1991–April 1996
	Led development, deployment, and growth of MSU email system
 Managed team of two systems programmers
 Expanded Andrew File System to support MSU email, microcomputer labs, and web servers
 Implemented high-speed dial-up service
 Participated on Network Communication Committee and Merit Remote Access committee
Systems Programmer, Computer Laboratory — August 1988–May 1991
 Developed network printing system for mainframe users
	Administered and maintained key network servers and software (e.g., DNS)
 Managed distribution of site-licensed software

Education
MICHIGAN STATE UNIVERSITY (East Lansing, Michigan)
 BS in Computer Science with minors in Electrical Engineering and Mathematics — 1982
	Graduated with High Honors

Professional Development
MICHIGAN STATE UNIVERSITY (East Lansing, Michigan)
 Inaugural Executive Leadership Academy (ELA) Fellow — 2006
	Assisted with subsequent ELA cohorts and establishment of MSU IT leadership development programReferences

Page 2

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1807 Filed 11/29/20 Page 37 of 57
000950

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1808 Filed 11/29/20 Page 38 of 57
000951

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1809 Filed 11/29/20 Page 39 of 57
000952

Eric Charles Quinnell, Ph.D.
6501 Orchard Hill Dr.
Austin, TX 78739
eric.quinnell@gmail.com
(512) 736-1488

Education

Doctor of Philosophy, Computer Arithmetic, May 2007
Dissertation Title: Floating-Point Fused Multiply-Add Architectures
Master of Science, Circuit Design, May 2006
Bachelor of Science, Electrical Engineering - magna cum laude, May 2004
The University of Texas at Austin

Experience
ARM
Principal Engineer – current – Core Architect (2022 ELP core)
• Designed and specified isa and uArch plan for next gen “big” cpu core, setting general vision for full cpu team intercept
• Wrote performance models, rtl experiments, timing experiments, verification code, micro benchmarks
• Extracted new traces, workloads, MTBF data, and ram model tradeoffs to gather data for future insight
• Worked with post silicon, compilers, customers, mid/small cpu groups, marketing, tech leads, unit engineers to define
full spectrum PPA and engineer work tradeoffs
Samsung
Principal Engineer – Front-End Fetch/Branch-Predict Lead Micro Architect – (Exynos M4, M5, Galaxy S10/S11/S20)
• Lead uArchitect, team lead for Front-End Fetch and Neural Net Branch Predictors, ~6 rtl, ~30 engineers all groups
• Individual RTL for predictors, iTags, TLBs, ISA changes, skids, queues, caches, and any/all holes that need filling
Sr. Staff Engineer 2015-2016 – L3 Lead Micro Architect, Team Lead – (Exynos M3, Galaxy S9)
• uArchitect, team lead for from-scratch L3 shared cache, ~3 rtl, ~15 engineers all groups
• Individual RTL for tags, snoop filters, LRU, data bank, ECC
Staff Engineer 2013-2014 – FP/L2 Micro Architect – Mongoose ARMv8 (Exynos M1,M2, Galaxy S7, S8)
• RTL/uArch for the floating-point multiplier (FPA), floating-point convert (FCVT), NSHUF, NSHIFT
• RTL/uArch for the L2 shared cache, specialized in ECC, write replays, snoops, tags, arbitration
• Sold uArch IP from UT dissertation to Samsung, used in all Exynos M-CPUs (100M+ so far)
AMD
MTS Engineer 2010-2012 – Micro Architect – Jaguar x86 CPU (PS4, Xbox One)
• RTL/uArch for the floating-point multiplier (FPM), floating-point adder (FPA), AES and math units
• Added SSE4.1, SSE4.2, AES, CLMUL, AVX to FP unit; expanded datapaths to a 128-bit native FPU
Senior Design Engineer 2007-2009 – Physical Designer – Bobcat x86 CPU (try #2) (Netbooks)
• Designed a variable width sleep FET implementation for the Bobcat core-C6 sleep state, 45nm
• Physical block owner of L2 Cache. (SAPR, ECOs, DRC/LVS)
Design Engineer II 2006-2007 – Physical Designer – Bobcat x86 CPU (try #1)
• Physical custom placement designer for floating-point multiplier (FPM) and floating-point adder (FPA)
• CAD method developer and owner of route, IR, and power/signal EM, 65nm
Patents:
US8037118, US8078660, US8415972, US8988108, US9291676, US9461667, US9830129, US9904545, US10108398,
US10360158, US10564963, US10740236, more Samsung and ARM applications pending
Publications:
[1] Brian Grayson, Jeff Rupley, Gerald Zuraski, Eric Quinnell, Daniel A. Jiménez, Tarun Nakra, Paul Kitchin, Ryan Hensley,
Edward Brekelbaum, Vikas Sinha, Ankit Ghiya, “Evolution of the Samsung Exynos CPU Microarchitecture,” 2020
ACM/IEEE 47th Annual International Symposium on Computer Architecture (ISCA), 2020.
[2] Jeff Rupley, John King, Eric Quinnell, Frank Galloway, Ken Patton, Peter-Michael Seidel, James Dinh, Hai Bui, Anasua
Bhowmik, “The Floating-Point Unit of the Jaguar x86 Core,” 2013 IEEE 21st Symposium on Computer Arithmetic
[3] A. Rogers, D. Kaplan, E. Quinnell, and B. Kwan, “The Core-C6 (CC6) Sleep State of the AMD Bobcat x86
Microprocessor,” ISLPED ’12, Aug 2012.
[4] E. Quinnell, E. E. Swartzlander, Jr., and C. Lemonds, “Bridged Fused Multiply-Add Design,” IEEE Transactions on VLSI
Systems, 2008.
[5] E. Quinnell, E. E. Swartzlander, Jr, “Introduction to Floating-Point Arithmetic Systems,” J.W. Wiley Encyclopedia of
Computer Engineering, 2008.
[6] E. Quinnell, “Floating-point fused multiply-add architectures,” PhD Thesis, The University of Texas at Austin, 2007
[7] E. Quinnell, E. E. Swartzlander, Jr., and C. Lemonds, “Floating-Point Fused Multiply-Add Architectures,” Proceedings of
the 41st Asilomar Conference on Signals, Systems, and Computers (ACSSC), 2007.
Actual Life:
Eagle Scout, Collegiate Medaling Archer, Father of 3, Cub Scout Den Leader, Visiting uArch lecturer (UT, Madison), MMA

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1810 Filed 11/29/20 Page 40 of 57
000953

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1811 Filed 11/29/20 Page 41 of 57
000954

Young CV 2020
S. Stanley Young
3401 Caldwell Drive
Raleigh, NC 27607-3326
919 782 2759
Cell 919 219 2030
genetree@bellsouth.net
Current Position:
CEO CGStat LLC
Education
BS, MES, PhD, 1966, 1968, 1974, North Carolina State University, Raleigh, NC
Postions
1972-1987
1987-2000
2000-2002
1996199820022002-2015
200420152018-

Research Statistician, Eli Lilly&Co.
Principle Consultant, GlaxoWelcome
Director, Statistical Research, GlaxoSmithKline
Adjunct Professor of Statistics, NCSU
Adjunct Professor of Statistics, University of Waterloo
CEO, CGStat, LLC
Assistant Director for Bioinformatics, NISS
Adjunct Professor of Statistics, University of British Columbia
Adjunct Professor of Biostatistics, Georgia Southern University
Member USEPA Scientific Advisory Board

Other Experience and Professional Memberships
1972American Statistical Association
1972Biometrics Society
2004
Program Chair, ASA’s Section on SPES
2003
Program Chair, Midwest Biopharmaceutical Statistics Workshop
Honors
1980
1989
1990
1991
1998
1999
2000
2000
2000
2006
2006

Best Statistics Paper, SAS Users’ Group International
Best Statistics Paper, SAS Users’ Group International
Fellow of the American Statistics Association
Best Statistics Application Paper, ASA
Statistics in Chemistry Award, ASA
Virtual Screening Conference, Marburg Germany
Statistics in Chemistry Award, ASA
Participant of “Biostatistics Workshop” at the Oberwolfach Institute in Germany
Participant of “Computational Chemistry Workshop” Beilstein Institute of Germany
Fellow of the American Association for the Advancement of Science
Statistics in Chemistry Award, ASA

Book
Peter H. Westfall and S. Stanley Young (1993) Resampling-based Multiple Testing, John
Wiley&Sons
Book Chapters
Young SS, Hawkins DM. (2004) Using recursive partitioning analysis to evaluate compound

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1812 Filed 11/29/20 Page 42 of 57
000955

selection methods. Chemoinformatics: Methods and Protocols Ed. J. Bajorath. The Humana Press
Inc., Totowa, NJ 07512
Westfall, W.H., Zaykin, D.V. and Young, S.S. (2002) Multiple tests for genetic effects in association
studies. Biostatistical Methods. S.W. Looney, Ed. Humana Press Inc., Totowa, NJ 07512
Lambert CG, Young SS. (2006) Pharmaceutical research and development productivity: Can
software help? Computer Applications in pharmaceutical research and development, Ekins S, Wang
B. Eds Wiley
Young SS, Obenchain RL, Lambert CG. (2016) A Problem of Bias and Response Heterogeneity. In
Standing with Giants. Eds. Moghissi AA and Ross G. American Council on Science and Health.

Patents
Farmen MW, Lambert CG, Rusinko III AR, Young SS. Statistical deconvoluting of mixtures. US
Patent 6,434,542. (1997).
Lam RLH, Welch WJ, Young SS. Cell based binning methods and cell coverage system for
molecule selection. US Patent 6,850,876 (2000)
Young SS, Barrett, Jr. TH, Beecher CW. System, method, and computer program product for

analyzing spectrometry data to identify and quantify individual components in a sample.
US Patent 7,561,975 (2009)
Papers
Gries CL, Young SS. (1982) Positive correlation of body weight with pituitary tumor incidence in
rats. Fundamental and Applied Toxicology 2:145-148.
Young SS. On the choice of experimental populations for research in neurobehavioral toxicology. J
Toxicol Environ Health. 1983 Oct-Dec;12(4-6):841-842.
Young SS, Gries CL. (1984) Exploration of the negative correlation between proliferative hepatic
lesions and lymphoma in rats and mice - establishment and implications. Fundamental and Applied
Toxicology 4, 632-640.
Meyers DB, Young SS, Gries CL. (1985) Design of cancer assays for pharmaceutical agents. J Natl
Cancer Inst. 74,1151-1152.
Young SS, Brannon DR. (1986) Dose selection for long-term rodent carcinogenicity studies.
Fundam Appl Toxicol. 6, 185-188.
Tamura RN, Young SS. (1986) The incorporation of historical information in tests of proportions:
Simulation study of Tarone's procedure. Biometrics 42, 343-349.
Tamura RN Young SS. (1987) A stabilized moment estimator for the beta-binomial distribution.
Biometrics 43, 813-824.
Young SS. (1988) Evaluation of data from long-term rodent studies. J Natl Cancer Inst. 80,3-4.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1813 Filed 11/29/20 Page 43 of 57
000956

Young SS. (1988) Do short-term tests predict rodent carcinogenicity? Science. 241,1232-3.
Westfall PH, Young SS. (1989) P-value adjustments for multiple tests in multivariate binomial
models. JASA 84, 780-786.
Young SS. (1989) What is the proper experimental unit for long-term rodent studies? An
examination of the NTP benzyl acetate study. Toxicology. 54, 233-9.
Young SS. (1989) A blind reanalysis of a random subset of NCI bioassay studies: agreement
between rats and mice. Fundam Appl Toxicol. 12, 232-41.
Young, S.S. (1991) Drug Design: Examining Large Experimental Designs. Proceedings of the 23rd
Computing Science and Statistics: Symposium on the Interface.
9
Young, S.S., and Hawkins, D.M. (1995) Analysis of a 2 full factorial chemical library. J.
Medicinal Chemistry 38, 2784-2788.
Young S S, Farmen M., Rusinko A. III (1996) Random versus rational which is better for general
compound screening? Network Sci. [Electronic Publication] 2(7), URL:
http://www.awod.com/netsci/Issues/Aug96/feature3.html
Hawkins, D.M., Young, S.S., and Rusinko, A. III (1997) Analysis of a large structure-activity data
set using recursive partitioning. QSAR 16: 296-302.
Young SS, Sheffield CF, Farmen, M. (1997) Optimum utilization of a compound collection or
chemical library for drug discovery. J. Chem. Info. Comp. Science 37: 892-899.
Young, S.S. and Hawkins, D.M. (1998) Using recursive partitioning to analyze a large SAR data set.
SAR and QSAR in Environmental Research 8: 183-193.
Westfall PH, Young SS, Lin DKJ. 1998. Forward selection error control in the analysis of
supersaturated designs. Statistica Sinica 8, 101-117.
Chen X, Rusinko A III, Young SS. (1998) Recursive partitioning analysis of a large structureactivity data set using three-dimensional descriptors. J. Chem. Info. Comp. Science 38: 1054-1062.
Westfall PH, Krishen A, Young SS. (1998) Using prior information to allocate significance levels
for multiple endpoints. Stat Med. 17, 2107-19.
Chen X, Rusinko A., Tropsha A, Young S S. (1999) Automated pharmacophore identification for
large chemical data sets. J. Chem. Info. Comp. Science 39, 887–896.
Rusinko A, Farmen MW, Lambert CG, Brown PL, Young SS. (1999). Analysis of a large
structure/biological activity data set using recursive partitioning, J Chemical Inf Comp Sci, 39,
1017-1026.
Jones-Hertzog DK, Mukhopadhyay P, Keefer CE, Young SS. (1999) Use of recursive partitioning in
the sequential screening of G-protein-coupled receptors. J Pharmacol Toxicol 42, 207-215.
Drewry, D.H., Young, S.S. (1999) Approaches to the Design of Combinatorial Libraries. Chemom.
Intell. Lab. Syst., 48, 1-20.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1814 Filed 11/29/20 Page 44 of 57
000957

Zaykin DV, Young SS, Westfall PH. (2000) Using the false discovery rate approach in the genetic
dissection of complex traits: a response to Weller et al. Genetics. 154, 1917-8.
Young SS, Gombar VK, Emptage MR., Cariello NF, Lambert C, (2001) Mixture deconvolution and
analysis of Ames mutagenicity data. Chemometrics and Intelligent Laboratory Systems 60, 5-11.
Xie, M., Tatsuoka, K., Sacks, J., and Young, S.S. (2001) Group testing with blockers and synergism.
JASA 96: 92-102.
Abt M., Lim Y-B, Sacks J., Xie M., Young S.S. (2001) A sequential approach for identifying lead
compounds in large chemical databases. Stat Sci 16, 154-168.
Zhu L, Hughes-Oliver JM, Young, S.S. (2001) Statistical decoding of potent pools based on
chemical structure. Biometrics, 57 (3), 922--930.
Young, SS, Lam RLH, Welch W. (2002) Initial compound selection for sequential screening.
Current Opinion in Drug Discovery & Development 5, 422-427.
Yi B, Hughes-Oliver JM, Zhu L, Young, S.S. 2002. A Factorial Design to Optimize Cell-Based
Drug Discovery Analysis. J. Chem. Info. Comp. Science, 42, 1221-1229.
Lam R, Welch W, Young SS. (2002) Cell-based design of high throughput screening sets.
Technometrics 44:99-109.
Westfall PH, Zaykin DV, Young SS. (2002) Multiple tests for genetic effects in association studies.
Methods Mol Biol. 184:143-68.
Zaykin, D.V., Westfall, P.H., Young, S.S., Karnoub, M.A., Wagner, M.J., Ehm, M.G. (2002) Testing
Association of Statistically Inferred Haplotypes with Discrete and Continuous Traits in Samples of
Unrelated Individuals. Human Heredity 53, 79–91.
Feng J, Lurati L, Ouyang H, Robinson T, Wang Y, Yuan S, and Young SS. (2003) Predictive
toxicology: Benchmarking molecular descriptors and statistical Methods. J Chem Inf Comput Sci
43, 1463-1470
Liu L, Hawkins DM, Ghosh S, Young SS. (2003) Robust singular value decomposition analysis of
microarray data. Proceedings of the National Academy of Sciences, 100, 13167-13172.
Young SS, Wang M, Gu F. (2003) Design of diverse and focused combinatorial libraries using an
alternating algorithm. J. Chem. Info. Comp. Science 43, 1916-1921.
Hawkins DM, Wolfinger RD, Liu L, and Young SS. (2003) Exploring blood spectra for Signs of
Ovarian Cancer. Chance, 16, 19-23.
Young SS, Ge N. Design of diversity and focused combinatorial libraries in drug discovery.
Current Opinion in Drug Discovery & Development 2004 7, 318-324.
Jung SH, Bang H, Young SS. (2005) Sample size calculation for multiple testing in microarray data
analysis. Biostatistics 6, 157-169.
Liu, J., Feng, J., Young, S.S. (2005) PowerMV: A Software Environment for Molecular Viewing,

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1815 Filed 11/29/20 Page 45 of 57
000958

Descriptor Generation, Data Analysis and Hit Evaluation. J. Chem. Inf. Model. 45, 515-522.
Young SS, Ge N. (2005) Recursive partitioning analysis of complex disease pharmcogenetic studies:
I. Motivation and overview. Pharmacogenomics. 6, 65-75.
Karr AF, Feng J, Lin X, Sanil AP, Young SS, Reiter JP. (2005) Secure analysis of distributed
chemical databases without data integration. J Comput Aided Mol Des. 19, 739-747.
Zaykin, D.V., Young, S.S. (2005) Recursive partitioning as a tool for pharmcogenetic studies of
complex diseases: II. Statistical considerations. Pharmacogenomics. 6, 77-89.
Karr AF, Fulp WJ, Vera F, Young SS, Lin X, Reiter JP. (2006) Secure, privacy-preserving analysis
of distributed databases. Technometrics 48, 133-143.
Feng J., Sanil A, Young SS. (2006) PharmID: Pharmacophore identification using Gibbs sampling.
Journal of Chemical Information and Modeling. 46, 1352-1359.
Young, SS, Fogel, P., Hawkins, DM. (2006) Clustering Scotch Whiskies using Non-Negative
Matrix Factorization. Q&SPES News 14, 11-13.
Remlinger KS, Hughes-Oliver JM, Young SS, Lam RL. (2006) Statistical design of pools using
optimal coverage and minimal collision. Technometrics 48, 133-143.
Wang, X. S., Salloum, G.A., Chipman, H.A., Welch, W.J. Young, S.S. (2007) Exploration of cluster
structure-activity relationship analysis in efficient high-throughput screening. J. Chem. Inf. Model.
47, 1206-1214.
Fogel P, Young SS, Hawkins DM, Ledirac N. (2007) Inferential, robust non-negative matrix
factorization analysis of microarray data. Bioinformatics 23, 44-49.
Young SS. (2008) Re: Low-fat dietary pattern and cancer incidence in the Women's Health Initiative
Dietary Modification Randomized Controlled Trial. J Natl Cancer Inst. 100:284.
Marcus P, Arnold RJG, Ekins S, Sacco P, Massanari M, Young SS, Donohue J, Bukstein D. (2008)
A retrospective randomized study of asthma control in the US: results of the CHARIOT study
Current Medical Research and Opinion, 24, 3443-3452.
Young SS, Bang H, Oktay K.(2009) Cereal-induced gender selection? Most likely a multiple testing
false positive. Proc. Roy Soc B 276(1660): 1211–1212.
Fogel P, Gobinet C, Young SS, Zugaj D. (2009) Evaluation of unmixing methods for the separation
of quantum dot sources. WHISPERS 2009
Young SS, Yu M. (2009) To the Editor: Association of Bisphenol A with diabetes and other
abnormalities. JAMA 301:720-722.
Young SS. (2009) Bias, multiple modeling and trust me science. Pediatrics. (on line)
Young SS. (2009) Acknowledge and fix the multiple testing problem. International Journal of
Epidemiology doi: 10.1093/ije/dyp188.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1816 Filed 11/29/20 Page 46 of 57
000959

Profeta S Jr., Kumar SVS, Austin R, Young SS. (2010) Differential reactivity of thiophene-2carboxylic and thiophene-3-carboxylic acids. Results from DFT and Hartree–Fock theory. Journal
of Molecular Graphics and Modelling 28:540-547.
Young SS, Karr A. (2011) Deming, data and observational studies: A process out of control and
needing fixing. Significance, September, 122-126.
Triant VA, Josephson F, Rochester CG, Althoff KN, Marcus K, Munk R, Cooper C, D'Agostino RB,
Costagliola D,Sabin CA,10 P. L. Williams PL,11 S. Hughes S,12 W. S. Post WS, Chandra-Strobos
N, Guaraldi G, Young SS, Obenchain R, Bedimo R, Miller V, Strobos J. (2011) Adverse Outcome
Analyses of Observational Data: Assessing Cardiovascular Risk in HIV Disease. Clinical Infectious
Diseases. doi: 10.1093/cid/cir829
Beasley CM, Benson C, Xia JQ, Young SS, Haber H, Mitchell MI, Loghin C. (2011) Systematic
decrements in QTc between the first and second day of contiguous daily ECG recordings under
controlled conditions. PACE 34, 1116-1127.
Hughes-Oliver JM, Brooks A, Welch W, Khaldei MG, Hawkins DM, Young SS, Patil K, Howell
GW, Ng RT, Chu MT. (2011-2012) ChemModLab: A web-based cheminromates modeling
laboratory. In Silico Biology 11, 61-81.
Anamitra Pal A, J. S. Thorp JS, Khan T, Young KT (2013) Classification trees for complex
synchrophasor data, Electric Power Components and Systems 41, 1381-1396.
Young SS, Katzoff M. (2013) Multivitamins for cancer prevention in men. JAMA 309, 980-981.
Obenchain RL, Young SS. (2013) Advancing statistical thinking in health care research. Journal of
Statistical Theory and Practice 7, 456-469.
Young SS, Xia JQ. (2013) Assessing geographic heterogeneity and variable importance in an air
pollution data set. Statistical analysis and data mining. 6, 375-386.
Young SS. (2013) Re: "Modeling the association between particle constituents of air pollution and
health outcomes. American Journal of Epidemiology 177, 195.
Zhang K, Hughes-Oliver JM, Young SS. (2013) Analysis of high-dimensional structure-activity
screening datasets using the Optimal Bit String Tree. Technometrics 55, 161-173.
Fogel P, Hawkins DM, Beecher C, Luta G, Young SS. (2013) A tale of two matrix factorizations.
The American Statistician 67, 207-218.
Webb D, Leahy MM, Milner JA, Allison DB, Dodd KW, Gaine PC, Matthews RAJ, Schneeman BO,
Tucker KL, Young SS. (2013) Strategies to optimize the impact of nutritional surveys and
epidemiological studies. Advances in Nutrition (Impact Factor: 3.2). 01/2013; 4(5):545-7.
Kuske RR, Young SS. (2014) Breast brachytherapy versus whole-breast irradiation: Reported
differences may be statistically signiﬁcant but clinically trivial. Radiation Oncology 88, 266-268.
Young SS, Fogel P. (2014) Air pollution and daily deaths in California. Proceedings, 2014
Discovery Summit. https://community.jmp.com/docs/DOC6691/

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1817 Filed 11/29/20 Page 47 of 57
000960

Lopiano KK, Obenchain RL, Young SS. (2014) Fair Treatment Comparisons in Observational
Research. Statistical Analysis and Data Mining 7, 376–384.
Young SS. (2015) Where there is smoke, there are often mirrors. BMJ 2014;348:g40
http://www.bmj.com/content/348/bmj.g40/rr
Young SS, Obenchain RL, Krstic G. (2015) Local Control Analysis of Radon and Ozone. Discovery
Summit 2015. https://community.jmp.com/docs/DOC-7784
Lopiano KK, Smith RL, Young SS (2015) Air quality and acute deaths in California, 2000-2012.
https://arxiv.org/abs/1502.03062
Fogel P, Gaston-Mathé Y, Fogel F, Luta G, Young SS. (2016) Applications of a Novel Clustering
Approach Using Non-Negative Matrix Factorization to Environmental Research in Public Health.
International Journal of Environmental Research and Public Health. 13,509
doi:10.3390/ijerph13050509.
Obenchain RL, Young SS. (2017) Local Control strategy: Simple analyses of air pollution data can
reveal heterogeneity in longevity outcomes. Risk Analysis. Risk Anal. doi: 10.1111/risa.12749
Young SS. (2017) Air quality environmental epidemiology studies are unreliable. Regulatory
Toxicology and Pharmacology 88, 177-180.
Young SS, Smith RL, Lopiano KK. (2017) Air quality and acute deaths in California, 2000-2012.
Regulatory Toxicology and Pharmacology 88, 173-184.
Peace KE, Yin JJ, Rochani H, Pandeya S, Young SS. (2018) A Serious Flaw in Nutrition
Epidemiology: A Meta-Analysis Study. International Journal of Biostatistics. Published Online:
2018-11-22 | DOI: doi.org/10.1515/ijb-2018-0079

You C, Lin DJK,Young SS. (2018) PM2.5 and ozone, indicators of air quality, and acute deaths in
California, 2004–2007. Regulatory Toxicology and Pharmacology 96:190-196.
You C, Lin DKJ, Young SS (2018) Time series smoother for effect detection. PLoS ONE 13(4):
e0195360. doi.org/10.1371/journal.pone.0195360
Young SS, Acharjee MK, Das K. (2018) The reliability of an environmental epidemiology metaanalysis, a case study. Regulatory Toxicology and Pharmacology. 102:47-52.
Young SS and Fogel P. (2018) MetaEval: a JMP add-in to evaluate a claim coming from a metaanalysis [version 1; not peer reviewed]. F1000Research 2018, 7:1913 (slides)
doi: 10.7490/f1000research.1116344.1)
Obenchain, R., Young, S. S., Krstic, G. 2019. Low-level radon exposure and lung cancer mortality.
Regulatory Toxicology and Pharmacology 107 (2019) 104418
https://doi.org/10.1016/j.yrtph.2019.104418.]

Young SS, Kindzierski KB. 2018. Combined background information for meta-analysis evaluation.
https://arxiv.org/abs/1808.04408

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1818 Filed 11/29/20 Page 48 of 57
000961

Young SS, Kindzierski KB. 2019. Evaluation of a meta-analysis of air quality and heart attacks, a
case study, Critical Reviews in Toxicology, doi: 10.1080/10408444.2019.1576587

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1819 Filed 11/29/20 Page 49 of 57
000962

Declaration of Louis Bouchard
Pursuant to 28 U.S.C Section 1746, I, Louis Bouchard, make the
following declaration.
1. My name is Louis Bouchard. I am over the age of 21 years and I am
competent to testify in this action. All of the facts stated herein are
true and based on my personal knowledge. All scientific conclusions
herein are made to a reasonable degree of scientific certainty in my
fields of expertise.
2. I received a Bachelor of Science in Physics in 1996 (McGill
University), a Master of Science in Medical Biophysics in 1999
(University of Toronto) and a Ph.D. in Chemistry in 2005 (Princeton
University).
3. I have extensive professional experience as a research scientist and
teacher at a research university and have taught hundreds of
students and mentored many graduate and undergraduate students.
In this capacity, I frequently engage in complex and sophisticated
data modeling and statistical analysis. I am required to prepare
scientific papers and give presentations in class and at scientific
meetings. I make this declaration in my personal capacity.
Executive Summary
4. I was asked and willingly participated as part of a statistical team of
unpaid citizen volunteer scientists, mathematicians, and engineers
to produce a statistical vote analysis of the Michigan 2020
Presidential Election.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1820 Filed 11/29/20 Page 50 of 57
000963

5. The team produced a report entitled “Michigan 2020 Voting Analysis
Report”. I hereby attest that my contributed section is a Chapter
titled “Statistical Analysis of Michigan 2020 Election” where I
analyzed Edison time-course data for Michigan and compared it to
Florida. I have found statistical anomalies in the vote count. The
reported findings are of the “statistically impossible” kind. I
authored this section as a sole author.
6. The Chapter is a simplified version (i.e. layman’s version) of a more
detailed report, which is available on request.

November 29, 2020
Louis Bouchard, Ph.D.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1821 Filed 11/29/20 Page 51 of 57
000964

L O U I S

B O U C H A R D

Assoc i a te Prof e ssor | UC L A De pa rtme nts of C h e mi stry & B i oc he mi stry a nd of B i oe ng i ne e ri ng

ed u c a t i o n a n d t r a i n i n g
2005-08
2000-05
1997-99
1993-96

UC Berkeley | Post Doc | Chemistry & Materials Sciences
Princeton University | Ph.D. | Physical Chemistry
University of Toronto | M.Sc. | Medical Biophysics
McGill University | B.Sc. | Physics

awards and honors
2015
2015
2014
2014
2013
2013
2012
2012
2012
2011
2011
2010
2008
2003
1998

ΑΧΣ (UCLA) Glenn T. Seaborg Award
Chinese Academy of Sciences | CAS President's International Fellowship
Jonsson Comprehensive Cancer Center | Seed Grant Award
UCLA Diversity & Faculty Development | Faculty Career Development Award
UCLA Diversity & Faculty Development | Faculty Career Development Award
Jonsson Comprehensive Cancer Center | Seed Grant Award
Arnold and Mabel Beckman Foundation | Beckman Young Investigator Award
Exploratory Research Space | RWTH Aachen University
UCLA Diversity & Faculty Development | Faculty Career Development Award
Jonsson Comprehensive Cancer Center | Seed Grant Award
UCLA Council on Research | Faculty Research Grant Award
Spectroscopy Society of Pittsburgh | Starter Grant Award
Camille and Henry Dreyfus Foundation | New Faculty Award
Princeton University | Charlotte Elizabeth Procter University Honorific Fellowship
University of Toronto | Graduate Fellowship

a p p o i n t m en t s
20142012
200920092008-2016
20162018-

UCLA | Molecular Biology Institute | Associate Member
RWTH Aachen University | Visiting Scientist
UCLA | California NanoSystems Institute | Member
UCLA | Affiliate Faculty | Department of Bioengineering
UCLA | Assistant Professor | Department of Chemistry and Biochemistry
UCLA | Associate Professor | Department of Chemistry and Biochemistry
Associate Editor | Science Advances

patents
1. US National Stage Patent Application No. 16/626,508 (Filed: December 24, 2019) PCT
Patent Application No. PCT/US2018/039944, WO2019006088A1 (Filed: Jun. 28, 2017,
Published: Jan. 3, 2019). Title: “Training artificial neural networks with reduced
computational complexity”. Inventors: Youssef K, Bouchard LS.
2. US Patent Application no. 15/799,498 (Filed: Nov. 1, 2016 as Provisional Appln. No.
62/415,986). Title: “Biologically applicable water-soluble heterogeneous catalysts for parahydrogen induced polarization”. Inventors: Glöggler S, Wagner S, Bouchard LS.
3. US Patent no. US20160171727A1 (Granted: Apr. 24, 2018). Title: “Feature-preserving
image noise removal”. Inventors: Youssef K, Bouchard LS.

1

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1822 Filed 11/29/20 Page 52 of 57
000965

4. International Patent Application no. PCT/US2014/055507 (Filed: Sep. 12, 2014). Title:
“Universal bio diagnostic, drug delivery device & marker for correlated optical & electron
microscopy”. Inventors: Zurbuchen M, Lake M, Zhou ZH, Bouchard LS.
5. US Patent no. US20150137807 A1 (Application: US 14/413,679); International Patent no.
WO/2014/011937 A1. (Application: PCT/US2013/050161, Published: Jan. 16, 2014). Title:
“Miniaturized magnetic resonance probe”. Inventors: Hu J, Bouchard LS.
6. US Patent no. US8547095 B2 (Application: US 12/753,306, Published: Oct. 1, 2013);
International Patent no. WO/2009/046350 A1 (Application: PCT/US2008/078820,
Published: Apr. 9, 2009). Title: “Detection of magnetic resonance signals using a
magnetoresistive sensor”. Inventors: Budker D, Pines A, Xu S, Hilty C, Ledbetter MP,
Bouchard LS.
7. US Patent no. US20110001478 A1 (Application: US 12/747,488, Published: Jan. 6, 2011);
International Patent no. WO/2009/097053 A1 (Application: PCT/US2008/086646,
Published: Aug. 6, 2009). Title: “Magnetic resonance imaging of living systems by remote
detection”. Inventors: Wemmer DE, Pines A, Bouchard LS, Xu S, Harel E, Budker D, Lowery T,
Ledbetter MP.
8. US Patent no. US8570042 B2 (Application: US 12/675,604, Published: Oct. 29, 2013);
International Patent no. WO/2009/029896 A1 (Application: PCT/US2008/074925,
Published: Mar. 5, 2009). Title: “Adjustable permanent magnet assembly for NMR and MRI”.
Inventors: Pines A, Paulsen A, Bouchard LS, Blümich B.
9. US Patent no. US8633693 B2 (Application: US 12/594,341, Published: Jan. 21, 2014);
International Patent no. WO/2008/154059 A9 (Application: PCT/US2008/059183,
Published: Feb. 19, 2009). Title: “Rotating-frame gradient fields for magnetic resonance
imaging and nuclear magnetic resonance in low fields”. Inventors: Bouchard LS, Pines A,
Demas V.
10. US Patent no. US20120136241 A1 (Application: US 13/202,976, Published: May 31, 2012);
International Patent no. WO/2010/096828 (Application: PCT/US2010/025097,
Published: Aug. 26, 2010). Title: “Multi-modality nanoparticles having optically responsive
shape”. Inventors: Chen FF, Bouchard LS.
p u b l i c a t i o n s ( ov e r 8 0 p u b l i c a t i on s i n p e er - r ev i ew ed j o u r n a l s )
1. Li H, Zhao X, Wang Y, Lou X, Chen S, Deng E, Shi L, Xie J, Tang D, Zhao J, Bouchard LS, Xia L,
Zhou X, Damaged lung gas-exchange function of discharged COVID-19 patients detected by
hyperpolarized 129 Xe MRI, Science Advances 20 Nov 2020: eabc8180 DOI:
10.1126/sciadv.abc8180
2. Hasani-Sadrabadi MM, Majedi FS, Miller ML, Thauland TJ, Bouchard LS, Li S and Butte MJ,
Augmenting T-cell responses to tumors by in situ nanomanufacturing, Materials Horizons
(advance article) https://doi.org/10.1039/D0MH00755B
3. Majedi FS, Hasani-Sadrabadi MM, Thauland TJ, Li S, Bouchard LS, Butte MJ, T-cell activation
is modulated by the 3D mechanical microenvironment, Biomaterials 252, 120058 (2020)
4. Youssef K, Cai Y, Schuette G, Zhang D, Huang Y, Rahmat-Samii Y, Bouchard LS, Scalable Endto-End Radar Classification: A Case Study on Undersized Dataset Regularization by
Convolutional-MST (in preparation)
5. Koumoulis D, Fang L, Chung DY, Kanatzidis MG, Bouchard LS, Evolution of nontrivial Fermi
surface features in the band structures of the homologous members Pb 5 Bi 6 Se 14 and
Pb 5 Bi 12 Se 2 3 , Phys. Rev. B. 101, 115309 (2020)
6. Zheng Q, Guo Q, Yuan Y, Zhang X, Jiang W, Xiao S, Zhang B, Lou X, Ye C, Liu M, Bouchard LS,
Zhou X, A Small Molecule Multifunctional Tool for pH Detection, Fluorescence Imaging and
Photodynamic Therapy, ACS Appl. Bio Mater. 3, 1779-1786 (2020)
2

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1823 Filed 11/29/20 Page 53 of 57
000966

7. Kaltschnee L, Jagtap AP, McCormick J, Wagner S, Bouchard LS, Utz M, Griesinger C, Glöggler
S, Hyperpolarization of Amino Acids in Water Utilizing Parahydrogen on a Rhodium
Nanocatalyst, Chemistry: A Europeau Journal 25, 11031-11035 (2019)
8. Majedi FS, Hasani-Sadrabadi MM, Thauland TJ, Li S, Bouchard LS, Butte MJ, Augmentation of
T-Cell Activation by Oscillatory Forces and Engineered Antigen-Presenting Cells, Nano
Letters 19, 6945-6954 (2019)
9. Yang S, McCormick J, Mamone S, Bouchard LS, Glöggler S, Nuclear Spin Singlet States in
Photoactive Molecules: From Fluorescence/NMR Bimodality to a Bimolecular Switch for
Spin Singlet States, Angewandte Chemie 58, 2879-2883 (2019)
10. Archer BJ, Überrück T, Mack JJ, Youssef K, Jarenwattananon NN, Rall D, Wypysek D, Wiese M,
Bluemich B, Wessling M, Iruela-Arispe ML, Bouchard LS, Non-Invasive Quantification of Cell
Density in 3D Gels by MRI, IEEE Trans. Biomed. Eng. 66, 821-830 (2019)
11. Acosta VM, Bouchard LS, Budker D, Folman R, Lenz T, Maletinsky P, Rohner D, Schlussel Y,
Thiel L, Color centers in diamond as novel probes of superconductivity, Journal of
Superconductivity and Novel Magnetism 32, 85-95 (2019)
12. Youssef K, Bouchard LS, Haigh KZ, Krovi H, Silovsky J, Vander Valk CP, Machine learning
approach to RF transmitter identification, IEEE Journal of Radio Frequency Identification 2,
197-205 (2018) see also: arXiv:1711.01559 (2017)
13. McCormick J, Korchak S, Mamone S, Ertas Y, Liu Z, Verlinsky L, Wagner S, Glöggler S,
Bouchard LS, Over 12% polarization and 20 minute lifetime of 15 N on choline derivative
utilizing parahydrogen and Rh nanocatalyst in water, Angew. Chem. 57, 1-6 (2018)
14. Hasani-Sadrabadi MM, Majedi FS, Bensinger SJ, Wu BM, Bouchard LS, Weiss PS,
Moshaverinia A, Mechanobiological mimicry of helper T lymphocytes to evaluate cellbiomaterials crosstalk, Adv. Mater. 30, 1706780 (2018)
15. Jarenwattananon NN, Bouchard LS, Breakdown of Carr-Purcell-Meiboom-Gill spin echoes in
inhomogeneous fields, J. Chem. Phys. 149, 084304 (2018)
16. Majedi FS, Hasani-Sadrabadi MM, Kidani Y, Thauland TJ, Moshaverinia A, Butte MJ,
Bensinger SJ, Bouchard LS, Cytokine secreting microparticles engineer the fate and the
effector functions of T cells, Adv. Mater. 9, 23400-08 (2017)
17. Koumoulis D, Kupers M, Touzani R, Zhang Y, Fokwa BPT, Bouchard LS, Cr 3 triangles induced
competing magnetic interactions in the new metal boride TiCrIr 2 B 2 : An NMR and DFT study,
Mater. Res. Bull. 100, 91-96 (2017)
18. Mack JJ, Mosqueiro T, Archer BJ, Jones W, Sunshine H, Faas G, Briot A, Aragon R, Su T, Romay
M, McDonald A, Kuo CH, Lizama C, Lane T, Zovein A, Fang Y, Tarling E, de Aguiar Vallim T,
Navab M, Fogelman A, Bouchard LS, Iruela-Arispe ML, NOTCH1 is a mechanosensor in adult
arteries, Nat. Commun. 8, 1620 (2017)
19. Koumoulis D, Taylor RE, McCormick J, Ertas YN, Pan L, Che X, Wang KL, Bouchard LS,
Effects of Cd vacancies and unconventional spin dynamics in the Dirac Semimetal Cd 3 As 2 , J.
Chem. Phys. 147, 084706 (2017)
20. Yang Y, Chen S, Liu L, Li S, Zeng Q, Zhao X, Li H, Zhang Z, Bouchard LS, Liu M, Zhou X,
Increasing cancer therapy efficiency through targeting and localized light activation, ACS
Appl. Mater. Interfaces 9, 23400-23408 (2017)
21. Lake M, Bouchard LS, Targeted nanodiamonds for identification of subcellular protein
assemblies in mammalian cells, PLOS ONE 12, e0179295 (2017)
22. McCormick J, Grunfeld AM, Ertas YN, Biswas AN, Marsh KL, Wagner S, Glöggler S, Bouchard
LS, Aqueous ligand-stabilized palladium nanoparticle catalysts for parahydrogen induced
13 C hyperpolarization, J. Am. Chem. Soc. 89, 7190-7194 (2017)
23. Yang S, Yuan Y, Jiang W, Ren L, Deng H, Bouchard LS, Zhou X, Liu M, Hyperpolarized 129 Xe
MRI sensor for H 2 S, Chem. Eur. J. 23, 7648-7652 (2017)

3

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1824 Filed 11/29/20 Page 54 of 57
000967

24. Ertas YN, Bouchard LS, Controlled nanocrystallinity in Gd nanobowls leads to
magnetization of 226 emu/g, J. Appl. Phys. 121, 093902 (2017)
25. Zheng Q, Guo Q, Yuan Y, Yang Y, Zhang B, Ren L, Zhang X, Luo Q, Liu M, Bouchard LS, Zhou X,
Mitochondria targeted and intracellular biothiol triggered hyperpolarized 129 Xe magnetofluorescent biosensor, Anal. Chem. 89, 2288-2295 (2017)
26. Chen J, Lourette S, Rezai K, Hoelzer T, Lake M, Nesladek M, Bouchard LS, Hemmer P, Budker
D, Optical quenching and recovery of photoconductivity in single-crystal diamond, Appl.
Phys. Lett. 110, 011108 (2017)
27. Jarenwattananon NN, Bouchard LS, Jarenwattananon and Bouchard Reply, Phys. Rev. Lett.
117, 249702 (2016)
28. Koumoulis D, Scheifers JP, St. Touzani R, Fokwa BPT, Bouchard LS, Pseudogap formation
and vacancy ordering in the new perovskite boride Zr 2 Ir 6 B, Acta Materialia 120, 32-39
(2016)
29. Koumoulis D, Scheifers JP, St. Touzani R, Fokwa BPT, Bouchard LS, Direct chemical finetuning of electronic properties in Sc 2 Ir 6-x Pd x B, ChemPhysChem 17, 2972-2976 (2016)
30. Yang S, Jiang W, Ren L, Yuan Y, Zhang B, Luo Q, Guo Q, Bouchard LS, Liu M, Zhou X, Biothiol
xenon MRI sensor based on thiol-addition reaction, Anal. Chem. 88, 5835-5840 (2016)
31. Youssef K, Jarenwattananon NN, Bouchard LS, 4-D Flow Control in Porous Scaffolds:
Toward a Next Generation of Bioreactors, IEEE TBME 64, 61-69 (2017)
32. Guo Q, Zeng Q, Jiang W, Zhang X, Luo Q, Zhang X, Bouchard LS, Liu M, Zhou X, A molecular
imaging approach to mercury sensing based on hyperpolarized 129 Xe molecular clamp probe,
Chem. Eur. J. 22, 3967-3970 (2016)
33. Glöggler S, Grunfeld AM, Ertas YN, McCormick J, Wagner S, Bouchard LS, Surface LigandDirected Pair-wise Hydrogenation for Heterogeneous Phase Hyperpolarization, Chem. Comm.,
52, 605-608 (2016)
34. Ertas YN, Jarenwattananon NN, Bouchard LS, Oxide-Free Gadolinium Nanocrystals with
Large Magnetic Moments, Chem. Mater. 27, 5371-5376 (2015)
35. Koumoulis D, Morris GD, He L, Kou X, King D, Wang D, Hossain MD, Wang KL, Fiete GA,
Kanatzidis MG, Bouchard LS, Nanoscale β-Nuclear Magnetic Resonance Depth Imaging of
Topological Insulators, Proc. Natl. Acad. Sci. USA 112, E3645-E3650 (2015)
36. Koumoulis D, Chasapis TC, Leung B, Taylor RE, Stoumpos CC, Calta NP, Kanatzidis MG,
Bouchard LS, Site-specific Contributions to the Band Inversion in a Topological Crystalline
Insulator, Adv. Electr. Mater. 1, 1500117, 12pp (2015)
37. Youssef K, Jarenwattananon NN, Bouchard LS, Feature-Preserving Noise Removal, IEEE
Trans. Med. Imag. 34, 1822-1829 (2015)
38. Chasapis TC, Koumoulis D, Leung B, Calta NP, Lo SH, Dravid VP, Bouchard LS, Kanatzidis MG,
Two-Band Model Interpretation of the p- to n- Transition in Ternary Tetradymite
Topological Insulators, APL Materials 3, 083601, 8pp (2015)
39. Glöggler S, Wagner S, Bouchard LS, Hyperpolarization of Amino Acid Derivatives in Water
for Biological Applications, Chem. Sci. 6, 4261-4266 (2015)
40. Jarenwattananon NN, Bouchard LS, Motional Averaging of Nuclear Resonance in a Field
Gradient, Phys. Rev. Lett. 114, 197601, 5pp (2015) (selected, PRL Editors’ Suggestion)
Erratum Phys. Rev. Lett. 116, 219903 (2016)
41. Brown JW, Jarenwattananon NN, Otto T, Wang JL, Glöggler S, Bouchard LS, Heterogeneous
Heck Coupling in Multivariate Metal-Organic Frameworks for Enhanced Selectivity, Catal.
Commun. 65, 105-107 (2015)
42. Glöggler S, Grunfeld AM, Ertas YN, McCormick J, Wagner S, Schleker PPM, Bouchard LS, A
Nanoparticle Catalyst for Heterogeneous Phase Para-Hydrogen-Induced Polarization in
Water, Angew. Chem. Intl Ed. 54, 2452-6 (2015)

4

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1825 Filed 11/29/20 Page 55 of 57
000968

43. Alexandrova AN, Bouchard LS, Sub-Nano Clusters: The Last Frontier of Inorganic
Chemistry, Adv. Chem. Phys. 156, 73-100 (2015) Eds: SA Rice, AR Dinner, John Wiley & Sons
Inc., Hoboken, NJ. ISBN: 978-1-118-94969-6.
44. Otto T, Jarenwattananon NN, Glöggler S, Brown JW, Melkonian A, Ertas YN, Bouchard LS,
Effects of Multivariate Linker Substitution, Metal Binding, and Reactor Conditions on the
Catalytic Activity of a Pd-Functionalized MOF for Olefin Hydrogenation, Appl. Catal. A: Gen.
488, 248-255 (2014)
45. Brown JW, Nguyen QT, Otto T, Jarenwattananon NN, Glöggler S, Bouchard LS, Epoxidation
of Alkenes with Molecular Oxygen Catalyzed by a Manganese Porphyrin-Based MetalOrganic Framework, Cat. Comm. 59, 50-54 (2015)
46. Koumoulis D, Taylor RE, King Jr D, Bouchard LS, NMR Study of Native Defects in PbSe, Phys.
Rev. B 90, 125201, 6pp (2014)
47. Koumoulis D, Leung B, Chasapis TC, Taylor RE, King Jr D, Kanatzidis MG, Bouchard LS,
Understanding Bulk Defects in Topological Insulators From Nuclear-Spin Interactions, Adv.
Func. Mater. 24, 1519-1528 (2014)
48. Jarenwattananon NN, Glöggler S, Otto T, Melkonian A, Morris W, Burt SR, Yaghi OM,
Bouchard LS, Thermal maps of gases in Heterogeneous Reactions, Nature 502, 537-540
(2013) Story covered in: Nature (editorial), C&E News, Chemistry World, SpectroscopyNOW,
Physics Today
49. Zurbuchen MA, Lake MP, Kohan SA, Leung B, Bouchard LS, Nanodiamond Landmarks for
Subcellular Multimodal Optical and Electron Imaging, Sci. Rep. 3, 2668, 5pp (2013)
50. Waxman A, Schlussel Y, Groswasser D, Acosta VM, Bouchard LS, Budker D, Folman R,
Diamond Magnetometry of Superconducting Thin Films, Phys. Rev. B 89, 054509, 9pp (2014)
51. Compton R, Osher S, Bouchard LS, Hybrid Regularization for MRI Reconstruction with
Static Field Inhomogeneity Correction, Inverse Probl. Imag. 7, 1215-1233 (2013)
52. Taylor RE, Alkan F, Koumoulis D, Lake MP, King D, Dybowski C, Bouchard LS, A combined
NMR and DFT study of Narrow Gap Semiconductors: The case of PbTe, J. Phys. Chem. C 117,
8959-8967 (2013)
53. Koumoulis D, Chasapis TC, Taylor RE, Lake MP, King D, Jarenwattananon NN, Fiete GA,
Kanatzidis MG, Bouchard LS, NMR Probe of Metallic States in Nanoscale Topological
Insulators, Phys. Rev. Lett.110, 026602 (2013)
54. Mack JJ, Youssef K, Lake MP, Noel ODV, Wu A, Iruela-Arispe ML, Bouchard LS, Real-Time
Maps of Fluid Flow Fields in Porous Biomaterials, Biomaterials 34, 1980-1986 (2013)
55. Taylor RE, Leung B, Lake MP, Bouchard LS, Spin-Lattice Relaxation in Bismuth
Chalcogenides, J. Phys. Chem. C 116, 17300-17305 (2013)
56. Budker D, Ledbetter MP, Appelt S, Bouchard LS, Wojtsekhowski B, Polarized Nuclear
Target Based on Parahydrogen Induced Polarization. Nucl. Inst. Meth. Phys. Res. A 694, 246250 (2013)
57. Sharma R, Bouchard LS, Strongly Hyperpolarized Gas From Parahydrogen by Rational
Design of Ligand-Capped Nanoparticles, Sci. Rep. 2, 277 (2011)
58. Youssef K, Mack JJ, Iruela-Arispe ML, Bouchard LS, Macro-scale Topology Optimization for
Controlling Internal Shear Stress in a Porous Scaffold Bioreactor, Biotech. & Bioeng. 109,
1844-1854 (2012)
59. Sharma R, Taylor RE, Bouchard LS, Intramolecular Ligand Dynamics in d 15 -(PPh 3 )-Capped
Gold Nanoparticles Investigated by 2 H NMR, J. Phys. Chem. C 115, 3297-3303 (2011)
60. Bouchard LS, Acosta VM, Bauch E, Budker D, Detection of the Meissner effect with a
Diamond Magnetometer, New J. Phys. 13, 025017 (2011)
61. Michalak DJ, Xu S, Lowery TJ, Crawford CW, Ledbetter M, Bouchard LS, Wemmer DE, Budker
D, Pines A, Relaxivity of Gadolinium Complexes Detected by Atomic Magnetometry, Magn.
Reson. Med. 66, 605-608 (2011)
5

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1826 Filed 11/29/20 Page 56 of 57
000969

62. McFadden C, Bouchard LS, Universality of Cluster Dynamics, Phys. Rev. E 82, 061125 (2010)
63. Acosta VM, Bauch E, Ledbetter MP, Waxman A, Bouchard LS, Budker D, Temperature
Dependence of the Nitrogen-Vacancy Magnetic Resonance in Diamond, Phys. Rev. Lett. 104,
070801 (2010)
64. Robson SA, Peterson R, Bouchard LS, Villareal VA, Clubb RT, Heteronuclear Zero Quantum
Coherence Nz-Exchange Experiment That Resolves Resonance Overlap and Its Application
To Measure the Rates of Heme Binding to the IsdC Protein, J.Am.Chem.Soc.132, 9522-9523
(2010)
65. Franck JM, Demas V, Martin RW, Bouchard LS, Pines A, Shimmed Matching Pulses:
Simultaneous Control of RF and Static Gradients for Inhomogeneity Correction, J. Chem. Phys.
131, 234506 (2009)
66. Bouchard LS, Anwar MS, Liu GL, Hann B, Xie H, Gray JW, Wang X, Pines A, Chen FF,
Picomolar Sensitivity MRI and Photoacoustic Imaging of Cobalt Nanoparticles, Proc. Natl.
Acad. Sci. USA 106, 4085-4089 (2009)
67. Demas V, Franck JM, Bouchard LS, Sakellariou D, Meriles CA, Martin R, Prado PJ, Bussandri
A, Reimer JA, Pines A, 'Ex Situ' Magnetic Resonance Volume Imaging, Chem. Phys. Lett. 467,
398-401 (2009)
68. Kelso N, Lee SK, Bouchard LS, Demas V, Mück M, Pines A, Clarke JC, Distortion-Free
Magnetic Resonance Imaging in the Zero-Field Limit, J. Magn. Reson. 200, 285-290 (2009)
69. Bouchard LS, "Shimming pulses" in Magnetic Resonance Microscopy: Spatially Resolved
NMR Techniques and Applications, Wiley-VCH, 2009; Ed. Joseph D. Seymour and Sarah Codd.
70. Paulsen JL, Franck J, Demas V, Bouchard LS, Least Squares Magnetic-Field Optimization for
Portable Nuclear Magnetic Resonance Magnet Design, IEEE Trans. Magn. 44, 4582-4590
(2008)
71. Paulsen JL, Bouchard LS, Graziani N, Blümich B, Pines A, Volume Selective Magnetic
Resonance Imaging Using an Adjustable, Single-Sided, Portable Sensor, Proc. Natl. Acad. Sci.
USA 105, 20601-20604 (2008)
Pre-UCLA
72. Verpillat F, Ledbetter MP, Xu S, Michalak M, Hilty C, Bouchard LS, Antonijevic S, Budker D,
Pines A, Remote Detection of Nuclear Magnetic Resonance With an Anisotropic
Magnetoresistive Sensor, Proc. Natl. Acad. Sci. USA 105, 2271–2273 (2008)
73. Bouchard LS, Sushkov AO, Budker D, Ford JJ, Lipton AS, Nuclear-Spin Relaxation of 207 Pb in
Ferroelectric Powders, Phys. Rev. A 77, 022102 (2008)
74. Bouchard LS, Burt SR, Anwar MS, Kovtunov KV, Koptyug IV, Pines A, NMR Imaging of
Catalytic Hydrogenation in Microreactors With the Use of Para-Hydrogen, Science 319, 442445 (2008)
75. Bouchard LS, Kovtunov KV, Burt SR, Anwar MS, Koptyug IV, Sagdeev RZ, Pines A,
Parahydrogen-Enhanced Hyperpolarized Gas-Phase Magnetic Resonance Imaging, Angew.
Chem. Int. Ed. 46, 4064-4068 (2007)
76. Jachmann RC, Trease DR, Bouchard LS, Sakellariou D, Martin R, Schlueter RD, Budinger, TF,
Pines A, Multipole Shimming of Permanent Magnets Using Harmonic Corrector Rings, Rev.
Sci. Instr. 78, 035115, 7pp (2007)
77. Bouchard LS, Anwar MS, Synthesis of Matched Magnetic Fields for Controlled Spin
Precession, Phys. Rev. B 76, 014430, 10pp (2007)
78. Anwar MS, Hilty C, Chu C, Bouchard LS, Pierce KL, Pines A, Spin Coherence Transfer in
Chemical Transformations Monitored by Remote Detection NMR, Analytical Chem. 79, 2806–
2811 (2007)

6

Case 2:20-cv-13134-LVP-RSW ECF No. 6-29, PageID.1827 Filed 11/29/20 Page 57 of 57
000970

79. Bouchard LS, Unidirectional Magnetic-Field Gradients and Geometric-Phase Errors During
Fourier Encoding Using Orthogonal AC Fields, Phys. Rev. B 74, 054103, 11pp (2006)
80. Bouchard LS, Warren WS, Multiple-quantum vector field imaging by magnetic resonance, J.
Magn. Reson. 177, 9-21 (2005)
81. Bouchard LS, Wehrli FW, Chin CL, Warren WS, Structural Anisotropy and Internal Magnetic
Fields in Trabecular Bone: Coupling Solution and Solid Dipolar Interactions, J. Magn. Reson.
176, 27-36 (2005)
82. Ledbetter MP, Savukov IM, Bouchard LS, Romalis MV, Numerical and Experimental Studies
of Long-Range Magnetic Dipolar Interactions, J. Chem. Phys. 121, 1454-65 (2004)
83. Bouchard LS, Warren WS, Tensorial Character of Magnetization Diffusion in Periodic
Lattices, Phys. Rev. B 70, 224426, 9pp (2004)
84. Tang XP, Chin CL, Bouchard LS, Wehlri FW, Warren WS, Observing Bragg-Like Diffraction
via Multiple Coupled Nuclear Spins, Phys. Lett. A 326, 114-25 (2004)
85. Bouchard LS, Warren WS, Reconstruction of Porous Material Geometry by Stochastic
Optimization Based on Bulk NMR Measurements of the Dipolar Field, J. Magn. Reson. 170,
299-309 (2004)
86. Shannon KL, Branca RT, Galiana G, Cenzano S, Bouchard LS, Soboyejo W, Warren WS,
Simultaneous Acquisition of Multiple Orders of Intermolecular Multiple-Quantum Coherence
Images in vivo, Magn. Reson. Imaging 22, 1407-12 (2004)
87. Chin CL, Tang XP, Bouchard LS, Saha PK, Warren WS, Wehrli FW, Isolating Quantum
Coherences in Structural Imaging Using Intermolecular Double-Quantum Coherence MRI, J.
Magn. Reson. 165, 309-14 (2003)
88. Bouchard LS, Rizi RR, Warren WS, Magnetization Structure Contrast Based on
Intermolecular Multiple-Quantum Coherences, Magn. Reson. Med. 48, 972-9 (2002)
89. Bouchard LS, Bronskill MJ, Magnetic Resonance Imaging of Thermal Coagulation Effects in
a Phantom for Calibrating Thermal Therapy Devices, Med. Phys. 27, 1141 (2000)

7

Case 2:20-cv-13134-LVP-RSW ECF No. 6-30, PageID.1828 Filed 11/29/20 Page 1 of 4
000971

Declaration of
Pursuant to 28 U.S.C Section 1746, I,

, make the following

declaration.
1. I am over the age of 21 years and am a resident of

,

Florida.
2. I am under no legal disability that would prevent me from giving this
declaration.
3. I hold a Bachelor of Science degree in Mathematics and a Master of
Science degree in Statistics.
4. For thirty years, I have conducted statistical data analysis for
companies in various industries, including aerospace, consumer
packaged goods, disease detection and tracking, and fraud detection.
5. From November 13th, 2020 through November 28th, 2020, I conducted
in-depth statistical analysis of publicly available data on the 2020
U.S. Presidential Election. This data included vote counts for each
county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee.
6. The analysis yielded several “red flags” concerning the percentage of
votes won by candidate Biden in counties using voting machines
provided by Dominion Voting Systems. These red flags occurred in
several States in the country, including Michigan.
7. I began by using Chi-Squared Automatic Interaction Detection
(CHAID), which treats the data in an agnostic way—that is, it
imposes no parametric assumptions that could otherwise introduce
bias. Here, I posed the following question: “Do any voting machine

Case 2:20-cv-13134-LVP-RSW ECF No. 6-30, PageID.1829 Filed 11/29/20 Page 2 of 4
000972

types appear to have unusual results?” The answer provided by the
statistical technique/algorithm was that machines from Dominion
Voting Systems (Dominion) produced abnormal results.
8. Subsequent graphical and statistical analysis shows the unusual
pattern involving machines from Dominion occurs in at least 100
counties and multiple States, including Michigan.
9. The results from most, if not all counties using the Dominion
machines is three to five point six percentage points higher in favor
of candidate Biden than the results should be. This pattern is seen
easily in graphical form when the results from “Dominion” counties
are overlaid against results from “non-Dominion” counties. The
results from “Dominion” counties do not match the results from the
rest of the counties in the United States. The results are certainly
statistically significant, with a p-value of < 0.00004. This translates
into a statistical impossibility that something unusual involving
Dominion machines is not occurring. This pattern appears in
multiple States, including Michigan, and the margin of votes implied
by the unusual activity would easily sway the election results.
10.

The following graph shows the pattern. The large red dots are

counties in Michigan that use Dominion voting machines. Almost all
of them are above the blue prediction line, when in normal situations
approximately half of them would be below the prediction line (as
evidence by approximately half the counties in the U.S. (blue dots)
that are below the blue centerline). The p-value of statistical
analysis regarding the centerline for the red dots (Michigan counties
with Dominion machines) is 0.000000049, pointing to a statistical

Case 2:20-cv-13134-LVP-RSW ECF No. 6-30, PageID.1830 Filed 11/29/20 Page 3 of 4
000973

impossibility that this is a “random” statistical anomaly. Some
external force caused this anomaly.

11.

To confirm that Dominion machines were the source of the

pattern/anomaly, I conducted further analysis using propensity
scoring using U.S. census variables (Including ethnicities, income,
professions, population density and other social/economic data) ,
which was used to place counties into paired groups. Such an
analysis is important because one concern could be that counties
with Dominion systems are systematically different from their
counterparts, so abnormalities in the margin for Biden are driven by
other characteristics unrelated to the election.

Case 2:20-cv-13134-LVP-RSW ECF No. 6-30, PageID.1831 Filed 11/29/20 Page 4 of 4
000974

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1832 Filed 11/29/20 Page 1 of 18
000975

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN

TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID
HOOPER and DAREN WADE RUBINGH,
v.

CASE NO. 20-cv-13134

Plaintiffs

GRETCHEN WHITMER, in her official capacity
as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, the Michigan
BOARD OF STATE CANVASSERS,
Defendants.

PLAINTIFFS’ EMERGENCY MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF AND MEMORANDUM IN SUPPORT THEREOF
COMES NOW Plaintiffs, Timothy King, Marian Ellen Sheridan, John Earl Haggard,
Charles James Ritchard, James David Hooper, and Daren Wade Rubingh, by and through their
undersigned counsel, and file this Emergency Motion for Injunctive Relief and Memorandum of
Law In Support Thereof, respectfully requesting the relief for the following reasons:
FACTS
The facts relevant to this motion are set forth in the November 29, 2020 amended
complaint (“Complaint”) filed in the above-captioned proceeding, and its accompanying
exhibits, filed concurrently with this motion, all of which are respectfully incorporated herein by
reference. We present only a summary.

1

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1833 Filed 11/29/20 Page 2 of 18
000976

After a general election and recount, Joe Biden has been declared the winner of
Michigan’s General Election for President by a plurality of 154,188 votes. But the vote count
certified by defendants on November 23, 2020, is defective. Hundreds of thousands of votes
counted toward Mr. Biden’s final tally were the product of illegality, fraud and misappropriation.
Plaintiffs support this claim in two independent ways.
i.

Counting and/or Creating Fraudulent Ballots

First, as set forth in the affidavit of Russell Ramsland, Jr. (Compl., Ex. 104), at least 289,866
(and likely many more) ballots were fraudulent.
Something occurred in Michigan that is physically impossible, indicating that the
results were manipulated on election night … The event as reflected in the data
are the 4 spikes totaling 384,733 ballots allegedly processed in a combined
interval of only two hour[s] and 38 minutes. This is physically impossible given
the equipment available at the 4 referenced locations (precincts/townships). ….
This calculation yields a sum of 94,867 ballots at the maximum number of ballots
that could be processed. … [T]here were 289,866 more ballots processed in the
time available for processing in four precincts/townships than there was
processing capacity. Id. ¶14.
[T]hese statistical anomalies and impossibilities compels the conclusion to a
reasonable degree of professional certainty that the vote count in Michigan and in
Wayne County, in particular for candidates for President contain at least 289,866
illegal votes that must be disregarded. Id. ¶15.
These fraudulent ballots alone are nearly twice Biden’s purported margin of 154,188 ballots.
Separately, evidence gathered by Matt Braynard in the form of recorded calls and
declarations of voters, and analyzed by Plaintiffs’ expert, Williams M. Briggs, PhD (Compl.,
Exh. 101), shows, based on a statistically significant sample of 248 Michigan voters, two
separate types of error indicative of widespread absentee ballot fraud. Dr. Briggs first estimates
that 29,611 to 36,529 ballots were recorded for voters who had not requested them, and second,
that 27,928 to 34,710 ballots were recorded for voters who did return their ballots were recorded
as being unreturned (i.e., lost or destroyed). Id. Taking the average of the two types or errors
2

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1834 Filed 11/29/20 Page 3 of 18
000977

together, Dr. Briggs estimates that 62,517, or 45% of total “unreturned” ballots, are
“troublesome” and thus indicative fraud or other illegal conduct. Id. Mr. Braynard separately
analyzed data from the National Change of Address (“NCOA”) data base to identify Michigan
voters that had moved out of state, as well as Michigan voters who had registered to vote in
another State, before the Michigan election, and identified at least 13,248 out-of-state voters who
voted in the Michigan 2020 General Election. Id. at 1.
Third, Eric Quinell, Ph.D. (Compl., Ex. 102) analyzed the statistically anomalous voting
patterns in Wayne County (outside Detroit) and Oakland County – where there was both an
extraordinary turnout surge from 2016 to 2020 and nearly 100% or even more of the “new” 2020
voters voted for Biden – resulting in a 15-point swing in the Democrat vs. Republican two-way
vote shares (i.e., shifting from 55/45 in 2016 to 70/30 in 2020 for Wayne County (outside
Detroit) and 54/46 in 2016 to 72/28 in 2020 for Oakland County). Id. ¶¶ 18&20. Dr. Quinell
estimates that there were 40,771 “excess” and likely fraudulent votes in Wayne County (outside
Detroit) and 46,125 such votes for Oakland County, for a total of 86,896 fraudulent votes in
these two counties. Id. ¶5. 1 Taken together, the ineligible or illegal ballots identified Dr. Briggs,
Dr. Quinell and Mr. Braynard total 162,661 ballots, which is once again in excess of Biden’s
154,188 vote plurality in Michigan, and provides a separate and independent ground from the
Ramsland Affidavit to set aside the results of 2020 General Election in Michigan.

1

A report from Dr. Stanley Young (Compl. Ex. 110, Chapter 1) reviewed data from the entire
State of Michigan and identified nine “outlier” counties that had both significantly increased
turnout in 2020 vs. 2016 almost all of which went to Biden totaling over 190,000 suspect
“excess” Biden votes (whereas turnout in Michigan’s 74 other counties was flat), reinforcing Dr.
Quinell’s analysis and showing that “excess” and likely fraudulent votes from these counties
would alone be sufficient to overcome Biden’s margin.
3

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1835 Filed 11/29/20 Page 4 of 18
000978

Fourth, a report from Robert Wilgus (see Compl., Ex. 110, Chapter 3) analyzing the
absentee ballot data that identified a number of significant anomalies, in particular, 224,525
absentee ballot applications that were both sent and returned on the same day, 288,783 absentee
ballots that were sent and returned on the same day, and 78,312 that had the same date for all
(i.e., the absentee application was sent/returned on same day as the absentee ballot itself was
sent/returned), as well as an additional 217,271 ballots for which there was no return date at all.
Id. at 14-15. No explanation has been provided for how more than two hundred thousand each
of applications and ballots could make the roundtrip of being sent to a voter and then returned
(i.e., received by Michigan agency) on the same day, much less the nearly 80,000 that made two
roundtrips on the same day, and it is hard to conceive of an innocent explanation for how
200,000+ ballots could have no return date at all.
ii.

Foreign Interference and Hacking in Michigan

In addition, the Complaint includes an analysis of the Dominion software system by a
former US Military Intelligence expert concludes that the system and software have been
accessible and were certainly compromised by rogue actors, such as Iran and China. (See
Compl., Ex.105). By using servers and employees connected with rogue actors and hostile
foreign influences combined with numerous easily discoverable leaked credentials, Dominion
neglectfully allowed foreign adversaries to access data and intentionally provided access to their
infrastructure in order to monitor and manipulate elections, including the most recent one in
2020.
Another expert, whose name and testimony have been redacted to protect his safety,
reviewed vote counts for each county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee and found significant
4

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1836 Filed 11/29/20 Page 5 of 18
000979

evidence of foreign interference and “several ‘red flags’ concerning the percentage of votes won
by candidate Biden in counties using … Dominion Voting Systems.” (See Compl., Ex. 111 ¶6).
Affiant concludes that:
[T]he results of the analysis and the pattern seen in the included graph strongly
suggest a systemic, system-wide algorithm was enacted by an outside agent,
causing the results of Michigan’s vote tallies to be inflated by somewhere between
three and five point six percentage points. Statistical estimating yields that in
Michigan, the best estimate of the number of impacted votes is 162,400.
However, a 95% confidence interval calculation yields that as many as
276,080 votes may have been impacted. Id. ¶13.
In addition, the Federal Bureau of Investigation (“FBI”) and the Cybersecurity and
Infrastructure Security Agency (“CISA”) issued a joint advisory statement on October 30, 2020,
warning states of Iranian cyberattacks and interference targeting state election websites and
infrastructure. (See Compl. Ex. 8 at 1).
The substantial likelihood that hostile foreign governments, with or without active
collusion or collaboration with the Defendants, is a separate and independent ground to grant the
declaratory and injunctive relief requested in the Complaint and this Motion.
iii.

Ballot Stuffing and Other Michigan Election Code Violations

The election process for the State of Michigan depended heavily on voting machines,
tabulators and software purchased from Dominion Voting Systems Corporation.
(“Dominion”), and more or less exclusively in key counties like Wayne County.
Computerized vote recording and tabulations are controlled by software programs that were
designed to cheat, and which were open to human manipulation. In 2020, ballot stuffing is not
simply counting votes of dead people, illegal aliens or out of state residents – all of which
occurred here. See generally Compl., Section II.

5

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1837 Filed 11/29/20 Page 6 of 18
000980

Manipulation of votes was apparent shortly after the polls closed on November 3,
2020. In particular, several witnesses testified to the delivery, in unmarked vans with out-ofstate license plates, to the TCF Center of two shipments of tens of thousands each of “new”
ballots that arrived on November 4, 2020, well after the 8:00 PM Election Day deadline. See
Compl., Section II.B.1. Election workers, in collaboration with Michigan State, Wayne
County, and City of Detroit employees and Democratic election challengers and activists,
engaged in a pattern of illegal conduct to systematically deny Republic election challengers
the opportunity to meaningfully supervise or observe ballot handling, counting and processing.
See Compl., Section II.A. Without supervision or challengers, election officials could have
processed tens or hundreds of thousands of illegal votes from these shipments and other
forged, altered, duplicated, or outrighted fabricated votes. They could also have processed
thousands of illegal mail-in ballots that were cast by third-parties, deceased voters,
unregistered or out-of-state voters, blank ballots that were counted over and over, and/or
double votes from people voting both absentee and in-person. See Compl., Section II.B and
II.C.
With only 154,188 votes separating the candidates out of a total of 5,539,302 cast, this
pattern of systematic and widespread violations of the Michigan Election Code by election
workers to illegally count ineligible, illegal, duplicate or outright fictitious votes is more than
sufficient to invalidate the final results. In the Complaint, Plaintiffs identified dozens of
distinct violations of the Michigan Election Code in a single county, all supported by sworn
testimony, see Compl. Section II. See generally Compl., Section II. While it may not be
possible to precisely quantify the number of illegal votes, the testimony indicates that it was
certainly in the tens of thousands (if not hundreds of thousands), see, e.g., Compl., Section
6

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1838 Filed 11/29/20 Page 7 of 18
000981

II.B.1, it is not necessary for Plaintiffs to do so; instead, they merely need to show that “it
appears that the irregularity affected the result.” Behrendt v. Wilcox, 277 Mich. 232, 246
(Mich. 1936) (affirming set aside of election upon showing of numerous irregularities).
Accord Attorney General ex rel. McCall v. Kirby, 120 Mich. 592, 595 (Mich. 1899) (setting
aside election results where election law requirements were “wholly ignored …
notwithstanding where everything was done in good faith”); Mead v. Sheffield, 278 Ga. 268,
272, 601 S.E.2d 99, 102 (1994) “[p]laintiffs need not show how the [] voters would have voted
if their [absentee] ballots had been regular. [] only had to show that there were enough
irregular ballots to place in doubt the result.”). Unless Defendants are enjoined from
certifying the election, Plaintiff will be left with no remedy because Michigan’s electoral votes
for President will not be awarded to the proper candidate.

DISCUSSION
Plaintiffs Have Standing
Each of Plaintiffs Timothy King, Marian Ellen Sheridan, John Earl Haggard, Charles
James Ritchard, James David Hooper, and Daren Wade Rubingh are registered Michigan
voters and are nominees of the Republican Party to be a Presidential Elector on behalf of the
State of Michigan. See Compl., “Parties”. As such, they each have standing under the 2018
amendments to Article II of the Michigan Constitution, which provides that “[e]very citizen of
the United States who is an elector qualified to vote in Michigan shall have the right,” among
other things, “to have the results of statewide elections audited, …, to ensure the accuracy and
integrity of elections.” Mich. Const. 1963, art. 2, §4(1)(h). Various provisions of the
Michigan Election Code also give any citizen the right to bring an election challenge within 30
days of an election where, as here, it appears that a material fraud or error has been committed.
7

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1839 Filed 11/29/20 Page 8 of 18
000982

See, e.g., Hamlin v. Saugatuck Twp., 299 Mich. App. 233, 240-241 (2013) (citing Barrow v.
Detroit Mayor, 290 Mich. App. 530 (2010)); MCL § 168.31a (setting forth election audit
requirements); MCL § 168.861 (quo warranto remedy for fraudulent or illegal voting). In
addition, each Plaintiff has standing to bring this action as a candidate for the office of Elector
under MCL §§ 168.42 & 168.43 (election procedures for Michigan electors), because
Presidential Electors “have a cognizable interest in ensuring that the final vote tally reflects the
legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized injury to
candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge
actions of Secretary of State in implementing or modifying State election laws); see also
McPherson v. Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531
U.S. 70, 76 (2000) (per curiam).
Plaintiffs are Entitled to Injunctive Relief
“To determine whether to grant a preliminary injunction or temporary restraining
order, a district court must consider: (i) whether the movant has a strong likelihood of success
on the merits; (ii) whether the movant would suffer irreparable injury without the injunction;
(iii) whether issuance of the injunction would cause substantial harm to others; and (iv)
whether the public interest would be served by the issuance of the injunction.” Stein v.
Thomas, 222 F.Supp.3d 539, 542 (E.D. Mich. 2016) (citing Baker v. Adams Cnty./Ohio Valley
Sch. Bd., 310 F.3d 927, 928 (6th Cir. 2002)); see also City of Pontiac Retired Employees Ass’n
v. Schimmel, 751 F.3d 427, 430 (6th Cir. 2014).
All elements are met here.

8

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1840 Filed 11/29/20 Page 9 of 18
000983

While the U.S. Constitution itself accords no right to vote for presidential electors,
“[w]hen the state legislature vests the right to vote for President in its people, the right to vote as
the legislature has prescribed is fundamental; and one source of its fundamental nature lies in the
equal weight accorded to each vote and the equal dignity owed to each voter.” Bush v. Gore, 531
U.S. 98, 104 (2000) (emphasis added). The evidence shows not only that Defendants failed to
administer the November 3, 2020 election in compliance with the manner prescribed by the
Michigan Legislature in the Michigan Election Code, MCL §§ 168.730-738, but that Defendants
committed a scheme and artifice to fraudulently and illegally manipulate the vote count to make
certain the election of Joe Biden as President of the United States. Compl., Section I. This
conduct violated Plaintiffs’ equal protection and due process rights as well their rights under the
Michigan Election Code and Constitution. See generally MCL §§ 168.730-738 & Mich. Const.
1963, art. 2, §4(1).
The Michigan Court of Appeals has held that, in a civil action to vindicate Plaintiffs’ right
“to seek office in a fair election” the burden of proof is a “preponderance of the evidence”.
Treasurer of the Committee to Elect Gerald D. Lostracco v. Fox, 150 Mich.App. 617, 623
(Mich.App. 1986).
i.

Plaintiffs have a substantial likelihood of success.
Through detailed fact and expert testimony including documentary evidence contained in

the Complaint and its exhibits, Plaintiffs have made a compelling showing that Defendants’
intentional actions jeopardized the rights of Michigan citizens to select their leaders under the
process set out by the Michigan Legislature through the commission of election frauds that
violated Michigan laws, including multiple provisions of the Michigan Election Code. MCL

9

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1841 Filed 11/29/20 Page 10 of 18
000984

§§ 168.730-738. These acts also violated the Equal Protection Clause in the United States
Constitution, U.S. Const. Amend XIV.
The tally of ballots certified by Defendants giving Mr. Biden a 154,188 vote plurality
cannot possibly stand in light of the hundreds of thousands of illegal mail-in ballots that were
improperly counted and the vote manipulation caused by the Dominion software.
Plaintiffs’ equal protection claim is straightforward. The right of qualified citizens to
vote in a state election involving federal candidates is recognized as a fundamental right under
the Fourteenth Amendment of the United States Constitution. Harper v. Va. State Bd. of
Elections, 383 U.S. 663, 665 (1966). See also Reynolds v. Sims, 377 U.S. 533, 554 (1964) (The
Fourteenth Amendment protects the “the right of all qualified citizens to vote, in state as well as
in federal elections.”). Indeed, ever since the Slaughter-House Cases, 83 U.S. 36 (1873), the
United States Supreme Court has held that the Privileges or Immunities Clause of the Fourteenth
Amendment protects certain rights of federal citizenship from state interference, including the
right of citizens to directly elect members of Congress. See Twining v. New Jersey, 211 U.S. 78,
97 (1908) (citing Ex parte Yarbrough, 110 U.S. 651, 663-64 (1884)). See also Oregon v.
Mitchell, 400 U.S. 112, 148-49 (1970) (Douglas, J., concurring) (collecting cases).
The fundamental right to vote protected by the Fourteenth Amendment is cherished in our
nation because it “is preservative of other basic civil and political rights.” Reynolds, 377 U.S. at
562; League of Women Voters of Ohio v. Brunner, 548 F.3d 463,476 (6th Cir. 2008)
(“The right to vote is a fundamental right, preservative of all rights.”). Voters have a
“right to cast a ballot in an election free from the taint of intimidation and fraud,” Burson v.
Freeman, 504 U.S. 191, 211 (1992), and “[c]onfidence in the integrity of our electoral processes

10

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1842 Filed 11/29/20 Page 11 of 18
000985

is essential to the functioning of our participatory democracy.” Purcell v. Gonzalez, 549 U.S. 1, 4
(2006) (per curiam).
“Obviously included within the right to [vote], secured by the Constitution, is the right of
qualified voters within a state to cast their ballots and have them counted” if they are validly cast.
United States v. Classic, 313 U.S. 299, 315 (1941). “[T]he right to have the vote counted” means
counted “at full value without dilution or discount.” Reynolds, 377 U.S. at 555, n.29 (quoting
South v. Peters, 339 U.S. 276, 279 (1950) (Douglas, J., dissenting)).
“Every voter in a federal . . . election, whether he votes for a candidate with little chance
of winning or for one with little chance of losing, has a right under the Constitution to have his
vote fairly counted, without its being distorted by fraudulently cast votes.” Anderson v. United
States, 417 U.S. 211, 227 (1974); see also Baker v. Carr, 369 U.S. 186, 208 (1962). Invalid or
fraudulent votes “debase[]” and “dilute” the weight of each validly cast vote. See Anderson, 417
U.S. at 227.
The right to an honest [count] is a right possessed by each voting elector, and to the
extent that the importance of his vote is nullified, wholly or in part, he has been injured in the
free exercise of a right or privilege secured to him by the laws and Constitution of the United
States.” Anderson, 417 U.S. at 226 (quoting Prichard v. United States, 181 F.2d 326, 331 (6th
Cir.), aff'd due to absence of quorum, 339 U.S. 974 (1950)).
Practices that promote the casting of illegal or unreliable ballots or fail to contain basic
minimum guarantees against such conduct, can violate the Fourteenth Amendment by leading to
the dilution of validly cast ballots. See Reynolds, 377 U.S. at 555 (“[T]he right of suffrage can be
denied by a debasement or dilution of the weight of a citizen’s vote just as effectively as by
wholly prohibiting the free exercise of the franchise.”). States may not, by arbitrary action or
11

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1843 Filed 11/29/20 Page 12 of 18
000986

other unreasonable impairment, burden a citizen’s right to vote. See Baker v. Carr, 369 U.S. 186,
208 (1962) (“citizen’s right to a vote free of arbitrary impairment by state action has been
judicially recognized as a right secured by the Constitution”). “Having once granted the right to
vote on equal terms, the state may not, by later arbitrary and disparate treatment, value one
person’s vote over that of another.” Bush, 531 U.S. at 104-05. Among other things, this requires
“specific rules designed to ensure uniform treatment” in order to prevent “arbitrary and disparate
treatment of voters.” Id. at 106-07; see also Dunn v. Bloomstein, 405 U.S. 330, 336 (1972)
(providing that each citizen “has a constitutionally protected right to participate in elections on
an equal basis with other citizens in the jurisdiction”).
Additionally, as U.S. citizens qualified to vote in Michigan and as candidates for the
electoral office of Presidential Elector, MCL §§ 168.42 & 168.43, Plaintiffs seeks redress under
the Michigan Election Code and the Michigan Constitution, to vindicate their constitutional right
to a free and fair election ensuring the accuracy and integrity of the process pursuant to the
Michigan Constitution, art. 2, sec. 4, par. 1(h), which states all Michigan citizens have:
The right to have the results of statewide elections audited, in such a manner as
prescribed by law, to ensure the accuracy and integrity of elections.
The Mich. Const. 1963, art. 2, sec. 4, further states, “All rights set forth in this subsection shall be
self-executing. This subsection shall be liberally construed in favor of voters' rights in order to
effectuate its purposes.”
The Eleventh Circuit recently addressed a claim in 2018 related to the same Dominion
software used in Michigan in the 2020 General Election. The Court found:
In summary, while further evidence will be necessary in the future, the Court finds
that the combination of the statistical evidence and witness declarations in the
record here (and the expert witness evidence in the related Curling case which the
Court takes notice of) persuasively demonstrates the likelihood of Plaintiff
succeeding on its claims. Plaintiff has shown a substantial likelihood of proving that
12

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1844 Filed 11/29/20 Page 13 of 18
000987

the Secretary's failure to properly maintain a reliable and secure voter registration
system has and will continue to result in the infringement of the rights of the voters
to cast their vote and have their votes counted.
Common Cause Georgia v. Kemp, 347 F.Supp.3d 1270, 1294-1295, (11th Cir. 2018).
Based upon all the allegations of fraud, statutory violations, and other misconduct, as
stated herein and in the attached affidavits, it is necessary to enjoin the certification of the
election results, and grant the declaratory, emergency and permanent injunctive relief requested
herein and in the Complaint, pending a full investigation and court hearing, and to order an
independent audit of the November 3, 2020 General Election to ensure the accuracy and integrity
of the election.
ii.

The Plaintiffs will suffer Irreparable Harm
Plaintiffs will suffer an irreparable harm due to the Defendants’ myriad violations of

Plaintiffs’ rights under the U.S. and Michigan Constitutions detailed in the Complaint, in
particular, Plaintiffs’ fundamental right to vote, equal protection of the laws, due process, and
their specific rights as candidates to electoral office.
When Constitutional rights are threatened or impaired, irreparable injury is
presumed. A restriction on the fundamental right to vote therefore constitutes an
irreparable injury.
Obama for America vs. Husted, 697 F.3d 423, 436 (6th Cir. 2012) (citations omitted). See also
Am. Civil Liberties Union of Kentucky v. McCreary Cnty., Ky., 354 F.3d 438, 445 (6th Cir. 2003)
aff’d sub nom., McCreary Cnty., Ky., v. Am. Civil Liberties Union of Ky., 545 U.S. 844 (2005)
(where a plaintiff’s constitutional rights are at issue, the movant need only show that his rights
are “threatened,” from which showing “a finding of irreparable injury is mandated.”).
The Michigan count was defective, including defective absentee ballots and out of state
voters, then Michigan’s election results are improper and suspect, resulting in Michigan’s
electoral college votes going to Democrats, including Joseph R. Biden, contrary to the votes of
13

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1845 Filed 11/29/20 Page 14 of 18
000988

the majority of Michigan’s qualified electors. Plaintiffs will directly be impacted by their roles
in the voting for the Presidential election as Electors to the Michigan Legislature.
iii.

The Balance of Equities
The third fact, whether “the balance of the equities tips in his favor,” Husted, 697 F.3d at

428 (quoting Winter v. Natural Res. Def. Council, 555 U.S. 7, 20 (2008)), also favors granting
the instant motion for injunctive relief. In balancing the equities, a court considering an election
challenge “must weigh the character and magnitude of the asserted injury” to the constitutional
rights that the plaintiff seeks to protect “against ‘the precise interests put forward by the State as
justifications for the burdens imposed by its rule … .’” Stein, 222 F.Supp.3d at 543 (quoting
Burdick v. Takushi, 504 U.S. 428, 434 (1992)). Here, the balance must tip into Plaintiffs’ favor,
as the State has presented no justification for its lawless behavior and wanton disregard of the
Michigan Election Code. The only justification Defendants can put forward, were they to say the
silent part out loud, is that imperative of ensuring a Biden victory overrides any constraints
imposed by the Michigan Election Code.
iv.

The Public Interest
Finally, the public interest would be served by the grant of the temporary relief requested

herein.
The fundamental right invoked by Plaintiffs—the right to vote, and to have that
vote conducted fairly and counted accurately—is the bedrock of our Nation.
Without elections that are conducted fairly—and perceived to be fairly
conducted—public confidence in our political institutions will swiftly erode.
Stein, 222 F.Supp.3d at 544. This Court granted the temporary relief requested by Ms. Stein in
2016, despite the fact that the vote margin separating her and President Trump was an order of

14

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1846 Filed 11/29/20 Page 15 of 18
000989

magnitude larger than Biden’s margin, 2 her evidence of violations was minimal to non-existent
(compared with the two dozen plus violations identified in sworn eyewitness testimony in
Section II of the Complaint), and the Michigan election workers in key areas like Wayne County
for the 2016 election were much more hostile to President Trump than they ever were to Jill
Stein. Accordingly, if this Court found that temporary relief for Jill Stein in 2016 was in the
public interest, then it must reach the same conclusion for Plaintiffs given that Trump (unlike
Stein) has a realistic chance of winning and Plaintiffs have arguably presented more evidence of
more kinds of election fraud than has ever been included in an election challenge to a court in a
Michigan (or the United States for that matter). This conclusion is further supported by the 2018
enactment of the amendments to Article II of the Michigan Constitution, which are intended,
among other things “to preserve the purity of elections, … [and] to guard against abuses of the
electoral franchise …. .” Mich. Const. 1963, art. 4, §2.
Plaintiffs Are Entitled to Emergency Injunctive Relief Prior to December 8, 2020
Under Bush v. Gore, 531 U.S. 98 (2000), Plaintiffs are entitled to emergency
injunctive relief that must be granted in advance of December 8, 2020, which is the
“safe harbor” date for States to submit their slates of electors under 3 U.S.C. § 5. There,
the Supreme Court granting an emergency application for stay of Florida recount
because there was “no recount procedure in place … that comports with minimal
constitutional safeguards,” and any recount procedure that could meet constitutional
requirements could not be completed by the 3 U.S.C. §5 safe harbor date. Accordingly,

2

In 2016, Jill Stein received 51,463 votes (or slightly over one percent), while the winner she
challenged, current President Trump, received 2,279,543 votes and nearly 50 percent of the vote.
In 2020, the current margin between President Trump and Biden is 154,188 votes, based on the
November 23, 2020 certification, which has not disqualified any of the illegal or ineligible votes
discussed in the Complaint.
15

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1847 Filed 11/29/20 Page 16 of 18
000990

this Court must schedule and complete any required hearings, briefings and responses in
time to issue a decision before December 8, 2020.
Relief Requested
Plaintiffs seek a de-certification of Michigan’s election results or a stay in the delivery of
the certified results to the Electoral College to preserve the status quo while this case proceeds,
as well as seeking the impounding of the voting machines made available and other equitable
relief, on an emergency basis, due to the irreparable harm, and impending election voting for the
electors, as stated in the Complaint. The low costs to Defendants and high potential harm to
Plaintiffs make this a case with a substantial net harm that an immediate and emergency
injunctive relief can prevent. Therefore, it is respectfully requested that the Court grant
Plaintiffs’ Motion. A proposed form of Order is attached.

Respectfully submitted, this 29th day of November 2020.

2911 Turtle Creek Blvd, Suite 300
Dallas, Texas 75219

/s Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700

*Application for admission pro hac vice
forthcoming
Attorneys for Plaintiffs
/s/ Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700
*Application for admission pro hac vice
Forthcoming
/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee

16

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1848 Filed 11/29/20 Page 17 of 18
000991

Lansing, MI 48933
(517) 763-7499
Scotthagerstrom @yahoo.com
/s/ Gregory J. Rohl P39185
The Law Offices of Gregory J. Rohl, P.C.
41850 West 11 Mile Road, Suite 110
Novi, MI 48375
248-380-9404
gregoryrohl@yahoo.com
CERTIFICATE OF SERVICE

This is to certify that I have on this day e-filed the foregoing Plaintiffs’ Motion for
Declaratory, Emergency, and Permanent Injunctive Relief and Memorandum in Support Thereof
using the CM/ECF system, and that I have delivered the filing to the Defendants by email and
FedEx at the following addresses:
This 29th day of November, 2020.
Governor Gretchen Whitmer
P.O. Box 30013
Lansing, Michigan 48909
info@gretchenwhitmer.com
Secretary of State Jocelyn Benson
Bureau of Elections
Richard H. Austin Building, 4th Floor
430 W. Allegan
Lansing, Michigan 48918
Elections@Michigan.gov
Board of State Canvassers
Bureau of Elections
Richard H. Austin Building, 1st Floor
430 W. Allegan
Lansing, Michigan 48918
Elections@Michigan.gov
/s/ Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700
*Application for admission pro hac vice
Forthcoming

17

Case 2:20-cv-13134-LVP-RSW ECF No. 7, PageID.1849 Filed 11/29/20 Page 18 of 18
000992

/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee
Lansing, MI 48933
(517) 763-7499
Scotthagerstrom @yahoo.com
/s/ Gregory J. Rohl P39185
The Law Offices of Gregory J. Rohl, P.C.
41850 West 11 Mile Road, Suite 110
Novi, MI 48375
248-380-9404
gregoryrohl@yahoo.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

18

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3068 Filed 12/03/20 Page 1 of 33
000993

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN

TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID
HOOPER and DAREN WADE RUBINGH,
v.

CASE NO. 20-cv-13134

Plaintiffs

GRETCHEN WHITMER, in her official capacity
as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, the Michigan
BOARD OF STATE CANVASSERS,
Defendants.

PLAINTIFFS’ RESPONSE TO RESPONSES IN OPPOSITION TO MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF AND
MEMORANDUM IN SUPPORT THEREOF

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3069 Filed 12/03/20 Page 2 of 33
000994

Table of Contents
PRELIMINARY MATTERS ........................................................................... 4

I.

A. Plaintiffs Have Standing ................................................................................ 4
1. Elector Standing under Electors and Elections Clause ............. 4
2. Voter Standing for Equal Protection and Due Process Claims 6
3. Standing Under Michigan Constitution and Michigan Election
Code .............................................................................................................. 8
B. Laches........................................................................................................... 8
C. Mootness ..................................................................................................... 10
D. Eleventh Amendment .................................................................................. 10
E. Abstention .................................................................................................. 11
F. Federal Jurisdiction .................................................................................... 15
II. RESPONSES TO FACT AND EXPERT WITNESSES ................................. 17
A. Defendants and Defendant-Intervenor Have Failed to Rebut Factual
Testimony ......................................................................................................... 17
B. Defendants and Defendant-Intervenor Have Failed to Rebut Expert
Testimony ......................................................................................................... 18
C. Defendants and Defendant-Intervenors Have Failed Altogether to Address
Dominion Testimony......................................................................................... 20
III.

PLAINTIFFS ARE ENTITLED TO INJUNCTIVE RELIEF ...................... 20

A. Plaintiffs have a substantial likelihood of success. ........................................ 21
B. The Plaintiffs will suffer Irreparable Harm ................................................. 23
C. The Balance of Equities & The Public Interest ............................................ 24
D. Plaintiffs Reiterate Request for Emergency Injunctive Relief Prior to
December 8, 2020. ............................................................................................. 24
IV. RELIEF REQUESTED ................................................................................. 25

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3070 Filed 12/03/20 Page 3 of 33
000995

INDEX OF AUTHORITIES
Page
Cases
Bognet v. Sec’y of Commonwealth, No. 20-2314, 2020 WL 6686120 (3d Cir. Nov. 13, 2020) 5
Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020) ………………………………………………..6
McPherson v. Blacker, 146 U.S. 1, 27 (1892) …………………………………………………..7
Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000) (per curiam)………………..7
Baker v. Carr, 369 U.S. 186 (1962)……………………………………………………………8
Reynolds v. Sims, 377 U.S. 533 (1964). ……………………………………………………….8
George v. Haslam, 112 F.Supp.3d 700, 710 (M.D. Tenn. 2015) ………………………………8
Lujan v. Defenders of Wildlife, 504 U.S. 555 560-561 (1992) …………………………………9
Hamlin v. Saugatuck Twp., 299 Mich. App. 233, 240-241 (2013) ……………………………..9
Meade v. Pension Appeals and Review Committee, 966 F.2d 190, 195 (6th Cir. 1992) ……….9
Toney v. White, 488 F.2d 310, 315 (5th Cir. 1973) …………………………………………….10
Alabama v. Pugh, 438 U.S. 781, 782 (1978) 11
Russell v. Lundergan-Grimes, 784 F.3d 1037, 1045 (6th Cir. 2015). 12
Colorado River Water Conservation Dist. v. United States, 424 U.S. 800, 808 (1976) 12
Harman v. Forssenius, 380 U.S. 528, 534, (1965) 12
Louisville Bedding Co. v. Perfect Fit Indus., 186 F. Supp. 2d 752, 753-754, 2001 U.S. Dist.
LEXIS 9599 ……………………………………………………………………………..14, f.n. 1
Guaranty Trust Co. v. York, 326 U.S. 99 (1945),……………………………………………....16
Holmberg v. Armbrecht, 327 U.S. 392, 395 (1946) ……………………………………………16
N.A.A.C.P. v. Ala. ex. rel. Patterson, 357 U.S. 449, 455 (1958)
…………………………………………………………………………………………………...16
Roosevelt, Kermit III, Light from Dead Stars: The Procedural Adequate and Independent State
Ground Reconsidered, 103 Columbia L. Rev. 1888, 1890 (citing Barr v. City of Columbia, 378
U.S. 146, 149 (1964);
………………………………………………………………………………………………...…16
Boddie v. Connecticut, 401 U.S. 371 (1971) ………………………………………………...…17
Ortwein v. Schwab, 410 U.S. 656 (1973); ……………………………………………………..17

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3071 Filed 12/03/20 Page 4 of 33
000996

Sosna v. Iowa, 419 U.S. 393 (1975) ………………………………………………….………17
Priorities United States v. Nessel, 2020 U.S. Dist. LEXIS 177888, *37-38 ( E.D. Mich.
September 17, 2020); …………………………………………………………………………17
OCA-Greater Houston v. Texas, 867 F.3d 604, 615 (5th Cir. 2017) ………………………..17
Stein v. Thomas, 222 F.Supp.3d 539, 542 (E.D. Mich. 2016) ………………………………..17
Cnty./Ohio Valley Sch. Bd., 310 F.3d 927, 928 (6th Cir. 2002)) ………………………… .. 21
City of Pontiac Retired Employees Ass’n v. Schimmel, 751 F.3d 427, 430 (6th Cir. 2014)… 21
Baker v. Carr, 369 U.S. 186 (1962) ………………………………………………………….23
Reynolds v. Sims, 377 U.S. 533 ………………………………………………………………23
Obama for America vs. Husted, 697 F.3d 423, 436 (6th Cir. 2012) …………………………25
Am. Civil Liberties Union of Kentucky v. McCreary Cnty., Ky., 354 F.3d 438, 445 (6th Cir.
2003)………………………………………………………………………………………….25
McCreary Cnty., Ky., v. Am. Civil Liberties Union of Ky., 545 U.S. 844 (2005) ………… ..25
Bush v. Gore, 531 U.S. 98 (2000) ………………………………………………….25
3 U.S.C. §5 …………………………………………………………………………25

MCL § 168.31a (setting forth election audit requirements)…………………………….9
MCL § 168.861 (quo warranto remedy for fraudulent or illegal voting). ……………..9
MCL §§ 168.730-738 ……………………………………………………………….22
MCL §§ 168.730-738………………………………………………………………….23

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3072 Filed 12/03/20 Page 5 of 33
000997

, MCL §§ 168.730-738 ……………………………………………………………….22
MCL §§ 168.730-738………………………………………………………………….23

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3073 Filed 12/03/20 Page 6 of 33
000998

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN

TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID
HOOPER and DAREN WADE RUBINGH,
v.

CASE NO. 20-cv-13134

Plaintiffs

GRETCHEN WHITMER, in her official capacity
as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, the Michigan
BOARD OF STATE CANVASSERS,
Defendants.

PLAINTIFFS’ RESPONSE TO RESPONSES IN OPPOSITION TO MOTION FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF AND
MEMORANDUM IN SUPPORT THEREOF
COMES NOW Plaintiffs, Timothy King, Marian Ellen Sheridan, John Earl Haggard,
Charles James Ritchard, James David Hooper, and Daren Wade Rubingh, by and through their
undersigned counsel, and file this Response, and Memorandum of Law In Support Thereof, to
Defendants’ and Intervenor-Defendants Response in Plaintiffs’ November 29, 2020 Motion for
Declaratory, Emergency and Permanent Injunctive Relief (“TRO Motion”). ECF No. 7.

Then you will know the truth, and the truth will set you free.
John 8:32

1

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3074 Filed 12/03/20 Page 7 of 33
000999

The 2020 Michigan election result certified by the defendants does not reflect the
voice of Michigan voters. It is a lie. But how do you prove a lie that is so repugnant to
democratic society that a fair-minded public and even well-intentioned government
officials dare to contemplate its premise? Without the assistance of subpoenas, courtordered discovery or any input from law enforcement, you start with the public record;
with statistical analysis; with eye witness accounts of what took place. Then you move to
expert analysis. The Amended Complaint does precisely that.
Russell Ramsland, in both his initial and rebuttal reports, explains in detail that in
the early morning hours of November 4, Michigan election officials tabulated 384,733
votes in four precincts whose machinery could not possibly have counted more than
94,867 votes during that time. Defendants submit testimony that, in general, votes are
reported in delayed batches. But, critically they do not state pro hac verba that the
precise vote tabulations identified by Ramsland was the product of a delayed batch.
Thus, Ramsland’s testimony remains unrebutted, and compels the unavoidable
conclusion that 289,866 ballots tabulated on November 4 must be disregarded.
Redacted witness referred to as “Spider”, a former member of the 305 Military
Intelligence unit responsible for protecting this country from enemy guided missiles,
explains vulnerabilities with the Dominion system. He sets forth in 17 pages of detailed
analysis and evidence that the Dominion voting system used throughout Michigan, and in
other states, was compromised and infiltrated by agents of China and Iran. Defendants
respond with silence.

2

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3075 Filed 12/03/20 Page 8 of 33
001000

Dozens of fact witnesses in sworn affidavits report of illegal vote switching,
double voting, dead people voting, ballot destruction, forging dates on ballots, tampering
with voter information, and harassment and assault of Republican election observers.
The defendants’ response, is “so what”, if it happened it was legal.
At this early stage of litigation, Plaintiffs ask this court to preserve the status quo
through a temporary restraining order, until a hearing can be set, preventing defendants
from facilitating the empowerment of the Democratic slate of Presidential Electors, to the
detriment of Plaintiffs. Defendants’ certified vote count does not represent real votes; it
is the product of fraud, illegality and cheating, which disenfranchises all lawful Michigan
voters regardless of party or preference. Only the truth will allow voters in this state to
find comfort and confident in their election process, and uphold the democratic values
this country was founded upon.

STATEMENT FACTS
The facts relevant to this Response are set forth in the November 29, 2020 First Amended
Complaint (“Complaint”), ECF No. 6, filed in the above-captioned proceeding, and its
accompanying exhibits, and the TRO Motion.

DISCUSSION
This brief will first in Section I respond to, and dispose of, Defendants and DefendantIntervenors specious legal arguments for denial of Plaintiffs’ TRO Motion on grounds of: (1)

3

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3076 Filed 12/03/20 Page 9 of 33
001001

standing, (2) laches, (3) mootness, (4) the Eleventh Amendment, (5) abstention, and (6) federal
jurisdiction.
In Section II, Plaintiffs respond to Defendant and Defendant Intervenors fact and expert
witnesses, and will demonstrate that these witnesses have in large part failed to respond to, much
less rebutted, the specific factual allegations made in the Complaint, and/or that the responses
made are based on speculation, circular reasoning, or bald assertions unsupported by evidence.
In Section III, Plaintiffs will respond to Defendant and Defendant Intervenors claims that
Plaintiffs have not met the requirements for injunctive relief, which are: (1) substantial likelihood
of success on the merits, and in particular that Plaintiffs have adequately pled their Constitutional
and statutory claims; (2) irreparable injury, (3) the balance of equities tips in their favor, and (4)
the requested relief is in the public interest.
I.

PRELIMINARY MATTERS
A.

Plaintiffs Have Standing

Each of Plaintiffs Timothy King, Marian Ellen Sheridan, John Earl Haggard, Charles
James Ritchard, James David Hooper, and Daren Wade Rubingh are registered Michigan
voters and are nominees of the Republican Party to be a Presidential Elector on behalf of the
State of Michigan. See ECF No. 6, “Parties”.
1.

Elector Standing under Electors and Elections Clause

Defendants and Defendant-Intervenors’ arguments on standing rely more or less
exclusively on the Third Circuit’s decision in Bognet v. Sec’y of Commonwealth, No. 20-2314,
2020 WL 6686120 (3d Cir. Nov. 13, 2020), where the court found that electors lacked
standing based on the particularities of a Pennsylvania law that are not present here. In

4

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3077 Filed 12/03/20 Page 10 of 33
001002

particular, the Bognet court did not discuss the significance of State law provisions pursuant to
which Presidential Electors are candidates for office.
State Defendants correctly note that Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020),
which affirmed that Presidential Electors have both Article III and Prudential standing under
the Electors and Elections Clauses, “was rooted heavily in the court’s interpretation of
Minnesota law.” ECF No. 31 at 12. What State Defendants neglect to mention is that the
Carson court relied on provisions of Minnesota law treating electors as candidates for office
are nearly identical to the corresponding provision of the Michigan Election Code because in
both States a vote cast for a party’s candidate for President and Vice-President are deemed to
be cast for that party’s Electors. Compare the relevant provisions of Minnesota election law,
Minn. Stat. §208.04(1) and MCL § 168.45.
When presidential electors … are to be voted for, a vote cast for the party
candidate for president and vice-president shall be deemed a vote cast for that
party’s electors … as filed with the secretary of state.
Minn. Stat. § 208.04(1) (emphasis added).
Marking a cross (X) or a check mark (✓) in the circle under the party name of a
political party, at the general November election in a presidential year, shall not
be considered and taken as a direct vote for the candidates of that political party
for president and vice-president or either of them, but, as to the presidential
vote, as a vote for the entire list or set of presidential electors chosen by that
political party and certified to the secretary of state pursuant to this chapter
MCL § 168.45 (emphasis added).
The Carson court concluded that, “[b]ecause Minnesota law plainly treats presidential electors
as candidate, we do, too.” Carson, 978 F.3d at 1057.
In other words, a vote for President Trump and Vice-President Pence in Michigan—
and Minnesota—is a vote for each Republican electors, and just as in Minnesota, illegal
conduct aimed at harming candidates for President similarly injures Presidential Electors. As

5

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3078 Filed 12/03/20 Page 11 of 33
001003

such, Plaintiff Elector candidates “have a cognizable interest in ensuring that the final vote
tally reflects the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and
particularized injury to candidates such as the Electors.” See also McPherson v. Blacker, 146
U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000) (per
curiam). Notably, Defendant and Defendant Intervenors have cited no Sixth Circuit or
Michigan precedent in support of their position, nor have they shown any relevant similarity
between Pennsylvania and Michigan law on election of electors.
2.

Voter Standing for Equal Protection and Due Process Claims

Defendant and Defendant-Intervenors misrepresent Plaintiffs’ Equal Protection and
Due Process claims, both in terms of substance and for standing purposes, insofar as they
claim that Plaintiffs’ claims are based solely on a theory of vote dilution that “will
proportionally impact every Michigan voter to the same mathematical degree,” (ECF No. 39 at
25; see also ECF No. 31 at 10 (“The alleged ‘dilution’ would affect all Michigan voters
equally …”), and therefore is a “generalized grievance,” rather than the concrete and
particularized injury required for Article III standing. ECF No. 36 at 7; see also ECF No. 31
at 11.
This is incorrect.
Plaintiff’s, on behalf of themselves and other similarly situated voters allege, first, and
with great particularity, that Defendants have both violated Michigan Election Code and
applied the Michigan Election Code to dilute the votes of Michigan’s Republican voters (or
voters for Republican candidates) with illegal, ineligible, duplicate or fictitious that
Defendants, in collaboration with public employees, Dominion and Democratic poll watchers
and activists, have caused to be counted as votes for Democratic candidates. The fact and

6

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3079 Filed 12/03/20 Page 12 of 33
001004

expert witness testimony describes and quantifies the myriad means by which Defendants and
their collaborators illegally inflated the vote tally for Biden and other Democrats, in districts
that were overwhelmingly Democratic such as the City of Detroit, including: double voting,
dead voting, double counting of same vote, forgery of ballot and voter information, illegally
completing or modifying ineligible ballots, ballot switching (Trump to Biden), changing dates
or backdating absentee ballots, failure to match signatures, etc., etc. See ECF No. 6, Section II
and III. Thus, the vote dilution resulting from this systemic and illegal conduct did not affect
all Michigan voters equally; it had the intent and effect of inflating the number of votes for
Democratic candidates and reducing the number of votes for Trump and Republican
candidates.
Further, Plaintiffs have presented evidence that, not only did Defendants dilute the
votes of Plaintiffs and similarly-situated voters for Republican candidates, they sought to
actively disenfranchise such voters to reduce their voting power, in clear violation of “one
person, one vote.” See generally Baker v. Carr, 369 U.S. 186 (1962); Reynolds v. Sims, 377
U.S. 533 (1964). Defendants engaged in several schemes to devalue Republican votes as
detailed in the Complaint, including Republican ballots being destroyed or discarded, or “1
person, 0 votes,” vote switching “1 person, -1 votes,” (Dominion and election workers
switching votes from Trump/Republican to Biden/Democrat), and Dominion algorithmic
manipulation, or for Republicans, “1 person, 1/2 votes,” and for Democrats, “1 person, 1.5
votes.” See e.g., ECF No. 6, Section II.C (ballot destruction/discarding) Ex. 101 (Dr. Briggs
Testimony regarding potential ballot destruction), Ex. 104 (Ramsland testimony regarding
additive algorithm), Section IV (multiple witnesses regarding Dominion vote manipulation).

7

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3080 Filed 12/03/20 Page 13 of 33
001005

Plaintiffs’ injury is that “the relative values of their particular votes [were] devalued,”
and as such, “theirs is not a generalized grievance about a law not being followed that is
applicable to all,” George v. Haslam, 112 F.Supp.3d 700, 710 (M.D. Tenn. 2015), as
Defendant and Defendant Intervenors claim. Plaintiffs have thus met the requirements for
stand: (1) the injuries of their rights under the Equal Protection and Due Process clauses that
concrete and particularized for themselves, and similarly situated voters, whose votes have
been debased (2) that are actual or imminent and (3) are causally connected to Defendants
conduct because the debasement of their votes is a direct and intended result of the conducts of
the Defendants and the public employee election workers they supervise. See generally Lujan
v. Defenders of Wildlife, 504 U.S. 555 560-561 (1992).
3.

Standing Under Michigan Constitution and Michigan Election Code

As such, they each have standing under the 2018 amendments to Article II of the
Michigan Constitution, which provides that “[e]very citizen of the United States who is an
elector qualified to vote in Michigan shall have the right,” among other things, “to have the
results of statewide elections audited, …, to ensure the accuracy and integrity of elections.”
Mich. Const. 1963, art. 2, §4(1)(h). Various provisions of the Michigan Election Code also
give any citizen the right to bring an election challenge within 30 days of an election where, as
here, it appears that a material fraud or error has been committed. See, e.g., Hamlin v.
Saugatuck Twp., 299 Mich. App. 233, 240-241 (2013) (citing Barrow v. Detroit Mayor, 290
Mich. App. 530 (2010)); MCL § 168.31a (setting forth election audit requirements); MCL
§ 168.861 (quo warranto remedy for fraudulent or illegal voting).
B.

Laches

Defendants and Defendant Intervenor assert that Plaintiffs claims are barred by laches.
See ECF No. 31 at 3-7; ECF No. 39 at 30. Laches consists of two elements, neither of which are

8

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3081 Filed 12/03/20 Page 14 of 33
001006

met here: (1) unreasonable delay in asserting one's rights; and (2) a resulting prejudice to the
defending party. Meade v. Pension Appeals and Review Committee, 966 F.2d 190, 195 (6th Cir.
1992). The bar is even higher in the voting rights or election context, where defendants asserting
the equitable defense must show that the delay was due to a “deliberate” choice to bypass
judicial remedies and they must do so “by clear and convincing" evidence. Toney v. White, 488
F.2d 310, 315 (5th Cir. 1973). The cases relied on by State Defendants are inapposite as the
plaintiffs in those cases waited years to file a challenge on the eve of an election, see ECF No. 31
at 5 (discussing Crookston v. Johnson, 841 F.3d 396, 398, (6th Cir. 2016) (Plaintiff waited
“nearly four years” to file claim), whereas here Plaintiffs filed mere days after the completion of
counting.
Further, the “delay” in filing after Election Day is almost entirely due to Defendants
failure to promptly complete counting until weeks after November 3, 2020—Michigan county
boards did not complete counting until November 17, 2020, and Defendant Michigan Board of
State Canvassers did not do so until November 23, 2020, ECF No. 31 at 4—a mere two days
before Plaintiffs filed their initial complaint on November 25, 2020. Plaintiffs admittedly would
have preferred to file sooner, but Plaintiffs needed some time to gather statements from dozens
of fact witnesses, retain and engage expert witnesses, and gather other data supporting their
Complaint, and this additional time was once again a function of the sheer volume of evidence of
illegal conduct by Defendants and their collaborators. Defendants cannot now assert the
equitable affirmative defense of laches, when any prejudice they may suffer, is entirely a result
of their own actions and misconduct.
Moreover, much of the misconduct identified in the Complaint was not apparent on
Election Day, as the evidence of voting irregularities was not discovered until weeks after the

9

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3082 Filed 12/03/20 Page 15 of 33
001007

election. William Hartman explains in a sworn statement dated November 18, 2020, that “on
November 17th there was a meeting of the Board of Canvassers to determine whether to certify
the results of Wayne County” and he had “determined that approximately 71% of Detroit’s 134
Absentee Voter Counting Boards were left unbalanced and unexplained.” He and Michele
Palmer voted not to Certify and only agreed upon a representation of a full audit, but then
reversed when they learned there would be no audit. (See ECF No. 6, Ex. 11 &12.) Further, the
certification that followed despite 71% of precincts showing voting irregularities was one of the
points where the extent of voter fraud and the pressure to hide any investigation of that fraud
became the clearest. Id. Furthermore, it is disingenuous to try to bottle this slowly counted
election into one day when in fact waiting for late arriving mail ballots and counting mail ballots
persisted long after “Election Day.”
C.

Mootness

State Defendants throw in a mootness argument that is similarly without merit. See ECF
No. 31 at 7-9. This argument is based on the false premise that this Court cannot order any of
the relief requested in the Complaint or the TRO Motion. This Court can grant the primary relief
requested by Plaintiffs – de-certification of Michigan’s election results and an injunction
prohibiting State Defendants from transmitting the results – as discussed in Section I.E. on
abstention below. There is also no question that this Court can order other types of declaratory
and injunctive relief requested by Plaintiffs, in particular, impounding Dominion voting
machines and software for inspection, nor have State Defendants claimed otherwise.
D.

Eleventh Amendment

State Defendants assert that Plaintiffs’ claims are barred by the Eleventh Amendment, but
the cases address circumstances that are not present here. See ECF No. 31 at 13 (discussing

10

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3083 Filed 12/03/20 Page 16 of 33
001008

Alabama v. Pugh, 438 U.S. 781, 782 (1978) (dismissing prison inmate lawsuit under the Eighth
and Fourteenth Amendment claims where Alabama had not consented to civil actions against it).
While the contours of the Eleventh Amendment’s jurisdictional bar are ambiguous in many
cases, this is not one of them. The Sixth Circuit recently addressed the scope of Eleventh
Amendment sovereign immunity in the election context in Russell v. Lundergan-Grimes, 784 F.3d
1037, 1045 (6th Cir. 2015). In Russell, the court held that federal courts do in fact have the power
to provide injunctive relief where the defendant, “The Secretary of State and members of the State
Board of Elections,” were like State Defendants, “empowered with expansive authority to
"administer the election laws of the state.’” Russell, 784 F.3d at 1047 (internal quotations omitted).
The court held that the Eleventh Amendment did not bar a federal court from “[e]njoining a
statewide official under Young based on his obligation to enforce a law is appropriate” where the
injunctive relief requested sought to enjoin actions (namely, prosecution) that was within the scope
of the official’s statutory authority. Id.
This is precisely what the Plaintiffs request in the Amended Complaint, namely, equitable
and injunctive relief to prospectively enjoin the Defendants from taking actions that are within the
scope of their statutory authority, in particular, Secretary Benson as chief election officer,
including but not limited to seeking a permanent injunction “enjoining Secretary Benson and
Governor Whitmer from transmitting the currently certified election results to the Electoral
College.” (See ECF No. 6 ¶1). Under Russell, the Eleventh Amendment is no bar to this Court
granting the requested relief.
E.

Abstention

State Defendants spill a lot of ink making an abstention claim based on Colorado River
Water Conservation Dist. v. United States, 424 U.S. 800, 808 (1976) (“Colorado River”), a case
addressing concurrent federal and state jurisdiction over water rights. See ECF No. 31 at 19-20.

11

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3084 Filed 12/03/20 Page 17 of 33
001009

Presumably they did so because the case setting the standard for federal abstention in the voting
rights and state election law context, Harman v. Forssenius, 380 U.S. 528, 534, (1965) is not
favorable to their cause. In Harman, the Supreme Court rejected
The Supreme Court rejected the Defendant state’s argument that federal courts should
dismiss voting rights claims based on federal abstention, emphasizing that abstention may be
appropriate where “the federal constitutional question is dependent upon, or may be materially
altered by, the determination of an uncertain issue of state law,” and “deference to state court
adjudication only be made where the issue of state law is uncertain.” Harman, 380 U.S. at 534
(citations omitted). But if state law in question “is not fairly subject to an interpretation which will
render unnecessary or substantially modify the federal constitutional question,” then “it is the duty
of the federal court to exercise its properly invoked jurisdiction.” Id. (citation omitted).
The State Defendants go on to describe several ongoing state proceedings where there is
some overlap with the claims and specific unlawful conduct identified in the Complaint. See
ECF No. 31 at 21-26. But State Defendants have not identified any uncertain issue of state law
that would justify abstention. See ECF No 31 at 21-26. Instead, as described below the
overlaps are over factual matters and the credibility of witnesses, and the finding of these courts
would not resolve any uncertainty about state law that would impact Plaintiffs constitutional
claims (Electors and Elections Clauses and Equal Protection and Due Process Clauses).
Defendants’ reliance on Colorado River is also misplaced insofar as they contend that
abstention would avoid “piecemeal” litigation, see id. at 38, because abstention would result in
exactly that. The various Michigan State proceedings raise a number of isolated factual and legal
issues in separate proceedings, whereas Plaintiffs’ Complaint addresses most of the legal claims
and factual evidence submitted in Michigan State courts, and also introduces a number of new

12

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3085 Filed 12/03/20 Page 18 of 33
001010

issues as well that are not present in any of the State proceedings. According, the interest in
judicial economy and avoidance of “piecemeal” would be best served by this Court retaining
federal question jurisdiction and supplemental jurisdiction over State law claims.
Defendants cited to four cases brought in the State courts in Michigan, none of which
have the same plaintiffs, and all of which are ongoing and have not been resolved by final orders
or judgments. (See ECF Nos. 31-6 to 31-15.) 1
•

Donald J. Trump v. Benson, Court of Claims, 20-000225. The court denied declaratory
relief on November 6, 2020 stating, “This is not a final order and it does not resolve the
last pending claim or close the case.” The Appeal filed related thereto was withdrawn
also without prejudice.

•

Constantino v. City of Detroit, Wayne Circuit Court, No. 20-014780. The court stated
that Plaintiff has multiple legal remedies and that “This is not a final order and it does not
resolve the last pending claim or close the case.

•

Johnson v. Benson, Michigan Supreme Court No. 162286. The Complaint seeks
declaratory relief and equitable relief, but not based on the identical claims or brought by
these Plaintiffs.

•

Stoddard v City Election Commission, Wayne Circuit Court No. 20-014604. Court
denied injunctive relief, without prejudice; involves different parties as well as nonidentical issues.

•

Bailey v. Antrim County, Antrim Circuit Court, No. 20-9238. Plaintiff seeks equitable
declaratory relief, but has not submitted similar evidentiary issues as in this case; not
final, involves different parties as well as non-identical issues.

1

The significant differences between the instant proceeding and the foregoing State proceedings
would also prevent issue preclusion. A four-element framework finds issue preclusion
appropriate if: (1) the disputed issue is identical to that in the previous action, (2) the issue was
actually litigated in the previous action, (3) resolution of the issue was necessary to support a
final judgment in the prior action, and (4) the party against whom issue preclusion is sought had
a full and fair opportunity to litigate the issue in the prior proceeding. See Louisville Bedding
Co. v. Perfect Fit Indus., 186 F. Supp. 2d 752, 753-754, 2001 U.S. Dist. LEXIS 9599 (citing
Graco Children's Products, Inc. v. Regalo International, LLC, 77 F. Supp. 2d 660, 662 (E.D. Pa.
1999). None of these requirements have been met with respect to Plaintiffs or the claims in the
Complaint.

13

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3086 Filed 12/03/20 Page 19 of 33
001011

Of equal importance is the fac that the isolated claims in State court do not appear to
present evidence demonstrating that a sufficient number of illegal ballots were counted to affect
the result of the 2020 General Election. The fact and expert witnesses presented in the
Complaint do. As summarized below, the Complaint alleges and provides supporting evidence
that the number of illegal votes is potentially multiples of Biden’s 154,188 margin in Michigan.
(See ECF No. 6 ¶16).
A. A report from Russell Ramsland, Jr. showing the “physical impossibility” of nearly
385,000 votes injected by four precincts/township on November 4, 2020, that resulted
in the counting of nearly 290,000 more ballots processed than available capacity
(which is based on statistical analysis that is independent of his analysis of
Dominion’s flaws), a result which he determined to be “physically impossible” (see
Ex. 104 ¶14);
B. A report from Dr. Louis Bouchard finding to be “statistically impossible” the widely
reported “jump” in Biden’s vote tally of 141,257 votes during a single time interval
(11:31:48 on November 4), see Ex. 110 at 28);
C. A report from Dr. William Briggs, showing that there were approximately 60,000
absentee ballots listed as “unreturned” by voters that either never requested them, or
that requested and returned their ballots. (See Ex. 101);
D. A report from Dr. Eric Quinell analyzing the anomalous turnout figures in Wayne and
Oakland Counties showing that Biden gained nearly 100% and frequently more than
100% of all “new” voters in certain townships/precincts over 2016, and thus indicated
that nearly 87,000 anomalous and likely fraudulent votes came from these precincts.
(See Ex. 102);
E. A report from Dr. Stanley Young that looked at the entire State of Michigan and
identified nine “outlier” counties that had both significantly increased turnout in 2020
vs. 2016 almost all of which went to Biden totaling over 190,000 suspect “excess”
Biden votes (whereas turnout in Michigan’s 74 other counties was flat). (See Ex.
110);
F. A report from Robert Wilgus analyzing the absentee ballot data that identified a
number of significant anomalies, in particular, 224,525 absentee ballot applications
that were both sent and returned on the same day, 288,783 absentee ballots that were
sent and returned on the same day, and 78,312 that had the same date for all (i.e., the
absentee application was sent/returned on same day as the absentee ballot itself was
sent/returned), as well as an additional 217,271 ballots for which there was no return
date (i.e., consistent with eyewitness testimony described in Section II below). (See

14

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3087 Filed 12/03/20 Page 20 of 33
001012

Ex. 110);
G. A report from Thomas Davis showing that in 2020 for larger Michigan counties like
Monroe and Oakland Counties, that not only was there a higher percentage of
Democrat than Republican absentee voters in every single one of hundreds of
precinct, but that the Democrat advantage (i.e., the difference in the percentage of
Democrat vs. Republican absentee voter) was consistent (+25%-30%) and the
differences were highly correlated, whereas in 2016 the differences were
uncorrelated. (See Ex. 110); and
H. A report by an affiant whose name must be redacted to protect his safety who
concludes that “the results of the analysis and the pattern seen in the included graph
strongly suggest a systemic, system-wide algorithm was enacted by an outside agent,
causing the results of Michigan’s vote tallies to be inflated by somewhere between
three and five point six percentage points. Statistical estimating yields that in
Michigan, the best estimate of the number of impacted votes is 162,400. However, a
95% confidence interval calculation yields that as many as 276,080 votes may have
been impacted.” (See Ex. 111 ¶13).
F.

Federal Jurisdiction

Article I, § 4 and Article II, § 1 of the U.S. Constitution grant plenary authority to state
legislatures to enact laws that govern the conduct of elections. Unlike the situation where a court
is situated in diversity jurisdiction and deciding an entirely state-law matter, as presented in
Guaranty Trust Co. v. York, 326 U.S. 99 (1945), in this action this Court has “no duty … to
approximate as closely as may be State law in order to vindicate without discrimination a right
derived solely from a State.” Holmberg, 327 U.S. at 395. Rather, the duty here is that “of federal
courts, sitting as national courts throughout the country, to apply their own principles in
enforcing an equitable right” created under the U.S. Constitution. Id.
“[F]ederal jurisdiction is not defeated if the nonfederal ground relied on by the state
court is ‘without any fair or substantial support ….’” N.A.A.C.P. v. Ala. ex. rel. Patterson, 357
U.S. 449, 455 (1958)(quoting Ward v. Board of County Commissioners, 253 U.S. 17, 22
(1920)).

15

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3088 Filed 12/03/20 Page 21 of 33
001013

“State procedural rules have been held insufficient to bar federal review if they are ‘not
strictly or regularly followed,’ if they are ‘novel and unforeseeable,’ … or if they impose undue
burdens on the assertion of federal rights.” Roosevelt, Kermit III, Light from Dead Stars: The
Procedural Adequate and Independent State Ground Reconsidered, 103 Columbia L. Rev. 1888,
1890 (citing Barr v. City of Columbia, 378 U.S. 146, 149 (1964); Daniel J. Meltzer, State Court
Forfeitures of Federal Rights, 99 Harv. L. Rev. 1128, 1137-45 (1986); Douglas v. Alabama, 380
U.S. 415, 422-23 (1965)).
Consistently, this Court has reviewed such deprivation of access to the courts under a
Due Process Clause, and Equal Protection framework. See, e.g., Boddie v. Connecticut, 401 U.S.
371 (1971); Ortwein v. Schwab, 410 U.S. 656 (1973); but see Sosna v. Iowa, 419 U.S. 393
(1975) (declining to apply Boddie the restriction of access did not amount to a “total
deprivation”). "In short, ‘within the limits of practicability, a state must afford to all individuals
a meaningful opportunity to be heard if it is to fulfill the promise of the Due Process Clause.”
Bodie, 401 U.S. at 377. (internal citations omitted).
When a state fails to correct a violation of the state’s Constitution in the context of
federal elections and fails to provide any avenue for relief for federal election challengers, it
violates the U.S. Constitution. The definition of "voting" appears to include all stages of
applying for an absentee ballot. Priorities United States v. Nessel, 2020 U.S. Dist. LEXIS
177888, *37-38 ( E.D. Mich. September 17, 2020); see also OCA-Greater Houston v. Texas, 867
F.3d 604, 615 (5th Cir. 2017) (Interpreting the VRA and stating that "'[t]o vote,' therefore,
plainly contemplates more than the mechanical act of filling out the ballot sheet. It includes steps
in the voting process before entering the ballot box, 'registration,' and it includes steps in the
voting process after leaving the ballot box, 'having such ballot counted properly.' Indeed, the

16

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3089 Filed 12/03/20 Page 22 of 33
001014

definition lists 'casting a ballot' as only one example in a non-exhaustive list of actions that
qualify as voting.").
II.

RESPONSES TO FACT AND EXPERT WITNESSES
A.

Defendants and Defendant-Intervenor Have Failed to Rebut Factual
Testimony

Defendants have submitted a number of affidavits, consisting mostly of recycled
testimony from ongoing State proceedings, that purports to rebut Plaintiffs’ fact witnesses all of
which boil down to: (1) they did not see what they thought they saw; (2) maybe they did see
what they thought they saw, but it was legal on the authority of the very government officials
engaged in or overseeing the unlawful conduct; (3) the illegal conduct described could not have
occurred because it is illegal; and/or (4) sure it happened, but those were independent criminal
actions by public employees over whom State Defendants had no control.
Below are a few examples of State Defendant affiants’ non-responsive responses,
evasions and circular reasoning, followed by Plaintiff testimony and evidence that remains
unrebutted by their testimony.
•

Illegal or Double Counted Absentee Ballots. Affiant Brater asserts that Plaintiffs’
allegation regarding illegal vote counting can be “cursorily dismissed by a review of election
data,” and asserts that if illegal votes were counted, there would be discrepancies in between
the numbers of votes and numbers in poll books. ECF No. 31-3 ¶19. Similarly, Christopher
Thomas, asserts that ballots could not, as Plaintiffs allege, see FAC, Carrone Aff., have been
counted multiple times because “a mistake like that would be caught very quickly on site,”
or later by the Wayne County Canvassing Board. ECF No. 39-6 ¶6. Mr. Brater and Mr.
Thomas fails to acknowledge that is precisely what happened, where the Wayne County
Canvassing Board found that over 70% of Detroit Absentee Voting Board (“AVCB”) were
unbalanced, and that two members of Wayne County Board of Canvassers initially refused to
certify results and conditioned certification on a manual recount and answers to questions
such as “[w]hy the pollbooks, Qualified Voter Files, and final tallies do not match or
balance.” FAC ¶¶105-107 & Ex. 11-12 (Affidavits of Wayne County Board of Canvasser
Chairperson Monica Palmer and Member William C. Hartmann). Further, Plaintiffs’ affiants
testified to observing poll workers assigning ballots to different voters than the one named on
the ballot. FAC ¶86 & Larsen Aff.

17

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3090 Filed 12/03/20 Page 23 of 33
001015

•

Illegal Conduct Was Impossible Because It Was Illegal. Mr. Thomas wins the prize in this
round for tautological and circular reasoning for his assertion that “[i]t would have been
impossible for any election worker at the TCF Center to count or process a ballot for
someone who was not an eligible voter or whose ballot was not received by the 8:00 p.m.
deadline on November,” and “no ballot could have been backdated,” because no ballots
received after the deadline “were ever at the TCF Center,” nor could the ballot of an
ineligible voter been “brought to the TCF Center.” ECF No. 39-5 ¶20; id. ¶27. That is
because it would have been illegal, you understand. The City of Detroit’s absentee voter
ballot quality control was so airtight and foolproof that only 70% of their precincts were
unbalanced for 2020 General Election, which exceeded the standards for excellence
established in the August 2020 primary where 72% of AVCB were unbalanced. FAC Ex. 11
¶¶7&14.
State Defendants Affiants did not, however, dismiss all of Plaintiff Affiants’ claims and

made key admissions that the conduct alleged did in fact occur, while baldly asserting, without
evidence, that this conduct was legal and consistent with Michigan law.
•

Election Workers at TCF Center Did Not Match Signatures for Absentee Ballots.

•

Election Workers Used Fictional Birthdates for Absentee Voters. ECF No. 39-5 ¶15.
The software made them do it.

•

Election Workers Altered Dates for Absentee Ballot Envelopes. Mr. Thomas does not
dispute Affiant Jacob’s testimony that “she was instructed by her supervisor to adjust the
mailing date of absentee ballot packages” sent to voters, but asserts this was legal because
“[t]he mailing date recorded for absentee ballot packages would have no impact on the rights
of the voters and no effect on the processing and counting of absentee votes.”
B.

Defendants and Defendant-Intervenor Have Failed to Rebut Expert
Testimony

As a general matter, Defendants and Defendant-Intervenors present testimony from
Michigan, Wayne County and City of Detroit Election Officials that are apparently meant as both
fact and expert witnesses simultaneously, but their testimony should be rejected as inadmissible
or irrelevant, insofar as they simply dismiss or issue blanket denials of testimony submitted by
Plaintiffs’ affiant. They do not, however, respond to the specific allegations made by Plaintiffs’
affiants, nor do they provide evidence, or analysis of data in their sole possession and control,
that could rebut Plaintiffs’ specific examples.

18

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3091 Filed 12/03/20 Page 24 of 33
001016

Below are a few of the most significant examples:
•

Ramsland Testimony: November 4 Voting “Spike.” Mr. Brater dismisses Ramsland’s
analysis of the November 4 voting spikes where 384,733 ballots in four precincts/townships
were tallied in 2 hours and 38 minutes, with the blanket assertion that Mr. Ramsland “does
not understand how unofficial election results are reported in Michigan,” and that unofficial
totals “are the products that have been counted throughout the day.” ECF No. 31-3 ¶18. Mr.
Brater, however, says nothing about the specific event cited by Ramsland, nor does he offer
any analysis or evidence using election data within control of Defendants to refute Mr.
Ramsland or demonstrate that his purported explanation accounts for the events in Wayne
County or other counties on Election Night. As such, Mr. Braten’s assertion is unsupported
speculation that must be dismissed.

•

Ramsland Testimony: “Ranked Choice Voting” Algorithm. Defendant-Intervenors expert
Dr. Rodden seeks to dismiss and ridicule Mr. Ramsland testimony for failing to understand
what ranked-choice voting is, ECF No. 13-2 at 24, but Dr. Rodden’s response indicates he
has not carefully read Mr. Ramsland’s testimony, where he is taking the term from
Dominion’s own user guide. FAC ¶141 & Ex. 104 ¶14. Mr. Ramsland instead uses the term
“additive algorithm” to describe what Dominion refers to as the RCV method. FAC ¶141 &
Ex. 104 ¶14. More importantly, Dr. Rodden acknowledges that Election Night data
included fractional votes, speculating that these votes were when “workers at Edison
Research multiplied total votes cast by vote shares that had been rounded;” ECF No. 13-2 at
24. Thus their only disagreement concerns the cause for fractional votes – which both agree
are non-sensical as votes can only have integer values – not the existence of this data, and his
only response is his own speculation, rather than his expert opinion.

•

Wilgus Testimony. Defendant-Intervenors mischaracterize the report submitted by Robert
Wilgus as a statistical analysis. ECF No. 36 at 11. It is not. Mr. Wilgus is an IT professional
who simply performed a query in a voter database obtained through a FOIA request, which
tallied the values in certain fields. FAC Ex. 110. As such, it is sorting and tallying entries in
database fields; there was no statistical analysis. Further, this same data is in the possession
of Defendant, including among other things, voting records where the ballot application, or
absentee ballots, were sent and returned on same date, yet they failed to provide any analysis
or evidence that the raw numbers tabulated by Mr. Wilgus using a simply database query are
wrong, or to explain the meaning of the data in their possession. Mr. Brater’s speculation
that these results may be accounted for by in-person absentee voters is similarly nonresponsive. ECF No. 31-3 ¶20.c. Defendants or Mr. Brater have access to State, County and
City records that could identify how many of these hundreds of thousands of voters were inperson absentee voters, so that Plaintiffs and this Court could focus on the remainder not
accounted by Mr. Brater’s assertion.
The following Plaintiff expert witnesses have also submitted rebuttal testimony in

response to the Defendant Intervenor exhibits.
•

Briggs Rebuttal. William Briggs, with a PhD in statistics from Cornell, provides as
Exhibit 1 hereto his in-depth response to Stephen Ansolabehere’s rebuttal of Briggs’ original

19

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3092 Filed 12/03/20 Page 25 of 33
001017

report. In essence, Briggs shows that Ansolabehere’s critiques are not supported with
evidence, fail basic logic tests, do not consider the methods applied and speak to insignificant
matters. As an example, the critique of a low response rate is accounted for in his analysis
and he explains the marginally larger prediction interval that he originally applied to account
for this.
•

Quinnell Rebuttal. In response to the paper submitted by Jonathan Rodden with a Political
Science PhD, Eric Quinnell, a PhD in Computer arithmetic, provides a response attached as
Exhibit 2.

•

Ramsland Rebuttal. Mr. Ramsland has submitted his rebuttal as Exhibit 3, which provides
more detail on data and methodology.

•

Redacted Affiant Rebuttal. DNC’s response to the complaint at the bottom of pg. 15 “the
purported analysis is wholly unexplained and conclusory” and does not lay out the data or
methods. This critique fails to rebut the clearly described analysis with any form of evidence
whatsoever. The Redacted Affiant provides a follow-up report to expand on his sources and
methods that is attached as Exhibit 4.
C.

Defendants and Defendant-Intervenors Have Failed Altogether to Address
Dominion Testimony

Defendants and Defendant-Intervenors have failed altogether to respond to evidence
presented by Plaintiffs regarding Dominion voting fraud and manipulation, except to point and
sputter, dismissing it as an “unfounded conspiracy theory,” DNC Brief at 14, “bizarre”, ECF No.
31-3, Brater aff. at ¶15, etc, without responding to, much less rebutting, Plaintiffs’ allegation.
Defendant-Intervenors’ only attempt to respond to Plaintiffs, other than non-responsive
ridicule and insults, is by attaching Dominion press release as if it were an objective authority to
whom this Court should refer, rather than a co-conspirator in Defendants’ fraudulent scheme
alleged in great detail by Plaintiffs. ECF No. 36-11.
III.

PLAINTIFFS ARE ENTITLED TO INJUNCTIVE RELIEF
“To determine whether to grant a preliminary injunction or temporary restraining

order, a district court must consider: (i) whether the movant has a strong likelihood of success
on the merits; (ii) whether the movant would suffer irreparable injury without the injunction;
(iii) whether issuance of the injunction would cause substantial harm to others; and (iv)

20

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3093 Filed 12/03/20 Page 26 of 33
001018

whether the public interest would be served by the issuance of the injunction.” Stein v.
Thomas, 222 F.Supp.3d 539, 542 (E.D. Mich. 2016) (citing Baker v. Adams Cnty./Ohio Valley
Sch. Bd., 310 F.3d 927, 928 (6th Cir. 2002)); see also City of Pontiac Retired Employees Ass’n
v. Schimmel, 751 F.3d 427, 430 (6th Cir. 2014).
All elements are met here, and Defendant and Defendant Intervenor responses have not
shown otherwise.
A.

Plaintiffs have a substantial likelihood of success.

Through detailed fact and expert testimony including documentary evidence contained in
the Complaint and its exhibits, Plaintiffs have made a compelling showing that Defendants’
intentional actions jeopardized the rights of Michigan citizens to select their leaders under the
process set out by the Michigan Legislature through the commission of election frauds that
violated Michigan laws, including multiple provisions of the Michigan Election Code. These
acts also violated the Equal Protection and Due Process Clauses of the United States
Constitution. U.S. Const. Amend XIV.
Defendants and Defendant-Intervenors misrepresent Plaintiffs’ constitutional claims.
Plaintiffs allege both vote dilution and voter disenfranchisement, both of which are claims under
the Equal Protection and Due Process Clause, due to the actions of Defendants in collusion with
public employees and voting systems like Dominion. The Complaint describes in great detail
Defendants’ actions to dilute the votes of Republican voters through counting and even
manufacturing hundreds of thousands of illegal, ineligible, duplicative or outright fraudulent
ballots.
While the U.S. Constitution itself accords no right to vote for presidential electors,
“[w]hen the state legislature vests the right to vote for President in its people, the right to vote as
the legislature has prescribed is fundamental; and one source of its fundamental nature lies in the

21

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3094 Filed 12/03/20 Page 27 of 33
001019

equal weight accorded to each vote and the equal dignity owed to each voter.” Bush v. Gore, 531
U.S. 98, 104 (2000) (emphasis added). The evidence shows not only that Defendants failed to
administer the November 3, 2020 election in compliance with the manner prescribed by the
Michigan Legislature in the Michigan Election Code, MCL §§ 168.730-738, but that Defendants
committed a scheme and artifice to fraudulently and illegally manipulate the vote count to make
certain the election of Joe Biden as President of the United States. This conduct violated
Plaintiffs’ equal protection and due process rights as well their rights under the Michigan
Election Code and Constitution. See generally MCL §§ 168.730-738 & Mich. Const. 1963, art.
2, §4(1).
But Defendants’ actions also disenfranchised Republican voters in violation of the U.S.
Constitution’s “one person, one vote” requirement by:
•

Republican Ballot Destruction: “1 Person, 0 Votes.” Fact and witness expert testimony
alleges and provides strong evidence that tens or even hundreds of thousands of Republican
votes were destroyed, thus completely disenfranchising that voter.

•

Republican Vote Switching: “1 Person, -1 Votes.” Plaintiffs’ fact and expert witnesses
further alleged and provided supporting evidence that in many cases, Trump/Republican
votes were switched or counted as Biden/Democrat votes. Here, the Republican voter was
not only disenfranchised by not having his vote counted for his chosen candidates, but the
constitutional injury is compounded by adding his or her vote to the candidates he or she
opposes.

•

Dominion Algorithmic Manipulation: For Republicans, “1 Person, 0.5 Votes,” while for
Democrats “1 Person, 1.5 Votes. Plaintiffs presented evidence in the Complaint regarding
Dominion’s algorithmic manipulation of ballot tabulation, such that Republican voters in a
given geographic region, received less weight per person, than Democratic voters in the same
or other geographic regions. See ECF No. 6, Ex. 104. This unequal treatment is the 21st
century of the evil that the Supreme Court sought to remedy in the apportionment cases
beginning with Baker v. Carr, 369 U.S. 186 (1962), and Reynolds v. Sims, 377 U.S. 533
(1964). Further, Dominion has done so in collusion with State actors, including Defendants,
so this form of discrimination is under color of law.
This Court, in considering Plaintiffs’ constitutional and voting rights claims under a

“totality of the circumstances” and thus must consider the cumulative effect of the specific

22

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3095 Filed 12/03/20 Page 28 of 33
001020

instances or categories of Defendants’ voter dilution and disenfranchisement claims. Taken
together, these various forms of unlawful and unconstitutional conduct destroyed or shifted tens
or hundreds of thousands of Trump votes, and illegally added tens or hundreds of thousand of
Biden votes, changing the result of the election, and effectively disenfranchising the majority
of Michigan voters.
While Plaintiffs allege several categories of traditional “voting fraud”, Plaintiffs have
also alleged new forms of voting dilution and disenfranchisement made possible by new
technology. The potential for voter fraud inherent in electronic voting was increased as a direct
result of Defendants’ and Defendant-Intervenors’ to transform traditional in-person paper voting
– for which there are significant protections from fraud in place – to near universal absentee
voting with electronic tabulation – while at the same time eliminating through legislation or
litigation – and when that failed by refusing to enforce – traditional protections against voting
fraud (voter ID, signature matching, witness and address requirements, etc.).
Thus, while Plaintiffs’ claims include novel elements due to changes in technology and
voting practices, that does not nullify the Constitution or Plaintiffs’ rights thereunder.
Defendants and Defendant-Intervenors have implemented likely the most wide-ranging and
comprehensive scheme of voting fraud yet devised, integrating new technology with old
fashioned urban machine corruption and skullduggery. The fact that this scheme is novel does
not make it legal, or prevent this Court from fashioning appropriate injunctive relief to protect
Plaintiffs’ right and prevent Defendants from enjoying the benefits of their illegal conduct.
B.

The Plaintiffs will suffer Irreparable Harm

Plaintiffs will suffer an irreparable harm due to the Defendants’ myriad violations of
Plaintiffs’ rights under the U.S. Constitution, the Michigan Constitution and the Michigan
Election Code, and Defendant and Defendant Intervenors have not shown otherwise.

23

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3096 Filed 12/03/20 Page 29 of 33
001021

In this Response, Plaintiffs have refuted and rebutted their arguments in detail, in
particular, regarding standing, equitable defenses, and jurisdictional claims, as well as
establishing their substantial likelihood of success. Having disposed of those arguments, and
shown a substantial likelihood of success, this Court should presume that the requirement to
show irreparable injury has been satisfied.
When Constitutional rights are threatened or impaired, irreparable injury is
presumed. A restriction on the fundamental right to vote therefore constitutes an
irreparable injury.
Obama for America vs. Husted, 697 F.3d 423, 436 (6th Cir. 2012) (citations omitted). See also
Am. Civil Liberties Union of Kentucky v. McCreary Cnty., Ky., 354 F.3d 438, 445 (6th Cir. 2003)
aff’d sub nom., McCreary Cnty., Ky., v. Am. Civil Liberties Union of Ky., 545 U.S. 844 (2005)
(where a plaintiff’s constitutional rights are at issue, the movant need only show that his rights
are “threatened,” from which showing “a finding of irreparable injury is mandated.”).
C.

The Balance of Equities & The Public Interest

Defendant and Defendant Intervenors make a few half-hearted attempts on this element,
but add nothing new or that merits a response.
D.

Plaintiffs Reiterate Request for Emergency Injunctive Relief Prior to
December 8, 2020.

Under Bush v. Gore, 531 U.S. 98 (2000), Plaintiffs are entitled to emergency
injunctive relief that must be granted in advance of December 8, 2020, which is the
“safe harbor” date for States to submit their slates of electors under 3 U.S.C. § 5. There,
the Supreme Court granting an emergency application for stay of Florida recount
because there was “no recount procedure in place … that comports with minimal
constitutional safeguards,” and any recount procedure that could meet constitutional
requirements could not be completed by the 3 U.S.C. §5 safe harbor date. Accordingly,

24

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3097 Filed 12/03/20 Page 30 of 33
001022

this Court must schedule and complete any required hearings, briefings and responses in
time to issue a decision before December 8, 2020.
IV.

RELIEF REQUESTED
Plaintiffs seek a de-certification of Michigan’s election results or a stay in the delivery of

the certified results to the Electoral College to preserve the status quo while this case proceeds,
as well as seeking the impounding of the voting machines made available and other equitable
relief, on an emergency basis, due to the irreparable harm, and impending election voting for the
electors, as stated in the Complaint.

25

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3098 Filed 12/03/20 Page 31 of 33
001023

Respectfully submitted, this 3rd day of December 2020.

2911 Turtle Creek Blvd, Suite 300
Dallas, Texas 75219

/s Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700

*Application for admission pro hac vice
forthcoming
Attorneys for Plaintiffs
/s/ Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700
*Application for admission pro hac vice
Forthcoming
/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee
Lansing, MI 48933
(517) 763-7499
Scotthagerstrom @yahoo.com
/s/ Gregory J. Rohl P39185
The Law Offices of Gregory J. Rohl, P.C.
41850 West 11 Mile Road, Suite 110
Novi, MI 48375
248-380-9404
gregoryrohl@yahoo.com

26

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3099 Filed 12/03/20 Page 32 of 33
001024

CERTIFICATE OF SERVICE
This is to certify that I have on this day e-filed the foregoing Plaintiffs’ Motion for
Declaratory, Emergency, and Permanent Injunctive Relief and Memorandum in Support Thereof
using the CM/ECF system, and that I have delivered the filing to the Defendants by email and
FedEx at the following addresses:
This 29th day of November, 2020.
Governor Gretchen Whitmer
P.O. Box 30013
Lansing, Michigan 48909
info@gretchenwhitmer.com
Secretary of State Jocelyn Benson
Bureau of Elections
Richard H. Austin Building, 4th Floor
430 W. Allegan
Lansing, Michigan 48918
Elections@Michigan.gov
Board of State Canvassers
Bureau of Elections
Richard H. Austin Building, 1st Floor
430 W. Allegan
Lansing, Michigan 48918
Elections@Michigan.gov
/s/ Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700
*Application for admission pro hac vice
Forthcoming
/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee
Lansing, MI 48933
(517) 763-7499
Scotthagerstrom @yahoo.com
/s/ Gregory J. Rohl P39185
The Law Offices of Gregory J. Rohl, P.C.

27

Case 2:20-cv-13134-LVP-RSW ECF No. 49, PageID.3100 Filed 12/03/20 Page 33 of 33
001025

41850 West 11 Mile Road, Suite 110
Novi, MI 48375
248-380-9404
gregoryrohl@yahoo.com
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

28

Case 2:20-cv-13134-LVP-RSW ECF No. 49-1, PageID.3101 Filed 12/03/20 Page 1 of 4
001026

Response to Stephen Ansolabehere’s Comments Regarding
Absentee Ballots Across Several States
William M. Briggs
December 3, 2020

1

Summary

The criticisms made by Stephen Ansolabehere in response to my original report on absentee ballots
are not relevant, make simple errors in logic, and even, in part, work against him to show my original
argument could be made even stronger.
Ansolabehere repeatedly charges that because I was brief in saying “I assume survey respondents are
representative and the data is accurate” that therefore the respondents were not representative and the
data not accurate. This is a silly error and a wholly unwarranted conclusion. Not only was this data
entirely typical of phone surveys, and therefore the data having all the usual strengths and weaknesses of
the genre, it was extraordinary in that calls with respondents were recorded. The designers of the survey
evidently knew its quality would be attacked—and were prepared for it.
There were no fatal errors in the survey data or calculations, as the well-paid Ansolabehere falsely
claims. (Five hundred fifty American dollars per hour for the many hours he spent on his comments? My
work is entirely pro bono.) Instead, I took pains to put forward the most conservative case, interpreting
the data in a way that actually reduced the number of troublesome ballots.
Although Ansolabehere made many mistakes, I thank him for the opportunity of allowing me to make
a point I neglected to emphasize in my original presentation. This is the striking unity of results across
several battleground states. The data shows either an amazing coincidence in accumulated troublesome
ballots in just those places they were needed most for Biden, or the data shows something more interesting
happened.
What follows are answers to specific criticisms.

2

Rebuttal

Ansolabehere pads his account with many extraneous words and arguments. I will be much briefer, while
also answering every substantial criticism he made.

2.1

Error Definition

My original definition of errors were this:
Error #1: being recorded as sent an absentee ballot without requesting one.
Error #2: sending back an absentee ballot and having it recorded as not returned.
These followed directly from the survey design. The survey began by asking “Q1 - May I please speak
to <lead on screen>?” If the person was available, they were asked “Q2 - Did you request an absentee
ballot?”
Finally, if they said yes to that, respondents were asked “Q3 - Did you mail back that ballot?”
Ansolabehere finds ambiguity in these three simple questions via a wonderful display of specious
argument, one he repeats in many places. He basically says that because the questions could have been

1

Case 2:20-cv-13134-LVP-RSW ECF No. 49-1, PageID.3102 Filed 12/03/20 Page 2 of 4
001027

misinterpreted in the various ways he suggests, they therefore were misinterpreted by a sufficient number
of respondents, thus rendering the survey useless.
My answer is that this is a dumb argument. He has no evidence misinterpretations were made in the
way he suggests. He could have spent the same amount of (expensive) time and came up with reasons
why the survey was not misinterpreted.
For instance, the election was in the news and people were riled. They therefore welcomed the chance
to set the record straight, and to ensure their legal ballots were counted. They were thus even more
honest than they normally would be with telephone pollsters.
Of course, I have no evidence this, or other similar stories, are true. Just as Ansolabehere has no
evidence his charges are true. All we can do, then, is to treat this survey like we treat all surveys: analyze
the data as it is presented.

2.2

Ambiguous Wording

I will give one specific example of Ansolabehere trying to discover ambiguity. They are all much the
same. He says:
The wording of Question 3 is also very problematic. First, it does not ascertain whether
the ballot was mailed back in a timely manner so as to be included in the record of ballots
cast. Some or possibly all of the cases in question are late ballots, and thus not necessarily
included in the absentee vote record. Second, Question 3 asks whether someone voted. Survey
questions asking whether someone voted are notoriously subject to social desirability biases
that lead to inflation in the estimated number of voters.
Again, Ansolabehere uses the possibility of a thing as proof the thing existed. There no evidence, not
one bit, that ballots were sent back late. Indeed, as all news reports indicate, especially in Pennsylvania,
certain late ballots were warmly accepted.
His second point is the same: because people lie on surveys, therefore they lied here in sufficient
number. Would Ansolabehere apply this same reasoning to his own words? It is clearly nonsense. If
accepted, his argument would toss out all surveys about voting.

2.3

Response Rate

Ansolabehere charges “The survey has extremely low response rates.” He must know that the response
rate here was not atypical. That is, it was low like many telephone polls are. But low does not imply too
low. He must know this. Further, the mathematical extrapolations I made accounted for the size of the
data.
Perhaps because Ansolabehere is a specialist in government, he does not know that when samples are
low the confidence we have in extrapolations is wider. I will give one example, using Georgia, though
this works for data from any state.
The original estimates of Error #2 for Georgia were that between 31,559–38,866 ballots were sent
back but recorded as not returned, a “plus or minus” window of 7,307 votes. If we suppose we had double
the response rate on the survey, in the same proportions as the original, then the Error #2 estimate
becomes 32,945–38,096, a window of 5,151 votes. The 95% prediction interval shrinks, as expected, as
we become more confident.
It does not shrink by much, of course, showing the analysis method is robust. If instead we allow a
full ten times the original response rate, the plus-or-minus window shrinks to 2,234 votes.
Response rate is not a problem, and has been fully accounted for.

2.4

Top line Number Interpretations

Ansolabehere produces a lot of quibbles about the survey numbers, and uses the possibility of different
interpretations of the numbers to say my entire analysis can’t be trusted.

2

Case 2:20-cv-13134-LVP-RSW ECF No. 49-1, PageID.3103 Filed 12/03/20 Page 3 of 4
001028

It is true that differences can exist in interpreting the top line numbers. I was aware of this when I
did the analysis, which is why I everywhere used conservative interpretations. If I instead use one of the
interpretations Ansolabehere suggests, the case about troublesome votes is made is even stronger.
I will use Georgia again as an example, though this applies to all states.
Again, the first question asked to speak to the relevant person. In Georgia, 767 were recorded as
“Reached target”, and an additional 255 were recorded as “‘What is this about?’/Uncertain [Go to Q2].”
I summed these two numbers to reach a total of 1,022.
One quibble is that the 255 who were uncertain should not be used in the total. If not, the sample
size is, of course, reduced to 767. Yet we still have 142 who said “No” when asked if they received an
absentee ballot. The ratio 142/767 is larger than 142/1022, meaning it will look like even more errors
were made (of type Error #1).
The original estimate of Error #1 (being recorded as sent an absentee ballot without requesting one)
for Georgia was the window of 16,938–22,771. If we reduce the sample to 767 by excluding the disputed
255, the new estimate is 22,481–30,042. It goes up in just the way we expect it to. This proves using the
full 1,022 is the conservative choice.
Another way to interpret the top lines is to use all people who got to the point of Question 1.
Ansolabehere disingenuously prefers this because it makes his case appear stronger.
Besides the two options to Question 1 already mentioned (reached target, uncertain), there were also
“Refused” and “Hangup”. I treated these as non-responses, which is the usual interpretation. A person
who hangs up without responding is the same as the person who never answers, as far as the answering
the question goes.
In the spirit of generosity, though, let’s use all 1,175 who reached Question 1 (instead of the original
1,022), including the hangups and refusals. The window for Error #1 becomes 14,778–19,903. The
window shrinks, as Ansolabehere desires. But not by enough. This is still a large and troublesome
window. The same is true for each state investigated.
Even stronger, the window for Error #2, the more significant error, does not change. This is because
the calculations for this window are conditional only on those who answered Question 2 and 3.
Lastly, Ansolabehere disputes whether the answers spouses or other household members gave should
be allowed. I used them in the totals. Ansolabehere would exclude them. This is really a nitpicking point
because the total of these answers were small.
Here is proof. Again, the original window for Error#2 in Georgia was 31,559–38,866. This was
conditional on the 257 respondents or their spouses or household members who said they mailed a ballot
back. If we remove the 17 spouses or household members, the window becomes 29,372–36,512. It shrinks
a bit. But again, not by enough.
All comments made here hold for all states.

3

Conclusion

The doubts cast on my original analysis by Ansolabehere either fail simple tests of logic, or are so small
as to make no practical difference in the conclusion.
All his logical errors can be dismissed. Suggesting, as he often does, that mistakes can be made or
that ambiguity might exist in the survey, is not proof that either does exist. I could have spent an equal
amount of (unremunerated in my case) time suggesting ways the survey was better than most political
polls. For instance, people are aware now more than ever of the importance of this election and they took
greater care with their answers. I did not do this in the original report because I, unlike Ansolabehere,
know the true value of such speculations.
The various numerical quibbles Ansolabehere has with the survey numbers either strengthen my case,
or they are so small as to make no practical difference. Even with his own difficult-to-justify assumptions,
the analysis reveals there still exist very large numbers of troublesome ballots in each battleground state.
There are enough suspicious ballots left, even using his numbers, that could have changed the outcome
of the election.

3

Case 2:20-cv-13134-LVP-RSW ECF No. 49-1, PageID.3104 Filed 12/03/20 Page 4 of 4
001029

Finally, I reemphasize the remarkable coincidence that the amount of troublesome ballots was important to the election outcome in each state.

4

Declaration of William M. Briggs, PhD

1. My name is William M. Briggs. I am over 18 years of age and am competent to testify in this action.
All of the facts stated herein are true and based on my personal knowledge.
2. I received a Ph.D of Statistics from Cornell University in 2004.
3. I am currently a statistical consultant. I make this declaration in my personal capacity.
4. I have analyzed data regarding responses to questions relating to mail ballot requests, returns and
related issues.
5. I attest to a reasonable degree of professional certainty that the resulting analysis are accurate.
I declare under the penalty of perjury that the foregoing is true and correct.

3 December 2020
William M. Briggs

4

Case 2:20-cv-13134-LVP-RSW ECF No. 49-2, PageID.3105 Filed 12/03/20 Page 1 of 6
001030

Case 2:20-cv-13134-LVP-RSW ECF No. 49-2, PageID.3106 Filed 12/03/20 Page 2 of 6
001031

Case 2:20-cv-13134-LVP-RSW ECF No. 49-2, PageID.3107 Filed 12/03/20 Page 3 of 6
001032

Case 2:20-cv-13134-LVP-RSW ECF No. 49-2, PageID.3108 Filed 12/03/20 Page 4 of 6
001033

Case 2:20-cv-13134-LVP-RSW ECF No. 49-2, PageID.3109 Filed 12/03/20 Page 5 of 6
001034

Case 2:20-cv-13134-LVP-RSW ECF No. 49-2, PageID.3110 Filed 12/03/20 Page 6 of 6
001035

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3111 Filed 12/03/20 Page 1 of 32
001036

December 3, 2020

King et al. v. Whitmer et al., Case No. 2:20-CV-13134
United States District Court for Eastern District of
Michigan

Expert Report of Russell J. Ramsland, Jr.

________________________________________
Russell J. Ramsland, Jr.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3112 Filed 12/03/20 Page 2 of 32
001037

1) There are many reasons to be concerned about the Dominion Voting System and
the results it produces. It is well documented and demonstrated that it’s heritage
and software origins are extremely unsettling, given its close relationship to
Smartmatic and Scytl, facts that have only become clearer with the 4 redacted
declarations I have now seen from Spider. For this reason, any analysis as to the
integrity of any election conducted using Dominion should be executed with a
healthy degree of skepticism, and evidence of abnormal results should be overweighted, if anything.
Our team has extensive experience as white hat hackers and employ many
methodologies and tools to trace and certify connections between servers, network
nodes and other digital properties and probe for network system vulnerabilities. In
addition to Robtex and Spiderfoot, we also employ such tools as Whois,
GeoIpLookup, nslookup, host, ipinfo.io, etc.
From our own company’s work, I can attest to the credibility and veracity of the
information contained in the four redacted declarations by Spider. Along with
several others, we have found many of the same connections, relationships and
vulnerabilities. Further, Clarity Elections and Scytl are integral to the network as
well as Dominion and Edison Research and they too have multiple vulnerabilities
and their vulnerabilities represent further vulnerabilities into Dominion.
For instance, inside the SCYTL System at a point called staging.scytl.us, malware
called QSnatch is visible. QSnatch represents a deep vulnerability to any election
system that touches it such as Dominion and Edison Research. QSnatch
characteristics include:
• CGI password logger - This installs a fake version of the device admin login
page, logging successful authentications and passing them to the legitimate
login page.
• Credential scraper – This grabs the credentials of any administrator whose
system loads any information into Scytl or Clarity Elections which includes
Dominion and Edison Research. This means the credentials of every county
election official of every state where Dominion manages elections in the U.S.
are vulnerable to being compromised and utilized by unauthorized persons.
This includes all counties in Georgia and the counties in Michigan which use
Dominion.
• SSH backdoor – This allows the cyber actor to execute arbitrary code on a
device.
• Exfiltration – When run, steals a predetermined list of files which includes
system configuration & log files. Encrypted with hacker’s public key and sent
to their infrastructure over HTTPS.
• Webshell functionality – Allows an attacker remote access
• Persistence & Mitigation – The malware itself can make it impossible to run
needed firmware updates. Once infected, a full factory reset must be done on
the device prior to doing a firmware update to stop vulnerability.
Here is its location:

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3113 Filed 12/03/20 Page 3 of 32
001038

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3114 Filed 12/03/20 Page 4 of 32
001039

Further, from the NYT Edison data displayed below, it is also clear from Series 358
that with only 2 decimals showing in the Biden percentage of 0.45, the total fraction
displayed cannot get anywhere near 100% regardless of any truncation in the
Trump percentage.
https://static01.nyt.com/elections-assets/2020/data/api/2020-11-03/racepage/michigan/president.json
Example:
/data/races/0/timeseries/357/

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3115 Filed 12/03/20 Page 5 of 32
001040

Hence, calculating the “points” for each candidate from the NYT Edison time series
by multiplying the votes by the percentage to show the calculated votes/ (TV =
Trump Votes) (BV = Biden Votes)

3) The second piece of evidence that an algorithm is being utilized comes from our
observation that the percentage of the votes submitted in each batch that went
towards a candidate remain unchanged for a long series of time and for a number of
consecutive batches is extremely concerning. Further, the percentage for Trump
decreases in a mathematically extremely consistent pattern. The red arrows
indicate the impossible consistencies. The statistical impossibility of the consistent
percentage reported to Biden approaches zero. This makes clear an algorithm in the
election system is allocating votes based on a percentage.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3116 Filed 12/03/20 Page 6 of 32
001041

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3117 Filed 12/03/20 Page 7 of 32
001042

The middle graph:
The total accumulated votes counted at any point in time for each candidate is
represented in this graph. Red is Trump. Blue is Biden.
The lower graph:
Each bar on this graph represents what percentage of the votes submitted in each batch
went towards a candidate, where Trump is positive and Biden is negative.
Analysis:
There are multiple highly anomalous features in this visualization of the Michigan, USA
2020 General Election vote count data. It is important to understand the context of the
lower graph and analysis. Every batch of vote counts released represents various groups
of people and their votes. These groups of people’s votes are expected to have variance,
even if multiple batches were produced out of the same geographic area. Large numbers
of votes between multiple candidates are unlikely to have the same percentage of going
towards a candidate multiple times in different batches.
What we see in the lower graph instead of the expected variance in percentage of votes
going to Trump or Biden in each batch are easily distinguishable trends, which are
realistically improbable. The statistical probability of that pattern occurring throughout
the graph approaches zero.
The observation of these trends not only strongly suggests fraud, but also suggests
automated and algorithmic tampering of vote counts.
There is a mechanical correlation between the suspected algorithmically generated vote
count releases (labeled in blue on the bottom graph) and the relative difference between
the line in the upper graph and zero (an intersection with the line at y=0 in the upper
graph indicates a change in which candidate is leading). Furthermore, as soon as the line
in the upper graph intersects with y=0, the algorithmically generated vote count releases
switch to the opposing side - possibly to either maintain or eek in a Biden victory.
Once the majority of apparent real and organic votes ceased to be counted, we are
left with large swaths of released vote counts that repeatedly have the same exact
percentage of votes in each release going to Biden. By exact, I mean exact. That is
until stray batches of apparent organic votes are released, and then the percentage
of votes in each release from the apparent algorithmically generated vote counts
going to Biden seem to adjust slightly to account for the change, which then
continue to repeat in each release, until the next stray organic batch, and the cycle
repeats. It is difficult to come up with a realistic scenario where this described
phenomenon is not the result of an algorithm behind the scenes.
4) The suggestion that the information included in the “Spike Chart” of my original
affidavit could be simply tabulated votes that were suddenly all reported is
erroneous. The spike data came from Edison Research data and Oakland, the largest
spike, was for November 7th, well past any “pent up” tabulated vote batches. Later
data we found direct from Dominion to the NYT that did not pass through Edison
confirms this and even adds further granularity.
5) That there are problems in the Dominion System is clear from a visit our team
made to Central Lake Township in Antrim Michigan on behalf of a local lawsuit filed
by Michigan attorney Robert Marsh. Below is the field report submitted to me by
our team.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3118 Filed 12/03/20 Page 8 of 32
001043

ASOG Forensics Report on Central Lake Township in Antrim Michigan
Report Date 11/29/2020
Report Version 1.4
On 11/27/2020 the ASOG forensics team visited Central Lake Township in
Antrim Michigan on behalf of a local lawsuit filed by Michigan attorney Robert
Marsh.
The clerk of Central Lake Township – at around 10:30am – Ms. Judith L.
Kosloski, presented to us “two separate paper totals tape” from Tabulator ID 2.
One dated “Poll Opened Nov. 03/2020 06:38:48” (Roll 1)
Another dated “Poll Opened Nov. 06/2020 09:21:58” (Roll 2)
We were then told by her that on November 5, 2020, Ms. Kosloski was notified
by Connie Wing of the County Clerk’s Office and asked to bring the tabulator and
ballots to the County Clerk’s office for re-tabulation. They ran the ballots and
printed “Roll 2”. She noticed a difference in the votes and brought it up to the
clerk, but canvasing still occurred, and her objections were not addressed.
Our team analyzed both rolls and compared the results.
Roll 1 had 1,494 total votes
Roll 2 had 1,491 votes (Roll 2 had 3 less ballots because 3 ballots were
damaged in the process.)
“Statement of Votes Cast from Antrim” shows that only 1,491 votes were
counted, and the 3 ballots that were damaged were not entered into final results.
Ms. Kosloski stated that she and her assistant manually refilled out the three
ballots, curing them, and ran them through the ballot counting system - but the
final numbers do not reflect the inclusion of those 3 damaged ballots.
http://www.antrimcounty.org/downloads/official results 2nd amended.pdf
Source: http://www.antrimcounty.org/elections.asp
In comparing the numbers on both rolls, we estimate 1,474 votes changed
across the two rolls, between the first and the second time the exact same ballots
were run through the County Clerk’s vote counting machine - which is almost the
same number of voters that voted in total.
The five most significant changes in vote totals are in the screenshots below:
• On Election night, Trump received 566 votes, Biden received 340. On
the recount, Trump had 1 less vote at 565 while Biden was unchanged
at 340. This is particularly odd since 3 votes less were tabulated. So

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3119 Filed 12/03/20 Page 9 of 32
001044

potentially Trump could have lost between 3 and 4 votes overall on a
very small sample – but that did not happen.

• A Proposed Initiated Ordinance to Authorize One (1) Marihuana (sic)
Retailer Establishment Within the Village of Central Lake (1). – On
election night, it was a tie vote. Then, on the recount, when 3 ballots
were not counted, the proposal passed with 1 vote being removed from
the No vote.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3120 Filed 12/03/20 Page 10 of 32
001045

• For the School Board Member for Central Lake Schools (3) there were
742 votes added to this vote total. Since multiple people were elected,
this did not change the result of both candidates being elected, but you
do see a change in who had more votes. If it were a single person
election, this would have changed the outcome, but this goes to the fact
that votes can be and were changed during the second machine
counting.

• For the School Board Member for Ellsworth Schools (2) it shows 657
votes being removed from this election. In this case, only 3 people who
were eligible to vote actually voted. Since there were 2 votes allowed for
each voter to cast, the recount is correct to have 6 votes. But on
election night, there is a major calculation issue:

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3121 Filed 12/03/20 Page 11 of 32
001046

• In State Proposal 20-1 (1), there is a major change in votes in this
category.
Proposal 1 is a fairly technical and complicated proposed amendment to
the Michigan Constitution to change the disposition and allowable uses
of future revenue generated from oil and gas bonuses, rentals and
royalties from state-owned land. There were 774 votes for YES during
the election, to 1,083 votes for YES on the recount.
Information about the proposal: https://crcmich.org/publications/statewideballot-proposal-20-1-michigan-natural-resources-trust-fund

Process
Our team interviewed Ms. Kosloski on the process of tabulation and how the
system works.
Essentially, the Township Clerk is given two Compact Flash Cards and a
Security Key.
One CF card (also known as ISD Card) goes into the

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3122 Filed 12/03/20 Page 12 of 32
001047

“ADMINISTRATOR” in the “CF CARD 2” Slot and the other in the “POLL
WORKER” in the “CF CARD 1” Slot. The security key is used on the
“SECURITY KEY” connector on top.
Pre-election, Ms. Kosloski was given the cards by the County Clerk’s office. The
County Clerk is Sheryl Guy.
Once the printed ballots are hand-marked by voters, they are run through the
machine. At the close of the polls, they run the totals on the print and bring the
two CF Cards and security key back to the County Clerk for loading into the
server. The cards and keys are not given back to the Township Clerk – these
essential technical data sources for the Townships are thereafter held by the
County Clerk.
On November 6th, at the request of the County Clerk, and with no explanation,
Ms. Kosloski was told to bring the tabulator serial number AAFAJHX0226 and
sealed ballots to the Country Clerk’s office. There, she was presented with two
CF Cards and a security key. Then, they re-ran the original election day ballots.
During this process, 3 ballots were damaged and not tabulated on the “Roll 2”
results. Again, under the oversight of the canvassing board, Ms. Kowloski cured
those ballots, and re-ran them, but they appear to have not been counted in the
final vote totals.
Conclusion
The ASOG forensics team believes that a software change loaded into Tabulator
ID 2 on November 6th did occur, and this caused the vote totals to change. The
change happened on the Tabulator unit, but did so using software configurations
from the Country Clerk. The Clear Lake Township Clerk Ms. Kosloski has never
been told why they needed to re-tabulate the ballots.
The forensics team would like access to the CF Cards and Security Key for Roll
1 and the CF Cards and Security Key for Roll 2. We also request unrestricted
access to the machine that programs the CF Cards, which we believe is called
the “Election Event Designer” software of Dominion Democracy Suite – or likesoftware that was used to program these CF Cards.
We do not believe that the Secretary of State report addresses this, and states
the issue at the time was not on the printed totals tape. The Secretary even
states “Because the Clerk correctly updated the media drives for the tabulators
with changes to races, and because the other tabulators did not have changes to
races, all tabulators counted ballots correctly.” This is not the case.
We believe this directly contradicts the Sectary of State fact check document.
(Link below.)
November 7, 2020 Isolated User Error in Antrim County Does Not Affect Election
Results, Has no Impact on Other Counties or States - Jocelyn Benson –
Secretary of State of Michigan

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3123 Filed 12/03/20 Page 13 of 32
001048

https://www.michigan.gov/documents/sos/Antrim Fact Check 707197 7.pdf
Excerpt from document:
“These errors can always be identified and corrected because every tabulator
prints a paper totals tape showing how the ballots for each race were counted.
After discovering the error in reporting the unofficial results, the clerk worked
diligently to report correct unofficial results by reviewing the printed totals tape on
each tabulator and hand-entering the results for each race, for each precinct in
the county. Again, all ballots were properly tabulated. The user error affected
only how the results from the tabulators communicated with the election
management system for unofficial reporting.
Even if the error had not been noticed and quickly fixed, it would have been
caught and identified during the county canvass when printed totals tapes are
reviewed. This was an isolated error, there is no evidence this user error
occurred elsewhere in the state, and if it did it would be caught during county
canvasses, which are conducted by bipartisan boards of county canvassers.”
Summary
If this had been a user setup issue, then the test ballots they run to verify the
results they get by comparing them with the test matrix should have caught that.
When they made the software change that that used to tabulate the 11/6/20 rerun, there should be a log of the test ballots run through the system and verified
against the test matrix. This alone might not show fraud, but it is a crucial part of
the software configuration validation process and apparently was not done.
We believe to a reasonable degree of professional certainty that this shows fraud
and that vote changing at the local tabulator level has occurred due to a software
change in all precincts were Dominion software was used in Michigan. This small
sample amplified in a large population area would have major results. Without
the explanation of why there was a re-tabulation, why the issue of numbers being
off to a significant degree when a vote change was noted, and no further
investigation occurred – and when 3 ballots were removed from the totals that
changed the final outcome of one proposal, constitutes a definitive indication of
fraud.
6) Finally, Dr. Rodden was correct in his noting of excessive turnout figures listed in
my affidavit for some precincts in MI based on new data from Michigan. The source
of that original data was State level data that no longer exists or some unexplained
reason. It existed at
https://data.michigan.gov/
https://mielections.us/election/results/2020GEN CENR.html
Currently, new data published by the various counties does change. However, at
this point we see the current State of Michigan published data as follows:

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3124 Filed 12/03/20 Page 14 of 32
001049

County
Ottawa

Genesee

Precinct
Spring Lake Township, Precinct 6 - B
City of South Haven, Ward 3, Precinct 2 (Van Buren
County)
Grand Island Town Prec 1
Tallmadge Charter Township, Precinct 3 - C
GROSSE POINTE SHORES-3
Fenton, Precinct 2
Zeeland Charter Township, Precinct 4 - D
Ravenna Township Precinct 1
Thornapple Township, Precinct 1
Novi Township, Precinct 1
Byron Township Precinct 4
Jamestown Charter Township, Precinct 2
Thornapple Township, Precinct 2
Lyon Township, Precinct 8
Oceola Township, Precinct 5
Holland Charter Township, Precinct 4 - B
Lake Angelus, Precinct 1
Port Sheldon Township, Precinct 1 - A
Grand Blanc Township,
Precinct 10

Ottawa
Kent
Washtenaw
Oakland
Livingston
Sanilac
Ottawa
Oakland
Oakland
Washtenaw
Sanilac
Sanilac
Washtenaw
Kent
Oakland
Oakland

Blendon Township, Precinct 2 - B
Vergennes Township Precinct 1
York Township, Precinct 2
Oakland Township, Precinct 3
City of Brighton, Precinct 4
Flynn Township, Precinct 1
Blendon Township, Precinct 1 - B
Southfield Township, Precinct 4
Huntington Woods, Precinct 3
York Township, Precinct 3
Delaware Township, Precinct 1
Wheatland Township, Precinct 1
City of Dexter, Precinct 2
Cascade Charter Township Precinct 8
Lyon Township, Precinct 6
Southfield Township, Precinct 3

Allegan
Alger
Ottawa
Macomb
Oakland
Ottawa
Muskegon
Barry
Oakland
Kent
Ottawa
Barry
Oakland
Livingston
Ottawa
Oakland
Ottawa

Turnout
120.00%
100.00%
96.77%
95.24%
94.00%
93.33%
90.59%
89.72%
89.23%
89.13%
89.08%
88.88%
88.88%
88.78%
88.53%
88.28%
88.21%
88.19%
87.96%
87.91%
87.75%
87.69%
87.68%
87.60%
87.37%
87.04%
87.03%
87.00%
86.97%
86.95%
86.90%
86.84%
86.83%
86.81%
86.79%

The data shows 469 precincts with voter turn-out above 80%, according to current
Michigan county records. Normalizing the current public data votes to 80% turnout
(still 15%+/- above normal), the excess votes are at least 27,599 over the maximum
that could be expected.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3125 Filed 12/03/20 Page 15 of 32
001050

Declaration of NAME {redacted}.
Pursuant to 28 U.S.C Section 1746, I, {redacted}, make the following declaration.
1. I am over the age of 21 years and I am under no legal disability, which would prevent me from giving this
declaration.
2. I was an electronic intelligence analyst under 305th Military Intelligence with experience gathering SAM
missile system electronic intelligence. I have extensive experience as a white hat hacker used by some of the
top election specialists in the world. The methodologies I have employed represent industry standard cyber
operation toolkits for digital forensics and OSINT, which are commonly used to certify connections
between servers, network nodes and other digital properties and probe to network system vulnerabilities.
3. I am a US citizen and I reside at {redacted} location in the United States of America.
4. The following link analysis was gathered through open source methodologies and are easily verifiable.
5. As Dominion and Smartmatic makes claims that they are not connected in any way, not only are they
connected but their business registration was in the same building on a foreign island to obfuscate their
business dealings.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3126 Filed 12/03/20 Page 16 of 32
001051

https://offshoreleaks.icij.org/nodes/101732449

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3127 Filed 12/03/20 Page 17 of 32
001052

https://offshoreleaks.icij.org/nodes/101724285

I declare under penalty of perjury that the forgoing is true and correct to the best of my knowledge. Executed
this November 23th, 2020.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3128 Filed 12/03/20 Page 18 of 32
001053

Smartmatic SSL Certificate

Declaration of NAME {redacted}.
Pursuant to 28 U.S.C Section 1746, I, {redacted}, make the following declaration.
1. I am over the age of 21 years and I am under no legal disability, which would prevent me from giving this
declaration.
2. I was an electronic intelligence analyst under 305th Military Intelligence with experience gathering SAM
missile system electronic intelligence. I have extensive experience as a white hat hacker used by some of the
top election specialists in the world. The methodologies I have employed represent industry standard cyber
operation toolkits for digital forensics and OSINT, which are commonly used to certify connections
between servers, network nodes and other digital properties and probe to network system vulnerabilities.
3. I am a US citizen and I reside at {redacted} location in the United States of America.
4. Researching Smartmatic’s website and reading their public manuals about the reuse of SSL certificate’s, I
started to investigate Smartmatic’s SSL certificates. Upon searching their website is currently behind
Cloudflare yet using the same SSL certificate it made it easy to locate where Smartmatic’s website was
located. Smartmatic’s website is in the Philippine’s on their Election commission’s server
(Comelec.gov.ph).

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3129 Filed 12/03/20 Page 19 of 32
001054

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3130 Filed 12/03/20 Page 20 of 32
001055

5. As can be seen in the images above the SSL certificate used was registered by the email address
jesus.suarez@smartmatic.com on the 9th of April 2016.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3131 Filed 12/03/20 Page 21 of 32
001056

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3132 Filed 12/03/20 Page 22 of 32
001057

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3133 Filed 12/03/20 Page 23 of 32
001058

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3134 Filed 12/03/20 Page 24 of 32
001059

6. As seen from Jesus’ LinkedIn profile, he was employed by Smartmatic as their Master Information Security Specialist
from August 2008 – March 2017, within the time frame of the registered SSL certificate for Smartmatic and within
Venezuela.
7. This evidence shows that Smartmatic was indeed connected to Venezuela as well as shows that their dealings with
the Philippine’s is still on-going as their website is in their election commission servers with matching and current
SSL certificates.

I declare under penalty of perjury that the forgoing is true and correct to the best of my knowledge. Executed
this November 23th, 2020.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3135 Filed 12/03/20 Page 25 of 32
001060

Declaration of
Pursuant to 28 U.S.C Section 1746, I,

Smartmatic SSL Certificate
, make the following declaration.

1. I am over the age of 21 years and I am under no legal disability, which would prevent me from giving this
declaration.
2. I was an electronic intelligence analyst under 305th Military Intelligence with experience gathering SAM
missile system electronic intelligence. I have extensive experience as a white hat hacker used by some of the
top election specialists in the world. The methodologies I have employed represent industry standard cyber
operation toolkits for digital forensics and OSINT, which are commonly used to certify connections
between servers, network nodes and other digital properties and probe to network system vulnerabilities.
3. I am a US citizen and I reside at

location in the United States of America.

4. Researching Smartmatic’s website and reading their public manuals about the reuse of SSL certificate’s, I
started to investigate Smartmatic’s SSL certificates. Upon searching their website is currently behind
Cloudflare yet using the same SSL certificate it made it easy to locate where Smartmatic’s website was
located. Smartmatic’s website is in the Philippine’s on their Election commission’s server
(Comelec.gov.ph), as seen below:

1

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3136 Filed 12/03/20 Page 26 of 32
001061

2

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3137 Filed 12/03/20 Page 27 of 32
001062

3

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3138 Filed 12/03/20 Page 28 of 32
001063

5. As can be seen in the images above the SSL certificate used was registered by the email address
jesus.suarez@smartmatic.com on the 9th of April 2016.

4

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3139 Filed 12/03/20 Page 29 of 32
001064

5

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3140 Filed 12/03/20 Page 30 of 32
001065

6

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3141 Filed 12/03/20 Page 31 of 32
001066

7

Case 2:20-cv-13134-LVP-RSW ECF No. 49-3, PageID.3142 Filed 12/03/20 Page 32 of 32
001067

6. As seen from Jesus’ LinkedIn profile, he was employed by Smartmatic as their Master Information Security Specialist
from August 2008 – March 2017, within the time frame of the registered SSL certificate for Smartmatic and within
Venezuela.
7. This evidence shows that Smartmatic was indeed connected to Venezuela as well as shows that their dealings with the
Philippine’s is still on-going as their website is in their election commission servers with matching and current SSL
certificates.

I declare under penalty of perjury that the forgoing is true and correct to the best of my knowledge. Executed
this December 3rd, 2020.

8

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3143 Filed 12/03/20 Page 1 of 10
001068

Declaration of
Pursuant to 28 U.S.C Section 1746, I,

, make the

following declaration.
1.

I am over the age of 21 years and am a resident of Monroe

County, Florida.
2.

I am under no legal disability that would prevent me from

giving this declaration.
3.

I hold a Bachelor of Science degree in Mathematics and a

Master of Science degree in Statistics.
4.

For thirty years, I have conducted statistical data analysis for

companies in various industries, including aerospace, consumer
packaged goods, disease detection and tracking, and fraud detection.
5.

From November 13th, 2020 through November 28th, 2020, I

conducted in-depth statistical analysis of publicly available data on the
2020 U.S. Presidential Election. This data included vote counts for each
county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee.
6.

The analysis yielded several “red flags” concerning the

percentage of votes won by candidate Biden in counties using voting

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3144 Filed 12/03/20 Page 2 of 10
001069

machines provided by Dominion Voting Systems.

These red flags

occurred in several States in the country, including Michigan.
7.

I began by using Chi-Squared Automatic Interaction

Detection (CHAID), which treats the data in an agnostic way—that is, it
imposes no parametric assumptions that could otherwise introduce bias.
Here, I posed the following question: “Do any voting machine types
appear to have unusual results?” The answer provided by the statistical
technique/algorithm was that machines from Dominion Voting Systems
(Dominion) produced abnormal results.
8.

Subsequent graphical and statistical analysis shows the

unusual pattern involving machines from Dominion occurs in at least 100
counties and multiple States, including Michigan.
9.

For this statistical analysis I conducted multi-variable

stepwise regression analysis using US Census data to develop a
predictive model. The model predicts the percentage of votes candidate
Biden “should” receive in any county based on the social, economic,
ethnic, and demographic make-up of the county.

Development of the

model used the actual results from the 2020 US Election, as provided by
Edison Research. This regression technique is a common tool used in

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3145 Filed 12/03/20 Page 3 of 10
001070

many industries, and I have successfully used this technique and US
census data for many clients across many years.
10.

For any one county, the actual percentage of votes won by

candidate Biden will not perfectly match the value predicted by the
model.

However, a good model gives estimates that are too high

(compared to actual results) approximately half the time, and too low
approximately half the time.

My model underestimates candidate

Biden’s actual results in 45% of US counties, and overestimates Biden’s
actual performance in 55% of US counties. This is statistical evidence of
a good and useful model.
11.

The predictions from this model, based on US census data,

allow us to examine if actual results from Dominion machines show an
unusual pattern.

By comparing actual Biden results against our

predictions, we can see whether the differences are “random” – or if they
follow any unusual patterns.

Random chance variation will cause the

actual results from any one county to be above or below our prediction.
But the Dominion machines show variation of Biden over-performing too
often for it to be considered random chance. In fact, the actual results
from counties with Dominion machines follow a very predictable

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3146 Filed 12/03/20 Page 4 of 10
001071

mathematical pattern compared to our predicted values (see point 17
below). The unusual aspect of the actual results from counties with
Dominion machines is not random. That is why we conclude some
external, non-random force is in effect in conjunction with Dominion
machines.
12.

The results from most, if not all counties using the Dominion

machines is three to five point six percentage points higher in favor of
candidate Biden than the results should be. This pattern is seen easily
in graphical form when the results from “Dominion” counties are overlaid
against results from “non-Dominion” counties.

The results from

“Dominion” counties do not match the results from the rest of the counties
in the United States. The results are certainly statistically significant,
with a p-value of < 0.00004.

This translates into a statistical

impossibility that something unusual involving Dominion machines is
not occurring. This pattern appears in multiple States, including
Michigan, and the margin of votes implied by the unusual activity would
easily sway the election results.
13.

The following graph shows the pattern. The large red dots

are counties in Michigan that use Dominion voting machines. Almost all

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3147 Filed 12/03/20 Page 5 of 10
001072

of them are above the blue prediction line, when in normal situations
approximately half of them would be below the prediction line (as
evidence by approximately half the counties in the U.S. (blue dots) that
are below the blue centerline).

The p-value of statistical analysis

regarding the centerline for the red dots (Michigan counties with
Dominion

machines)

is

0.000000049,

pointing

to

a

statistical

impossibility that this is a “random” statistical anomaly. Some external
force

caused

this

anomaly.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3148 Filed 12/03/20 Page 6 of 10
001073

14.

To confirm that Dominion machines were the source of the

pattern/anomaly, I conducted further analysis using propensity scoring
using U.S. census variables (Including ethnicities, income, professions,
population density and other social/economic data) , which was used to
place counties into paired groups. Such an analysis is important because
one concern could be that counties with Dominion systems are
systematically different from their counterparts, so abnormalities in the
margin for Biden are driven by other characteristics unrelated to the
election.
15.

After matching counties using propensity score analysis, the

only difference between the groups was the presence of Dominion
machines. This approach again showed a highly statistically significant
difference between the two groups, with candidate Biden again averaging
three percentage points higher in Dominion counties than in the
associated paired county. The associated p-value is < 0.00005, against
indicating a statistical impossibility that something unusual is not
occurring involving Dominion machines.
16.

The results of the analysis and the pattern seen in the

included graph strongly suggest a systemic, system-wide algorithm was

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3149 Filed 12/03/20 Page 7 of 10
001074

enacted by an outside agent, causing the results of Michigan’s vote tallies
to be inflated by somewhere between three and five point six percentage
points.
17.

To estimate the percentage of votes impacted in Michigan, I

developed a separate regression analysis equation for only counties using
Dominion machines. Surprisingly (and this was another red flag) this
equation is almost identical to our prediction equation, except for the yintercept value.
The two equations are:
National Model:

Actual Biden = 0 + 1x(Predicted Biden)

Dominion County Model:

Actual Biden = 0.056 +1.02 (Predicted

Biden)
These equations are almost identical, except the model for
Dominion counties is 0.056 (5.6 percentage points) above our predicted
results.

This means our original predictive model predicts just as well

for Dominion counties as it does for non-Dominion counties – if you
simply add 5.6 percentage points to our prediction value when predicting
Biden results in Dominion counties.

For this reason, the best estimate

of the impact of Dominion machines is 5.6 percentage points.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3150 Filed 12/03/20 Page 8 of 10
001075

18.

If some external force influenced votes by some set

percentage, this is exactly the pattern we would expect to see in the data.
The actual results on those machines would follow my predictive model
with actual results varying randomly above or below those predictions,
except the actual results would all be adjusted up or down by whatever
was the set percentage. This is exactly what I see in the data.
19.

I have updated my estimate of the number of votes impacted,

and its associated confidence interval. To estimate the number of votes
impacted in Michigan I take the 5.6% value and calculate:
(0.056)x(Total Trump and Biden Presidential Votes in Michigan in
Dominion Counties) =
(0.056)x(4,639,192) = 259,794 votes impacted
A 95% confidence interval calculated on the 0.056 value yields an
upper bound of 0.072, so a 95% confidence interval on estimate
votes impacted in Michigan has an upper bound of:
(0.072)x(4,639,192) = 334,022 votes impacted
20.

The empirical specification exploits variation in counties with

and without voting system vulnerabilities. My focus is on Dominion
machines because it is the best proxy for vulnerabilities that have been

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3151 Filed 12/03/20 Page 9 of 10
001076

exploited (e.g., see the other cited affidavits that provide technical
evidence that foreign adversaries accessed the unencrypted Edison
network during the election and before). However, I could also expand
the proxy to include counties with ES&S machines, which also have many
of the same vulnerabilities. To the extent my proxy omits variation in
other counties that also have vulnerabilities, I will underestimate the
number of fraudulent votes for Biden. I opted for this approach for
simplicity to focus exclusively on Dominion and highlight the unique role
that these machines played in systematically swaying votes
21.

United States Attorney General Barr’s comments are not

germane to the analysis presented here on the broader case. My results
show that there is an economically and statistically significant margin
for Biden that would easily flip the election results in the battleground
states, especially Michigan. This evidence does not explain how the
manipulation of votes may have occurred—just that there is a
meaningful difference between counties with and without Dominion
machines even after accounting for many cross-sectional differences
across these areas.

Case 2:20-cv-13134-LVP-RSW ECF No. 49-4, PageID.3152 Filed 12/03/20 Page 10 of 10
001077

Case 2:20-cv-13134-LVP-RSW ECF No. 57, PageID.3198 Filed 12/04/20 Page 1 of 5
001078

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN

TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID
HOOPER and DAREN WADE RUBINGH,

CASE NO. 20-cv-13134

Plaintiffs
v.

GRETCHEN WHITMER, in her official capacity
as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, the Michigan
BOARD OF STATE CANVASSERS,

Defendants.

PLAINTIFFS’ SUBMISSION OF SUPPLEMENTAL AUTHORITY TO RESPONSES IN
OPPOSITION TO MOTION FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF AND MEMORANDUM IN SUPPORT THEREOF

Case 2:20-cv-13134-LVP-RSW ECF No. 57, PageID.3199 Filed 12/04/20 Page 2 of 5
001079

As supplemental authority for Plaintiffs' motion for a TRO , Plaintiffs
respectfully submit the attached "Order Granting in Part and Deferring Ruling in
Part on Amended Motion for Temporary Restraining Order and Preliminary
Injunction to Be Heard in an Expedited Manner," issued on December 4, 2020, in
William Feehan v. Wisconsin Elections Commission, et al., Case No. 20-cv-1771pp (E.D. Wis. Dec. 4, 2020) ("Feehan"). (Exh 1).
Feehan addresses a complaint that deals with largely identical federal claims
as those presented in the current proceeding. (Exh. 2). In the Feehan Complaint,
Plaintiffs requested an expedited briefing schedule, as "time was of the essence
because the College of Electors was schedule to meet December 8," which "is the
'safe harbor' deadline under 3 U.S.C. § 5." Id. at 7.
The Feehan court found that Plaintiffs’ interpretation "is not correct,"
because "the electors will meet and vote on December 14, 2020. Id. (citing
Congressional Research Service, “The Electoral College: A 2020 Presidential
Election Timeline,” available at:
https://crsreports.congress.gov/product/pdf/IF/IF11641).
Under 3 U.S.C. § 5, if a state has provided “by laws enacted prior to the day
fixed for the appointment of the electors, for its final determination of any
controversy or contest concerning the appointment of all or any of the electors of

2

Case 2:20-cv-13134-LVP-RSW ECF No. 57, PageID.3200 Filed 12/04/20 Page 3 of 5
001080

such State,” and that final determination has been made “at least six days before
the time fixed for the meeting of the electors,” that determination—if it is made
under the state’s law at least six days prior to the day the electors meet—“shall be
conclusive, and shall govern in the counting of the electoral votes as provided in
the Constitution . . . .” Id. (quoting 3 U.S.C. § 5).
Of relevance here, the Feehan court held that, while December 8 is a critical
date for resolution of any state court litigation," or state law claims, it is not the
deadline for federal courts. Feehan at 8. The applicable date for resolution of
federal claims is December 14, 2020, the date on which the electors meet and vote.
Id. The court then set a "less truncated" briefing schedule in light of the additional
time.
Also of relevance here, the Feehan court's decision rebuts Defendant and
Defendant Intervenors’ assertion of laches and abstention as grounds for dismissal
of the Complaint and denial of Plaintiffs' TRO motion. The Feehan court correctly
recognized that there is a distinct, and later deadline for resolution of federal vs.
state claims, demonstrating that: (1) Plaintiffs have not unreasonably delayed
filing, and that the delay could not have prejudiced Defendants; and, (2) there are
no grounds for federal abstention because the federal and state claims are distinct
and may be resolved by state and federal courts on different dates.

3

Case 2:20-cv-13134-LVP-RSW ECF No. 57, PageID.3201 Filed 12/04/20 Page 4 of 5
001081

Respectfully submitted, this 4th day of December 2020.

/s Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700
2911 Turtle Creek Blvd, Suite 300
Dallas, Texas 75219
*Application for admission pro hac vice
forthcoming
Attorneys for Plaintiffs
/s/ Sidney Powell*
Sidney Powell PC
Texas Bar No. 16209700
*Application for admission pro hac vice
Forthcoming
/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee
Lansing, MI 48933
(517) 763-7499
Scotthagerstrom @yahoo.com
/s/ Gregory J. Rohl P39185
4

Case 2:20-cv-13134-LVP-RSW ECF No. 57, PageID.3202 Filed 12/04/20 Page 5 of 5
001082

The Law Offices of Gregory J. Rohl, P.C.
41850 West 11 Mile Road, Suite 110
Novi, MI 48375
248-380-9404
gregoryrohl@yahoo.com
CERTIFICATE OF SERVICE
This is to certify that I have on this day e-filed the foregoing Plaintiffs’ Motion for
Declaratory, Emergency, and Permanent Injunctive Relief and Memorandum in
Support Thereof on all defendants using the CM/ECF system:
This 4th day of December, 2020.
/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee
Lansing, MI 48933
(517) 763-7499
Scotthagerstrom @yahoo.com
/s/ Gregory J. Rohl P39185
The Law Offices of Gregory J. Rohl, P.C.
41850 West 11 Mile Road, Suite 110
Novi, MI 48375
248-380-9404
gregoryrohl@yahoo.com

5

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3203 Filed 12/04/20 Page 1 of 10
001083

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,
Case No. 20-cv-1771-pp
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.

ORDER GRANTING IN PART AND DEFERRING RULING IN PART ON
AMENDED MOTION FOR TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION TO BE HEARD IN AN EXPEDITED MANNER
(DKT. NO. 10)

At 10:30 a.m. on December 3, 2020, the plaintiff filed an “Amended
Motion For Temporary Restraining Order And Preliminary Injunction To Be
Considered In An Expedited Manner.” Dkt. No. 10. The amended motion seeks
a temporary restraining order or, in the alternative, a preliminary injunction,
“to be considered in an expedited manner.” Id. at 1. It states that the motion is
being submitted pursuant to Fed. R. Civ. P. 65 “and Civil L.R. 7.” Id.
The motion asserts that the plaintiff will suffer irreparable harm if the
court does not grant a temporary restraining order. Id. at 2. The plaintiff states
that he will suffer irreparable harm if various actions he describes “are not
immediately enjoined across the state of Wisconsin pursuant to 52 U.S.C.
§ 20701 (preservation of voting records)” to prevent destruction or alteration of
evidence. Id. at ¶5. He asserts that the amended complaint (Dkt. No. 9, filed

1
Case 2:20-cv-01771-PP Filed 12/04/20 Page 1 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3204 Filed 12/04/20 Page 2 of 10
001084

the same day as this motion) and the motion present “material dispositive
issues which are questions of law that may be resolved without factual
investigation or determination.” Id. at ¶6.
The plaintiff attached to the motion a proposed briefing schedule. Dkt.
No. 10-1. The schedule indicates that the plaintiff’s counsel had conferred with
defense counsel (and planned to speak with them again later that day) and
anticipated proposing that the defendants file their response to the motion for
injunctive relief by 8:00 p.m. on Friday, December 4, 2020, that the plaintiff file
his reply by 8:00 p.m. on Saturday, December 5, 2020 and that the schedule
conclude with a “[h]earing as directed by the Court. Plaintiff proposes to submit
the matter on briefs without argument.” Id. at 1. Neither the amended motion
nor the briefing schedule indicated whether the plaintiff needed a decision from
the court by a date certain.
At 5:13 p.m. on December 3, the plaintiff filed a brief in opposition to
defendant Tony Evers’s motion to reassign Trump v. Wisconsin Elections
Commission, et al., Case No. 20-cv-1785, from U.S. District Court Judge Brett
H. Ludwig to this court. Dkt. No. 18. The brief stated that “[w]ith the College of
Electors scheduled to meet December 8, there could never be a clearer case of
‘justice delayed is justice denied.’” Id. at 1. The plaintiff stated that the court
should deny the motion to reassign and “immediately order briefing and issue
its decision no later than 5 p.m. Sunday evening, December 6 so that Plaintiff
may have even a few hours to prepare for and seek whatever further relief may

2
Case 2:20-cv-01771-PP Filed 12/04/20 Page 2 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3205 Filed 12/04/20 Page 3 of 10
001085

be then available in the one day left before the December 8 meeting of electors.”
Id. at 2.
The plaintiff reported that the parties had met and conferred regarding a
briefing schedule for the motion for injunctive relief, but that the defendants
had “refused to agree to the schedule proposed by Plaintiffs, and in fact,
refused to offer a proposed schedule of their own,” indicating that they would
be seeking reassignment of Case No. 20-cv-1785. Id. at 3. The plaintiff said the
defendants also indicated that they could not stipulate to a TRO “to preserve
electronic and physical data, materials, and equipment (voting machines in
particular) for inspection by Plaintiff’s experts” because the defendants said
they had “no control or influence whatsoever over preservation of evidence by
local jurisdictions and elections clerks.” Id. The plaintiff concluded the brief by
reiterating his request that the court immediately order briefing and that the
court issue its decision no later than 5:00 p.m. Sunday evening, December 6.
First thing on December 4, 2020, defendant Tony Evers responded to the
request for an expedited briefing schedule. Dkt. No. 25. The defendant noted
that although the plaintiff had asserted that the court needed to decide the
motion before the electors meet, that meeting was not scheduled until
December 14. Id. at 2 n.2. The defendant proposed an alternative schedule by
which the defendants would file their briefs in opposition to the motion for
injunctive relief by 5:00 p.m. on Monday, December 7; the plaintiff would file
his reply brief by 5:00 p.m. on Tuesday, December 8; and the court could

3
Case 2:20-cv-01771-PP Filed 12/04/20 Page 3 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3206 Filed 12/04/20 Page 4 of 10
001086

exercise its discretion regarding whether to hold an evidentiary hearing or hear
argument. Id. at 1-2.
Minutes later, defendants the Wisconsin Elections Commission and its
members filed their brief in opposition to the request for an expedited briefing
schedule. Dkt. No. 26. They, too, stated that the meeting of electors will not
take place until December 14, 2020. Id. at 26. They propose a schedule
whereby the defendants will file their opposition briefs to the motion for
injunctive relief by 11:59 p.m. on Tuesday, December 8, 2020 and the plaintiff
will file his reply brief by 11:59 p.m. on Wednesday, December 9, 2020. Id. at
2,
In seeking an expedited briefing schedule, the plaintiff’s December 3,
2020 amended motion for injunctive relief cites Civil Local Rule 7 (E.D. Wis.),
but identifies no subsection of that rule. Rule 7(b) gives a non-moving party
twenty-one days to respond to a motion and Rule 7(c) gives the moving party
fourteen days to reply. Given the plaintiff’s repeated use of the word “expedited”
and the briefing schedule he proposes, the court concludes that he is asking
the court for shorter turnaround time than that provided in Rules 7(b) and (c).
There is a provision of Civil L.R. 7 that allows a party to seek expedited
briefing. Civil L.R. 7(h), which allows a party to seek non-dispositive relief by
expedited motion if the party designates the motion as a “Civil L.R. 7(h)
Expedited Non-Dispositive Motion.” When the court receives a motion with that
designation, it may schedule the motion for a hearing or decide the motion on
the papers and may order an expedited motion schedule. Civil L.R. 7(h)(1). The
4
Case 2:20-cv-01771-PP Filed 12/04/20 Page 4 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3207 Filed 12/04/20 Page 5 of 10
001087

rule limits such motions to three pages in length, requires the respondent to
file its three-page opposition memorandum within seven days unless the court
orders otherwise and allows the respondent to attach an affidavit or declaration
of no more than two pages. Civil L.R. 7(h)(2).
Although the plaintiff did not designate it as such, the court construes
the plaintiff’s request for the motion for injunctive relief to be heard in an
“expedited manner”—Dkt. No. 10—as a Civil L.R. 7(h) Expedited NonDispositive Motion for an Expedited Briefing Schedule. The court will grant that
motion (although it will not order the briefing schedule the plaintiff suggests).
The other part of the plaintiff’s motion seeks immediate temporary
injunctive relief—a temporary restraining order or a preliminary injunction. The
motion states that the amended complaint and the motion “present material
dispositive issues which are questions of law that may be resolved without
factual investigation or determination.” Dkt. No. 10 at 3. The plaintiff never has
requested a hearing, either in writing or by contacting chambers by phone with
the adverse parties on the line. The anticipated briefing schedule the plaintiff
attached to the amended motion for injunctive relief, while mentioning a
hearing “as directed by the Court,” states that the plaintiff proposes to “submit
the matter on briefs without argument.” Dkt. No. 10-1 at 1. In his brief in
opposition to a motion to reassign another case, the plaintiff proposes briefing
through the weekend and a ruling from this court on Sunday evening; because
court generally is not in session on weekends, the court deduces that the
plaintiff does not anticipate a hearing on the motion.
5
Case 2:20-cv-01771-PP Filed 12/04/20 Page 5 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3208 Filed 12/04/20 Page 6 of 10
001088

The United States Supreme Court has held that injunctive relief is “an
extraordinary remedy that may only be awarded upon a clear showing that the
plaintiff is entitled to such relief.” Winter v. Nat. Res. Defense Counsel, Inc.,
555 U.S. 7, 22 (2008) (citing Mazurek v. Armstrong, 520 U.S. 968, 972 (1997)).
Because it is an extraordinary remedy, injunctive relief never is awarded as of
right. Id. (citing Munaf v. Geren, 553 U.S. 674, 689-90 (2008)). Courts
considering requests for such extraordinary relief must, in every case, “balance
the competing claims of injury and must consider the effect on each party of
the granting or withholding of the requested relief.” Id. (quoting Amoco Prod.
Co. v. Gambell, 480 U.S. 531, 542 (1987)).
In this court’s experience it is unusual for a party seeking the
extraordinary remedy of preliminary injunctive relief to ask the court to issue a
decision on the pleadings, without presentation of evidence or argument. But
because that is what the plaintiff—the movant—has asked, the court will rule
on the pleadings.
As for the expedited briefing schedule, the schedule the plaintiff has
proposed severely limits the time available to the defendants to respond to his
pleadings and to the court to rule. The plaintiff created this limitation by
waiting two days to confer with defense counsel and by waiting until late
yesterday afternoon to mention a date by which it appears he seeks a ruling
from the court. The court disagrees that the plaintiff will be denied his right to
redress if the court does not rule by Sunday evening, December 6.

6
Case 2:20-cv-01771-PP Filed 12/04/20 Page 6 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3209 Filed 12/04/20 Page 7 of 10
001089

The plaintiff stated in his opposition brief to the motion to reassign that
time was of the essence because the College of Electors was scheduled to meet
December 8. Dkt. No. 18 at 1. That is not correct. According to an October 22,
2020 white paper from the Congressional Research Service titled “The Electoral
College: A 2020 Presidential Election Timeline,” the electors will meet and vote
on December 14, 2020. https://crsreports.congress.gov/product/pdf/IF/
IF11641.
December 8, 2020—six days prior to the date the College of Electors is
scheduled to meet—is the “safe harbor” deadline under 3 U.S.C. §5. That
statute provides that if a state has provided, “by laws enacted prior to the day
fixed for the appointment of the electors, for its final determination of any
controversy or contest concerning the appointment of all or any of the electors
of such State,” and that final determination has been made “at least six days
before the time fixed for the meeting of the electors,” that determination—if it is
made under the state’s law at least six days prior to the day the electors meet—
“shall be conclusive, and shall govern in the counting of the electoral votes as
provided in the Constitution . . . .” Wisconsin has enacted such a law. It is Wis.
Stat. §9.01. That statute provides for an aggrieved candidate to petition for a
recount. It provides specific procedures for the recount, as well as appeal to the
circuit court and the court of appeals. Wis. Stat. §9.01(11) states that it is “the
exclusive judicial remedy for testing the right to hold an elective office as the
result of an alleged irregularity, defect or mistake committed during the voting
or canvassing process.”
7
Case 2:20-cv-01771-PP Filed 12/04/20 Page 7 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3210 Filed 12/04/20 Page 8 of 10
001090

It appears, therefore, that December 8 is a critical date for resolution of
any state court litigation involving an aggrieved candidate who is contesting the
outcome of an election. The state courts1 either will or will not resolve
allegations of violations of Wis. Stat. §9.01 by the December 8, 2020 “safe
harbor” deadline. The plaintiff has not explained why it is necessary for this
federal court to grant or deny the injunctive relief he seeks—orders requiring
the defendants to de-certify the election results; enjoining defendant Evers
from transmitting certified election results to the Electoral College; requiring
defendant Evers to transmit certified election results stating that President
Donald Trump is the winner of the election; seizing and impounding voting
machines, ballots and other election materials; requiring production of security
camera recordings for voting facilities—before the safe harbor deadline for state
courts to resolve alleged violations of Wis. Stat. §9.01.
Because the electors do not meet and vote until December 14, 2020, the
court will impose a less truncated briefing schedule than the one the plaintiff
proposes, to give the defendants slightly more time to respond. The court will
require the defendants to file their opposition brief to the Plaintiff’s Amended
Motion for Temporary Restraining Order and Preliminary Injunction to be
Considered in an Expedited Manner (Dkt. No. 10) by 5:00 p.m. on Monday,
December 7, 2020. The court will require the plaintiff to file his reply brief in
support of the Plaintiff’s Amended Motion for Temporary Restraining Order and
The plaintiff has alleged in this federal suit that the defendants violated the
“Wisconsin Election Code.” Dkt. No. 9 at 11. This court has made no
determination regarding whether it has jurisdiction to resolve that claim.
1

8
Case 2:20-cv-01771-PP Filed 12/04/20 Page 8 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3211 Filed 12/04/20 Page 9 of 10
001091

Preliminary Injunction to be Considered in an Expedited Manner (Dkt. No. 10)
by 5:00 p.m. on Tuesday, December 8, 2020.
The court directs the parties’ attention to Civil L.R. 7(f), which provides
that memoranda in opposition to motions are limited to thirty pages and reply
briefs in support of motions are limited to fifteen pages.
Finally, an administrative note: On December 2, 2020 a document was
docketed as a notice of appearance for lead counsel Sidney Powell. Dkt. No. 8.
The document is blank (except for the designation of the court); the court does
not have a completed notice of appearance on file for Attorney Powell.
The court GRANTS the plaintiff’s amended motion to the extent that it is
a Civil L.R. 7(h) Expedited Non-Dispositive Motion for an Expedited Briefing
Schedule. Dkt. No. 10.
The court ORDERS that the defendants’ opposition brief to the Plaintiff’s
Amended Motion for Temporary Restraining Order and Preliminary Injunction
to be Considered in an Expedited Manner (Dkt. No. 10) by must be filed by
5:00 p.m. on Monday, December 7, 2020.
The court ORDERS that the plaintiff’s reply brief in support of the
Plaintiff’s Amended Motion for Temporary Restraining Order and Preliminary
Injunction to be Considered in an Expedited Manner (Dkt. No. 10) must be filed
by 5:00 p.m. on Tuesday, December 8, 2020.
The court DEFERS RULING on the amended motion to the extent that it

9
Case 2:20-cv-01771-PP Filed 12/04/20 Page 9 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-1, PageID.3212 Filed 12/04/20 Page 10 of 10
001092

asks the court to issue a temporary restraining order or a preliminary
injunction.
Dated in Milwaukee, Wisconsin this 4th day of December, 2020.
BY THE COURT:
_____________________________________
HON. PAMELA PEPPER
Chief United States District Judge

10
Case 2:20-cv-01771-PP Filed 12/04/20 Page 10 of 10 Document 29

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3213 Filed 12/04/20 Page 1 of 51
001093

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM FEEHAN,
Plaintiff,

CASE NO. 2:20-cv-1771

v.
WISCONSIN ELECTIONS COMMISSION,
and its members ANN S. JACOBS,
MARK L. THOMSEN, MARGE
BOSTELMAN, JULIE M. GLANCEY,
DEAN KNUDSON, ROBERT F.
SPINDELL, JR., in their official
capacities, GOVERNOR TONY EVERS,
in his official capacity,
Defendants.

AMENDED COMPLAINT FOR
DECLARATORY, EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF

NATURE OF THE ACTION
1. This civil action brings to light a massive election fraud, multiple violations of Wisconsin
Statutes Chapters 5 – 12 (hereafter, “Wisconsin Election Code”), see, e.g., Wis. Stat. §§ 5.03, et.
seq., in addition to the Election and Electors Clauses and Equal Protection Clause of the U.S.
Constitution.

These violations occurred during the 2020 General Election in the City of

Milwaukee, southeastern Wisconsin counties, and throughout the State of Wisconsin, as set forth
in the affidavits of dozens of eyewitnesses and the statistical anomalies and mathematical
impossibilities detailed in the affidavits of expert witnesses. See Exh. 19, Declaration of affiant
presenting statistical analysis prediction of 105,639 fraudulent ballots cast for Joe Biden in the
1
Case 2:20-cv-01771-PP Filed 12/03/20 Page 1 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3214 Filed 12/04/20 Page 2 of 51
001094

City of Milwaukee and Exh. 17, Declaration of Russell James Ramsland, Jr. wherein he
demonstrates it is statistically impossible for Joe Biden to have won Wisconsin.
2. The scheme and artifice to defraud was for the purpose of illegally and fraudulently
manipulating the vote count to manufacture an election of Joe Biden as President of the United
States, and also of various down ballot democrat candidates in the 2020 election cycle. The fraud
was executed by many means, but the most fundamentally troubling, insidious, and egregious ploy
was the systemic adaptation of old-fashioned “ballot-stuffing” techniques. See Exh. 16, U. S.
Senator Elizabeth Warren (D. Mass.) letter of December 6, 2019 concerning the dangers of private
equity control and censorship of election technology in the United States.
3. The fraud has now been amplified and rendered virtually invisible by computer software
created and run by domestic and foreign actors for that very purpose. See Exh. 18, Joint
Cybersecurity Advisory issued on October 30, 2020 by the U.S. Department of Justice Federal
Bureau of Investigation (FBI) and the Cybersecurity & Infrastructure Security Agency (CISA)
warning election officials about actual election system hacking events by Iranian agents in an
attempt to manipulate the November 3, 2020 election. This Amended Complaint details an
especially egregious range of conduct in Milwaukee County and the City of Milwaukee, along
with Dane County, La Crosse County, Waukesha County, St. Croix County, Washington County,
Bayfield County, Ozaukee County and various other counties throughout Wisconsin employing
Dominion Systems, though this conduct occurred throughout the State at the direction of
Wisconsin state election officials.
4. The multifaceted schemes and artifices implemented by Defendants and their
collaborators to defraud resulted in the unlawful counting, or fabrication, of hundreds of thousands
of illegal, ineligible, duplicate or purely fictitious ballots in the State of Wisconsin, that collectively
2
Case 2:20-cv-01771-PP Filed 12/03/20 Page 2 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3215 Filed 12/04/20 Page 3 of 51
001095

add up to multiples of Biden’s purported lead in the State of 20,565 votes.
5. While this Amended Complaint, and the eyewitness and expert testimony incorporated
herein, identify with specificity sufficient ballots required to set aside the 2020 General Election
results, the entire process is so riddled with fraud, illegality, and statistical impossibility that this
Court, and Wisconsin’s voters, courts, and legislators, cannot rely on, or certify, any numbers
resulting from this election. Accordingly, this Court must set aside the results of the 2020 General
Election and grant the declaratory and injunctive relief requested herein.
Dominion Voting Systems Fraud and Manipulation
6. The fraud begins with the election software and hardware from Dominion Voting
Systems Corporation (“Dominion”) used by the Wisconsin Elections Commission. The Dominion
systems derive from the software designed by Smartmatic Corporation, which became Sequoia in
the United States.
7. Smartmatic and Dominion were founded by foreign oligarchs and dictators to ensure
computerized ballot-stuffing and vote manipulation to whatever level was needed to make certain
Venezuelan dictator Hugo Chavez never lost another election. See Exh. 1, Redacted Declaration
of Dominion Venezuela Whistleblower (“Dominion Whistleblower Report”) and Exh. 8,
Statement by Ana Mercedes Diaz Cardozo outlining actual examples of election manipulation by
hacking and misuse of technology in Venezuelan elections. Notably, Chavez “won” every election
thereafter.
8. As set forth in the Dominion Whistleblower Report, the Smartmatic software was
contrived through a criminal conspiracy to manipulate Venezuelan elections in favor of dictator
Hugo Chavez:
Importantly, I was a direct witness to the creation and operation of an electronic
voting system in a conspiracy between a company known as Smartmatic and the
3
Case 2:20-cv-01771-PP Filed 12/03/20 Page 3 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3216 Filed 12/04/20 Page 4 of 51
001096

leaders of conspiracy with the Venezuelan government. This conspiracy
specifically involved President Hugo Chavez Frias, the person in charge of the
National Electoral Council named Jorge Rodriguez, and principals, representatives,
and personnel from Smartmatic. The purpose of this conspiracy was to create and
operate a voting system that could change the votes in elections from votes against
persons running the Venezuelan government to votes in their favor in order to
maintain control of the government. In mid-February of 2009, there was a national
referendum to change the Constitution of Venezuela to end term limits for elected
officials, including the President of Venezuela. The referendum passed. This
permitted Hugo Chavez to be re-elected an unlimited number of times. . . .
Smartmatic’s electoral technology was called “Sistema de Gestión Electoral” (the
“Electoral Management System”). Smartmatic was a pioneer in this area of
computing systems. Their system provided for transmission of voting data over the
internet to a computerized central tabulating center. The voting machines
themselves had a digital display, fingerprint recognition feature to identif y the
voter, and printed out the voter’s ballot. The voter’s thumbprint was linked to a
computerized record of that voter’s identity. Smartmatic created and operated the
entire system. Id. ¶¶ 10 & 14.
9. A core requirement of the Smartmatic software design ultimately adopted by Dominion
for Wisconsin’s elections was the software’s ability to hide its manipulation of votes from any
audit. As the whistleblower explains:
Chavez was most insistent that Smartmatic design the system in a way that the
system could change the vote of each voter without being detected. He wanted the
software itself to function in such a manner that if the voter were to place their
thumb print or fingerprint on a scanner, then the thumbprint would be tied to a
record of the voter’s name and identity as having voted, but that voter would not
tracked to the changed vote. He made it clear that the system would have to be setup
to not leave any evidence of the changed vote for a specific voter and that there
would be no evidence to show and nothing to contradict that the name or the
fingerprint or thumb print was going with a changed vote. Smartmatic agreed to
create such a system and produced the software and hardware that accomplished
that result for President Chavez. Id. ¶15.
10. The design and features of the Dominion software do not permit a simple audit to reveal
its misallocation, redistribution, or deletion of votes. First, the system’s central accumulator does
not include a protected real-time audit log that maintains the date and time stamps of all significant
election events. Key components of the system utilize unprotected logs. Essentially this allows
4
Case 2:20-cv-01771-PP Filed 12/03/20 Page 4 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3217 Filed 12/04/20 Page 5 of 51
001097

an unauthorized user the opportunity to arbitrarily add, modify, or remove log entries, causing the
machine to log election events that do not reflect actual voting tabulations—or more specifically,
do not reflect the actual votes of or the will of the people. 1 See Exh. 14, Declaration of Ronald
Watkins regarding manipulation of Dominion software and built-in optical ballot scanning systems
to contrive an election outcome in multiple states.
11. This Amended Complaint will show that Dominion violated physical security standards
by connecting voting machines to the Internet, allowing Dominion, domestic third parties or hostile
foreign actors to access the system and manipulate election results, and moreover potentially to
cover their tracks due to Dominion’s unprotected log. Accordingly, a thorough forensic
examination of Dominion’s machines and source code (pursuant to Wisconsin Statute § 5.905) is
required to document these instances of voting fraud, as well as Dominion’s systematic violations
of the Voting Rights Act record retention requirements through manipulation, alteration,
destruction and likely foreign exfiltration of voting records. See 52 U.S.C. § 20701.
12. These and other problems with Dominion’s software have been widely reported in the
press and been the subject of investigations. In certifying Dominion Voting Systems Democracy
Suite, Wisconsin officials disregarded all the concerns that caused Dominion software to be
rejected by the Texas Board of elections in 2020 because it was deemed vulnerable to undetected
and non-auditable manipulation. Texas denied Certification because of concerns that it was not
safe from fraud or unauthorized manipulation. See Exh. 11.
13. An industry expert, Dr. Andrew Appel, Princeton Professor of Computer Science and

1

See Ex. 7, August 24, 2020 Declaration of Harri Hursti, ¶¶45-48 (expert testimony in Case
1:17-cv-02989 in the U.S. District Court for the Northern District of Georgia). The Texas
Secretary of State refused to certify Dominion for similar reasons as those cited by Mr. Hursti. See
Ex. 9, State of Texas Secretary of State, Elections Division, Report of Review of Dominion Voting
Systems Democracy Suite 5.5-A at 2 (Jan. 24, 2020).
5
Case 2:20-cv-01771-PP Filed 12/03/20 Page 5 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3218 Filed 12/04/20 Page 6 of 51
001098

Election Security Expert has recently observed, with reference to Dominion Voting machines: “I
figured out how to make a slightly different computer program that just before the polls were
closed, it switches some votes around from one candidate to another. I wrote that computer
program into a memory chip and now to hack a voting machine you just need 7 minutes alone with
a screwdriver.”2
14. In addition to the Dominion computer fraud, this Amended Complaint identifies several
additional categories of “traditional” voting fraud that occurred as a direct result of Defendant
Wisconsin Election Commission (“WEC”) and other Defendants directing Wisconsin clerks and
other election officials to ignore or violate the express requirements of the Wisconsin Election
Code. First, the WEC issued “guidance” to county and municipal clerks not to reject “indefinitely
confined” absentee voters, even if the clerks possess “reliable information” that the voter is no
longer indefinitely confined, in direct contravention of Wisconsin Statute § 6.86(2)(6), which
states that clerks must remove such voters. Second, the WEC issued further guidance directing
clerks – in violation of Wisconsin Statute § 6.87(6)(d), which states that an absentee envelope
certification “is missing the address of a witness, the ballot may not be counted ” – to instead fill
in the missing address information.
15. This Amended Complaint presents expert witness testimony demonstrating that several
hundred thousand illegal, ineligible, duplicate or purely fictitious votes must be thrown out, in
particular:
A. A report from Dr. William Briggs, showing that there were approximately
29,594 absentee ballots listed as “unreturned” by voters that either never
requested them, or that requested and returned their ballots;
B. Reports from Redacted Expert Witnesses who can show an algorithm was used
Andrew W. Appel, et al., “Ballot Marking Devices (BMDs) Cannot Assure the Will of the
Voters” at (Dec. 27, 2019),( attached hereto as Exh. 10 (“Appel Study”)).
2

6
Case 2:20-cv-01771-PP Filed 12/03/20 Page 6 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3219 Filed 12/04/20 Page 7 of 51
001099

to pick a winner.
16. In the accompanying redacted declaration of a former electronic intelligence analyst with
305th Military Intelligence with experience gathering SAM missile system electronic intelligence,
the Dominion software was accessed by agents acting on behalf of China and Iran in order to
monitor and manipulate elections, including the most recent US general election in 2020. See Exh.
12 (copy of redacted witness affidavit).
17. These and other “irregularities” demonstrate that at least 318,012 illegal ballots were
counted in Wisconsin. This provides the Court with sufficient grounds to set aside the results of
the 2020 General Election and provide the other declaratory and injunctive relief requested herein.
JURISDICTION AND VENUE
18. This Court has subject matter under 28 U.S.C. § 1331 which provides, “The district courts
shall have original jurisdiction of all civil actions arising under the Constitution, laws, or treaties
of the United States.”
19. This Court also has subject matter jurisdiction under 28 U.S.C. § 1343 because this action
involves a federal election for President of the United States. “A significant departure from the
legislative scheme for appointing Presidential electors presents a federal constitutional question.”
Bush v. Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J., concurring); Smiley v. Holm, 285 U.S.
355, 365 (1932).
20. The jurisdiction of the Court to grant declaratory relief is conferred by 28 U.S.C. §§ 2201
and 2202 and by Rule 57, Fed. R. Civ. P.
21. This Court has jurisdiction over the related Wisconsin constitutional claims and state-law
claims under 28 U.S.C. § 1367.
22. Venue is proper because a substantial part of the events or omissions giving rise to the
7
Case 2:20-cv-01771-PP Filed 12/03/20 Page 7 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3220 Filed 12/04/20 Page 8 of 51
001100

claim occurred in the Eastern District. 28 U.S.C. § 1391(b) & (c).
23. Because the United States Constitution reserves for state legislatures the power to set the
time, place, and manner of holding elections for the President, state executive officers have no
authority to unilaterally exercise that power, much less flout existing legislation.
THE PARTIES
24. Plaintiff William Feehan, is a registered Wisconsin voter and a nominee of the Republican
Party to be a Presidential Elector on behalf of the State of Wisconsin. Mr. Feehan is a resident of
the City of La Crosse and La Crosse County, Wisconsin.
25. Presidential Electors “have a cognizable interest in ensuring that the final vote tally
reflects the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized
injury to candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge actions
of state officials implementing or modifying State election laws); see also McPherson v. Blacker,
146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000) (per
curiam).
26. Plaintiff Feehan has standing to bring this action as a voter and as a candidate for the
office of Elector under Wis. Stat. §§ 5.10, et seq (election procedures for Wisconsin electors). As
such, Presidential Electors “have a cognizable interest in ensuring that the final vote tally reflects
the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized injury
to candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020)
(affirming that Presidential Electors have Article III and prudential standing to challenge actions
of state officials in implementing or modifying State election laws); see also McPherson v.
Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000)
8
Case 2:20-cv-01771-PP Filed 12/03/20 Page 8 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3221 Filed 12/04/20 Page 9 of 51
001101

(per curiam).
27. Plaintiff brings this action to prohibit certification of the election results for the Office of
President of the United States in the State of Wisconsin and to obtain the other declaratory and
injunctive relief requested herein. Those results were certified by Defendants on November 30,
2020, indicating a plurality for Mr. Biden of 20,565 votes out of 3,240,867 cast.
28. The Defendants are Wisconsin Elections Commission (“WEC”), a state agency, and its
members Ann S. Jacobs, Mark L. Thomsen, Marge Bostelman, Julie M. Glancey, Dean Knudson,
and Robert F. Spindell, Jr., in their official capacities
29. Defendant Governor Tony Evers is named as a defendant in his official capacity as
Wisconsin’s governor.
30. Defendant WEC was created in 2015 by the Wisconsin Legislature as an independent
agency under the Executive branch to administer Wisconsin’s election laws. Wis. Stat. §§ 5.03 &
15.61. The WEC is authorized to adopt administrative rules pursuant to Chapter 227 of the
Wisconsin Statutes, but nothing under Wisconsin’s election laws authorizes the WEC to issue any
documents, make any oral determinations or instruct governmental officials ad ministering
elections to perform any act contrary to Wisconsin law governing elections.
31. Furthermore, the Wisconsin Legislature also created municipal elections commissions for
municipalities with a population greater than 500,000 and a county elections commissions for
counties with a population greater than 750,000. Wis Stat. § 7.20. As a result, the City of
Milwaukee Elections Commission was created as well as the Milwaukee County Elections
Commission and the Dane County Elections Commission. These county and municipal elections
commissions are responsible for administering the elections in their respective jurisdictions.

9
Case 2:20-cv-01771-PP Filed 12/03/20 Page 9 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3222 Filed 12/04/20 Page 10 of 51
001102

STATEMENT OF FACTS
32. Plaintiff brings this action under 42 U.S.C. §§ 1983 and 1988, to remedy deprivations of
rights, privileges, or immunities secured by the Constitution and laws of the United States and to
contest the election results, and the corollary provisions under the Wisconsin Constitution.
33. The United States Constitution sets forth the authority to regulate federal elections. With
respect to the appointment of presidential electors, the Constitution provides:
Each State shall appoint, in such Manner as the Legislature thereof may direct, a
Number of Electors, equal to the whole Number of Senators and Representatives to
which the State may be entitled in the Congress: but no Senator or Representative,
or Person holding an Office of Trust or Profit under the United States, shall be
appointed an Elector.
U.S. CONST. art. II, § 1 (“Electors Clause”).
34. None of Defendants is a “Legislature” as required under the Elections Clause or Electors
Clause to set the rules governing elections. The Legislature is “‘the representative body which
ma[kes] the laws of the people.’” Smiley, 285 U.S. 365. Regulations of presidential elections, thus,
“must be in accordance with the method which the state has prescribed for legislative enactments.”
Id. at 367; see also Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n, 576 U.S. 787, 135
S. Ct. 2652, 2668 (U.S. 2015).
35. The WEC certified the Presidential Election results on November 30, 2020.

The

Presidential election results in Wisconsin show a difference of 20,565 “tallied” votes in favor of
former Vice-President Joe Biden over President Trump.
36. Based upon all the allegations of fraud, statutory violations, and other misconduct, as
stated herein and in the attached affidavits, it is necessary to enjoin the certification of the election
results pending a full investigation and court hearing, and to order an independent audit of the
November 3, 2020 election to ensure the accuracy and integrity of the election.
10
Case 2:20-cv-01771-PP Filed 12/03/20 Page 10 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3223 Filed 12/04/20 Page 11 of 51
001103

I. VIOLATIONS OF WISCONSIN ELECTION CODE
A. WEC Directed Clerks to Violate Wisconsin Election Code Requirements for
Absentee Voting by “Indefinitely Confined” without Photo ID.
37. The Wisconsin State Legislature adopted Act 23 in 2011 to require Wisconsin electors to
present an identification containing a photograph, such as a driver’s license, to either a municipal or
county clerk, when registering to vote and when voting. Wis. Stat. §§ 6.34; 6.79 (2). The Wisconsin
State Legislature adopted the photo ID requirement to deter the casting of ballots by persons either not
eligible to vote or persons fraudulently casting multiple ballots. League of Women Voters of
Wisconsin Education Network, Inc. v. Walker, 851 N.W.2d 302, 314 (Wis. 2014).
38. Wisconsin’s absentee voting is governed by Wisconsin Statutes § 6.84 - § 6.89. Under
Wisconsin Statutes §6.86, every absentee elector applicant must present a photo ID when registering
to vote absentee except absentee voters who registered as “indefinitely confined,” Wis. Stat. §6.86
(ac), meaning someone confined “because of age, physical illness or infirmity or is disabled for an
indefinite period.” Wis. Stat. § 6.86(2)(a). As a result, Wisconsin election procedures for voting
absentee based on “indefinitely confined” status circumvent the photo ID requirement, creating an
avenue for fraudulent voting.
39. In order to ensure that only those who are “indefinitely confined” may use the “indefinitely
confined” absentee ballot in an election, Wisconsin Statutes §6.86 provides that any elector who files
an application for an absentee ballot based on indefinitely confined status may not use the absentee
ballot if the electoral is no longer “indefinitely confined.” Wisconsin Statutes § 6.86 (2)(b) further
provides that the municipal clerk “shall remove the name of any other elector from the list upon
request of the elector or upon receipt of reliable information that an elector no longer qualifies for
the service.”
40. Despite this clear statutory requirement, the Administrator of the Wisconsin Election
11
Case 2:20-cv-01771-PP Filed 12/03/20 Page 11 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3224 Filed 12/04/20 Page 12 of 51
001104

Commission, Meagan Wolfe, issued a written directive on May 13, 2020 to the clerks across the
State of Wisconsin stating that the clerks cannot remove an allegedly “indefinitely confined”
absentee voter from the absentee voter register if the clerk had “reliable information” that an
allegedly “indefinitely confined” absentee voter is no longer “indefinitely confined.” The directive
specifically stated:
Can I deactivate an absentee request if I believe the voter is not indefinitely
confined? No. All changes to status must be made in writing and by the voter’s
request. Not all medical illnesses or disabilities are visible or may only impact the
voter intermittently. (See WEC May 13, 2020 Guidance Memorandum).
41. The WEC’s directive thus directly contradicts Wisconsin law, which specifically provides
that clerks “shall” remove an indefinitely confined voter from the absentee voter list if the clerk
obtains “reliable information” that the voter is no longer indefinitely confined.
42. As a result of the directive, clerks did not remove from the absentee voter lists maintained
by their jurisdictions the absentee voters who claimed “indefinitely confined” status but who in
fact were no longer “indefinitely confined.” This resulted in electors who were allegedly
“indefinitely confined” absentee voters casting ballots as “indefinitely confined” absentee voters
who were not actually “indefinitely confined” absentee voters.
B. WEC Directed Clerks to Violate Wisconsin Law Prohibiting Counting of
Absentee Ballot Certificates Missing Witness Addresses.
43. In 2015, the Wisconsin Legislature passed Act 261, amending Wisconsin’s election laws,
including a requirement, codified as Wisconsin Statute § 6.87(d), that absentee ballots include both
elector and witness certifications, which must include the address of the witness. If the address
of the witness is missing from the witness certification, however, “the ballot may not be counted.”
Id.
44. On October 18, 2016, WEC reacted to this legislation by issuing a memorandum, which,
12
Case 2:20-cv-01771-PP Filed 12/03/20 Page 12 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3225 Filed 12/04/20 Page 13 of 51
001105

among other things, permitted clerks to write in the witness address onto the absentee ballot
certificate itself, effectively nullifying this express requirement. (See WEC October 18, 2016
Guidance Memorandum).

Wisconsin election officials reiterated this unlawful directive in

publicly posted training videos. For example, in a Youtube video posted before the November 3,
2020 General Election by Clarie Woodall-Voog of the Milwaukee Elections Commission, Ms.
Woodall-Voog advised clerks that missing items “like witness address may be written in red.”3
C. WEC Directed Clerks to Illegally Cure Absentee Ballots by Filling in Missing
Information on Absentee Ballot Certificates and Envelopes.
45. On October 19, 2020, WEC instructed its clerks that, without any legal basis in the
Wisconsin Election Code, they could simply fill in missing witness or voter certification
information using, e.g., personal knowledge, voter registration information, or calling the voter or
witness. The WEC further advised that voters or witnesses could cure any missing information at
the polling place, again without citing any authority to do so under Wisconsin Election Code.
II. EXPERT WITNESS TESTIMONY:
EVIDENCE OF WIDESPREAD VOTER FRAUD
A. Approximately 15,000 Wisconsin Mail-In Ballots Were Lost, and
Approximately 18,000 More Were Fraudulently Recorded for Voters who
Never Requested Mail-In Ballots.
46. The attached report of William M. Briggs, Ph.D., Exh. 2 (“Dr. Briggs Report”)
summarizes the multi-state phone survey that includes a survey of Wisconsin voters collected by
Matt Braynard, which was conducted from November 15-17, 2020. See Exh. 3 (“Braynard
Survey”). The Briggs analysis identified two specific errors involving unreturned mail-in ballots
that are indicative of voter fraud, namely: “Error #1: those who were recorded as receiving
absentee ballots without requesting them;” and “Error #2: those who returned absentee ballots

3

See https://www.youtube.com/watch?v=hbm-pPaYiqk (video a 10:43 to 11:07).
13
Case 2:20-cv-01771-PP Filed 12/03/20 Page 13 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3226 Filed 12/04/20 Page 14 of 51
001106

but whose votes went missing (i.e., marked as unreturned).” Exh. 2. Dr. Briggs then conducted a
parameter-free predictive model to estimate, within 95% confidence or prediction intervals, the
number of ballots affected by these errors out of a total of 96,771 unreturned mail-in ballots for
the State of Wisconsin.
47. With respect to Error #1, Dr. Briggs’ analysis estimated that 16,316-19,273 ballots out
of the total 96,771 unreturned ballots were recorded for voters who had not requested them. Id.
With respect to Error #2, he found 13,991 – 16,757 ballots out of 96,771 unreturned ballots
recorded for voters who did return their ballots were recorded as being unreturned. Id.
Taking the average of the two types of errors together, 29,594 ballots, or 31% of the total, are
“troublesome.”
48. These errors are not only conclusive evidence of widespread fraud by the State of
Wisconsin, but they are fully consistent with the fact witness statements cited above regarding the
evidence about Dominion presented below insofar as these unreturned absentee ballots
represent a pool of blank ballots that could be filled in by third parties to shift the election
to Joe Biden, and also present the obvious conclusion that there must be absentee ballots
unlawfully ordered by third parties that were returned.
49. With respect to Error #1, Dr. Briggs’ analysis demonstrates that approximately 17,795
absentee ballots were sent to someone besides the registered voter named in the request, and
thus could have been filled out by anyone and then submitted in the name of another voter.
Regarding ballots ordered by third parties that were voted, those would no longer be in the
unreturned pool and therefore cannot be estimated from this data set.
50. With respect to Error #2, Dr. Briggs’ analysis indicates that approximately 15,374
absentee ballots were either lost or destroyed (consistent with allegations of Trump ballot
14
Case 2:20-cv-01771-PP Filed 12/03/20 Page 14 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3227 Filed 12/04/20 Page 15 of 51
001107

destruction) and/or were replaced with blank ballots filled out by election workers, Dominion
or other third parties. Dr. Briggs’ analysis shows that 31% of “unreturned ballots” suffer from
one of the two errors above – which is consistent with his findings in the four other States analyzed
(Arizona 58%, Georgia 39%, Pennsylvania 37%, and Wisconsin 45%) – and provides further
support that these widespread “irregularities” or anomalies were one part of a much larger multistate fraudulent scheme to rig the 2020 General Election for Joe Biden.
B. Nearly 7,000 Ineligible Voters Who Have Moved Out-of-State Illegally Voted
in Wisconsin.
51. Evidence compiled by Matt Braynard using the National Change of Address (“NCOA”)
Database shows that 6,207 Wisconsin voters in the 2020 General Election moved out-of-state prior
to voting, and therefore were ineligible. Exh. 3. Mr. Braynard also identified 765 Wisconsin
voters who subsequently registered to vote in another state and were therefore ineligible to vote in
the 2020 General Election. The merged number is 6,966 ineligible voters whose votes must be
removed from the total for the 2020 General Election. 4 Id.
C. A Statistical Study Reveals that Biden Overperformed in those Precincts that
Relied on Dominion Voting Machines
52. From November 13th , 2020 through November 28th , 2020, the Affiant conducted in-depth
statistical analysis of publicly available data on the 2020 U.S. Presidential Election. This data
included vote counts for each county in the United States, U.S. Census data, and type of voting
machine data provided by the U.S. Election Assistance Committee. The Affiant’s analysis yielded
several “red flags” concerning the percentage of votes won by candidate Biden in counties using
voting machines provided by Dominion Voting Systems.

These red flags occurred in several

4

Mr. Braynard posted the results of his analysis on Twitter.
See https://twitter.com/MattBraynard/status/1329700178891333634?s=20. This Complaint
includes a copy of his Report, (attached hereto as Exh. 3).
15
Case 2:20-cv-01771-PP Filed 12/03/20 Page 15 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3228 Filed 12/04/20 Page 16 of 51
001108

States in the country, including Wisconsin. (See attached hereto as Exh. 4, copy of redacted
Affiant, B.S. Mathematics and M.S. Statistics).
53. The Affiant began by using Chi-Squared Automatic Interaction Detection (CHAID),
which treats the data in an agnostic way—that is, it imposes no parametric assumptions that could
otherwise introduce bias. Affiant posed the following question: “Do any voting machine types
appear to have unusual results?” The answer provided by the statistical technique/algorithm was
that machines from Dominion Voting Systems (Dominion) produced abnormal results. Id.
54. Subsequent graphical and statistical analysis shows the unusual pattern involving
machines from Dominion occurs in at least 100 counties and multiple States, including Wisconsin.
The results from the vast majority of counties using the Dominion machines is 3 to 5.6 percentage
points higher in favor of candidate Biden. This pattern is seen easily in graphical form when the
results from “Dominion” counties are overlaid against results from “non-Dominion” counties. The
results from “Dominion” counties do not match the results from the rest of the counties in the
United States. The results are clearly statistically significant, with a p-value of < 0.00004. This
translates into a statistical impossibility that something unusual involving Dominion machines is
not occurring. This pattern appears in multiple States, including Wisconsin, and the margin of
votes implied by the unusual activity would easily sway the election results. Id.
55. The following graph shows the pattern. The large red dots are counties in Wisconsin that
use Dominion voting machines. Almost all of them are above the blue prediction line, when in
normal situations approximately half of them would be below the prediction line (as evidence by
approximately half the counties in the U.S. (blue dots) that are below the blue centerline). The pvalue of statistical analysis regarding the centerline for the red dots (Wisconsin counties with
Dominion machines) is 0.000000049, pointing to a statistical impossibility that this is a “random”
16
Case 2:20-cv-01771-PP Filed 12/03/20 Page 16 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3229 Filed 12/04/20 Page 17 of 51
001109

statistical anomaly. Some external force caused this anomaly:

Id.
56. To confirm that Dominion machines were the source of the pattern/anomaly, Affiant
conducted further analysis using propensity scoring using U.S. census variables (including
ethnicities, income, professions, population density and other social/economic data) , which was
used to place counties into paired groups. Such an analysis is important because one concern could
be that counties with Dominion systems are systematically different from their counterparts, so
abnormalities in the margin for Biden are driven by other characteristics unrelated to the election.
Id.
57. After matching counties using propensity score analysis, the only difference between the
groups was the presence of Dominion machines. This approach again showed a highly statistically
17
Case 2:20-cv-01771-PP Filed 12/03/20 Page 17 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3230 Filed 12/04/20 Page 18 of 51
001110

significant difference between the two groups, with candidate Biden again averaging three
percentage points higher in Dominion counties than in the associated paired county. The
associated p-value is < 0.00005, against indicating a statistical impossibility that something
unusual is not occurring involving Dominion machines. Id.
58. The results of the analysis and the pattern seen in the included graph strongly suggest a
systemic, system-wide algorithm was enacted by an outside agent, causing the results of
Wisconsin’s vote tallies to be inflated by somewhere between three and five point six percentage
points. Statistical estimating yields that in Wisconsin, the best estimate of the number of
impacted votes is 181,440. Id.
59. The summation of sections A through C above provide the following conclusions for the
reports cited above, respectively.
•

returned ballots that were deemed unreturned by the state: 15,374

•

unreturned mail ballots unlawfully ordered by third parties: 17,795

•

votes by persons that moved out of state or subsequently registered to vote
in another state for the 2020 election: 6,966

•

Votes that were improperly relying on the “indefinitely confined”
exemption to voter ID: 96,437

•

And excess votes arising from the statistically significant outperformance
of Dominion machines on behalf of Joe Biden: 181,440

In Conclusion, the Reports cited above show a total amount of illegal votes identified that
amount to 318,012 or over 15 times the margin by which candidate Biden leads President
Trump in the state of Wisconsin.
III. FACTUAL ALLEGATIONS REGARDING DOMINION VOTING SYSTEMS
60. The State of Wisconsin, in many locations, used either Sequoia, a subsidiary of Dominion
Systems, and or Dominion Systems, Democracy Suite 4.14-D first, and then included Dominion
18
Case 2:20-cv-01771-PP Filed 12/03/20 Page 18 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3231 Filed 12/04/20 Page 19 of 51
001111

Systems Democracy Suite 5.0-S on or about January 27, 2017, which added a fundamental
modification: “dial-up and wireless results transmission capabilities to the ImageCast Precinct and
results transmission using the Democracy Suite EMS Results Transfer Manager module.” (See
Exh. 5, attached hereto, a copy of the Equipment for WI election systems).
A. Dominion’s Results for 2020 General
Dominion Manipulated Election Results.

Election

Demonst ra t e

61. Affiant Keshel’s findings that reflect the discussion cited above:
While Milwaukee County is focal for transparency and observation violations,
including reporting statistically impossible vote counts in the early morning hours
away from scrutiny, Dane County has surged far past support totals for President
Obama, despite expected difficulties mobilizing student voters to polls. President
Trump has reconsolidated the Republican base in suburban Milwaukee and far
surpassed his 2016 support levels but has been limited in margin growth by
historically improbable Democratic support in these strongholds, which defy years
of data in Wisconsin in which the Republican party surged as the Democratic Party
plunged. Finally, in strong Trump counties showing a double inversion cycle (one
party up, the other down), particularly in rural and exurban Wisconsin, Trump’s
totals are soaring, and against established trends, Biden’s totals are at improbable
levels of support despite lacking registration population
(See attached hereto, Exh. 9, Aff. of Seth Keshel, MBA)

Id.
62. Keshel provides a graph reflecting the voter returns in a time-series. The highly unlikely
19
Case 2:20-cv-01771-PP Filed 12/03/20 Page 19 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3232 Filed 12/04/20 Page 20 of 51
001112

and remarkably convenient attainment of this block of votes provides for a stunning depiction of
the election and generates many questions. The analysis provided by Plaintiff’s multiple experts,
including data, statistics and cyber, will reveal clear evidence of the multiple frauds that combined
to change the outcome of the 2020 election.

See Id.
B. Administrative
Security Flaws.

and

Judicial

Decisions

Regarding

Dominion ’ s

63. Wisconsin. In 2018, Jill Stein was in litigation with Dominion Voting Systems
(“DVS”) after her 2016 recount request pursuant to WISCONSIN STAT.§5.905(4) wherein
DVS obtained a Court Order requiring confidentiality on information including voting counting
source code, which Dominion claims is proprietary – and must be kept secret from the public. (See
unpublished decision, Wisconsin Court of Appeals, No. 2019AP272 issued April 30, 2020).
Rather than engaging in an open and transparent process to give credibility to Wiscons in’ s
20
Case 2:20-cv-01771-PP Filed 12/03/20 Page 20 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3233 Filed 12/04/20 Page 21 of 51
001113

Dominion-Democracy Suite voting system, the processes were hidden during the receipt,
review, opening, and tabulation of those votes in direct contravention of Wiscons in ’ s
Election Code and Federal law.
64. Texas. The same Dominion Democracy Suite was denied certification in Texas by the
Secretary of State on January 24, 2020, specifically because the “examiner reports raise concerns
about whether Democracy Suite 5.5-A system … is safe from fraudulent or unauthorized
manipulation.”5
65. Georgia. Substantial evidence of this vulnerability was discussed in Judge Amy
Totenberg’s October 11, 2020 Order in the USDC N.D. Ga. case of Curling, et al. v. Kemp, et. al,
Case No. 1:17-cv-02989 Doc. No. 964. See, p. 22-23 (“This array of experts and subject matter
specialists provided a huge volume of significant evidence regarding the security risks and deficits
in the system as implemented in both witness declarations and live testimony at the preliminary
injunction hearing.”); p. 25 (“In particular, Dr. Halderman’s testing indicated the practical
feasibility through a cyber attack of causing the swapping or deletion of specific votes cast and the
compromise of the system through different cyber attack strategies, including through access to
and alteration or manipulation of the QR barcode.”) The full order should be read, for it is eyeopening and refutes many of Dominion’s erroneous claims and talking points.
66. A District Judge found that Dominion’s BMD ballots are not voter verifiable, and they
cannot be audited in a software independent way. The credibility of a BMD ballot can be no greater
than the credibility of Dominion’s systems, which copious expert analysis has shown is deeply
compromised. Similar to the issues in Wisconsin, Judge Totenberg of the District Court of Georgia

5

See attached hereto, as Exh. 11, State of Texas Secretary of State, Elections Division, Report
of Review of Dominion Voting Systems Democracy Suite 5.5-A at 2 (Jan. 24, 2020) (emphasis
added).
21
Case 2:20-cv-01771-PP Filed 12/03/20 Page 21 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3234 Filed 12/04/20 Page 22 of 51
001114

Northern District held:
Georgia’s Election Code mandates the use of the BMD system as the uniform mode
of voting for all in-person voters in federal and statewide elections. O.C.G.A. § 212-300(a)(2). The statutory provisions mandate voting on “electronic ballot
markers” that: (1) use “electronic technology to independently and privately mark
a paper ballot at the direction of an elector, interpret ballot selections, ... such
interpretation for elector verification, and print an elector verifiable paper
ballot;” and (2) “produce paper ballots which are marked with the elector’s choices
in a format readable by the elector” O.C.G.A. § 21-2-2(7.1); O.C.G.A. § 21-2300(a)(2). Plaintiffs and other voters who wish to vote in-person are required to
vote on a system that does none of those things. Rather, the evidence shows that
the Dominion BMD system does not produce a voter-verifiable paper ballot or
a paper ballot marked with the voter’s choices in a format readable by the
voter because the votes are tabulated solely from the unreadable QR code.
See Order, pp. 81-82. (Emphasis added).
67. This case was later affirmed in a related case, in the Eleventh Circuit in 2018 related to
Georgia’s voting system in Common Cause Georgia v. Kemp, 347 F. Supp. 3d 1270 (11th Cir.
2018). The Court found,
In summary, while further evidence will be necessary in the future, the Court
finds that the combination of the statistical evidence and witness declarations
in the record here (and the expert witness evidence in the related Curling case
which the Court takes notice of) persuasively demonstrates the likelihood of
Plaintiff succeeding on its claims. Plaintiff has shown a substantial likelihood
of proving that the Secretary’s failure to properly maintain a reliable and
secure voter registration system has and will continue to result in the
infringement of the rights of the voters to cast their vote and have their votes
counted.
Id.at 1294-1295.
68. The expert witness in the above litigation in the United States District Court of
Georgia, Case 1:17-cv-02989-AT, Harri Hursti, specifically testified to the acute security
vulnerabilities, see Exh. 107, wherein he testified or found:
A. “The scanner and tabulation software settings being employed to
determine which votes to count on hand marked paper ballots are
likely causing clearly intentioned votes to be counted ” “The voting
system is being operated in Fulton County in a manner that escalat e s
22
Case 2:20-cv-01771-PP Filed 12/03/20 Page 22 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3235 Filed 12/04/20 Page 23 of 51
001115

the security risk to an extreme level” “Votes are not reviewing their
BMD printed ballots, which causes BMD generated results to be unauditable due to the untrustworthy audit trail.” 50% or more of voter
selections in some counties were visible to poll workers. Dominio n
employees maintain near exclusive control over the EMS servers. “In
my professional opinion, the role played by Dominion personnel in
Fulton County, and other counties with similar arrangements, should
be considered an elevated risk factor when evaluating the securit y
risks of Georgia’s voting system.” Id. ¶26.
B. A video game download was found on one Georgia Dominion system
laptop, suggesting that multiple Windows updates have been made on
that respective computer.
C. There is evidence of remote access and remote troubleshooting which
presents a grave security implication.
D. Certified identified vulnerabilities should be considered an “extreme
security risk.”
E. There is evidence of transfer of control the systems out of the physic a l
perimeters and place control with a third party off site.
F. USB drives with vote tally information were observed to be remov ed
from the presence of poll watchers during a recent election.
G. “The security risks outlined above – operating system risks, the
failure to harden the computers, performing operations directly on the
operating systems, lax control of memory cards, lack of procedur e s,
and potential remote access are extreme and destroy the credibility of
the tabulations and output of the reports coming from a voting
system.” Id. ¶49.
C. Foreign Interference/Hacking and/or Manipulation of Dominio n
Results.
1. Evidence of Vulnerability to Foreign Hackers.
69. In October of 2020 The FBI and CISA issued a JOINT CYBERSECURITY
ADVISORY ON October 30, 2020 titled: Iranian Advanced Persistent Threat Actor Identified
Obtained Voter Registration Data
This joint cybersecurity advisory was coauthored by the Cybersecurity and
Infrastructure Security Agency (CISA) and the Federal Bureau of Investigation
(FBI). CISA and the FBI are aware of an Iranian advanced persistent threat (APT)
23
Case 2:20-cv-01771-PP Filed 12/03/20 Page 23 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3236 Filed 12/04/20 Page 24 of 51
001116

actor targeting U.S. state websites to include election websites. CISA and the FBI
assess this actor is responsible for the mass dissemination of voter intimidation
emails to U.S. citizens and the dissemination of U.S. election-related
disinformation in mid-October 2020.1 (Reference FBI FLASH message ME000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the
FBI has identified the targeting of U.S. state election websites was an intentional
effort to influence and interfere with the 2020 U.S. presidential election.
(See CISA and FBI Joint Cyber Security Advisory of October 30, 2020, a copy attached hereto as
Exh. 18.)
70. An analysis of the Dominion software system by a former US Military Intelligence
expert subsequently found that the Dominion Voting system and software are accessible - and was
compromised by rogue actors, including foreign interference by Iran and China. (See Exh. 12,
Spider Declaration, (who remains redacted for security reasons).)
71. The expert does an analysis and explains how by using servers and employees connected
with rogue actors and hostile foreign influences combined with numerous easily discoverable
leaked credentials, Dominion allowed foreign adversaries to access data and intentionally provided
access to Dominion’s infrastructure in order to monitor and manipulate elections, including the
most recent one in 2020. (See Exh. 12, Spider Declaration. Several facts are set forth related to
foreign members of Dominion Voting Systems and foreign servers as well as foreign
interference.).
72. Another Declarant first explains the foundations of her opinion and then addresses the
concerns of foreign interference in our elections through hardware components from companies
based in foreign countries with adverse interests. She explains that Dominion Voting Systems
works with SCYTL, and that votes on route, before reporting, go to SCYTL in foreign countries.
On the way, they get mixed and an algorithm is applied, which is done through a secretive process.
The core software used by ALL SCYTL related Election Machine/Software
manufacturers ensures “anonymity” Algorithms within the area of this “shuffling”
24
Case 2:20-cv-01771-PP Filed 12/03/20 Page 24 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3237 Filed 12/04/20 Page 25 of 51
001117

to maintain anonymity allows for setting values to achieve a desired goal under the
guise of “encryption” in the trap-door…
(See Exh. 13, Aff. of Computer analysis, at par. 32).
73. The Affiant goes on to explain the foreign relationships in the hardware used by
Dominion Voting Systems and its subsidiary Sequoia and explains specifically the port that
Wisconsin uses, which is called Edge Gateway and that is a part of Akamai Technologies based in
Germany:
“Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES
based out of GERMANY. Using AKAMAI Technologies is allowing .gov sites to
obfuscate and mask their systems by way of HURRICANE ELECTRIC (he.net)”
74. This Declarant further explains the foundations of her opinion and then addresses the
concerns of foreign interference in our elections through hardware components from companies
based in foreign countries with adverse interests.
The concern is the HARDWARE and the NON – ACCREDITED VSTLs as by
their own admittance use COTS. The purpose of VSTL’s being accredited and their
importance is ensuring that there is no foreign interference / bad actors accessing
the tally data via backdoors in equipment software. The core software used by ALL
SCYTL related Election Machine/Software manufacturers ensures “anonymity”.
Algorithms within the area of this “shuffling” to maintain anonymity allows
for setting values to achieve a desired goal under the guise of “encryption” in
the trap-door…
(See Id. at ¶32).
75. This Declarant goes on to explain the foreign relationships in the hardware used by
Dominion Voting Systems and its subsidiary Sequoia and specifically the port that Wisconsin uses:
“Wisconsin has EDGE GATEWAY port which is AKAMAI TECHNOLOGIES
based out of GERMANY. Using AKAMAI Technologies is allowing .gov sites to
obfuscate and mask their systems by way of HURRICANE ELECTRIC (he.net)
Kicking it to anonymous (AKAMAI Technologies) offshore servers.
Wisconsin Port.
China is not the only nation involved in COTS provided to election machines or the
networking but so is Germany via a LAOS founded Chinese linked cloud service
25
Case 2:20-cv-01771-PP Filed 12/03/20 Page 25 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3238 Filed 12/04/20 Page 26 of 51
001118

company that works with SCYTL named Akamai Technologies that have offices
in China and are linked to the server [for] Dominion Software.
(See Id. at par. 21).
76. The Affiant explains the use of an algorithm and how it presents throughout the statement,
but specifically concludes that,
The “Digital Fix” observed with an increased spike in VOTES for Joe Biden
can be determined as evidence of a pivot. Normally it would be assumed that the
algorithm had a Complete Pivot. Wilkinson’s demonstrated the guarantee as:

Such a conjecture allows the growth factor the ability to be upper bound by values
closer to n. Therefore, complete pivoting can’t be observed because there would be
too many floating points. Nor can partial as the partial pivoting would overwhelm
after the “injection” of votes. Therefore, external factors were used which is evident
from the “DIGITAL FIX.” (See Id. at pars. 67-69)
“The algorithm looks to have been set to give Joe Biden a 52% win even with an
initial 50K+ vote block allocation was provided initially as tallying began (as in
case of Arizona too). In the am of November 4, 2020 the algorithm stopped
working, therefore another “block allocation” to remedy the failure of the
algorithm. This was done manually as ALL the SYSTEMS shut down
NATIONWIDE to avoid detection.”
(See Id. at par. 73)
2. Background of Dominion Connections to Smartmatic and Hostile
Foreign Governments.
77. An expert analysis by Russ Ramsland agrees with the data reflecting the use of an
algorithm that causes the spike in the data feed, which is shown to be an injection of votes to
change the outcome, because natural reporting does not appear in such a way.
78. And Russ Ramsland can support that further by documenting the data feed that came from
Dominion Voting Systems to Scytl -- and was reported with decimal points, which is contrary to
one vote as one ballot: “The fact that we observed raw vote data coming directly that includes
26
Case 2:20-cv-01771-PP Filed 12/03/20 Page 26 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3239 Filed 12/04/20 Page 27 of 51
001119

decimal places establishes selection by an algorithm, and not individual voter’s choice.
Otherwise, votes would be solely represented as whole numbers (votes cannot possibly be
added up and have decimal places reported).”
79. The report concludes that “Based on the foregoing, I believe these statistical anomalies
and impossibilities compels the conclusion to a reasonable degree of professional certainty that the
vote count in Wisconsin, in particular for candidates for President contain at least 119,430 (Para.
13) up to 384,085 (Para. 15) illegal votes that must be disregarded. In my opinion, it is not possible
at this time to determine the true results of the Wisconsin vote for President of the United States.”
The History of Dominion Voting Systems
80. Plaintiff can also show Smartmatic’s incorporation and inventors who have
background s evidencing their foreign connections, including Serbia, specifically its
identified inventors:
Applicant: SMARTM ATIC, CORP.
Inventors: Lino Iglesias, Roger Pinate, Antonio Mugica, Paul Babic, Jeff rey
Naveda, Dany Farina, Rodrigo Meneses, Salvador Ponticelli, Gisela
Goncalves, Yrem Caruso6
81. Another Affiant witness testifies that in Venezuela, she was in official positio n
related to elections and witnessed manipulations of petitions to prevent a removal of
President Chavez and because she protested, she was summarily dismissed. She explain s
the vulnerabilities of the electronic voting system and Smartmatica to such manipulatio n s.
(See Exh. 17, Cardozo Aff. ¶8).

6

See Patents Assigned to Smartmatic Corp., available at:
https://patents.justia.com/assignee/smartmatic-corp
27
Case 2:20-cv-01771-PP Filed 12/03/20 Page 27 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3240 Filed 12/04/20 Page 28 of 51
001120

3. US Government Warnings Regarding Hacking by Hostile Foreig n
Governments.
82. In October of 2020 The FBI and CISA issued a JOINT CYBERSECURITY
ADVISORY ON October 30, 2020 titled: Iranian Advanced Persistent Threat Actor Identified
Obtained Voter Registration Data
This joint cybersecurity advisory was coauthored by the Cybersecurity and
Infrastructure Security Agency (CISA) and the Federal Bureau of Investigation
(FBI). CISA and the FBI are aware of an Iranian advanced persistent threat (APT)
actor targeting U.S. state websites to include election websites. CISA and the FBI
assess this actor is responsible for the mass dissemination of voter intimidation
emails to U.S. citizens and the dissemination of U.S. election-related
disinformation in mid-October 2020.1 (Reference FBI FLASH message ME000138-TT, disseminated October 29, 2020). Further evaluation by CISA and the
FBI has identified the targeting of U.S. state election websites was an intentional
effort to influence and interfere with the 2020 U.S. presidential election.
(See Exh. 18, CISA and FBI Joint Cyber Security Advisory of October 30, 2020)
D. Additional Independent Findings of Dominion Flaws.
83. Further supportive of this pattern of incidents, reflecting an absence of mistake, Plaintiff
has since learned that the “glitches” in the Dominion system, that have the uniform effect of hurting
Trump and helping Biden, have been widely reported in the press and confirmed by the analysis
of independent experts.
1. Central Operator Can Remove, Discard or Manipulate Votes.
84. Mr. Watkins further explains that the central operator can remove or discard batches
of votes. “After all of the ballots loaded into the scanner’s feed tray have been through the scanner,
the “ImageCast Central” operator will remove the ballots from the tray then have the option to
either “Accept Batch” or “Discard Batch” on the scanning menu …. “ (Exh. 106, Watkins aff.
¶11). ¶8.
85. Mr. Watkins further testifies that the user manual makes clear that the system allows for
28
Case 2:20-cv-01771-PP Filed 12/03/20 Page 28 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3241 Filed 12/04/20 Page 29 of 51
001121

threshold settings to be set to find all ballots get marked as “problem ballots” for discretionary
determinations on where the vote goes stating:
9. During the ballot scanning process, the “ImageCast Central” software will detect
how much of a percent coverage of the oval was filled in by the voter. The
Dominion customer determines the thresholds of which the oval needs to be
covered by a mark in order to qualify as a valid vote. If a ballot has a marginal mark
which did not meet the specific thresholds set by the customer, then the ballot is
considered a “problem ballot” and may be set aside into a folder named
“NotCastImages”.
10. Through creatively tweaking the oval coverage threshold settings, and
advanced settings on the ImageCase Central scanners, it may be possible to set
thresholds in such a way that a non-trivial amount of ballots are marked “problem
ballots” and sent to the “NotCastImages” folder.
11. The administrator of the ImageCast Central work station may view all images
of scanned ballots which were deemed “problem ballots” by simply navigating
via the standard “Windows File Explorer” to the folder named “NotCastImages”
which holds ballot scans of “problem ballots”. It may be possible for an
administrator of the “ImageCast Central” workstation to view and delete any
individual ballot scans from the “NotCastImages” folder by simply using the
standard Windows delete and recycle bin functions provided by the Windows 10
Pro operating system. Id. ¶¶ 9-11.
2. Dominion – By Design – Violates Federal Election & Voting Record
Retention Requirements.
86. The Dominion System put in place by its own design violates the intent of Federal law
on the requirement to preserve and retain records – which clearly requires preservation of all
records requisite to voting in such an election.
§ 20701. Retention and preservation of records and papers by officers of
elections; deposit with custodian; penalty for violation
Every officer of election shall retain and preserve, for a period of twenty two months from the date of any general, special, or primary election of
which candidates for the office of President, Vice President, president ia l
elector, Member of the Senate, Member of the House of Representatives, or
Resident Commissioner from the Commonwealth of Puerto Rico are voted
for, all records and papers which come into his possession relating to
any application, registration, payment of poll tax, or other act requis it e
to voting in such election, except that, when required by law, such record s
and papers may be delivered to another officer of election and except that,
29
Case 2:20-cv-01771-PP Filed 12/03/20 Page 29 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3242 Filed 12/04/20 Page 30 of 51
001122

if a State or the Commonwealth of Puerto Rico designates a custodian to
retain and preserve these records and papers at a specified place, then such
records and papers may be deposited with such custodian, and the duty to
retain and preserve any record or paper so deposited shall devolve upon
such custodian. Any officer of election or custodian who willfully fails to
comply with this section shall be fined not more than $1,000 or impris o ned
not more than one year, or both.
See 52 USC § 20701.
3. Dominion Vulnerabilities to Hacking.
87. Plaintiff has since learned that the “glitches” in the Dominion system -- that have
the uniform effect of hurting Trump and helping Biden -- have been widely reported in
the press and confirmed by the analysis of independent experts, a partial summary of
which is included below.
(1) Users on the ground have full admin privileges to machines and
software. The Dominion system is designed to facilitate vulnerability
and allow a select few to determine which votes will be counted in any
election. Workers were responsible for moving ballot data from pollin g
place to the collector’s office and inputting it into the correct folder. Any
anomaly, such as pen drips or bleeds, is not counted and is handed over
to a poll worker to analyze and decide if it should count. This creates
massive opportunity for improper vote adjudication. (Exh. 106 Watkins
aff. ¶¶8 & 11).
(2) Affiant witness (name redacted for security reasons), in his sworn
testimony explains he was selected for the national security guard detail
of the President of Venezuela, and that he witnessed the creation of
Smartmatic for the purpose of election vote manipulation:
I was witness to the creation and operation of a sophisticated electro nic
voting system that permitted the leaders of the Venezuelan govern m ent
to manipulate the tabulation of votes for national and local elections and
select the winner of those elections in order to gain and maintain their
power. Importantly, I was a direct witness to the creation and operatio n
of an electronic voting system in a conspiracy between a compan y
known as Smartmatic and the leaders of conspiracy with the Venezu e la n
government. This conspiracy specifically involved President Hugo
Chavez Frias, the person in charge of the National Electoral Council
named Jorge Rodriguez, and principals, representatives, and person ne l
from Smartmatic which included … The purpose of this conspiracy was
30
Case 2:20-cv-01771-PP Filed 12/03/20 Page 30 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3243 Filed 12/04/20 Page 31 of 51
001123

to create and operate a voting system that could change the votes in
elections from votes against persons running the Venezu e la n
government to votes in their favor in order to maintain control of the
government. (Id. ¶¶6, 9, 10).
88. Specific vulnerabilities of the systems in question that have been well document ed
or reported include:
A. Barcodes can overrid e the voters’ vote: As one University of Califor n ia,
Berkeley study shows, “In all three of these machines [includ in g
Dominion Voting Systems] the ballot marking printer is in the same
paper path as the mechanism to deposit marked ballots into an attached
ballot box. This opens up a very serious security vulnerability: the
voting machine can make the paper ballot (to add votes or spoil alread y case votes) after the last time the voter sees the paper, and then deposit
that marked ballot into the ballot box without the possibility of
detection.” (See Exh. 2, Appel Study).
B. Voting machines were able to be connected to the internet by way of
laptops that were obviously internet accessible. If one laptop was
connected to the internet, the entire precinct was compromised.
C. October 6, 2006 – Congresswom an Carolyn Maloney calls on
Secretary of Treasury Henry Paulson to conduct an investiga t io n
into Smartm atic based on its foreign ownership and ties to
Venezuela. (See Exh. 15). Congresswoman Maloney wrote that “It is
undisputed that Smartmatic is foreign owned and it has acquired Sequoia
… Smartmatic now acknowledged that Antonio Mugica, a Venezu e la n
businessman has a controlling interest in Smartmatica, but the compan y
has not revealed who all other Smartmatic owners are. Id.
D. Dominion “got into trouble” with several subsidiaries it used over
alleged cases of fraud. One subsidiary is Smartmatic, a company “that
has played a significant role in the U.S. market over the last decad e. ” 7
Dominion entered into a 2009 contract with Smartmatic and provid ed
Smartmatic with the PCOS machines (optical scanners) that were used
in the 2010 Philippine election, the biggest automated election run by a
private company. The automation of that first election in the Philipp ine s
was hailed by the international community and by the critics of the
automation. The results transmission reached 90% of votes four hours
after polls closed and Filipinos knew for the first time who would be
Voting Technology Companies in the U.S. – Their Histories and Present Contributions,
Access Wire, (Aug. 10, 2017), available at: https://www.accesswire.com/471912/VotingTechnology-Companies-in-the-US--Their-Histories.
7

31
Case 2:20-cv-01771-PP Filed 12/03/20 Page 31 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3244 Filed 12/04/20 Page 32 of 51
001124

their new president on Election Day. In keeping with local Election law
requirements, Smartmatic and Dominion were required to provide the
source code of the voting machines prior to elections so that it could be
independently verified. Id.
E. Litigation over Smartmatic “glitches” alleges they impacted the 2010
and 2013 mid-term elections in the Philippines, raising questions of
cheating and fraud. An independent review of the source codes used in
the machines found multiple problems, which concluded , “The software
inventory provided by Smartmatic is inadequate, … which brings into
question the software credibility.”8
F. Dominion acquired Sequoia Voting Systems as well as Premier Election
Solutions (formerly part of Diebold, which sold Premier to ES&S in
2009, until antitrust issues forced ES&S to sell Premier, which then was
acquired by Dominion). This map illustrates 2016 voting machin e
data—meaning, these data do not reflect geographic aggregation at the
time of acquisition, but rather the machines that retain the Sequoia or
Premier/Diebold brand that now fall under Dominion ’s market share.
Penn Wharton Study at 16.
G. In late December of 2019, three Democrat Senators, Warren, Klobuch a r,
Wyden and House Member Mark Pocan wrote about their
‘particularized concerns that secretive & “trouble -plagued companie s” ‘
“have long skimped on security in favor of convenience, ” in the context
of how they described the voting machine systems that three large
vendors – Election Systems & Software, Dominion Voting Systems, &
Hart InterCivic – collectively provide voting machines & software that
facilitate voting for over 90% of all eligible voters in the U.S.” (See
Exh. 16).
H. Senator Ron Wyden (D-Oregon) said the findings [insecurity of voting
systems] are “yet another damning indictment of the profitee r in g
election vendors, who care more about the bottom line than protectin g
our democracy.” It’s also an indictment, he said, “of the notion that
important cybersecurity decisions should be left entirely to county
election offices, many of whom do not employ a single cybersecu r ity
specialist.”9

8

Smartmatic-TIM Running Out of Time to Fix Glitches, ABS-CBN News (May 4, 2010),
available at: https://news.abs-cbn.com/nation/05/04/10/smartmatic-tim-running-out-time-f ixglitches.
9

Kim Zetter, Exclusive: Critical U.S. Election Systems Have Been Left Exposed Online Despite
Official Denials, VICE (Aug. 8, 2019) (“VICE Election Article”), available at:
32
Case 2:20-cv-01771-PP Filed 12/03/20 Page 32 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3245 Filed 12/04/20 Page 33 of 51
001125

89. The House of Representatives passed H.R. 2722 in an attempt to address these
very risks on June 27, 2019:
This bill addresses election security through grant
requirements for voting systems and paper ballots.

programs

and

The bill establishes requirements for voting systems, including that
systems (1) use individual, durable, voter-verif ied paper ballots; (2) make
a voter’s marked ballot available for inspection and verification by the
voter before the vote is cast; (3) ensure that individuals with disabilit ie s
are given an equivalent opportunity to vote, including with privacy and
independence, in a manner that produces a voter-verif ied paper ballot; (4)
be manufactured in the United States; and (5) meet specified cybersecur it y
requirements, including the prohibition of the connection of a voting
system to the internet.
See H.R. 2722.
E. Because Dominion Senior Management Has Publicly Express e d
Hostility to Trump and Opposition to His Election, Dominion Is Not
Entitled to Any Presumption of Fairness, Objectivity or
Impartiality, and Should Instead Be Treated as a Hostile Partis a n
Political Actor.
90. Dr. Eric Coomer is listed as the co-inventor for several patents on ballot
adjudication and voting machine-related technology, all of which were assigned to
Dominion.10 He joined Dominion in 2010, and most recently served as Voting Systems

https://www.vice.com/en/article/3kxzk9/exclusive-critical-us-election-systems
exposed-online-despite-official-denials.

have-been-left-

See “Patents by Inventor Eric Coomer,” available at:
https://patents.justia.com/inventor/eric-coomer. This page lists the following patents
issued to Dr. Coomer and his co-inventors: (1) U.S. Patent No. 9,202,113, Ballot
Adjudication in Voting Systems Utilizing Ballot Images (issued Dec. 1, 2015); (2) U.S.
Patent No. 8,913,787, Ballot Adjudication in Voting Systems Utilizing Ballot Images
(issued Dec. 16, 2014); (3) U.S. Patent No. 8,910,865, Ballot Level Security Features for
Optical Scan Voting Machine Capable of Ballot Image Processing, Secure Ballot
Printing, and Ballot Layout Authentication and Verification (issued Dec. 16, 2014); (4)
U.S. Patent No. 8,876,002, Systems for Configuring Voting Machines, Docking Device
for Voting Machines, Warehouse Support and Asset Tracking of Voting Machines (issu ed
Nov. 4, 2014); (5) U.S. Patent No. 8,864,026, Ballot Image Processing System and
10

33
Case 2:20-cv-01771-PP Filed 12/03/20 Page 33 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3246 Filed 12/04/20 Page 34 of 51
001126

Officer of Strategy and Director of Security for Dominion.

Dr. Coomer first joined

Sequoia Voting Systems in 2005 as Chief Software Architect and became Vice Presid ent
of Engineering before Dominion Voting Systems acquired Sequoia.

Dr. Coome r ’ s

patented ballot adjudication technology into Dominion voting machines sold through out
the United States, including those used in Wisconsin. See Exh. 6 (Jo Oltmann Affidavit ).
91. In 2016, Dr. Coomer admitted to the State of Illinois that Dominion Voting
machines can be manipulated remotely.11 He has also publicly posted videos explain in g
how Dominion voting machines can be remotely manipulated. See Id.12
92. Dr. Coomer has emerged as Dominion’s principal defender, both in litigatio n
alleging that Dominion rigged elections in Georgia and in the media. An examination of
his previous public statements has revealed that Dr. Coomer is highly partisan and even
more anti-Trump, precisely the opposite of what would expect from the management of
a company charged with fairly and impartially counting votes (which is presumably why
he tried to scrub his social media history). (See Id.)
93. Unfortunately for Dr. Coomer, however, a number of these posts have been
captured for perpetuity. Below are quotes from some of his greatest President Trump and
Trump voter hating hits to show proof of motive and opportunity. (See Id).

Method for Voting Machines (issued Oct. 21, 2014); (6) U.S. Patent No. 8,714,4 5 0,
Systems and Methods for Transactional Ballot Processing, and Ballot Auditing (issu ed
May 6, 2014), available at: https://patents.justia.com/inventor/eric-coomer.
11

Jose Hermosa, Electoral Fraud: Dominion’s Vice President Warned in 2016 That VoteCounting Systems Are Manipulable, The BL (Nov. 13, 2020), available at: https://thebl.com/usnews/electoral-fraud-dominions-vice-president-warned-in-2016-that-vote-counting-systems-aremanipulable.html.
See, e.g., “Eric Coomer Explains How to Alter Votes in the Dominion Voting System” (Nov.
24, 2020) (excerpt of presentation delivered in Chicago in 2017), available at:
https://www.youtube.com/watch?v=UtB3tLaXLJE.
12

34
Case 2:20-cv-01771-PP Filed 12/03/20 Page 34 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3247 Filed 12/04/20 Page 35 of 51
001127

If you are planning to vote for that autocratic, narcissistic, fascist ass-hat
blowhard and his Christian jihadist VP pic, UNFRIEND ME NOW! No,
I’m not joking. … Only an absolute F[**]KI NG IDIOT could ever vote for
that wind-bag fuck-tard FASCIST RACIST F[**]K! … I don’t give a damn
if you’re friend, family, or random acquaintance, pull the lever, mark an
oval, touch a screen for that carnival barker … UNFRIEND ME NOW! I
have no desire whatsoever to ever interact with you. You are beyond hope,
beyond reason. You are controlled by fear, reaction and bullsh[*]t. Get
your shit together. F[**]K YOU! Seriously, this f[**]king ass-clown stand s
against everything that makes this country awesome! You want in on that?
You [Trump voters] deserve nothing but contempt. Id. (July 21, 2016
Facebook post).13
94. In a rare moment of perhaps unintentional honesty, Dr. Coomer anticipates this
Amended Complaint and many others, by slandering those seeking to hold election
riggers like Dominion to account and to prevent the United States’ descent into
Venezuelan levels of voting fraud and corruption out of which Dominion was born:
Excerpts in stunning Trump-supporter logic, “I know there is a lot of voter
fraud. I don’t know who is doing it, or how much is happening, but I know
it is going on a lot.” This beautiful statement was followed by, “It happens
in third world countries, this the US, we can’t let it happen here.” Id.
(October 29, 2016 Facebook post); (See also Exh. 6)
95. Dr. Coomer, who invented the technology for Dominion ’s voting fraud and has
publicly explained how it can be used to alter votes, seems to be extremely hostile to those
who would attempt to stop it and uphold the integrity of elections that underpins the
legitimacy of the United States government:
And in other news… There be some serious fuckery going on right here
fueled by our Cheeto-in-Chief stoking lie after lie on the flames of [Kris]
Kobach… [Linking Washington Post article discussing the President ia l
Advisory Commission on Election Integrity, of which former Kansas
Secretary of State Kris Kobach was a member, entitled, “The voting
commission is a fraud itself. Shut it down.”] Id. (September 14, 2017
Facebook post.] (Id.)

13

In this and other quotations from Dr. Coomer’s social media, Plaintiff has redacted certain
profane terms.
35
Case 2:20-cv-01771-PP Filed 12/03/20 Page 35 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3248 Filed 12/04/20 Page 36 of 51
001128

96. Dr. Coomer also keeps good company, supporting and reposting ANTI FA
statements slandering President Trump as a “fascist ” and by extension his supporte r s,
voters and the United States military (which he claims, without evidence, Trump will
make into a “fascist tool”). Id. (June 2, 2020 Facebook post). Lest someone claims that these
are “isolated statements” “taken out of context”, Dr. Coomer has affirmed that he shares
ANTIFA’s taste in music and hatred of the United States of America, id. (May 31, 2020 Facebook
post linking “F[**]k the USA” by the exploited), and the police. Id. (separate May 31, 2020
Facebook posts linking N.W.A. “F[**]k the Police” and a post promoting phrase “Dead Cops”).
Id. at 4-5.
97. Affiant and journalist Joseph Oltmann researched ANTIFA in Colorado.

Id. at

1. “On or about the week of September 27, 2020,” he attended an Antifa meeting which
appeared to be between Antifa members in Colorad o Springs and Denver Colorad o, ”
where Dr. Coomer was present. In response to a question as to what Antifa would do “if
Trump wins this … election?”, Dr. Coomer respond ed “Don’t worry about the electio n.
Trump is not going to win. I made f[**]king sure of that … Hahaha.” Id. at 2.
98. By putting an anti-Trump zealot like Dr. Coomer in charge of election “Security,” and
using his technology for what should be impartial “ballot adjudication,” Dominion has given the
fox the keys to the hen house and has forfeited any presumption of objectivity, fairness, or even
propriety. It appears that Dominion does not care about even an appearance of impropriety, as its
most important officer has his fingerprints all over a highly partisan, vindictive, and personal
vendetta against the Republican nominee both in 2016 and 2020, President Donald Trump. Dr.
Coomer’s highly partisan anti-Trump rages show clear motive on the part of Dominion to rig the
election in favor of Biden, and may well explain why for each of the so-called “glitches”
36
Case 2:20-cv-01771-PP Filed 12/03/20 Page 36 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3249 Filed 12/04/20 Page 37 of 51
001129

uncovered, it is always Biden receiving the most votes on the favorable end of such a “glitch.”
(Id.)
99. In sum, as set forth above, for a host of independ ent reasons, the Wiscon s in
election results conclud ing that Joe Biden received 20,608 more votes that Presid ent
Donald Trump must be set aside.
COUNT I
Defendants Violated the Elections and Electors Clauses and 42 U.S.C. § 1983.
100. Plaintiff realleges all preceding paragraphs as if fully set forth herein.
101. The Electors Clause states that “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors” for President. U.S. Const. art. II, §1, cl. 2
(emphasis added). Likewise, the Elections Clause of the U.S. Constitution states that “[t]he Times,
Places, and Manner of holding Elections for Senators and Representatives, shall be prescribed in
each State by the Legislature thereof.” U.S. Const. art. I, § 4, cl. 1 (emphasis added).
102. The Legislature is “‘the representative body which ma[kes] the laws of the
people.’” Smiley v. Holm, 285 U.S. 355, 365 (1932).

Regulations for president ia l

elections, thus, “must be in accordance with the method which the state has prescrib ed
for legislative enactments.”

Id. at 367; see also Ariz. State Legislature v. Ariz. Indep.

Redistricting Comm’n, 135 S. Ct. 2652, 2668 (2015).
103. Defendants are not part of the Wisconsin Legislature and cannot exercis e
legislative power. Because the United States Constitution reserves for the Wisco n s in
Legislature the power to set the time, place, and manner of holding elections for the
President and Congress, county boards of elections and state executive officers have no
authority to unilaterally exercise that power, much less to hold them in ways that conflict
37
Case 2:20-cv-01771-PP Filed 12/03/20 Page 37 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3250 Filed 12/04/20 Page 38 of 51
001130

with existing legislation.
104. Section

I details three separate

Wisconsin Election Code.

instances

where Defendants violated

the

First, WEC May 23, 2020 “guidance” on the treatment of

“indefinitely confined” voters, who are exempt from Wisconsin’s photo ID require m ent
for absentee ballot application, that directly contravened the express requirement in
Wisconsin Election Code that clerks “shall” remove an allegedly “indefinitely confined ”
voter if the clerk has “reliable information” that that voter is not, or is no longer,
“indefinitely confined.”
105. Second, the WEC’s October 18, 2016 guidance directed clerks to violate the
express requirements of Wisconsin Statutes § 6.87(6)(d ), which states “[i]f a certificate is
missing the address of a witness the ballot may not be counted,” when it directed clerks
to fill in missing information on absentee ballot envelopes.
106. Third, WEC and Wisconsin election officials violated Wisconsin Election Code,
or acted ultra vires, insofar as they filled in missing witness or voter information on
absentee ballots and permitted voters to cure ballots without statutory authorizatio n.
Section II provides expert witness testimony quantifying the number of illegal or
ineligible ballots that were counted, and lawful ballots that were not, as a result of these
and Defendants’ other violations.
107. A report from Dr. William Briggs, shows that there were approximately 29,594 absentee
ballots listed as “unreturned” by voters that either never requested them, or that requested and
returned their ballots.
108. Evidence compiled by Matt Braynard, Exh. 3, using the National Change of Address
(“NCOA”) Database shows that 6,207 Wisconsin voters in the 2020 General Election moved out38
Case 2:20-cv-01771-PP Filed 12/03/20 Page 38 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3251 Filed 12/04/20 Page 39 of 51
001131

of-state prior to voting, and therefore were ineligible. Mr. Braynard also identified 765 Wisconsin
voters who subsequently registered to vote in another state and were therefore ineligible to vote in
the 2020 General Election. The merged number is 6,966 ineligible voters whose votes must be
removed from the total for the 2020 General Election.
109. Plaintiff has no adequate remedy at law and will suffer serious and irrepara b le
harm unless the injunctive relief requested herein is granted. Defendants have acted and ,
unless enjoined, will act under color of state law to violate the Elections Clause.
110. Accordingly, the results for President in the November 3, 2020 election must be
set aside, the State of Wisconsin should be enjoined from transmitting the certified the
results thereof, and this Court should grant the other declaratory and injunctive relief
requested herein.
COUNT II
Governor Evers and Other Defendants Violated The Equal
Protection Clause of the Fourteenth Amendment U.S. Const.
Amend. XIV & 42 U.S.C. § 1983
Invalid Enactment of Regulations & Disparate Treatment of
Absentee vs. Mail-In Ballots
111. Plaintiff refers to and incorporate by reference each of the prior paragraphs of this
Amended Complaint as though the same were repeated at length herein.
112. The Fourteenth Amendment of the United States Constitution provides “nor shall any
state deprive any person of life, liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection of the laws. See also Bush v.
Gore, 531 U.S. 98, 104 (2000) (having once granted the right to vote on equal terms, the
State may not, by later arbitrary and disparate treatment, value one person ’s vote over the
value of another’s). Harper v. Va. Bd. of Elections, 383 U.S. 663, 665 (1966) (“Once the
39
Case 2:20-cv-01771-PP Filed 12/03/20 Page 39 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3252 Filed 12/04/20 Page 40 of 51
001132

franchise is granted to the electorate, lines may not be drawn which are inconsistent with
the Equal Protection Clause of the Fourteenth Amend ment. ”). The Court has held that to
ensure equal protection, a problem inheres in the absence of specific standards to ensure
its equal application. Bush, 531 U.S. at 106 (“The formulation of uniform rules to
determine intent based on these recurring circumstances is practicable and, we conclud e,
necessary.”).
113. The equal enforcement of election laws is necessary to preserve our most basic
and fundamental rights. The requirement of equal protection is particularly stringe nt ly
enforced as to laws that affect the exercise of fundamental rights, including the right to
vote.
114. The disparate treatment of Wisconsin voters, in subjecting one class of voters to greater
burdens or scrutiny than another, violates Equal Protection guarantees because “the right of
suffrage can be denied by a debasement or dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of the franchise.” Reynolds v. Sims, 377
U.S. 533, 555 (1964); Rice v. McAlister, 268 Ore. 125, 128, 519 P.2d 1263, 1265 (1975);
Heitman v. Brown Grp., Inc., 638 S.W.2d 316, 319, 1982 Mo. App. LEXIS 3159, at *4 (Mo. Ct.
App. 1982); Prince v. Bear River Mut. Ins. Co., 2002 UT 68, ¶ 41, 56 P.3d 524, 536-37 (Utah
2002).
115. In statewide and federal elections conducted in the State of Wisconsin, includ in g
without limitation the November 3, 2020 General Election, all candidates, politica l
parties, and voters, including without limitation Plaintiff, in having the election laws
enforced fairly and uniformly.
116. As set forth in Section I above, Defendants failed to comply with the requireme nt s
40
Case 2:20-cv-01771-PP Filed 12/03/20 Page 40 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3253 Filed 12/04/20 Page 41 of 51
001133

of the Wisconsin Election Code and thereby diluted the lawful ballots of the Plaintiff and
of other Wisconsin voters and electors in violation of the United States Constitut ion
guarantee of Equal Protection. Further, Defendants enacted regulations, or issued
guidance, that had the intent and effect of favoring one class of voters – Democr atic
absentee voters – over Republican voters. Further, all of these invalid ly enacted rules by
Defendant Wisconsin executive and administrative agencies, had the intent and effect of
eliminating protections against voter fraud, and thereby enabled and facilitated the
counting of fraudulent, unlawful and ineligible votes, which were quantified in Section
II. Finally, Section III details the additional voting fraud and manipulation enabled by
the use Dominion voting machines, which had the intent and effect of favoring Biden and
Democratic voters and discriminating against Trump and Republican voters.
117. Defendants have acted and will continue to act under color of state law to violate
Plaintiff ’s right to be present and have actual observation and access to the electora l
process as secured by the Equal Protection Clause of the United States Constitutio n.
Defendants thus failed to conduct the general election in a uniform manner as required by
the Equal Protection Clause of the Fourteenth Amendment, the corollary provisions of the
Wisconsin Constitution, and the Wisconsin Election Code.
118. Plaintiff seeks declaratory and injunctive relief forbidding Defendants from
certifying a tally that includes any ballots that were not legally cast, or that were switched
from Trump to Biden through the unlawful use of Dominion Democracy Suite software
and devices.
119. The Briggs analysis identified two specific errors involving unreturned mail-in ballots
that are indicative of voter fraud, namely: “Error #1: those who were recorded as receiving
41
Case 2:20-cv-01771-PP Filed 12/03/20 Page 41 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3254 Filed 12/04/20 Page 42 of 51
001134

absentee ballots without requesting them;” and “Error #2: those who returned absentee ballots
but whose votes went missing (i.e., marked as unreturned).” Clearly the dilution of lawful votes
violates the Equal Protection clause; and the counting of unlawful votes violates the rights of
lawful Citizens.
120. In addition, Plaintiff asks this Court to order that no ballot processed by a countin g
board in the Wisconsin Counties can be included in the final vote tally unless a challe n ge r
was allowed to meaningf ully observe the process and handling and counting of the ballot,
or that were unlawfully switched from Trump to Biden.
121. Plaintiff has no adequate remedy at law and will suffer serious and irrepara b le
harm unless the declaratory and injunctive relief requested herein is granted. Indeed, the
setting aside of an election in which the people have chosen their representative is a
drastic remedy that should not be undertaken lightly, but instead should be reserved for
cases in which a person challenging an election has clearly established a violation of
election procedures and has demonstrat ed that the violation has placed the result of the
election in doubt. Wisconsin law allows elections to be contested through litigation, both
as a check on the integrity of the election process and as a means of ensuring the
fundamental right of citizens to vote and to have their votes counted accurately.
COUNT III
Fourteenth Amendm ent, Amend. XIV & 42 U.S.C. § 1983
Denial of Due Process On The Right to Vote
122. Plaintiff refers to and incorporate by reference each of the prior paragraphs of
this Amended Complaint as though the same were repeated at length herein.
123. The right of qualified citizens to vote in a state election involving federal
42
Case 2:20-cv-01771-PP Filed 12/03/20 Page 42 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3255 Filed 12/04/20 Page 43 of 51
001135

candidates is recognized as a fundamental right under the Fourteenth Amendment of the
United States Constitution. Harper, 383 U.S. at 665. See also Reynolds, 377 U.S. at 554
(The Fourteenth Amend ment protects the “the right of all qualified citizens to vote, in
state as well as in federal elections.”). Indeed, ever since the Slaughter-House Cases, 83
U.S. 36 (1873), the United States Supreme Court has held that the Privileges and
Immunities Clause of the Fourteenth Amend ment protects certain rights of federal
citizenship from state interference, including the right of citizens to vote in federal
elections. See Twining v. New Jersey, 211 U.S. 78, 97 (1908) (citing Ex parte Yarbrou g h,
110 U.S. 651, 663-64 (1884)). See also Oregon v. Mitchell, 400 U.S. 112, 148-49 (1970)
(Douglas, J., concurring) (collecting cases).
124. The fundamental right to vote protected

by the Fourteenth

Amendment is

cherished in our nation because it “is preservative of other basic civil and political rights. ”
Reynolds, 377 U.S. at 562. Voters have a “right to cast a ballot in an election free from
the taint of intimid ation and fraud,” Burson v. Freeman, 504 U.S. 191, 211 (1992), and
“[c]onf idence in the integrity of our electoral processes is essential to the functioning of
our participatory democracy.” Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).
125. “Obviously included within the right to [vote], secured by the Constitution, is the
right of qualified voters within a state to cast their ballots and have them counted ” if they
are validly cast. United States v. Classic, 313 U.S. 299, 315 (1941). “[T]he right to have
the vote counted” means counted “at full value without dilution or discount.” Reynold s,
377 U.S. at 555, n.29 (quoting South v. Peters, 339 U.S. 276, 279 (1950) (Douglas, J.,
dissenting)).

43
Case 2:20-cv-01771-PP Filed 12/03/20 Page 43 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3256 Filed 12/04/20 Page 44 of 51
001136

“Every voter in a federal . . . election, whether he votes for a candidate with little chance of winning
or for one with little chance of losing, has a right under the Constitution to have his vote fair ly
counted, without its being distorted by fraudulently cast votes.” Anderson v. United States, 417

U.S. 211, 227 (1974); see also Baker v. Carr, 369 U.S. 186, 208 (1962). Invalid or
fraudulent votes debase and dilute the weight of each validly cast vote. Reynolds, 377
U.S. at 555.
126. The right to vote includes not just the right to cast a ballot, but also the right to have it
fairly counted if it is legally cast. The right to vote is infringed if a vote is cancelled or diluted by
a fraudulent or illegal vote, including without limitation when a single person votes multiple times.
The Supreme Court of the United States has made this clear in case after case. See, e.g., Gray v.
Sanders, 372 U.S. 368, 380 (1963) (every vote must be “protected from the diluting effect of illegal
ballots.”); Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 196 (2008) (plurality op. of
Stevens, J.) (“There is no question about the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); accord Reynolds v. Sims, 377 U.S. 533, 554-55 &
n.29 (1964).
127. The right to an honest count is a right possessed by each voting elector, and to
the extent that the importance of his vote is nullified, wholly or in part, he has been injur ed
in the free exercise of a right or privilege secured to him by the laws and Constitution of
the United States. Anderson, 417 U.S. at 226 (quoting Prichard v. United States, 181 F.2d
326, 331 (6th Cir.), aff’d due to absence of quorum, 339 U.S. 974 (1950)).
128. Practices that promote the casting of illegal or unreliable ballots or fail to contain
basic minimum guarantees against such conduct, can violate the Fourteenth Amend ment
by leading to the dilution of validly cast ballots. See Reynolds, 377 U.S. at 555 (“the right
44
Case 2:20-cv-01771-PP Filed 12/03/20 Page 44 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3257 Filed 12/04/20 Page 45 of 51
001137

of suffrage can be denied by a debasement or dilution of the weight of a citizen ’s vote just
as effectively as by wholly prohibiting the free exercise of the franchise. ”).
129. Section I details the Defendants violations of the Wisconsin Election Code .
Section II provides estimates of the number of fraudulent, illegal or ineligible votes
counted, and demonstrates that this number is many times larger than Biden’s margin of
victory.
130. Plaintiff seeks declaratory and injunctive relief enjoining Defendants from
certifying the results of the General Election, or in the alternative, conduct a recount or
recanvas in which they allow a reasonable number of challengers to meaningfully observe
the conduct of the Wisconsin Board of State Canvassers and the Wisconsin county Board s
of Canvassers and that these canvassing boards exercise their duty and authority und er
Wisconsin law, which forbids certifying a tally that includes any ballots that were not
legally cast, or that were switched from Trump to Biden through the unlawful use of
Dominion Democracy Suite software and devices.
COUNT IV
Wide-Spread Ballot Fraud
131. Plaintiff realleges all preceding paragraphs as if fully set forth herein.
132. The scheme of civil fraud can be shown with the pattern of conduct that includes motive
and opportunity, as exhibited by the high level official at Dominion Voting Systems, Eric Coomer,
and his visceral and public rage against the current U.S. President.
133. Opportunity appears with the secretive nature of the voting source code, and the feed of
votes that make clear that an algorithm is applied, that reports in decimal points despite the law
requiring one vote for one ballot.
45
Case 2:20-cv-01771-PP Filed 12/03/20 Page 45 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3258 Filed 12/04/20 Page 46 of 51
001138

134. The results of the analysis and the pattern seen in the included graph strongly suggest a
systemic, system-wide algorithm was enacted by an outside agent, causing the results of
Wisconsin’s vote tallies to be inflated by somewhere between 3 and 5.6 percentage points.
Statistical estimating yields that in Wisconsin, the best estimate of the number of impacted votes
is 181,440. Id.
135. The Reports cited above show a total amount of illegal votes identified that amount to
318,012 or over 15 times the margin by which candidate Biden leads President Trump in the state
of Wisconsin.
136. The right to vote includes not just the right to cast a ballot, but also the right to have it
fairly counted if it is legally cast. The right to vote is infringed if a vote is cancelled or diluted by
a fraudulent or illegal vote, including without limitation when a single person votes multiple times.
The Supreme Court of the United States has made this clear in case after case. See, e.g., Gray v.
Sanders, 372 U.S. 368, 380 (1963) (every vote must be “protected from the diluting effect of illegal
ballots.”); Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 196 (2008) (plurality op. of
Stevens, J.) (“There is no question about the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); accord Reynolds v. Sims, 377 U.S. 533, 554-55 &
n.29 (1964).
137. Plaintiff has no adequate remedy at law. Plaintiff contests the results of Wisconsin’s 2020
General Election because it is fundamentally corrupted by fraud. Defendants intentionally violated
multiple provisions of the Wisconsin Election Code to elect Biden and other Democratic
candidates and defeat President Trump and other Republican candidates.

46
Case 2:20-cv-01771-PP Filed 12/03/20 Page 46 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3259 Filed 12/04/20 Page 47 of 51
001139

PRAYER FOR RELIEF
138. Accordingly, Plaintiff seeks temporary restraining order instructing Defendants to decertify the results of the General Election for the Office of President.
139. Alternatively, Plaintiff seeks an order instructing the Defendants to certify the results of
the General Election for Office of the President in favor of President Donald Trump.
140. In the alternative, Plaintiff seeks a temporary restraining order prohibiting Defendants
from including in any certified results from the General Election the tabulation of absentee and
mailing ballots which do not comply with the Wisconsin Election Code, including, without
limitation, the tabulation of absentee and mail-in ballots Trump Campaign’s watchers were
prevented from observing or based on the tabulation of invalidly cast absentee and mail-in ballots
which (i) lack a secrecy envelope, or contain on that envelope any text, mark, or symbol which
reveals the elector’s identity, political affiliation, or candidate preference, (ii) do not include on
the outside envelope a completed declaration that is dated and signed by the elector, (iii) are
delivered in-person by third parties for non-disabled voters, or (iv) any of the other Wisconsin
Election Code violations set forth in Section II of this Amended Complaint.
141. Order production of all registration data, ballot applications, ballots, envelopes, etc.
required to be maintained by law. When we consider the harm of these uncounted votes, and
ballots not ordered by the voters themselves, and the potential that many of these unordered ballots
may in fact have been improperly voted and also prevented proper voting at the polls, the mail
ballot system has clearly failed in the state of Wisconsin and did so on a large scale and widespread
basis. The size of the voting failures, whether accidental or intentional, are multiples larger than
the margin in the state. For these reasons, Wisconsin cannot reasonably rely on the results of the
47
Case 2:20-cv-01771-PP Filed 12/03/20 Page 47 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3260 Filed 12/04/20 Page 48 of 51
001140

mail vote. Relief sought is the elimination of the mail ballots from counting in the 2020 election.
Alternatively, the electors for the State of Wisconsin should be disqualified from counting toward
the 2020 election. Alternatively, the electors of the State of Wisconsin should be directed to vote
for President Donald Trump.
142. For these reasons, Plaintiff asks this Court to enter a judgment in his favor and provide
the following emergency relief:
1.

An order directing Governor Evers and the Wisconsin Elections Commission
to de-certify the election results;

2.

An order enjoining Governor Evers from transmitting the currently certified
election results the Electoral College;

3.

An order requiring Governor Evers to transmit certified election results that
state that President Donald Trump is the winner of the election;

4.

An immediate temporary restraining order to seize and impound all servers,
software, voting machines, tabulators, printers, portable media, logs, ballot
applications, ballot return envelopes, ballot images, paper ballots, and all
“election materials” referenced in Wisconsin Statutes § 9.01(1)(b)11. related
to the November 3, 2020 Wisconsin election for forensic audit and inspection
by the Plaintiff;

5.

An order that no votes received or tabulated by machines that were not certified
as required by federal and state law be counted;

48
Case 2:20-cv-01771-PP Filed 12/03/20 Page 48 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3261 Filed 12/04/20 Page 49 of 51
001141

6.

A declaratory judgment declaring that Wisconsin’s failed system of signature
verification violates the Electors and Elections Clause by working a de facto
abolition of the signature verification requirement;

7.

A declaratory judgment declaring that currently certified election results
violate the Due Process Clause, U.S. CONST. Amend. XIV;

8.

A declaratory judgment declaring that mail-in and absentee ballot fraud must
be remedied with a Full Manual Recount or statistically valid sampling that
properly verifies the signatures on absentee ballot envelopes and that
invalidates the certified results if the recount or sampling analysis shows a
sufficient number of ineligible absentee ballots were counted;

9.

A declaratory judgment declaring absentee ballot fraud occurred in violation
of Constitutional rights, Election laws and under state law;

10. A permanent injunction prohibiting the Governor and Secretary of State from
transmitting the currently certified results to the Electoral College based on the
overwhelming evidence of election tampering;
11. Immediate production of 48 hours of security camera recordings of all voting
central count facilities and processes in Milwaukee and Dane Counties for
November 3, 2020 and November 4, 2020.
12. Plaintiff further requests the Court grant such other relief as is just and proper,
including but not limited to, the costs of this action and his reasonable attorney
fees and expenses pursuant to 42 U.S.C. 1988.
49
Case 2:20-cv-01771-PP Filed 12/03/20 Page 49 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3262 Filed 12/04/20 Page 50 of 51
001142

Respectfully submitted, this 3rd day of December, 2020.
LEAD COUNSEL FOR PLAINTIFF

/s Sidney Powell**
Sidney Powell PC
Texas Bar No. 16209700
(517) 763-7499
sidney@federalappeals.com
Of Counsel:
Julia Z. Haller (D.C. Bar No. 466921) **
Brandon Johnson (D.C. 491730) **
Emily P. Newman (Virginia Bar No. 84265) **
2911 Turtle Creek Blvd.
Suite 300
Dallas, Texas 75219
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
L. Lin Wood **
GA Bar No. 774588
L. LIN WOOD, P.C.
P.O. Box 52584
Atlanta, GA 30305-0584
Telephone: (404) 891-1402
** Applications for admission forthcoming

50
Case 2:20-cv-01771-PP Filed 12/03/20 Page 50 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 57-2, PageID.3263 Filed 12/04/20 Page 51 of 51
001143

Local Counsel for Plaintiff
Michael D. Dean
Wis. Bar No.01019171
P.O. Box 2545
Brookfield, WI 53008
(262) 798-8044
miked@michaelddeanllc.com

Daniel J. Eastman
Wis. Bar No.1011433
P.O. Box 158
Mequon, Wisconsin 53092
(414) 881-9383
daneastman@me.com

51
Case 2:20-cv-01771-PP Filed 12/03/20 Page 51 of 51 Document 9

Case 2:20-cv-13134-LVP-RSW ECF No. 60, PageID.3291 Filed 12/06/20 Page 1 of 3
001144

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN

TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID
HOOPER and DAREN WADE RUBINGH,

CASE NO. 20-cv-13134

Plaintiffs
v.
GRETCHEN WHITMER, in her official capacity
as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, the Michigan
BOARD OF STATE CANVASSERS,
Defendants.

PLAINTIFFS’ RESPONSES TO INTERVENORS’
SUBMISSION OF SUPPLEMENTAL AUTHORITY
COMES NOW Plaintiffs, Timothy King, Marian Ellen Sheridan, John Earl Haggard,
Charles James Ritchard, James David Hooper, and Daren Wade Rubingh, by and through their
undersigned counsel, and file this Response to Intervenors’ Motion for Submission of Additional
Authority.
Intervenors submit two newspaper articles that offer no admissible or probative evidence
relevant to this case. With regard to the issues raised by the Detroit Free Press, Mr. Ramsland
already responded to the same points raised by defendants’ expert, Dr. Rodden, and stands by his
conclusions. (See Ramsland Reply Report, Docket No 49, Ex. 3 at par 6). The article brings
nothing to light that isn’t already before the court. Further the article incorrectly claims that

Case 2:20-cv-13134-LVP-RSW ECF No. 60, PageID.3292 Filed 12/06/20 Page 2 of 3
001145

there is no Spring Lake Township, Precinct 6. Maybe the reporter should tell that to the people
recorded as voting there. See below from state voting records.

The second article from the Associated Press makes no mention of any evidence
presented here. Intervenors’ submission is nothing more than a desperate attempt to discredit Mr.
Ramsland’s opinions where their experts have failed.

Respectfully submitted, this 6th day of December, 2020.

2

Case 2:20-cv-13134-LVP-RSW ECF No. 60, PageID.3293 Filed 12/06/20 Page 3 of 3
001146

/s Sidney Powell*
Sidney Powell PC

/s/ Scott Hagerstrom
Michigan State Bar No. 57885
222 West Genesee
Lansing, MI 48933
517) 763-7499
Scotthagerstrom @yahoo.com

Texas Bar No. 16209700
Of Counsel:
Emily P. Newman (Virginia Bar No. 84265)
Julia Z. Haller (D.C. Bar No. 466921)

/s/ Gregory P. Rohl
Michigan State Bar No. P39185
The Law Offices of Gregory P. Rohl, P.C.
41850 West 11 Mile Road, Suite 110
Novi, Michigan 48375
(248) 380-9404
gregoryrohl@yahoo.com

2911 Turtle Creek Blvd, Suite 300
Dallas, Texas 75219
*Application for admission pro hac vice
Forthcoming
Howard Kleinhendler
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

3

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3295 Filed 12/07/20 Page 1 of 36
001147

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD,
JAMES DAVID HOOPER, and
DAREN WADE RUBINGH,
Plaintiffs,
v.

Civil Case No. 20-13134
Honorable Linda V. Parker

GRETCHEN WHITMER, in her official
capacity as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as
Michigan Secretary of State, and MICHIGAN
BOARD OF STATE CANVASSERS,
Defendants,
and
CITY OF DETROIT, DEMOCRATIC
NATIONAL COMMITTEE and
MICHIGAN DEMOCRATIC PARTY, and
ROBERT DAVIS,
Intervenor-Defendants.
___________________________________/
OPINION AND ORDER DENYING PLAINTIFFS’ “EMERGENCY
MOTION FOR DECLARATORY, EMERGENCY, AND PERMANENT
INJUNCTIVE RELIEF” (ECF NO. 7)
The right to vote is among the most sacred rights of our democracy and, in
turn, uniquely defines us as Americans. The struggle to achieve the right to vote is
1

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3296 Filed 12/07/20 Page 2 of 36
001148

one that has been both hard fought and cherished throughout our country’s history.
Local, state, and federal elections give voice to this right through the ballot. And
elections that count each vote celebrate and secure this cherished right.
These principles are the bedrock of American democracy and are widely
revered as being woven into the fabric of this country. In Michigan, more than 5.5
million citizens exercised the franchise either in person or by absentee ballot
during the 2020 General Election. Those votes were counted and, as of November
23, 2020, certified by the Michigan Board of State Canvassers (also “State
Board”). The Governor has sent the slate of Presidential Electors to the Archivist
of the United States to confirm the votes for the successful candidate.
Against this backdrop, Plaintiffs filed this lawsuit, bringing forth claims of
widespread voter irregularities and fraud in the processing and tabulation of votes
and absentee ballots. They seek relief that is stunning in its scope and breathtaking
in its reach. If granted, the relief would disenfranchise the votes of the more than
5.5 million Michigan citizens who, with dignity, hope, and a promise of a voice,
participated in the 2020 General Election. The Court declines to grant Plaintiffs
this relief.
I.

Background
In the weeks leading up to, and on, November 3, 2020, a record 5.5 million

Michiganders voted in the presidential election (“2020 General Election”). (ECF
2

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3297 Filed 12/07/20 Page 3 of 36
001149

No. 36-4 at Pg ID 2622.) Many of those votes were cast by absentee ballot. This
was due in part to the coronavirus pandemic and a ballot measure the Michigan
voters passed in 2018 allowing for no-reason absentee voting. When the polls
closed and the votes were counted, Former Vice President Joseph R. Biden, Jr. had
secured over 150,000 more votes than President Donald J. Trump in Michigan.
(Id.)
Michigan law required the Michigan State Board of Canvassers to canvass
results of the 2020 General Election by November 23, 2020. Mich. Comp. Laws
§ 168.842. The State Board did so by a 3-0 vote, certifying the results “for the
Electors of President and Vice President,” among other offices. (ECF No. 36-5 at
Pg ID 2624.) That same day, Governor Gretchen Whitmer signed the Certificates
of Ascertainment for the slate of electors for Vice President Biden and Senator
Kamala D. Harris. (ECF No. 36-6 at Pg ID 2627-29.) Those certificates were
transmitted to and received by the Archivist of the United States. (Id.)
Federal law provides that if election results are contested in any state, and if
the state, prior to election day, has enacted procedures to decide controversies or
contests over electors and electoral votes, and if these procedures have been
applied, and the decisions are made at least six days before the electors’ meetings,
then the decisions are considered conclusive and will apply in counting the
electoral votes. 3 U.S.C. § 5. This date (the “Safe Harbor” deadline) falls on
3

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3298 Filed 12/07/20 Page 4 of 36
001150

December 8, 2020. Under the federal statutory timetable for presidential elections,
the Electoral College must meet on “the first Monday after the second Wednesday
in December,” 3 U.S.C. § 7, which is December 14 this year.
Alleging widespread fraud in the distribution, collection, and counting of
ballots in Michigan, as well as violations of state law as to certain election
challengers and the manipulation of ballots through corrupt election machines and
software, Plaintiffs filed the current lawsuit against Defendants at 11:48 p.m. on
November 25, 2020—the eve of the Thanksgiving holiday. (ECF No. 1.)
Plaintiffs are registered Michigan voters and nominees of the Republican Party to
be Presidential Electors on behalf of the State of Michigan. (ECF No. 6 at Pg ID
882.) They are suing Governor Whitmer and Secretary of State Jocelyn Benson in
their official capacities, as well as the Michigan Board of State Canvassers.
On November 29, a Sunday, Plaintiffs filed a First Amended Complaint
(ECF No. 6), “Emergency Motion for Declaratory, Emergency, and Permanent
Injunctive Relief and Memorandum in Support Thereof” (ECF No. 7), and
Emergency Motion to Seal (ECF No. 8). In their First Amended Complaint,
Plaintiffs allege three claims pursuant to 42 U.S.C. § 1983: (Count I) violation of
the Elections and Electors Clauses; (Count II) violation of the Fourteenth
Amendment Equal Protection Clause; and, (Count III) denial of the Fourteenth

4

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3299 Filed 12/07/20 Page 5 of 36
001151

Amendment Due Process Clause. (ECF No. 6.) Plaintiffs also assert one count
alleging violations of the Michigan Election Code. (Id.)
By December 1, motions to intervene had been filed by the City of Detroit
(ECF No. 15), Robert Davis (ECF No. 12), and the Democratic National
Committee and Michigan Democratic Party (“DNC/MDP”) (ECF No. 14). On that
date, the Court entered a briefing schedule with respect to the motions. Plaintiffs
had not yet served Defendants with their pleading or emergency motions as of
December 1. Thus, on December 1, the Court also entered a text-only order to
hasten Plaintiffs’ actions to bring Defendants into the case and enable the Court to
address Plaintiffs’ pending motions. Later the same day, after Plaintiffs filed
certificates of service reflecting service of the summons and Amended Complaint
on Defendants (ECF Nos. 21), the Court entered a briefing schedule with respect to
Plaintiffs’ emergency motions, requiring response briefs by 8:00 p.m. on
December 2, and reply briefs by 8:00 p.m. on December 3 (ECF No. 24).
On December 2, the Court granted the motions to intervene. (ECF No. 28.)
Response and reply briefs with respect to Plaintiffs’ emergency motions were
thereafter filed. (ECF Nos. 29, 31, 32, 34, 35, 36, 37, 39, 49, 50.) Amicus curiae
Michigan State Conference NAACP subsequently moved and was granted leave to
file a brief in support of Defendants’ position. (ECF Nos. 48, 55.) Supplemental
briefs also were filed by the parties. (ECF Nos. 57, 58.)
5

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3300 Filed 12/07/20 Page 6 of 36
001152

In light of the limited time allotted for the Court to resolve Plaintiffs’
emergency motion for injunctive relief—which Plaintiffs assert “must be granted
in advance of December 8, 2020” (ECF No. 7 at Pg ID 1846)—the Court has
disposed of oral argument with respect to their motion pursuant to Eastern District
of Michigan Local Rule 7.1(f).1
II.

Standard of Review
A preliminary injunction is “an extraordinary remedy that may only be

awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008) (citation omitted). The plaintiff
bears the burden of demonstrating entitlement to preliminary injunctive relief.
Leary v. Daeschner, 228 F.3d 729, 739 (6th Cir. 2000). Such relief will only be
granted where “the movant carries his or her burden of proving that the
circumstances clearly demand it.” Overstreet v. Lexington-Fayette Urban Cnty.
Gov’t, 305 F.3d 566, 573 (6th Cir. 2002). “Evidence that goes beyond the
unverified allegations of the pleadings and motion papers must be presented to

1

“‘[W]here material facts are not in dispute, or where facts in dispute are not
material to the preliminary injunction sought, district courts generally need not
hold an evidentiary hearing.’” Nexus Gas Transmission, LLC v. City of Green,
Ohio, 757 Fed. Appx. 489, 496-97 (6th Cir. 2018) (quoting Certified Restoration
Dry Cleaning Network, LLC v. Tenke Corp., 511 F.3d 535, 553 (6th Cir. 2007))
(citation omitted).
6

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3301 Filed 12/07/20 Page 7 of 36
001153

support or oppose a motion for a preliminary injunction.” 11A Mary Kay Kane,
Fed. Prac. & Proc. § 2949 (3d ed.).
Four factors are relevant in deciding whether to grant preliminary injunctive
relief: “‘(1) whether the movant has a strong likelihood of success on the merits;
(2) whether the movant would suffer irreparable injury absent the injunction; (3)
whether the injunction would cause substantial harm to others; and (4) whether the
public interest would be served by the issuance of an injunction.’” Daunt v.
Benson, 956 F.3d 396, 406 (6th Cir. 2020) (quoting Bays v. City of Fairborn, 668
F.3d 814, 818-19 (6th Cir. 2012)). “At the preliminary injunction stage, ‘a plaintiff
must show more than a mere possibility of success,’ but need not ‘prove his case in
full.’” Ne. Ohio Coal. for Homeless v. Husted, 696 F.3d 580, 591 (6th Cir. 2012)
(quoting Certified Restoration Dry Cleaning Network, LLC v. Tenke Corp., 511
F.3d 535, 543 (6th Cir. 2007)). Yet, “the proof required for the plaintiff to obtain a
preliminary injunction is much more stringent than the proof required to survive a
summary judgment motion ….” Leary, 228 F.3d at 739.
III.

Discussion
The Court begins by discussing those questions that go to matters of subject

matter jurisdiction or which counsel against reaching the merits of Plaintiffs’
claims. While the Court finds that any of these issues, alone, indicate that
Plaintiffs’ motion should be denied, it addresses each to be thorough.
7

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3302 Filed 12/07/20 Page 8 of 36
001154

A.

Eleventh Amendment Immunity

The Eleventh Amendment to the United States Constitution provides:
The judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
U.S. Const. amend. XI. This immunity extends to suits brought by citizens against
their own states. See, e.g., Ladd v. Marchbanks, 971 F.3d 574, 578 (6th Cir. 2020)
(citing Hans v. Louisiana, 134 U.S. 1, 18-19 (1890)). It also extends to suits
against state agencies or departments, Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 100 (1984) (citations omitted), and “suit[s] against state officials
when ‘the state is the real, substantial party in interest[,]’” id. at 101 (quoting Ford
Motor Co. v. Dep’t of Treasury, 323 U.S. 459, 464 (1945)).
A suit against a State, a state agency or its department, or a state official is in
fact a suit against the State and is barred “regardless of the nature of the relief
sought.” Pennhurst State Sch. & Hosp., 465 U.S. at 100-02 (citations omitted).
“‘The general rule is that a suit is against the sovereign if the judgment sought
would expend itself on the public treasury or domain, or interfere with the public
administration, or if the effect of the judgment would be to restrain the
Government from acting, or to compel it to act.’” Id. at 101 n.11 (quoting Dugan
v. Rank, 372 U.S. 609, 620 (1963)) (internal quotation marks omitted).
8

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3303 Filed 12/07/20 Page 9 of 36
001155

Eleventh Amendment immunity is subject to three exceptions: (1)
congressional abrogation; (2) waiver by the State; and (3) “a suit against a state
official seeking prospective injunctive relief to end a continuing violation of
federal law.” See Carten v. Kent State Univ., 282 F.3d 391, 398 (6th Cir. 2002)
(citations omitted). Congress did not abrogate the States’ sovereign immunity
when it enacted 42 U.S.C. § 1983. Will v. Mich. Dep’t of State Police, 491 U.S.
58, 66 (1989). “The State of Michigan has not consented to being sued in civil
rights actions in the federal courts.” Johnson v. Unknown Dellatifa, 357 F.3d 539,
545 (6th Cir. 2004) (citing Abick v. Michigan, 803 F.2d 874, 877 (6th Cir. 1986)).
The Eleventh Amendment therefore bars Plaintiffs’ claims against the Michigan
Board of State Canvassers. See McLeod v. Kelly, 7 N.W.2d 240, 242 (Mich. 1942)
(“The board of State canvassers is a State agency …”); see also Deleeuw v. State
Bd. of Canvassers, 688 N.W.2d 847, 850 (Mich. Ct. App. 2004). Plaintiffs’ claims
are barred against Governor Whitmer and Secretary Benson unless the third
exception applies.
The third exception arises from the Supreme Court’s decision in Ex parte
Young, 209 U.S. 123 (1908). But as the Supreme Court has advised:
To interpret Young to permit a federal-court action to
proceed in every case where prospective declaratory and
injunctive relief is sought against an officer, named in his
individual capacity, would be to adhere to an empty
formalism and to undermine the principle … that
Eleventh Amendment immunity represents a real
9

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3304 Filed 12/07/20 Page 10 of 36
001156

limitation on a federal court’s federal-question
jurisdiction. The real interests served by the Eleventh
Amendment are not to be sacrificed to elementary
mechanics of captions and pleading. Application of the
Young exception must reflect a proper understanding of
its role in our federal system and respect for state courts
instead of a reflexive reliance on an obvious fiction.
Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261, 270 (1997). Further, “the
theory of Young has not been provided an expansive interpretation.” Pennhurst
State Sch. & Hosp., 465 U.S. at 102. “‘In determining whether the doctrine of Ex
parte Young avoids an Eleventh Amendment bar to suit, a court need only conduct
a straightforward inquiry into whether [the] complaint alleges an ongoing violation
of federal law and seeks relief properly characterized as prospective.’” Verizon
Md., Inc. v. Pub. Serv. Comm’n, 535 U.S. 635, 645 (2002) (quoting Coeur d’Alene
Tribe of Idaho, 521 U.S. 296 (O’Connor, J., concurring)).
Ex parte Young does not apply, however, to state law claims against state
officials, regardless of the relief sought. Pennhurst State Sch. & Hosp., 465 U.S. at
106 (“A federal court’s grant of relief against state officials on the basis of state
law, whether prospective or retroactive, does not vindicate the supreme authority
of federal law. On the contrary, it is difficult to think of a greater intrusion on state
sovereignty than when a federal court instructs state officials on how to conform
their conduct to state law.”); see also In re Ohio Execution Protocol Litig., 709 F.
App’x 779, 787 (6th Cir. 2017) (“If the plaintiff sues a state official under state law
10

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3305 Filed 12/07/20 Page 11 of 36
001157

in federal court for actions taken within the scope of his authority, sovereign
immunity bars the lawsuit regardless of whether the action seeks monetary or
injunctive relief.”). Unquestionably, Plaintiffs’ state law claims against
Defendants are barred by Eleventh Amendment immunity.
The Court then turns its attention to Plaintiffs’ § 1983 claims against
Defendants. Defendants and Intervenor DNC/MDP contend that these claims are
not in fact federal claims as they are premised entirely on alleged violations of
state law. (ECF No. 31 at Pg ID 2185 (“Here, each count of Plaintiffs’
complaint—even Counts I, II, and III, which claim to raise violations of federal
law—is predicated on the election being conducted contrary to Michigan law.”);
ECF No. 36 at Pg ID 2494 (“While some of [Plaintiffs’] allegations concern
fantastical conspiracy theories that belong more appropriately in the fact-free outer
reaches of the Internet[,] … what Plaintiffs assert at bottom are violations of the
Michigan Election Code.”) Defendants also argue that even if properly stated as
federal causes of action, “it is far from clear whether Plaintiffs’ requested
injunction is actually prospective in nature, as opposed to retroactive.” (ECF No.
31 at Pg ID 2186.)
The latter argument convinces this Court that Ex parte Young does not
apply. As set forth earlier, “‘[i]n order to fall with the Ex parte Young exception, a
claim must seek prospective relief to end a continuing violation of federal law.’”
11

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3306 Filed 12/07/20 Page 12 of 36
001158

Russell v. Lundergan-Grimes, 784 F.3d 1037, 1047 (6th Cir. 2015) (quoting Diaz
v. Mich. Dep’t of Corr., 703 F.3d 956, 964 (6th Cir. 2013)). Unlike Russell, which
Plaintiffs cite in their reply brief, this is not a case where a plaintiff is seeking to
enjoin the continuing enforcement of a statute that is allegedly unconstitutional.
See id. at 1044, 1047 (plaintiff claimed that Kentucky law creating a 300-foot nopolitical-speech buffer zone around polling location violated his free-speech
rights). Instead, Plaintiffs are seeking to undo what has already occurred, as their
requested relief reflects.2 (See ECF No. 7 at Pg ID 1847; see also ECF No. 6 at Pg
955-56.)
Before this lawsuit was filed, the Michigan Board of State Canvassers had
already certified the election results and Governor Whitmer had transmitted the
State’s slate of electors to the United States Archivist. (ECF Nos. 31-4, 31-5.)
There is no continuing violation to enjoin. See Rios v. Blackwell, 433 F. Supp. 2d
848 (N.D. Ohio Feb. 7, 2006); see also King Lincoln Bronzeville Neighborhood
Ass’n v. Husted, No. 2:06-cv-00745, 2012 WL 395030, at *4-5 (S.D. Ohio Feb. 7,
2012); cf. League of Women Voters of Ohio v. Brunner, 548 F.3d 463, 475 (6th Cir.
2008) (finding that the plaintiff’s claims fell within the Ex parte Young doctrine

2

To the extent Plaintiffs ask the Court to certify the results in favor of President
Donald J. Trump, such relief is beyond its powers.
12

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3307 Filed 12/07/20 Page 13 of 36
001159

where it alleged that the problems that plagued the election “are chronic and will
continue absent injunctive relief”).
For these reasons, the Court concludes that the Eleventh Amendment bars
Plaintiffs’ claims against Defendants.
B.

Mootness

This case represents well the phrase: “this ship has sailed.” The time has
passed to provide most of the relief Plaintiffs request in their Amended Complaint;
the remaining relief is beyond the power of any court. For those reasons, this
matter is moot.
“‘Under Article III of the Constitution, federal courts may adjudicate only
actual, ongoing cases or controversies.’” Kentucky v. U.S. ex rel. Hagel, 759 F.3d
588, 595 (6th Cir. 2014) (quoting Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477
(1990)). A case may become moot “when the issues presented are no longer live
or the parties lack a legally cognizable interest in the outcome.” U.S. Parole
Comm’n v. Geraghty, 445 U.S. 388, 396, 410 (1980) (internal quotation marks and
citation omitted). Stated differently, a case is moot where the court lacks “the
ability to give meaningful relief[.]” Sullivan v. Benningfield, 920 F.3d 401, 410
(6th Cir. 2019). This lawsuit was moot well before it was filed on November 25.
In their prayer for relief, Plaintiffs ask the Court to: (a) order Defendants to
decertify the results of the election; (b) enjoin Secretary Benson and Governor
13

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3308 Filed 12/07/20 Page 14 of 36
001160

Whitmer from transmitting the certified election results to the Electoral College;
(c) order Defendants “to transmit certified election results that state that President
Donald Trump is the winner of the election”; (d) impound all voting machines and
software in Michigan for expert inspection; (e) order that no votes received or
tabulated by machines not certified as required by federal and state law be counted;
and, (f) enter a declaratory judgment that mail-in and absentee ballot fraud must be
remedied with a manual recount or statistically valid sampling.3 (ECF No. 6 at Pg
ID 955-56, ¶ 233.) What relief the Court could grant Plaintiffs is no longer
available.
Before this lawsuit was filed, all 83 counties in Michigan had finished
canvassing their results for all elections and reported their results for state office
races to the Secretary of State and the Michigan Board of State Canvassers in
accordance with Michigan law. See Mich. Comp. Laws § 168.843. The State
Board had certified the results of the 2020 General Election and Governor
Whitmer had submitted the slate of Presidential Electors to the Archivists. (ECF

3

Plaintiffs also seek an order requiring the impoundment of all voting machines
and software in Michigan for expert inspection and the production of security
camera footage from the TCF Center for November 3 and 4. (ECF No. 6 at Pg ID
956, ¶ 233.) This requested relief is not meaningful, however, where the remaining
requests are no longer available. In other words, the evidence Plaintiffs seek to
gather by inspecting voting machines and software and security camera footage
only would be useful if an avenue remained open for them to challenge the election
results.
14

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3309 Filed 12/07/20 Page 15 of 36
001161

No. 31-4 at Pg ID 2257-58; ECF No. 31-5 at Pg ID 2260-63.) The time for
requesting a special election based on mechanical errors or malfunctions in voting
machines had expired. See Mich. Comp. Laws §§ 168.831, 168.832 (petitions for
special election based on a defect or mechanical malfunction must be filed “no
later than 10 days after the date of the election”). And so had the time for
requesting a recount for the office of President. See Mich. Comp. Laws § 168.879.
The Michigan Election Code sets forth detailed procedures for challenging
an election, including deadlines for doing so. Plaintiffs did not avail themselves of
the remedies established by the Michigan legislature. The deadline for them to do
so has passed. Any avenue for this Court to provide meaningful relief has been
foreclosed. As the Eleventh Circuit Court of Appeals recently observed in one of
the many other post-election lawsuits brought to specifically overturn the results of
the 2020 presidential election:
“We cannot turn back the clock and create a world in
which” the 2020 election results are not certified.
Fleming v. Gutierrez, 785 F.3d 442, 445 (10th Cir. 2015).
And it is not possible for us to delay certification nor
meaningful to order a new recount when the results are
already final and certified.
Wood v. Raffensperger, -- F.3d -- , 2020 WL 7094866 (11th Cir. Dec. 5, 2020).
And as one Justice of the Supreme Court of Pennsylvania advised in another 2020
post-election lawsuit: “there is no basis in law by which the courts may grant
Petitioners’ request to ignore the results of an election and recommit the choice to
15

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3310 Filed 12/07/20 Page 16 of 36
001162

the General Assembly to substitute its preferred slate of electors for the one chosen
by a majority of Pennsylvania’s voters.” Kelly v. Commonwealth, No. 68 MAP
2020, 2020 WL 7018314, at *3 (Pa. Nov. 28, 2020) (Wecht, J., concurring); see
also Wood v. Raffensperger, No. 1:20-cv-04651, 2020 WL 6817513, at *13 (N.D.
Ga. Nov. 20, 2020) (concluding that “interfer[ing] with the result of an election
that has already concluded would be unprecedented and harm the public in
countless ways”).
In short, Plaintiffs’ requested relief concerning the 2020 General Election is
moot.
C.

Laches

Defendants argue that Plaintiffs are unlikely to succeed on the merits
because they waited too long to knock on the Court’s door. (ECF No. 31 at Pg ID
2175-79; ECF No. 39 at Pg ID 2844.) The Court agrees.
The doctrine of laches is rooted in the principle that “equity aids the vigilant,
not those who slumber on their rights.” Lucking v. Schram, 117 F.2d 160, 162 (6th
Cir. 1941); see also United States v. Clintwood Elkhorn Min. Co., 553 U.S. 1, 9
(2008) (“A constitutional claim can become time-barred just as any other claim
can.”). An action may be barred by the doctrine of laches if: (1) the plaintiff
delayed unreasonably in asserting his rights and (2) the defendant is prejudiced by
this delay. Brown-Graves Co. v. Central States, Se. and Sw. Areas Pension Fund,
16

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3311 Filed 12/07/20 Page 17 of 36
001163

206 F.3d 680, 684 (6th Cir. 2000); Ottawa Tribe of Oklahoma v. Logan, 577 F.3d
634, 639 n.6 (6th Cir. 2009) (“Laches arises from an extended failure to exercise a
right to the detriment of another party.”). Courts apply laches in election cases.
Detroit Unity Fund v. Whitmer, 819 F. App’x 421, 422 (6th Cir. 2020) (holding
that the district court did not err in finding plaintiff’s claims regarding deadline for
local ballot initiatives “barred by laches, considering the unreasonable delay on the
part of [p]laintiffs and the consequent prejudice to [d]efendants”). Cf. Benisek v.
Lamone, 138 S. Ct. 1942, 1944 (2018) (“[A] party requesting a preliminary
injunction must generally show reasonable diligence. That is as true in election law
cases as elsewhere.”).
First, Plaintiffs showed no diligence in asserting the claims at bar. They
filed the instant action on November 25—more than 21 days after the 2020
General Election—and served it on Defendants some five days later on December
1. (ECF Nos. 1, 21.) If Plaintiffs had legitimate claims regarding whether the
treatment of election challengers complied with state law, they could have brought
their claims well in advance of or on Election Day—but they did not. Michigan’s
83 Boards of County Canvassers finished canvassing by no later than November
17 and, on November 23, both the Michigan Board of State Canvassers and
Governor Whitmer certified the election results. Mich. Comp. Laws §§ 168.822,
168.842.0. If Plaintiffs had legitimate claims regarding the manner by which
17

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3312 Filed 12/07/20 Page 18 of 36
001164

ballots were processed and tabulated on or after Election Day, they could have
brought the instant action on Election Day or during the weeks of canvassing that
followed—yet they did not. Plaintiffs base the claims related to election machines
and software on “expert and fact witness” reports discussing “glitches” and other
alleged vulnerabilities that occurred as far back as 2010. (See e.g., ECF No. 6 at
Pg ID 927-933, ¶¶ 157(C)-(E), (G), 158, 160, 167.) If Plaintiffs had legitimate
concerns about the election machines and software, they could have filed this
lawsuit well before the 2020 General Election—yet they sat back and did nothing.
Plaintiffs proffer no persuasive explanation as to why they waited so long to
file this suit. Plaintiffs concede that they “would have preferred to file sooner, but
[] needed some time to gather statements from dozens of fact witnesses, retain and
engage expert witnesses, and gather other data supporting their Complaint.” (ECF
No. 49 at Pg ID 3081.) But according to Plaintiffs themselves, “[m]anipulation of
votes was apparent shortly after the polls closed on November 3, 2020.” (ECF No.
7 at Pg ID 1837 (emphasis added).) Indeed, where there is no reasonable
explanation, there can be no true justification. See Crookston v. Johnson, 841 F.3d
396, 398 (6th Cir. 2016) (identifying the “first and most essential” reason to issue a
stay of an election-related injunction is plaintiff offering “no reasonable
explanation for waiting so long to file this action”). Defendants satisfy the first
element of their laches defense.
18

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3313 Filed 12/07/20 Page 19 of 36
001165

Second, Plaintiffs’ delay prejudices Defendants. See Kay v. Austin, 621 F.2d
809, 813 (6th Cir. 1980) (“As time passes, the state’s interest in proceeding with
the election increases in importance as resources are committed and irrevocable
decisions are made, and the candidate’s claim to be a serious candidate who has
received a serious injury becomes less credible by his having slept on his rights.”)
This is especially so considering that Plaintiffs’ claims for relief are not merely
last-minute—they are after the fact. While Plaintiffs delayed, the ballots were cast;
the votes were counted; and the results were certified. The rationale for
interposing the doctrine of laches is now at its peak. See McDonald v. Cnty. of San
Diego, 124 F. App’x 588 (9th Cir. 2005) (citing Soules v. Kauaians for Nukolii
Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988)); Soules, 849 F.2d at 1180
(quoting Hendon v. N.C. State Bd. Of Elections, 710 F.2d 177, 182 (4th Cir. 1983))
(applying doctrine of laches in post-election lawsuit because doing otherwise
would, “permit, if not encourage, parties who could raise a claim to lay by and
gamble upon receiving a favorable decision of the electorate and then, upon losing,
seek to undo the ballot results in a court action”).
Plaintiffs could have lodged their constitutional challenges much sooner than
they did, and certainly not three weeks after Election Day and one week after
certification of almost three million votes. The Court concludes that Plaintiffs’
delay results in their claims being barred by laches.
19

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3314 Filed 12/07/20 Page 20 of 36
001166

D.

Abstention

As outlined in several filings, when the present lawsuit was filed on
November 25, 2020, there already were multiple lawsuits pending in Michigan
state courts raising the same or similar claims alleged in Plaintiffs’ Amended
Complaint. (See, e.g., ECF No. 31 at Pg ID 2193-98 (summarizing five state court
lawsuits challenging President Trump’s defeat in Michigan’s November 3, 2020
General Election).) Defendants and the City of Detroit urge the Court to abstain
from deciding Plaintiffs’ claims in deference to those proceedings under various
abstention doctrines. (Id. at Pg ID 2191-2203; ECF No. 39 at Pg ID 2840-44.)
Defendants rely on the abstention doctrine outlined by the Supreme Court in
Colorado River Water Conservation District v. United States, 424 U.S. 800 (1976).
The City of Detroit relies on the abstention doctrines outlined in Colorado River,
as well as those set forth in Railroad Commission of Texas v. Pullman Co., 312
U.S. 496, 500-01 (1941), and Burford v. Sun Oil Co., 319 U.S. 315 (1943). The
City of Detroit maintains that abstention is particularly appropriate when resolving
election disputes in light of the autonomy provided to state courts to initially settle
such disputes.
The abstention doctrine identified in Colorado River permits a federal court
to abstain from exercising jurisdiction over a matter in deference to parallel statecourt proceedings. Colorado River, 424 U.S. at 813, 817. The exception is found
20

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3315 Filed 12/07/20 Page 21 of 36
001167

warranted “by considerations of ‘proper constitutional adjudication,’ ‘regard for
federal-state relations,’ or ‘wise judicial administration.’” Quackenbush v. Allstate
Ins. Co., 517 U.S. 706, 716 (1996) (quoting Colorado River, 424 U.S. at 817). The
Sixth Circuit has identified two prerequisites for abstention under this doctrine.
Romine v. Compuserve Corp., 160 F.3d 337, 339-40 (6th Cir. 1998).
First, the court must determine that the concurrent state and federal actions
are parallel. Id. at 339. Second, the court must consider the factors outlined by the
Supreme Court in Colorado River and subsequent cases:
(1) whether the state court has assumed jurisdiction over
any res or property; (2) whether the federal forum is less
convenient to the parties; (3) avoidance of piecemeal
litigation; … (4) the order in which jurisdiction was
obtained; … (5) whether the source of governing law is
state or federal; (6) the adequacy of the state court action
to protect the federal plaintiff’s rights; (7) the relative
progress of the state and federal proceedings; and (8) the
presence or absence of concurrent jurisdiction.
Romine, 160 F.3d at 340-41 (internal citations omitted). “These factors, however,
do not comprise a mechanical checklist. Rather, they require ‘a careful balancing
of the important factors as they apply in a give[n] case’ depending on the particular
facts at hand.” Id. (quoting Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 16 (1983)).
As summarized in Defendants’ response brief and reflected in their exhibits
(see ECF No. 31 at Pg ID 2193-97; see also ECF Nos. 31-7, 31-9, 31-11, 31-12,
21

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3316 Filed 12/07/20 Page 22 of 36
001168

31-14), the allegations and claims in the state court proceedings and the pending
matter are, at the very least, substantially similar, Romine, 160 F.3d at 340 (“Exact
parallelism is not required; it is enough if the two proceedings are substantially
similar.” (internal quotation marks and citation omitted)). A careful balancing of
the factors set forth by the Supreme Court counsel in favor of deferring to the
concurrent jurisdiction of the state courts.
The first and second factor weigh against abstention. Id. (indicating that the
weight is against abstention where no property is at issue and neither forum is
more or less convenient). While the Supreme Court has stated that “‘the presence
of federal law issues must always be a major consideration weighing against
surrender of federal jurisdiction in deference to state proceedings[,]’” id. at 342
(quoting Moses H. Cone, 460 U.S. at 26), this “‘factor has less significance where
the federal courts’ jurisdiction to enforce the statutory rights in question is
concurrent with that of the state courts.’”4 Id. (quoting Moses H. Cone, 460 U.S. at
25). Moreover, the Michigan Election Code seems to dominate even Plaintiffs’
federal claims. Further, the remaining factors favor abstention.
“Piecemeal litigation occurs when different courts adjudicate the identical
issue, thereby duplicating judicial effort and potentially rendering conflicting

4

State courts have concurrent jurisdiction over § 1983 actions. Felder v. Casey,
487 U.S. 131, 139 (1988).
22

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3317 Filed 12/07/20 Page 23 of 36
001169

results.” Id. at 341. The parallel proceedings are premised on similar factual
allegations and many of the same federal and state claims. The state court
proceedings were filed well before the present matter and at least three of those
matters are far more advanced than this case. Lastly, as Congress conferred
concurrent jurisdiction on state courts to adjudicate § 1983 claims, Felder v. Casey,
487 U.S. 131, 139 (1988), “[t]here can be no legitimate contention that the
[Michigan] state courts are incapable of safeguarding [the rights protected under
this statute],” Romine, 160 F.3d at 342.
For these reasons, abstention is appropriate under the Colorado River
doctrine. The Court finds it unnecessary to decide whether abstention is
appropriate under other doctrines.
E.

Standing

Under Article III of the United States Constitution, federal courts can
resolve only “cases” and “controversies.” U.S. Const. art. III § 2. The case-orcontroversy requirement is satisfied only where a plaintiff has standing to bring
suit. See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016), as revised (May 24,
2016). Each plaintiff must demonstrate standing for each claim he seeks to press.5

5

Plaintiffs assert a due process claim in their Amended Complaint and twice state
in their motion for injunctive relief that Defendants violated their due process
rights. (See ECF No. 7 at Pg ID 1840, 1844.) Plaintiffs do not pair either
statement with anything the Court could construe as a developed argument. (Id.)
The Court finds it unnecessary, therefore, to further discuss the due process claim.
23

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3318 Filed 12/07/20 Page 24 of 36
001170

DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352 (2006) (citation omitted) (“[A]
plaintiff must demonstrate standing separately for each form of relief sought.”).
To establish standing, a plaintiff must show that: (1) he has suffered an injury in
fact that is “concrete and particularized” and “actual or imminent”; (2) the injury is
“fairly . . . trace[able] to the challenged action of the defendant”; and (3) it is
“likely, as opposed to merely speculative, that the injury will be redressed by a
favorable decision.” Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-62 (1992)
(internal quotation marks and citations omitted).
1.

Equal Protection Claim

Plaintiffs allege that Defendants engaged in “several schemes” to, among
other things, “destroy,” “discard,” and “switch” votes for President Trump, thereby
“devalu[ing] Republican votes” and “diluting” the influence of their individual
votes. (ECF No. 49 at Pg ID 3079.) Plaintiffs contend that “the vote dilution
resulting from this systemic and illegal conduct did not affect all Michigan voters
equally; it had the intent and effect of inflating the number of votes for Democratic
candidates and reducing the number of votes for President Trump and Republican
candidates.” (ECF No. 49 at Pg ID 3079.) Even assuming that Plaintiffs establish

McPherson v. Kelsey, 125 F.3d 989, 995 (6th Cir. 1997) (“Issues adverted to in a
perfunctory manner, unaccompanied by some effort at developed argumentation,
are deemed waived.”).
24

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3319 Filed 12/07/20 Page 25 of 36
001171

injury-in-fact and causation under this theory,6 their constitutional claim cannot
stand because Plaintiffs fall flat when attempting to clear the hurdle of
redressability.
Plaintiffs fail to establish that the alleged injury of vote-dilution can be
redressed by a favorable decision from this Court. Plaintiffs ask this Court to decertify the results of the 2020 General Election in Michigan. But an order decertifying the votes of approximately 2.8 million people would not reverse the
dilution of Plaintiffs’ vote. To be sure, standing is not “dispensed in gross: A
plaintiff’s remedy must be tailored to redress the plaintiff’s particular injury.” Gill,
138 S. Ct. at 1934 (citing Cuno, 547 U.S. at 353); Cuno, 547 U.S. at 353 (“The
remedy must of course be limited to the inadequacy that produced the injury in fact
that the plaintiff has established.” (quoting Lewis v. Casey, 518 U.S. 343, 357
(1996)). Plaintiffs’ alleged injury does not entitle them to seek their requested
remedy because the harm of having one’s vote invalidated or diluted is not
remedied by denying millions of others their right to vote. Accordingly, Plaintiffs
have failed to show that their injury can be redressed by the relief they seek and
thus possess no standing to pursue their equal protection claim.

6

To be clear, the Court does not find that Plaintiffs satisfy the first two elements of
the standing inquiry.
25

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3320 Filed 12/07/20 Page 26 of 36
001172

2.

Elections Clause & Electors Clause Claims

The provision of the United States Constitution known as the Elections
Clause states in part: “The Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in each State by the Legislature
thereof[.]” U.S. Const. art. I, § 4, cl. 1. “The Elections Clause effectively gives
state governments the ‘default’ authority to regulate the mechanics of federal
elections, Foster v. Love, 522 U.S. 67, 69, 118 S. Ct. 464, 139 L.Ed.2d 369 (1997),
with Congress retaining ‘exclusive control’ to ‘make or alter’ any state’s
regulations, Colegrove v. Green, 328 U.S. 549, 554, 66 S. Ct. 1198, 90 L.Ed. 1432
(1946).” Bognet, 2020 WL 6686120, *1. The “Electors Clause” of the
Constitution states: “Each State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors ….” U.S. Const. art. II, § 1, cl. 2.
Plaintiffs argue that, as “nominees of the Republican Party to be Presidential
Electors on behalf of the State of Michigan, they have standing to allege violations
of the Elections Clause and Electors Clause because “a vote for President Trump
and Vice-President Pence in Michigan … is a vote for each Republican elector[],
and … illegal conduct aimed at harming candidates for President similarly injures
Presidential Electors.” (ECF No. 7 at Pg ID 1837-38; ECF No. 49 at Pg ID 307678.)

26

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3321 Filed 12/07/20 Page 27 of 36
001173

But where, as here, the only injury Plaintiffs have alleged is that the
Elections Clause has not been followed, the United States Supreme Court has made
clear that “[the] injury is precisely the kind of undifferentiated, generalized
grievance about the conduct of government that [courts] have refused to
countenance.”7 Lance v. Coffman, 549 U.S. 437, 442 (2007). Because Plaintiffs
“assert no particularized stake in the litigation,” Plaintiffs fail to establish injuryin-fact and thus standing to bring their Elections Clause and Electors Clause
claims. Id.; see also Johnson v. Bredesen, 356 F. App’x 781, 784 (6th Cir. 2009)
(citing Lance, 549 U.S. at 441-42) (affirming district court’s conclusion that
citizens did not allege injury-in-fact to support standing for claim that the state of
Tennessee violated constitutional law).

7

Although separate constitutional provisions, the Electors Clause and Elections
Clause share “considerable similarity,” Ariz. State Leg. v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 839, (2015) (Roberts, C.J., dissenting), and Plaintiffs do
not at all distinguish the two clauses in their motion for injunctive relief or reply
brief (ECF No. 7; ECF No. 49 at Pg ID 3076-78). See also Bognet v. Sec’y
Commonwealth of Pa., No. 20-3214, 2020 WL 6686120, at *7 (3d Cir. Nov. 13,
2020) (applying same test for standing under both Elections Clause and Electors
Clause); Wood, 2020 WL 6817513, at *1 (same); Foster, 522 U.S. at 69
(characterizing Electors Clause as Elections Clauses’ “counterpart for the
Executive Branch”); U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 804-05
(1995) (noting that state’s “duty” under Elections Clause “parallels the duty”
described by Electors Clause).

27

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3322 Filed 12/07/20 Page 28 of 36
001174

This is so because the Elections Clause grants rights to “the Legislature” of
“each State.” U.S. Const. art. I, § 4, cl. 1. The Supreme Court interprets the words
“the Legislature,” as used in that clause, to mean the lawmaking bodies of a state.
Ariz. State Legislature, 135 S.Ct. at 2673. The Elections Clause, therefore, grants
rights to state legislatures and to other entities to which a State may delegate
lawmaking authority. See id. at 2668. Plaintiffs’ Elections Clause claims thus
belong, if to anyone, Michigan’s state legislature. Bognet v. Secy. Commonwealth
of Pa., -- F.3d. --, 2020 WL 6686120, *7 (3d Cir. Nov. 13, 2020). Plaintiffs here
are six presidential elector nominees; they are not a part of Michigan’s lawmaking
bodies nor do they have a relationship to them.
To support their contention that they have standing, Plaintiffs point to
Carson v. Simon, 78 F.3d 1051 (8th Cir. 2020), a decision finding that electors had
standing to bring challenges under the Electors Clause. (ECF No. 7 at Pg ID 1839
(citing Carson, 978 F.3d at 1057).) In that case, which was based on the specific
content and contours of Minnesota state law, the Eighth Circuit Court of Appeals
concluded that because “the plain text of Minnesota law treats prospective electors
as candidates,” it too would treat presidential elector nominees as candidates.
Carson, 78 F.3d at 1057. This Court, however, is as unconvinced about the
majority’s holding in Carson as the dissent:
I am not convinced the Electors have Article III standing
to assert claims under the Electors Clause. Although
28

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3323 Filed 12/07/20 Page 29 of 36
001175

Minnesota law at times refers to them as “candidates,”
see, e.g., Minn. Stat. § 204B.03 (2020), the Electors are
not candidates for public office as that term is commonly
understood. Whether they ultimately assume the office
of elector depends entirely on the outcome of the state
popular vote for president. Id. § 208.04 subdiv. 1 (“[A]
vote cast for the party candidates for president and vice
president shall be deemed a vote for that party’s
electors.”). They are not presented to and chosen by the
voting public for their office, but instead automatically
assume that office based on the public’s selection of
entirely different individuals.
78 F.3d at 1063 (Kelly, J., dissenting).8
Plaintiffs contend that the Michigan Election Code and relevant Minnesota
law are similar. (See ECF No. 49 at Pg ID 3076-78.) Even if the Court were to

8

In addition, at least one Circuit Court, the Third Circuit Court of Appeals, has
distinguished Carson’s holding, noting:
Our conclusion departs from the recent decision of an
Eighth Circuit panel which, over a dissent, concluded
that candidates for the position of presidential elector had
standing under Bond to challenge a Minnesota state-court
consent decree that effectively extended the receipt
deadline for mailed ballots. . . . The Carson court appears
to have cited language from Bond without considering
the context—specifically, the Tenth Amendment and the
reserved police powers—in which the U.S. Supreme
Court employed that language. There is no precedent for
expanding Bond beyond this context, and the Carson
court cited none.

Bognet, 2020 WL 6686120, at *8 n.6.
29

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3324 Filed 12/07/20 Page 30 of 36
001176

agree, it finds that Plaintiffs lack standing to sue under the Elections and Electors
Clauses.
F.

The Merits of the Request for Injunctive Relief
1.

Likelihood of Success on the Merits

The Court may deny Plaintiffs’ motion for injunctive relief for the reasons
discussed above. Nevertheless, the Court will proceed to analyze the merits of
their claims.
a.

Violation of the Elections & Electors Clauses

Plaintiffs allege that Defendants violated the Elections Clause and Electors
Clause by deviating from the requirements of the Michigan Election Code. (See,
e.g., ECF No. 6 at Pg ID 884-85, ¶¶ 36-40, 177-81, 937-38.) Even assuming
Defendants did not follow the Michigan Election Code, Plaintiffs do not explain
how or why such violations of state election procedures automatically amount to
violations of the clauses. In other words, it appears that Plaintiffs’ claims are in
fact state law claims disguised as federal claims.
A review of Supreme Court cases interpreting these clauses supports this
conclusion. In Cook v. Gralike, the Supreme Court struck down a Missouri law
that required election officials to print warnings on the ballot next to the name of
any congressional candidate who refused to support term limits after concluding
that such a statute constituted a “‘regulation’ of congressional elections,” as used in
30

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3325 Filed 12/07/20 Page 31 of 36
001177

the Elections Clause. 531 U.S. 510, 525-26 (2001) (quoting U.S. Const. art. I, § 4,
cl. 1). In Arizona State Legislature v. Arizona Independent Redistricting
Commission, the Supreme Court upheld an Arizona law that transferred
redistricting power from the state legislature to an independent commission after
concluding that “the Legislature,” as used in the Elections Clause, includes any
official body with authority to make laws for the state. 576 U.S. 787, 824 (2015).
In each of these cases, federal courts measured enacted state election laws against
the federal mandates established in the clauses—they did not measure violations of
enacted state elections law against those federal mandates.
By asking the Court to find that they have made out claims under the clauses
due to alleged violations of the Michigan Election Code, Plaintiffs ask the Court to
find that any alleged deviation from state election law amounts to a modification of
state election law and opens the door to federal review. Plaintiffs cite to no case—
and this Court found none—supporting such an expansive approach.
b.

Violation of the Equal Protection Clause

Most election laws will “impose some burden upon individual voters.”
Burdick v. Takushi, 504 U.S. 428, 433 (1992). But “[o]ur Constitution leaves no
room for classification of people in a way that unnecessarily abridges this right [to
vote].” Reynolds v. Sims, 377 U.S. 533, 559 (1964) (quoting Wesberry v. Sanders,
376 U.S. 1, 17-18 (1964)). Voting rights can be impermissibly burdened “by a
31

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3326 Filed 12/07/20 Page 32 of 36
001178

debasement or dilution of the weight of a citizen’s vote just as effectively as by
wholly prohibiting the free exercise of the franchise.” Id. (quoting Reynolds, 377
U.S. at 555).
Plaintiffs attempt to establish an Equal Protection claim based on the theory
that Defendants engaged in “several schemes” to, among other things, “destroy,”
“discard,” and “switch” votes for President Trump, thereby “devalu[ing]
Republican votes” and “diluting” the influence of their individual votes. (ECF No.
49 at Pg ID 3079.)
But, to be perfectly clear, Plaintiffs’ equal protection claim is not supported
by any allegation that Defendants’ alleged schemes caused votes for President
Trump to be changed to votes for Vice President Biden. For example, the closest
Plaintiffs get to alleging that physical ballots were altered in such a way is the
following statement in an election challenger’s sworn affidavit: “I believe some of
these workers were changing votes that had been cast for Donald Trump and other
Republican candidates.”9 (ECF No. 6 at Pg ID 902 ¶ 91 (citing Aff. Articia

9

Plaintiffs allege in several portions of the Amended Complaint that election
officials improperly tallied, counted, or marked ballots. But some of these
allegations equivocate with words such as “believe” and “may” and none of these
allegations identify which presidential candidate the ballots were allegedly altered
to favor. (See, e.g., ECF No. 6 at Pg ID 902, ¶ 91 (citing Aff. Articia Bomer, ECF
No. 6-3 at Pg ID 1008-10 (“I believe some of these ballots may not have been
properly counted.” (emphasis added))); Pg ID 902-03, ¶ 92 (citing Tyson Aff. ¶ 17)
(“At least one challenger observed poll workers adding marks to a ballot where
there was no mark for any candidate.”).
32

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3327 Filed 12/07/20 Page 33 of 36
001179

Bomer, ECF No. 6-3 at Pg ID 1008-1010).) But of course, “[a] belief is not
evidence” and falls far short of what is required to obtain any relief, much less the
extraordinary relief Plaintiffs request. United States v. O’Connor, No. 96-2992,
1997 WL 413594, at *1 (7th Cir. 1997); see Brown v. City of Franklin, 430 F.
App’x 382, 387 (6th Cir. 2011) (“Brown just submits his belief that Fox’s
‘protection’ statement actually meant “protection from retaliation. . . . An
unsubstantiated belief is not evidence of pretext.”); Booker v. City of St. Louis, 309
F.3d 464, 467 (8th Cir. 2002) (“Booker’s “belief” that he was singled out for
testing is not evidence that he was.”).10 The closest Plaintiffs get to alleging that
election machines and software changed votes for President Trump to Vice

10

As stated by the Circuit Court for the District of Columbia Circuit:
The statement is that the complainant believes and
expects to prove some things. Now his belief and
expectation may be in good faith; but it has been
repeatedly held that suspicion is not proof; and it is
equally true that belief and expectation to prove cannot
be accepted as a substitute for fact. The complainant
carefully refrains from stating that he has any
information upon which to found his belief or to justify
his expectation; and evidently he has no such
information. But belief, without an allegation of fact
either upon personal knowledge or upon information
reasonably sufficient upon which to base the belief,
cannot justify the extraordinary remedy of injunction.

Magruder v. Schley, 18 App. D.C. 288, 292, 1901 WL 19131, at *2 (D.C. Cir.
1901).
33

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3328 Filed 12/07/20 Page 34 of 36
001180

President Biden in Wayne County is an amalgamation of theories, conjecture, and
speculation that such alterations were possible. (See e.g., ECF No. 6 at ¶¶ 7-11,
17, 125, 129, 138-43, 147-48, 155-58, 160-63, 167, 171.) And Plaintiffs do not at
all explain how the question of whether the treatment of election challengers
complied with state law bears on the validity of votes, or otherwise establishes an
equal protection claim.
With nothing but speculation and conjecture that votes for President Trump
were destroyed, discarded or switched to votes for Vice President Biden, Plaintiffs’
equal protection claim fails.11 See Wood, 2020 WL 7094866 (quoting Bognet,
2020 WL 6686120, at *12) (“‘[N]o single voter is specifically disadvantaged’ if a
vote is counted improperly, even if the error might have a ‘mathematical impact on
the final tally and thus on the proportional effect of every vote.’”).

11

“[T]he Voter Plaintiffs cannot analogize their Equal Protection claim to
gerrymandering cases in which votes were weighted differently. Instead, Plaintiffs
advance an Equal Protection Clause argument based solely on state officials’
alleged violation of state law that does not cause unequal treatment. And if
dilution of lawfully cast ballots by the ‘unlawful’ counting of invalidly cast ballots
were a true equal-protection problem, then it would transform every violation of
state election law (and, actually, every violation of every law) into a potential
federal equal-protection claim requiring scrutiny of the government’s ‘interest’ in
failing to do more to stop the illegal activity. That is not how the Equal Protection
Clause works.” Bognet, 2020 WL 6686120, at *11.
34

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3329 Filed 12/07/20 Page 35 of 36
001181

2.

Irreparable Harm & Harm to Others

Because “a finding that there is simply no likelihood of success on the merits
is usually fatal[,]” Gonzales v. Nat’l Bd. of Med. Examiners, 225 F.3d 620, 625
(6th Cir. 2000) (citing Mich. State AFL-CIO v. Miller, 103 F.3d 1240, 1249 (6th
Cir. 1997), the Court will not discuss the remaining preliminary injunction factors
extensively.
As discussed, Plaintiffs fail to show that a favorable decision from the Court
would redress their alleged injury. Moreover, granting Plaintiffs’ injunctive relief
would greatly harm the public interest. As Defendants aptly describe, Plaintiffs’
requested injunction would “upend the statutory process for election certification
and the selection of Presidential Electors. Moreover, it w[ould] disenfranchise
millions of Michigan voters in favor [of] the preferences of a handful of people
who [are] disappointed with the official results.” (ECF No. 31 at Pg ID 2227.)
In short, none of the remaining factors weigh in favor of granting Plaintiffs’
request for an injunction.
IV.

Conclusion
For these reasons, the Court finds that Plaintiffs are far from likely to

succeed in this matter. In fact, this lawsuit seems to be less about achieving the
relief Plaintiffs seek—as much of that relief is beyond the power of this Court—
and more about the impact of their allegations on People’s faith in the democratic
35

Case 2:20-cv-13134-LVP-RSW ECF No. 62, PageID.3330 Filed 12/07/20 Page 36 of 36
001182

process and their trust in our government. Plaintiffs ask this Court to ignore the
orderly statutory scheme established to challenge elections and to ignore the will of
millions of voters. This, the Court cannot, and will not, do.
The People have spoken.
The Court, therefore, DENIES Plaintiffs’ “Emergency Motion for
Declaratory, Emergency, and Permanent Injunctive Relief” (ECF No. 7.)
IT IS SO ORDERED.
s/ Linda V. Parker
LINDA V. PARKER
U.S. DISTRICT JUDGE

Dated: December 7, 2020

36

001183

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN

TIMOTHY KING,MARIAN ELLEN SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs.
Case No. 20-cv-13134
Hon. LINDA V. PARKER
v.
GRETCHEN WHITMER, in her official capacity as Governor of the State of Michigan,
JOCELYN BENSON, in her official capacity as Michigan Secretary of State and the
Michigan BOARD OFSTATE CANVASSERS.
Defendants.
________________________________________________/
STEFANIE LYNN JUNTTILA
Attorney for Plaintiffs
500 Griswold St., Ste. 2340
Detroit, MI 48301
(248) 270-6689
Email: attorneystefanielambert@gmail.com
/
NOTICE OF APPEAL
NOW COMES the Plaintiffs TIMOTHY KING,MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD, CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE RUBINGH by and through their attorney,
STEFANIE LYNN JUNTTILA, and hereby give NOTICE OF APPEAL of this
Court’s 12/07/2020 R. 62 OPINION and ORDER Denying Plaintiffs' Emergency
Motion for Declaratory, Emergency, and Permanent Injunctive Relief.
Respectfully submitted,

Date: December 8, 2020

/s/ Stefanie Lynn Junttila
STEFANIE LYNN JUNTTILA
Attorney for Plaintiffs
500 Griswold St., Ste. 2340
Detroit, MI 48301
(248) 270-6689
Email: attorneystefanielambert@gmail.com

